<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]


 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2012 

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
     Prepared Statement of the Association of Art Museum Directors
    The Association of Art Museum Directors (AAMD), founded in 1916, is 
composed of the directors of 200 leading art museums, including more 
than 180 in the United States.
    On behalf of its members, AAMD respectfully requests funding of 
$167.5 million for the National Endowment for the Arts (NEA) and an 
equal amount for the National Endowment for the Humanities (NEH) for 
fiscal year 2012. These two agencies help art museums contribute to 
society in important ways.
    By way of context, AAMD members employ 20,000 full-time equivalent 
staff and have a significant economic impact. They have approximately 
60 million visits on site each year. They charge visitors on average 
$1.50, but spend approximately $85.50 for each visitor. Nearly all 
offer at least limited free admission, for example each Thursday 
afternoon and evening, or the first Saturday of every month.
    According to data collected by the AAMD with support from the NEA, 
our members assist approximately 40,000 American schools in any given 
year, out of a total of perhaps 120,000, including public, private, 
charter, magnet, and home schools, which have become significant 
consumers of museum services. Programs range from docent-led tours to 
full-year school-wide collaborations involving everything from 
curriculum design to team teaching, including professional development 
for teachers, with lesson plans that connect the unique works in museum 
collections to State and local education standards. Art museums are by 
nature multi-disciplinary and thus offer the ideal setting for teaching 
and learning across a wide range of academic subjects.
    Each of our members works with multiple school districts, often 
across county and State lines. For example, three art museums in 
Minneapolis--the Minneapolis Institute of Arts, the Walker Art Center, 
and the Weisman Art Museum--serve more than 700 schools in all eight 
Minnesota congressional districts and 66 countries, as depicted on the 
map. Each of the three museums has received support from the NEA.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    Art Museum Service in Minnesota

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Art Museum Service in the Twin Cities

    The AAMD was proud to solicit its members' participation in the 
Blue Star Museums program, conceived by Blue Star Families and the NEA, 
which offers free admission to families of active duty members of the 
military from Memorial Day to Labor Day. Well more than half of our 
membership participated in 2010, the program's first year, and we 
anticipate even broader participation in 2011. Altogether, 
approximately 250,000 family members visited museums. This program, as 
well as being a way of saying ``thank you'' to the Nation's military 
members and families, also offers them a uniquely valuable service. As 
the NEA has made clear for the past several years, art-making and arts 
participation are powerful expressive vehicles for those who endure war 
and absence. We believe the Nation owes the NEA a debt of gratitude for 
encouraging these services.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


BLUE STAR MUSEUMS (including art museums as well as all other types of 
                                museums)

    A grant to the AAMD from the NEA has allowed us to look deeper into 
the kind of programming that occurs at art museums beyond the 
presentation of art exhibitions and beyond working with schools. Very 
often, this programming occurs in partnership with other institutions.
    While schools make up about two-thirds of the institutions served 
by art museums, the other one-third is extraordinarily diverse. We have 
learned that museums run programs for people with Alzheimers and their 
caregivers. They run studio art programs for medical and nursing 
schools that want their students to learn the skills of close 
observation; research shows that students who receive this instruction 
are more successful in their diagnoses. There are programs for autistic 
children, for children in the juvenile justice system, and for the 
incarcerated. There are programs for churches, universities, pre-
schools, and libraries. In short, museums have found ways for art, 
which they hold in trust for the public, to serve the public in 
multiple ways.
    All too often, however, members of the public are not aware of the 
richness of museum programming, in part perhaps because museum 
communications efforts often, and understandably, focus on art 
exhibitions. AAMD is now working directly with museum communications 
offices to develop and place stories in local media so that people 
become more aware of what is available to them and to the community in 
general.
    A story in the local newspaper in Ithaca, New York focused on 
Cornell University Johnson Museum of Art program that is reducing the 
rate of recidivism for people in a court-mandated addiction recovery 
program. The Carnegie Museum of Art in Pittsburgh generated greater 
awareness of its reduced-fee program, which allows admission for $1 to 
people who are eligible for public assistance benefits such as food 
stamps or Medicare. Eleven thousand people used the program last year. 
The Seattle Art Museum got coverage of an exhibition developed at the 
invitation of the Quileute tribe. Depicted in the Twilight series, the 
tribe was inundated by people who had absorbed a Hollywood version of 
the tribe's cultural identity. A curator worked with them for a full 
year to create an exhibit that would inform the public of the true 
Quileute story in their own voice. That particular effort was covered 
in Indian Country Today.
    The NEA and NEH provide modest but important assistance to art 
museums, especially in helping them perform tasks that are critically 
important, but for which it is difficult to raise private funding.
    Perhaps prime among these tasks is the cataloging and digitization 
of collections, which obviously makes them far more accessible both to 
scholars and to the general public. Each of the three Minnesota museums 
mentioned above has received this sort of assistance from the NEH. Just 
in the most recent grant round, the NEH made grants to the Spencer 
Museum of Art at the University of Kansas to photograph and catalog 
5,800 Native American objects; to the Norman Rockwell Museum to 
digitize 264 magnetic tapes containing video interview with Rockwell's 
sons, colleagues, models, and studio assistants; and to the Frick 
Collection to digitize 15,000 deteriorating photographs of works of art 
held in private homes and small public institutions during the early to 
mid-20th century.
    In summation, with only modest funding, the NEA and NEH help art 
museums fulfill their fundamental mission of collecting, preserving, 
researching, presenting, and using art in service to the public.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists
    To the Chair and members of the subcommittee: Thank you for this 
opportunity to provide testimony on behalf of the American Association 
of Petroleum Geologists (AAPG) about the importance of the geological 
programs conducted by the U.S. Geological Survey (USGS).
    The AAPG is the world's largest scientific and professional 
geological association. The purpose of the association is to advance 
the science of geology, foster scientific research, and promote 
technology. The AAPG has nearly 34,000 members around the world, with 
roughly two-thirds living and working in the United States. These are 
the professional geoscientists in industry, government, and academia 
who practice, regulate, and teach the science and process of finding 
and producing energy resources from the Earth.
    The AAPG strives to increase public awareness of the crucial role 
that the geosciences, and particularly petroleum geology, play in our 
society. The USGS is crucial to meeting these societal needs, and 
several of its programs deserve special attention by the subcommittee.
                     geologic resource assessments
Energy Resources Program (ERP)
    The USGS ERP conducts both basic and applied geoscience research 
focused on geologic energy resources (both domestic and international), 
including oil, natural gas, coal, coalbed methane, methane hydrates, 
geothermal, oil shale, and bitumen and heavy oil. The ERP also conducts 
research on the environmental, economic, and human health impacts of 
the production and use of these resources. This research provides both 
the public and private sectors with vital information.
    The President's fiscal year 2012 budget request reduces the ERP's 
energy resources activities by $2 million. The AAPG does not support 
this reduction. The President's request also includes $3 million for 
the ERP to participate in the New Energy Frontier (wind) initiative. If 
the Congress wishes to fund the New Energy Frontiers initiative, it 
should provide supplemental funds to do so.
    The AAPG encourages the subcommittee to fund the ERP activities at 
$27.3 million, and provide an additional $3 million to fund the ERP's 
participation in the New Energy Frontier initiative if the Congress 
chooses to fund this activity.
Mineral Resources Program (MRP)
    The United States is the world's largest consumer of mineral 
commodities. They form the building blocks of our economy.
    It is therefore essential to this Nation's economic and national 
security that the Federal Government understands both the domestic and 
international supply and demand for minerals and mineral materials. 
This data is used throughout Government (Departments of Commerce, the 
Interior, Defense, and State; the Central Intelligence Agency; and the 
Federal Reserve) and the private sector.
    The USGS MRP is the only Federal and publicly available source for 
comprehensive information and analysis of mineral commodities and 
mineral materials. Yet, the President has proposed reducing this 
program's funding by 18 percent to $44.2 million. The AAPG does not 
support this reduction.
    The AAPG encourages the subcommittee to fund the MRP at $53.7 
million, equal to fiscal year 2010 appropriated levels.
                          core science systems
National Geologic and Geophysical Data Preservation Program (NGGDPP)
    The NGGDPP was authorized in Energy Policy Act of 2005 (EPACT 2005, 
Public Law 109-58) section 351. The NGGDPP is designed to preserve 
geological, geophysical data, and engineering data, maps, well logs, 
and samples. It includes development of a national catalog of this 
archival material, and providing technical and financial assistance 
related to the samples and materials.
    The NGGDPP is a cost-shared partnership between the State 
geological surveys and the USGS. It was authorized for $30 million 
annually, but since inception has received insufficient funding to 
accomplish all of the objectives set out in the authorizing language.
    Why is preservation important? Responsible management and efficient 
development of natural resources requires access to the best available 
scientific information. Over many years industry, such as petroleum and 
mining companies, has invested billions of dollars to acquire 
geological and geophysical data. Because of changing company focus and 
economic conditions these data may no longer have value to the company 
that acquired it, and is in jeopardy of being discarded.
    But these data still has value to society and the State geological 
surveys have stepped in to preserve it. These data are valuable for 
further natural resources exploration and development, management of 
water resources, carbon sequestration research, and can be applied to 
basic and applied earth systems research, environmental remediation, 
and natural-hazard mitigation. It is the type of data that will enable 
future generations of scientists and policy makers to address the 
Nation's energy, environmental, and natural hazard challenges in the 
years ahead.
    Historical allocations for this program have ranged from $750,000 
to $1 million per year. These funding levels are inadequate to achieve 
the program's objectives.
    The AAPG encourages the subcommittee to appropriate at least $1 
million in fiscal year 2012 for the preservation of geological and 
geophysical data, and consider higher funding levels.
               geologic landscape and coastal assessments
National Cooperative Geologic Mapping Program (NCGMP)
    The AAPG supports the NCGMP. This unique partnership between the 
Federal and State governments and the university community further 
demonstrates the importance of geoscience to society. The geologic maps 
produced by this program are used for natural resource management, 
natural hazard mitigation, water resource management, environmental 
conservation and remediation, and land-use planning.
    The NCGMP deserves special commendation for its EDMAP initiative. 
This university partnership enables students, working in a close 
mentoring relationship with faculty, to produce maps while learning 
essential mapping skills. As such, the program delivers an immediate 
return on the Federal investment in terms of beneficial maps, as well 
as a future return in the form of a trained and competent next 
generation workforce.
    The AAPG encourages the subcommittee to fund the NCGMP at a minimum 
of fiscal year 2010 levels of $28.2 million.
    Thank you for the opportunity to present this testimony to the 
subcommittee. And thank you for your leadership and support for the 
geosciences. As you deliberate appropriate funding levels for these 
USGS programs, please consider the important public policy implications 
these choices entail.
                                 ______
                                 
     Prepared Statement of the Association of American Universities
    Dear Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee: On behalf of the Association of American Universities 
(AAU), an organization of 61 leading U.S. public and private research 
universities, I appreciate the opportunity to express strong support 
for the National Endowment for the Humanities (NEH). AAU urges the 
Congress to continue funding the NEH at the fiscal year 2010 final 
funding level of $167.5 million. In particular, we remain committed to 
maintaining existing funding levels for the core competitive programs 
within the endowment.
    It is important that the Congress take steps to reduce Federal 
spending and address the Nation's growing debt. We need to do this in a 
smart way, allocating money in a manner that gives us the best chance 
of improving our future. Unfortunately, deficit-reduction efforts have 
thus far focused almost exclusively on nonsecurity, domestic 
discretionary spending--which is approximately one-sixth of the budget, 
yet includes most of the Federal Government's priority spending for 
long-term economic growth and prosperity. Reducing the Federal deficit 
in fiscal year 2011 and beyond cannot, and should not, fall solely on 
nonsecurity, domestic discretionary spending. Serious deficit reduction 
efforts must put the entire Federal budget on the table, including 
entitlements and defense spending, and additional revenues generated 
through tax reform and measures to improve economic growth. Efforts to 
reduce the Federal deficit in fiscal year 2011 should not preclude 
prudent Federal spending, such as the core competitive research NEH 
programs, which will pay dividends into the future.
    We believe that there is a legitimate Federal role in supporting 
the humanities as a strategic national priority. Federal support of the 
humanities complements Federal investments in the sciences and 
engineering. Our Nation's long-term economic success depends on 
cultivating a broadly educated workforce ready to compete in a 
knowledge-based, global economy. The humanities programs funded by the 
Endowment represent the core fields of knowledge and capacities that 
enrich individuals, provide a foundation for success in a wide range of 
careers, undergird our civic institutions, support strategic national 
interests, and help advance sound public policymaking in addressing the 
challenges of the 21st century. The high-quality projects supported by 
the NEH reach millions of Americans each year.
               neh funding and core competitive programs
    For fiscal year 2012, the President's budget would cut the 
Endowment to $146.3 million, a reduction of $21.2 million (12.7 
percent) from fiscal year 2010 levels, with a disproportionate cut of 
16 percent for program funds that support the core competitive national 
grants. These grants represent the pool of funds that support peer-
reviewed, competitive grant opportunities for a wide range of 
educational institutions, nonprofit organizations, and individual 
scholars around the country. They encompass NEH core programs, 
divisions, and special initiatives:
  --research, education, preservation, and access;
  --challenge grants;
  --public programs;
  --the office of digital humanities; and
  --bridging cultures.
    These highly competitive grants are renowned for their quality. NEH 
was able to fund only 16 percent of the competitive proposals it 
received in fiscal year 2010. Funding erosion for core competitive 
funds would continue to have a significant impact on the Endowment's 
ability to support humanities research and education into the future. 
Over time, the combined impact of budget cuts and inflation has reduced 
the number, diversity, and buying power of grants provided by the NEH, 
directly impacting faculty, researchers, students, and the broader 
public. This translates into real consequences not only for continuing 
efforts to understand and highlight our history, culture, and civic 
values, but also for our economic competitiveness and national 
security, as our most pressing and complex problems worldwide will not 
be solved by science alone. In fact, most scientists and engineers 
believe in the essential role of the humanities in higher education, as 
their undergraduate and graduate liberal arts courses amplified their 
effectiveness later as a scientist or engineer.
    It is misleading to assume that colleges and universities or 
private funding sources will be able to compensate for cut in Federal 
funds. The recent financial crisis and subsequent recession continue to 
have a significant impact on public and private colleges and 
universities across the country, including budget cuts, hiring freezes, 
staff layoffs, course reductions, and more. Institutions are struggling 
to maintain continued access to high-quality programs, a struggle that 
is particularly evident in the humanities disciplines.
    In addition, foundation support for the humanities has slipped 
since 2005. Approximately $12.34 billion was raised for arts, culture 
and the humanities in 2009, a drop of 8.7 percent from 2005. Gifts to 
arts, culture, and humanities organizations comprised only 4 percent of 
the total estimated giving in 2009. The humanities community is 
concerned about not only the overall reduction in foundation support, 
but also the declining share of foundation giving in the humanities 
compared to overall giving. In addition, there has been a long-term 
shift away from funding for scholarship and core disciplines and toward 
funding for public programming. These funding trends are of particular 
concern to AAU because of the unmet need and rising debt assumed by 
humanities students.
              continued funding erosion for core programs
    Within the NEH core competitive programs, AAU is particularly 
focused on the research and education division. The Summer Seminars and 
Institutes, which support national faculty development programs in the 
humanities, are located in the education division. These programs 
provide a critical forum for leading scholars and faculty to deepen 
their knowledge of current scholarship in the key fields of the 
humanities. Similarly, Faculty Humanities Workshops support local and 
regional professional development programs that allow faculty and 
scholars to engage in collaborative study. Within the research 
division, several programs, including Summer Stipends and Fellowships, 
support individuals or teams of two or more scholars (not including 
graduate students) pursuing advanced research that will contribute to 
scholarly knowledge or to the public's understanding of the humanities.
    With respect to research, one of the problems that humanities 
researchers and scholars face is that the reinterpretation and other 
scholarly work that often defines the work of humanists and often 
culminates in new discoveries, as in the sciences, does not fit the 
traditional concept of research. AAU is working with the humanities 
community to find ways to better communicate humanities research and 
how it both resembles and differs from scientific research. NEH 
research programs facilitate the transfer of new knowledge among 
faculty, students, and the broader public.
    AAU continues to support efforts to better engage humanities 
graduate students. The NEH does not currently support graduate research 
in the humanities. While the National Institutes of Health, National 
Science Foundation, Department of Defense, Department of Energy, and 
National Aeronautics and Science Administration, among others, have 
graduate education components that complement the agencies' research, 
the NEH stands as one of the few Federal agencies that does not support 
or train the next generation of researchers or support collaboration 
between students and faculty. While the NEH did at one time fund a 
small dissertation fellowship program, it was defunded when the agency 
was cut significantly in the mid-1990s.
    Last year we proposed, in conjunction with the broader humanities 
community, the creation of a new competitively awarded, graduate 
student-faculty program to simultaneously expand scholarship in key 
areas of inquiry, support the critical education of graduate students 
in the conduct of research, and bring faculty and graduate students 
together in the kind of collaborative arrangements that have long 
characterized the sciences. The new program was designed to build on 
the Endowment's 2009 decision to allow graduate students to participate 
in the NEH summer seminars. We plan to revisit the proposal more 
formally in future years. We believe that NEH is uniquely positioned to 
promote a higher level of collaboration between faculty and graduate 
students in a manner that helps to supply our Nation with the talented 
and knowledgeable individuals who will contribute to a culturally 
competent workforce.
                  aau universities and the humanities
    As a follow-up to the 2004 report, AAU encouraged its members to 
convene roundtable discussions on emerging trends and best practices in 
the humanities. While many institutions had been actively engaged in 
these discussions for some time, the AAU report provided a focal point 
for the deliberations among campus constituencies. These campus efforts 
culminated in a national convocation with the American Council of 
Learned Societies in 2006, which brought together university, 
association, Federal agency, and congressional leaders to discuss the 
appropriate role for the humanities in meeting today's challenges.
    These discussions continue today both on campuses and at the 
national level. Several AAU university presidents, for example, will 
serve as members of the Commission on the Humanities and Social 
Sciences, which was established recently by the American Academy of the 
Arts and Sciences, per the bi-partisan request from Senators Lamar 
Alexander (R-TN) and Mark Warner (D-VA) and Representatives Tom Petri 
(R-WI) and David Price (D-NC). AAU and its members look forward to 
working with the Academy on this effort to identify the top actions 
that the Congress, State governments, universities, foundations, 
educators, and others can take to maintain national excellence in the 
humanities and social sciences, and to achieve long-term national goals 
for our intellectual and economic well-being.
 bridging cultures: a link between the humanities and national security
    It is important that the Nation recognize the link between the 
humanities and national security issues, as we strive to improve our 
armed services' understanding of the social, cultural, behavioral, and 
political forces that shape the views of regions of the world of 
strategic importance to the United States. Indeed, analysts in the 
major national intelligence and security agencies are to a great extent 
humanists and social scientists. As NEH Chairman Jim Leach stated in 
his address to the College Art Association Centennial Convocation in 
February 2011, ``In public policy, inadequate attention to cultural 
issues can cost lives as well as money. There are, of course, costs to 
all public programs, but the cost of not supporting some could be far 
higher. Just as we need an infrastructure or roads and bridges, we need 
an infrastructure of ideas. In a splintered society, bridging cultures 
may be our most difficult challenge.'' The fiscal year 2012 budget 
would devote $4 million to the Chairman's Bridging Cultures initiative, 
designed to renew and reinforce the bridges between the different 
cultures and viewpoints that are part of the fabric of American life. 
Beginning in the spring of 2011, eight pilot-project grantees will host 
regional public forums at venues across the country, focused on the 
role of civility in our democracy and the history and culture of Muslim 
societies. AAU applauds the attention on the need for a civil discourse 
in American life, with the hope that colleges and universities can play 
a role in facilitating this in the coming years.
                               conclusion
    AAU encourages the subcommittee to take seriously the importance of 
the humanities in our society today. NEH helps colleges and 
universities around the country ensure that the humanities remain 
central to their missions and to the cultural life of the Nation. NEH, 
as the largest Federal supporter of the humanities, broadens public 
awareness of and participation in the humanities through teaching, 
scholarship, and research. Along with the larger humanities advocacy 
community, AAU encourages the Congress to continue funding the NEH at 
the fiscal year 2010 final funding level of $167.5 million to maintain 
our Nation's capacity to address complex challenges by advancing an 
educated and competitive workforce.
                                 ______
                                 
               Letter From the American Bird Conservancy
                                                    April 25, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: American Bird Conservancy 
(ABC) is a 501(c)(3) national nonprofit organization dedicated to the 
conservation of wild native birds and their habitats throughout the 
Americas. Founded in 1994, ABC is the only U.S.-based group dedicated 
solely to overcoming the greatest threats facing native birds in the 
Western Hemisphere.
    As you know, America is blessed with a spectacular abundance and 
rich diversity of birds, with more than 800 species inhabiting the 
mainland, Hawaii, and surrounding oceans. Unfortunately, according to 
the U.S. Fish and Wildlife Service's (FWS) 2009 ``State of the Birds'' 
report, many of our bird species are in decline and some are threatened 
with extinction making it more important now than ever to continue 
funding Federal programs like the Neotropical Migratory Bird 
Conservation Act (NMBCA) grants program, Joint Ventures (JVs), and the 
North American Wetlands Conservation Act (NAWCA) which have been proven 
and effective in maintaining healthy and abundant native bird 
populations.
    Funding Federal bird conservation programs not only provides 
ecological benefits, it makes good economic sense. Birds are also a 
very important economic driver. According to a report put together by 
the Federal Government, Americans spend about $36 billion in pursuit of 
birding activities every year. Approximately 1 in 5 Americans--48 
million people--engages in bird watching, and about 42 percent travel 
away from home to go birding. Birding activities also generate about 
$4.4 billion in Federal tax revenues. Birds also naturally provide 
billions of dollars worth of pest control each year benefiting farmers 
and consumers alike.
    American Bird Conservancy's report, ``Saving Migratory Birds for 
Future Generations: The Success of the Neotropical Migratory Bird 
Conservation Act'', found that of our 341 species that are neotropical 
migrants--meaning birds that breed in the United States and Canada and 
winter in Latin America and the Caribbean--127 are in decline. Sixty of 
those species, including 29 songbirds, are in severe decline having 
lost 45 percent or more of their population in the past 40 years. If 
these trends continue, future generations of Americans may never be 
able to see a bright blue Cerulean Warbler, Bell's Vireo, or Black-
chinned Sparrow.
    This trend can be seen all throughout the country. Here in 
Washington, DC for example an annual census of birds in Rock Creek Park 
that started in the 1940s, found that the number of migratory songbirds 
breeding there has dropped by 70 percent over the past half-century. 
Three species of warbler (Black-and-white, Hooded, and Kentucky) no 
longer breed there at all.
    The main reasons for these precipitous declines are well 
established and reported in the 2009 State of the Birds Report: The 
largest source of bird mortality is due to habitat loss through 
conversion for human uses. Resource extraction and a growing human 
population have resulted in more development and land conversion for 
suburban sprawl so there are simply fewer and fewer large blocks of 
unbroken habitat for our native birds.
    The second major impact is from habitat degradation from 
ecologically harmful land uses, such as unsustainable forestry or 
destruction of grasslands to create farm land. Deforestation, 
especially in Latin America, is accelerating at an alarming rate, 
driven by the needs of the rapidly expanding human population, which 
has tripled from 1950-2000. Estimates of the percentage of remaining 
forests that are lost each year in the neotropics are between 1-2 
percent.
                                 nmbca
    To address these two problems--habitat loss and degradation, both 
of which are rapidly increasing south of our border--ABC respectfully 
suggests that the Congress act to help mitigate their impact by 
continuing to fund the NMBCA grants program at the highest level 
possible. As the subcommittee knows, NMBCA supports partnership 
programs in the United States, Canada, Latin America, and the Caribbean 
to conserve migratory birds, especially on their wintering grounds 
where birds of nearly 350 species, including some of the most 
endangered birds in North America, spend their winters. Projects 
include activities that benefit bird populations such as habitat 
restoration, research and monitoring, law enforcement, and outreach and 
education.
    The NMBCA grants program has a proven track record of reversing 
habitat loss and advancing conservation strategies for the broad range 
of neotropical birds that populate America and the Western Hemisphere. 
The public-private partnerships along with the international 
collaboration they provide are proving themselves to be integral to 
preserving vulnerable bird populations.
    Between 2002 and 2010, the program supported 333 projects, 
coordinated by partners in 48 U.S. States/territories and 36 countries. 
More than $35 million from NMBCA grants has leveraged more than $150 
million in matching funds and $7 million in nonmatching funds. Projects 
involving land conservation have affected about 2 million acres of bird 
habitat. While there are more than 100 worthy proposal received each 
year, the program is oversubscribed with funding only available to fund 
about 40 projects. From these numbers, it is clear that conservation 
that would benefit our migrant songbirds is not able to take place due 
to a lack of funding for this program. ABC strongly believes expanding 
this program is essential to achieving conservation goals critical to 
our environment and economy. Just as importantly, this Federal program 
is a good value for taxpayers, leveraging more than $4 in partner 
contributions for every $1 that we spend. ABC respectfully requests 
that NMBCA be funded at $6.5 million for fiscal year 2012.
                                  jvs
    JVs also exemplify a highly successful, cost-effective approach to 
conservation. By applying science and bringing diverse constituents 
together, JVs across the United States have created a model for solving 
wildlife management problems and restoring habitats critical to 
conserving declining species. Nationally, JVs have protected, restored, 
or enhanced more than 13 million acres of important habitat for 
migratory bird species. There are currently 21 JVs in the United States 
that provide coordination for conservation planning and implementation 
of projects that benefit all migratory bird populations and other 
species.
    JVs have a long history of success in implementing bird 
conservation initiatives mandated by the Congress and by international 
treaties. Projects are developed at the local level and implemented 
through diverse public/private partnerships. These projects reflect 
local values and needs, while addressing regional and national 
conservation priorities. The projects benefit not only birds, but many 
wildlife species, and have a positive impact on the health of 
watersheds and local economies. In fiscal year 2010, every $1 
appropriated for JVs leveraged more than $30 in non-Federal partner 
funds. ABC respectfully requests that JVs be funded at $15 million for 
fiscal year 2012.
    ABC strongly believes increased funding for NMBCA and JVs is 
essential to achieving conservation goals critical to our environment 
and economy. Just as importantly, these Federal programs are good 
values for taxpayers, leveraging more than $4 and $30, respectively, in 
partner contributions for each one that the taxpayers spend.
                                 nawca
    NAWCA has helped conserve wetlands in North America for more than 
20 years by providing funding for conservation projects that benefit 
wetland-associated migratory birds in all 50 States, Canada, and 
Mexico. NAWCA which has a proven track record of success leveraging 
more than $3.4 billion in matching funds affecting 26 million acres 
through the work of more than 4,440 partners and has fostered public 
and private sector cooperation for migratory bird conservation, flood 
control, erosion control, and water quality. For every $1 of money 
invested in the program, an average of $3.20 is raised to match the 
Federal share by non-Federal entities.
    As an organization that works with migratory birds, which by 
definition cross international borders during their migration patterns, 
we know that protection and restoration of wetland and upland habitat 
must occur across the continent if the goal is to protect the species. 
As a result ABC respectfully requests that NAWCA be funded at $50 
million for fiscal year 2012.
    America faces a serious challenge to reverse the decline of many of 
our bird species, but it is possible. Since birds are sensitive 
indicators of how we are protecting our environment as a whole, this 
decline signals a crisis that the Congress must act now to reverse it. 
If these reports tell us anything, it is that when we apply ourselves 
by investing in conservation, we can save imperiled wildlife, protect 
habitats, and solve the multiple threats at the root of this problem.
            Sincerely,
                                           Darin Schroeder,
                          Vice President for Conservation Advocacy.
                                 ______
                                 
 Letter From the American Bird Conservancy; National Audubon Society; 
          PRBO Conservation Society; and The Wildlife Society
                                                    April 29, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: As you may know, birds 
are an important economic driver. A report by The Outdoor Industry 
Foundation found all outdoor wildlife-related recreation activities 
generate $730 billion annually for the United States' economy. The 
report estimated that bird watching alone contributes $43 billion 
annually. Birds also naturally provide billions of dollars worth of 
pest control each year benefiting farms and consumers alike.
    The Bird Conservation Funding Coalition (BCFC) consists of national 
organizations that, together, advocate for Federal funding to advance 
bird conservation. This year we urge you once again to provide the 
highest level of funding possible to programs we believe are crucial 
for maintaining healthy and abundant bird populations throughout the 
United States. These programs are:
Neotropical Migratory Bird Conservation Act Grants Program (NMBCA)
    The NMBCA supports partnership programs to conserve birds in the 
United State, Latin America and the Caribbean, where approximately 5 
billion birds representing 341 species spend their winters, including 
some of the most endangered birds in North America. Projects include 
activities to benefit bird populations and their habitats such as 
research and monitoring, law enforcement, and outreach and education. 
The BCFC respectfully requests the subcommittee prioritize fiscal year 
2012 funding for the NMBCA at $6.5 million.
Joint Ventures (JVs)
    JVs are regionally based partnerships of public and private 
organizations dedicated to the delivery of bird conservation within 
their boundaries. Originally formed to support programs involving 
waterfowl and wetlands, the migratory bird JVs have recently adopted a 
5-year growth strategy to embody an ``all-bird approach'', to provide 
additional capacity for partnership development and enhancement, and to 
expand monitoring and assessment efforts. The BCFC respectfully 
requests the subcommittee allocate $15 million for fiscal year 2012.
Science and Monitoring
    Science and monitoring done within the U.S. Fish and Wildlife 
Service (FWS) Office of Migratory Bird Management provides invaluable 
information on the status and trends of bird species necessary for 
sound management decisions. This scientific information helps to ensure 
that funds are allocated wisely within all other BCFC priorities. The 
slight increase in funds requested by the BCFC will help to close a 
multimillion dollar shortfall which currently exists within the Office 
of Migratory Bird Management. Therefore, the BCFC respectfully requests 
the subcommittee provide $30.7 million for this important program.
North American Wetlands Conservation Act (NAWCA)
    The NAWCA provides funding for conservation projects for the 
benefit of wetland-associated migratory birds in the United States, 
Canada, and Mexico. Unfortunately, more than half of the original 
wetlands in the United States. have been lost, contributing to the 
steady decline of migratory birds. The NAWCA, in existence since 1989, 
has preserved more than 24.8 million acres of wetlands by leveraging 
$945.2 million in Federal funds with more than $1.94 billion in partner 
contributions. The BCFC respectfully requests the subcommittee 
prioritize fiscal year 2012 funding for NAWCA at $50 million.
State Wildlife Grants
    State Wildlife Grants fund is the Nation's core program for 
preventing wildlife from becoming endangered, and supports a wide 
variety of wildlife-related projects by State fish and wildlife 
agencies throughout the United States. In order to receive Federal 
funds through the State Wildlife Grants Program, the Congress charged 
each State and territory with developing an ``action plan''. Every 
State and territory submitted their wildlife action plan to the FWS for 
review (and approval) by the October 1, 2005 deadline. The State 
Wildlife Action Plans are the result of a collaborative effort by 
scientists, sportsmen, conservationists, and other members of the 
community. The BCFC respectfully requests the subcommittee allocates 
$95 million for fiscal year 2012.
International Affairs within the FWS
    International conservation programs, such as Wildlife Without 
Borders (WWB), supports the preservation of endangered and migratory 
species and habitat by providing capacity building, environmental 
outreach, education and training. WWB is a mainstay of bird 
conservation in Mexico, Central America, and the Caribbean typically 
leveraging $4 for every appropriated $1. WWB also serves as a 
foundation for long-term conservation efforts because they focus on 
developing in-country capacity. There are currently four WWB programs, 
each covering an extensive area: Latin America and the Caribbean; 
Mexico; Russia and East Asia; the Near East, South Asia, and Africa. 
The BCFC respectfully requests the subcommittee prioritize fiscal year 
2012 funding at $12.9 million.
International Programs Within the USDA Forest Service (USFS)
    International programs within the USFS has a distinct niche that is 
not met by any other federally funded program emphasizing conservation 
of migratory bird species throughout their range. It supports an array 
of extremely effective bird conservation projects with a relatively 
small budget. Specific emphasis is placed on forest, grassland, and 
shorebirds which include high-priority species like the Cerulean 
Warbler, Bicknell's Thrush, Western Sandpiper, and Rufous Hummingbird, 
whose greatest threats are found outside the United States.
    The BCFC respectfully requests the subcommittee provide $9 million 
for fiscal year 2012.
United States Geological Survey American Breeding Bird Survey (BBS)
    The BBS has been providing data crucial for migratory bird 
conservation planning since 1966. Today, the BBS provides the 
foundation for nongame, land bird conservation in North America with 
more than 3,200 skilled volunteer participants sampling 3,000 routes 
annually across the continental United States and Southern Canada. The 
BCFC respectfully requests the subcommittee provide this important 
program with the highest possible level of funding.
    Again, we thank you for your steadfast support of these critically 
important programs.
            Sincerely,
                                   Darin Schroeder,
                   Vice President of Conservation Advocacy,
                                         American Bird Conservancy.
                                      Mike Daulton,
                   Vice President for Government Relations,
                                          National Audubon Society.
                                    Ellie M. Cohen,
                                         President and CEO,
                                         PRBO Conservation Science.
                           Michael Hutchins, Ph.D.,
                                Executive Director and CEO,
                                              The Wildlife Society.
                                 ______
                                 
Prepared Statement of the Alliance for Community Trees; American Forest 
Foundation; California Forest Pest Council; City of Chicago Department 
of Streets and Sanitation, Bureau of Forestry; Greenspace--The Cambria 
 Land Trust; Massachusetts Association of Campground Owners; Missouri 
 Forest Products Association; National Association of State Foresters; 
National Plant Board; North American Maple Syrup Council, Inc.; Purdue 
 University, Department of Entomology; Society of Municipal Arborists; 
  The Davey Institute; The Nature Conservancy; and Virginia Forestry 
                              Association
    Dear Chairman Reed and Senator Murkowski: We urge the Subcommittee 
on the Interior, Environment, and Related Agencies to appropriate 
adequate funding for the U.S. Department of Agriculture (USDA) Forest 
Service (USFS) to manage non-native insects and plant diseases that 
threaten America's forests. We recommend a fiscal year 2012 
appropriation of $138 million for the USFS Forest Health Management 
Program. This level is the same as the current level of funding. In 
addition, we ask that you provide the President's request of 
$295,773,000 for the USFS Research Program.
    We recognize the importance of reducing Government spending and 
taking other steps to reduce the deficit. However, forests and urban 
trees are a treasured and integral part of American life. Forested 
landscapes cover 1.15 million square miles in the United States. Every 
American derives some type of value from forested land, whether in the 
form of wood products for construction or paper, neighborhood 
amenities, wildlife habitat, carbon sequestration, or spiritual 
inspiration--or the jobs associated with these values. The U.S. lumber 
and paper industries employ 1.3 million people. In Vermont alone, the 
maple sugar industry provides 4,000 seasonal jobs. Tourism based on 
fall foliage displays attracts 1 million tourists who annually generate 
$1 billion in revenue in New England.
    American forest ecosystems are under siege by a growing number of 
exotic forest pests. Close to 500 species of invertebrates and 
pathogens from other countries have become established in the country, 
and a new damaging pest is introduced, on average, every 2 to 3 years.
    The USFS Forest Health Program is the lead agency assisting other 
Federal agencies, State agencies, and private landowners in their 
struggle to respond to this growing threat. The USFS expertise is 
essential to the success of pest eradication and containment programs 
implemented by the USDA Animal and Plant Health Inspection Service 
(APHIS)--including those targeting the Asian longhorned beetle, emerald 
ash borer, and sudden oak death. The USFS contribution becomes 
increasingly important when forest pests have become more widespread. 
Thus, USFS forest health protection provides the greatest proportion of 
the Federal Government's efforts to mitigate the impacts of gypsy moth, 
hemlock woolly adelgid, white pine blister rust, Port-Orford-cedar root 
disease, ohia rust, oak wilt, and Erythrina gall wasp--among others.
    The President's requested funding level of $120 million would 
necessitate cuts of 40 to 60 percent in programs addressing highly 
damaging introduced pests that are already eliminating certain tree 
species from the forest, or threaten to do so.
  --Emerald ash borer occupies more than 100,000 square miles in 15 
        States. More than 200 million ash trees in the Plains States 
        and additional trees in the South are at risk to this pest. 
        Homeowners and municipalities collectively will pay $10 billion 
        or more to remove dead ash trees that would otherwise fall and 
        cause property damage or even loss of life. USFS forest health 
        protection has helped States and municipalities prepare by 
        conducting inventories of their ash resources and planning 
        coordinated management steps.
  --Hemlock woolly adelgid has killed up to 90 percent of hemlock trees 
        in the Appalachians from Georgia to Massachusetts. Loss of 
        hemlock groves threatens unique ecosystems and watersheds. USFS 
        forest health protection has helped try to reduce the overall 
        damage by supporting development and testing of biological and 
        chemical control methods and supporting control efforts on 
        remote infestations resulting from artificial movement.
  --Thousand cankers disease of walnut threatens to eliminate black 
        walnut trees from the forest. Black walnut's greatest economic 
        value comes from the wood. Top-grade walnut is used for 
        millwork and veneer; it is also exported. Medium-grade walnut 
        is used in furniture, cabinetry, flooring, and other 
        manufactured item. Lower-grade walnut is used as sleepers 
        (railroad ties), mine timbers, pallet parts, and flooring. USDA 
        APHIS estimates the timber value of black walnut throughout its 
        range at $500 billion. In addition, although most walnuts sold 
        in the United States for human consumption are from orchards of 
        English or Persian walnuts, a thriving niche market for native 
        black walnuts--centered on Missouri--harvests 25-30 million 
        pounds every year. USFS health protection has helped try to 
        reduce the overall damage by analyzing the risk to forests in 
        the East and supporting States' efforts to determine whether 
        they already harbor outbreaks of this recently discovered pest.
  --Goldspotted oak borer has killed between 20,000 and 50,000 
        California live oak and black oak trees in San Diego County in 
        less than 15 years. The insect threatens oaks throughout 
        California, including close to 300,000 oak trees growing in 
        greater Los Angeles and trees in Yosemite Valley. USFS forest 
        health protection has helped try to limit the spread of this 
        insect by supporting delimitation of the outbreak, analysis of 
        the risk to trees in California, and efforts to develop better 
        detection tools.
    The USFS Research and Development Program provides the science to 
help manage forest invasive species. While we accept the proposed 4 
percent reduction in research overall, we consider it vitally important 
to maintain--at approximately current levels--research aimed at 
improving detection and control methods for the emerald ash borer, 
hemlock woolly adelgid, sudden oak death, thousand cankers disease, and 
other non-native forest pests and diseases. In addition, we strongly 
believe that additional funds should be allocated toward research on 
the goldspotted oak borer; $156,000 provided in the President's request 
represents a 37 percent cut in funding from the Research account for 
the current year.
    Emerald Ash Borer (EAB).--The USFS research continues on such 
crucial fronts as developing control methods (biological, chemical, and 
microbial); detection technologies (improved traps and lures); testing 
host resistance; silvicultural treatments; and integrated management of 
EAB via the Slowing Ash Mortality pilot project.
    Hemlock Woolly Adelgid (HWA).--The USFS research continues on such 
crucial fronts as developing control methods (biological and chemical); 
testing host resistance and hybridization for incorporating resistance; 
analysis of spread and impacts of HWA; population dynamics of HWA 
including climatic drivers; and silvicultural treatments for coping 
with HWA.
    Thousand Cankers Disease.--The USFS research has sufficient funding 
to monitor for the walnut twig beetle (vector of thousand cankers 
disease) in only two States--Indiana and Missouri. The study will 
analyze all bark and ambrosia beetles trapped at selected sites as well 
as any fungi the beetles might be transporting, so as to better 
understand this growing risk.
    Pathways of Introduction and Spread.--The USFS research will 
continue evaluation of the efficacy of quarantine programs aimed at 
preventing transport of pests in various pathways, including wood 
packaging and firewood. These studies provided the scientific 
foundation for managing these pathways in the past.
    Thank you for considering our views.
                                 ______
                                 
Prepared Statement of the Association of Community Tribal Schools, Inc.
    My name is Dr. Roger Bordeaux, Executive Director of the 
Association of Community Tribal Schools, Inc. (ACTS). I have been a 
Tribal School Superintendent for 20 years and the executive director 
for 25 years.
    The tribal school movement started in 1966 with Rough Rock 
Demonstration School. Now there are more than 28,000 students in tribal 
elementary and secondary schools. The schools are in the States of 
Maine, Florida, North Carolina, Mississippi, Louisiana, South Dakota, 
Minnesota, North Dakota, Michigan, Iowa, Wisconsin, Kansas, Wyoming, 
Oklahoma, Montana, California, Washington, Idaho, Nevada, Arizona, and 
New Mexico. ACTS represents a significant number of the more than 125+ 
tribally controlled elementary and secondary schools. The schools have 
more than 28,000 tribal children enrolled in pre-K-12 programs. ACTS's 
mission is to ``assist community tribal schools toward their mission of 
ensuring that when students complete their schools they are prepared 
for lifelong learning and that these students will strengthen and 
perpetuate traditional tribal societies.''
    There was no equity in the appropriations over the last 10 years. 
Bureau of Indan Education (BIE) education management, Indian School 
Equalization Program (ISEP) adjustments, and education program 
enhancements have grown by more than 200 percent while the 
appropriations for all school-based programs have stayed relatively 
stagnant.
    The following charts illustrate the inequity:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    This chart does not include an additional $ 10,000,000+ or at least 
5 percent, the BIE uses for education program management from the 
Department of Education program funds and other Bureau of Indian 
Affiars (BIA) management funds.
                       school-based program funds

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            requested action
    Restore Residential Education Placement Program Funds: 
$3,760,000.--This program element provides funding for BIE-eligible 
students who are temporarily place in residential facilities for 
special education, alcohol/drug abuse, and court-ordered placements. If 
there is a need to find funds, do not give BIE an additional $3,900,000 
for ISEP adjustments.
    Restore the ``Construction--Education Construction'' Activity to 
the Fiscal Year 2010 Levels.--The BIA reports a $70,000,000 annual 
facility deterioration rate and also reports a $3.4 billion school 
replacement need. The schools will not be able sustain a $61,000,000 
cut from education construction.
    Decrease.--These funds are currently used to control the schools 
and hamper progress, the BIE uses these funding program elements to 
dictate what schools what they should do to improve assessment scores 
based on AYP requirements, and has nothing to do with school 
improvement, funds should be rolled into ISEP, transportation, facility 
operations, facility maintenance, and tribal grant support costs:

                         [Dollars in thousands]
------------------------------------------------------------------------
                          Item                                Amount
------------------------------------------------------------------------
BIE--Elementary/Secondary Programs--ISEP program                   7,238
 adjustments............................................
BIE--Elementary/Secondary Programs--Education program             12,067
 Enhancements...........................................
BIE--Elementary/Secondary Programs--Education management           5,000
                                                         ---------------
      Total.............................................          24,305
------------------------------------------------------------------------

    Increase.--Based on BIE-generated needs formulas:

                         [Dollars in thousands]
------------------------------------------------------------------------
                          Item                                Amount
------------------------------------------------------------------------
BIE--Elementary/Secondary Programs--Facility maintenance           3,254
BIE--Elementary/Secondary Programs--Tribal Grant Support          18,627
 Costs..................................................
BIE--Elementary/Secondary Programs--Facility operations.          30,737
BIE--Elementary/Secondary Programs--ISEP formula funds..         112,858
BIE--Elementary/Secondary Programs--Student                        6,212
 transportation.........................................
                                                         ---------------
      Subtotal additional need for nearly 43,000                 171,688
       children.........................................
                                                         ---------------
Less requested decrease.................................          24,305
                                                         ---------------
      Total requested increase for fiscal year 2012.....        $147,383
------------------------------------------------------------------------

    Eliminate the Following Administrative Provisions Language.--To 
allow current schools to expand grade level offerings and allow tribes 
to apply to operate a grant school:

    ``Appropriations made available in this or any other Act for 
schools funded by the Bureau shall be available only to the schools in 
the Bureau school system as of September 1, 1996. No funds available to 
the Bureau shall be used to support expanded grades for any school or 
dormitory beyond the grade structure in place or approved by the 
Secretary of the Interior at each school in the Bureau school system as 
of October 1, 1995.''
    Change Language, With Insert.--To allow additional appropriations 
for tribal grant support costs:

    ``Provided further, That notwithstanding any other provision of 
law, including but not limited to the Indian Self-Determination Act of 
1975, as amended, and 25 U.S.C. 2008, not to exceed $46,373,000 
$65,000,000 within and only from such amounts made available for school 
operations shall be available for administrative cost grants associated 
with ongoing grants entered into with the Bureau prior to or during 
fiscal year [2009]2010 for the operation of Bureau-funded schools, and 
up to [$500,000]$500,000 within and only from such amounts made 
available for administrative cost grants shall be available for the 
transitional costs of initial administrative cost grants to grantees 
that assume operation on or after July 1, [2009]2010, of Bureau-funded 
schools.''
                                 ______
                                 
            Prepared Statement of the Amigos de la Sevilleta
    Mr. Chairman and members of the subcommittee: On behalf of the 
Amigos de la Sevilleta (Friends of Sevilleta National Wildlife Refuge) 
and its membership, thank you for your strong support for the National 
Wildlife Refuge System (NWRS). The meaningful funding increases from 
fiscal year 2008-fiscal year 2010 allowed the NWRS to emerge from the 
years of declining budgets that followed the 2003 Refuge Centennial. 
Unfortunately, the President's fiscal year 2012 budget request of flat 
funding from fiscal year 2010 represents a $23 million cut when 
factoring in the amount the NWRS needs annually to maintain existing 
management capabilities and will result in a dramatic reduction in what 
refuges will be able to do on the ground.
    The Amigos de la Sevilleta appreciates the opportunity to submit 
comments on the fiscal year 2012 Interior, environment, and related 
agencies appropriations bill and we respectfully request the 
subcommittee support the following funding allocations for programs in 
the NWRS and the U.S. Fish and Wildlife Service (FWS):
  --$511 million for the operations and maintenance (O&M) accounts of 
        the NWRS;
  --$27 million for Refuge Revenue Sharing;
  --$900 million for the Land and Water Conservation Fund (LWCF), 
        including $140 million for the NWRS;
  --$20.2 million for Landscape Conservation Cooperatives (LCCs) in the 
        FWS;
  --$20 million for Inventory and Monitoring for refuges;
  --$37 million for the NWRS construction account for large scale 
        restoration projects, visitor's centers and energy-efficiency 
        projects;
  --$80 million for NWRS Visitors Services;
  --$39 million for Refuge Law Enforcement;
  --$5 million for the management of the new Pacific Marine Monuments;
  --$65 million for the FWS' Partners for Fish and Wildlife Program;
  --$95 million for the State and Tribal Wildlife Grants Program;
  --$50 million for the North American Wetlands Conservation Fund;
  --$6.5 million for the Neotropical Migratory Bird Fund;
  --$8.4 million for Wildlife Without Borders; and
  --$8.5 million for the National Fish and Wildlife Foundation (NFWF) 
        in the FWS' Resource Management General Administration 
        appropriation.
    We believe the request of $511 million is a reasonable amount for 
the FWS to maintain most management capabilities for next year. Without 
providing adequate funding for these fixed costs, refuges will simply 
be unable to maintain current programs and public services, and the 
backlog will grow. Refuges have almost $1 billion worth of construction 
needs, including the replacement of deteriorating structures that are 
becoming more expensive to maintain. We request flat funding for the 
NWRS' construction budget at $37 million, including funds for large-
scale habitat restoration. Refuges with a broad range of programs 
create more service industry jobs and more income for local 
communities. The visitor's center at the Sevilleta National Wildlife 
Refuge is scheduled for slight remodeling to install displays and allow 
for a store for Amigos de la Sevilleta merchandise to raise funds for 
education and habitat restoration projects on Sevilleta.
Supporting Jobs and Leveraging American Volunteerism
    Refuges are economic engines in local communities, returning on 
average $4 in economic activity for every $1 appropriated by the 
Congress. Nationwide this equates to more than $2 billion in annual 
economic impact. Refuges are job creators; more than 30,000 jobs--
largely in the private sector--are attributed to refuge-related 
activities. Ecosystem restoration activities deliver the biggest pay-
off, where $1 million invested creates 30 jobs, while $1 million 
invested in recreation creates 22 jobs. Refuges provide significant 
bang for the buck, despite receiving the least amount per acre of all 
land management agencies. Refuges are managed with $3.36 per acre while 
the National Forest Service and National Park Service receive $32.25 
and $37.11 per acre, respectively. Refuges are also vital places for 
the American people to connect with nature and volunteer. Currently, 
refuge Friends and volunteers do approximately 20 percent of all work 
on refuges, the equivalent of 648 full-time employees. We support the 
request of $80 million for Visitors Services for the NWRS. The 
administration's proposed $2.3 million cut to Visitors Services 
represents a cut to the programs that oversee volunteers and thereby a 
marked decline in the work volunteers are able to contribute, leaving 
that work essentially undone. The Amigos de la Sevilleta provides bus 
scholarships to our local schools to bus the students to our refuge to 
learn about nature and to support Children In Nature.
Using Science to Guide Adaptive Management
    The FWS and the NWRS are developing landscape level strategies to 
address habitat changes due to shifting land use, increasing human 
population, the spread of invasive species and changing climates. But 
the need is urgent and time is of the essence--especially with species 
on the verge of collapse in locations such as Alaska and Hawaii. We 
strongly support the FWS initiative to establish Landscape Conservation 
Cooperatives (LCCs) to bring the best science to bear to help local, 
State, and Federal agencies make the most educated management 
decisions. We recommend an allocation of $20.2 million to fund LCCs in 
fiscal year 2012, building upon the initial LCC investments in fiscal 
year 2010. The Amigos de la Sevilleta recommends an allocation of $20 
million for the NWRS's Inventory and Monitoring program. As the gulf 
oil spill showed, basic inventories of our natural assets are crucial 
if the American people are to recoup costs in the event of manmade 
disasters.
Commitment to Refuge Communities--Refuge Revenue Sharing
    The NWRS uses the net income derived from use permits, timber 
harvests, and so on to make payments to local counties or communities 
to offset lost tax revenue, and relies on congressional appropriations 
to the Refuge Revenue Sharing program to compensate for the shortfall 
between revenues and obligations. Due to declining revenue and lack of 
appropriations, the FWS has been paying less than 50 percent of its 
tax-offset obligations since 2001. This has a measurable impact on 
local communities that is felt even more starkly in difficult economic 
times--and it creates severe strain in relations between the Federal 
units and their local community, threatening the goodwill and 
partnerships that are keystones of successful conservation. Amigos de 
la Sevilleta requests $27 million for the Refuge Revenue Sharing 
Program, which, in recognition of the President's proposal to zero out 
funding, is still only half of what is needed. The Amigos de la 
Sevilleta believes that a review of the Refuge Revenue Sharing Act of 
1935 as amended, and consideration of conversion to a Payment-in-Lieu 
of Taxes (PILT) program to be consistent with the National Park 
Service, the Bureau of Land Management and the U.S. Forest Service will 
provide Refuge communities with more equitable payments. Sevilleta 
National Wildlife Refuge is in a predominantly Federal land managed 
county in New Mexico and there are several institutions that rely on 
property tax funding to provide services to the communities within our 
County.
Partnerships and Strategic Growth
    The Partners for Fish and Wildlife Program is a powerful tool for 
working with private landowners to collaboratively conserve refuge 
landscapes. The program consistently leverages Federal dollars for 
conservation, generating between $4-$10 in conservation return for 
every $1 appropriated, and has been key to the success of many iconic 
landscape conservation projects. In the past 2 years, the Wyoming 
Landscape Conservation Initiative used $454,000 in habitat restoration 
and enhancement to leverage an additional $1.4 million from private 
partners! But the Partners program saw its purchasing power erode 
between 8-24 percent in 2010 due to rising diesel fuel and seed costs. 
If funded at its authorized level of $75 million, the program would net 
at least $300 million worth of additional conservation. We request an 
fiscal year 2012 appropriation of $65 million for the Partners for Fish 
and Wildlife Program, a $5 million increase to maintain capabilities. 
The Amigos de la Sevilleta also calls upon the Congress to fully fund 
the Land and Water Conservation Fund (LWCF) at its authorized level of 
$900 million, with 75 percent devoted across agencies to investments in 
iconic landscapes. Created in 1965 and authorized at $900 million per 
year (more than $3 billion in today's dollars), the LWCF is our most 
important land acquisition tool. With more than 8 million acres still 
unprotected within existing designated refuge boundaries, and the need 
to establish key wildlife corridors and connections between protected 
areas, the LWCF is more important than ever. We also urge the 
subcommittee to appropriate $95 million for the State and Tribal 
Wildlife Grants Program to implement State Wildlife Action Plans; $50 
million for the North American Wetlands Conservation Fund; $6.5 million 
for the Neotropical Migratory Bird Conservation Fund and $8.5 million 
for the National Fish and Wildlife Foundation.
Returning to fiscal year 2008 Funding Levels
    Some in the Congress have recommended returning to fiscal year 2008 
funding levels; we must caution that this would have immediate and 
severe impacts to our national wildlife refuges. With the NWRS already 
44 percent underfunded, proposals to return the agency to fiscal year 
2008 levels would result in an estimated 20 percent cut to current 
funding and would have dramatic ramifications including:
  --Elimination of hundreds of staff positions, significantly reducing 
        the NWRS's ability to:
    --restore habitats;
    --control invasive species;
    --maintain roads; and
    --respond to illegal activities; and
  --Decline in the quality and quantity of visitor services programs, 
        forcing an estimated 54 visitor centers to close and preventing 
        11 more under construction from opening at all;
  --Reduction of volunteer efforts, as cuts to staff who oversee 
        volunteers will result in a decline in the work volunteers are 
        able to contribute;
  --Reduction of hunting programs on an estimated 48 refuges and 
        reduction of fishing programs on an estimated 45 refuges;
  --A halt on progress of the NWRS' inventory and monitoring program, 
        likely reducing it to a skeletal operation. The need for this 
        program was made clear by the Deepwater Horizon oil spill, 
        which forced FWS staff to hastily catalog gulf coast refuge 
        assets in order to prove damages and recoup costs from 
        responsible parties. Now the only refuges nationwide with a 
        comprehensive inventory of species and water quality are those 
        that were in the path of oil.
    In conclusion, the Amigos believes the National Wildlife Refuge 
System can meet its important conservation objectives only with strong 
and consistent funding leveraged by the valuable work of refuge 
volunteers. We extend our appreciation to the subcommittee for its 
ongoing commitment to our NWRS. As a ``Friends'' organization, the 
Amigos de la Sevilleta will continue to do its part by raising funds 
for educational activities on the Sevilleta National Wildlife Refuge 
and continue to assist with volunteer days for habitat restoration, as 
well as fundraising for habitat restoration dollars.
                                 ______
                                 
              Prepared Statement of Americans for the Arts
    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior, Environment, 
and Related Agencies supporting fiscal year 2012 funding for the 
National Endowment for the Arts (NEA) at the fiscal year 2010 enacted 
level of $167.5 million.
    Arts Advocacy Day was last month on Capitol Hill, an annual 
grassroots gathering hosted by Americans for the Arts and cosponsored 
by more than 80 national organizations representing dance, theater, 
music, literature, and the visual and media arts--the full landscape of 
American culture. Collectively these national groups represent tens of 
thousands of nonprofit and governmental cultural organizations at the 
State and local levels across the country.
    We are well aware that this subcommittee and the Congress are under 
tremendous pressure to help fix our economy, reduce our debt and 
provide for a better country for future generations. I want to say 
unequivocally that our sector stands ready to be a part of the 
solution.
    Awareness of the new budget realities are reflected in our 
legislative ``ask'' before you today. $167.5 million for the NEA 
represents fiscal year 2010's enacted level of funding.
    Households, municipal governments, and the Federal Government are 
being asked to tighten their belts and the arts community is cognizant 
of the difficult financial landscape we currently find ourselves in as 
a Nation. We echo the sentiments of President Obama and congressional 
leaders that our Nation's new austerity should not impair crucial 
investments that will lead us out of the current recession. We believe 
the arts are one of those investments.
    Yet despite the best efforts of arts leaders in the Congress, we 
face the daunting task of continuing the upward trend of support that 
we have seen over the recent past. The NEA has steadily approached its 
previous high from the early 1990's after the drastic 40 percent cuts 
and threatened termination of the mid 1990s. Past arts leaders, such as 
former Chairwoman Senator Feinstein, have provided invaluable support 
in maintaining NEA increases, and we hope that you and your colleagues 
will continue that commitment during these admittedly challenging 
times.
    There is some sobering news across the country that emphasizes the 
importance of the NEA's contribution to the health of the larger arts 
landscape. The 2009 National Arts Index, a project of Americans for the 
Arts that studies the well being and vitality of the arts, illustrates 
the bad news that the health of the arts industry has hit a 12-year-
low. The creative sector is an industry that profoundly impacts and is 
impacted by the Nation's business cycles. In 2008, 41 percent of 
nonprofit arts organizations reported a deficit to the IRS, up from 36 
percent in 2007. Additionally, the portion of philanthropic giving to 
the arts dropped from 4.9 percent to 4 percent over the past decade.
    The good news is that the arts mean jobs. We have given you the 
numbers before but they warrant repeating. The nonprofit arts industry 
is a $166.2 billion economic sector that supports 5.7 million full-time 
equivalent jobs and pumps $29.6 billion in tax revenue back into local, 
State, and Federal treasuries. They are home-grown, made in America 
jobs. According to our Creative Industries study, there are 2,788 arts-
related nonprofit and for-profit businesses that employ 12,675 people 
in the State of Rhode Island, Mr. Chairman. In Senator Murkowski's 
State of Alaska, 1,857 arts-related businesses employ 5,523 people. It 
cannot be emphasized enough that the arts industry is uniquely 
positioned to help us rebound out of the current fiscal crisis. The NEA 
is a modest but highly effective Federal investment and reaches into 
every State and Congressional District to support jobs, deliver 
programming, leverage private giving, and spur economic activity.
Support for the States
    Forty plus years ago, something as simple as requiring States to 
match funds received from the NEA helped spur the creation of State 
arts agencies in every State. They now appropriate $272 million in 
funds to support the arts. Through Partnership Agreements, the NEA 
provides funding for State priorities more than matched by State 
legislature appropriations and augmenting the majority of financial 
support to the arts that is provided through earned income and private 
charitable giving.
    State arts agencies have a tremendous impact on the vitality of the 
communities within their jurisdiction by regranting NEA and State funds 
to local nonprofit institutions, artists, educational and community 
groups. These funds support individual artistic productions, in-and-
after school instruction, arts organization management training and a 
host of other needs including general operating support to keep the 
``lights on'' so resources can be focused on delivering access to arts 
programming. Each State arts council relies on Federal collaboration to 
ensure local arts organizations across their States have the resources 
to extend access to the arts, promote community economic growth and 
support creative sector jobs. Some examples of the types of work State 
councils support:
  --The Arizona Commission on Arts supports the Chandler Children's 
        Choir in Chandler, Arizona; the Symphony of the Southwest in 
        Mesa; and the Gilbert Global Village Festival, a multicultural 
        celebration for all ages to ``celebrate, share and sustain the 
        arts and the rich cultural traditions of countries from around 
        the world.''
  --The California Arts Commission. The City of Corona was identified 
        by the Riverside County District Attorney's Office as a 
        community whose schools were in need of gang prevention 
        programming. At least 233 separate criminal street gangs 
        comprised of approximately 8,000 members have been identified 
        by Riverside County law enforcement. The DA's Office partnered 
        with the Riverside Arts Council (RAC) in developing Project 
        Safe Neighborhoods to address this growing issue.
Local Government Support
    Similarly at the local level, the NEA's original local arts agency 
program created an even higher 2 to 1 match that was welcomed by local 
governments. Since 1984, the NEA's Local Arts Agency program has 
supported more than 800 grants totaling $47 million. This program 
spurred unprecedented growth in local government support for the arts 
due in large part to higher matching requirements, sensitivity to local 
standards and tastes, and their proven track record of being 
trustworthy stewards of public funds.
    Today, local governments invest more than $688.5 million of their 
own funds in direct support to artists and community-based nonprofit 
arts organizations, ranging from symphonies and operas to ethnically 
specific cultural programs and arts education initiatives. Through Arts 
Works and Challenge America Fast Track Grants, under the grant category 
of Grants to Projects, the NEA extends critical lifelines directly to 
local arts agencies as well as helping to preserve jobs in those 
communities they serve.
    To give you an idea about the remarkable work that the NEA helps 
fund at the local level, it gives me enormous pleasure to tell you that 
Louisiana's City of Slidell's Department of Cultural & Public Affairs 
just celebrated their move from post-Katrina FEMA trailers into new 
office space. After nearly 6 years rebuilding and growing their flood-
ravaged community, with budget cut after budget cut, at no point in 
time was it ever considered to terminate cultural funding from the 
city's services. Any Louisianan will tell you that their art and 
culture is the heartbeat of the State. The tremendous outpouring of 
support for the city's cultural events stood testament to the 
unshakeable strength of the people and their insistence that Katrina 
may have taken buildings but not their spirit. To quote Slidell's 
Cultural Director Kim Bergeron, ``I can state with quite certainty that 
many of our nonprofit arts organizations would have ceased to exist 
were it not for the arts funding available through NEA and the 
Louisiana Division of Arts.''
Innovative Programming and Grants
    Under the leadership of Chairman Rocco Landesman, the NEA has made 
great strides in bringing new initiatives that confront modern urban 
problems by using the intersection of arts, culture, and design as a 
foundation for urban renewal. The Mayors' Institute on City Design 25th 
Anniversary Initiative (MICD25) ``supported creative placemaking 
projects that contribute toward the livability of communities and help 
transform sites into lively, beautiful, and sustainable places with the 
arts at their core.'' Inspired by MICD25, a separate new initiative, 
Our Town, goes a step further by establishing a permanent grant program 
proposing to take the very same principles and fund projects that 
transform towns, cities, and regions using the arts as an anchor for 
revitalization.
Leveraging Private Contributed and Earned Income Support
    The NEA plays an important role in helping these arts organizations 
leverage both contributed income as well as earned income. Information 
from Giving USA demonstrates that during the largest cut to NEA funding 
in the late 1990s and subsequent years of underfunding, private giving 
to the arts fell dramatically as a percentage of total giving. Fewer 
NEA grants mean less endorsement of arts programming and institutions 
and, in turn, less assistance from charitable sources.
Leveraging Other Federal Agency Support
    The NEA plays a very important role in developing partnerships with 
other Federal agencies--such as the Departments of Housing and Urban 
Development, Education, and Transportation--in order to open new 
channels for arts organizations to work with all aspects of government. 
For example, Community Development Block Grant funds can be used for 
restoring cultural facilities, transportation funds can be used for 
public art, and education funds to deliver quality arts education 
programs to kids in- and after-school. I know that Chairman Landesman 
has extensive connections with his fellow agency heads in furthering 
this dialogue.
    So, my message here today is that arts and the NEA have been and 
are part of the solution to our ongoing recovery. If I could indulge in 
a historical anecdote, in past recessions the Congress has responded 
affirmatively that the arts matter. During the national recessions of 
1969-1970, 1973-1975, early 1980, early 1990s and the most recent 
downturn, our congressional leaders responded by increasing funds for 
the NEA. It is my hope that this subcommittee embraces the idea that 
arts and culture are partners in making our country stronger.
    I respectfully ask the subcommittee to continue its commitment to 
the creative sector by supporting a funding level of $167.5 million for 
the NEA in the fiscal year 2012 budget to save jobs, reshape our 
communities, and maintain America's cultural competitiveness.
                                 ______
                                 
     Prepared Statement of the American Forest & Paper Association
                              introduction
    The American Forest & Paper Association (AF&PA) is the national 
trade association of the forest products industry, representing pulp, 
paper, packaging and wood products manufacturers, and forest 
landowners. Our companies make products essential for everyday life 
from renewable and recyclable resources that sustain the environment. 
The forest products industry accounts for approximately 5 percent of 
the total U.S. manufacturing GDP. Industry companies produce about $175 
billion in products annually and employ nearly 900,000 men and women, 
exceeding employment levels in the automotive, chemicals, and plastics 
industries. The industry meets a payroll of approximately $50 billion 
annually and is among the top 10 manufacturing sector employers in 47 
States.
    Declining Federal timber harvests have adversely affected many 
rural communities, resulting in thousands of jobs lost. Actions are 
needed to restore and increase Federal timber harvest to help ensure 
adequate fiber supply and address forest health priorities. Within the 
jurisdiction of this subcommittee, we urge you to direct the U.S. 
Forest Service (USFS) to help sustain the forest products industry and 
the vital jobs it supports. Specific recommendations follow.
             national forest system (nfs)--forest products
    The President's budget request for the NFS proposes an Integrated 
Resource Restoration (IRR) account, incorporating NFS programs 
previously funded under several line items into a single $864 million 
line item. The AF&PA understands the administration's desire to 
``accelerate the refocusing of national forest management to forest 
ecosystem restoration project work, including global climate change 
adaptation and mitigation''; however, combining these line items 
reduces the accountability of the USFS and makes it difficult for the 
Congress to perform its oversight duties. The AF&PA opposes the 
combination without further clarification by the USFS. Moreover, we do 
not feel that the $80 million specifically delineated within the IRR 
for priority watershed projects is appropriate without further 
explanation of how this fund would be used. We also question why the 
administration has designated $40 million for the Collaborative Forest 
Landscape Restoration Fund (CFLRF); the CFLRF originally was intended 
to be funded with ``new'' money, not through diversion from other 
program funding.
    To create forest industry jobs, more Federal timber should be made 
available for sale. At a time when most Americans are concerned about 
jobs and the economy, studies indicate that the USFS timber sale 
program could produce more than 6,000 direct and indirect jobs with an 
annual infusion of $57 million into the forest products line item while 
improving the health and reducing the fire risk of forest ecosystems.
                     nfs--hazardous fuels reduction
    As we have testified in previous years, hazardous fuels reduction 
is essential to the Federal forest health restoration effort and the 
AF&PA supports maintaining the program at the fiscal year 2010 enacted 
level ($340 million) for this vital program. We also urge the 
subcommittee to instruct the USFS to implement these projects in 
forested stands, using mechanical treatments that produce merchantable 
wood fiber for utilization by local mills. Prescribed burns and debris 
removal will not solve the hazardous fuel overload by themselves. The 
forest products industry can and does play a key role in reducing 
hazardous fuels from Federal lands as evidenced by the fact that 
mechanical hazardous fuel reduction costs are frequently significantly 
lower in regions with a substantial forest products industry presence. 
The USFS must take advantage of these synergies.
    We also continue to believe the USFS must move away from using 
``acres treated'' as the sole metric of accomplishment in the hazardous 
fuels reduction program. Exclusive focus on this measure incentivizes 
the USFS to treat low-priority acres repeatedly and discourages the 
treatment of higher-priority forested acres in Condition Class 3. More 
aggressive pursuit of mechanical treatments, including more frequent 
use of Healthy Forest Restoration Act authorities, will result in 
treatments that produce usable wood fiber and--more importantly--
longer-lasting and more meaningful positive impacts on the long-term 
fire problem.
                     forest and rangeland research
    Forest Inventory and Analysis.--Targeted research and data 
collection is needed to support forest productivity, forest health, and 
economic utilization of fiber. The Forest Inventory and Analysis (FIA) 
Program within USFS Research and Development Program (R&D) is the 
backbone of our knowledge about the Nation's forests, and is a vital 
technical resource that allows assessment of the sustainability, 
health, and availability of the forest resource. The FIA is utilized by 
a large swath of stakeholders interested in the state of America's 
forests: forest resource managers at mills, land managers, conservation 
groups, and State and Federal agencies all look to the program for data 
about our Nation's forests. We are concerned that the administration is 
proposing to cut funding ($5 million) for this vital program. The 
administration has demonstrated an interest in a sustainable renewable 
biomass industry through actions in many agencies. With an increased 
focus on utilizing woody biomass for renewable energy and other 
products, we do not understand why the administration is proposing to 
cut funding for the very program that allows managers to determine 
sustainability of the forest resource. We oppose these harmful cuts to 
this valuable program.
    The Forest Resources Information and Analysis (FRIA) Program under 
the cooperative forestry budget compliments the FIA by providing cost-
share assistance through State contributions to the FIA Program. This 
assistance allows States to improve the ongoing FIA assessments offered 
through R&D by improving sampling resolution, increasing sampling 
frequency, and tailoring assessments to address State-specific forest 
resource needs. Completely cutting FRIA would hinder the abilities of 
States to implement renewable portfolio standards while ensuring the 
sustainability and productivity of forests.
    The AF&PA requests funding levels of $67 million for the FIA 
Program and $5 million for the FRIA Program, which would allow the USFS 
to cover the majority of U.S. forest lands, expedite data availability 
and analysis, and support our growing data needs in the areas of 
bioenergy and climate mitigation.
    We also recommend increased funding within the USFS R&D Program in 
support of the Agenda 2020 Technology Alliance. Working in partnership 
with universities and the private sector, the USFS funding for the 
Agenda 2020 Program supports research to develop and deploy wood 
production systems that are ecologically sustainable, socially 
acceptable, and economically viable to enhance forest conservation and 
the global competitiveness of forest product manufacturing and 
biorefinery operations in the United States. In particular, we 
encourage greater support for research on forest productivity and 
utilization at the forest products lab and research stations. 
Innovative wood and fiber utilization research, including 
nanotechnology research, contributes to conservation and productivity 
of the forest resource. The development of new forest products and 
important research on the efficient use of wood fiber directly address 
the forest health problem through exploration of small diameter wood 
use and bioenergy production.
                       state and private forestry
    The AF&PA applauds the subcommittee's sustained support for the 
USFS state and private forestry programs. With ongoing droughts, 
invasive species infestations, and significant forest health problems, 
private forest resources remain vulnerable to damage from threats that 
do not respect public/private boundary lines.
    As you know, private forests provide the bulk of the Nation's wood 
fiber supply, while also sequestering huge amounts of carbon from the 
atmosphere, providing millions of acres of wildlife habitat, and 
supplying clean drinking water for millions of Americans. The USFS 
state and private forestry programs protect these resources from 
threats beyond the capability of small landowners to combat 
effectively. Therefore, we urge funding at no less than their fiscal 
year 2010 enacted levels of $49 million for cooperative forest health; 
$39 million for cooperative fire assistance; $29 million for forest 
stewardship; and $76 million for forest legacy.
                         international forestry
    The AF&PA's believes that full and effective implementation and 
enforcement of the 2008 Lacey Act amendments will reduce the 
destructive impacts of illegal logging on tropical forests, enable 
American forest product companies to compete on a level playing field, 
and contribute to cutting of global greenhouse gas emissions through 
reduced deforestation and sustainable forest management practices. A 
2005 AF&PA report on illegal logging found that up to 10 percent of 
global timber production could be of suspicious origin and that illegal 
logging depresses world prices for legally harvested wood by 7 to 16 
percent on average. The report also calculated that if there were no 
illegally harvested wood in the global market, the estimated value of 
U.S. wood exports could increase by more than $460 million each year.
    The USFS International Forestry Program lends critical technical 
assistance for Lacey Act implementation and to improve sustainable 
forest management practices in developing countries, which helps reduce 
illegal logging overseas. The International Forestry Program has been 
completely cut from the administration's fiscal year 2012 budget. 
Although the administration claims the USFS will conduct its highest-
priority international work under existing USFS authorities, it is 
unclear if funding for Lacey-related activities will continue to be 
available and from where it would be derived. Despite a budget 
allocation for the USDA's Animal and Plant Health Inspection Service 
Lacey Act account in the President's fiscal year 2012 for the first 
time ($1.5 million), the AF&PA believes cuts to the international 
forestry accounts could be detrimental to full Lacey Act compliance and 
enforcement efforts, and advocates funding the International Forestry 
Program at fiscal year 2010 levels ($10 million).
                                 ______
                                 
         Prepared Statement of the American Geological Institute
    Thank you for this opportunity to provide the American Geological 
Institute's (AGI) perspective on fiscal year 2012 appropriations for 
geoscience programs within the subcommittee's jurisdiction. The AGI is 
a nonprofit federation of 49 geoscientific and professional 
associations that represents more than 120,000 geologists, 
geophysicists, and other Earth scientists who work in industry, 
academia, and government. Founded in 1948, the AGI provides information 
services to geoscientists, serves as a voice of shared interests in our 
profession, plays a major role in strengthening geoscience education, 
and strives to increase public awareness of the vital role the 
geosciences play in society's use of resources, resilience to natural 
hazards, and the health of the environment. We ask the subcommittee to 
support and sustain the critical geoscience work in the United States 
Geological Survey (USGS), the National Park Service (NPS), and the 
Smithsonian Institution. Specifically we ask for at least $1.2 billion 
for the USGS, $356 million for the NPS's Resource Stewardship Program, 
and $861.5 million for the Smithsonian Institution.
    As the U.S. economy improves, the Nation must continue to focus on 
intersecting needs for energy resources, water resources, mineral 
resources, soil resources, and healthy ecosystems. To speed up the 
recovery of our economy and workforce, we need to sustain and 
efficiently use our natural resources and cost-effectively improve our 
quality of life and the quality of the environment, while reducing 
risks from natural hazards. The USGS is the Nation's only natural 
resource science agency that can provide the objective data, 
observations, analyses, assessments, and scientific solutions to these 
intersecting critical needs.
    The AGI supports the small, but vital increases for research at the 
Smithsonian Institution and for the Geologic Resources Division within 
the Resource Stewardship Program of the NPS. Both conduct research, 
assessments, and analysis of natural resources that are important for 
addressing national needs, while stimulating the economy and 
maintaining a skilled workforce.
                                  usgs
    Virtually every American citizen and every Federal, State, and 
local agency benefits either directly or indirectly from the USGS 
products and services. Furthermore, a wide variety of industries rely 
on the USGS for assessments and data to reduce their costs and risks 
and to help them develop their own products and services. As was made 
clear by the National Research Council report Future Roles and 
Opportunities for the USGS, the USGS's value to the Nation goes well 
beyond the Department of the Interior's stewardship mission for public 
lands.
    The USGS addresses a wide range of important problems facing the 
Nation:
  --natural hazards;
  --global environmental change;
  --water resources;
  --waste disposal; and
  --energy and mineral resources.
    The AGI prepared a brief document entitled ``Critical Needs for the 
Twenty First Century: The Role of the Geosciences'' that lists seven 
critical needs followed by policy actions to help the Nation meet these 
needs (available online at www.agiweb.org/gap/criticalneeds/
index.html). With a burgeoning human population, rising demand for 
natural resources and the ever-present threat of natural hazards, it is 
critical to more fully integrate Earth observations and Earth system 
understanding into actions for a sustainable world. The USGS plays a 
prominent role in meeting national needs, while growing the economy, 
building a skilled workforce and ensuring a natural resource-literate 
public.
    The AGI strongly supports a modest additional investment of about 
$90 million in fiscal year 2012 for a total budget for the USGS of $1.2 
billion to cover fixed costs, emergencies such as oil spills, water 
disputes, earthquakes and volcanic eruptions, the $48 million needed 
for Landsat, and to provide tens of millions of dollars to currently 
underfunded core programs. It is imperative that these missions be 
recognized and valued within the Department and by the administration. 
The AGI asks the subcommittee to continue to support the USGS.
    Mineral Resources Program (MRP).--The value of domestically 
processed nonfuel mineral resources is estimated to be about $578 
billion in 2010 and growing. The USGS MRP is the only entity, public or 
private, that provides an analysis and assessment of the raw materials 
and processed minerals accessible from domestic and global markets. 
This highly regarded research program is the Nation's premier credible 
source for regional, national, and global mineral resource and mineral 
environmental assessments; statistics and research critical for sound 
economic, mineral-supply, land-use, and environmental analysis; and 
planning and decisionmaking. Not only does the program track global 
commodities, it also prepares assessments such as the recent report on 
rare Earth element deposits in the United States.
    The data and analyses of the MRP are used by the Departments of the 
Interior, Defense, State, the Central Intelligence Agency, the Federal 
Reserve, other Federal, State and local government entities, foreign 
governments, private companies, and the general public. Analyses based 
on the MRP data are essential for guiding economic and environmental 
policy and for providing options for land-use decisions posed by 
industry, government, and private land owners. We urge the subcommittee 
to support the MRP at a level of $54 million so that it may perform its 
core missions. This level is the same as the fiscal year 2010 and 
fiscal year 2005 levels and more than the fiscal year 2012 request of 
$44 million.
    Water Program.--The AGI is concerned with the decreased funding in 
the President's request for the USGS's Water Resources Programs. The 
USGS is the Nation's premier Federal water science agency and knowledge 
about water quality and quantity is necessary for economic growth and 
to avoid catastrophes. Going forward for fiscal year 2012, the AGI 
supports modest budgets to sustain many critical water programs at the 
USGS including:
  --National Streamflow Information;
  --Groundwater Resources;
  --the National Water Quality Assessment;
  --Hydrologic Research and Development;
  --Toxic Substances Hydrology;
  --Hydrologic Networks; and
  --the Cooperative Water Program.
    We respectfully ask that $18 million in proposed cuts for water 
programs in the fiscal year 2012 request be restored, so that water 
resource efforts remain stable at fiscal year 2010 levels.
    National Cooperative Geologic Mapping Program (NCGMP).--The AGI is 
very grateful to the Congress for passing the re-authorization of the 
NCGMP in the 2009 public lands omnibus (Public Law 111-11, section 
11001). This important partnership between the USGS, State geological 
surveys, and universities provides the Nation with fundamental data for 
addressing natural hazard mitigation, water resource management, 
environmental remediation, land-use planning, and raw material resource 
development. The AGI supports at least the request of $25.4 million for 
the NCGMP and asks for consideration of returning the budget to its 
fiscal year 2010 level of $28 million.
    National Earthquake Hazards Reduction Program (NEHRP) and Other 
Natural Hazards.--A key role for the USGS is providing the research, 
monitoring, and assessment that are critically needed to better prepare 
for and respond to natural hazards. The tragic earthquake/tsunami in 
Japan and the Indian Ocean, Hurricanes Katrina and Rita striking the 
gulf coast and the massive earthquakes in New Zealand, Chile, Haiti, 
Pakistan, and Wenchuan, remind us of the need for preparation, 
education, mitigation, and rapid response to natural hazards. Several 
National Academies' reports and studies by other hazard experts have 
shown that mitigation, and preparation reduces fatalities, injuries, 
and economic losses. With great forethought, the Earthquake Hazards 
Reduction Authorization Act of 2000 (Public Law 106-503) called for a 
significant Federal investment in expansion and modernization of 
existing seismic networks and for the development of the Advanced 
National Seismic System (ANSS)--a nationwide network of shaking 
measurement systems focused on urban areas. The ANSS can provide real-
time earthquake information to emergency responders as well as building 
and ground shaking data for engineers and scientists seeking to 
understand earthquake processes and mitigate damage.
    With only 886 of 7,100 stations in operation at the end of fiscal 
year 2009, the ANSS is far from achieving its goals. Stimulus funding 
in 2009 for the ANSS will help to reduce the gap, but robust and steady 
appropriations are a high-priority right now. Critical investments now 
will help to reduce earthquake risks; help to create jobs and grow the 
economy by improving and modernizing seismic networks and the built 
environment; help support external earthquake research and education 
efforts; and help to support other major earthquake science 
initiatives, such as the EarthScope Observatories run by the NSF. A 
major component of EarthScope is a seismic network that is moving 
across the country and is appropriately complemented and connected to 
the ANSS. Given all of these factors, now is really the time to 
increase investments in USGS-NEHRP through the NEHRP. The AGI strongly 
supports reauthorization of the NEHRP in 2011 and appropriations to 
meet the goals of the NEHRP in fiscal year 2012.
    The AGI strongly supports returning the NEHRP, the Volcano Hazards 
Program, the Landslide Hazards Program, and the Global Seismographic 
Network Program back to their fiscal year 2010 enacted levels. We 
respectively ask the subcommittee to consider adding $6.3 million to 
avoid any cuts to these vital programs.
    National Geological and Geophysical Data Preservation Program.--The 
data preservation program (Public Law 109-58, section 351) is 
administered by the USGS in partnership with State geological surveys 
and other stakeholders. Private and public entities collect geologic 
and geophysical data in the form of paper records, digital files, and 
physical samples. Often these data and samples are given to State 
geological surveys either voluntarily or because of regulatory 
statutes. These data are worth far more than the cost of preserving 
them because they provide information about natural resources and 
natural hazards that are used by others for business or safety. The 
program generates more value in terms of economic development, 
environmental stewardship, hazard mitigation, and fulfilling regulatory 
requirements than it costs to run. The AGI supports an appropriation of 
$1 million, the same as the fiscal year 2010 amount to sustain the 
program.
                        smithsonian institution
    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
The AGI asks the subcommittee to support Smithsonian research with 
steady funds that are a tiny fraction of the overall budget, but will 
dramatically improve the facilities and their benefit to the country. 
We strongly support the President's request of $861.5 million for 
Smithsonian research in fiscal year 2012.
                                  nps
    The national parks are very important to the geoscience community 
and the public as unique national treasures that showcase the geologic 
splendor of our country and offer unparalleled opportunities for 
research, education, and outdoor activities. The NPS' Geologic 
Resources Division was established in 1995 to provide park managers 
with geologic expertise. Working in conjunction with the USGS and other 
partners, the division helps ensure that geoscientists are becoming 
part of an integrated approach to science-based resource management in 
parks. The AGI supports the President's small increase for additional 
support for geological staff positions to adequately address the 
treasured geologic resources in the National Parks, especially as the 
National Parks approach their 100th anniversary.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a nonprofit, nonpartisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the President's fiscal year 2012 budget request for the 
United States Geological Survey (USGS). The AGU, on behalf of its more 
than 62,000 Earth and space scientist members, would like to 
respectfully request the Congress to appropriate at least $1.2 billion 
to accommodate the President's request, and to restore critical funding 
for the USGS programs that will enable implementation of natural 
hazards warning and monitoring systems that will reduce risks from 
floods, earthquakes, severe storms, volcanic eruptions, and other 
hazards.
    USGS Benefits Every State in the Union.--The USGS is uniquely 
positioned to address many of the Nation's greatest challenges. The 
USGS plays a crucial role in reducing risks from earthquakes, tsunamis, 
floods, landslides, wildfires, and other natural hazards, assessing 
water quality and quantity, providing emergency responders with 
geospatial data to improve homeland security, assessing mineral and 
energy resources (including rare earth elements and unconventional 
natural gas resources), and providing the science needed to manage our 
natural resources and combat invasive species that can threaten 
agriculture and public health. The USGS is working in and providing 
services for every State in the United States, and has nearly 400 
offices across the country. To aid in its interdisciplinary 
investigations, the USGS works with more than 2,000 Federal, State, 
local, tribal, and private organizations.
    Virtually every American citizen and every Federal, State, and 
local agency benefits either directly or indirectly from USGS products 
and services. Furthermore, a wide variety of industries rely on the 
USGS for assessments and data to reduce their costs and risks and to 
help them develop their own products and services. As was made clear by 
the National Research Council report ``Future Roles and Opportunities 
for the U.S. Geological Survey'', the USGS's value to the Nation goes 
well beyond the Department of the Interior's stewardship mission for 
public lands.
    National Earthquake Hazards Reduction Program (NEHRP) and Other 
Natural Hazards.--Providing the information necessary to mitigate the 
impacts of natural hazards is a core function of the USGS. The USGS 
operates seismic networks and conducts seismic hazard analyses that are 
used to formulate earthquake probabilities and to establish building 
codes across the Nation. It monitors volcanoes and provides warnings 
about impending eruptions. Data from the USGS network of stream gages 
enable the National Weather Service to issue flood warnings. The USGS 
and its Federal partners monitor seasonal wildfires and provide maps of 
current fire locations and the potential spread of fires. Research on 
ecosystem structure and function assists forest and rangeland managers 
with forecasting fire risk and managing natural systems following 
fires. The USGS plays a pivotal role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides, and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year.
    A key role for the USGS is providing the research, monitoring, and 
assessments that are critically needed to better prepare for and 
respond to natural hazards. The tragic earthquake and tsunami events in 
both Japan and the Indian Ocean, Hurricanes Katrina and Rita striking 
the gulf coast, and the massive earthquakes in New Zealand, Chile, 
Haiti, Pakistan, and Wenchuan, remind us of the need for preparation, 
education, mitigation, and rapid response to natural hazards. Several 
National Academies' reports and studies by other hazard experts have 
shown that mitigation and preparation reduces fatalities, injuries and 
economic losses.
    With great forethought, the Earthquake Hazards Reduction 
Authorization Act of 2000 (Public Law 106-503) called for a significant 
Federal investment in expansion and modernization of existing seismic 
networks and for the development of the Advanced National Seismic 
System (ANSS)--a nationwide network of shaking measurement systems 
focused on urban areas. The ANSS can provide real-time earthquake 
information to emergency responders as well as building and ground-
shaking data for engineers and scientists seeking to understand 
earthquake processes and mitigate damage.
    As USGS Director Marcia McNutt noted in her March 17 testimony 
before the subcommittee, the reduction in fatalities in large 
earthquakes in Japan (140,000 fatalities in the 1923 Kanto earthquake, 
then 6,800 in the 1995 Kobe earthquake, and only about 200 in the 2011 
Tohoku earthquake) has been due to increased understanding of 
earthquakes and subsequent improvement of engineering and early warning 
systems. The value of saving hundreds of thousands of lives is 
immeasurable, yet clearly depends on the priorities of our society and 
our leadership in the Congress.
    With only 1,300 of 7,100 stations in operation as of October 2010, 
the ANSS is far from achieving its goals. Robust and steady 
appropriations are a high-priority right now. Critical investments now 
will help to reduce earthquake risks, help to create jobs, and grow the 
economy by improving and modernizing seismic networks and the built 
environment; help support external earthquake research and education 
efforts; and help to support other major earthquake science 
initiatives, such as the EarthScope Observatories run by the National 
Science Foundation. A major component of EarthScope is a seismic 
network that is moving across the country and is appropriately 
complemented and connected to ANSS. Given all of these factors, now is 
really the time to increase investments in USGS-National Earthquake 
Hazards Reduction Program through the Earthquake Hazards Program.
    The AGU strongly supports robust appropriations of at least the 
request for the Earthquake Hazards Program ($52.3 million), the Volcano 
Hazards Program ($23.6 million), and Landslide Hazards Program ($3.3 
million). We respectfully ask the subcommittee to consider adding $4.7 
million to return the hazards programs to their fiscal year 2010 levels 
and avoid any cuts to these vital programs.
    National Cooperative Geologic Mapping Program (NCGMP).--The AGU is 
very grateful to the Congress for passing the re-authorization of the 
NCGMP in the 2009 public lands omnibus (Public Law 111-11, section 
11001). This important partnership between the USGS, State geological 
surveys, and universities provides the Nation with fundamental data for 
addressing natural hazard mitigation, water resource management, 
environmental remediation, land-use planning, and raw material resource 
development. The AGU supports at least the request of $25.4 million for 
the NCGMP and asks for consideration of returning the budget to its 
fiscal year 2010 level of $28 million.
    National Geological and Geophysical Data Preservation Program 
(NGGDP).--The data preservation program (Public Law 109-58, section 
351) is administered by the USGS in partnership with State geological 
surveys and other stakeholders. Private and public entities collect 
geologic and geophysical data in the form of paper records, digital 
files, and physical samples. Often these data and samples are given to 
State geological surveys either voluntarily or because of regulatory 
statutes. These data are worth far more than the cost of preserving 
them because they provide information about natural resources and 
natural hazards that are used by others for business or safety. The 
program generates more value in terms of economic development, 
environmental stewardship, hazard mitigation, and fulfilling regulatory 
requirements than it costs to run. The AGU supports an appropriation of 
$1 million, the same as the fiscal year 2010 amount to sustain the 
program.
    Mineral Resources Program (MRP).--The value of domestically 
processed nonfuel mineral resources is estimated to be about $578 
billion in 2010 and growing. The USGS MRP is the only entity, public or 
private, that provides an analysis and assessment of the raw materials 
and processed minerals accessible from domestic and global markets. 
This highly regarded research program is the Nation's premier credible 
source for regional, national, and global mineral resource and mineral 
environmental assessments, statistics, and research critical for sound 
economic, mineral-supply, land-use and environmental analysis, 
planning, and decisionmaking. Not only does the program track global 
commodities, it also prepares assessments such as the recent report on 
rare earth element deposits in the United States.
    The data and analyses of the MRP are used by the Departments of the 
Interior and Defense, the Central Intelligence Agency, the Department 
of State, the Federal Reserve, other Federal, State, and local 
government entities, foreign governments, private companies, and the 
general public. Analyses based on the MRP data are essential for 
guiding economic and environmental policy and for providing options for 
land-use decisions posed by industry, government, and private land 
owners. We urge the subcommittee to support the MRP at a level of $54 
million so that it may perform its core missions. This level is the 
same as the fiscal year 2010 and fiscal year 2005 levels and more than 
the fiscal year 2012 request of $44 million.
    Water Program.--The AGU is concerned with the decreased funding in 
the President's request for the USGS's water resources programs. The 
USGS is the Nation's premier Federal water science agency and knowledge 
about water quality and quantity is necessary for economic growth and 
to avoid catastrophes. Going forward for fiscal year 2012, the AGU 
supports modest budgets to sustain many critical water programs at the 
USGS including national streamflow information; ground water resources; 
the National Water Quality Assessment (NAWQA); hydrologic research and 
development; toxic substances hydrology; and hydrologic networks and 
cooperative water program. We respectfully ask that $18 million in 
proposed cuts for water programs in the fiscal year 2012 request be 
restored, so that water resource efforts remain stable at fiscal year 
2010 levels.
    The AGU is grateful to the Senate Interior, Environment, and 
Related Agencies Appropriations Subcommittee for its leadership in 
restoring past budget cuts and strengthening the USGS. We appreciate 
the opportunity to submit this testimony to the subcommittee and thank 
you for your thoughtful consideration of our request.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS) and Environmental Protection 
Agency (EPA) for fiscal year 2012. The AIBS encourages the Congress to 
provide the USGS with at least $1.2 billion in fiscal year 2012, with 
at least $171 million for the ecosystems activity. We further request 
that the Congress provide the EPA's Office of Research and Development 
(ORD) with at least $597 million, with at least $72 million for 
ecosystem research.
                                  usgs
    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector 
decisionmakers. Data generated by the USGS save taxpayers money by 
reducing economic losses from natural disasters, allowing more 
effective management of water and natural resources, and providing 
essential geospatial data that are needed for commercial activity and 
natural resource management. The data collected by the USGS are not 
available from other sources. Our Nation cannot afford to sacrifice 
this information. Funding for the USGS is a wise investment that 
produces real returns for the country.
    The fiscal year 2012 budget request for the USGS is inadequate to 
sustain the USGS' critical work. The proposed budget would cut funding 
from programs that support the USGS' core missions, resulting in the 
termination of 230 full-time staff positions. These reductions would be 
especially destructive because, in constant dollars, the USGS has been 
flat funded for more than a decade. Given the USGS' critical role in 
informing the environmental and economic health of the Nation, more 
support is justified. We urge the Congress to fully fund the USGS by 
restoring administration-proposed reductions to core science programs.
    One area that would be negatively impacted by the proposed budget 
is the ecosystems activity within the USGS. Three programs within this 
budget authority are slated for reductions. The Status and Trends, 
Fisheries, and Wildlife Programs would collectively lose $4.4 million. 
This budget would undercut the USGS' ability to fulfill its valuable 
programmatic missions in biology. The Status and Trends Program 
inventories populations of plants and animals, and monitors changes in 
these species and their habitats over time. The fisheries: Aquatic and 
Endangered Resources Program and Wildlife: Terrestrial and Endangered 
Resources Program conduct research that informs our understanding of 
biodiversity, and provide information to other Department of the 
Interior (DOI) bureaus that is used to manage endangered species. 
Collectively, the knowledge generated by these programs is used by 
Federal and State natural resource managers to maintain healthy and 
diverse ecosystems while balancing the needs of public use.
    Another program inadequately funded in the administration's request 
is the National Biological Information Infrastructure (NBII). Under the 
fiscal year 2012 budget, all new data collection activities would be 
eliminated. This would halt efforts to make data on invasive species, 
wildlife disease, habitat loss, wetlands, and pollinators more 
accessible to resource managers, scientists, and the public. The budget 
would also eliminate partnerships with more than 40 Federal and State 
agencies, 20 universities, and other networks. Moreover, this plan 
would have global consequences, as the NBII serves as the U.S. node for 
the Global Biodiversity Information Facility, an international 
collaboration of nearly 60 countries that enables public access to 
global biodiversity data.
    Other external partnerships would be negatively impacted under the 
proposed budget. Through the Cooperative Research Units (CRUs), the 
USGS and their partners address pressing issues facing natural resource 
managers, such as invasive species and wildlife diseases. In addition 
to providing research expertise, these partnerships at 40 universities 
in 38 States serve as important training centers for America's next 
generation of scientists and resource managers. Although the CRUs are 
effective investments that leverage Federal funding, the program's 
budget would decline by $500,000 in fiscal year 2012.
    The National Streamflow Information Program within the water 
resources activity also provides needed information for resource 
managers and scientists. Its national network of streamgages records 
changes in streamflow due to alterations in precipitation, land use, 
and water use. This information is vital to State and local 
governments, utilities, and resource managers who make decisions about 
water use.
    In summary, the USGS is uniquely positioned to provide a scientific 
context for many of the Nation's biological and environmental 
challenges, including water quality, energy independence, and 
conservation of biological diversity. Biological science programs 
within the USGS gather long-term data not available from other sources. 
These data have contributed fundamentally to our understanding of the 
status and dynamics of biological populations and have improved our 
understanding of how ecosystems function, all of which is necessary for 
predicting the impacts of land management practices and other human 
activities on the natural environment. This array of research expertise 
not only serves the core missions of the DOI, but also contributes to 
management decisions made by other agencies and private sector 
organizations. In short, increased investments in these important 
research activities will yield dividends.
                                  epa
    The ORD is the science division for the EPA. The ORD supports 
valuable extramural and intramural research that is used to understand, 
prevent, and mitigate environmental problems facing our Nation. The ORD 
research informs decisions made by public health and safety managers, 
natural resource managers, businesses, and other stakeholders concerned 
about air and water pollution, human health, and land management and 
restoration. In short, the ORD provides the scientific basis upon which 
the EPA monitoring and enforcement programs are built. Funding for the 
ORD, however, has declined since fiscal year 2004, when it peaked at 
$646.5 million. At $584.1 million, the budget request for fiscal year 
2012 falls far short of addressing past budget deficits. We ask that 
the Congress restore funding for the ORD to at least the fiscal year 
2010 level.
    The Ecosystem Services Research Program within the ORD is 
responsible for enhancing, protecting, and restoring ecosystem 
services, such as clean air and water, rich soil for food and crop 
production, pollination, and flood control. ``EPA's Ecosystem Services 
Research Program is bold, innovative, and necessary,'' wrote Dr. Judith 
Meyer, chair of the Ecological Processes and Effects Committee of the 
EPA's Science Advisory Board in a 2009 Committee consultation. However, 
``[t]he considerable potential of the program is unlikely to be 
achieved with its current level of funding and staff.'' The fiscal year 
2012 budget request would do little to solve the problem, with a 
proposed $10.8 million cut in funding and a reduction of 16.7 full-time 
equivalents for ecosystem research. We ask that the Congress fully fund 
the program.
    The Science to Achieve Results (STAR) Graduate Fellowship 
contributes to the training of the next generation of scientists by 
supporting graduate students pursuing an advanced degree in 
environmental science. The USGS' request of $6 million in new funding 
represents the first real increase for the program since fiscal year 
2006 and would provide 105 new fellowships. Since its inception in 
1995, this successful program has supported the education and training 
of 1,500 STAR Fellows who have gone on to pursue careers as scientists 
and educators.
    In conclusion, we urge the Congress to restore funding for the ORD 
to the fiscal year 2010 enacted level and to proportionally increase 
funding for ecosystem research within the program. These appropriation 
levels would allow the ORD to address a backlog of research needs.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                            request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which compose the American Indian Higher Education Consortium (AIHEC), 
thank you for this opportunity to present our fiscal year 2012 
appropriations recommendations for the 29 colleges funded under the 
Tribally Controlled Colleges and Universities Assistance Act (Tribal 
College Act); the Bureau of Indian Education (BIE) postsecondary 
institutions; and the Institute of American Indian Arts. The BIE 
administers these programs, save for the Institute of American Indian 
Arts, which is congressionally chartered and funded directly through 
the Department.
    In fiscal year 2012, TCUs seek $71 million for institutional 
operations and technical assistance grants under the Tribally 
Controlled Colleges and Universities Assistance Act of 1978 or Tribal 
College Act; of which, $63.7 million for titles I and II grants (27 
TCUs); $6.7 million for title V; and $601,000 for technical assistance.
    This request represents funding at the level appropriated since 
fiscal year 2010. AIHEC's membership also includes three other TCUs 
funded under separate authorities within Interior, environment, and 
related agencies appropriations, namely: Haskell Indian Nations 
University; Southwestern Indian Polytechnic Institute; and the 
Institute of American Indian Arts. The AIHEC supports the independently 
submitted requests for funding of the institutional operations budgets 
of these institutions.
                            brief background
    Today, there are 36 TCUs operating 79 campuses in 14 States. These 
institutions were begun specifically to serve the higher education 
needs of American Indians. Annually, these institutions serve students 
from well more than 250 federally recognized tribes, more than 80 
percent of whom are eligible to receive Federal financial aid.
    TCUs are accredited by independent, regional accreditation agencies 
and like all institutions of higher education, must undergo stringent 
performance reviews on a periodic basis to retain their accreditation 
status. TCUs are young, geographically isolated, and poor. Our oldest 
institution, Dine College, was established in 1968. Most TCUs are 
located in areas of Indian country that the Federal Government defines 
as extremely remote. They serve their communities in ways that reach 
far beyond college level programming and are often called beacons of 
hope for American Indian people. Our institutions provide much needed 
high school completion (GED), basic remediation, job training, college 
preparatory courses, and adult education programs. They serve as 
community libraries and centers, tribal archives, career and business 
centers, economic development centers, public meeting places, and elder 
and child care centers. It is an underlying goal of all TCUs to improve 
the lives of students through higher education and to move American 
Indians toward self-sufficiency. This goal is fundamental because of 
the extreme poverty in which most American Indians live. In fact, 3 of 
the 5 poorest counties in America are home to TCUs, where unemployment 
rates are consistently well above 60 percent. By contrast, the current 
national unemployment rate, which is considered to be extremely high, 
is 8.8 percent.
    TCUs remain the most poorly funded institutions of higher education 
in the Nation. Howard University, located in the District of Columbia, 
is the only other minority-serving institution, besides the tribal 
colleges, to receive its basic institutional operating funds from the 
Federal Government. The similarity ends there, as Howard University's 
Federal support for operations is approximately $19,000 per student. In 
contrast, the tribal colleges currently receive $5,523 per Indian 
student, with no Federal funding towards operations for the non-Indian 
students that attend TCUs, which account for approximately 21 percent 
of TCU enrollments.
                             justifications
    TCUs provide critical access to vital postsecondary education 
opportunities. TCUs provide access to higher education for American 
Indians and others living in some of the Nation's most rural and 
economically depressed areas. While the latest Decennial Census data is 
not yet available, the 2000 Census reported the annual per capita 
income of the U.S. population as $21,587. However, the annual per 
capita income of American Indians was $12,923 or about 40 percent less. 
In addition to serving their students, TCUs serve their communities 
through a wide variety of community outreach programs.
    TCUs are producing a new generation of highly trained American 
Indian teachers, tribal government leaders, engineers, nurses, computer 
programmers, and other much-needed professionals. By teaching the job 
skills most in demand on their reservations, TCUs are laying a solid 
foundation for tribal economic growth, with benefits for surrounding 
communities. In contrast to the high rates of unemployment on 
reservations, graduates of TCUs are employed in ``high need'' 
occupational areas such as Head Start teachers, elementary and 
secondary school teachers, and nurses/healthcare providers. Just as 
important, the vast majority of tribal college graduates remain in 
their tribal communities, applying their newly acquired skills and 
knowledge where they are most needed.
    TCUs meet the strict standards of mainstream accreditation boards 
offering top-quality academic programs; contributing to the achievement 
of the national graduation goal, and serving as effective bridges to 4-
year institutions of higher learning. A growing number of TCUs have 
attained a 10-year accreditation term, the longest term granted to any 
higher education institution. All TCUs offer at least certificates and 
associate degrees with 10 offering bachelor's and two conferring 
master's degrees, making tribal colleges a critical component in 
achieving the national goal to once again lead the world in the 
percentage of the population with college degrees by 2020. 
Additionally, TCUs' transfer function from 2-year to 4-year degree 
institutions is significant. An independent survey of TCU graduates 
conducted for the American Indian College Fund indicated that more than 
80 percent of respondents who attended a mainstream college prior to 
enrolling at a TCU did not finish the degree they were pursuing at the 
mainstream college. The rate of completion markedly improved for those 
who attended a TCU prior to beginning a degree program at a mainstream 
institution. After completing tribal college coursework, less than one-
half of respondents dropped out of mainstream colleges and nearly 40 
percent went on to earn a bachelor's degree. This clearly illustrates 
TCUs' positive impact on the persistence of American Indian students in 
pursuit of baccalaureate degrees. The overwhelming majority of 
respondents felt that their TCU experience had prepared them well for 
further education and noted that it had a very positive influence on 
their personal and professional achievements.
    Despite a proven track record of success, TCUs still face serious 
disparities in institutional operations funding. Title I of the Tribal 
College Act authorizes funding for the basic institutional operating 
budget of one qualifying institution per federally recognized tribe 
based on a full-time American Indian student enrollment formula. 
Distribution of funds under title I of the Tribal College Act is 
enrollment driven. The 25 institutions that are currently funded under 
title I are receiving $5,523 per Indian student toward their 
institutional operating budgets. If you factor in inflation, the buying 
power of the current appropriation is $1,437 less per Indian student 
than it was 30 years ago, when the program was initially funded at 
$2,831 per Indian student. Because they are located on Federal trust 
lands, States have no obligation to fund the TCUs. While TCUs do seek 
funding from their respective State legislatures for the non-Indian 
State-resident students sometimes called nonbeneficiary students, who 
as noted earlier, account for 21 percent of our enrollments, their 
successes have been at best inconsistent. TCUs are accredited by the 
same regional agencies that accredit mainstream institutions, yet they 
have to continually advocate for basic operating support for their non-
Indian State students, within their respective State legislatures. If 
these nonbeneficiary students attended any other public institution in 
the State, the State would provide that institution with ongoing 
operations funding.
    While the other TCUs' operating funds allocations are not 
enrollment driven and therefore the disparity is not as easily 
illustrated, they too suffer from a lack of stable operating revenue. 
This is not simply a matter of appropriations falling short of an 
authorization; it effectively impedes our institutions from having the 
necessary resources to grow their programs in response to the changing 
needs of their students and the communities they serve.
                         some additional facts
    Enrollment Gains and New TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since 1981, appropriations 
have increased at a disproportionately low rate. Since they were first 
funded, the number of tribal colleges has quadrupled and continues to 
grow; Indian student enrollments have risen more than 310 percent. 
Between fiscal year 2005 and fiscal year 2012, five additional TCUs 
have become eligible for funding under title I of the Tribal College 
Act. TCUs are in many ways victims of their own successes. The growing 
number of tribally chartered colleges and universities being 
established and increasing enrollments have caused an already 
inadequate annual funding pie to be sliced into even smaller pieces.
    Local Tax and Revenue Bases.--TCUs cannot rely on a local tax base 
for revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. As noted earlier, on Indian reservations that are 
home to TCUs, the unemployment rate can well exceed 60 percent.
    Trust Responsibility.--The emergence of TCUs is a direct result of 
the special relationship between American Indian tribes and the Federal 
Government. TCUs are founded and chartered by their respective American 
Indian tribes, which hold a special legal relationship with the Federal 
Government, actualized by more than 400 treaties, several Supreme Court 
decisions, prior congressional action, and the ceding of more than 1 
billion acres of land to the Federal Government. Beyond the trust 
responsibility, the fact remains that TCUs are providing a public 
service that no other institutions of higher education are willing, or 
able, to provide by helping the Federal Government fulfill its 
responsibility to the American people, particularly in rural America. 
Despite the fact that only enrolled members of a federally recognized 
tribe or the biological child of a tribal member may be counted as 
Indian students when determining an institution's share of the 
operating funds, TCUs have open enrollment policies. These institutions 
are simply and effectively providing access to quality higher education 
opportunities to all reservation community residents, both Indian and 
non-Indian.
   president's budget and appropriations request for fiscal year 2012
    As noted earlier, it has been three decades since the Tribal 
College Act was first funded and the TCUs have yet to receive the 
congressionally authorized per Indian student funding level ($8,000), 
which is less than half that currently appropriated for Howard 
University, the only other media sales institute to receive 
institutional operating funds from the Federal Government. To fully 
fund the TCUs institutional operating grants at their authorized level 
would require an increase of $29 million more than the current funding 
level. However, we recognize the budget constraints the Nation is 
currently facing and consequently, we are not requesting an increase in 
fiscal year 2012, but rather seek to have our institutional operating 
and technical assistance grants programs maintained at the fiscal year 
2010 appropriated level, as recommended in the President's fiscal year 
2012 budget request, outlined in the request summary above.
                               conclusion
    TCUs provide quality higher education to many thousands of American 
Indians who might otherwise not have access to such opportunities. The 
modest Federal investment that has been made in TCUs has paid great 
dividends in terms of employment, education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's TCUs and your serious consideration of our fiscal year 2012 
appropriations requests.
                                 ______
                                 
          Prepared Statement of the American Lung Association

  ENVIRONMENTAL PROTECTION AGENCY'S PROGRAM TO IMPROVE THE NATION'S AIR
                        [In millions of dollars]
------------------------------------------------------------------------
                        Program                               Amount
------------------------------------------------------------------------
Taking action on climate change and improving air                1,103.9
 quality................................................
    Federal stationary source regulation................            34.1
    Federal support of air quality management...........           141.4
    Clean air allowance trading program.................            30.6
    Federal vehicle and fuels standards.................           100.6
    Climate protection program..........................           127.8
    State and Local Air Quality Management (STAG).......           305.5
        Air monitoring..................................            15.0
    Diesel emission reductions..........................            50.0
Human health risk assessment............................            45.7
Reducing risks from indoor air..........................            20.8
Indoor air: Radon program...............................             5.8
Research: Air, climate, and energy......................           108.0
------------------------------------------------------------------------

    The American Lung Association is pleased to support the 
Environmental Protection Agency's (EPA) program to improve the Nation's 
air. The American Lung Association was founded in 1904 to fight 
tuberculosis and today, our mission is to save lives by improving lung 
health and preventing lung disease.
    We urge the subcommittee to support ensuring that the EPA has the 
necessary resources to protect the public health from air pollution. 
Protecting the public from the health threats of pollution is a core 
mission of the EPA. In March, the EPA released a report that documents 
the tremendous health benefits of the Clean Air Act (CAA). According to 
the report, in 2010 alone the reductions in fine particle and ozone 
pollution from the 1990 CAA amendments prevented more than 160,000 
premature deaths, 130,000 heart attacks, 13 million lost work days, and 
1.7 million asthma attacks.\1\ Despite this tremendous success, much 
work remains to ensure each American has air that is safe and healthy 
to breathe. Our 2011 State of the Air report showed that nearly more 
than one-half of the Nation--154.5 million people--live in areas where 
the air is unhealthy.\2\
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency. The Benefits and Costs of 
the Clean Air Act From 1990 to 2020. Washington, DC., March 2011.
    \2\ American Lung Association. State of the Air 2011. Washington, 
DC. April 2011.
---------------------------------------------------------------------------
    The public expects the EPA to implement the CAA and strongly 
opposes congressional interference in the law's implementation. In 
February, we released a bipartisan public opinion poll that shows 69 
percent of voters support the EPA updating the CAA standards on air 
pollution. The survey shows that 79 percent of voters support stricter 
limits on mercury; 77 percent support stricter limits on smog; 74 
percent support stricter limits on carbon; and 74 percent support 
tougher fuel efficiency standards for heavy duty trucks.\3\
---------------------------------------------------------------------------
    \3\  American Lung Association. Clean Air Survey. Washington, DC. 
February 16, 2011.
---------------------------------------------------------------------------
    Implementing the CAA to protect health and save lives is a 
tremendous responsibility and the EPA workload is vast. In 2012, we 
expect the EPA to update health-based air-quality standards; implement 
rules to clean up toxic pollution from major sources such as power 
plants; clean up toxic pollution from automobile tailpipes; 
aggressively enforce the law to ensure compliance and protect the 
public; support State and local air pollution cleanup; continue 
research on the health impacts of air pollution; improve air pollution 
monitoring; and ensure that the CAA is implemented in a way that 
protects the most vulnerable. As a Nation, we need the EPA to be able 
to do all of these things.
    The Congress must ensure that the EPA moves forward to implement 
the CAA. We urge the subcommittee to pass an fiscal year 2012 bill free 
from any policy riders.
    The American Lung Association would like to highlight for you some 
key provisions of the President's fiscal year 2012 budget that provide 
additional focus on protecting vulnerable populations. The budget 
includes a $2 million increase in funding for Civil Enforcement to 
reduce toxic air pollution around schools and within at-risk 
communities. Since children are especially vulnerable to the health 
impacts of toxic pollution, we are heartened to see this budget 
increase.
    We are pleased to see the President's budget increase support for 
the Air Quality Management Program to improve pollution monitoring and 
analysis at the fence lines of polluting facilities. People who live 
adjacent to and near major sources of pollution often face the greatest 
health risk. Increases of more than $3 million as part of the Air 
Toxics Initiative and almost $3 million as part of the Healthy 
Communities initiative will help improve the understanding of 
community-wide impacts of toxic air pollution and ultimately lead to 
better protection.
    We support the President's budget increase of nearly $7 million to 
fund Federal Stationary Source Regulations. These funds will support 
the updating of air pollution health standards that tell local 
communities when the air is unhealthy to breathe, as well as the 
setting of air toxics standards that will clean up arsenic, lead, acid 
gases, formaldehyde, and other toxic pollutants currently emitted 
across the Nation. In March, the EPA proposed new mercury and air toxic 
standards for oil- and coal-fired power plants. This proposal will save 
an estimated 17,000 lives per year in 2016. It is vital that the EPA 
complete these lifesaving rules on time and begin their implementation.
    We strongly support increased funding for State and local air 
pollution agencies. State and local air pollution control agencies are 
on the front lines in the effort to improve air quality across the 
Nation. These agencies will be called on to put in place the safeguards 
set under the CAA. These agencies will adopt and enforce a range of new 
emissions reduction programs designed to meet the needs of each area. 
State and local air pollution agencies need additional resources to 
protect the health of their communities. Key to this is the investment 
in air pollution monitoring. Improving the Nation's air pollution 
monitoring network will provide better information to enhance health 
protection.
    We strongly support the EPA's planned work to update tailpipe 
standards. Light duty cars and trucks remain a significant source of 
air pollution. This work is vital to correct for any adverse air-
quality impacts that may result from increased use of renewable fuels.
    We also support the EPA's continued work under the CAA to control 
greenhouse gases. It is clear that the EPA is taking a careful and 
common-sense approach to addressing this global threat. Climate change 
will bring serious adverse health consequences. Scientists warn that 
the buildup of greenhouse gases and the climate changes caused by it 
will create conditions, including warmer temperatures, which will 
increase the risk of unhealthful ambient ozone levels. Higher 
temperatures can enhance the conditions for ozone formation. Even with 
the steps that are in place to reduce ozone, evidence warns that 
changes in climate are likely to increase ozone levels in the future in 
large parts of the United States.
    We strongly support the EPA's air pollution research program. 
Research is essential to improve the understanding of the health 
effects of air pollution. Sound science underscores all of the EPA's 
work. Continued investment in research is vital to increase that level 
of knowledge and inform future agency action.
    The American Lung Association opposes cuts in the President's 
budget to the widely supported Diesel Emission Reduction Act (DERA) 
that was reauthorized in late 2010. Twenty million old diesel engines 
are in use today that pollute communities and threaten workers. Immense 
opportunities remain to reduce diesel emissions through the DERA. 
Please restore funding to the $50 million level.
    We also strongly oppose cuts to the EPA's successful indoor air 
program that works to reduce asthma attacks and lung cancer. Although 
this program is almost completely voluntary, the EPA has demonstrated 
that creative leadership and collaboration with nongovernmental partner 
organizations can yield big results in protecting the public in the 
places where they spend the vast majority of their time. In particular, 
the low-cost, voluntary Indoor Air Quality Tools For Schools Program 
must not be eliminated. Tools for Schools has succeeded in improving 
environmental conditions and reducing asthma triggers in schools across 
the country, but more schools need this help. Please fund this program 
at least $20.8 million.
    For 40 years the CAA has charged the EPA to protect the public from 
air pollution and fulfill the promise of air that is clean and healthy 
for all to breathe. We urge the subcommittee to ensure that the EPA is 
meeting the required deadlines and updating standards to reflect the 
best science with the maximum health protection. Mr. Chairman, thank 
you for the opportunity to present the recommendations of the American 
Lung Association. Every day we are fighting for air--clean, healthy air 
for all Americans to breathe.
                                 ______
                                 
 Prepared Statement of the Alaska Native Tribal Health Consortium and 
                   the Kodiak Area Native Association
    Good afternoon Chairman Reed, Ranking Member Murkowski and members 
of the subcommittee. My name is Andy Teuber, I am the chairman and 
president of the Alaska Native Tribal Health Consortium (ANTHC) and the 
president and CEO of the Kodiak Area Native Association (KANA). For the 
fiscal year 2011 Indian Health Service (IHS) budget we are requesting a 
$15 million increase for dental health, $10 million for a child abuse 
and neglect prevention initiative, an $81 million increase in contract 
support costs, and an $83 million increase for facility operational 
needs.
    ANTHC is a statewide tribal health organization that serves all 229 
tribes and more than 135,000 American Indian and Alaska Natives (AI/AN) 
in Alaska. ANTHC and Southcentral Foundation co-manage the Alaska 
Native Medical Center (ANMC), the tertiary care hospital for all AI/ANs 
in Alaska. ANTHC also carries out virtually all nonresidual Area Office 
functions of the IHS that were not already being carried out by tribal 
health programs as of 1997.
    KANA is a nonprofit tribal organization formed in 1966 to provide 
health and social services to AI/ANs in the Kodiak Island area. KANA 
service area includes the city of Kodiak and six Alaska Native 
villages:
  --Akhiok;
  --Karluk;
  --Old Harbor;
  --Ouzinkie;
  --Port Lions; and
  --Larsen Bay.
    ANTHC and KANA are both self-governance tribal organizations that 
compact with the IHS to provide health services to AI/ANs under the 
authority of the Indian Self-Determination and Education Assistance 
Act, Public Law 93-638.
    My testimony addresses the areas of deficiency in the IHS budget. I 
extend an invitation to members of this subcommittee to visit Alaska to 
see first-hand, the many successes we have been able to achieve in 
providing high-quality health services throughout rural Alaska with its 
challenging environment. Such successes include our advanced, statewide 
telehealth network, community health aide program, numerous sanitation 
facilities construction projects, and the Alaska Native Medical Center, 
Alaska's only Level II Trauma Center.
    All of the IHS budget items work together to achieve the objective 
of providing the best-quality care possible to AI/ANs. Increases in the 
clinical and preventive services portions of the IHS budget are 
necessary, but their full value cannot be realized if other portions of 
the budget that provide essential support for those services are not 
adequately funded. Before healthcare can be delivered, many things have 
to be in place. For example, there must first be safe, adequately 
maintained facilities, suitable medical equipment and supplies, 
telephones, trained support personnel, and so on.
                              oral health
    Indian country faces considerable oral health problems. AI/ANs, 
especially children, continue to be plagued by oral health disparities. 
Alaska Native children suffer a dental caries rate of 2.5 times the 
national average. For AI/AN children ages 2-4 the rate of tooth decay 
is 5 times the U.S. average. An astounding 79 percent of AI/AN children 
ages 2-5 have tooth decay, 60 percent of which are severe caries. One-
third of school-aged children have missed school because of dental 
pain. Far too many have needed surgery to remove many or all of their 
baby teeth.
    Due to the high cost of travel in rural Alaska, just one operating 
room dental case for a child with early childhood dental caries can 
cost up to $7,000. An increase in appropriations for the IHS dental 
health aimed at oral health promotion and disease prevention activities 
is a sound investment for improving the oral health of AI/AN children, 
but is an even better investment in reducing future oral healthcare 
costs.
    Increases for dental health in the IHS budget the past few years 
have barely been sufficient to maintain the current service levels, 
which are grossly inadequate to meet the needs of Indian country. A 
substantial program increase is warranted to address this issue and we 
request a 10 percent, or $15 million, increase for dental health to be 
used for community oral health promotion and disease prevention which 
is essential to long-term improvement of the oral health of AI/ANs.
                        child abuse and neglect
    Alaska has the highest reported, substantiated incidence of child 
abuse and neglect in the United States. The Alaska Department of Health 
and Social Services has reported that children in Alaska suffer abuse 
at six times the national average. Alaska Native children suffer 
disproportionately: Although less than 20 percent of the population, 45 
percent of the reports to the Alaska Office of Children's Services and 
51 percent of the incidents of abuse and neglect that Office 
substantiated in 2009 involved Alaska Native children. Approximately 75 
percent of abused and neglected children are under 10 years of age.
    The funding of the Domestic Violence Prevention initiative in 
fiscal year 2009 at $7.5 million and $10 million in fiscal year 2010 
was a great step in addressing the pressing domestic violence 
prevention needs in Indian country. We would like to see a similar 
program instituted to address the equally important need for the 
prevention of child abuse and neglect and request that $10 million be 
provided for a Child Abuse and Neglect Prevention initiative.
                      contract support costs (csc)
    In addition to the healthcare allocation, an essential element to 
the success of self-determination and self-governance is full funding 
for CSC. I would like to thank this subcommittee for its commitment to 
addressing this important issue and the $9 million increase for CSC 
that this subcommittee added to the President's budget request last 
year.
    Indian tribes and tribal organizations are the only Federal 
contractors that do not receive full CSC. There is a clear obligation 
on the part of the Federal Government to fully fund CSC. But more 
importantly, lack of full funding for CSC has a very real and 
detrimental impact on our programs that are already substantially 
underfunded. CSC is used to pay for items that we are required to have 
but are not otherwise covered by the IHS budget either because another 
governmental department is responsible or because the IHS is not 
subject to that particular requirement. Examples include federally 
required annual audits and telecommunication systems. We cannot operate 
without these things, so when CSC is underfunded we have to use other 
program funds to make up the shortfall which means fewer providers that 
we can hire and fewer types and quantity of health services that we can 
provide to our patients.
    From 2002 to 2009, while there were virtually no increases for the 
IHS CSC appropriations, the level of tribal CSC need increased by more 
than $130 million. During that period, as our fixed costs increased 
every year, all major tribal health programs in Alaska were forced to 
layoff staff due to lack of funds.
    With full funding of our CSC needs, ANTHC would be able to fill 
scores of support positions, such as enrollment technicians, financial 
analysts, medical billing staff, professional recruiters, maintenance 
technicians, security officers, information technology support, and 
professional support staff.
    Thanks to this subcommittee there was a substantial increase for 
the IHS CSC in fiscal year 2010. However, even with that increase the 
IHS CSC is still only funded at 80 percent of the full funding our 
contracts require. We request an increase of $150 million for CSC in 
order meet the full IHS CSC requirement. If that is not possible given 
the current financial environment, we would like to see full funding 
for CSC within 3 years. To accomplish this, based on the latest data 
available, it would require an increase of approximately $81 million in 
each of the next 3 years.
                       facility operational needs
    When addressing facility needs, it is important to look beyond new 
construction. In order for existing facilities to remain functional and 
provide maximum use, it is also important to adequately fund medical 
equipment replacement, facility and environmental support, maintenance 
and improvement, and the Village Built Clinic Lease program. Adequate 
funding for these programs will ensure that the facilities we build 
today will be available for continued use into the future. Thus, we 
recommend an increase of $83 million for these needs as more 
specifically described below.
Medical Equipment Replacement
    In order to assure patient safety, the industry standard for the 
replacement of medical equipment is an average of every 6 years. 
Unfortunately, current IHS medical equipment funding levels cover only 
one-third of the level of need. Thus, equipment that should have been 
replaced after 6 years often continues to be used for 18 years or 
longer. Medical equipment maintenance and replacement presents obvious 
patient safety issues, and some tribes are forced to divert funds from 
direct patient care to make up this gap. This year medical equipment 
funding is $22.7 million, when the annual need is actually $68 million. 
We request a $45 million increase for medical equipment.
Facility and Environmental Support (FES) Funding
    FES funding provides for the maintenance staff and basic operations 
of health facilities, including utilities. These funds also pay for 
area office programs, like core staffing for health facilities, 
environmental health, and sanitation construction.
    The level of funding has stayed relatively flat or received small 
increases (less than 2 percent). Funding for FES has not kept up with 
the rising cost of salaries and double digit annual increases in energy 
costs. We recommend that an increase of $5 million annually for FES to 
meet the current national need.
Maintenance and Improvement (M&I)
    M&I funds are used to maintain facilities so they can continue to 
be used in the future. Unfortunately, the level of M&I funding is 
substantially lower than what is needed. It is estimated that the base 
M&I funding needed to just sustain the facilities in their current 
condition should be $80 million annually. Because funds have not kept 
pace with the need, there is a tremendous backlog of maintenance needs. 
In October 2009, the IHS estimated $476 million was needed just to get 
caught up.
    Failing to maintain existing facilities will only hasten the need 
for new construction. Health programs with existing facilities have 
tremendous and growing maintenance and improvement needs especially 
those with older facilities. We recommend that the M&I appropriation be 
increased by $26 million to sustain existing facilities and to address 
the more than $476 million backlog of maintenance and improvement 
issues.
Village Built Clinic (VBC) Lease Program
    The VBC Lease Program funds rent, utilities, insurance, janitorial, 
and maintenance costs of healthcare facilities in villages in rural 
Alaska. Despite an increase in the number and size of clinics 
throughout Alaska as well as the rapidly increasing fuel costs, funding 
for the VBC Lease Program has barely increased since 1996. Current 
funding for leases covers less than 60 percent of the current operating 
costs and those costs are expected to continue to increase sharply as 
energy costs continue to skyrocket in rural Alaska.
    Without additional funding for the VBC Lease Program, Alaska 
villages will be increasingly forced to reduce clinic operations and 
defer long-term maintenance and improvement projects. This situation 
reduces the healthcare available locally to village residents and 
threatens the nearly $200 million investment in these facilities by the 
Federal Government, Alaska villages, and the regional tribal health 
organizations in the Alaska Native healthcare system.
    Thus, we recommend an increase of $7 million in funding for the VBC 
Lease Program to the current program base of the VBC Lease Program. 
These funds are required immediately to sustain the program, covering 
the expected operating costs in fiscal year 2011 as well as 
establishing funding for long-term maintenance and improvement. Without 
this funding, many of Alaska's villages will not be able to continue 
supporting local clinics, eventually leading to serious consequences 
for the health and safety of Alaska Native people.
    On behalf of ANTHC, KANA and myself, I thank you for providing me 
the opportunity to testify today and highlight some of the most urgent 
needs for AI/ANs. I appreciate your consideration of our 
recommendations for additional funding to improve the level, quality, 
and accessibility of desperately needed health services for AI/ANs 
whose healthcare status continues to lag far behind other populations 
in Alaska and in this Nation, and for giving special consideration to 
addressing the tragedy of child abuse with a Child Abuse and Neglect 
Prevention initiative. I would be happy to provide any additional 
information the subcommittee may find helpful on these issues.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) respectfully requests 
$75 million for the Environmental Protection Agency (EPA) ENERGY STAR 
program, robust funding for the Landfill Methane Outreach Program, and 
$3.4 million for the Council on Environmental Quality.
    APPA is the national service organization representing the 
interests of more than 2,000 municipal and other State and locally 
owned electric utilities in 49 States (all but Hawaii). Collectively, 
public power utilities deliver electricity to 1 of every 7 electric 
consumers (approximately 46 million people), serving some of the 
Nation's largest cities. However, the vast majority of APPA's members 
serve communities with populations of 10,000 people or less.
    We understand that the Congress is operating in a tight fiscal 
environment. APPA's priority is to support programmatic requests that 
bring down costs, conserve resources, or benefit our public power 
customers in other ways. We appreciate the opportunity to submit this 
statement outlining our fiscal year 2012 funding priorities within the 
jurisdiction of the Interior, Environment, and Related Agencies 
Subcommittee.
                       epa: energy star programs
    APPA is disappointed in the modest 6 percent increase in the EPA 
ENERGY STAR program. We request an additional $20 million in funding 
for the program to bring the total amount to $75 million.
    ENERGY STAR is a voluntary partnership program pairing EPA with 
businesses and consumers nationwide to enhance investment in 
underutilized technologies and practices that increase energy 
efficiency while at the same time reducing emissions of criteria 
pollutants and greenhouse gases. APPA member systems across the country 
have been active participants in ENERGY STAR programs to reduce 
electricity consumption.
    According to the EPA, ENERGY STAR is saving businesses, 
organizations, and consumers more than $18 billion a year, and has been 
instrumental in the more widespread use of technological innovations 
like LED traffic lights, efficient fluorescent lighting, power 
management systems for office equipment, and low standby energy use.
                 epa: landfill methane outreach program
    APPA supports robust funding for the Landfill Methane Outreach 
Program (LMOP) at EPA under the Environmental Program Management, 
Climate Protection Program budget. While we recognize that LMOP is not 
a budget line-item, APPA encourages the subcommittee to highlight the 
importance of LMOP by including report language directing EPA to 
provide adequate funding for the program. The Landfill Methane Outreach 
Program helps to partner utilities, energy organizations, States, 
tribes, the landfill gas industry, and trade associations to promote 
the recovery and use of landfill gas as an energy source. According to 
EPA, LMOP has more than 800 partners that have signed voluntary 
agreements to work with EPA to develop cost-effective landfill-gas-to-
energy (LFG) projects. There are approximately 540 operational LFG 
projects in the United States. LMOP has also developed detailed 
profiles for more than 510 candidate landfills.
    Landfill gas is created when organic waste in a landfill 
decomposes. This gas consists of about 50 percent methane and about 50 
percent carbon dioxide. Landfill gas can be captured, converted, and 
used as an energy source rather than being released into the atmosphere 
as a potent greenhouse gas. Converting landfill gas to energy offsets 
the need for nonrenewable resources such as coal and oil, and thereby 
helps to diversify utilities' fuel portfolios and to reduce emissions 
of air pollutants from conventional fuel sources.
    In 2005, all operational LFG energy projects in the United States 
prevented the release of 19 million metric tons of carbon equivalent. 
This reduction is the carbon equivalent of removing the emissions from 
13.3 million vehicles on the road or planting 19 million acres of 
forest for 1 year. This reduction also has the same environmental 
benefit as preventing the use of 162 million barrels of oil or 
offsetting the use of 341,000 railcars of coal.
    As units of local and State governments, APPA's member utilities 
are uniquely positioned to embark on LFG projects. EPA's LMOP 
facilitates this process by providing technical support and access to 
invaluable partnerships to our members and the communities they serve.
                    council on environmental quality
    APPA supports the President's budget request of $3.4 million for 
fiscal year 2012 for the White House's Council on Environmental Quality 
(CEQ), and urges the subcommittee to maintain this funding level. 
Public power utilities have experienced a general lack of consistency 
in Federal Government regulations, particularly involving environmental 
issues. While additional layers of Government should be avoided, a 
central overseer can perform a valuable function in preventing 
duplicative, unnecessary, and inconsistent regulations. CEQ is 
responsible for ensuring that Federal agencies perform their tasks in 
an efficient and coordinated manner.
                                 ______
                                 
Letter From APS Four Corners Power Plant; Aurora Water; BHP Navajo Coal 
 Company; Central Utah Water Conservancy District; City of Farmington; 
      Colorado River District; Colorado River Energy Distributers 
   Association; Colorado River Water Conservation District; Colorado 
  Springs Utilitites; Colorado Water Congress; Denver Water; Dolores 
   Water Conservancy District; Grand Valley Water Users Association; 
Jicarilla Apache Nation; Northern Colorado Water Conservancy District; 
 Orchard Mesa Irrigation District; PNM Resources, Inc.; San Juan Water 
Commission; Southern Ute Indian Tribe; Southwestern Water Conservation 
District; State of New Mexico; State of Wyoming; The Nature Conservancy 
 and Western Resources Advocates; The Navajo Nation; Tri County Water 
Conservancy District; Uncomahgre Valley Waters Users Association; Utah 
         Water Users Association; and Wyoming Water Association
                                                    March 28, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2012 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:
  --Appropriate $706,300 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery Element; within the $83,692,000 item 
        entitled ``Recovery'') to the U.S. Fish and Wildlife Service 
        (FWS) to allow FWS to continue its essential participation in 
        the Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $42,761,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.
  --Allocate $200,000 in ``Recovery'' funds for the San Juan River 
        Basin Recovery Implementation Program to meet expenses incurred 
        by F/VS's Region 2 in managing the San Juan Program's diverse 
        recovery activities.
    I request the subcommittee's assistance in assuring fiscal year 
2012 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
                                    Mark T. Pifher,
                                                  Director,
                                                      Aurora Water.
                                 ______
                                 
 Prepared Statement of APS Four Corners Power Plant; Aurora Water; BHP 
 Navajo Coal Company; Central Utah Water Conservancy District; City of 
 Farmington; Colorado River Energy Distributors Association; Colorado 
 River District; Colorado River Water Conservation District; Colorado 
Springs Utilities; Colorado Water Congress; Denver Water; Dolores Water 
 Conservancy District; Grand Valley Water Users Association; Jicarilla 
 Apache Nation; Northern Colorado Water Conservancy District; Orchard 
     Mesa Irrigation District; PNM Resources, Inc.; San Juan Water 
Commission; Southern Ute Indian Tribe; Southwestern Water Conservation 
District; State of New Mexico; State of Wyoming; The Nature Conservancy 
 and Western Resources Advocates; The Navajo Nation; Tri County Water 
Conservancy District; Uncomahgre Valley Waters Users Association; Utah 
         Water Users Association; and Wyoming Water Association
                                                    March 28, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2012 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:
  --Appropriate $706,300 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery Element; within the $83,692,000 item 
        entitled ``Recovery'') to FWS to allow FWS to continue its 
        essential participation in the Upper Colorado River Endangered 
        Fish Recovery Program.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $42,761,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery program's stocking program.
  --Allocate $200,000 in ``Recovery'' funds for the San Juan River 
        Basin Recovery Implementation Program to meet expenses incurred 
        by F/VS's Region 2 in managing the San Juan program's diverse 
        recovery activities.
    I request the subcommittee's assistance in assuring fiscal year 
2012 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
                                            Mark T. Pifher,
                                                  Director,
                                              Aurora Water.
                                 ______
                                 
     Prepared Statement of the American Society of Civil Engineers
    Mr. Chairman and members of the subcommittee: The American Society 
of Civil Engineers (ASCE) is pleased to present the ASCE's views on the 
proposed budgets for the Environmental Protection Agency (EPA) and the 
United States Geological Survey (USGS) for fiscal year 2012.
                                  epa
    The President's proposed budget for the EPA in fiscal year 2012 
represents a setback for the Nation because it reduces spending on 
critical infrastructure systems designed to protect public health.
    Our 2009 Report Card for America's Infrastructure gave the Nation's 
wastewater and drinking-water systems identical grades of D-, marking 
them as systems in near total failure. We estimated then that the 
physical condition of many of the Nation's 16,000 wastewater treatment 
systems was poor due to a lack of investment in plants, equipment, and 
other capital improvements over the years, while Federal funding under 
the Clean Water Act State Revolving Loan Fund (SRF) Program had 
remained flat for more than a decade. Federal assistance has not kept 
pace with the needs, yet virtually every authority agrees that funding 
needs remain very high, a condition that has not improved in the last 2 
years.
    The EPA ``Clean Water Needs Survey'' for 2008, released last 
October, put the total wastewater and stormwater management needs for 
the Nation at $298.1 billion as of January 1, 2008. This amount 
includes $192.2 billion for wastewater treatment plants, pipe repairs, 
and buying and installing new pipes; $63.6 billion for combined sewer 
overflow correction; and $42.3 billion for stormwater management. Small 
communities have documented needs of $22.7 billion.
    In addition to the $298.1 billion in wastewater and stormwater 
needs, the report documented needs of $22.8 billion for nonpoint source 
pollution prevention and $23.9 billion for decentralized wastewater 
(septic) systems. An estimated $334.5 billion and $81.5 billion in 
needs are potentially eligible for assistance from the EPA's Clean 
Water SRF and Nonpoint Source Control Grant Programs, respectively, the 
Agency reported.
    Meanwhile, the Nation's drinking-water systems also face staggering 
public investment needs over the next 20 years. Although America spends 
billions on water infrastructure each year, drinking water systems face 
an annual shortfall of at least $11 billion in funding needed to 
replace aging facilities that are near the end of their useful life and 
to comply with existing and future Federal water regulations. The 
shortfall does not account for any growth in the demand for drinking 
water over the next 20 years. Nevertheless, the Agency's overall budget 
proposal for fiscal year 2012 represents about a 13 percent decrease 
from the fiscal year 2010 enacted budget of $10.3 billion for all the 
EPA programs.
    The most serious cutback totals $2.5 billion--a decrease of $938 
million--for the Clean Water SRF and Safe Drinking Water Act SRF. The 
wastewater treatment SRF is being reduced by $550 million and the 
drinking-water SRF by $388 million from the fiscal year 2010 enacted 
amounts.
    On its Web site, the EPA states: ``While this budget includes 
significant cuts, it is designed to ensure that the EPA can effectively 
carry out its core mission to protect public health and our 
environment, including the reductions of . . . water pollution.'' 
http://www.epa.gov/planandbudget/annualplan/fy2012.html.
    We respectfully disagree. The EPA's own budget states the problem 
succinctly. ``America's waters remain imperiled.''
    Federal funds contributed to the SRFs have ensured efficient 
systemwide planning and continuing management of sustainable water 
infrastructure since 1987. With the Nation facing a $400-$500 billion 
investment gap in its wastewater and drinking-water infrastructure over 
the next 20 years, now is not the time to cut Federal investments in 
public health.
    We recognize of course that the Congress is dealing with enormous 
deficits and a growing Federal debt, but the remedies for these 
problems must not come at the expense of programs aimed at protecting 
public health from the dangers of increased contamination in our 
rivers, lakes, and streams and our drinking-water supplies.
    The ASCE recommends an appropriation of $2 billion for the Clean 
Water SRF and an appropriation of $1.5 billion for the Safe Drinking 
Water Act SRF in fiscal year 2012.
                                  usgs
    The USGS is one of the Nation's foremost science agencies. It 
produces the scientific data essential for the protection of the 
quality of economically vital water resources, for the prediction of 
earthquakes and volcanoes, for the cataloging of America's vast 
biological resources and for dozens of other critically important 
technical needs.
    The administration's fiscal year 2012 budget request for the USGS 
is $1.118 billion, an overall decrease of $15 million or 1.3 percent 
below the USGS budget request for fiscal year 2011, but a small 
increase of $6 million or one-half of 1 percent above the fiscal year 
2010 enacted level.
    Although there is a $6 million increase in the total USGS budget 
request for fiscal year 2012 compared to the fiscal year 2010 enacted 
level, the fiscal year 2012 budget request contains significant cuts in 
many programs that are offset by increases in other areas, including a 
$59.6 million increase in a new account for national land imaging.
    The USGS budget request for fiscal year 2012 includes $89.1 million 
in program reductions in longstanding programs. The proposed budget 
cuts would have significant impacts on the USGS programs. Proposed 
budget cuts in the fiscal year 2012 USGS budget request include 
decreases of $9.8 million for biological information management and 
delivery, $9.6 million for mineral resources, $8.9 million for national 
water quality assessment, $6.5 million for cooperative water program, 
and $4.7 million for earthquake hazards.
    In fiscal year 2012 the administration seeks to cut the National 
Water Quality Assessment Program (NAWQA) by $6.7 million from fiscal 
year 2010. The NAWQA is one of the Nation's major sources of 
information on the flow and volume of rivers, streams and groundwater 
formations. The least harmful effect of these cuts would postpone the 
implementation of real-time technology for water-quality monitoring 
necessary to public health programs at the State and local levels. At 
their worst they would eliminate funding for monitoring and assessment 
of groundwater in 33 States. This information is used to identify 
contaminants in public drinking-water wells and manage groundwater to 
meet future needs for potable drinking-water and uncontaminated 
irrigation flows.
    The USGS operates approximately 7,000 stream gages nationwide. 
These gages provide real-time data typically are recorded at 15- to 60-
minute intervals, stored onsite, and then transmitted to the USGS 
offices every 1 to 4 hours, depending on the data relay technique used, 
through the stream-gauging program. These data are used to predict 
floods, allocate water supplies, provide water flow data for publicly 
owned treatment works, and assist in the design of flood-resistant 
bridges. National Stream Flow Information Program is being reduced by 
more than $800,000 from the fiscal year 2010 enacted appropriation for 
stream flow in the President's budget. We urge the Congress to 
reinstate this cut.
    The administration also proposes to cut $3.5 million from the 
coastal and marine geology program. We support efforts to restore the 
entire amount of the reduction. This program supports the USGS' effort 
to understand the science of coastal and marine hazards, coastal 
groundwater studies and research into catastrophic storms, leaving 
funding only for the largest hurricanes to make landfall. These cuts 
are ill conceived and threaten the safety of Americans living along our 
coastlines.
    We understand the challenges presented by the Federal budget 
deficit. But any failure to prevent natural hazards from becoming 
natural disasters will increase future expenditures for disaster 
response and recovery. Recent natural disasters provide unmistakable 
evidence that society is vulnerable to staggering losses. The magnitude 
9.0 earthquake and tsunami that devastated Japan on March 11, 2011, the 
magnitude 7.0 earthquake that killed more than 200,000 people in Haiti 
on January 12, 2010, and the small volcanic eruptions in Iceland that 
disrupted global air traffic in April 2011, provide compelling evidence 
that the United States should take further actions to reduce risks from 
natural hazards.
    The administration's fiscal year 2012 budget request includes 
$133.9 million for natural hazards, $5.1 million below the 2010 enacted 
level. The ASCE is concerned that this decrease could compromise public 
safety. The USGS, and other Federal agencies involved in hazards 
research and mitigation, have face many years of underfunding; the 
proposed budget request will continue this trend.
    The recent earthquakes highlight the importance of such programs as 
the National Earthquake Hazards Reduction Program (NEHRP), of which the 
USGS is an important part. The NEHRP is one part of the USGS' 
contribution to the NEHRP. Earthquakes pose significant risk to 75 
million Americans in 39 States. The EHP provides information and 
products for earthquake loss reduction, including hazard and risk 
assessment, and comprehensive real-time earthquake monitoring. The ASCE 
request that the Congress restore funding to fiscal year 2010 levels 
for natural hazards.
    The Congress must increase the total appropriation for the USGS in 
fiscal year 2012. It must restore the $39 million in cuts proposed for 
biological information, mineral resources, water-quality assessment, 
and earthquake hazards programs in order to provide full funding for 
uncontrollable cost increases, and to provide new funds to enable the 
agency to address a growing backlog of needs for the USGS science and 
information, accelerate the timetable for deployment of critical 
projects, and undertake new initiatives that address new challenges.
    The ASCE recommends an appropriation of $1.2 billion for the USGS 
in fiscal year 2012.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
                               who we are
    James D. Taft, Executive Director, on behalf of the Association of 
State Drinking Water Administrators (ASDWA), is pleased to provide 
testimony to the Department of the Interior, Environment, and Related 
Agencies subcommittee on fiscal year 2012 appropriations for the 
Environmental Protection Agency (EPA). The ASDWA represents the State 
drinking water programs in each of the 50 States and territories and 
the Navajo Nation in their efforts to provide safe drinking water to 
more than 275 million consumers nationwide.
                           summary of request
    The ASDWA respectfully requests that, for fiscal year 2012, the 
subcommittee appropriate funding for three State drinking water 
programs at levels commensurate with Federal expectations for 
performance and at levels that ensure appropriate public health 
protection. The ASDWA requests $200 million for the Public Water System 
Supervision (PWSS) Program; $1.287 billion or the Drinking Water State 
Revolving Loan Fund (DWSRF) Program; and $10 million for State Drinking 
Water Program security initiatives. A more complete explanation of the 
needs represented by these requested amounts and a further explanation 
of these requested levels follows.
                      how states use federal funds
    States Need Increased Federal Support To Maintain Overall Public 
Health Protection.--State drinking water programs strive to meet public 
health protection goals through two principal funding programs: the 
PWSS and the DWSRF programs. These two programs, with their attendant 
State match requirements, provide the means for States to work with 
drinking water systems to ensure that American citizens can turn on 
their taps with confidence that the water is both safe to drink and the 
supply is adequate. In recent years, State drinking water programs have 
accepted additional responsibilities to work with all public water 
systems to ensure that critical drinking water infrastructure is 
protected; that plans are in place to respond to both natural and 
manmade disasters; and that communities are better positioned to 
support both physical and economic resilience in time of crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses are dependent upon a safe and adequate supply of drinking 
water. Economies only grow and sustain themselves when they have 
reliable water supplies. More than 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system. Even people who have their own private wells to meet 
their daily water needs will visit other homes or businesses served by 
a public water system. Children and the elderly are typically the most 
susceptible to illness and death from several of the contaminants 
regulated by Federal drinking water laws including lead, mercury, 
nitrates, bacteria, and viruses. As important as public water systems 
are to the quality of water we drink and our health, the majority of 
water produced by public water systems is used by businesses for a 
variety of purposes. Businesses need adequate supplies of good quality 
water for processing, cooling, and product manufacturing. The 
availability of adequate supplies of water is often a critical factor 
in attracting new industries to communities. Public water systems--and 
the cities, villages, schools, and businesses they support--rely on 
State drinking water programs to ensure they are in compliance with all 
applicable Federal requirements.
    The PWSS Program.--To meet the requirements of the Safe Drinking 
Water Act (SDWA), States have accepted primary enforcement 
responsibility for oversight of regulatory compliance and technical 
assistance efforts for more than 155,000 public water systems to ensure 
potential health-based violations do not occur or are remedied in a 
timely manner. Since 1996, State drinking water programs have 
participated in the development and implementation of more than 25 new 
Federal regulations and strategic initiatives designed to enhance the 
protection of public health. States are also implementing an array of 
proactive initiatives to protect public health from ``the source to the 
tap''. These include drinking source water assessments and protections; 
technical assistance with water treatment and distribution; and 
enhancement of overall water system performance capabilities. In recent 
years, States have taken on an increasingly prominent role in working 
with Federal and local partners to help ensure sufficient water 
quantity. In short, State activities go well beyond simply ensuring 
compliance at the tap.
    The DWSRF Program.--Drinking water in the United States is among 
the safest and most reliable in the world, thanks to significant 
infrastructure investments made over the decades. The payback on this 
investment has been exceptional: in the core DWSRF Program, $12 billion 
in capitalization grants from the Congress since 1997 has been 
leveraged by States into nearly $21.2 billion in infrastructure loans 
to small and large communities across the country. As a recent 
indicator of States' extraordinary accomplishments through this 
program, all States met the February 17, 2010 deadline (1 year from 
enactment) for having $2 billion in American Reinvestment and Recovery 
Act (ARRA) funds under contract or construction. Such investments pay 
tremendous dividends--both in supporting our economy and in protecting 
our citizens' health. State drinking water programs have also used the 
DWSRF funds to support the technical assistance and training needs of 
small drinking water systems and to help these water systems obtain the 
technical, managerial, and financial proficiency needed to meet the 
requirements of the SDWA.
    State Drinking Water Security Responsibilities.--Since the events 
of September 2001, as well as the more recent experiences of 
devastating hurricanes, wildfires, and floods, States have taken a 
variety of critical steps to meet the security and emergency response-
related needs of the drinking water community. State drinking water 
programs have responded to requests for assistance, training, 
information, and financial support from the water systems under their 
purview as well as supported utility-based ``mutual aid'' networks. 
States continually work toward integrating security considerations 
throughout all aspects of their drinking water programs. Technological 
advances in contaminant detection and decontamination capabilities, new 
economic risk and impact analysis models, and enhancements in cyber 
security techniques also demand State program awareness, 
implementation, and outreach to the water community.
                why increased funding is urgently needed
    State Drinking Water Programs are Hard Pressed.--States must 
accomplish all of the above-described activities, and take on new 
responsibilities, in the context of the current national economic 
downturn. This has meant further cutting State budgets, streamlining 
their workforces, and operating with less State-provided financial 
support. State drinking water programs have often been expected to do 
more with less and States have always responded with commitment and 
ingenuity. However, State drinking water programs are now in crisis. 
Insufficient Federal support for this critical program increases the 
likelihood of a contamination event that puts the public's health at 
risk.
    State Funding Gap Continues To Grow; States Cannot Keep Up.--
Although the 1996 SDWA amendments authorized the PWSS Program at $100 
million per year, appropriated amounts have only recently reached that 
authorized level--a level that now, almost 15 years from the date of 
those amendments, falls far short of the need. An amount of $105.7 
million was appropriated for the PWSS Program in fiscal year 2010. A 
proportionate amount of that level was also provided to States in 
fiscal year 2011, through a series of continuing resolutions, from 
October 1, 2010 until April 8, 2011. However, as explained below, due 
to the Congress' zeroing out of the State drinking water program 
security grant of $5 million, the net gain to States--from fiscal year 
2009 to fiscal year 2010 and fiscal year 2011--was only $1 million. The 
President's fiscal year 2012 budget requested $109. 7 million for the 
PWSS grant--again, an amount that is woefully inadequate for the 
enormity of the task faced by State drinking water programs. A few 
years ago, State drinking water program administrators identified an 
annual shortfall nationally of approximately $360 million between 
available funds and those needed to administer their programs. That gap 
only continues to grow and has negative consequences. Many States are 
simply unable to implement major provisions of the newer regulations, 
leaving the work undone or ceding the responsibility back to the EPA 
where it is likely to languish because of their own resource 
constraints and lack of ``on the ground'' expertise. This situation 
could create a significant implementation crisis in several regions of 
the country and ultimately delay implementation of critically needed 
public health protections.
      fiscal year 2012 request levels and sdwa program obligations
    The PWSS Program.--The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
necessary to maintain compliance levels and meet expectations has been 
essentially ``flat-lined'' or included only meager increases. Inflation 
has further eroded these inadequate funding levels. State drinking 
water programs are hard pressed to understand a justification for these 
funding levels since they are engaged in the critical phases of 
implementing the LT 2/Stage 2 Rule cluster (two sophisticated and 
complex initiatives to control disinfection by-products and microbial 
contaminants), the recently promulgated Ground Water Rule, and changes 
to the Lead and Copper Rule. States want to offer the flexibilities 
allowed under these and other rules to local water systems; however, 
fewer State resources mean less opportunity to work one-on-one with 
water systems to meet their individual needs. Looking ahead, States 
expect that new rules for perchlorate and carcinogenic volatile organic 
carbon compounds will be forthcoming in the near future as well as 
revisions to the Total Coliform Rule.
    The ASDWA respectfully requests that the fiscal year 2012 funding 
for the PWSS Program be appropriated at $200 million. This figure was 
calculated by starting with a baseline of $124.3 million (the fiscal 
year 2004 appropriated figure after adjustment for inflation); adding 
$50.7 million to implement recently promulgated rules (per the EPA's 
economic analyses for these rules); and adding $25 million for other 
new program requirements (e.g., emerging contaminants, modernizing data 
systems, and supporting small water systems).
    The DWSRF Program.--States were very encouraged by the $1.387 
billion appropriated for the DWSRF in fiscal year 2010 and the $1.287 
billion requested in the President's fiscal year 2011 budget. We were, 
however, disappointed to see the administration request drop to $990 
million for fiscal year 2012. States strongly support the higher 
levels. The primary purpose of the DWSRF is to improve public health 
protection by facilitating water system compliance with national 
primary drinking water regulations through the provision of loans to 
improve drinking water infrastructure. Water infrastructure is needed 
for public health protection as well as a sustainable economy, as 
explained above. States have very effectively and efficiently leveraged 
Federal dollars with State contributions by turning more than $12 
billion in cumulative Federal capitalization grants (not counting ARRA 
funds) into almost $21.2 billion in water infrastructure loans since 
1997. In so doing, States have provided assistance to more than 7,000 
projects, improving health protection for millions of Americans. 
Approximately 72 percent of projects and 38 percent of assistance has 
been provided to small communities (serving less than 10,000 people). 
However, the EPA's most recent National Drinking Water Infrastructure 
Needs Survey (2007) indicated that water system needs total $334.8 
billion over the next 20 years to comply with the SDWA mandates. States 
believe the $2 billion in ARRA funds and the fiscal year 2010 
appropriated level were very substantial down payments on addressing 
those needs and filling the infrastructure gap. In light of these 
indicators of success and documented needs, we believe funding at the 
$1.287 billion level will better enable the DWSRF to meet the SDWA 
compliance and public health protection goals for which it was 
designed.
    The ASDWA respectfully requests $1.287 billion in fiscal year 2012 
funding for the DWSRF program.
    Security Responsibilities.--After 7 years of supporting State 
security programs through a small grant of approximately $5 million in 
the EPA's appropriation, no funds were provided for this purpose in 
fiscal year 2010 and none were requested for fiscal year 2011 or 2012. 
State drinking water programs need funds to continue to expand their 
security activities, particularly for small and medium water systems 
and to support utility-based mutual aid networks for all drinking water 
systems. It is very difficult to understand why this grant has been 
zeroed out of the EPA's proposed budget. Given the realities 
exemplified by ongoing Homeland Security initiatives, the goals of the 
National Infrastructure Protection Plan, and the lessons learned from 
Hurricanes Katrina, Rita, and Gustav, State drinking water programs are 
working more closely than ever with their water utilities to evaluate, 
assist, and support drinking water systems' preparedness, response, and 
resiliency capabilities. Beyond the mandates of the Bioterrorism Act of 
2002, States are being directed to expand their efforts to reflect an 
``all hazards'' approach to water security and to focus their efforts 
toward smaller water systems not covered by the act. These systems rely 
heavily on the States to help them meet their needs and identify 
potential funding sources.
    The ASDWA respectfully requests $10 million in fiscal year 2012 
funding for the State security initiatives. These funds would be 
commensurate with the security tasks State drinking water programs must 
take on.
                               conclusion
    In conclusion, the ASDWA respectfully recommends that Federal 
fiscal year 2012 budget needs for the provision of safe drinking water 
be adequately funded by the Congress. A strong drinking water program 
supported by the Federal-State partnership will ensure that the quality 
of drinking water in this country will not deteriorate and, in fact, 
will continue to improve--so that the public can be assured that a 
glass of water is safe to drink no matter where they travel or live. 
States are willing and committed partners. However, additional Federal 
financial assistance is needed to meet ongoing and ever growing 
regulatory and security needs. In 1996, the Congress provided the 
authority to ensure that the burden would not go unsupported. For 
fiscal year 2012, the ASDWA asks that the promise of that support be 
realized.
                                 ______
                                 
                Letter From the Alliance to Save Energy
                                                     April 1, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies,
Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies,
Washington, DC.
    Dear Chairman Reed and Senator Murkowski: I am writing to express 
the strong support of the Alliance to Save Energy for the President's 
budget request of $55 million in fiscal year 2012 funding for the 
Environmental Protection Agency's (EPA) ENERGY STAR Program. For well 
more than a decade, the ENERGY STAR program has greatly helped 
businesses, governments, and consumers across the country to save money 
each year by investing in energy-efficient products.
    The program currently has partnerships with more than 20,000 
private and public sector organizations, who have invested a combined 
total of $80 billion to help to deliver technical information and tools 
that consumers need to choose energy-efficiency solutions and best 
management practices. ENERGY STAR counts more than 5,000 builder 
partners and partners who supply products and services for energy-
efficient home construction. More than 840,000 families now live in 
ENERGY STAR Homes--locking in financial savings for homeowners that 
amount to more than $200 million annually.
    ENERGY STAR's track record of success and cost-effectiveness 
throughout the years has demonstrated the worth of the program. The EPA 
estimates that for every Federal $1 spent on ENERGY STAR, $75 or more 
in consumer energy bills are saved and about 3.7 tons of carbon dioxide 
emissions are avoided. In 2010 alone, Americans, with the help of the 
ENERGY STAR Program, saved nearly $18 billion on their utility bills. 
Further investment by the Government to break down market barriers that 
currently hamper the purchasing of energy efficient products will 
achieve even greater results, which is why we are asking for your 
support for the President's request for a 6 percent increase in the 
fiscal year 2012 budget for the EPA ENERGY STAR to $55 million. A 
modest increase in funding would be effectively directed at the 
following areas:
  --ENERGY STAR Product Labeling.--Individual product choices are a 
        significant driver of total national energy use. While the 
        ENERGY STAR product labeling program already encompasses more 
        than 60 product categories across 3,000 manufacturers, there 
        remain a substantial number of new products that can be added 
        in the future.
  --ENERGY STAR New Home Construction.--Expanding the number of ENERGY 
        STAR qualified new homes is an essential part of a 
        comprehensive approach reducing energy demand in the country. 
        More than 1 million ENERGY STAR qualified homes have been built 
        in the United States, with more than 100,000 constructed in 
        2009 alone--representing more than 20 percent of the total U.S. 
        housing starts.
  --ENERGY STAR Existing Home Improvements.--In 2009, more than 23,000 
        existing homes were retrofitted from home performance with 
        ENERGY STAR with more than 30 program sponsors across 28 
        States. Additional funding would expand the number of 
        communities where these services are offered and the savings 
        that result, helping to grow these energy efficiency services 
        to be nationally available.
  --ENERGY STAR New Commercial Building Construction.--Improving the 
        efficiency of new commercial and institutional building 
        construction is an essential part of a comprehensive approach 
        to reducing energy demand and addressing climate change, due to 
        the expected expansion in the commercial building industry. As 
        part of ENERGY STAR, the EPA has developed a new construction 
        program enabling more than 3,900 commercial buildings to earn 
        the ENERGY STAR approval in 2009, and a cumulative total of 
        almost 9,000 buildings.
  --ENERGY STAR Industrial.--The EPA's ENERGY STAR Program recognizes 
        the incredible potential of the U.S. industrial sector for 
        energy savings. The EPA benchmarked energy performance in 2009 
        in the industrial sector, which indicated that fuel use has 
        improved by 12 percent. Additional resources could be used to 
        expand the program to represent the top 25 to 30 energy-using 
        sectors across the country, and to develop streamlined 
        assistance tools for smaller industry.
    The ENERGY STAR program in the past year has taken a number of 
initiatives to improve the administration and accountability of the 
program. The EPA ENERGY STAR program helps consumers reduce high energy 
bills, promotes economic growth through investments in new 
technologies, reduces pollution in a cost-effective way, and enhances 
the reliability of our electric system by reducing peak demand. We 
strongly urge you to fund the President's request and provide $55 
million for the EPA ENERGY STAR program in fiscal year 2012. Thank you 
for your time and I ask that this letter be submitted as part of the 
record of your subcommittee's hearing on the fiscal year 2012 EPA 
budget.
            Sincerely,
                                               Brad Penney,
                                  Director of Government Relations.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) wishes to submit the 
following statement on the fiscal year 2012 appropriation for the 
Environmental Protection Agency (EPA) science and technology (S&T) 
programs. The ASM is the largest single life science organization in 
the world with more than 38,000 members. The ASM mission is to enhance 
the science of microbiology, to gain a better understanding of life 
processes and to promote the application of this knowledge for improved 
health and environmental well-being.
    The ASM is concerned about the administration's fiscal year 2012 
budget request of $826 million for the EPA's science and technology 
programs, a 2 percent decrease from fiscal year 2010 enacted levels. 
Within the S&T proposal, the $584 million set aside for research is a 
decrease of $13 million for the EPA's scientific efforts. The ASM urges 
the Congress to support increased funding for the EPA's S&T programs 
which are essential to the EPA's mission.
    The EPA's mission to protect the environment and public health is 
dependent upon cutting-edge technologies and science-based risk 
assessments. The quality of the EPA science directly impacts food 
safety, industry, agriculture, the economy, local ecosystems, the 
Nation's natural resources, air quality and consequently, public well 
being. The EPA oversight requires the best scientific knowledge 
available to prevent pollution, enforce environmental standards, 
remediate contaminated sites, ensure the safety of chemicals and 
safeguard human health. When working with its partners in academia, 
industry, nonprofits and government, the EPA is most effective when it 
can utilize the best science and technology tools to resolve complex 
challenges such as last year's devastating Gulf of Mexico oil spill.
    In fiscal year 2012, the EPA is restructuring its scientific 
research efforts by shifting from problem-focused projects to system-
oriented approaches, integrating related activities into multi-
disciplinary projects. As a result, it has realigned its 12 base 
research programs into 4 new research programs with greater emphasis on 
sustainability:
  --air, climate, and energy;
  --safe and sustainable water resources;
  --sustainable and healthy communities; and
  --chemical safety and sustainability.
    The administration's fiscal year 2012 proposed budget for the EPA 
recognizes the importance of innovative research. Support is increased 
for the Science To Achieve Results (STAR) extramural grant programs, 
studies of endocrine disruptors in water systems and computational 
toxicology. Other program budget increases would upgrade the EPA's e-
reporting and monitoring tools, necessary to both expedite risk 
assessments and improve enforcement of environmental regulations.
         epa science protects public health and the environment
    The EPA oversight of the environment requires the most advanced 
tools to monitor, measure, and evaluate threats to environmental 
quality. The ASM supports the EPA S&T and is concerned about budget 
reductions for the EPA's Office of Research and Development (ORD). The 
ORD manages several laboratories and research centers across the 
country, distributes significant extramural funding to universities and 
other stakeholders and supports research across the environmental 
spectrum. The ORD programs address both risk assessment and management 
in the following focus areas:
  --clean air;
  --drinking water;
  --ecosystem services research;
  --endocrine disruptors;
  --global climate change;
  --human health;
  --human health risk assessment;
  --land;
  --safe pesticides/safe products; and
  --water quality.
    Within the ORD, the Microbiological and Chemical Exposure 
Assessment Research Division is responsible for evaluating air, water, 
and soil samples for microbial and chemical contaminants. Collected 
during studies like the NEEAR Water Study, which investigates the human 
health effects of using recreational waters, these samples are an 
important tool in safeguarding human, plant, and animal health. Methods 
used by agency scientists to measure human risk factors range from 
state-of-the-art chemical assays to microbiological assays based on 
genomics, immunological techniques, and other technologies. The EPA 
laboratories provide reference standards, training, and other technical 
services such as incident investigations to other EPA and Federal 
entities and State laboratories.
    The ORD supported studies of microbial pathogens and toxic 
chemicals in environments like indoor air and drinking water often use 
new analytical tools developed in house by the EPA scientists. These 
EPA innovations include molecular methods to compare the DNA of 
microbes isolated from the environment with DNA from human isolates as 
well as animal models to measure pathogen virulence. In the past year, 
the EPA scientists reported results from research on how arsenic is 
absorbed into the mammalian bloodstream, and others developed a new 
immunoassay for quantifying antibodies in saliva, a noninvasive test 
for human infections by waterborne pathogens. In 2010, the EPA 
researchers and collaborators from the Department of Energy received an 
R&D 100 Award for the CANARY software, which helps water system 
managers detect a wide variety of chemical and biological contaminants 
quickly. The free software tool is already monitoring drinking water 
operations in more than a dozen countries. The recent unveiling of a 
new high-speed robot screening system that can test the potential 
toxicity of 10,000 different chemicals, highlighted a successful 
investment in multi-year research and cross agency collaboration.
             epa science responds to changing environments
    The EPA mission to protect human health and the environment 
requires a rapid response to unforeseen situations like natural or 
human caused disasters and subsequent new threats. It also requires the 
ability to adjust the EPA enforcement activities within evolving 
circumstances like updated scientific information or new products 
entering the market. The most dramatic example from the past year was 
the Deepwater Horizon oil spill in the Gulf of Mexico. The EPA 
personnel quickly initiated assessments of air and water quality and 
outlined protocols to monitor long-term effects of the disaster. The 
EPA was vice chair of the National Response Team, mobilized its own 
headquarters and Regional Emergency Operations Center, and provided 
regular updates to the public and private sectors. Specific EPA 
activities included lab analysis of air, water, and soil samples; input 
on cleanup efforts along the shoreline; and collaboration with the 
National Oceanic Atmospheric Administration to design strategies for 
monitoring possible toxicity of the oil dispersants utilized. The EPA 
Administrator now chairs the Gulf Coast Ecosystem Restoration Task 
Force, created last September to coordinate remediation of the affected 
areas.
    In the past year, the EPA S&T programs informed the agency's 
efforts to update regulations or propose new recommendations including:
  --Proposed revisions to the Total Coliform Rule requiring all public 
        water systems to investigate and correct any potential 
        microbial contamination;
  --A new EPA Drinking Water Strategy to improve drinking water 
        technology that simultaneously detects groups of contaminants, 
        continuing the EPA's progress toward ensuring water systems 
        that meet standards for more than 90 contaminants;
  --In March 2011 the EPA proposed adding 30 currently unregulated 
        contaminants (two viruses and 28 chemicals) to those already 
        monitored in drinking water;
  --New air quality standards for sulfur dioxide and stronger standards 
        for nitrous oxide (the first new SO<INF>2</INF> standard in 
        almost 40 years and the first for NO<INF>2</INF> in 35 years); 
        the SO<INF>2</INF> standard may help avoid 54,000 asthma 
        attacks per year;
  --New limits for mercury emissions from cement plants, aimed at a 92 
        percent reduction from projected 2013 levels, expected to save 
        $7-$19 in health costs for every $1 spent; and
  --New Federal rules, jointly established with the Department of 
        Transportation, that set the first national greenhouse gas 
        emissions standards, expected to conserve about 1.8 billion 
        barrels of oil.
       epa grants stimulate innovation in environmental sciences
    The EPA awards grants outside the agency to academic institutions, 
State programs, the private sector, nonprofit organizations and others 
to fund an impressive array of projects from laboratory research to 
local toxic spill cleanup. Within the ORD budget allocation, the 
National Center for Environmental Research (NCER) supports extramural 
research that complements the EPA's own research areas, through 
competitive grants, fellowships, and its Small Business Innovative 
Research (SBIR) program. The NCER's STAR grant program currently 
focuses on drinking water and water quality, pollution prevention using 
new technologies, the health effects of particulate matter, global 
change, children's health, ecosystem assessment and restoration, human 
health risk assessment, endocrine disrupting chemicals and societal 
implications.
    The ASM commends the proposed fiscal year 2012 increase of $24.7 
million for the STAR program which consistently generates innovative 
technologies and new scientific knowledge that strengthen the EPA 
mission. The EPA also contributes to the Nation's future technical 
workforce. Under the proposed fiscal year 2012 budget, the agency would 
distribute $14 million for STAR Fellowships including support for an 
estimated 243 continuing fellows and 105 new STAR fellows. In addition, 
the NCER supports tomorrow's scientists and engineers through its 
Greater Research Opportunities Fellowships for graduate and 
undergraduate students and its People, Prosperity, and the Planet 
Program sponsoring undergraduate design competitions that are focused 
on sustainability. The NCER receives approximately 2,000-2,500 
proposals annually for its STAR grants and fellowships, of which only a 
small percentage can be funded.
         s&t funding impacts epa protection, present and future
    The EPA must be able to access the latest methods for risk 
assessment and monitoring to be effective. The EPA's New Chemicals 
Program relies on evolving technical tools to ascertain the potential 
risks of roughly 1,100 new chemicals, biotechnology products, and 
nanomaterials submitted each year for pre-market review. The Pesticide 
Program's three laboratories not only assess chemical residues, but 
have had to develop test methods for products from genetically modified 
organisms, biothreat agents like the anthrax bacterium, and the 
efficacy of antimicrobials in controlling infectious pathogens in 
healthcare settings. The EPA scientists developed assays for measuring 
pharmaceuticals and personal care products in waters and biosolids, 
another example of emerging environmental threats that must be 
monitored using new or up-to-date methods.
    The EPA's S&T programs are the crucial base for effective oversight 
of the environment. We recommend that the Congress increase the EPA S&T 
programs to protect both human health and the environment.
                                 ______
                                 
       Prepared Statement of the Arctic Slope Native Association
    The Arctic Slope Native Association (ASNA) hereby joins the call of 
other tribal contractors across the country for full appropriations to 
cover the obligations of the Indian Health Service (IHS) and the Bureau 
of Indian Affairs (BIA) to pay full contract support costs (CSC) when 
tribes like ASNA contract to operate IHS and BIA facilities and 
services. The total requirements to meet these legal obligations are 
$615 million for IHS contract payments and $228 million for BIA 
contract payments. The fiscal year 2012 proposed budget should be 
adjusted to meet these required levels.
    ASNA has long suffered from contract underpayments, dating back to 
when ASNA first began contracting with IHS.
    In 1996, ASNA was awarded a contract to operate the IHS's Samuel 
Simmonds Hospital in Barrow, Alaska. That hospital serves all the 
tribes of the North Slope of Alaska. As soon as contracted hospital 
operations started, IHS refused to pay us the full amounts due under 
the law to operate the hospital. IHS said it did not have the money to 
pay us. As a result, over the years hospital operations suffered. We 
believed IHS and we made the cuts we had to make in hospital operations 
to cover IHS's shortfall, only to learn years later that IHS had the 
money all along (we learned this from the Supreme Court Cherokee Nation 
case).
    Today, we are fighting to recover damages for the amounts that IHS 
should have paid us. We have several appeals pending before the 
Contract Appeals Board and the Federal Circuit Court of Appeals 
totaling $7,529,334.
    But IHS continues to violate the law. In fiscal year 2010 we ended 
the year with more than $900,000 left unpaid by IHS, and we expect to 
suffer at least the same shortfall this year too. So once again, 
services will remain cut to make up for the IHS's failure, since these 
CSCs are all fixed costs like insurance and auditing costs that we have 
no choice but to pay. Our people will suffer again.
    The same is true with the BIA, which this last year again failed to 
pay the ASNA's CSC requirement in full.
    When IHS and BIA hire us under contract to operate their programs 
the agencies have a duty to pay us promptly and in full, just like any 
other contractor. But the two agencies keep underpaying us, year after 
year. We should not be treated like ``second-class contractors'' just 
because we are Native American contractors. If anything, the 
Government's trust responsibility to provide healthcare and social 
services to our people ought to compel these agencies to be more 
respectful of their contract obligations, not less. Instead, they have 
shifted the cost of the contracts to our people, forcing cuts in 
healthcare, educational assistance, child welfare assistance--the list 
goes on and on. That is unconscionable.
    Fulfilling the contractual requirement to pay CSC also means vacant 
positions can be filled. Last year the administration and the Congress 
supported an unprecedented increase in CSC payments to partially offset 
the shortfalls we have suffered. ASNA's shortfall dropped by $466,204, 
and we used those funds to add six direct patient care positions, 
including a certified coding technician vital to billing the Medicare 
and Medicaid systems and other third-party payors, a patient case 
management assistant, a deputy director for our dental program, a 
Resource and Patient Management System site manager, a nurse, and a 
patient support coordinator. Even still, 16 positions remain unfilled.
    ASNA asks that the Congress take the necessary final steps this 
year to at long last end the persistent shortfalls Indian country 
suffers in the payments of our contracts and self-governance compacts.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation
    On behalf of the Fort Peck Tribes, I am pleased to present 
testimony on the fiscal year 2012 Bureau of Indian Affairs (BIA), 
Indian Health Service (IHS), and Environmental Protection Agency (EPA) 
budget. We are a large, land-based tribe. The Fort Peck Reservation 
encompasses 2.09 million acres. The reservation population is growing 
and our tribal enrollment is approximately 12,500 members. Our greatest 
need is healthcare, public safety, infrastructure, and education.
    The tribes' unemployment rate on the reservation is 56 percent. Of 
our tribal members who are working, approximately 43 percent live below 
the poverty level. Given the enormous unemployment and poverty rates on 
the reservation, our needs for both the BIA and the IHS programs and 
services are substantial.
    The United States has a continuing trust responsibility to assist 
tribes to address the basic governmental services such as safe drinking 
water, public safety, and healthcare. More than 20 years ago, an 
earlier Congress noted that when there is community stability--with 
core governmental services being met--``Indian tribes are in the best 
position to implement economic development plans, taking into account 
the available natural resources, labor force, financial resources and 
markets.'' If the Federal Government could provide greater assistance 
to us with these core governmental services, our members would be so 
much better off.
    To be clear, the appropriation of funds for tribal governments is 
not a discretionary act, rather these appropriations represent the 
United States' fulfillment of its mandatory obligation under the 
treaties and agreements entered into with tribal governments.
                                  ihs
    Indian country continues to suffer higher rates of infant 
mortality, suicide, accident, alcoholism, diabetes, and heart disease 
when compared with other minorities and the general American 
population. Yet money directed to healthcare, especially preventative 
care--such as routine checkups and health education that clearly 
improves the quality of life and helps avoid more expensive healthcare 
costs in the future--has not been provided to tribal communities. The 
Federal Government has a trust responsibility to provide healthcare to 
Native Americans, an obligation that was paid for by the Native people 
of this county with millions of acres of land, resources, and our 
traditional way of life.
    We are particularly concerned about the IHS mismanagement of the 
limited resources that are made available to the agency. We encourage 
the appropriators to examine the root of this mismanagement and to 
encourage the IHS to engage with tribes with regard to this 
investigation and to provide us with the information that we need to be 
assured that these limited resources are properly accounted for.
    Mental Health.--During the 2009-2010 school year, 5 of our middle 
school children committed suicide, and 20 more of our children have 
tried. Since October 2010, two more teenagers committed suicide, 
including the 17-year-old son of our former vice-chairwoman, and 
several more throughout our reservation have reportedly tried. Further, 
between April 2009-April 2010, we had 153 suicide-related calls to the 
law enforcement agencies serving the reservation. According to recent 
testimony before the Senate Committee on Indian Affairs, the IHS 
reported that suicide is the second leading cause of death for Indian 
youth ages 15-24 and that suicides in this age group make up 64 percent 
of all suicides throughout Indian country.
    A loss of a life is tragic in any circumstance, but when this loss 
happens because a young person cannot see the promise of tomorrow and 
the hope for a better future, it is not only tragic; it is 
catastrophic. It is catastrophic for not only the family involved, but 
the entire reservation. These young people are the Fort Peck Tribes' 
future. Addressing suicide requires a multi-prong effort that includes 
all aspects of health, including substance abuse, mental health, 
spiritual health, and physical health. We know that it requires quick 
intervention and involvement by all parts of our community from the 
health professionals, social service agencies, schools, tribal 
government, and the families. We don't need anymore reports to tell us 
this. We need the resources to carryout this work. We urge the 
subcommittee to continue to support mental health and suicide 
prevention programs to respond to this devastating crisis in Indian 
country.
    Fort Peck Dialysis Center.--There is a desperate need for fully 
staffed and equipped health facilities capable of providing a full 
range of medical services. The IHS needs to evaluate and plan the 
process for new in-patient facilities in Montana, including the urgent 
expansion of the Fort Peck Tribal Dialysis Unit to 18 stations (from 
10) or construction of a new dialysis unit. We are now at capacity, 
serving 33 patients 6 days a week. We have an additional 73-100 pre-
renal patients. If we cannot expand our services, these patients will 
have to travel long distances for this life-sustaining care. The 
reauthorization of the Indian Health Care Improvement Act now allows 
the IHS to dedicate resources to dialysis, which is an important aspect 
of healthcare in Indian communities. I request that the subcommittee 
direct the IHS to report to the Congress on its efforts in the area of 
diabetes treatment and dialysis.
    Contract Health.--We recognize the significance of the requested 
$169.3 million increase in Contract Health Care (CHC), but this 
increase is inadequate to address the growing healthcare crisis in 
Indian country. The Fort Peck Tribes alone need a near doubling of our 
inadequate CHC budget--to $11 million--to meet the growing health 
demands of our more than 11,000 tribal members. Far too many members 
are not referred out for CHC services that their primary healthcare 
professionals determine are medically necessary because we are at life 
or limb stage treatment.
    Currently, the IHS does not refer people with insurance out for 
necessary medical care, because the IHS does not want to pay the 
minimal co-pays or deductible for these services. Thus, people do not 
get care until it reaches the critical ``life or limb'' stage of 
necessity at which this point the IHS would still only have to pay the 
minimal co-pay or deductible. It would seem that it would be a far 
better health policy decision to pay the co-pay or deductible long 
before the health situation has arisen to a life or limb crisis. Yet, 
the IHS will not reconsider its interpretation of the payor-of-last-
resort policy to allow for these sound health policy decisions to be 
made.
                                  bia
    The Fort Peck Reservation Rural Water System.--The health status of 
a community is directly related to the quality of water available, 
which is why the Fort Peck Tribes took the lead in building the Fort 
Peck Reservation Rural Water System, a system that will provide quality 
drinking water to the reservation and surrounding communities.
    The Congress enacted the Fort Peck Reservation Rural Water System 
Act of 2000, Public Law 106-382, to ensure a safe and adequate drinking 
water supply to all of the residents of the Fort Peck Indian 
Reservation. The law directs that funding for the operation and 
maintenance of the water system is to be fully paid for by the BIA. The 
tribes and the Bureau of Reclamation have completed construction of 
many components of this $200 million project, including the raw water 
intake facility, and will soon complete the water treatment facility. 
This water treatment facility coming on-line this year is vital, as the 
EPA has determined that the wells that now provide water to the city of 
Poplar, the seat of tribal government, home to the BIA and IHS agency 
and the location of the Poplar schools, is contaminated by a brine 
plume.
    While the BIA budget includes $200,000 for the Operation and 
Maintenance (O&M) of this important project, more funding is needed. 
The BIA is well aware that the O&M costs would rise as the water 
treatment plant came on line and the project begins to deliver water to 
most of the residents on the reservation. To date the Federal 
Government has invested $100 million, to construct this vitally needed 
project. We now need the Department of the Interior to provide adequate 
operational funds to ensure that this $100 million investment does not 
go to waste. Thus, an additional $800,000 is needed to fully operate 
the Fort Peck Reservation Rural Water System.
    Funding for Public Safety and Detention.--The need for increased 
law enforcement and tribal courts remains a priority for the Fort Peck 
Tribes. We greatly appreciate the increases the Congress has recently 
provided for public safety programs. These increases, however, are 
insufficient to fulfill the United States' basic trust responsibility 
in the areas of health and safety. Our reservation needs more officers 
and the resources they require to patrol a large land base. This must 
be matched with additional resources for tribal courts. The Congress 
should ensure that the $20 million proposed increase in law enforcement 
funding for fiscal year 2012 translates into more officers on the Fort 
Peck Reservation.
    For the period April, 2009-April 2010, there were 17,353 calls for 
service to the law enforcement agencies serving the Fort Peck 
Reservation. These calls include driving under the influence (852), 
aggravated assault (78), sexual assault (142), and domestic violence 
(462). The Fort Peck Police Department has 14 officers. This is more 
than 50 percent below what is considered necessary for adequate 
coverage for a community the size of Fort Peck. This means that in most 
instances when our officers respond to a call they are doing so alone. 
This places our officers in grave danger, as these circumstances are 
frequently scenes that involve violence, alcohol, or other substances. 
Thus, while we appreciate the requested increase in funding, emphasis 
must continue to be placed on ensuring that tribal law enforcement 
programs have the resources that they need to keep our communities 
safe.
    I want to particularly support the $11.4 million requested to fund 
the operations of the newly constructed detention facilities. The Fort 
Peck Tribes received a $1 million grant from the Department of Justice 
to rebuild our detention facilities. We have entered into a contract 
with the BIA for the operation of this newly expanded facility and are 
excited. We have broken ground and will be operational in fiscal year 
2012. This new facility will allow us to better house and care for our 
prisoners close to their families and the community support that they 
need to become productive members of our society again.
                      contract support costs (csc)
    The Fort Peck Tribes operate 14 programs through Indian Self-
Determination Act Contracts and grants with the BIA and the IHS. The 
fundamental goal of the Indian Self-Determination Act is to empower 
tribal governments to operate Federal programs to better meet the needs 
of the people living on the reservation. After more than 30 years, it 
is well documented that tribes have taken up the challenge and are 
fulfilling the goals of the Indian Self-Determination and Assistance 
Act. The act requires that tribes must have at least as much money as 
the Federal Government had to operate these programs. Importantly, this 
includes the administrative costs, which are called CSC. Currently, 
however these costs are not fully funded. At Fort Peck alone we have a 
$627,000 shortfall in contract support funding, which means we are 
forced to use program funds to cover these necessary administrative 
costs. While we are pleased that the Congress and the administration 
have provided significant increases for CSC in the last 2 years, it is 
important that this trend continue.
                              environment
    Finally, I want to express the tribes' strong support for the 
increased funding for tribal environmental programs. Specifically, I 
urge the subcommittee to support the $71 million for the Tribal General 
Assistance Program and the $20 million for a new initiative to fund 
tribal multimedia programs to better implement environmental programs 
on tribal lands. The Fort Peck Tribes were one of the first tribes in 
the country to obtain Treatment as a State Status under the Clean Water 
Act and one of the first to obtain Class I air designation for our 
reservation. For the Fort Peck Tribes, protecting the land and 
resources that our ancestors fought so hard to preserve for us is our 
paramount mission. We work closely with our Federal and State partners 
to accomplish this goal and appreciate the continuing support of the 
Congress for these efforts.
    Thank you for providing me the opportunity to present the views of 
the Fort Peck Tribes.
                                 ______
                                 
        Prepared Statement of the Appalachian Trail Conservancy
    On behalf of the Appalachian Trail Conservancy (ATC), for reasons 
described below, I am requesting a fiscal year 2012 appropriation from 
the Land and Water Conservation Fund in the amounts of $1,750,000 for 
the National Park Service (NPS) and $9,200,000 for the USDA Forest 
Service (USFS) for the acquisition of lands and interests in lands 
surrounding or bordering the Appalachian National Scenic Trail in the 
States of Vermont, Tennessee (Cherokee NF), and North Carolina (Pisgah 
NF). In addition, we are requesting appropriations under the Forest 
Legacy program for the USFS totaling $8.73 million for two land-
conservation projects in the State of Maine.
    Background.--The Appalachian Trail (AT) is America's premier long-
distance footpath. Initially established between 1923 and 1937 as a 
continuous footpath extending from western Maine to northern Georgia, 
the trail gained Federal recognition in 1968 with the passage of the 
National Trails System Act. Amendments to that act in 1978 expanded the 
authorization for Federal and State land acquisition to establish a 
permanent, publicly owned right-of-way as well as a protective corridor 
or ``greenway'' along the trail. Since 1978, with the strong support of 
the subcommittee and the Congress as a whole, the Appalachian National 
Scenic Trail land-acquisition program of the NPS and USFS has become 
one of the most successful land-conservation efforts in the Nation's 
history with the acquisition of more than 193,000 acres, more than 
3,378 parcels, in 14 States. Today, only approximately 5 miles of the 
2,181-mile AT remain to be protected through public ownership.
    Resource Characteristics.--The AT is a 2,181-mile footpath 
extending along the crests and valleys of the Appalachian Mountains 
through 14 States from Maine to Georgia. Often characterized as a 
``string of pearls'', the trail, which is administered as a unit of the 
National Park System, connects eight National Forests, six other units 
of the National Park System, and approximately 60 State parks, forests, 
and game-management units. With an estimated 2 million visitors per 
year, it ranks among the most heavily visited units of the National 
Park System and also ranks among the top 10 units from the standpoint 
of natural diversity with more than 2,200 documented occurrences of 
federally and State-listed rare, threatened, or endangered species at 
more than 500 discrete sites.
    The AT is equally well known as a remarkable public/private 
partnership. Since the initial construction of the trail in the 1920s 
and 1930s, volunteers affiliated with the Appalachian Trail Conservancy 
have constructed, reconstructed, and maintained the footpath as well as 
a system of more than 250 shelters and associated facilities such as 
privies, improved campsites, bridges, signs, and parking lots. In 2010, 
for example, 6,128 volunteers contributed more than 213,900 hours of 
labor along the trail. As an outgrowth of an agreement between the NPS 
and ATC, the Conservancy has accepted management responsibility for 
most lands acquired by that agency along the trail. The ATC, through 
its network of 31 club affiliates, is now responsible for virtually all 
phases of ``park'' operations, ranging from trail and facility 
maintenance and construction to lands and resources management to 
visitor education and services. The ATC also provides ongoing, 
volunteer-based stewardship for other trail lands, totaling more than 
250,000 acres.
    Need for Appropriations.--As noted previously, while the 
Appalachian National Scenic Trail protection program represents one of 
the most successful land-acquisition programs in the history of the 
conservation movement in the United States, that program is not yet 
complete. Although our hope had been to complete the program by the 
year 2000, escalating land values coupled with diminished 
administrative capacity in the affected agencies have conspired to 
delay full program completion. Nevertheless, a number of critical 
parcels are now ``ripe'' for land acquisition from willing sellers and 
we are seeking fiscal year 2012 LWCF appropriations to secure those 
properties. A brief description of each of those critical parcels 
follows.
    Chateauguay-No Town Project, Vermont.--This project involves four 
parcels, totaling 1,000 acres, in the towns of Barnard and Bridgewater, 
Vermont, to be acquired in fee-simple and an additional 81.39-acre 
parcel in Pomfret, Vermont, to be placed under a conservation easement. 
Negotiations have been spearheaded for several years by The 
Conservation Fund. The four properties straddle more than 1\1/2\ miles 
of the AT in an area where earlier acquisitions by the NPS provided 
only a narrow buffer for the footpath. They include a high-value 
wetland complex and feeding habitat for migratory birds, black bears, 
and moose as well as the headwaters of the Locust Creek watershed, a 
Vermont Class A stream. The fifth, easement parcel is situated on a 
hillside adjacent to and above the trail in the Town of Pomfret that is 
under threat of residential subdivision. A partial appropriation for 
this project was included in the fiscal year 2010 Interior, 
environment, and related agencies appropriations bill and, in March 
2011, the NPS acquired a portion (631 acres) of the affected 
properties. The ATC and The Conservation Fund are requesting second-
installment funding for this project in fiscal year 2012 of $1.75 
million for the NPS.
    Rocky Fork, Tennessee/Cherokee National Forest.--In mid-December, 
2008, the USDA Forest Service acquired approximately 2,200 acres of 
this 10,000-acre property in eastern Tennessee situated midway between 
Johnson City and Asheville, North Carolina, and adjacent to Interstate 
26. The Conservation Fund provided bridge funding to acquire the 
balance of the property in anticipation of future sale to the USFS and 
the State of Tennessee. The property includes many game and nongame 
wildlife values, including 16 miles of ``blue-ribbon'' trout streams 
and outstanding black bear, white-tailed deer, and wild turkey habitat. 
The property also includes 1.2 miles of the Appalachian National Scenic 
Trail and its acquisition will permit future construction of a 3-mile 
relocation to provide a much-improved alignment for the footpath. Total 
costs for the acquisition were approximately $43 million and the ATC is 
working closely with TCF, the Southern Appalachian Highlands 
Conservancy, and a number of other conservation and sportsmen 
organizations to complete the overall funding package for the project. 
Substantial portions of the property already have been acquired from 
previous year appropriations. ATC and The Conservation Fund are 
requesting an fiscal year 2012 LWCF appropriation of $5 million for the 
USFS as ``final installment'' funding to acquire the remaining 
approximately 1,190 acres of the property.
    Rich Mountain, Tennessee/Cherokee National Forest.--This 100-acre 
privately owned in-holding is situated in the northwest corner of the 
Rocky Fork property (see above) and unfortunately was carved out by New 
Forestry, LLC--the previous owners of the Rocky Fork property--at the 
time the remainder of the property was sold to the USFS and The 
Conservation Fund. It includes the highest point of land for the 
overall property as well as prominent cliffs locally known as Buzzard 
Rock. The cliffs are only a short distance from the AT through a high 
elevation health bald. The property provides sweeping views of the 
Sampson Mountain Wilderness and northeast Tennessee/southwest Virginia. 
The ATC is requesting an fiscal year 2012 LWCF appropriation of 
$450,000 for the USFS to acquire this critical in-holding.
    Shook Branch, Tennessee/Cherokee National Forest.--This 20-acre 
property is situated in eastern Tennessee in the Cherokee National 
Forest. The AT currently follows a dangerous road-walk and crosses US 
321 at a location with limited site distances to on-coming traffic. A 
proposed new route has been identified and a number of parcels have 
been acquired by the USFS to establish the route. The Shook Branch 
property is necessary in order to complete the proposed relocation. The 
current property owner has expressed a willingness to sell the 
property. The ATC is requesting a fiscal year 2012 LWCF appropriation 
of $890,000 for the USFS to acquire the property at appraised value.
    Ripshin Tract, Tennessee/Cherokee National Forest.--This 392-acre 
property is situated below the cliff-top viewpoints from the AT on 
Little Bald Knob, west of Ripshin Lake, in the Cherokee National 
Forest. The property encompasses the headwaters of Roaring Creek and is 
adjacent to the Moffett Laurel Botanical Area. It contains habitat and 
breeding grounds for the bog turtle--a State threatened species as well 
as six other State-listed plants and animals. The ATC is requesting an 
fiscal year 2012 LWCF appropriation in the amount of $1,710,000 for the 
USFS to acquire the property.
    Roan Mountain National Trails Tract, North Carolina/Pisgah National 
Forest.--Acquisition of this 136-acre property will protect the 
viewshed of both the Appalachian Trail and the Overmountain Victory 
National Historic Trail (OVNHT) near their intersection in the 
Highlands of Roan. The property provides outstanding views of Yellow 
Mountain Gap and the Roaring Creek valley, contains numerous 
waterfalls, and supports nesting populations of both golden-winged 
warblers and native brook trout. The property also likely provided a 
campsite during the Revolutionary War when, in 1780, the Overmountain 
Boys marched to Kings Mountain to confront and defeat the British army. 
The ATC is requesting an fiscal year 2012 LWCF appropriation of $1.2 
million for the USFS to acquire the property.
    High Peaks Conservation Project, Forest Legacy, Maine.--ATC is 
supporting a request from the State of Maine and the Trust for Public 
Lands for funding through the fiscal year 2012 Forest Legacy program to 
support the acquisition of interests in lands affecting 17,000 acres in 
western (Franklin County) Maine in two separate projects-Crocker 
Mountain and Orbeton Stream. The Crocker Mountain project includes 
approximately 11,800 acres containing three of the highest peaks in the 
State. The property also is home to Eastern brook trout, lynx, marten, 
and snowshoe hare and contains 25 percent of the global population of 
the State-listed endangered Roaring Brook mayfly. The property borders 
a 10-mile section of the AT and also includes a 3-mile segment of Route 
115--a prominent segment of the State's Interconnected (snowmobile) 
Trail System (ITS) and 4 miles of State-sanctioned ATV trails. The 
property also provides numerous opportunities for hunting, fishing, 
hiking, and cross-country skiing as well as a productive timber stand 
that the State's Bureau of Public Lands will manage on a sustainable 
basis. The 5,800-acre Orbeton Stream property includes a productive 
timber stand and a critical 6-mile link in the State's ITS snowmobile 
system. It is in the foreground viewshed of the AT and it also has been 
designated a high priority within the State's wildlife action plan. The 
entire parcel also has been identified by NOAA as a critical habitat 
for the federally listed Atlantic salmon. The ATC is requesting a total 
fiscal year 2012 appropriation of $8.73 million ($7 million for Crocker 
Mountain and $1.73 million for Orbeton Stream) through the Forest 
Legacy program.
    Thank you for the opportunity to submit this testimony and for your 
consideration of our request.
                                 ______
                                 
  Prepared Statement of the American Wild Horse Preservation Campaign
    Thank you for the opportunity to submit testimony on the Department 
of the Interior's Bureau of Land Management (BLM) Wild Horse and Burro 
(WHB) Program. The American Wild Horse Preservation Campaign (AWHPC) is 
dedicated to preserving the American wild horse in viable free-roaming 
herds for generations to come, as part of our national heritage. Our 
grassroots efforts are supported by a coalition of more than 40 
historic preservation, conservation, horse advocacy, and animal welfare 
organizations.
      costs of the wild horse program are spiraling out of control
    Between fiscal year 2000 and fiscal year 2009, appropriations 
increased from $20.4 million to $40.6 million. In fiscal year 2010, the 
BLM's authorized budget for this program increased by 58 percent to $64 
million. At that time, the Senate Appropriations Committee warned that 
the costs of gathering and holding wild horses and burros ``have risen 
beyond sustainable levels.'' In fiscal year 2011, the BLM's budget 
increased to $75.7 million.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Source.--Congressional Research Service report, May 2010; the BLM 
2011 Budget Report.

    For fiscal year 2012, the BLM is requesting another $12 million 
increase for its WHB Program budget. As long as the Congress continues 
to award the BLM's requested budget increases, the Bureau will not 
substantively change the course of this broken Federal program.
              the problem: removals exceed adoption demand
    In 2000, the BLM's trend of removing large numbers of horses from 
the range in excess of adoption demand began to accelerate. The trend 
worsened as removals increased more than 2000 levels, yet adoption 
demand declined.
    The result: a steady increase in the number of mustangs stockpiled 
in Government holding facilities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Source.--Slide 19 of BLM Wild Horse and Burro Program Power Point 
presentation.

    For the first time in history, there are more wild horses (42,000+) 
warehoused in taxpayer-funded pens and pastures than are left free on 
the range (<33,000).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                blm ``new'' strategy, same old approach
    The majority of the BLM's budget continues to be consumed by 
roundup, removal, and warehousing costs. Cost-effective on-the-range 
management strategies, including fertility control, remain underfunded.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source.--BLM fiscal year 2011 updated spending plan.

    Under ``accelerated reform'' strategy:
  --Mass removals continue. (38,200 to be removed from range over next 
        4 years.)
  --Fertility control underutilized (2,000 per year too few to impact 
        reproductive rates); and
  --Holding population increases to at least 52,000 by fiscal year 
        2014; burden to taxpayers grows.
    Unless the Congress restricts funding for removals, the BLM will 
continue to add to its self-created fiscal crisis by sending thousands 
more mustangs annually to holding facilities.
    The following chart highlights the BLM's continued focus on 
removals vs. fertility control.

                  COMPARISON OF THE BLM'S PROPOSED STRATEGY AND THE CURRENT MANAGEMENT APPROACH
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                   Proposed strategy              Current management approach
                                         -----------------------------------------------------------------------
                  Item                     Fiscal   Fiscal   Fiscal   Fiscal   Fiscal   Fiscal   Fiscal   Fiscal
                                            year     year     year     year     year     year     year     year
                                            2011     2012     2013     2014     2011     2012     2013     2014
----------------------------------------------------------------------------------------------------------------
Funding needs...........................    $75.6    $75.9    $75.6    $75.4    $75.7    $81.8    $89.4    $94.6
----------------------------------------------------------------------------------------------------------------
Total no. removed.......................   10,000        7,600 per year        10,000   10,500   10,500    7,700
----------------------------------------------------------------------------------------------------------------
Fertility control (treat no.)...........            2,000 per year                850    2,000    2,250    2,500
----------------------------------------------------------------------------------------------------------------
No. adopted.............................    3,715        4,200 per year         3,715        3,500 per year
----------------------------------------------------------------------------------------------------------------
Total no. in holding....................   43,999   46,786   49,323   51,753   44,581   50,968   57,102   60,330
----------------------------------------------------------------------------------------------------------------
No. on the range (projected)............   35,472   33,979   33,175   32,210   35,472   32,279   28,235   25,882
----------------------------------------------------------------------------------------------------------------
AML (West-wide).........................                                  26,600
----------------------------------------------------------------------------------------------------------------
Source.--Details of the BLM's Proposed Strategy for Future Management of America's Wild Horses and Burros, p.
  16.

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Given the lack of crisis on the range and the real crisis to 
taxpayers, the Congress should suspend funds for all removals pending 
the outcome of the BLM-requested National Academy of Sciences review of 
the program, scheduled to begin this year and to be completed by 2014.
                  fertility control saves tax dollars
    In 1982, the National Academy of Sciences (NAS) called on the BLM 
to use immunocontraception to manage WHB populations, finding it an 
effective part of a pro-active management strategy. In the 1990 
Government Accountability Office's (GAO) report on the BLM wild horse 
management program found that keeping excess animals in long-term 
holding was costly and recommended that the BLM examine alternatives, 
such as treating animals with reproductive controls and releasing them 
back on the range.
    The BLM failed to address reproduction on the range with fertility 
control, resulting in the current unsustainable situation. The BLM now 
claims that utilizing fertility control on more than 2,000 horses per 
year is not cost-effective because they have to roundup the entire 
herd. However, the BLM's claims are contradicted by the economic model 
developed by an independent economist commissioned by the Humane 
Society of the United States (HSUS). That model demonstrates 
significant short- and long-term cost savings to the BLM through 
implementation of fertility control utilizing the PZP 
immunocontraception vaccine.
    Common sense tells us that the BLM's claims are not based in 
reality:
  --Every female vaccinated with fertility control will prevent two 
        horses from being sent to holding given the BLM's estimate of a 
        50/50 male/female ratio mustangs on the range. (Applying PZP to 
        mares allows stallions to remain on the range as well.)
  --Treating mustangs with fertility control and releasing them back to 
        the range eliminates all the backend costs of removal and 
        warehousing:
    --$1,500 per horse for short-term holding (based on average 10-
            month stay, according to the GAO); or
    --$463 per horse per year for long-term holding; and
    --Lifespan of horses in holding 20-30 years; and
  --Any increased costs associated with rounding up ``the entire herd'' 
        for application of fertility control, are easily offset by the 
        enormous short-term holding costs.
    The Congress must mandate that no less than 20 percent of the BLM 
WHB budget be used for fertility control application to wild horses on 
the range.
                 accountability through appropriations
    The Congress must ensure that the BLM is accountable for the 
expenditure of tax dollars and address the ever-increasing public 
interest in the Bureau's WHB Program. The safeguards listed below will 
not hinder the program and will only increase its accountability to the 
American taxpayer:
  --Contracts with private companies for roundup services must be 
        amended to eliminate the per-animal compensation scheme. The 
        current contracts with independent companies for roundup 
        services are inherently flawed. The per-head payment for 
        captured horses provides incentive for contractors to roundup 
        as many horses as fast as possible instead of placing priority 
        on humane gather techniques.
  --The BLM's 2012 appropriations request to amend its contracting 
        authority and extend the maximum length of multi-year contracts 
        to 10 years should be rejected. The current maximum 5-year 
        contract period allows the Bureau more flexibility to adjust 
        the program based on current need.
  --Transparency improvements should be mandated:
    --Live-streaming cameras with global positioning system (GPS) on 
            all helicopters, trap sites, and areas where horses are 
            being processed.
    --All short- and long-term holding facilities open to the public in 
            order to provide opportunity for meaningful observation and 
            oversight.
          recommendations for appropriations committee: recap
    Suspend funding for all removals pending outcome of the NAS review 
of the WHB Program. At minimum, the Congress should prohibit funding 
for removals in excess of adoption demand.
    Mandate that no less than 20 percent of the BLM WHB budget be used 
for fertility control application to wild horses on the range.
    Require that contracts with private companies for roundup services 
be amended to eliminate the per-animal compensation scheme.
    Deny the BLM request to extend maximum length of multi-year 
contracts to 10 years.
    Require and authorize funding for transparency measures including:
  --Live-streaming cameras with GPS on all helicopters, trap sites, and 
        processing areas; and
  --Meaningful public access to all short- and long-term holding 
        facilities.
    Thank you for your consideration of these requests.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    The Animal Welfare Institute (AWI) thanks you for your 
consideration of this testimony, and respectfully requests that the 
Senate Appropriations Subcommittee on the Interior, Environment, and 
Related Agencies appropriate a total of $84.5 million to the U.S. Fish 
and Wildlife Service (FWS), including an additional $45 million to 
increase and expand activities of the Office of Law Enforcement (OLE), 
$26.2 million for special agents, $3.1 million for ports of entry, and 
$5 million for the Clark R. Bavin National Fish and Wildlife Forensics 
Laboratory, and $5.2 million to explore the potentially devastating 
effects of White Nose Syndrome (WNS) on bats. Other funds for the WNS 
are also requested. The administration's fiscal year 2012 proposed 
budget falls far short of providing the agencies within the Department 
of the Interior sufficient funding to protect, preserve, recover, and 
manage America's wildlife, including threatened and endangered species, 
as required by law and by their public trust obligations. The AWI also 
asks the Congress to maintain language preserving and protecting wild 
horses and wildlife.
    Office of Law Enforcement (OLE).--The administration's fiscal year 
2012 budget proposes a decrease in funding to one of the most important 
lines of defense for America's wildlife, the FWS OLE. Even those who 
may not concern themselves with wildlife are reaping benefits as the 
OLE protects against smuggling illegal substances from invasive species 
to contraband and even helps to thwart potentially devastating human 
health threats. Still, each year, the OLE is increasingly underfunded 
and understaffed, placing the public at greater danger unnecessarily. 
The AWI requests an additional $45 million be allocated to the FWS to 
increase and expand the activities of the OLE in its critical role 
combating wildlife crime. Currently, the OLE is tasked with enforcing 
and implementing more than a dozen Federal wildlife and conservation 
laws that frequently impact both domestic and global security.
    It is disheartening that the new budget proposals have chosen to 
decrease funding to such an imperative office and its programs in the 
wake of success. Year after year, the OLE protects the public against 
the illegal trade in wildlife and wildlife products, which is third 
only to the illicit trade in narcotics and weapons in terms of revenue 
generated globally, and despite the fact that the United States remains 
a source of, or destination for, much of this contraband. The Congress 
must act rapidly to make available those funds that are crucial to the 
OLE and to public safety.
    FWS Special Agents.--Staff tasked with enforcement of U.S. wildlife 
laws risk their lives in an effort to protect our Nation's wildlife. In 
fiscal year 2010, the FWS agents pursued more than 13,490 
investigations resulting in more than $3.4 million in fines, 76.7 years 
of jail time for the perpetrators, and 299.6 years of probation.\1\ The 
FWS cases documented illegal trafficking in U.S. leopard sharks, coral 
reef organisms, live reptiles, and paddlefish. On the global front, the 
FWS agents, together with the Royal Thai Police, broke up an illegal 
ivory trading ring, spanning three continents. The case, to date, has 
secured the U.S. indictment of two individuals and four criminal 
arrests in Thailand, as well as seizures of elephant tusks and carved 
ivory in both countries. This case produced 23-plus indictments and had 
the potential of prison terms for both defendants totaling 78 years. 
This impressive record merits advancement and proper funding. The FWS 
Special Agents have proven time and time again their work deserves 
funding levels beyond the administration's fiscal year 2012 budget 
proposal, to aid in the reduction of illegal trade in wildlife and 
wildlife products, which continues to imperil wildlife species in the 
United States and around the world.
---------------------------------------------------------------------------
    \1\ Law Enforcement at a Glance. Office of Law Enforcement. U.S. 
Fish and Wildlife Service. February 2011.
---------------------------------------------------------------------------
    Currently, there are only 202 FWS agents responsible for the 
enforcement of Federal wildlife laws throughout the entire United 
States. This number is only 7 more than in fiscal year 2010, which was 
6 fewer than existed in fiscal year 2009. There are 52 agent vacancies. 
The AWI respectfully requests an additional $14.2 million to fill these 
52 agent vacancies and an additional $12 million to ensure sufficient 
operational funds for existing agents and for those hired in the 
future.
    Port Inspectors.--Keeping our ports and boarders secure remains 
America's single best opportunity to prevent potential attacks. Whether 
intercepting bioterrorism agents or uncovering security threats, the 
FWS Port Security, along with the U.S. Coast Guard, Department of 
Homeland Security, and other agencies involved, holds the daunting task 
of keeping our Nation safe. The noble individuals employed by these 
agencies are charged with precluding a wide variety of potentially 
disastrous threats, including: minimizing illegal contraband shipments, 
often transported in body cavities of vicious species; uncovering 
smuggled goods and illegal trade rings at the border, which include 
products of severely endangered species; and thwarting national and 
global health risks by shielding the American public from the disease 
and safety risks associated with importing non-native species (e.g., 
avian flu, and foot and mouth disease).
    The current lack of sufficient operational funds for the FWS port 
inspection program weakens the FWS efforts to promote the conservation 
of species of international concern, to protect all natural resources, 
and to sustain biological processes. Recently, the FWS port agents, 
together with the National Oceanic and Atmospheric Administration, 
Immigration and Customs Enforcement, and U.S. Customs and Border 
Protection, uncovered shipments originating from the Virgin Islands 
containing protected black coral (Convention for International Trade in 
Endangered Species (CITES Appendix II)). Black coral when removed, 
threatens the marine ecosystem and damages the habitats of several 
species. This case resulted in the arrest and conviction of two 
Taiwanese nationals on nine counts of conspiracy, including conspiracy, 
false statements, and violations of both the Endangered Species Act and 
the Lacey Act. It is critical that these programs remain fully funded 
to protect domestic and international wildlife, and to ensure our 
Nation's safety through hiring and training staff at each designated 
U.S. ports of entry. The AWI requests an additional $3.1 million for 
the ports of entry.
    The Clark R. Bavin National Fish and Wildlife Forensics 
Laboratory.--The successful outcomes stated previously would not have 
been possible without the essential work of the FWS forensic 
laboratory, used by the FWS agents and inspectors to gather hard 
evidence in wildlife crime cases. The lab uses state-of-the-art 
science, along with years of institutional knowledge, to identify 
wildlife products by species, determine the cause of death, and make 
other findings critical to a successful legal case. All such findings 
must adhere to exacting evidentiary standards to be used in court, thus 
increasing the cost of testing each sample. In 2009, the lab and its 
personnel cleared a nearly 7-month computer case backlog but remain 
challenged in tackling the 1- to 5-month hard case backlog. The Bavin 
Laboratory desperately needs to hire and train staff to alleviate some 
of the backlog, which has delayed investigations and potential 
prosecutions by the FWS investigators, inspectors, and Federal 
prosecutors.
    All 50 States and the 175 CITES member countries depend on this 
facility to prosecute their wildlife crimes; however, this partnership 
is jeopardized by the lab's inability to churn out timely results. To 
reduce both staffing shortages and existing analytical workload and 
backlog, $5 million is requested for the lab, including $1 million to 
fill the eight essential vacancies. A timely hire is crucial to train 
second-generation forensic morphologists prior to the departure of 
current staff. Such funds would also allow for the construction of a 
new building to house the lab's comparison standards collection ($3.5 
million).
    Wild Free-roaming Horses and Burros Act.--The wild horse is as much 
a symbol of American heritage as the image of Uncle Sam and baseball. 
Currently, America's wild horses are subject to mistreatment by the 
Bureau of Land Management (BLM), which misuses most of its budget to 
round up and warehouse wild horses and burros without credible evidence 
supporting the need for such removals. Furthermore, the BLM has failed 
to consider wild horses and burros ``comparably'' with domestic 
livestock as required by law when making management decisions 
reflecting a bias within the BLM in favor of privately owned cattle. 
Wild horses have been removed from more than 20 million of the 52 
million acres allocated to them by the Congress. Since 2004, wild 
horses have been at risk of being sold to killer-buyers who make a 
profit by sending horses to slaughter for human consumption. Forty 
years ago this year, the Congress acted on behalf of these wild animals 
to protect their natural habitat and lifestyle. It is now time for the 
Congress to act again to ensure these animals are neither sent into 
long-term holding facilities nor sentenced to slaughter. The AWI 
requests that
  --``no-kill'' language be maintained to ensure the BLM does not kill 
        healthy wild horses and burros; and
  --the Congress not provide any increase to the BLM budget and defund 
        all but emergency round ups until a comprehensive review of the 
        wild horse program is completed by the National Academy of 
        Science.
    White Nose Syndrome (WNS) in Bats.--Since the discovery of WNS in 
bats in a cave in Albany, New York, in 2006, more than 1 million 
hibernating bats throughout the Eastern United States have died--with 
some hibernacula (caves and mines where bats hibernate) experiencing 
95-100 percent mortality--and the disease has been moving quickly 
across the country. With its spread to Ohio, Indiana, Kentucky, and 
North Carolina just this year, WNS or the fungus believed to cause it, 
Geomyces destructans, has been documented in 18 States and 4 Canadian 
provinces, and is appearing at new sites in States previously hit. 
Twenty-five of the 46 bat species in the United States hibernate, and 
scientists believe that because the WNS has so far affected every 
hibernating bat species in its path, any such bat species is at risk. 
Thus, States not yet affected are bracing for its arrival.
    The WNS induces hibernating bats to wake more often, thus using up 
fat reserves needed to survive the winter. They go out in search of 
insect food sources that are not yet available, and freeze or starve to 
death. It also appears the fungus may disrupt critical physiological 
and chemical processes in the animals.
    This die-off is unprecedented animal welfare and an environmental 
and economic disaster. Bats play a crucial role in the ecosystem, 
including pollinating crops and consuming insects that pose a threat to 
human health and agriculture. The million-plus bats already lost could 
have consumed nearly 700 tons of insects each year. The loss of bats as 
natural crop pest predators will necessitate more pesticide use, at 
greater cost to farmers, consumers, and the environment. A recent study 
estimates agricultural losses at between $3.7 billion and $53 
billion.\2\ A May 2009 consensus statement issued by a group of 
scientists and wildlife managers working on this problem calls WNS 
``the most precipitous decline of North American wildlife in recorded 
history.'' They fear it could wipe out some endangered bat species and 
cause others to be listed, a development that could have serious 
economic consequences for such industries as mining, energy 
development, and tourism.
---------------------------------------------------------------------------
    \2\  http://www.sciencemag.org/content/332/6025/41.full.
---------------------------------------------------------------------------
    Federal agencies are playing a central role in WNS response. As 
noted in the Green Budget, the FWS is the lead agency, providing funds 
to State wildlife agencies to assist with their WNS response and 
coordinating the nationwide effort to combat the disease. The FWS co-
chairs an interagency committee whose task is to ``provide oversight 
across participating State and Federal agencies and tribal governments 
to ensure consistency and coordination in management action, policy 
interpretation, communication, and collection of scientific information 
related to the WNS.'' Just this month it released its WNS National 
Plan. The U.S. Geological Survey (USGS), among other things, conducts 
research vital to understanding this previously unknown disease. For 
example, two scientists at USGS's National Wildlife Health Center 
recently published a breakthrough paper on the WNS, finding that 
``damage to bat wings from the fungus . . . may cause catastrophic 
imbalance in life-support processes. . . . Physiological problems 
caused by the novel fungus may, in fact, represent a completely new 
disease paradigm for mammals . . .'' (USGS press release 12/15/10). The 
National Park Service (NPS), BLM, U.S. Forest Service (USFS), and 
Department of Defense (DOD) are monitoring and surveying bat 
populations on their lands, managing and closing caves, implementing 
decontamination measures with visitors, improving bat habitat, and 
educating the public about WNS, among other activities.
    We recognize this is a difficult budget year. However, the urgency 
of the need to get this disease under control and avert an even bigger 
ecological and financial catastrophe later cannot be overstated. We 
respectfully ask the Congress to provide the following funding: FWS--
$5.2 million; USGS--$2.4 million; DOD--$300,000; NPS--$200,000; USFS--
$2 million; and BLM--$1 million, which should be redirected from the 
BLM's wild horse round-ups.
    NPS Lethal Management of Native Wildlife.--In the past 5 years, the 
NPS has significantly expanded its lethal control of native ungulates 
in contravention of its own legal mandates. During this time, the NPS 
has initiated lethal control of ungulates in a number of national parks 
(e.g., Valley Forge, Catoctin) and is considering similar efforts in 
other parks (e.g., Indiana Dunes, Rock Creek). In each case, the NPS 
has misapplied its own statutes and policies and has failed to provide 
any credible site-specific data to justify its heavy-handed strategies. 
Though even the NPS concedes that ungulates are keystone herbivores, it 
is unwilling to allow ungulates to naturally influence ecosystem 
structure and function as its own statutes and policies require. 
Therefore, the AWI requests that the following language, which, if 
accepted, would save taxpayer dollars, into the Senate Interior, 
environment, and related agencies appropriations bill:

    ``No funds appropriated under this legislation shall be expended by 
the National Park Service to lethally control or kill native ungulates 
nor shall the National Park Service permit any entity, public or 
private, to kill said ungulates in Valley Forge National Historical 
Park in Pennsylvania and Catoctin Mountain Park in Maryland.''
                                 ______
                                 
          Prepared Statement of Bat Conservation International
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you for the opportunity to submit testimony. The 
Bat Conservation International (BCI) is a nonprofit organization that 
conducts and supports science-based research, education, and 
conservation to ensure that bats will still be helping to maintain 
healthy environments and human economies far into the future. We are 
based in Austin, Texas, with a membership of more than 10,000 from all 
50 of the United States. We respectfully request $11.1 million from the 
Congress in fiscal year 2012 to address White-nose Syndrome (WNS), a 
disease decimating North American bats. Numerous Federal agencies 
(most, but not all, in the Department of the Interior) are involved in 
WNS response:
  --the U.S. Fish and Wildlife Service (FWS);
  --the U.S. Geological Survey (USGS);
  --the National Park Service (NPS);
  --the Bureau of Land Management (BLM);
  --the U.S. Forest Service (USFS); and
  --the Department of Defense (DOD).
    The WNS poses the gravest threat ever faced by U.S. bats. Since its 
discovery in 2006, the disease has killed well more than 1 million 
bats. It is named for the previously unknown, cold-loving white fungus 
found on faces and wings of infected bats that is believed to cause the 
disease. The WNS-infected bats awaken frequently during hibernation, 
burning the fat reserves they need to survive the winter. They often 
emerge early from hibernation, before the return of warm weather and 
insects, only to freeze or starve to death. The disease or its 
associated fungus has spread to 18 States and four Canadian provinces 
in the 5 years since the WNS was first observed in a cave near Albany, 
New York. The Northeast has borne the brunt of the WNS so far, but the 
disease or its fungus has spread as far south as North Carolina and 
Tennessee, and as far west as Oklahoma.
    Biologists consider the WNS die-off to be North America's most 
precipitous wildlife decline in the past century. The disease strikes 
hibernating bats--those that sleep through the winter in caves and 
mines--and has affected every hibernating bat species in its geographic 
path. Of the Nation's 47 bat species, 25 hibernate, and all of these 
hibernating species are considered at risk of the disease. The WNS or 
the fungus currently affects nine species, including endangered Indiana 
and gray bats, which could well be even closer to extinction as a 
result. Some WNS-infected sites experience mortality rates of almost 
100 percent. Losses are so severe that researchers are predicting 
regional extinctions of the little brown bat--previously one of 
America's most common mammals--in northeastern States within 16 years.
    Bats provide many benefits to humankind. As primary predators of 
night-flying insects, bats are critical to maintaining the balance of 
nature. A bat can eat half to all of its body weight in insects per 
night, consuming pests that damage crops such as corn, cotton, 
soybeans, and potatoes. A recent article in the journal Science 
estimates the value of bats to U.S. agriculture ranges from $3.7 
billion to $53 billion per year. Bats also eat insects that damage 
forests and spread disease. Some bat species pollinate crops and 
disperse seeds. Research of bat biology has yielded important chemical 
products, including a medication to prevent strokes. Bat droppings in 
caves support unique ecosystems, including microorganisms that could 
provide resources for detoxifying industrial wastes and producing 
pesticides and antibiotics.
    The loss of bats would have serious ecological and economic 
consequences. The 1 million-plus bats killed by the WNS would have 
eaten about 700 tons of insects each year. With the bats gone, these 
insects are surviving to attack crops and forests. The authors of the 
``Science'' article argue that, as a result of the WNS, North American 
agriculture will begin noting economic losses within 4 to 5 years, with 
especially severe impacts to the Midwest and Great Plains regions. In 
addition to crop losses, farmers will need to use more pesticides, 
increasing the financial strain on farming families, raising the price 
of food for consumers, and releasing more chemicals into our 
environment. Bats are important predators, so their disappearance could 
have broad, ripple effects on the environment that we cannot yet 
assess.
    The population declines from the WNS could well lead to listing 
more bat species under the Federal Endangered Species Act, as well as 
State-level statutes, which would cause far-ranging economic costs. The 
Center for Biological Diversity has petitioned the FWS for listing of 
the northern long-eared bat and eastern small-footed bat because of the 
WNS and other factors, while BCI and other organizations have requested 
the FWS to review the status of the little brown bat and to file an 
emergency listing of the species in the interim. At the State level, 
Ohio has designated four bat species as species of concern; Wisconsin 
is in the process of listing three bat species as threatened; and other 
States, including New York and New Hampshire, are considering 
designations. According to the Government Accountability Office (GAO-
06-463R), the average cost for recovery of an endangered species is 
$15.9 million. The highest estimate on record is $125 million to 
recover the whooping crane. Bat species affected by the WNS have broad 
geographic distributions and complex ecological patterns, which would 
likely require very high recovery costs. Finally, regulations stemming 
from listing more bat species would have economic impacts on industries 
such as mining, defense, energy, forestry, construction, 
transportation, tourism, and outdoor recreation.
    The Federal Government recognizes how much is at stake from the WNS 
and, in conjunction with State, local, and tribal agencies, academic 
institutions, and nonprofits, has mounted an admirable response to the 
disease. WNS and its associated fungus were unknown to science until 
discovered in New York, but since then, Federal dollars have enabled 
researchers at the USGS and elsewhere to isolate, identify, and develop 
a test for the WNS fungus, to map its genome, and answer some basic 
questions about the nature, transmission, and diagnosis of the disease. 
FWS, the lead agency for the WNS response, coordinates government and 
other entities in order to maximize efficient use of resources, prevent 
redundancy, and facilitate an effective national response. In this 
role, FWS has funded scientific research and on-the-ground disease 
surveillance and management, developed recommendations to help prevent 
disease spread, and created the National Plan for Assisting States, 
Federal agencies, and tribes in Managing White Nose Syndrome in Bats in 
collaboration with all involved Federal agencies, as well as State and 
other entities. Land-management agencies have been at the forefront in 
developing disease-monitoring techniques, gathering bat-survey data, 
managing resources to increase bat survival, and producing materials to 
educate the public about the WNS. NPS's Mammoth Cave National Park has 
developed a site-based response plan that is being used as a model for 
public lands throughout the country; USFS is testing ways to improve 
bat habitat to boost postdisease survival rates; and DOD is refining 
acoustical bat-monitoring methods. All of these agencies provide 
technical support to, and collaborate and pool resources with, State, 
local, and tribal agencies as well as academic institutions and 
nonprofits.
    Despite this progress, the need for the WNS-response funding 
continues and, in fact, is increasing. As the disease spreads, the 
number of entities involved and the scale of the response grows. While 
scientists have learned much about the disease, they cannot yet stop 
its spread. Critical research topics aimed at finding solutions include 
the susceptibility of different bat species to the WNS, possible 
biological-control agents, and the disease-producing interface of the 
fungus, bats, and the cave environment. In fiscal year 2010, the FWS 
awarded $1.6 million for the WNS research through a granting process 
for which the agency received $10.5 million in proposals. On-the-ground 
monitoring and management is required in both previously and newly 
infected areas. Overall coordination and communication is needed to 
ensure efficiency and the sharing of information and resources. The 
westward spread of the WNS is sharply increasing the need for a Federal 
response. Western States have a higher proportion of public land than 
those in the East. Beyond that, much less is known about western bat 
populations than eastern ones, and the rugged western terrain makes 
data-gathering more difficult. To this point, fiscal year 2012 is the 
first year for which the BLM anticipates significant WNS expenses, many 
of which will go toward surveying approximately 400 western caves and 
abandoned mines for baseline data on bats.
    Concluding from analysis of past WNS spending and disease-spread 
trends, we urge the subcommittee to ensure that Federal agencies 
engaged in the WNS response receive $11.1 million to address the WNS in 
fiscal year 2012. The cross-agency need is broken down as follows:

                       FISCAL YEAR 2012 WNS NEEDS
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                          Amount
------------------------------------------------------------------------
FWS............................................                    5,200
USGS...........................................                    2,400
NPS............................................                      200
BLM............................................                    1,000
USFS...........................................                    2,000
DOD............................................                      300
                                                ------------------------
      Total....................................                   11,100
------------------------------------------------------------------------

    One can compare this to the WNS spending from fiscal years 2007-
2010 (we do not have reliable expenditure figures for fiscal year 
2011):

                                  ESTIMATED EXPENDITURES ON WHITE-NOSE SYNDROME
----------------------------------------------------------------------------------------------------------------
                                              FWS        USGS         NPS        USFS         DOD       Amount
----------------------------------------------------------------------------------------------------------------
Fiscal year 2010........................  $3,690,000    $345,500    $207,000  $1,815,000    $206,300  $6,263,800
Fiscal year 2009........................   1,790,000     334,000     162,500     890,000       5,000   3,181,500
Fiscal year 2007-2008...................   3,200,000     575,000     162,500         N/A         N/A   3,937,500
                                         -----------------------------------------------------------------------
      Total.............................   8,680,000   1,254,500     532,000   2,705,000     211,300  13,382,800
----------------------------------------------------------------------------------------------------------------
Note: BLM did not report the WNS expenditures in past years.

    The increase for fiscal year 2012 more than fiscal year 2010 
expenses is $4,836,200, or 77 percent. We believe this ask is 
conservative and in fact will barely keep pace with the disease's 
spread. From 2007-2010, the disease moved from one State to 14, and 
from five sites to at least 157. From 2009-2010 alone, the number of 
affected States increased by 56 percent, and the number of infected 
sites by 78 percent. Overall, the number of affected States and sites 
increased by 50-100+ percent each year. Already this year, the WNS has 
been confirmed in three new States, and confirmed or suspected in 15 
new counties. A 77 percent increase in the WNS spending from fiscal 
year 2010-2012 is therefore clearly proportionate to the disease's 
expected expansion by the start of fiscal year 2012.
    Congressional support is critical for addressing the WNS. Other 
funding sources are extremely limited. State budgets have been 
drastically reduced and, especially given the spread of the disease, 
Federal agencies' existing resources are not sufficient to meet the 
need. According to the President's fiscal year 2012 budget, there is 
WNS funding in the FWS's Preventing Extinction Initiative and in the 
USGS's Ecosystems Program. The budget does not specify the amount of 
money in these accounts. We are grateful for these funds, and we urge 
the Congress to supplement them such that the cross-agency total 
designated for the WNS in fiscal year 2012 is $11.1 million.
    The Congress is facing a difficult financial climate, so we 
underscore the fact that money spent on the WNS is a wise investment. 
First, preventing the spread of the WNS will spare businesses the 
regulatory and other impacts of bat die-offs. In 2008 and 2009, the 
threat of the WNS caused officials to cancel the yearly Crawlathon 
caving event in and around Carter Caves State Resort Park in eastern 
Kentucky. Normally held during the off-tourist season in a rural area 
with limited economic opportunities, the event's cancellation cost the 
park and local businesses revenue losses each year. After the WNS 
fungus was reported in Missouri in early 2010, officials decided to 
close the caves at Iowa's Maquoketa Caves State Park in order to 
protect the caves' bats. Park attendance, which in previous years had 
averaged around 250,000 visitors per year, dropped in 2010 to 
approximately 60,000. The loss in park revenues has hurt the Iowa 
Department of Natural Resources, which had already been suffering from 
the national economic downturn. Show caves--small businesses that 
provide jobs and contribute to local economies--could also be hurt by 
the WNS. States with many show caves include Missouri, Pennsylvania, 
Tennessee, and South Dakota. In addition, implementing the WNS response 
generates jobs. USFS management of forests for bat conservation 
includes thinning stands of trees. USFS contracts with local businesses 
to harvest, haul, and process the trees for timber. Finally, conducting 
the WNS research, management, and prevention now will reduce future 
expenses to the U.S. economy resulting from pest impacts to agriculture 
and forestry, businesses affected by additional bat listings, and the 
cost of listed-species recovery. In this case, an ounce of prevention 
truly is worth a pound of cure.
    Unless additional funding is provided in fiscal year 2012, the WNS 
will continue to spread across the country unchecked, killing even more 
bats than have already died. The consequent ecological and economic 
impacts will affect all of us as consumers, taxpayers, and residents of 
a planet further impoverished of biological diversity. We desperately 
need designated support for the WNS response. BCI urges the Congress to 
ensure the FWS, USGS, NPS, BLM, USFS, and DOD receive a total of $11.1 
million for the WNS in fiscal year 2012.
    Thank you again for the opportunity to share BCI's position on this 
serious matter, and we respectfully ask you to consider our urgent 
request.
                                 ______
                                 
         Prepared Statement of the Botanical Society of America
    Federal and State publicly held lands make invaluable contributions 
to our national and individual welfare--flood prevention, soil 
formation, recreational opportunities, water purification, climate 
modulation, and many others. All of these contributions depend on 
healthy communities of native plants. The Botanical Society of America 
feels strongly that funding for programs focused on research, 
education, and management of rare plants and native plant communities 
is insufficient to meet national needs. Adequate funding for programs 
focused on research, education, and management of plants not only 
ensures that our ecosystems remain healthy and that local communities 
whose livelihoods depend on public lands continue to thrive, but also 
provides good jobs and supports economic development.
    Meeting the grand challenges of economic development, climate 
change, and environmental protection require continuing investments in 
scientific research and scientifically based management of public 
lands.
                       department of the interior
    Bureau of Land Management (BLM).--BLM manages land that is home to 
more than 1,300 imperiled species, and its Plant Conservation Program 
plays a vital role in conserving our Nation's plant biodiversity. Its 
Native Plant Materials Development Program is a unique, interagency 
program devoted to expanding the variety and quantity of native plant 
materials available for land restoration and rehabilitation, and its 
programs on invasive species eradication and native plant restoration 
are valuable components of a comprehensive national conservation 
strategy. We recommend that the subcommittee include language in its 
report expressing its strong support for these programs. Recommended 
report language:

    ``The Committee strongly supports the Bureau's existing plant 
conservation and native plant materials program activities and the 
Committee expects the Bureau to continue to support a robust program 
through resources provided under land management, renewable energy, and 
the landscape conservation initiative.''

    Fish and Wildlife Service (FWS).--Since it was enacted in the Nixon 
administration, the Endangered Species Act has been the primary Federal 
mechanism used to prevent the extinction of species in the United 
States. Only 9 of the 1,900 plant and animals species currently 
protected by the act have gone extinct. FWS, along with the National 
Oceanic and Atmospheric Administration, is responsible for 
administration of the act, but it has faced severe and chronic funding 
shortfalls, leading to recent court challenges to its listing 
procedures. We recommend that the committee return funding for the 
Endangered Species program of the FWS to fiscal year 2010 levels (ca. 
$180 million).
    U.S. Geological Survey.--Until 2010, the core scientific expertise 
regarding fish, wildlife, and plants within the Department of the 
Interior was found in the Biological Resources Division of the Survey 
(BRD). As part of a new, integrated, multidisciplinary re-alignment 
within the survey, most BRD activities are now found within the new 
ecosystems activity, but several are found under other 
multidisciplinary budget activities. Demands on BRD scientists 
increased dramatically over the last decade while the number of 
Research Grade Scientists declined. We are especially concerned that 
the number of plant scientists may be inadequate to meet the national 
need. We recommend that the subcommittee include language in its report 
expressing its strong support for biological research at USGS and 
emphasize that expertise in plant science may be especially critical. 
Recommended report language:

    ``The Committee strongly supports the survey's existing scientific 
activities and expects the survey to continue to support a robust 
program of biological research and to ensure adequate representation of 
expertise in both plant and animal science through resources provided 
under its Ecosystems activity and other appropriate budget 
activities.''
                       department of agriculture
    Forest Service (USFS).--USFS is responsible for managing more than 
230 million acres of forestlands in the United States. Proper 
management of that land requires that trained scientists inventory the 
plants and animals found on that land and monitor changes in their 
distribution and abundance. Without such information, forest managers 
can neither make well-informed plans nor determine whether their plans 
are working, thus wasting taxpayer dollars. To avoid such waste and to 
sustain wildlife and water resources in our national forests and 
grasslands, it is important that the Inventory and Monitoring program 
provide robust support to the Watershed, Fish, Wildlife, Air, and Rare 
Plants program for the purposes of assessing and monitoring the 
condition of fish and wildlife populations and their habitats, yet the 
fiscal year 2010 allocation to this program was $3.7 million less than 
in fiscal year 2003, or more than $30 million less when adjusted for 
inflation. In addition, nearly 3,700 imperiled species are found on 
USFS lands, and the lands themselves encompass an astonishing array of 
habitats--from arctic tundra to tropical rainforest, from deciduous and 
evergreen forests to grasslands, lakes, and rivers. Nonetheless, 
funding for the Wildlife and Fisheries Habitat Management program has 
declined over the last decade. We recommend that the subcommittee 
increase funding for the Watershed, Fish, Wildlife, Air, and Rare 
Plants program and the Wildlife and Fisheries Habitat Management 
program from fiscal year 2010 levels, eventually restoring them to the 
equivalent of fiscal year 2003 levels or higher.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee: Thank you for the opportunity to offer comments on the 
fiscal year 2012 Interior, environment, and related agencies 
appropriations bill. The National Wildlife Refuge System (NWRS) stands 
alone as the only land and water conservation system with a mission 
that prioritizes wildlife and habitat conservation and wildlife-
dependant recreation. Since 1995, the Cooperative Alliance for Refuge 
Enhancement (CARE) has worked to showcase the value of the NWRS and to 
secure a strong congressional commitment for conserving these special 
places. Located in every U.S. State and territory, refuges conserve a 
diversity of America's environmentally sensitive and economically vital 
ecosystems, including oceans, coasts, wetlands, deserts, tundra, 
prairie, and forests. We respectfully request a funding level of $511 
million for the operations and maintenance accounts of the NWRS for 
fiscal year 2012.
    This testimony is submitted on behalf of CARE's 21 member 
organizations, which represent approximately 14 million Americans 
passionate about wildlife conservation and related recreational 
opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Biology Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Wilderness Society
The Wildlife Society
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute

    Although CARE strives to make steady progress toward funding the 
NWRS at $900 million annually, a budget that more accurately reflects 
demands on the ground, our request of $511 million for fiscal year 2012 
essentially maintains the NWRS at a flat funding level from fiscal year 
2010. The final fiscal year 2011 appropriation, an $11 million cut, is 
essentially a $19 million decrease when factoring in the costs 
associated with keeping fuel in the trucks, paying for rising utilities 
and building rent, and covering other fixed costs. The NWRS generally 
requires an annual increase of at least $15 million to offset these 
rising costs, but with the current salary freeze for Federal employees, 
this number is approximately $8 million.
    An appropriation of $511 million in fiscal year 2012 would 
stabilize the workforce by keeping workforce downsizing plans securely 
on the shelf, thereby reducing pressure on the U.S. Fish and Wildlife 
Service (FWS) to cut refuge staff below already insufficient levels. It 
would enable the FWS staff to continue making progress toward 
protecting and restoring America's wildlife and habitat, and providing 
a positive experience for approximately 45 million annual visitors who 
use refuges for hunting, fishing, watching wildlife, and educational 
programs.
    This funding would also allow the NWRS to continue its recently 
initiated inventory and monitoring program. The need for this program 
was made clear by the Deepwater Horizon oil spill, which forced the FWS 
staff to hastily survey gulf coast refuges in order to measure and 
recoup the cost of damaged resources owed to American taxpayers. 
Without adequate baseline data, most refuges are ill-prepared to assess 
or respond to such impacts, and a standardized inventory and monitoring 
program is needed to fill these widespread information gaps across the 
United States. Continuing the NWRS recently initiated inventory and 
monitoring program will require at least $20 million annually.
    Many years of inadequate budgets have left the NWRS's operations 
and maintenance backlog at more than $3.3 billion. While budget 
increases in fiscal year 2008 through fiscal year 2010 helped 
immensely, too many visitors still show up to find roads and visitor 
centers closed, viewing platforms and hiking trails in disrepair, and 
habitat restoration and nature education programs eliminated.
    Today, more than 35 percent of America's wildlife refuges have no 
on-site staff, leaving no one there to unlock gates, teach 
schoolchildren, administer hunting programs, or carry out restoration 
projects. Refuges with only one or two staff lack the capacity to 
partner with interested stakeholders, and opportunities for volunteer 
involvement and leveraging of additional dollars are lost. Non-native, 
invasive plants have infested approximately 2.5 million acres (only 13 
percent of this acreage was treated in 2010). Further, a crippling 
shortage of law enforcement officers has left refuges sorely 
underprotected from illegal activities such as drug production and 
trafficking, wildlife poaching, illegal border activity, assaults, and 
many types of natural resource violations. Currently, only 213 full-
time law enforcement officers are tasked with responsibilities and 
risks that the International Association of Chiefs of Police suggests 
be tackled by a force of 845 professional officers.
    National wildlife refuges are critically important on local and 
regional scales. Visitors in 2006 generated approximately $1.7 billion 
in sales to local economies, creating nearly 27,000 U.S. jobs and $543 
million in employment income, and adding more than $185 million in tax 
revenue. Refuges also provide important environmental and health 
benefits, such as filtering storm water before it runs downstream to 
municipal water supplies and, in many areas, reducing flooding by 
capturing excess rainwater and attenuating coastal storm surges. While 
these benefits are undeniably significant, the NWRS's potential remains 
largely untapped and unquantified.
    Funding increases in fiscal year 2008 through fiscal year 2010 
allowed for meaningful progress toward properly patrolling and 
enforcing laws on 150 million acres, maintaining recreation and 
education programs for the public, sustaining high-quality water, 
completing habitat restoration projects, and more. Cutting operations 
and maintenance funding back to fiscal year 2008 levels would result in 
the elimination of several hundred staff positions and loss of 
important wildlife management, education, and hunting and fishing 
programs. The way to keep from reversing recent progress is to fund the 
NWRS at $511 million in fiscal year 2012.
    On behalf of our more than 14 million members and supporters, CARE 
thanks the subcommittee for the opportunity to offer comments on the 
fiscal year 2012 Interior, environment, and related agencies 
appropriations bill, and we further urge the subcommittee to read our 
2011 report, ``Restoring America's Wildlife Refuges: Assets for All 
Americans'', where we have much more detailed information.
                                 ______
                                 
  Prepared Statement of the Citizens Committee to Complete the Refuge
    Mr. Chairman and members of the subcommittee, the Citizens 
Committee to Complete the Refuge is grateful for the opportunity to 
submit comments on fiscal year 2012 appropriations for National 
Wildlife Refuges.
    Our organization, the first Friends group in the Nation, was formed 
in 1967 to work with Congressman Don Edwards to bring about the 
establishment of the San Francisco Bay National Wildlife Refuge. That 
was 1972, and with the Congressman's help once more, in 1988 the 
authorized size of the Refuge was doubled to 43,000 acres and was named 
the Don Edwards San Francisco Bay National Wildlife Refuge.
    Our Refuge is the pride of the Bay Area, for it has prevented what 
would have been certain destruction of tens of thousands of acres of 
tidal marsh and surrounding habitats to development. These very marshes 
counter climate change through their extraordinary capacity for carbon 
exchange while providing flood protection from sea level rise.
    It is our pleasure to echo the testimony of the National Wildlife 
Refuge Association because in the decades we have been in existence we 
have developed a great affinity to the entire Refuge System. Worldwide, 
our Refuges have become models to peoples intent on preserving their 
native wildlife and wild places. As chair of a Friends group, I have 
entertained a myriad of travelers, national and international, who hope 
to duplicate our splendid system.
    Yet we know that loss of adequate funding is devastating many of 
our key Refuge lands. Precious and endangered species cannot be 
protected and nourished. Some Refuges are not staffed at all, hence 
they are left to fend for themselves against predation and vandalism 
and other illegal activities. Our Refuge has been the model for 
environmental protection and enhancement of refuges for 39 years. 
Effective advocacy by the public, and the very presence of the Refuge, 
have enabled the largest wetland restoration project on the west coast 
to be undertaken on retired salt ponds.
    Maximum funding for Refuges is important now to the San Francisco 
Bay National Wildlife Refuge Complex, if it is to continue to fulfill 
its mission as climate change advances. It is critical to protect 
existing conditions and adjacent inboard communities, requiring $1 
million of levee maintenance annually over and above general O&M 
expenses. The massive salt pond restoration, now well into phase 1, is 
dependent for its continuation on another $1 million to produce 
essential scientific data through applied studies. Phase 2 will require 
$500,000 to convert the science findings and knowledge acquired in 
phase 1 into a continuing implementation plan.
    Elsewhere in the Complex and also on the San Francisco Bay, 3,000 
wetland acres on newly acquired Skaggs Island await restoration, 
actions that must begin in upcoming years and will require total 
appropriations of as much as $10 million.
    Economic realities and a strong public influence for preservation 
are likely to bring forth willing sellers of low-lying former tidal 
marshes. Our Refuge, still far short of its authorized acreage, is one 
that might benefit. That is why we urge the subcommittee to fully fund 
the Land and Water Conservation Fund. For decades, it has been the 
expectation of the American people that $900 million annually would be 
used to acquire America's natural lands, but they have not been used as 
designated.
    The success of our Refuge is a striking demonstration of what can 
happen when many agencies work together. In our case, the California 
State Coastal Conservancy, the California Department of Fish and Game, 
the Santa Clara Valley Water District, and several foundations joined 
to bring to fruition a National Wildlife Refuge along the shores of San 
Francisco Bay, to the benefit of all people and particularly those 7-8 
million residing locally.
    Our National Wildlife Refuge is the jewel in the crown of lands we 
gift to the generations ahead--wonderful wildlife sanctuaries, 
nurseries for fish and waterfowl, and wonderful places for fishing, 
hunting, and nature study. We ask that the subcommittee help us assure 
the great promise of that heritage.
                                 ______
                                 
  Prepared Statement of the Central Council of the Tlingit and Haida 
                             Indian Tribes
    Greetings from Alaska. My name is Edward K. Thomas. I am the 
elected president of the Central Council of the Tlingit and Haida 
Indian Tribes of Alaska (Tlingit Haida), a federally recognized Indian 
tribe of 27,000 tribal citizens. Southeast Alaska is the ancestral 
homeland of the Tlingit and Haida people. I am honored to provide this 
testimony on this very important matter of contract support cost (CSC) 
funding within the fiscal year 2012 Federal appropriations legislation.
    Let me begin by commending the Congress, and especially this 
subcommittee, for showing special interest in this very important issue 
and for holding this hearing. One of the most important legal 
principles in defining the relationship between Federal Government and 
the Indian and Alaska Native tribes is that of the fiduciary 
responsibility the United States has to tribal governments. This 
important trust relationship is seriously compromised by the year after 
year underfunding of CSC and setting CSC caps in some very important 
programs available to tribal governments.
              csc funding shortfalls choke our operations
    For the period between 2006 through 2009, the CSC shortfalls and 
underfunding have cost my tribe a total of $2,651,088; or an average of 
$662,772 per year. While our people are grateful for the programs 
designed to help our needy tribal citizens, we simply cannot afford to 
continue to pay this amount of money to manage these important 
contracts. My tribal government provided $84,689,247 (an average of 
$21,172,300 per year) in contractual services to our needy tribal 
citizens over that period of time.
    Simply put, the way indirect costs are calculated and paid by the 
United States creates an ever-tightening chokehold on my tribe's 
ability to administer programs. If we follow the law and spend what we 
must, we receive less money to meet these expenditures. The more we 
spend, the less we get. The less we spend, the less we get. As I set 
out in greater detail below, both the Congress and the Federal agencies 
have caused this crisis. Together we can solve it.
           tlingit haida funds pay for federal responsibility
    Federal law specifically states that a tribe that contracts for the 
management of a Federal contract is entitled to the same administrative 
support as the Federal Government itself would have were it to retain 
the management of that contract. Appropriations legislation that 
underfunds CSC violate this provision of Federal law and severely 
undermines the concept of tribal self-determination.
    Tlingit Haida tries desperately to abide by Federal laws that set 
our indirect cost rates and live within other Federal appropriations 
laws that provide us much less than their own audits say we should 
collect from each agency to manage contracts for them. We were forced 
to pull the $2,651,088 shortfall in CSC over the past 4 years out of 
our modest trust fund earnings in order to meet the costs we were stuck 
with by the United States. We cannot continue to afford to pay for 
these Federal responsibility costs going into the future. There are no 
gaming tribes in Alaska; the economy in rural Alaska is weak to 
nonexistent; and unemployment rates in some of our villages often 
exceed 50 percent.
    Our trust fund is what remains of a judgment fund provided to us in 
exchange for land taken by the United States from our tribe. Tlingit 
Haida tribal government has a fiduciary responsibility to preserve the 
principal of this trust fund for future generations and earnings of 
this fund it critical to maintaining essential governmental function 
for our tribe. It is not the purpose of the trust fund to use the 
interest it has earned to make up for sudden losses created by the 
United States. The choice we face each and every year is to either 
shutdown all of the vital services we provide our membership, shutter 
our offices, layoff employees, and pay for early termination of 
contracts, or dip deeper and deeper into our trust fund earnings to 
maintain operations. We have chosen to continue but we need your help 
in order for us to continue in providing essential services to our 
needy tribal citizens.
    In addition to the diversion of our trust fund earnings, the 
shortfall in the Bureau of Indian Affairs (BIA) CSC funding has been 
felt throughout Tlingit Haida. As an immediate result of this shortfall 
and CSC caps place on so many programs our tribe is eligible to apply 
for, we have had to abstain from applying for some very important 
programs that could be of tremendous help to mitigate the serious 
economic challenges facing our tribal communities. While businesses, 
other governments and government agencies saw benefit from the American 
Recovery and Reinvestment Act (ARRA), my Tlingit Haida had to abstain 
from fully participating in available programs because of the 15 
percent cap of administrative costs place on those programs. We 
accepted a $1.5 million award for childcare assistance to supplement 
our ``welfare to work'' initiatives and this cost Tlingit Haida 
$330,000 of our own money to manage that program.
               indirect costs are fixed-cost requirements
    If indirect costs were not primarily ``fixed'' costs, the recurring 
problem of a shortfall in the BIA CSC funding would, perhaps, be 
survivable. But most of our actual indirect costs are ``fixed''. For 
example, typically the most cost-effective way to acquire facility 
space or equipment is through a long-term lease with locked-in costs. 
Similarly, package deals for telephone and some forms of transportation 
offer significant cost savings over time. And obviously, the salary and 
benefit costs of accounting, administrative, and management staff must 
be treated as ``fixed'' or else we cannot hire or keep employees. When 
Federal agencies do not send us 100 percent of the funds required by 
our rate, we have a shortfall associated with our operation of BIA 
programs and something has to give.
    We refer to tribal indirect cost funding as a ``requirement'', not 
a ``need''. They are requirements because they are derived from audits 
conducted by the National Business Center (NBC) on behalf of the 
Federal Government who sets rates that are used uniformly to all 
Federal agencies with whom Tlingit Haida manages a contract or grant 
with. The rates use actual expenditures from prior years to project 
costs in the future year. Once set, the rates must be applied uniformly 
to all our programs.
    Another problem is that the Single Audit Act requires a tribal 
contractor's cognizant agency (e.g., Department of the Interior) to 
audit the indirect costs of the tribal contractor and establish an 
indirect cost rate that must be applied to all programs the tribal 
contractor administers. If that rate is 25 percent, and a program like 
Head Start caps administrative cost recovery from its funding at 15 
percent, the law requires the tribal contractor to pay the difference 
from non-Federal funds or through a rate increase the following year 
that will obtain a higher recovery from BIA's contract support cost 
fund in future years.
    Let me be clear about something. We would spiral into bankruptcy if 
we chose to not spend at the budgeted amounts. Failing to pay certain 
fixed costs would actually increase our costs (breaking leases, 
terminating employees, breaching contracts, etc.). Deferring certain 
costs to the following year aggravates the hardship of the shortfalls 
that cripple that year. Public Law 93-638 language supposedly 
protections tribal contractors against theoretical under-recovery do 
work with respect to BIA funds, historical underfunding of CSC has 
caused our tribe very serious difficulties of dealing with shortfalls 
in non-BIA programs for which we must, by law, use the same indirect 
cost rate. If in year one we don't spend uniformly on all programs, BIA 
and non-BIA alike, this will increase the approved rate for the 
following year because the amounts not collected from the agencies are 
available to add onto the CSC for the subsequent year. Tlingit Haida, 
in our efforts in keeping our CSC lower have chosen not to carry all of 
those costs forward and have, then, had to pay the shortfalls out of 
non-Federal sources.
                      proposed amendment language
    ``Notwithstanding any other provision of law, including any 
otherwise applicable administrative cost limitations, any Federal funds 
made available under this or any other appropriations act for fiscal 
year 2012 to an Indian tribe may, at the option of the Indian tribe, be 
applied to pay for up to all of the approved indirect costs associated 
with the administration by the Indian tribe of those funds, provided 
that such costs are calculated in conformity with the federally-
established indirect cost rate agreement of that Indian tribe and the 
relevant OMB circulars.''
                                 intent
    The amendments are intended to apply a tribal contractor's uniform 
indirect cost rate established under the Single Audit Act to recover 
costs required by that uniform indirect cost rate from each federally 
funded award or agreement without regard to any otherwise applicable 
administrative cost cap limitations.
                          effect of amendment
    The proposed amendment would expand existing authority to permit a 
tribal contractor an additional option--use any federally funded award 
to meet up to all of its approved indirect costs that are calculated in 
conformity with its federally established indirect cost rate agreement 
and the relevant OMB circulars without regard to any otherwise 
applicable administrative cost cap limitations.
    Once again Mr. Chairman, I thank you for the opportunity to share 
my views with you on CSC for tribal contractors. I wish you well in 
your deliberations and I trust you will make the right decisions on the 
issues of grave concern to our people.
    Gunalcheesh! Howa! Thank you!
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network
    On behalf of the Children's Environmental Health Network (CEHN), a 
national multidisciplinary organization whose mission is to protect the 
fetus and the child from environmental health hazards and promote a 
healthy environment, I thank you for the opportunity to present this 
written testimony in support of fiscal year 2012 appropriations for the 
U.S. Environmental Protection Agency (EPA).
    Investments in programs that protect and promote children's health 
will be repaid by healthier children with brighter futures. Thus, to 
safeguard the health and the future of millions of children, the CEHN 
urges the subcommittee to provide full funding for the following EPA 
activities:
  --Office of Children's Health Protection (OCHP);
  --Children's Environmental Health Research Centers of Excellence;
  --Office of Research & Development (ORD);
  --School and Child Care Environmental Health;
  --The Pediatric Environmental Health Specialty Units (PEHSUs); and
  --The National Children's Study (NCS).
    The CEHN also urges full funding of all activities that advance 
healthy school and child care environments for all children, such as 
the relevant components of the Healthy Communities initiative, 
including but not limited to the Clean, Green and Healthy Schools 
Initiative. And, the CEHN urges the subcommittee to support chemical 
policy reform by providing adequate resources for EPA oversight and 
regulation of these chemicals.
    As a pediatric neonatologist, and the current Mary Gray Cobey 
Professor and Division Chief of Neonatology at the University of 
Maryland, I see first-hand how children have unique vulnerabilities and 
susceptibilities to toxic chemicals. In some cases, an exposure which 
may cause little or no harm to an adult may lead to irreparable damage 
to a child. Exposure to neurotoxicants in utero or early childhood can 
result in life-long learning and developmental delays.
    The world in which today's children live has changed tremendously 
from that of previous generations, including a phenomenal increase in 
the substances to which children are exposed. Every day, children are 
exposed to a mix of chemicals, most of them untested for their effects 
on developing systems. Many of these chemicals are readily passed 
across the placenta to the fetus, to the infant via breast milk or 
through skin, or via food, toys, and other children's products. Many of 
these chemicals are also ingested in food and water or through the 
lungs.
    In order to best protect America's children from environmental 
health risks and hazards, the CEHN requests full funding of several 
critical EPA programs. These include:
      OCHP.--The EPA's efforts to protect children from environmental 
        hazards have been led by the OCHP since 1997. Despite an 
        effective track record, funding for the OCHP has been level, at 
        approximately $6 million, since its creation, while its 
        responsibilities have been expanded to include new and 
        unrelated missions. The CEHN strongly supports an increase in 
        funding for the OCHP, as well as the restoration of the 
        office's focus on children. We are especially supportive of the 
        Clean, Green, and Healthy Schools Initiative, including the 
        interagency effort to integrate existing school programs such 
        as asthma, indoor air quality, chemical cleanout, green 
        practices, and enhanced use of integrated pest management. The 
        OCHP's program addressing the issue of PCB-laden caulk in 
        schools is also a priority. The CEHN urges the subcommittee to 
        provide funds above the proposed level for the OCHP so that the 
        office can continue these vital programs.
      Children's Environmental Health Research Centers of Excellence.--
        The Children's Environmental Health Research Centers, jointly 
        funded by the EPA and the National Institute of Environmental 
        Health Sciences, play a key role in providing the scientific 
        basis for protecting children from environmental hazards. With 
        their modest budgets, which have been unchanged over more than 
        10 years, these centers generate valuable research. A unique 
        aspect of these Centers is the requirement that each Center 
        actively involves its local community in a collaborative 
        partnership, leading both to community-based participatory 
        research projects and to the translation of research findings 
        into child-protective programs and policies. The scientific 
        output of these centers has been outstanding. For example, 
        findings from four Centers clearly showed that prenatal 
        exposure to a widely used pesticide affected developmental 
        outcomes at birth and early childhood. This was important 
        information to the EPA's decisionmakers in their regulation of 
        this pesticide.
      Several centers have established longitudinal cohorts which have 
        resulted in valuable research results. The CEHN is concerned 
        that as a Center's multi-year grant ends and the Center is 
        shuttered, these cohorts and the invaluable information they 
        can provide are being lost. The CEHN urges the subcommittee to 
        assure that the EPA has the funding and the direction to 
        support centers in continuing these cohorts. The work of these 
        centers has also shown us that, in addition to research 
        regarding a specific pollutant or health outcome, research is 
        desperately needed in understanding the totality of the child's 
        environment--for example, all of the exposures the child 
        experiences in the home, school, and child care environment--
        and how to evaluate those multiple factors. The CEHN urges you 
        to support these Centers, to assure they receive full funding 
        and are extended and expanded as described above.
      ORD.--This office is critical in efforts to understand 
        environmental impacts on children's health, both in the amount 
        and type of research conducted as well as how the protection of 
        children is given priority throughout the ORD.
      Children's environmental health is a priority of the CEHN's 
        strategic plan, yet the funding and research dedicated to this 
        area is not specifically listed or identified. Children's 
        environmental health is an issue that will cut across all of 
        the ORD's programs. It is unclear how the ORD will measure and 
        track its efforts in children's environmental health under this 
        new structure. Experience has shown that if priorities--such as 
        the hortatory language in the EPA's strategic plan stating that 
        children's environmental health is a priority--are not 
        accompanied by measurable goals that are tracked and reported--
        they are not really priorities and they are meaningless. We ask 
        that your subcommittee direct the office to track and report on 
        the funding and research across the office dedicated to 
        children's environmental health.
      This reorganization, and the decrease in the ORD funding for 
        human health research, re-emphasizes the importance of the 
        children's research centers described above. The work of these 
        centers will assist in keeping a focus on children's health at 
        the ORD.
      While the Clean, Green, and Healthy Schools Initiative, led by 
        the OCHP, was designed as an inter- and intra-agency effort, 
        resources were not proposed for the ORD involvement. The CEHN 
        urges the subcommittee to strengthen Clean, Green, and Healthy 
        Schools Initiative by providing additional resources to the ORD 
        so that the office can fund additional research to fulfill its 
        role in this initiative. The CEHN also urges the subcommittee 
        to fund additional research to better understand how the school 
        and child care environments (both physical factors and 
        potential exposures) impact children.
      School and Child Care Environmental Health.--In America today, 
        millions of infants, toddlers and preschoolers, often as young 
        as 6 weeks to 4 years of age, spend 40-50 hours a week in child 
        care. Yet, little is known about the environmental health 
        status of the Nation's child care centers or how to assure that 
        they are protecting this highly vulnerable group of children. 
        Environmental health is rarely if ever considered in licensing 
        centers or training child care professionals. At the same time, 
        about 54 million children and nearly 7 million adults--20 
        percent of the total U.S. population--spend up to 40 hours per 
        week inside school facilities every week. Unfortunately, many 
        of these facilities contain unsafe environmental conditions 
        that harm children's health and undermine attendance, 
        achievement, and productivity. Thus, it is vital that the EPA's 
        key programs in these areas be maintained and expanded:
      -- the Indoor Air Quality Tools for Schools Program;
      -- the Clean, Green and Healthy Schools Initiative (which should 
            also be expanded to include the child care environment); 
            and
      -- the healthy schools provisions of the High Performance Green 
            Buildings Act.
      PEHSUs.--Funded jointly by the EPA and the Agency for Toxic 
        Substances and Disease Registry, the PEHSUs form a valuable 
        resource network, with a center in each of the U.S. Federal 
        regions. PEHSU professionals provide medical consultation to 
        healthcare professionals on a wide range of environmental 
        health issues, from individual cases of exposure to advice 
        regarding large-scale community issues. PEHSUs also provide 
        information and resources to school, child care, health and 
        medical, and community groups to help increase the public's 
        understanding of children's environmental health, and help 
        inform policymakers by providing data and background on local 
        or regional environmental health issues and implications for 
        specific populations or areas. For example, following the gulf 
        oil spill in 2010, the PEHSUs quickly produced and released a 
        series of factsheets and advisories in multiple languages for 
        local patients and health professionals. We urge the 
        subcommittee to fully fund the EPA's portion of this program in 
        fiscal year 2012.
      NCS.--The NCS is examining the effects of environmental 
        influences on the health and development of more than 100,000 
        children across the United States, following them from before 
        birth until age 21. This landmark longitudinal cohort study--
        involving a consortium of agencies including the EPA--will be 
        one of the richest research efforts ever geared toward studying 
        children's health and development and will form the basis of 
        child health guidance, interventions, and policy for 
        generations to come. The year of 2012 will be a critical year 
        for this study. While a study of this scope calls for the 
        participation of multiple agencies, the EPA's involvement has 
        been limited by the lack of dedicated resources. The CEHN urges 
        the subcommittee to provide dedicated funds of $1 million or 
        more in fiscal year 2012 to ensure that the EPA has sustained 
        funding for the necessary infrastructure for data access and 
        the ability to collaborate with its partners on the NCS. The 
        EPA has specific expertise to offer and the NCS will benefit if 
        the CEHN has the ability to contribute.
      In addition to providing the necessary financial resources for 
        the EPA programs and activities that help to protect children 
        from environmental hazards, the CEHN urges the subcommittee to 
        direct the EPA to assure that all of its activities and 
        programs--including regulations, guidelines, assessments, and 
        research--specifically consider children. Historically, the EPA 
        has too often relied on a one-size-fits-all template when 
        assessing environmental health risks and developing prevention 
        and response plans. Unfortunately for children, that template 
        typically represents a healthy adult male, meaning that 
        children's smaller sizes and unique exposures routes are not 
        considered. The EPA's work must always assure that children and 
        other vulnerable subpopulations are protected, especially poor 
        children, minority children, farmworker children, and others at 
        risk.
    In conclusion, investments in programs that protect and promote 
children's health will be repaid by healthier children with brighter 
futures, an outcome we can all support. That is why the CEHN asks you 
to give priority to these programs.
                                 ______
                                 
      Letter From the Coalition For Healthier Schools and Partners
                                                      May 11, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
      support epa's healthy schools initiative: boost attendance, 
                       achievement; reduce costs
    Dear Chairman Reed and Senator Murkowski: As you consider the 
Environmental Protection Agency's (EPA) budget and its programs that 
positively affect the health of the most vulnerable Americans, the 
undersigned members of the national Coalition for Healthier Schools and 
partners, wish to highlight the work at the EPA to advance healthy 
learning places for children and to urge you to support the EPA-led 
interagency Healthy Schools Initiative at the President's budget fiscal 
year 2011 levels through fiscal year 2012. We also urge you to support 
EPA's voluntary, cost-effective Indoor Air Quality Tools for Schools 
program and ensure that it is not eliminated. As asthma is the leading 
cause of school absenteeism, we must do more, not less, to promote 
healthy indoor environments in schools.
    Clear and convincing research \1\ shows that improving specific 
school indoor environmental quality factors can improve health, 
attendance, and achievement, and reduce healthcare costs and district 
operating costs. Helping schools prevent environmental problems is a 
tough job, but one that results in savings for schools and tax payers, 
as well as many benefits for children and their educational outcomes--
especially for children with disabilities who may be even more 
vulnerable\2\. This is a win for children, for families, for schools, 
and for taxpayers.
---------------------------------------------------------------------------
    \1\ Green Schools: Attributes for Health and Learning, National 
Research Council of the National Academy of Science, 2006. http://
books.nap.edu/catalog.php?record_id=11756. Also see Greening America's 
Schools: Costs and Benefits, Gregory Kats, Capital E, October 2006. 
http://www.cape.com/ewebeditpro/items/O59F9819.pdf.
    \2\ Children's Environmental Health: The School Environment, 
Trousdale, et al, Intellectual and Development Disabilities, vol. 48, 
No. 7, 135-144, April 2010, American Association on Intellectual and 
Development Disabilities.
---------------------------------------------------------------------------
    As you know, children are more vulnerable than adults to 
environmental hazards because they're smaller, have developing organs, 
and breathe more air per pound of body weight. They cannot identify 
hazards. Adverse exposures and injuries during childhood can result in 
lifetime of disability \3\.
---------------------------------------------------------------------------
    \3\ U.S. EPA Office of Children's Health Protection www.epa.gov/
children. Also Federal Executive Order 13045--Protection of Children 
From Environmental Health Risks and Safety Risks, Federal Register: 
April 23, 1997 (Volume 62, Number 78), http://www.epa.gov/fedrgstr/eo/
eo13045.htm.
---------------------------------------------------------------------------
    However, each school day, 56 million children and 7 million 
adults--that's 20 percent of the total U.S. population and 98 percent 
of all children--spend their workdays inside some 130,000 schools, too 
many of which are ``unhealthy'' buildings that erode health and 
learning. States have little capacity to deal with these problems and 
local schools even less. A 2010 survey of school nurses\4\ revealed:
---------------------------------------------------------------------------
    \4\ National Association of School Nurses survey: http://
www.nasn.org/portals/0/releases/2011_01_11_NASN_HSN.pdf.
---------------------------------------------------------------------------
  --40 percent know children and staff adversely affected by pollution 
        in schools;
  --only 17 percent say schools have cleaned up indoor asthma-triggers;
  --more than 75 percent say their schools have no indoor air quality 
        programs; and
  --only 6 percent say an outside agency helped with environmental 
        issues.
    EPA, with a more than 10-year track record of success with States 
and school districts, is mandated by the Congress under the Energy 
Independence and Security Act of 2007 signed by President Bush to 
provide voluntary grants to State agencies and to help State agencies 
and school districts nationwide on how to advance children's health, 
attendance, and learning.
    We urge that you fully support the EPA's Federal and State 
leadership on its Healthy Schools Initiative at PB fiscal year 2011 
levels through fiscal year 2012; fully fund EPA's IAQ Tools for Schools 
program that has successfully worked with States and districts a dozen 
years; and restore resources to EPA's Office of Children's Health 
Protection.
            Sincerely,
                    Alaska Community Action on Toxics; Alliance for 
                            Leadership & Interconnection (OH); American 
                            Federation of State, County and Municipal 
                            Employees; American School Health 
                            Association; Association of School Business 
                            Officials; Asthma and Allergy Foundation of 
                            America; Campaign for Environmental 
                            Literacy.
                    Capital Region Action Against Breast Cancer (NY); 
                            Children's Environmental Protection 
                            Alliance (AL); Clean Air Council (PA); 
                            Clean New York; Coalition for 
                            Environmentally Safe Schools (WA); 
                            Community Asthma Network, West Allis-West 
                            Milwaukee Asthma Coalition (WI); 
                            Connecticut Foundation for Environmentally 
                            Safe Schools.
                    Council of Educational Facility Planners 
                            International; Earth Day Network; Empire 
                            State Consumer Project (NY); Environmental 
                            Health and Safety Department of Charlotte-
                            Mecklenburg Schools (NC); Green Schools 
                            (MA); Healthy Child Healthy World (CA); 
                            Healthy Schools Network; hellmuth + 
                            bicknese architects (MO).
                    Huntington Breast Cancer Action Coalition, Inc. 
                            (NY); Improving Kids' Environment (IN); 
                            Institute for Health and the Environment at 
                            University at Albany (NY); Kids for Saving 
                            the Earth (MN); LocalMotionGreen (MI); 
                            Maine PTA; Maryland Children's 
                            Environmental Health Coalition.
                    Massachusetts Committee on Occupational Safety and 
                            Health; Massachusetts Healthy Schools 
                            Network; National Association of Pediatric 
                            Nurse Practitioners; National Association 
                            of School Nurses; National Center for 
                            Environmental Health Strategies; National 
                            Clearinghouse for Educational Facilities at 
                            the National Institute of Building 
                            Sciences; National Education Association--
                            Healthy Schools Caucus.
                    Natural Resources Defense Council; New York 
                            Committee for Occupational Safety and 
                            Health; Occupational Health Clinical 
                            Centers of Central New York, North Country, 
                            and Southern Tier (NY); Oregon 
                            Environmental Council; PCBs in Schools; 
                            Preventing Harm Minnesota; Prevention Is 
                            The Cure, Inc. (NY).
                    Safer Living Space (CA); Sonoma County Asthma 
                            Coalition (CA); Toxics Information Project 
                            (RI); West Harlem Environmental Action 
                            (NY); Women's Voices for the Earth.
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    On behalf of Chief Gregory E. Pyle, of the Great Choctaw Nation of 
Oklahoma, I bring greetings to the distinguished members of the 
subcommittee. I am Mickey Peercy, the Executive Director of Health 
Services for the Choctaw Nation of Oklahoma. I appreciate this 
opportunity to provide written and verbal testimony to the subcommittee 
on our top budget priorities for fiscal year 2012 highlighting:

Tribal-specific priority
    Support for the Jones Academy.

National priorities
    Provide $50 million increase to the Bureau of Indian Affairs (BIA) 
contract support costs (CSC).
    A $153 million increase for Indian Health Service (IHS) CSC.
    Provide $200 million increase for the IHS contract health services.
                             jones academy
    First, I am here to express our sincere appreciation to the 
Committee, this subcommittee, and all of the Members and staff--past 
and present--who supported us in our efforts to re-establish the 
Federal trust relationship for Jones Academy education through the 
Bureau of Indian Education (BIE). We worked together on this correction 
for decades, since the Federal Government unilaterally closed the 
academic programs at Jones Academy and Wheelock Academy and created the 
Jones Academy Boarding facility which required students to go to the 
local public school. The statutory language to rectify this wrong is 
included in the President's fiscal year 2012 budget request. It was 
also in the fiscal year 2011 House Committee passed Interior, 
Environment, and Related Agencies appropriations bill written by this 
subcommittee. If enacted, it finally brings Jones Academy into 
compliance with the self-determination policy of the last three 
decades, strongly supported by this subcommittee. Most importantly to 
all of us, it enhances future educational opportunities for our 
students.
    There are so many to thank for their efforts that no list here 
would be sufficient. Chairman Simpson and Ranking Member Moran provided 
seamless continuation for the work begun by former subcommittee 
Chairman Norm Dicks and Representative Tom Cole, of our own Oklahoma 
delegation. I must also warmly thank our Congressman, Representative 
Dan Boren. Though not a member of the subcommittee, he provided 
extensive guidance and support. Finally, I want to thank the 
representatives of the administration, particularly Assistant Secretary 
of Indian Affairs Larry Echo-Hawk. He considered our situation with an 
open mind and an open heart; looked at the results of the subcommittee 
directed report on the history of Jones Academy; and recommended the 
budget neutral language under consideration in this bill.
    This is a prime example of the ancient Choctaw philosophy that 
issues should be resolved openly and fairly by people of good will 
working together. With a new Jones Academy, built with tribal funds, 
and the dedication of our staff, the Choctaw Nation will work 
tirelessly to affirm your faith in us and especially in our students. 
With your support, we look forward to continuing the unprecedented 
achievement record of our extraordinary students at Jones Academy.
                full funding of the bia and the ihs csc
    The Indian Self-Determination and Education Assistance Act (ISDEAA) 
has made it possible for tribes to administer large portions of the BIA 
and the IHS budgets, including operating programs previously provided 
by the Federal Government functions in healthcare, education, law 
enforcement, and land and natural resource protection. Today, under the 
ISDEAA, tribes collectively administer more than $2.82 billion in 
essential Federal Government functions, and support a workforce of 
approximately 35,000 people. The ISDEAA carries out its goal of 
transferring essential Government functions from Federal administration 
to tribal administration through a contracting mechanism. To meet these 
contract requirements, the act requires that both the IHS and the BIA 
fully reimburse every tribal contractor for the ``contract support 
costs'' that are necessary to carry out the contracted Federal 
functions. When the CSC are not funded, off-setting reductions must be 
made in direct health program funding, job vacancies go unfilled, and 
services are reduced, effectively making a program cut to desperately 
needed health services.
    The IHS projects a shortfall in the CSC of $153 million for fiscal 
year 2012. This means a $153 million cut in tribally contracted 
programs--not IHS-administered programs, but tribally administered 
health programs alone. The BIA reports its own shortfall exceeded $62 
million in 2010, indicating that total CSC requirements totaled $228 
million. Yet, the fiscal year 2012 proposed President's budget request 
only $195.5 million, resulting in a required cut in tribally operated 
BIA programs of another $33 million next year.
    And, as the CSC needs continue to escalate in this uncertain fiscal 
climate, for fiscal year 2013, the National Contract Support Cost 
Coalition project recommendations that the IHS contract support cost 
line will be increased to $615 million and the BIA contract support 
cost line will be increased to $228 million.
    The current status quo is just not acceptable. Without the 
requested increases, the CSC shortfall for both agencies will exceed 
$186 million in fiscal year 2012. That means a $186 million cut in 
tribal health, education, law enforcement and other contracted 
programs, and could affect as many as 3,600 jobs.
    Tribes are being penalized for their self-determination 
contracting. Because of the CSC shortfall, tribal facilities have 
substantially less dollars to provide services to their communities 
than does an IHS-operated facility. Nor can the Congress's Policy of 
Self-Determination move forward--new contracting activities have slowed 
drastically, and both the IHS and the BIA are stuck at no more than 60 
percent of their budget operated by tribes.
    Finally, fully paying the CSC is legally required. The United 
States Supreme Court so held in the 2005 Cherokee Nation case. It is 
not necessary to write a better law; just honor the law that the 
Congress has already written. The United States Government honors, to 
the penny, all Government contracts even when doing so requires 
supplemental appropriations, with the exception of contracts with 
tribes. This standard should apply to all Indian tribes as well. Law, 
policy, fairness, and honor require this.
      provide increased funding for contract health service (chs)
    The CHS is the most complex and dysfunctional service provided by 
the IHS, tribally operated healthcare delivery program. The CHS is 
designed to refer patients and reimburse providers outside of the IT 
system for medical services provided to American Indian/Alaska Native 
patients. The CHS supplements services that are not provided by the IHS 
hospitals and clinics. The Congress is aware of what the CHS is 
designed to do. However, the underlying issue to be addressed is how 
the CHS can be improved.
    The most logical way to fix the contract health problem is to 
provide adequate funding for the IT system. The Congress is also aware 
of the marginal funding level for IT overall, and specifically in this 
line item. The fiscal year 2010 appropriations level for the CHS was a 
positive step and needs to be continued, with similar increases for the 
next 5 years. At this point, we know that some tribal health programs 
receive assistance in their health programs budget, specific to CHS, 
from their tribal governments. Not all tribes have the economic 
development base that allows this support. Also, in most cases, these 
tribal funds are not recurring and cannot be counted on long term. 
Significant Federal funding over the next several years is critical.
    It is difficult to define the unmet need for the CHS throughout 
Indian country. However, IHS Director, Dr. Roubideaux, has implemented 
a CHS workgroup in an effort to define the parameters of unmet need and 
to arrive at an approximate cost. This again, is a critical area that 
we must define so our requests to the Congress are valid.
    In closing, on behalf of the Choctaw Nation of Oklahoma, and Chief 
Gregory E. Pyle, we are honored to provide our tribe's views on these 
priorities and respectfully urge your consideration and support of 
these program funding requests in the fiscal year 2012 budgets for the 
BIA and IHS.
                                 ______
                                 
                   Letter From the City of Farmington
                                                     April 7, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: I am writing to request 
your support for continued funding in fiscal year 2012 for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program as authorized by Public Law 106-
392. These two successful ongoing cooperative partnership programs 
involve the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power, and environmental interests. 
I request your support for an appropriation for fiscal year 2012 of 
$6,248,000 to the Bureau of Reclamation (BOR) within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region, consistent with the President's 
recommended budget. Substantial non-Federal cost-sharing funding is 
occurring pursuant to Public Law 106-392, as amended.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the subcommittee's past support and request 
the subcommittee's assistance for fiscal year 2012 funding to ensure 
the BOR's continuing financial participation in these vitally important 
programs.
            Sincerely,
                                        Robert G. Campbell,
                                            Assistant City Manager.
                                 ______
                                 
        Prepared Statement of the Center for Plant Conservation
    The Center for Plant Conservation (CPC) is a conservation 
organization whose mission is to conserve and restore the rare native 
plants of the United States to prevent their extinction. We are a 
coordinated, science-based network of 36 botanical institutions working 
for the recovery of our most imperiled native species on public and 
private lands nationwide.
    We work diligently with the private sector and Federal partners. 
Public lands are instrumental in maintaining healthy environmental 
systems and serve as a primary source of plant diversity for the 
Nation. We work cooperatively with the Bureau of Land Management, U.S. 
Forest Service (USFS), Department of Defense, U.S. Department of 
Agriculture ARS, and National Park Service in plant recovery research 
and restoration work with a total annual value of about $14 million.
    These species are not only invaluable for ecological reasons, 
supporting healthy air and water, mediating global climate change, and 
providing wildlife habitat. Our wild plants are priceless natural 
resources for emerging biotechnology and traditional economic benefits 
which are vital for our economic future. We have shown that 87 percent 
of federally listed plant species are very closely related to 
agronomically important species. They are the raw material for plant 
breeding in support of sustainable agriculture, and potential medical 
and other economically significant products. The long-standing 
imbalance in recovery funding for plants risks the tragic loss of 
resources important to the future economic well-being of our Nation. 
Natural resource management activities provide good stable jobs across 
the Nation in the public and private sector, often in our less 
populated areas with less resilient economies. Providing adequate 
funding for biodiversity management not only maintains good jobs, these 
natural resources provide an economic multiplier in communities 
supported by ecotourism, and provide affordable outdoor activities for 
families in economically challenging times while reconnecting youth to 
outdoor activity, volunteerism, and science literacy.
    Public private partnerships are key strategies to provide for long-
term security of these species across our landscapes. Federal 
partnerships and leadership are critical. More botanists and funding 
for recovery action are needed. Plant conservation activities have 
suffered disproportionately in agency funding in the past 20 years. As 
a result, considerable restoration work has become critical to prevent 
the near-term loss of species.
    While we recognize the need for good fiscal management and support 
the goals of deficit reduction, this should be implemented in a 
reasonable manner, balanced across agency programs. Fee structure 
revision for products from our taxpayer owned public lands should also 
be examined to meet fiscal targets while providing for essential 
activities.
    The large-scale challenges of climate change require continued 
progress developing scientific information and strategies to combat 
potential devastation of our forests and native vegetation. Funding for 
partnership and cost-sharing programs such as the State Wildlife Grant 
Program and the U.S. Fish and Wildlife Service (FWS) section 6 program 
is the most cost effective way to make progress for many species. The 
disproportionate cuts to these programs in the continuing resolution 
for 2011 funding must not be allowed to stand in the 2012 budget, as 
hard won progress would be set back, productive partnerships would be 
impaired or lost, and costs of addressing critical problems later will 
rise.
    Land and Water Conservation Fund (LWCF).--A critical strategy in 
meeting the challenges of climate change is to build resilience within 
our wild species populations. This will ensure habitat connections to 
provide avenues for responses in species and community ranges over the 
landscape. LWCF is a critical resource for the Nation to maintain 
habitat continuity and address fragmentation obstacles. We request an 
allocation of $600 million for this year. This funding is needed 
quickly, given the timeframe needed to complete transactions and 
implement landscape activities in time to be available as needed.
    FWS Endangered Species Program.--FWS Endangered Species program is 
seriously understaffed and underfunded, denying assistance to the 
Nation's species that can least afford to wait. We request the above 
appropriation in the FWS listing budget to help clear the listing 
backlog of candidate species in the next few years, and provide interim 
funding in the Candidate Conservation program for proactive recovery 
work which often reduces costs overall.
    The backlog of work needed to properly respond to recovery needs 
for all federally listed species has been estimated to be more than 
$300 million. The situation is especially precarious for our listed 
plant species. While more than 50 percent of the federally listed 
species under the Endangered Species Act (ESA) are plants, they 
historically receive only 3-5 percent of Federal agency expenditures 
for listed species recovery. Our research has demonstrated that 
approximately 75 percent of our federally listed plant species have 
fewer than 100 individuals surviving in the majority of remaining 
sites, and are at a high risk of extinction unless intervention is 
initiated.
    An increase in the FWS Recovery Program budget is needed to begin 
to address the most critically imperiled plant and animal species. We 
are requesting an appropriation of at least $95 million for the FWS 
Recovery Program budget. Further, we believe that within the recovery 
program $5 million in additional funding should be dedicated to 
priority listed plant species for implementation of long-neglected 
recovery activities, including funding designated for Hawaiian plant 
species. Hawaii is our national hotspot for plant biodiversity.
    BLM Plant Conservation Program.--Energy projects will disturb large 
areas of BLM lands. Other activities also aggravate invasive species, 
and threaten imperiled species, increasing restoration needs. Emerging 
climate change also presents increased threats and management 
challenges to our largest agency landholder. BLM has more than 1,300 
imperiled species, and is a significant agency in conserving plant 
biodiversity. BLM has exhibited great leadership in establishing a 
Plant Conservation program taking an integrated approach to significant 
issues. The program is extremely effective and deserving of 
establishing a discrete subactivity, with $5 million of dedicated 
funding. Within the existing BLM programs, to support effective cross-
program work for imperiled species, we request the funding outlined 
above for threatened and endangered species management, wildlife and 
fisheries management, adapting to climate change, challenge cost share, 
resource management planning, and landscape-scale habitat conservation 
programs.
    BLM Native Plant Materials Development Program.--The interagency 
Native Plant Materials Development Program (NPMD) is one of the most 
significant public works projects of our time, and CPC has been an 
active partner since its inception. Expanding the variety and quantity 
of native plant materials will be critical in a reasoned response to 
climate change, more native plant materials will be needed to address 
landscape restoration needs. The program supports rural jobs and 
economic growth by creating new business opportunities for the private 
sector, and reducing cost for Federal land restoration. Consistent 
funding is vital to collect, increase, and distribute native plant seed 
to public and agency partners and private industry for use in 
restoration efforts. Award winning collaborative partnerships for 
public lands have been fostered nationwide, and partners have invested 
more than $5 million of non-Federal match, making the program cost 
effective. The next few years of funding are critical to realizing the 
potential benefits of funds invested to date. We request $21 million 
for the BLM Native Plant Materials Program appropriation, including $6 
million for seed storage facilities.
    USGS.--The Biological Research Division has a vital role in 
supporting information needs for adaptation to climate change and 
landscape conservation efforts, yet has almost no botanical staff. 
Providing sufficient funding as noted above will help them address this 
deficiency.
    USFS.--Chronically underfunded for plant diversity monitoring and 
management, USFS has been losing botanical positions for years, just 
when they are needed most. Forests are among the first habitats showing 
climate change impacts in increased disease, invasive species, fire, 
etc. These impacts cost millions of dollars to address, threatening 
timber values and biodiversity values. An investment now is needed to 
avoid further loss of economic and natural resource values. Funding 
requested for wildlife and fisheries management, range inventory and 
monitoring, forest and rangeland research, forest inventory and 
analysis, and land management planning programs, will help support 
action to address this critical deficiency.
    The National Park Service (NPS).--NPS has 175 federally listed 
plant species and scores of plants of conservation concern. We work 
cooperatively, investing considerable in-kind match funds to help 
address imperiled plant needs, and have seen first hand the 
overstretched staff and lack of resources. We request an additional $5 
million for the Endangered Species program of the Biological Resources 
Management Division to address urgent needs. In addition, NPS is on the 
forefront of Federal leadership in developing public/private 
partnerships, and we request $50 million to maintain that cost-
effective model for progress and engaging the public.
    The State Wildlife Grant Program.--The State Wildlife Grant Program 
is a proactive effort to address biodiversity needs at the State level 
while conservation actions are most cost effective, initiating action 
earlier to preclude the need to list new species under ESA. It is truly 
a landmark program, and we support full funding.
    Unfortunately, the current definition of wildlife included in the 
authorizing legislation in the appropriations language does not include 
plants. Current guidance does not allow State Wildlife Grant program 
funds to be used for projects whose primary objective is declining 
plants. Please relieve this restriction in a permissive manner by 
adding ESA to the authorizing legislation in appropriations language 
for the State Wildlife Grant program. This will permit, not require, 
funding projects to benefit imperiled plant species.
    Thank you for the opportunity to present testimony regarding 
proposed Department of the Interior, environment, and related agencies 
appropriations. Thank you for your service for national natural 
resources.
                                 ______
                                 
Letter From the Center for Plant Conservation; American Public Gardens 
   Association; Botanic Gardens Conservation International; Chicago 
  Botanic Garden; Lyon Arboretum; National Tropical Botanical Garden; 
   North Carolina Botanical Garden; and Santa Barbara Botanic Garden
                                                      May 20, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: Our public lands are 
instrumental in maintaining healthy environmental systems and serve as 
a primary repository of priceless plant diversity for the Nation. These 
species and the plant communities of which they are a part support 
critical ecological functions, including clean air and water, mediating 
global climate change, and providing wildlife habitat. The U.S. Forest 
Service (USFS) has estimated that for every plant species lost from a 
community; as many as 30 other species may be adversely impacted.
    The long-standing imbalance in funding for plant conservation risks 
the tragic loss of resources important to the future economic well-
being of our Nation. Our wild plants are priceless natural resources 
for emerging biotechnology and traditional economic benefits for 
agriculture, forestry, industrial products, fuels, fibers, oils, 
flavors, fragrances, horticulture, potential pharmaceutical compounds, 
and countless other uses. The Center for Plant Conservation has shown 
that 87 percent of federally listed plant species are very closely 
related to agronomically important species. They are the raw material 
for plant breeding in support of sustainable agriculture. Natural 
resource research and management activities provide good stable jobs 
across the Nation in the public and private sector, often in our less-
populated areas with less-resilient economies. Providing adequate 
funding for biodiversity management not only maintains good jobs, these 
natural resources provide an economic multiplier in communities 
supported by ecotourism, and provide affordable outdoor activities for 
families in economically challenging times while reconnecting youth to 
outdoor activity, volunteerism, and science literacy.
    Public/private partnerships are key strategies to provide for long-
term security of these species across our landscapes. Federal 
partnerships and leadership are critical. More botanists and funding 
for restoration action are needed. Plant conservation activities have 
suffered disproportionately in agency funding in the past 20 years. As 
a result, considerable restoration work has become critical to prevent 
the near-term loss of species.
    While we recognize the need for good fiscal management and support 
the goals of deficit reduction, this should be implemented in a 
reasonable manner, balanced across USFS programs. Fee structure 
revision for products from our taxpayer-owned public lands should also 
be examined to meet fiscal targets while providing for essential 
resource management activities.
    The large-scale challenges of climate change require continued 
progress developing scientific information and strategies to combat 
potential devastation of our forests and native vegetation. Funding for 
partnership and cost-sharing programs such as the State Wildlife Grant 
Program and the U.S. Fish and Wildlife Service (FWS) section 6 program 
is the most cost effective way to make progress for many species. The 
disproportionate cuts to these programs in the continuing resolution 
for 2011 funding must not be allowed to stand in the 2012 budget, as 
hard won progress would be set back, productive partnerships would be 
impaired or lost, and costs of addressing critical problems later will 
rise.
    Land and Water Conservation Fund (LWCF).--A critical strategy in 
meeting the challenges of climate change is to build resilience and 
connectivity for our wild species populations. This will ensure habitat 
connections to provide avenues for responses in species and community 
ranges over the landscape. The LWCF is a critical resource for the 
Nation to maintain habitat continuity and address fragmentation 
obstacles. We request an allocation of $600 million for this year. This 
funding is needed quickly, given the timeframe needed to complete 
transactions and implement landscape activities in time to be available 
as needed.
    FWS Endangered Species Program.--The FWS Endangered Species Program 
is seriously understaffed and underfunded, denying assistance to the 
Nation's species that can least afford to wait. We request the above 
appropriation in the FWS listing budget to help clear the listing 
backlog of candidate species in the next few years, and provide interim 
funding in the Candidate Conservation Program for proactive recovery 
work which often reduces costs overall.
    The backlog of work needed to properly respond to recovery needs 
for all federally listed species has been estimated to be more than 
$300 million. The situation is especially precarious for our listed 
plant species. While more than 50 percent of the federally listed 
species under the Endangered Species Act (ESA) are plants, they 
historically receive only 3-5 percent of Federal agency expenditures 
for listed species recovery. The Center for Plant Conservation has 
demonstrated that nearly 70 percent of our federally listed plant 
species have fewer than 100 individuals surviving in the majority of 
remaining sites, and are at a high risk of extinction unless 
intervention is initiated.
    An increase in the FWS Recovery Program budget is needed to begin 
to address the most critically imperiled plant and animal species. We 
are requesting an appropriation of at least $95 million for the FWS 
Recovery Program budget. Further, we believe that within the recovery 
program $5 million in funding should be dedicated to priority listed 
plant species for implementation of long-neglected recovery activities, 
including funding for Hawaiian plant species. Hawaii is our national 
hotspot for plant biodiversity.
    Bureau of Land Management (BLM) Plant Conservation Program.--
Priority Energy projects will disturb large areas of the BLM lands. 
Other activities also aggravate invasive species, and threaten 
imperiled species, increasing restoration needs. Emerging climate 
change presents significant increased threats and management challenges 
to our largest agency landholder. The BLM has more than 1,300 imperiled 
species, and has a vital role in conserving the Nation's plant 
biodiversity. The BLM has exhibited great leadership in establishing a 
plant conservation program taking an integrated approach to significant 
issues. The program is extremely effective and deserving of an 
established discrete subactivity, with $5 million of dedicated funding. 
Within the existing BLM programs, to support effective cross-program 
work for imperiled species, we request the funding outlined above for 
threatened and endangered species management, wildlife and fisheries 
management, adapting to climate change, challenge cost share, resource 
management planning and landscape-scale habitat conservation programs.
    The BLM Native Plant Materials Development (NPMD) Program.--The 
interagency NPMD is a program of national significance for land 
managers both public and private. Expanding the variety and quantity of 
native plant materials will be critical in a reasoned response to 
climate change, and more native plant materials will be needed to 
address landscape restoration needs. The program supports rural jobs 
and economic growth by creating new business opportunities for the 
private sector, and reducing cost for Federal land restoration. 
Consistent funding is vital to collect, increase and distribute native 
plant seed to public and agency partners and private industry for use 
in restoration efforts. Award winning collaborative partnerships for 
public lands have been fostered nationwide, and partners have invested 
millions of dollars in non-Federal match, making the program cost 
effective. The next few years of funding are critical to realizing the 
potential benefits of funds invested to date. We request $21 million 
for the BLM NPMD Program appropriation, including $6 million for seed 
storage facilities.
    United States Geological Survey (USGS).--The Biological Research 
Division has a vital role in supporting information needs for 
adaptation to climate change and landscape conservation efforts, yet 
has almost no botanical staff. Providing sufficient funding as noted 
above will help them address this deficiency.
    USFS.--Chronically underfunded for plant diversity monitoring and 
management, the USFS has been losing botanical positions for years, 
just when they are needed most. Forests are among the first habitats 
showing climate change impacts in increased disease, invasive species, 
fire, etc. These impacts cost millions of dollars to address, 
threatening timber values and biodiversity values. An investment now is 
needed to avoid further loss of economic and natural resource values. 
Funding requested for wildlife and fisheries management, range 
inventory and monitoring, forest and rangeland research, forest 
inventory and analysis, and land management planning programs, will 
help support action to address this critical deficiency.
    The National Park Service (NPS).--The NPS has 175 federally listed 
plant species and scores of plants of conservation concern, and has a 
need for more conservation and botanical staff and expertise. We 
request an additional $5 million for the Endangered Species Program of 
the Biological Resources Management Division to address urgent needs. 
In addition, the NPS is on the forefront of Federal leadership in 
developing public/private partnerships, and we request $50 million to 
maintain that cost-effective model for progress and engaging the 
public.
    The State Wildlife Grant Program.--The State Wildlife Grant Program 
is a proactive effort to address biodiversity needs at the State level 
while conservation actions are most cost effective, initiating action 
earlier to preclude the need to list new species under the Endangered 
Species Act (ESA). It is truly a landmark program, and we support full 
funding.
    Unfortunately, the current definition of wildlife included in the 
authorizing legislation in the appropriations language does not include 
plants, even though more than 50 percent of imperiled species in the 
United States are plants. Current guidance does not allow State 
Wildlife Grant Program funds to be used for projects whose primary 
objective is declining plants. Please relieve this restriction in a 
permissive manner by adding the ESA to the authorizing legislation in 
appropriations language for the State Wildlife Grant Program. This will 
permit, not require, funding projects to benefit imperiled plant 
species.
    Thank you for the opportunity to present testimony regarding 
proposed Subcommittee on the Interior, Environment, and Related 
Agencies appropriations. Thank you for your service for national 
natural resources.
            Sincerely,
                                Kathryn L. Kennedy,
                          President and Executive Director,
                                     Center for Plant Conservation.
                                   Daniel J. Stark,
                                        Executive Director,
                               American Public Gardens Association.
                           Andrea T. Kramer, Ph.D.,
                                        Executive Director,
                        Botanic Gardens Conservation International.
                                     Sophia Siskel,
                                         President and CEO,
                                            Chicago Botanic Garden.
                        Christopher P. Dunn, Ph.D.,
                                                  Director,
                                                    Lyon Arboretum.
                                   Chipper Wichman,
                                          Director and CEO,
                                National Tropical Botanical Garden.
                                       Peter White,
                                     Department of Biology,
                                   North Carolina Botanical Garden.
                            Steve Windhager, Ph.D.,
                                        Executive Director,
                                      Santa Barbara Botanic Garden.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    In support of $5,200,000 to assist in Colorado River Salinity 
Control, title II from the soil, water and air management effort, and 
with support for the President's request for that activity. Also a 
request that $1,500,000 be spent on identified salinity control related 
projects and studies.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for the subactivity that assists the Colorado River 
Basin Salinity Control program authorized by the Congress. The BLM 
budget, as proposed by the administration in the BLM budget 
justification document, calls for five principal program priorities 
within the Soil, Water, and Air Management program. One of these 
priorities is reducing saline runoff to meet the interstate, Federal, 
and international agreements to control salinity of the Colorado River.
    BLM's budget justification documents have stated that BLM continues 
to implement on-the-ground projects, evaluate progress in cooperation 
with the U.S. Bureau of Reclamation (USBR) and the U.S. Department of 
Agriculture (USDA), and report salt-retaining measures in order to 
further the Plan of Implementation of the Federal Salinity Control 
Program in the Colorado River Basin. The Colorado River Basin Salinity 
Control Forum (Forum) believes that fiscal year 2012 funds appropriated 
by the Congress for the soil, water, and air management program should 
be used, in part, for reducing saline runoff in the Colorado River 
Basin.
    The seven Colorado River Basin States, through the Forum, have 
engaged BLM in a partnership with the Basin States as has been done 
previously with the two other Federal agencies implementing salinity 
control in the Basin. The Forum has requested and BLM has selected a 
salinity control coordinator for this basinwide effort. This person now 
serves with the two full-time coordinators in place for USBR and USDA 
efforts. This enhanced working relationship has taken advantage of the 
availability of Basin States' cost-sharing monies to leverage Federal 
funds. The Forum is encouraged by the words in the BLM budget document. 
This document requests $26 million for the soil, water, and air 
management subactivity. The Forum supports the funding request by the 
administration. As one of the five principal soil, water, and air 
program priorities, the Forum believes that the BLM needs to 
specifically target $5,200,000 to activities that help control salt 
contributions from BLM managed lands in the Colorado River Basin. In 
the past, BLM has used $800,000 of the soil, water and air program 
funding for proposals submitted by BLM staff to BLM's salinity control 
coordinator for projects that focus on salinity control. The Colorado 
River Basin Salinity Control Advisory Council has recognized that the 
BLM has now identified projects that in fiscal year 2012 could use $1.5 
million. For years, BLM has dedicated $800,000 on the effort and now 
the Forum believes $1.5 million should be so designated.
    The success of BLM in controlling erosion and, hence, salt 
contributions to the Colorado River and its tributaries is essential to 
the success of the Colorado River Basin Salinity Control program, 
including adherence to the water quality standards adopted by the seven 
Colorado River Basin States and approved by the U.S. Environmental 
Protection Agency (EPA). Inadequate BLM salinity control efforts will 
result in very significant additional economic damages to water users 
downstream. The Forum submits this testimony in support of adequate 
funding so that BLM program can move ahead at a pace that is needed to 
sustain these water-quality standards.
                                overview
    This testimony is in support of funding for a portion of the title 
II program. The Colorado River Basin Salinity Control program was 
authorized by the Congress in 1974. The title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through a minute of the International Boundary & 
Water Commission, to Mexico specific to the quality of water being 
delivered to Mexico at the international boundary. Title II of the act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly enacted Clean Water Act. Initially, the Secretary of 
the Interior and the USBR were given the lead Federal role by the 
Congress.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. In response to the Basin States' requests, the Congress 
revised the act in 1984 to give new salinity control responsibilities 
to USDA and to BLM. That revision, while leaving implementation of the 
salinity control policy with the Secretary of the Interior, gave new 
salinity control responsibilities to the USDA and to BLM. The Congress 
has charged the administration with implementing the most cost-
effective program practicable (measured in dollars per ton of salt 
removed). The Basin States are strongly supportive of that concept and 
have proceeded to implement salinity control activities for which they 
are responsible in the Colorado River Basin.
    Since the congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
USBR estimates that the quantified economic impacts and damages to 
United States' water users alone is about $353 million per year and 
there are very significant additional damages yet to be quantified. 
Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming. The Forum 
has become the seven State coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report analyzing the salinity of the Colorado 
River, anticipated future salinity, and the program elements necessary 
to keep the salinities at or below the concentrations in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed-upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.
                             justification
    BLM is, by far and away, the largest land manager in the Colorado 
River Basin. Much of the land that is controlled and managed by BLM is 
heavily laden with salt. Past management practices, which include the 
use of lands for recreation; for road building and transportation; and 
for oil, gas, and mineral exploration have led to man-induced and 
accelerated erosional processes. When soil and rocks heavily laden with 
salt erode, the silt is carried along for some distance and ultimately 
settles in the streambed or flood plain. The salts, however, are 
dissolved and remain in the river system causing water quality problems 
downstream.
    The Forum believes that the Federal Government has a major and 
important responsibility with respect to controlling salt contributions 
from public lands. The Congress has explicitly directed specific 
Federal agencies, including BLM, to proceed with measures to control 
the salinity of the Colorado River, with a strong mandate to seek out 
the most cost-effective options. It has been determined that rangeland 
improvements can lead to some of the most cost-effective salinity 
control measures available. These salinity control measures may be more 
cost-effective than some now being considered for implementation by 
USBR and by USDA. They are very environmentally acceptable as they will 
prevent erosion, enhance wildlife habitat, increase dependable stream 
flows and increase grazing opportunities.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado and Wyoming, consortiums of Federal and State agencies, 
including BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support BLM's portion of the Colorado River Salinity Control Program as 
set forth in the Forum's adopted Plan of Implementation.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of the Interior, Bureau of Indian Affairs' (BIA) fiscal 
year 2012 budget and has specifically identified two funding needs:
  --$7,712,000, an increase of $3,139,000 more than the President's 
        request, for Columbia River Fisheries Management under other 
        recurring programs, wildlife and parks, and rights protection 
        implementation to meet the base program funding needs of the 
        Commission and the fisheries programs of its member tribes, 
        specifically, to implement Federal court-ordered management 
        obligations, including efforts for species listed under the 
        Endangered Species Act (ESA); and
  --$4.8 million, an increase of $694,000 more than the President's 
        request, for U.S./Canada Pacific Salmon Treaty under the other 
        recurring programs, wildlife and parks, rights protection 
        implementation areas to achieve base program funding adequacy 
        and to implement new obligations under the recent agreement 
        adopted by the United States and Canada under the treaty.
    The CRITFC was founded in 1977 by the four Columbia River treaty 
tribes:
  --Confederated Tribes of the Umatilla Indian Reservation;
  --Confederated Tribes of the Warm Springs Reservation of Oregon;
  --Confederated Tribes and Bands of the Yakama Nation; and
  --Nez Perce Tribe.
    The CRITFC provides coordination and technical assistance to these 
tribes in regional, national, and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. The collective ancestral homeland of the four tribes covers 
nearly one-third of the entire Columbia River Basin in the United 
States.
    In 1855, the United States entered into treaties with the four 
tribes \1\ whereupon we ceded millions of acres of our homelands to the 
United States. In return, the United States pledged to honor our 
ancestral rights, including the right to fish. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the ESA.
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Today, the CRITFC tribes are leaders in fisheries restoration and 
management working with State, Federal, and private entities. The 
CRITFC's member tribes are principals in the region's efforts to halt 
the decline of salmon, lamprey, and sturgeon populations and rebuild 
them to levels that support ceremonial, subsistence, and commercial 
harvests. To achieve these objectives, the tribes' actions emphasize 
``gravel-to-gravel'' management including supplementation of natural 
stocks, healthy watersheds, and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. We have successfully 
secured other funds to support our efforts, including funds from the 
Bonneville Power Administration, the Pacific Coastal Salmon Recovery 
Fund, and the Southern Fund of the Pacific Salmon Treaty, to name a 
few. Our programs are integrated as much as possible with State and 
Federal salmon management and restoration efforts.
   columbia river fisheries management program needs under the other 
       recurring programs, wildlife and parks, rights protection 
                             implementation
    We are succeeding. The salmon, returning in greater numbers, tell 
us so. But along with success, management issues increase in 
complexity, requiring greater data collection and more sophisticated 
analyses. Funding shortfalls prohibit the achievement of tribal self-
determination goals for fisheries management, the ESA recovery efforts, 
protecting nonlisted species, conservation enforcement, and treaty 
fishing access site maintenance. Since fiscal year 2003, our purchasing 
power has decreased under the weight of inflation and rising operation 
costs. We are seeking an increase of $3,232,000 more than fiscal year 
2011 for a new program base of $7,712,000 for Columbia River Fisheries 
Management explained below:
Enhance Tribal Base Programs and Meet Unfunded Program Needs
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of the CRITFC and the 
four-member tribes. Unlike State fish and game agencies, the tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member tribes.
    In 2008, the CRITFC and its member tribes successfully concluded 
lengthy negotiations resulting in three landmark agreements:
  --the Columbia Basin Fish Accords \2\ with Federal action agencies 
        overseeing the Federal hydro system in the Columbia Basin;
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
---------------------------------------------------------------------------
  --a Ten-Year Fisheries Management Plan with Federal, tribal, and 
        State parties under United States v. Oregon; and
  --a new Chinook Chapter of the Pacific Salmon Treaty.\3\ These 
        agreements establish regional and international commitments on 
        harvest and fish production efforts, commitments to critical 
        investments in habitat restoration, and resolving contentious 
        issues by seeking balance of the many demands within the 
        Columbia River Basin. While through these agreements the tribes 
        have committed to substantial on-the-ground projects with some 
        additional resources from the Bonneville Power Administration, 
        the overall management responsibilities of the tribal programs 
        have grown exponentially without commensurate increases in the 
        BIA base funding capacity. For example, the tribes' leadership 
        in addressing Pacific Lamprey declines is this species' best 
        hope for survival and recovery. The tribes are taking the lead 
        in developing needed lamprey management plans. The tribes are 
        also addressing unmet mitigation obligations, such as fish 
        losses associated with the construction of the John Day and The 
        Dalles dams.
---------------------------------------------------------------------------
    \3\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_w09.pdf.
---------------------------------------------------------------------------
    Public safety continues to be a high priority for the CRITFC and 
the four tribes. Tribal law enforcement infrastructure is a necessary 
component of fisheries management. Tribal infrastructure needs include 
additional conservation officers, tribal code improvements, courts and 
prosecutorial capacity increases, and modern detention facilities. The 
CRITFC conservation officers are also the cornerstone of the search and 
rescue, and subsequently recovery efforts. In the popular and heavily 
used Columbia Gorge they provide the most continuous on-river presence 
for both the tribal and nontribal community who depend on the river for 
commercial, cultural, and recreational opportunities.
    The Columbia River in-lieu and treaty fishing access sites were 
authorized by the Congress to fulfill the promises beginning in 1939 
when the U.S. Government built the first of four Federal dams that 
flooded traditional fishing sites and villages on the lower Columbia 
River. After nearly 70 years, 29 sites are in place with two more sites 
slated for completion in 2011 thereby fulfilling the Government's 
pledge. Eighteen of the sites are along the Washington shores of the 
Columbia River between Bonneville and McNary Dams. Tribal fishers from 
the four tribes use the sites to support their harvest for ceremonial, 
subsistence, and commercial purposes. The sites vary with improvements 
including boat launches, fish drying sheds, fish cleaning stations, and 
camping facilities.
    Compounding the challenges in implementing tribal fish management 
agreements are the impacts that climate change will have on the 
interior Columbia Basin and the tribe's treaty resources. The 
University of Washington Climate Impact Group predicts new challenges 
to salmon management due primarily to thermal effects and runoff timing 
changes. The CRITFC is being asked to develop mitigation and adaptation 
strategies on behalf of our member tribes. The CRITFC and its member 
tribes currently have insufficient funds to do the technical work and 
allow policy-level participation in the co-management arena.
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and the CRITFC's ability to 
successfully carry out tribal rights protection, including these 
agreements, by providing sound technical, scientific, and policy 
products to diverse public and private forums. Lost purchasing power 
through rising costs, inflation, and lack of pay-cost adjustments to 
tribal funding has further challenged us to deliver these essential 
services.
U.S./Canada Pacific Salmon Treaty Under the Other Recurring Programs, 
        Wildlife and Parks, Rights Protection Implementation
    For tribal participants in the Pacific Salmon Treaty, the U.S. 
section has identified a program need of $4.8 million for the BIA.
    The United States and Canada entered into the Pacific Salmon Treaty 
in 1985 to conserve and rebuild salmon stocks, provide for optimum 
production, and control salmon interceptions. The treaty established 
the Pacific Salmon Commission (PSC) as a forum to collaborate on 
intermingled salmon stocks. The U.S. section of the PSC annually 
develops a coordinated budget for tribal, State, and Federal programs 
to ensure cost and program efficiencies. The Congress increased funding 
in 2000 in order to implement the 1999 Agreement, but funding has 
significantly eroded since then. In 2008, the United States and Canada 
adopted a new long-term treaty agreement after nearly 3 years of 
negotiations. Both parties agreed to significant new management 
research and monitoring activities to ensure the conservation and 
rebuilding of the shared salmon resource.
    The $4.8 million provides for direct tribal participation with the 
PSC, panels and technical committees. The funding enables the tribes to 
assist in treaty implementation and facilitates management protecting 
trust resources. This funding maintains tribal resource assessment and 
research programs structured to fulfill required treaty implementation 
activities. The fiscal year 2012 recommended level for this program is 
an increase of $680,000 more than the fiscal year 2011 enacted level. 
The recommendation follows the U.S. section's recommendation, includes 
pay-cost adjustments and brings the program back in line with previous 
levels of participation.
    The tribal management programs provide needed beneficial and 
technical support to the U.S. section. The PSC relies heavily on the 
various technical committees established by the treaty. The work of 
these committees is integral to the task of implementing fishing 
regimes consistent with the treaty and the goals of the parties. 
Numerous tribal staff appointed to these committees and all of the 
tribal programs generate data and research to support their efforts. 
For example, indicator stock tagging and escapement monitoring provides 
key information for estimating the parties' annual harvest rates on 
individual stocks, evaluating impacts of management regimes established 
under the treaty, and monitoring progress toward the Chinook rebuilding 
program started in 1984.
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the U.S. 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of the Interior's BIA budget.
                                 ______
                                 
    Prepared Statement of the Copper River Native Association, Inc.
    Thank you for the opportunity to provide testimony towards the 
development of the Indian Health Service's (IHS) and Bureau of Indian 
Affairs' (BIA) fiscal year 2012 budget. I am submitting this testimony 
to address two specific issues relating to the fiscal year 2012 budget:
  --Contract Support Costs (CSC); and
  --staffing for joint venture (JV) facilities.
    As I explain in my testimony, the Copper River Native Association, 
Inc. (CRNA) believes that CSC funding to the IHS should be increased to 
$615 million, and to the BIA should be increased to $228 million, in 
order to meet the two agencies' legal obligations under their contracts 
and compacts with the tribes. CRNA also applauds IHS for fully 
supporting the JV initiative in its fiscal year 2012 budget request, 
although here, too, CRNA is concerned that IHS has not requested CSC 
associated with operating those facilities.
    CSC funds are a necessity and a legally required funding component 
which has been consistently underfunded. CSC shortfalls should be paid 
in full because they severely impact our ability to operate our 
contracts under which we provide Federal health and social service 
programs for the Government. While it may be the general belief that a 
shortfall in this contract funding impacts only administrative-type 
operations, the opposite is true: the CSC shortfall actually only 
reduces health services and education, child welfare, and other 
services. This is because all of our CSC are fixed costs that come off 
the top. If the Government underpays the contracts, we are forced to 
take the shortfall out of the program budgets in the contracts in order 
to make up for the difference. We simply have no choice.
    The ``indirect costs'' that make up CSC are audited annually. They 
are also negotiated annually with a cost allocation department within 
the Federal Government. These costs are for absolute ``must'' items, 
not fluff, and they include the same costs incurred by the Federal 
Government when running the same facilities and programs--plus 
additional costs from which the Government is exempt such as the cost 
of annual audits, workers' compensation insurance, and other insurance 
costs. When agency funding for these fixed contract costs falls short, 
we have no choice but to divert program funds to ``fill the gap.'' 
This, of course, reduces our ability to provide health and social 
services to an already greatly underfunded and underserved population. 
Our tribes and their members are the ultimate victims of the shortfall.
    As you can see, funding the Government's CSC obligation does not 
inflate or add to the administration or infrastructure of an 
organization. What it does is restore funding that has been cut from 
our healthcare and other governmental services. If the shortfall is 
paid, we restore the pre-cut program funding levels, primarily through 
increased employment. That, of course, not only returns services levels 
back to what they should be, but it also expands and improves our local 
economy with new jobs; in other words, the result is a double bang for 
the dollar in two areas where the need is extreme.
    Since most of these funds result in employment growth, there is 
also a mitigating benefit to the Federal Government in the form of 
income taxes. When this is combined with the other benefits of 
increased employment and the expanded and improved healthcare, housing 
and other services we provide, the benefits far outweigh the costs. 
Moreoever, it bears repeating that ultimately it is not a matter of 
cost and benefit; it's a matter of a contract obligation that must by 
law be paid.
    IHS' Joint Venture Construction Project (JVCP) is a critically 
important initiative, because it provides a mechanism, through a 
tribal-Federal partnership, to build IHS facilities that would 
otherwise take years to get built though the ordinary construction 
appropriations cycle. We at the CRNA are very pleased to have received 
a JVCP award during this past year to build a desperately needed 
facility here in the Copper River Valley. The award recognizes our deep 
unmet needs and allows us and IHS to join hands on the project: us by 
constructing a new facility, IHS by funding the staffing package and 
facility operating costs. The process of negotiating the details is 
nearing completion and we are already moving forward with design and 
construction. Our doors should be open in mid-fiscal year 2013.
    The success of our JVCP project depends upon IHS honoring the JVCP 
agreement by providing the necessary staffing package funds and 
associated CSCs in fiscal year 2013. We are taking on significant debt 
in reliance on the commitments in our contract with IHS that the agency 
will do just that. If IHS were to breach that agreement, the CRNA would 
be burdened with major debt service payments the CRNA would have no 
means of paying back, at least not without diverting a large proportion 
of our existing healthcare budget. This would be a disaster.
    All that said, CRNA is very encouraged that in fiscal year 2012 IHS 
budget justification states that IHS is requesting all of the funds 
necessary to fully meet its commitments to staff other JV facilities 
coming on line in fiscal year 2012. We support that appropriations 
request for other tribal JV projects and expect IHS to honor the same 
commitments made to us in its fiscal year 2013 budget. That said, we do 
remain concerned that in fiscal year 2012 IHS does not appear to have 
requested the CSC required to operate these new facilities. Without 
those funds, a facility that, to begin with under the IHS policy, will 
be staffed at only 85 percent of staffing capacity will be rolled back 
to little more than 60 percent of capacity, just to absorb the unpaid 
but fixed CSC that a given tribe will on average incur.
    We respectfully plead and request that you set these two areas (CSC 
shortfall and JVCP funding) as top priorities for the IHS 
appropriation.
    Thank you again for the opportunity to testify before this 
subcommittee.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    As Executive Director of the Chugach Regional Resources Commission 
(CRRC), located in Alaska, I am pleased to submit this testimony 
reflecting the needs, concerns, and requests of the CRRC regarding the 
proposed fiscal year 2012 budget. As is everyone, we are aware of the 
ongoing economic problems in the United States, and the growing concern 
over the Federal deficit. We are also aware that the budget for fiscal 
year 2012 will necessarily reflect these concerns by cutting funding 
for many programs and by disallowing directed spending for individual 
programs. However, while the Government is trimming its spending, the 
Federal Government must still fulfill its legal and contractual 
spending obligations. The Bureau of Indian Affairs (BIA) not only has a 
legal and contractual obligation to provide funding for the CRRC, but 
the CRRC is able to translate this funding into real economic 
opportunity for those living in the Prince William Sound region.
    In this vein, the CRRC respectfully requests that the subcommittee 
restore $500,000 in recurring base funding in the BIA's trust-natural 
resources budget. Year after year, I request that the funding be 
returned to the BIA's base budget, due to the difficulties the CRRC 
continues to have receiving its legally and contractually bound funding 
from the BIA. Despite entering into a legally binding Self-
Determination contract with the CRRC in 1993, a contract that was 
subsequently renewed, the BIA has, in recent years, failed to request 
funding for the CRRC in its budget. In 2008, we brought suit against 
the BIA, which resulted in the BIA agreeing to a contract and funding 
amount for the CRRC. Unfortunately, the BIA continues to fail to 
provide this funding, and we again had to threaten to sue to receive 
the funds due to us for fiscal year 2011.
    CRRC History.--The CRRC is a nonprofit coalition of Alaska Native 
Villages, organized in 1987 by the seven Native Villages:
  --Tatitlek Village IRA Council;
  --Chenega IRA Council;
  --Port Graham Village Council;
  --Nanwalek IRA Council;
  --Native Village of Eyak;
  --Qutekcak Native Tribe; and
  --Valdez Native Tribe.
    CRRC was created to address environmental and natural resources 
issues and to develop culturally sensitive economic projects at the 
community level to support the sustainable development of the region's 
natural resources. The Native Villages' action to create a separate 
entity demonstrates the level of concern and importance they held for 
environmental and natural resource management and protection--the 
creation of the CRRC ensured that natural resource and environmental 
issues received sufficient attention and focused funding.
    In recognition of the level of concern the Villages of the Chugach 
region had, and the importance of the CRRC's work, the BIA awarded the 
CRRC a self-determination contract with the Department of the Interior 
through the Indian Self-Determination and Education Assistance Act, 
Public Law 93-638, in 1993, and received $350,000 as part of the BIA's 
base budget from fiscal year 1994 through fiscal year 2002. CRRC has 
been able to leverage this funding into almost $2 million annually to 
support its several community-based programs. While the base funding of 
$350,000 allowed the CRRC to maintain core administrative operations, 
specific projects have received funding from sources such as ANA 
Grants, the EVOS Trustee Council, the State of Alaska, the BIA, and the 
Forest Service. With these funds, the CRRC has managed to develop and 
operate several important programs that provide vital services, 
valuable products, and necessary employment and commercial 
opportunities.
    Employment.--Through its many important programs, the CRRC has 
provided employment for 35 Native people in the Chugach region--an area 
that faces high levels of unemployment--through programs that conserve 
and restore our natural resources.
    An investment in the CRRC has been translated into real economic 
opportunities, savings, and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
to support their families, thereby removing them from the rolls of 
people needing State and Federal support. In turn, they are able to 
reinvest in the community, supporting the employment and opportunities 
of other families. Our programs, as well, support future economic and 
commercial opportunities for the region--protecting and developing our 
shellfish and other natural resources.
    Programs.--CRRC has a history of successfully increasing its base 
funding by almost 20 percent and using those funds to operate several 
programs that invest in the future environmental and natural resource 
health as well as the economic viability of the region. These programs 
include:
      Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
        Hatchery is the only shellfish hatchery in the State of Alaska. 
        The 20,000 square foot shellfish hatchery is located in Seward, 
        Alaska, and houses shellfish seed, brood stock, and algae 
        production facilities. Alutiiq Pride is undertaking a hatchery 
        nursery operation, as well as grow-out operation research to 
        adapt mariculture techniques for the Alaskan shellfish 
        industry. The Hatchery is also conducting scientific research 
        on blue and red king crab as part of a larger federally 
        sponsored program. Alutiiq Pride has already been successful in 
        culturing geoduck, oyster, littleneck clam, and razor clam 
        species. This research has the potential to dramatically 
        increase commercial opportunities for the region in the future. 
        The activities of Alutiiq Pride are especially important for 
        this region considering it is the only shellfish hatchery in 
        the State, and therefore the only organization in Alaska that 
        can carry out this research.
      Natural Resource Curriculum Development.--Partnering with the 
        University of Alaska--Fairbanks, and the National Oceanic and 
        Atmospheric Administration, CRRC is developing and implementing 
        a model curriculum in natural resource management for Alaska 
        Native students. This curriculum integrates traditional 
        knowledge with Western science. The goal of the program is to 
        encourage more Native students to pursue careers in the 
        sciences. In addition, we are working with the Native American 
        Fish and Wildlife Society and tribes across the country 
        (including Alaska) to develop a university level textbook to 
        accompany these courses.
      Alaska Migratory Bird Co-Management Council.--The CRRC is a 
        member of the Council responsible for setting regulations 
        governing the spring harvest of migratory birds for Alaska 
        Natives.
      Statewide Subsistence Halibut Working Group.--The CRRC 
        participates in this working group, ensuring the halibut 
        resources are secured for subsistence purposes, and to conduct 
        harvest surveys in the Chugach region.
    We appreciate the opportunity to submit this important testimony.
                                 ______
                                 
      Prepared Statement of the Council of Western State Foresters
    Please accept this testimony on behalf of the Council of Western 
State Foresters (CWSF). CWSF is comprised of the 17 State foresters and 
six territorial foresters in the Western United States. The mission of 
the CWSF is to promote science-based forest management that serves the 
values of society and ensures the health and sustainability of western 
forests.
                              introduction
    Mr. Chairman and members of the subcommittee, CWSF appreciates the 
opportunity to submit written public testimony on the proposed fiscal 
year 2012 USDA Forest Service (USFS) budget related to funding for the 
State Fire Assistance (SFA) program and on the Department of the 
Interior (DOI) budget related to funding for the Rural Fire Assistance 
(RFA) program. Additionally, CWSF appreciates this opportunity to 
provide testimony in support of the Wildfire Suppression Reserve Funds 
established under the Federal Land Assistance, Management and 
Enhancement (FLAME) Act within the USFS and DOI budgets in fiscal year 
2012. CWSF recommends that the fiscal year 2012 budget fund these 
priority programs as follows:
      SFA.--$110 million ($39 million within the State and private 
        forestry appropriation and $71 million within the Wildland Fire 
        Management appropriation).
      Rural Fire Assistance.--$7 million.
      USFS FLAME Account.--$413 million.
      DOI FLAME Account.--$92 million.
    CWSF supports the National Association of State Forester's fiscal 
year 2012 appropriations recommendation testimony that has been 
submitted to the Senate Committee on Appropriations Subcommittee on the 
Interior, Environment, and Related Agencies. Ensuring appropriate 
funding for the SFA, RFA, and the FLAME accounts is a priority in the 
West. These programs provide critically important resources needed to 
equip first responders and to address the growing threat of wildland 
fire in response to the heavy accumulation of fuels in many western 
forests and the large number of fire-prone communities and homes at 
high risk within the wildland-urban interface. Funding these programs 
provides necessary resources to equip local agencies to protect human 
life and property, enables local communities to better prepare for 
wildland fires and also ensures that other Federal, nonfire programs 
will not be negatively impacted by the cost of suppressing emergency 
wildland fires.
                               background
    Because of the impact of wildland fire in the West to communities, 
forest resources and budgets, the CWSF has been an active participant 
in the Partner Caucus on Fire Suppression Spending Solutions (Partner 
Caucus). The Partner Caucus is comprised of a unique group of 
organizations, including leading industry, environmental, outdoor 
recreation, and forestry organizations that worked to find new and 
improved mechanisms to fund emergency fire suppression within the USFS 
and the DOI. This group was instrumental in building support for 
changing the way we fund fire suppression, which ultimately led to the 
passage of the FLAME Act by the Congress in 2009. The FLAME Act 
established two funds, one each for USFS and DOI, to cover emergency 
wildland fire suppression costs. The Congress was clear that the intent 
of the FLAME Act was to eliminate the need to transfer funds from 
nonfire accounts to fund emergency wildland fires, and further, that 
FLAME funding should not come at the expense of other DOI programs.
    Programs like RFA within DOI and SFA within USFS provide critical 
resources to local communities to equip and train first responders and 
engage in wildland fire mitigation activities. For example, the SFA 
program supports the preparation of Community Wildfire Protection 
Plans, which serve as a guide to fuels mitigation work and help fire-
prone communities protect life and property. These programs leverage 
Federal dollars to enhance the critically important wildland fire 
protection capabilities of communities and fire districts throughout 
the West. By assisting first responders with training, purchasing 
necessary suppression, communications and safety equipment, and 
conducting prevention activities, these programs help ensure a safe, 
quick and efficient response to wildland fires, which in turn helps 
reduce suppression costs by reducing the number of large wildland 
fires.
                                summary
    We are grateful for the efforts and support of the Congress to 
address the many issues surrounding the increasing cost of suppressing 
wildland fires. For the reasons outlined above, CWSF supports whole and 
healthy FLAME accounts within DOI and USFS along with funding for SFA 
and RFA programs. These programs are all critically necessary 
components of a solution to our Nation's wildland fire suppression 
funding problem.
                                 ______
                                 
               Prepared Statement of the Civil War Trust
                              introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony. My name is James Lighthizer, 
and I am the president of the Civil War Trust. I am writing to 
respectfully request that the Senate Appropriations Subcommittee on the 
Interior, Environment, and Related Agencies fund the Civil War 
Battlefield Preservation Program (CWBPP), financed through the Land and 
Water Conservation Fund (LWCF) in the Department of the Interior (DOI), 
at its authorized amount of $10 million.
    I would like to start by providing a little information about our 
organization. The Civil War Trust is a 55,000-member nonprofit 
organization--the only national one of its kind--dedicated to 
preserving America's remaining Civil War battlefields. To date, the 
Trust has permanently protected more than 30,000 acres of hallowed 
ground in 20 States, most of it outside National Park Service (NPS) 
boundaries.
    I write to you today regarding the highly effective Federal land 
conservation program that has made much of our success possible: the 
CWBPP. This authorized competitive matching grants program, operated 
through the NPS American Battlefield Protection Program (ABPP) office, 
requires a 1 to 1 Federal/non-Federal match, although on many occasions 
the Federal dollars are leveraged much more than 1 to 1. The Program 
has successfully promoted cooperative partnerships between State and 
local governments and the private sector to preserve targeted, high-
priority Civil War battlegrounds outside the NPS boundaries. Since it 
was first funded in fiscal year 1999, the program has been used to 
protect more than 16,500 acres of our Nation's hallowed ground.
                           the opportune time
    This year marks the beginning of the sesquicentennial commemoration 
of the Civil War. It is an opportune time to recommit our energies to 
the protection of these hallowed grounds. Few commemorations are 
expected to generate more excitement and interest among Americans than 
this anniversary. Millions are expected to learn about our Nation's 
unique history by visiting Civil War sites around the country in the 
next 4 years. This anniversary provides the perfect opportunity to 
promote preservation of Civil War battlefields. In late March, 
Secretary Salazar attended an event in Gettysburg to celebrate the 
preservation of some of the most blood-soaked ground still unprotected 
at Gettysburg. At that event, Secretary Salazar affirmed the DOI's 
commitment to promoting the 150th anniversary of the Civil War and the 
need to protect these hallowed grounds as legacies for future 
generations of Americans.
           battlefield lands are our shared american heritage
    These battlefield lands are an irreplaceable part of our shared 
national heritage. These lands are consecrated with the blood of brave 
Americans who fought and died to create the country we are today. The 
private sector organizations engaged in battlefield preservation are 
competing with developers to acquire this land. Once these hallowed 
grounds are lost, they are lost forever.
    We estimate that 30 acres of battlefield lands are lost every day. 
These lands, when preserved, serve as outdoor classrooms to educate 
current and future generations of Americans about this defining moment 
in our Nation's history. In addition, preserved battlefields are 
economic drivers for communities, bringing in tourism dollars that are 
extremely important to State and local economies.
                         origins of the program
    In 1990, the Congress created the Civil War Sites Advisory 
Commission (CWSAC), a blue-ribbon panel composed of lawmakers, 
historians, and preservationists. Its goal: determine how to protect 
America's remaining Civil War battlefields. In 1993, the CWSAC released 
a study entitled ``Report on the Nation's Civil War Battlefields.'' The 
report identified the 384 most historically important Civil War 
battlegrounds and further prioritized them according to preservation 
status and historic significance. Eighteen years later, this landmark 
report and a recent update conducted by the NPS remain our guide for 
targeting only the most historically significant remaining Civil War 
battlefields.
    In addition to creating a prioritized list of battlefield 
preservation targets, the CWSAC also recommended that the Congress 
establish a Federal matching grant program to help the nonprofit sector 
save high-priority Civil War battlefields. CWSAC's proposal was the 
genesis of the CWBPP.
               congressional funding and first successes
    Five years after the ``Report on the Nation's Civil War 
Battlefields'' was released, the Congress acted upon the CWSAC's 
recommendation by setting aside $8 million from the LWCF for Civil War 
preservation matching grants. This first appropriation for the program 
was made available over 3 years, and required a 2 to 1 non-Federal/
Federal match. Grants were competitively awarded through the ABPP, an 
arm of the NPS. Funding was solely for acquisition of properties 
outside the NPS boundaries at battlefields identified in the 1993 
report. Land could be purchased from willing sellers only; there was--
and there remains--no eminent domain authority.
    Thanks to the new program, there began an unprecedented and almost-
immediate surge in Civil War battlefield preservation. The $8 million 
appropriation generated $24 million for land acquisition by encouraging 
State and private investment in battlefield land protection. The 
program inspired the Virginia and Mississippi legislatures to 
appropriate $3.4 million and $2.8 million, respectively, to meet the 
Federal match. The Civil War Trust alone contributed $4 million in 
private sector funds to meet the match.
    As a result of the non-Federal funds generated by the program, 
battlefields like Virginia's Brandy Station and Manassas received a new 
lease on life. In addition, other sites such as Prairie Grove in 
Arkansas, Champion Hill in Mississippi, and Bentonville in North 
Carolina--just to name a few--were substantially enhanced. Largely 
because of the success of those first 3 years, the Congress 
appropriated an additional $11 million for the program in fiscal year 
2002, this time with a 1 to 1 non-Federal/Federal match requirement.
                      authorization of the program
    After approval of the fiscal year 2002 appropriation, authorization 
of the CWBPP was the next logical step. Supporters on Capitol Hill felt 
that authorization of the program would convey to the DOI congressional 
intent regarding the CWBPP's goals and objectives. Further, 
authorization would provide funding predictability for the program's 
non-Federal partners, encouraging them to continue their involvement in 
battlefield preservation.
    The authorization bill, entitled the Civil War Battlefield 
Preservation Act of 2002, was introduced in the House and Senate in the 
summer of 2002. The bipartisan bill formally tied the program to the 
1993 CWSAC report, creating a Federal conservation program with a 
highly focused, prioritized list of acquisition targets. It also 
provided for an annual appropriation of up to $10 million per year--the 
level originally recommended by the CWSAC in 1993. The Civil War 
Battlefield Preservation Act was passed with the unanimous consent of 
both the House and Senate in the fall of 2002, and was signed into law 
by President Bush on December 17, 2002 (Public Law 107-359).
            cwbpp's continued successes and reauthorization
    Since CWBPP was first funded in fiscal year 1999, CWBPP grants have 
been used to protect 16,500 acres of hallowed ground in 14 States. 
Among the many battlefields that have benefited from this program are: 
Antietam, Maryland; Averasboro, North Carolina; Chancellorsville, 
Virginia; Chattanooga, Tennessee; Corinth, Mississippi; Harpers Ferry, 
West Virginia; and Perryville, Kentucky.
    The CWBPP was reauthorized as part of the Omnibus Public Land 
Management Act of 2009 (H.R. 146), which President Obama signed into 
law on March 30, 2009 (Public Law 111-11).
                        urgent need for funding
    The CWBPP's entire fiscal year 2010 allocation has been obligated 
and spent to preserve more than 1,500 acres of sacred battlefield land. 
We thank the subcommittee and the full Appropriations Committee for the 
fiscal year 2011 allocation for the battlefield program as included in 
the final full-year continuing resolution. This allocation comes at a 
critical time, ensuring that highly significant Civil War battlefield 
lands will continue to be preserved in this the first year of the 
sesquicentennial anniversary of the Civil War.
    However, much work remains to be done. We recognize that these are 
difficult economic times and appreciate the constraints on this 
subcommittee as you work to draft an appropriation bill that meets the 
needs of the agencies and programs under your jurisdiction. However, we 
believe that now is the opportune time to provide funding at the $10 
million level for the CWBPP. Funding at this level will allow for the 
continued success of the program and the preservation of key 
battlefield lands that will serve as lasting, tangible legacies for the 
sesquicentennial anniversary. In addition, with time rapidly running 
out to forever protect these hallowed grounds, funding for this program 
will soon no longer be necessary. We estimate that in the next 5 to 10 
years the remaining Civil War battlefield lands will be either paved 
over or protected. That is why we must act now in order to preserve as 
much key battlefield land as possible before time runs out.
    For these reasons, we respectfully ask the Senate Appropriations 
Subcommittee on the Interior, Environment, and Related Agencies to fund 
the CWBPP at its authorized amount of $10 million. Recognizing the 
opportunity presented by the sesquicentennial, President Obama included 
a $10 million request for the program as part of his fiscal year 2012 
budget.
                               conclusion
    Mr. Chairman, there is no question that the Civil War was a 
defining moment in our country's history. For 4-long years, North and 
South clashed in hundreds of battles that reunited our Nation and 
sounded the death knell for slavery. More than 625,000 soldiers and 
50,000 civilians perished as a result of the war.
    Preserved battlefields not only honor the memory of our Civil War 
ancestors, but all of our Nation's brave men and women in uniform. 
Further, preserved battlefields serve as outdoor classrooms to teach 
new generations of Americans about the significance of the Civil War--
and remind them that the freedoms we enjoy today came at a terrific 
price.
    Mr. Chairman, I sincerely hope you and your subcommittee will 
consider our request to provide funding of the CWBPP at its authorized 
level of $10 million. As noted, this is especially important as the 
Nation begins the sesquicentennial commemoration of the Civil War. We 
look forward to working with you and other subcommittee members on 
battlefield protection and other historic preservation issues. Thank 
you for the opportunity to address the subcommittee.
                                 ______
                                 
 Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School
                            request summary
    Mr. Chairman and members of the subcommittee: My name is Faye 
BlueEyes, and I serve as the program director for the Dzilth-Na-O-Dith-
Hle Community School (DCGS) on the Navajo Reservation in Bloomfield, 
New Mexico. My testimony is submitted on behalf of the DCGS School 
Board and Mr. Ervin Chavez, president, and will focus on three areas of 
particular concern to our school in the fiscal year 2012 funding 
requests for the Bureau of Indian Education (BIE). Specifically, DCGS 
is requesting the following:
  --For the BIE, funding for Tribal Grant Support Costs (TGSC) in the 
        amount of $72.3 million to fully meet the indirect costs 
        incurred by all tribally operated schools.
  --For the BIE, to restore $60.9 million in reductions to the 
        facilities construction and repair account.
  --For the BIE, provide $109.8 million in facilities operations and 
        $76 million in facilities maintenance as recommended by the 
        National Congress of American Indians (NCAI) in its budget 
        requests.
                               background
    The DCGS is located in Bloomfield, New Mexico, approximately 170 
miles northwest of Albuquerque within the boundaries of the Navajo 
Indian Reservation. Bloomfield has an estimated population of 7,210, 
with a per capita income of $14,420, and a median family income of 
$34,760. The DCGS is a tribally controlled grant school primarily 
funded through appropriations received from the BIE, and pass-through 
funding from the Department of Education. Our school, which has been in 
continuous service since 1968, operates a K-8 educational program, and 
a dormitory program for students in grades 1-12. Residential students 
in grades 9-12 attend the local public school. Currently, 200 students 
are enrolled in our academic program, and 51 students are housed in 
campus dormitories. Our all-Navajo Board operates the DCGS through a 
grant issued by the BIE under the Tribally Controlled Schools Act. Our 
mission at the DCGS is to make a difference in the educational progress 
of our students and we believe that all of our students are capable of 
achieving academic success. The DCGS, however, has struggled with 
chronic underfunding of virtually each and every one of its educational 
and related programs: in the Indian School Equalization Formula (ISEF) 
which is the key budget account for the academic program; in our 
student transportation funding; in the administrative grants given to 
fund the expenses needed to operate our program, now known as TGSC; and 
in our facilities operation and maintenance accounts. In addition, our 
school facilities' conditions have consistently been rated as ``poor'' 
by the BIE. Though we operate with authorization from the Navajo 
Nation, we are a separate ``tribal organization.'' Thus, when we do not 
receive adequate funding, we have nowhere to turn to make up the 
difference and our academic mission is jeopardized.
    Quite illogically, spending for Indian education programs is 
considered a ``discretionary'' part of the Federal budget. To the 
contrary, adequate funding for these programs is absolutely critical, 
and must be considered a bipartisan priority. While we all recognize 
that the fiscal year 2012 budget is being considered in a time of great 
economic and fiscal challenges, please do not forget that the Indian 
school system has been historically underfunded, the facilities within 
which it operates have long been neglected, and we simply cannot 
continue to absorb more and more draconian budget cuts. With all of 
these factors in mind, we address our funding priorities below.
                           specific requests
    Request No. 1: Funding for the TGSC in the amount of $72.3 million, 
in contrast to the $46.3 million in the fiscal year 2012 budget 
requests. This is the amount calculated by the NCAI and others as 
necessary to fully fund the indirect cost requirements of current 
tribally controlled schools plus provide $2 million in start-up funds 
for newly converting schools. The fiscal year 2012 budget requests no 
funding dedicated to costs incurred by new schools.
    The TGSC, formerly known as Administrative Costs Grants, are funds 
provided to tribally operated schools by the Federal Government to 
cover the administrative or indirect costs associated with the 
operation of a school. This funding is applied to the costs of payroll, 
accounting, insurance, background checks, and other legal, reporting 
and record-keeping requirements, including the preparation of required 
annual audits. The TGSC are appropriated in a lump sum and then awarded 
to individual schools after application of a complex statutory formula 
that divides the available funding among eligible recipients. 
Currently, 124 of the 183 BIE-funded schools are operated by tribes or 
tribal school boards. In fiscal year 2010, the funding available for 
the TGSC met only 61 percent of the need of the schools, the lowest 
rate to date. The BIE estimates that the $3 million increase requested 
for the TGSC for fiscal year 2012 will fund 65 percent of need, but 
with the ever increasing number of reporting and other requirements 
placed on tribally operated schools, the ever-rising costs of 
personnel, and the likelihood that the pool of schools among which the 
funding is divided will increase in fiscal year 2012 by several 
schools, we believe that the 65 percent projection is highly 
optimistic.
    The consequence of insufficient TGSC means that we constantly 
absorb more and more administrative expenses and scale back on prudent 
management activities. We have had to reduce our management staff to 
the point that our ability to maintain prudent internal controls and 
checks and balances is compromised, and money has to be diverted from 
important academic programs. In contrast to the grossly inadequate 
funding for the administrative costs incurred by school contractors, 
nonschool BIA and Indian Health Service contractors have been the 
recipients of significant increases in contract support funding. 
Tribally controlled schools have received no increases in funding since 
fiscal year 2004, yet the fiscal year 2012 budget requests an increase 
of $25.5 million to fund Contract Support Costs (CSC) for the BIA 
nonschool contractors (with an additional $2 million for new 
contractors) and a $50 million increase for the IHS contractors, in 
addition to generous increases received in the fiscal year 2010 enacted 
budget. This disparity in funding is unexplained and indefensible.
    Request No. 2.--Restore $60.9 million to the education construction 
account. The fiscal year 2012 budget request would place a freeze on 
``new construction'' and would defer replacement facilities 
construction to place more emphasis on repairing critical building 
deficiencies. This reduction in funding has been justified by the 
Department of the Interior (DOI) in light of the ``substantial 
investment'' made in Indian schools and detention centers under the 
Recovery Act, funding for which will be phased out in fiscal year 2012. 
Despite this so-called ``substantial investment, the reality remains 
that 66 of the 181 schools for which the BIE is responsible are rated 
in ``poor'' condition on the Bureau's ``Education Facility Condition 
Index for fiscal year 2011'', an increase of two schools from December 
2009, when the last listing was published. The NCAI, in its fiscal year 
2012 budget requests estimated that it would take $263.4 million just 
to keep pace with the growing need for facility construction and 
repair, and yet the budget requests no funds for construction, and only 
$13.8 million to address critical repair needs. The DCGS's facilities 
are rated as ``poor'' by the BIE with an estimated $19,141,580 in 
estimated replacement cost, with a deferred maintenance backlog of $7.7 
million. Our buildings are more than 40 years old, with serious 
deficiencies in our aging electrical, heating and cooling, and plumbing 
systems. We have to continually cope with major problems such as 
leaking sewer lines under the school; and in November 2009 we 
discovered a major leak in an underground gas line which threatened to 
cause an explosion at the school, which then had to be closed for 2 
weeks so the gas company could perform the extensive excavation work 
needed to do repairs. Just recently, the electrical panel in our 
gymnasium caught fire and had to be disconnected. Because the gymnasium 
does not have a sprinkler system, we were fortunate to catch the fire 
as early as we did and avoid serious damage to the building.
    The BIE has a process for evaluating school construction projects 
and placing them on a priority list for funding. No new projects, 
however, have been added to the list since 2004, and the DCGS has not 
had the opportunity to make its case for a replacement school. For 
these reasons, we urge the Congress to direct the BIE to reopen the 
process by which the BIE-funded schools can submit applications for 
replacement school construction projects. We also urge the Congress to 
restore the $60.9 million to the school construction account. While 
this is a far cry from the amount needed to fully address the needs of 
tribally operated schools, it will permit some progress in addressing 
the often dire conditions in which our students attend school. To be 
frank, no other parents across America would accept the conditions 
under which Indian children attend school every day.
    Request No. 3.--Funding for facilities maintenance in the amount of 
$76 million and facilities operations in the amount of $109.8 million. 
As reported by the Government Accountability Office, more than 50 
percent of the BIE school buildings are more than 30 years old, and 20 
percent are more than 50 years old. It stands to reason that in order 
to extend the useful life of the BIE's education buildings adequate 
funding for ongoing and effective maintenance must be provided. This 
funding is needed to provide preventative, routine, and unscheduled 
maintenance for all school buildings, equipment, utility systems, and 
ground structures. The deferred maintenance backlog for the BIE's 
school buildings, as reported by the BIE for fiscal year 2011, however, 
is well more than $250 million; yet the BIE has requested only $50.7 
million for facilities maintenance in the fiscal year 2012 budget, a 
mere fraction of what is required to make a significant dent in the 
maintenance backlog.
    Facilities operation funding covers ongoing operational expenses 
such as payment for electricity, heating fuels, communications, ground 
maintenance, vehicle rental, refuse collection, water and sewer 
service, fire and intrusion monitoring, among other functions. The NCAI 
has calculated that facilities operation expenses are currently funded 
at only 46 percent of need. Yet, the BIE has requested only $58.7 
million for fiscal year 2012, a decrease of $751,000 from the fiscal 
year 2010 enacted amount, despite the fact, as we are all aware, the 
cost of these essential services, particularly the cost of electricity 
and heating costs continues to escalate.
    The decision to eliminate all funding for new or replacement school 
construction, while failing to otherwise address the very real health 
and safety risks that can be reduced by adequate facilities maintenance 
funding seems shortsighted to say the least. Further, the Congress must 
recognize that when the BIE fails to fund facilities operation costs at 
a realistic level, small, preventable problems become bigger and more 
expensive to address, and in emergency situations, school funding must 
be diverted from other programs to meet these needs. In light of these 
realities, the NCAI's proposal of $76 million for facilities 
maintenance and $109.8 million in facilities operation funding, is but 
a modest first step in addressing these long-neglected needs.
                               conclusion
    Lawmakers on both sides of the aisle have endorsed the education of 
our children as one of our highest national priorities, through the 
provision of better teachers, better instructional materials, 
appropriate facilities, and more innovative opportunities. Good 
education costs money, and it is our hope and expectation that the 
Congress will recognize the tremendous needs that exist in our BIE-
funded schools, the potentially disastrous impact of budget reductions, 
and the need to address the historic underfunding of our school system. 
Please join us in supporting a quality educational program for all our 
students. We are grateful for any assistance you can provide.
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife
    Mr. Chairman, Ranking Member and members of the subcommittee, thank 
you for the opportunity to submit testimony for the record. Founded in 
1947, Defenders has more than 1 million members and supporters and is 
dedicated to the conservation of wild animals and plants in their 
natural communities.
    Even in the face of dire fiscal realities, Defenders continues to 
believe that investments in the protection of wildlife and habitat are 
a wise choice for our Nation. To protect wildlife, its habitat must be 
protected, in turn, conserving healthy natural systems that provide 
clean air and water, food, medicines, and other products we need to 
live healthy lives. Federal programs that protect imperiled species, 
migratory birds, wildlife refuges, forests, parks, wilderness, and 
other lands essential to wildlife all are helping to ultimately ensure 
the health and well-being of the American people. The devastating 
Deepwater Horizon spill offered an unfortunate but valuable lesson in 
the importance of a healthy and thriving gulf coast system for the 
people and communities dependent upon it.
    Several damaging policy riders were included in the final fiscal 
year 2011 continuing resolution, including one that legislatively 
delisted most wolves in the Northern Rockies, a dangerous and damaging 
precedent for the Endangered Species Act (ESA). Defenders urges the 
subcommittee to keep the fiscal year 2012 appropriations bill free of 
any further such anti-environmental provisions.
    We are pleased with several high-priority initiatives in the 
President's fiscal year 2012 budget, including:
  --the continued emphasis on landscape level conservation and 
        management efforts intended to build resilience to broad-scale 
        ecological stressors that are harming wildlife and habitat, 
        such as invasive species, wildfire, drought, and climate 
        change--the most daunting conservation challenge of our time; 
        and
  --the proposal to fully fund the Land and Water Conservation Fund 
        (LWCF) that includes a new joint effort by the Departments of 
        the Interior and Agriculture to identify inter-departmental 
        priorities for land acquisition.
    We also are very supportive of the administration's effort to 
prioritize the development of renewable energy as part of a strategy to 
address climate change, produce jobs, and transition to a clean energy 
economy. The President's budget states that various initiatives to 
conduct scientific assessments, plan, and manage at the landscape level 
across agencies will be coordinated under Cooperative Landscape 
Conservation (CLC) and will help to support mission critical operating 
programs of the various agencies, something we believe is of the utmost 
importance if these initiatives are to realize their full potential. 
Moreover, the impacts of significant undertakings, such as the 
expansion of renewable energy development on Federal lands, must be 
adequately considered in the context of landscape level conservation 
with proper siting, management, and mitigation of these projects to 
avoid significant impacts on wildlife and other sensitive resources.
    We urge the subcommittee to do as much as possible to protect the 
accounts of the Fish and Wildlife Service (FWS), our Nation's premier 
wildlife conservation agency. We strongly support the following modest 
increases:
  --To continue progress in building resilience to landscape level 
        ecological stressors, the administration's request for a total 
        of $37.5 million for CLC and adaptive science capacity that 
        will complete establishment of the 18 Landscape Conservation 
        Cooperatives that will be led by FWS out of a total of 21. 
        These funds also will be used to meet additional scientific 
        information needs such as inventory and monitoring and species 
        risk, vulnerability, population, and habitat assessments. In 
        continuing this initiative, effective coordination of landscape 
        level and scientific efforts across agencies and departments 
        and with partners and stakeholders is absolutely crucial.
  --To address the needs of our Nation's most vulnerable plants and 
        animals, a total of $195.8 million for endangered species 
        operating accounts, $13.2 million more than the request, 
        allocated as follows: $12.6 million for candidate conservation, 
        the fiscal year 2010 level, $1.2 million more than the request; 
        $24.6 million for listing, equal to the request; $90.3 million 
        for recovery, $6.6 million more than the request; and $68.3 
        million for consultation, $5.4 million more than the request. 
        In particular, increases are needed in the recovery and 
        consultation programs to implement conservation actions on the 
        ground and to address more than 1,000 consultations related to 
        renewable energy development, and a backlog of more than 1,100 
        pesticide re-registration and other water quality criteria 
        consultations. We are extremely disappointed that funding was 
        eliminated for the Wolf Livestock Loss Demonstration Program 
        that assists livestock producers coexisting with wolves and for 
        White Nose Syndrome that has decimated more than 1 million bats 
        in the last several years, and we ask that both be restored. We 
        support the request for a legislative sub-cap on petitions 
        conditional on the FWS making progress with listing priority 
        species.
  --To maintain the National Wildlife Refuge System, a total of $511 
        million, a modest increase of approximately $8 million more 
        than the request, as recommended by the diverse coalition of 21 
        organizations in the Cooperative Alliance for Refuge 
        Enhancement. The increase is focused only on maintaining 
        current management capability--such as keeping fuel in trucks 
        and paying for rising utilities, building rent and other 
        costs--normally at least $15 million, but reduced for fiscal 
        year 2012 consistent with the Federal employee salary freeze. 
        Flat budgets or cuts in fiscal year 2012 and the coming years 
        would trigger a return to a massive downsizing plan that would 
        lead to elimination of biological, education, hunting and 
        fishing programs, and to other devastating impacts.
  --To minimize harm to the mission critical Office of Law Enforcement, 
        a total of $67.8 million, $5.2 million more than the request 
        but only $2 million more than the fiscal year 2010 level, 
        focused on additional special agents and port inspectors. We 
        are strongly opposed to the decrease in the request for funding 
        that had specifically been added by the Congress in the fiscal 
        year 2010 bill to boost numbers of special agents--the special 
        agent force is still 23 percent below the authorized number of 
        261 and even 16 percent below its previous high water mark.
  --To support the Migratory Bird Management Program, a total of $56.5 
        million, $2 million more than the request to address crucial 
        needs including development of information on golden eagle 
        populations which recently have been discovered to be 
        vulnerable to impacts from wind turbines. Defenders also 
        supports the $2 million increase in conservation planning 
        assistance under habitat conservation that the request says 
        will be used to coordinate and expedite renewable energy 
        project review and development while minimizing impacts on fish 
        and wildlife.
  --To support the Environmental Contaminants Program, $16 million, 
        $2.2 million more than the request. The program's budget has 
        been basically flat since 2001, yet resources are needed to 
        assist the ESA Consultation Program in its backlogged pesticide 
        and water quality consultations and also to support readiness 
        and response capabilities for oil spills or the release of 
        other hazardous substances.
  --To sustain the International Affairs Program, a total of $16.9 
        million, $3.9 million more than the request. Defenders is 
        disappointed that the request included a nearly 10 percent 
        decrease in this very modest program. Funding is needed to 
        support at-risk wildlife in crucial regions through Wildlife 
        Without Borders regional programs; for the Critically 
        Endangered Animals Conservation Fund and Amphibians in Decline 
        Program; for the growing permitting, research and monitoring 
        workload for species subject to trade, and for other crucial 
        priorities.
  --For critical grant programs, $95 million for State and Tribal 
        Wildlife Grants, same as the request; $100 million for the 
        Cooperative Endangered Species Fund, same as the request; $6.5 
        million for the Neotropical Migratory Bird Conservation Fund, 
        $1.5 million more than the request; and $13.5 million for the 
        Multinational Species Conservation Fund, $3.75 million more 
        than the request.
    The multiple-use lands of the Bureau of Land Management (BLM) and 
the U.S. Forest Service (USFS) are increasingly crucial to the 
conservation of wildlife and habitat in the United States, yet their 
resources are not adequate to meet significant challenges. A top 
priority for Defenders is ensuring that any renewable energy 
development on our multiple-use lands proceeds in a balanced way that 
ensures no net loss to wildlife populations and a net benefit to the 
status of threatened and endangered species. We are extremely 
disappointed that the comprehensive review on siting and coordination 
of renewable energy projects by the Department of the Interior (DOI) 
and the USFS that was directed by the fiscal year 2010 conference 
report has yet to be submitted. We urge continued strong oversight to 
ensure that any energy development is done in an environmentally 
sensitive fashion. And given the large land ownerships of the two 
agencies, it is imperative that both participate fully in landscape 
level conservation and management efforts underway.
    For the USFS, the budget proposes two new consolidated budget line 
items, Integrated Resource Restoration (IRR), as was proposed for 
fiscal year 2011, and land management planning, assessments, and 
monitoring. While Defenders supports the stated goals of these 
consolidations to move to a restoration and resiliency based approach 
to forest management and to better link planning, assessment and 
monitoring to advance adaptive management, we remain highly concerned 
about the adequacy of science-based management objectives and clear 
standards for conservation, in particular, given previous USFS 
accountability issues, the merging of wildlife and fisheries habitat 
management into IRR, and the proposed new National Forest Management 
Act planning regulations that eliminate longstanding wildlife viability 
standards. Defenders and other organizations have proposed that, rather 
than a complete consolidation, a responsible first step would be a 
program that uses portions of various program budgets until results and 
accountability can be demonstrated.
    We recommend the following funding for the BLM and USFS programs:
  --For crosscutting BLM cooperative landscape conservation, $29.5 
        million, $2.2 million more than the request. The increase is 
        needed to help support the continued development of rapid 
        ecoregional assessments that examine ecological conditions 
        within large landscapes to ensure that initiated assessments 
        are completed, that new ones are launched in priority 
        landscapes, and that information contained in assessments is 
        transferred into useful management direction.
  --For BLM wildlife and fisheries management, a total of $53.3 
        million, $3 million more than the request and for BLM 
        threatened and endangered species management, a total of $24.6 
        million, $2.9 million more than the request. Investments in 
        inventory and monitoring are needed to help avoid and mitigate 
        harmful impacts to golden eagles, bats, and other wildlife 
        species from renewable energy development and to ascertain bat 
        presence or absence in approximately 400 caves so that BLM can 
        begin to address any occurrence of White-Nose Syndrome. We also 
        are concerned by reports that plant conservation will be moved 
        from the wildlife subactivity to rangeland management, which we 
        fear will undermine the broader conservation focus of the 
        program.
  --For BLM challenge cost share, $9.5 million, same as the request. 
        This program provides crucial resources for proactive wildlife 
        and habitat conservation projects on the ground and the budget 
        states that concerns raised in a 2009 Inspector General report 
        have been addressed.
  --For BLM resource management planning, $55 million, same as the 
        fiscal year 2010 level and $9.4 million more than the request. 
        We are quite concerned about the requested decrease which we 
        believe will hinder needed plan revisions.
  --For BLM's new renewable energy subactivity, $19.7 million, same as 
        the request. Given the major effort to develop renewable energy 
        on BLM lands, the establishment of this new subactivity to 
        better focus resources is a responsible step and we applaud the 
        requested $3 million increase that will support environmental 
        reviews.
  --For USFS land management planning, $50.9 million and for USFS 
        inventory and monitoring, $172.5 million. The proposal to 
        consolidate these two line items cuts the total by $10.8 
        million even though the fiscal year 2010 levels for both 
        programs are far below the 2003 inflation-adjusted level. 
        Robust funding for planning, supported by inventory and 
        monitoring are crucial to move toward a restoration and 
        sustainability agenda.
  --Given the IRR proposal, it is not clear if the separate wildlife 
        and fisheries habitat management line item will still exist, 
        however regardless of whether there is a separate or combined 
        line item, Defenders supports a total of at least $148 million 
        for wildlife and fish output measures, just $5 million more 
        than fiscal year 2010 that is still nearly $16 million below 
        the fiscal year 2001 inflation-adjusted level. With 19 percent 
        fewer botanists and fisheries and wildlife biologists than in 
        1995, Defenders is greatly troubled about the loss of 
        biological capability in the agency.
  --For USFS wildlife and fish R&D in forest and rangeland research, 
        $32.5 million, $4.7 million more than the request allocated to 
        the Climate Change and Water Management and Restoration 
        Emerging Research Areas. Given the need for science-based 
        management on National Forest System lands and the importance 
        of wildlife as indicators of forest health, Defenders is 
        extremely disappointed in the 9 percent decrease in the request 
        for Wildlife and Fish R&D.
    The U.S. Geological Survey supports the basic science necessary for 
conservation of fish, wildlife, and habitat. To provide adequate 
science support, we urge the following increases:
  --For the National Climate Change and Wildlife Science Center, $25.6 
        million, same as the request. We thank the subcommittee for its 
        past strong support and are pleased with progress being made to 
        establish the regional science centers that will be expanded to 
        include northeast, south central and Pacific Island Centers 
        with the increase.
  --For ecosystems, $171.3 million, $4.9 million more than the request, 
        that will help to continue filling scientist vacancies in the 
        all-important Cooperative Research Units; for science support 
        for the DOI bureaus now in the Climate and Land-Use Change 
        activity, $9 million, same as the request, that will assist the 
        agencies in making scientifically based resource management 
        decisions; and for Alternative Energy Studies on Wildlife now 
        under the Energy and Minerals and Environmental Health 
        activity, $3 million, same as the request, to assess impacts to 
        wildlife from wind energy projects and to help inform siting to 
        ensure minimal harm.
    Finally, each day, 6,000 acres of open space in the United States 
is lost to habitat fragmentation and destruction. Once there lands are 
lost, they can never be recovered. We urge the subcommittee to fulfill 
the President's request for full-funding of the LWCF. Thank you for the 
opportunity to provide testimony.
                                 ______
                                 
      Prepared Statement of the Enewetak/Ujelang Local Government
    Mr. Chairman and distinguished members of this subcommittee: Thank 
you for providing us this opportunity to the people of Enewetak to 
describe issues that relate to our ability to live on our homeland of 
Enewetak Atoll, which was used as a nuclear test site by the United 
States from 1947 to 1958.
    As the only people ever resettled on a nuclear test site, we face 
many challenges. Life on Enewetak Atoll is made possible through 
support provided by the congressionally funded Enewetak Food and 
Agriculture Program (EFAP). That program provides funding for imported 
food, an agriculture rehabilitation program, and the operation of a 
vessel. We request that funding for that program for fiscal year 2012 
be increased by the amount of $500,000, the same amount of increase as 
provided by the Congress in fiscal year 2011. Also, we hope that this 
subcommittee will support continued funding of the health program for 
the four nuclear-affected atolls of which we are one, and funding for 
the environmental monitoring by the Department of Energy of the Runit 
Island nuclear waste site which is on our atoll.
    Before we discuss the particulars of this request, we would first 
like to thank you, Mr. Chairman, and members of this subcommittee, on 
behalf of the Enewetak people, for your support in funding the food and 
agriculture program for my people in the Compact of Free Association. 
We also thank you for your past support in assuring that the Enewetak 
Food and Agriculture Program is adequately funded, particularly your 
support for the $500,000 increase for fiscal year 2011 and your 
approval of our request to purchase a replacement vessel during fiscal 
year 2008 from previously appropriated program funds.
    As you know, Enewetak Atoll was the site of 43 of the 67 nuclear 
tests the United States conducted in the Marshall Islands. We were 
removed from our land by the United States Government to make that 
testing possible. We were exiled from our land for a period of more 
than 33 years--a period in which we suffered near starvation, poor 
health, and lack of education.
    In 1980, after a significant cleanup, soil rehabilitation, and 
resettlement effort undertaken by the United States, we were able to 
return and live on only a part of our land. A large part of our land 
and environment remain contaminated making it impossible for us to rely 
on our natural food resources and preventing us from developing a 
fishing or tourist economy.
    We now live on a former nuclear test site. In fact, we are the only 
people ever resettled on a nuclear test site. The EFAP makes life on 
Enewetak possible. And that is why we are so thankful to you for 
assuring funding in the minimum amount of $1.3 million for the program 
in the Compact.
    However, the EFAP was funded at a level of approximately $1.9 
million in fiscal year 2011 and close to that amount for the past 
several years. That funding level needs to continue to maintain the 
minimum components of the program which include a soil and agriculture 
rehabilitation program, the importation of food, and the operation of a 
vessel. Therefore, we request your support for the additional $500,000 
for the program for fiscal year 2012 so that the components of the 
program will be funded in the total amount of $1.9 million, as has been 
the case these past several years.
    In 2008, we faced a challenge with regard to the transportation of 
food, material, equipment, supplies, and transport of people to and 
from our atoll. Our atoll is the most distant atoll from Majuro Atoll, 
the capital of the Marshall Islands. In fact, the distance between 
Majuro and Enewetak is 600 miles one way. All of our food, material, 
supplies, and equipment are sent to Majuro for further trans-shipment 
to Enewetak. Consequently, a reliable vessel is a lifeline for us. The 
vessel available to us up to fiscal year 2009 was so old that parts 
were difficult if not impossible to find. Therefore, we were in the 
market for a replacement vessel that would be even more suitable for 
voyages between Enewetak and Majuro than the vessel we had. We found a 
suitable vessel and greatly appreciate the approval provided by this 
subcommittee to purchase the replacement vessel from previously 
appropriated EFAP funds. That vessel was in service as of 2008 and 
provides the necessary sea transport to support each of the components 
of the program.
    A final comment on the EFAP: This program is a true success story. 
It allows us to live on our homeland while providing the resources 
which allow us to attempt to accomplish some of the rehabilitation 
required to transform part of the atoll from a severely damaged nuclear 
test site to a place that more resembles home. The additional $500,000 
to maintain current funding levels will ensure the continued success of 
this program.
    Now we would like to briefly address the four atoll healthcare 
program. Funding for fiscal year 2012 is necessary to continue the 
program. We appreciate the funding for such program provided by the 
Congress in the amount of $1 million for fiscal year 2011. However, 
continued funding is required to maintain the key elements of the 
program which provide for an on-site physician for each of the four 
atolls, necessary medicines and supplies, funding for a health aide for 
each atoll, and funding for care of the people of the four atolls at 
the hospitals in the Marshall Islands when required.
    We also need to mention the nuclear waste site on Runit Island. 
That site was built by the United States and contains more than 110,000 
cubic yards of material including plutonium and other radioactive 
debris. This site needs to be monitored to assure the integrity of the 
structure and to assure that no health risks from the radioactive waste 
site are suffered by us. To effect the foregoing, a long-term 
stewardship program of Runit Island needs to be implemented by the 
United States.
    Finally, we need to mention our just compensation claims which have 
yet to be addressed by the United States. As you can imagine, Enewetak 
was devastated by the 43 nuclear explosions. More than half the atoll 
requires radiological remediation. The entire atoll requires 
restoration. The Enjebi people need to be resettled on their home 
islands in the northern part of the atoll. The United States accepted 
responsibility for the damages it caused at Enewetak, and it agreed 
that the Nuclear Claims Tribunal was to determine just compensation for 
our people. That Tribunal has done so. Now the just compensation award 
must be addressed so that we have the resources to remediate our atoll 
and to provide our people with the compensation to which they are 
entitled for the loss of use of their land. We believe that the best 
way for the Congress to address the claims of the Enewetak people is to 
have the matter referred to the United States Court of Federal Claims 
pursuant to the congressional referral process. That process will 
enable a body familiar with the type of claims examined and addressed 
by the Tribunal to again examine those claims, and the resulting 
awards, and provide a recommendation to the Congress regarding 
disposition of the claims.
    Again, Mr. Chairman, we thank you and members of this subcommittee 
for your support which makes life possible for us on our home atoll of 
Enewetak, and we thank you for your kind consideration of the requests 
made in this statement.
                                 ______
                                 
      Prepared Statement of the Forest County Potawatomi Community
    My name is Harold Gus Frank, the tribal chairman of the Forest 
County Potawatomi Community. The Forest County Potawatomi Community is 
proud of its state-of-the-art health and wellness center located in the 
rural northwoods of Wisconsin. This testimony is offered on behalf \1\ 
of the tribe to discuss the legal obligation and urgent need to fully 
fund the contract support costs (CSC) that are owed to the Forest 
County Potawatomi Community and other tribes performing contracts and 
compacts on behalf of the United States pursuant to the Indian Self-
Determination Act (ISDA)--specifically $615 million for the Indian 
Health Service (IHS) CSC requirements and $228 million for the Bureau 
of Indian Affairs (BIA) CSC requirements.
---------------------------------------------------------------------------
    \1\ The Forest County Potawatomi Community (WI) is a member of the 
National Tribal Contract Support Cost Coalition, comprised of 19 tribes 
and tribal organizations situated in 10 States and collectively 
operating contracts to administer more than $400 million in the IHS and 
the BIA facilities and services on behalf of more than 250 Native 
American tribes.
---------------------------------------------------------------------------
    No single enactment has had a more profound effect on more tribal 
communities than has ISDA. In just three decades tribes and inter-
tribal organizations have taken over control of vast portions of BIA 
and IHS, including Federal Government functions in the areas of 
healthcare, education, law enforcement, and land and natural resource 
protection. Today, not a single tribe in the United States is without 
at least one self-determination contract with each agency, and 
collectively the tribes administer more than $2.82 billion in essential 
Federal Government functions, employing an estimated 35,000 people.
    In the IHS Aberdeen area, more than 20 percent of the IHS budget is 
under contract to the tribes. The Forest County Potawatomi Community 
has demanded their self-determination rights and secured control over 
IHS and BIA programs. ISDA has been a success unprecedented in the 
history of America's relations with its tribes. As tribes exercise the 
primary role of controlling and administering essential governmental 
services, ISDA has been a useful means for them to address specific 
needs in key governmental areas and to engage in meaningful economic 
and resource development to improve the quality of life for members.
    ISDA employs a contracting mechanism to carry out its goal of 
transferring essential governmental functions from Federal agency 
administration to tribal government administration. To carry out that 
goal and meet contract requirements, the act requires that IHS and BIA 
fully reimburse every tribal contractor for the CSCs that are necessary 
to carry out the contracted Federal activities. (Cost-reimbursable 
Government contracts similarly require reimbursement of ``general and 
administrative'' costs.) Full payment of fixed CSCs is essential: 
without it, offsetting program reductions must be made, vacancies 
cannot be filled, and services are reduced, all to make up for the 
shortfall. In short, a CSC shortfall is equivalent to a program cut.
    For years the administration failed to request full funding for its 
CSC obligations, and the resulting shortfalls grew. This has had the 
cascading effect of negatively impacting tribes. The shortfalls attack 
first those tribes with the smallest voice, tribes whose leadership has 
tribal constitutional obligations to fulfill.
    The first major effort to address this deficiency in the past 10 
years occurred in fiscal year 2010, when the Congress and the President 
supported a $116 million increase to reduce the IHS CSC shortfall by 
about one-half, and a $21 million increase to address BIA CSC 
shortfalls. The IHS increase, alone, will eventually restore 2,820 
health sector jobs in Indian country. Even still, in fiscal year 2010 
these increases left a severe CSC shortfall well in excess of $100 
million.
    Today, IHS projects an fiscal year 2012 shortfall in CSC payments 
of $153 million. That means a $153 million cut in tribally contracted 
programs next year--not IHS--administered programs, but tribally 
administered health programs alone--to cover the shortfall.
    BIA reports that its CSC shortfall exceeded $62 million in fiscal 
year 2010, meaning full CSC requirements that year totaled $228 
million. Yet, the fiscal year 2012 budget requests only $195.5 million, 
resulting in a required cut in tribally operated BIA programs of $33 
million next year.
    It is not acceptable for the administration to seek deficit 
reduction by singling out tribally administered health and law 
enforcement programs for such grave cuts in essential governmental 
services. Indeed, the Congress 23 years ago directed that the agencies 
``must cease the practice of requiring tribal contractors to take 
indirect costs from the direct program costs, which results in 
decreased amounts of funds for services,'' S. Rept. 100-274, p. 9 
(1987), yet the practice continues.
    Funding CSCs in full will permit the restoration of Indian country 
jobs that have been cut while the shortfalls continue. The recent 
fiscal year 2010 reduction in the CSC shortfall produced a stunning 
increase in Indian country jobs. Last year the Forest County Potawatomi 
Community received about $400,000 and added 13 positions. Fellow tribal 
leaders were also able to utilize the funds to create jobs or to 
restore vital positions.
    The Forest County Potawatomi Community urges that for fiscal year 
2012:
  --IHS CSC line be increased to $615 million; and
  --BIA CSC line be increased to $228 million.
    The status quo is not acceptable. First, absent these increases the 
combined projected CSC shortfall in fiscal year 2012 for both agencies 
will exceed $186 million. That means a $186 million cut in tribal 
health, education, law enforcement and other contracted programs, 
representing more than 3,600 jobs.
    Second, the status quo penalizes tribes for their self-
determination contracting activities. Today, a $1 million IHS-operated 
clinic has $1 million to provide services. But a $1 million tribally 
operated clinic on average has only $800,000 to serve the same 
community. That is a cruel and unfair burden to impose on the very 
Tribes that seek greater tribal self-determination.
    Third, the continuing shortfalls have all but brought to a halt 
forward progress under ISDA. For years, new contracting activities have 
slowed to a trickle, and each agency is stuck at no more than 60 
percent of its budget operated by tribes. The Congress' Policy of 
Tribal Self-Determination will not move forward until the CSC 
shortfalls are addressed
    Fourth, investing funds here is wise. No part of the IHS or BIA 
budgets is more highly scrutinized than are the funds awarded under 
these contracts. There is a transparency and accountability here that 
is unrivaled in other government contracting work.
    Fifth, fully paying CSCs is legally required. The United States 
Supreme Court so held in the 2005 Cherokee Nation case. It is not a 
matter of writing a better law, but of honoring the law that the 
Congress has already written.
    Finally, it is a stain on America when the Nation honors to the 
penny all other Government contracts, even when honoring those 
contracts demands supplemental appropriations, but does not live up to 
those legal responsibilities when it comes to contracts with Indian 
tribes. The Forest County Potawatomi Community and all tribes have 
wrongfully been in the untenable position of performing contractual 
obligations despite the shortfall. As much as law, policy, fairness and 
good sense, the Nation's honor demands that these contracts be paid in 
full for services duly rendered to the United States.
    In addition to these recommended funding levels, it is recommended 
that the subcommittee require both agencies to consistently project and 
budget the additional CSC requirements associated with new contracts 
and program expansions (on average, 13.5 cents for each new IHS program 
dollar, and 10.4 cents for each new BIA program dollar). IHS did this 
in its fiscal year 2012 budget, but the BIA did not. Further, the 
subcommittee should reconcile the different language used in IHS and 
BIA portions of the bill, eliminate the old section 314'' language (a 
useless vestige after the Cherokee case), and assure that each agency 
has an Indian Self-Determination Fund inside the overall CSC 
appropriation to address new contracting initiatives.
    Thank you for the opportunity to offer these recommendations.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa
    I am Karen R. Diver, chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. We appreciate having the opportunity to provide you 
with testimony on fiscal year 2012 appropriations for the Indian 
programs funded through the Department of the Interior and Indian 
Health Service (IHS). The Fond du Lac Band provides health, education, 
social, and other governmental services to approximately 6,700 Indian 
people living on or near our reservation in northeastern Minnesota. 
These programs are essential to our ability to educate our children, 
care for our elderly and infirm, prevent crime, and protect and manage 
natural resources.
    Bureau of Indian Education (BIE): Education.--We urge the Congress 
to increase funding for the BIE Elementary/Secondary School Programs. 
The Fond du Lac Band relies on BIE funding for the operation of the 
Band's pre-K through grade 12 Ojibwe School. The Ojibwe School serves 
approximately 320 students most of whom are tribal members or 
descendants of tribal members. Most of our students come from very-low-
income households, illustrated by the fact that more than 90 percent of 
our students qualify for free or reduced-rate lunches. But although 
American Indian students are the most at-risk group of students in our 
Nation, the BIE Elementary/Secondary School Programs have been 
historically under-funded. We ask that the BIE Elementary/Secondary 
School Program funding be increased as follows:
      Indian School Equalization Program (ISEP) Funding.--We do support 
        the President's proposal to increase by $3.9 million the BIE 
        funding for the ISEP Adjustments to assist tribal schools in 
        implementing safety and security programs. However, we urge the 
        Congress to also increase the ISEP Formula Funds above that 
        requested in the President's budget. The ISEP Formula Funds are 
        the primary means by which we pay the costs of school 
        operations and education programs, but these funds have 
        consistently fallen very far short of our need.
      Tribal Grant Support Costs (TGSC).--We also support the 
        President's proposal to increase by $3 million the BIE funding 
        for the TGSC. These help tribal schools, like the Fond du Lac 
        Ojibwe School, cover administrative costs without using program 
        funds. However, because these funds have seen no increase for 
        many years even though costs have risen, we urge that these 
        funds be increased above the amount requested by the President.
      School Facility Operations and School Facility Maintenance.--We 
        support the President's proposal not to reduce the funding for 
        school facility maintenance, but urge the Congress do more by 
        increasing funding for school facility operations and school 
        facility maintenance from prior year's funding levels. This is 
        important as past funding has not kept pace with the cost of 
        school operations or the growing backlog of Indian schools and 
        facilities needing repair.
    Bureau of Indian Affairs (BIA): Public Safety and Justice.--We urge 
the Congress to increase BIA funding for law enforcement above the 
level proposed in the President's budget. While we support the 
President's proposal to increase law enforcement funding (through the 
Department of Justice) to increase the number of the Federal Bureau of 
Investigation (FBI) agents working in Indian country, because the FBI's 
work will be limited to targeting specific major crimes, this increased 
funding will not address the growing day-to-day law enforcement needs 
on our reservation. We also ask that the Congress increase the Band's 
base funding by $2 million for court operations and law enforcement, 
and provide a one-time appropriation of $8 million to allow us to 
expand the facility that houses our law enforcement department--a 
facility that is completely inadequate for that purpose.
    We continue to face massive unmet needs for law enforcement on 
matters that are not addressed by the FBI. We had to assume 
responsibility for law enforcement after the Minnesota Supreme Court 
ruled that the State did not have jurisdiction to enforce traffic laws 
on roads within Indian reservations, State v. Stone, 572 N.W.2d 725 
(Minn. 1997). Over the years, we have done this using a combination of 
tribal and Federal funds (made available through the Community Oriented 
Policing Services (COPS) program and the BIA), and by cooperative 
agreements with local law enforcement agencies. Currently, however, the 
Band receives no financial support for operations for its police 
department. At the same time, because of the insurgence of 
methamphetamine, alcohol, illegal prescription drug use, and gang-
related activities on our reservation, our law enforcement 
responsibilities continue to grow. Prescription drug abuse is an 
epidemic. Increasing numbers of our elders and others are the victims 
of more frequent assaults and robberies that are prescription drug 
related. Our officers are responding to a growing number of drug-
related overdoses and deaths, as well as juvenile offenses involving 
drugs, alcohol, thefts, assaults, and burglaries. We also respond to a 
wide range of other matters, including, for example, reports involving 
domestic disputes, disturbances, disorderly conduct, property damage, 
theft, medical emergencies, fire, neglected children, runaways, suicide 
threats, as well as numerous traffic-related matters. In 2010 alone, 
our law enforcement department responded to 5,057 incidents and 
requests for assistance. This is an average of 14 calls each day, and 
is an 8 percent increase more than the number of calls our law 
enforcement department received in 2009.
    To address these problems, we need to increase our law enforcement 
staff and ensure effective law enforcement coverage 24/7. But we do not 
have sufficient funds to hire the number of officers we need. We 
currently employ 13 patrolmen, 1 investigator, 1 school resource 
officer (assigned to the Ojibwe School), a chief of police, and 3 
administrative staff. To the extent possible we schedule three officers 
per shift, but we do not have sufficient funds to do this around the 
clock. In fact, to effectively patrol the reservation we should have 4 
officers working each shift and a second investigator, for a total of 
20 officers. Fewer officers on duty means serious safety issues for 
both officers and the people we need to protect. The increasing number 
of calls for police assistance also means that we need more than one 
investigator and, with our limited staff we cannot implement proactive 
measures, such as education and outreach programs.
    Federal funding is also vital for law enforcement equipment. We 
have, in the past, depended on funding through the COPS program, but 
COPS funds are limited and not sufficient to meet our needs. Because 
our officers patrol a 170-square-mile area, squad cars regularly need 
to be updated and replaced. We also need to upgrade our communications 
equipment. We have mutual aid agreements and coordinate law enforcement 
with St. Louis and Cloquet Counties which are updating their 
communications systems to digital systems. We will need to do the same 
to ensure that our systems are integrated with the counties' system. 
This means replacing the portable radio equipment for each of our 
officers at an estimated cost of $40,000 ($2,500 per unit for each of 
16 officers) and for each patrol car at an additional cost of $30,000-
$40,000 ($3,000-$4,000 per unit for each of 10 vehicles).
    Finally, we need a new facility for our law enforcement department. 
The department is still housed in a six-room building which we share 
with the Band's housing program. It has no room for investigative 
interviews, nor office space for specialty positions such as 
investigators. The evidence room and reception area are all completely 
inadequate for law enforcement purposes and, with the increased number 
of calls we are receiving, is becoming more inadequate each day. A new 
building with a garage, along with a larger evidence room, storage room 
for record keeping, and a training room for officers, is essential.
    BIA: Natural Resources.--We very much appreciate the funding for 
the BIA Natural Resource Programs that the Congress has provided in 
past years and support the President's proposal to increase (by $5 
million) the funding for these programs. We also support the 
President's proposal to include $1 million (with funding for BIA Public 
Safety and Justice) for Tribal Conservation Law Enforcement Officers. 
Natural resources are vitally important to our tribal members as they 
provide the foundation for our culture, meet subsistence needs, and 
provide employment. The Fond du Lac Band's right to access natural 
resources within and outside our reservation was reserved by treaties 
with the United States in 1837 and 1854, and reaffirmed by the courts. 
In connection with these treaty rights, the Band is responsible for 
managing natural resources and for enforcing Band conservation laws 
that protect those natural resources by regulating tribal members who 
hunt, fish, and gather those resources both within and outside the 
reservation. Funding is essential for that work. Fond du Lac routinely 
partners with State, Federal, and tribal organizations to conduct 
research and management activities. We request that $2 million be added 
to our base budget for Resource Management Programs, as funds for these 
programs have not been increased since 1991.
    We are aware that the Congress intends to reduce spending in many 
areas of the current budget, but urge the Congress to at least maintain 
current funding levels for all Federal programs that support the 
conservation and restoration of natural resources. Specifically, we 
request that the Congress fund the U.S. Fish and Wildlife Service State 
and Tribal Wildlife Grant Program, the Environmental Protection Agency 
Great Lakes Restoration Initiative, Tribal Historic Preservation 
Offices, and all the BIA programs related to natural resource and land 
management at the levels indicated in the President's budget request.
    BIA: Human Services.--We support the President's proposed increase 
in funding for Human Services Programs, but urge the Congress to 
increase funding by more than the $831,000 proposed. A larger increase 
is needed to address the impact that the methamphetamine epidemic has 
on not only public health and safety, but also on child protection, 
child welfare, and foster care services. Increased funding for social 
services and Indian Child Welfare Act Programs are essential if tribes 
are to have any realistic hope of protecting Indian children, 
preventing domestic violence, and fostering Indian families.
    IHS.--We fully support the President's proposed increase in funding 
for the IHS and appreciate the commitment that the administration and 
the Congress have made to address the funding needs for healthcare in 
Indian country. The President's proposed increase is essential to 
address the high rates of medical inflation and the substantial unmet 
need for healthcare among Indian people. Indians at Fond du Lac, like 
Indians throughout the Nation, continue to face disproportionately 
higher rates of diabetes and the complications associated with 
diabetes, than the rest of the population. Heart disease, cancer, 
obesity, chemical dependency, and mental health problems are also 
prevalent among our people. While other Federal programs, like Medicare 
and Medicaid, have seen annual increases in funding to address 
inflation, the budget for the IHS has never had comparable increases, 
and, as a result, the IHS programs have consistently fallen short of 
meeting the actual needs. All Indian tribes should receive 100 percent 
of the Level of Need Formula, which is absolutely critical for tribes 
to address the serious and persistent health issues that confront our 
communities. The Band serves approximately 6,700 Indian people at our 
clinics, but the current funding level meets only 38 percent of our 
healthcare funding needs.
    As the epidemic of prescription drug abuse grows across the 
country, the IHS needs resources to expand its treatment and community 
education capacity. Additional funding for the Methamphetamine, Suicide 
Prevention Initiative should be made available to tribes and the IHS so 
that this ``new sickness'' can be addressed. Best practices in pharmacy 
inventory and prescription monitoring need to be modeled and replicated 
throughout Indian country. Related to this is the fact that more and 
more Government agencies are expecting local units of governments, 
including tribes, to address these problems and the increasing number 
of individuals who become homeless as a result of them, through the 
operation of supportive housing. But Fond du Lac, like most tribes, 
does not have the financial resources to establish new program 
initiatives, like supportive housing, without assistance from the 
Federal Government. We urge the Congress to support programs through 
the IHS or the BIA that would fund supportive housing for tribes in 
every area of the country.
    In conclusion, the needs at Fond du Lac and throughout Indian 
country remain massive. Your support on these funding issues is 
essential to our ability to maintain vitally important programs and 
improve the delivery of services to Band members.
    Miigwech. Thank you.
                                 ______
                                 
 Prepared Statement of the Friends of Alaska National Wildlife Refuges
    Honorable Chairman and members of the subcommittee: On behalf of 
the Friends of Alaska National Wildlife Refuges, I wish to express our 
appreciation for the opportunity to provide this statement concerning 
the fiscal year 2012 appropriations for the National Wildlife Refuge 
System (NWRS). The Alaska Friends is a 501(c)(3) nonprofit organization 
with 341 members who reside throughout the State of Alaska and the 
other 49 States. We work on a volunteer basis to assist the U.S. Fish 
and Wildlife Service (FWS) to accomplish their congressionally mandated 
mission for the 16 Alaska National Wildlife Refuges. We urge adoption 
of a funding level of $511 million for fiscal year 2012 for the NWRS. 
The NWRS actually needs $900 million annually to adequately manage the 
150 million acres in the NWRS, and $511 million is needed to merely 
maintain the status quo. Any reduction below this level will severely 
impair the ability of the FWS to manage and maintain the wildlife and 
habitats in this largest conservation system in the world. This is 
especially critical in light of the changes and challenges posed by 
global warming, rising sea levels, receding glaciers, invasive species, 
and oil spills such as the recent one in the Gulf of Mexico.
    Every year, the FWS needs at least a $15 million increase just to 
maintain current personnel and operations, and that is likely to 
increase as energy costs and inflation rise, and global warming. In 
response to past budget shortfalls, FWS has been forced to downsize and 
eliminate staff, resulting in completely destaffing scores of refuges 
and requiring: remote management of many refuges; major reductions in 
visitor services, wildlife and habitat management, conservation, and 
restoration; diminished hunting and fishing opportunities; limited 
ability to control damaging invasive species and clean up and repair 
damages from oil spills and other accidents; curtailment of 
environmental education programs; and reductions in law enforcement. An 
appropriation of $511 million is needed for fiscal year 2012 to prevent 
slipping into an undesirable future for our refuges, wildlife, and the 
people who enjoy and depend these recourses for their livelihoods.
    The NWRS has substantial backlogs in two major areas:
      Deferred Maintenance.--The deferred maintenance backlog has 
        hovered around $2.5 billion for the past few years. These are 
        needs associated with maintaining constructed assets, such as 
        administrative and visitor buildings, roads, levees, water 
        control structures, visitor facilities, underground water 
        lines. This work is considered ``deferred'' because it is 
        overdue and funding resources are not currently available to 
        complete the work.
      Operations.--For several years the operations backlog has hovered 
        around $1 billion. These are needs associated with the annual 
        operations of refuges in all respects. They include staffing 
        needed to manage habitat, provide law enforcement, provide 
        services to visitors, and maintain assets. They also include 
        contracts or projects, such as controlling invasive species, 
        monitoring habitat, restoring wetlands, and developing an 
        environmental education curriculum.
    The Alaska National Wildlife Refuges encompass more than 77 million 
acres and comprise more than 80 percent of the lands in the NWRS. In 
2010, the Friends completed 15 volunteer projects on Alaska's refuges, 
but this national program will be jeopardized if adequate funding is 
not maintained. Nationally, volunteers perform 20 percent of the work 
in the NWRS, more than any other Federal land management agency. 
Invasive plant species are advancing northward and threatening the 
habitats of Alaska refuges. With 50 percent Challenge Cost-Share (CCS) 
funding for 5 years, Alaska Friends volunteers have worked to remove 
invasive species affecting seven Alaska refuges. In conjunction with 
these activities, we have organized public meetings to inform the local 
populace about their refuges and the opportunities and challenges they 
provide. This year, we have several similar projects underway. Without 
matching funds from the CCS Program, these volunteer programs could not 
continue this invaluable work to protect our valuable wildlife and 
habitats.
    The 16 Alaska refuges provide a myriad of opportunities to more 
than 1.3 million visitors each year. There are summer science camps and 
local environmental education programs, mainly in rural areas and 
Native communities and schools; outstanding recreational opportunities, 
such as fishing, hunting, hiking, boating, wildlife viewing, and 
photography; important subsistence activities that support the 
traditional lifestyles of Alaska Natives and other rural residents; 
partnering with Native corporations and local governments that provide 
valuable experiences and job opportunities, such as refuge information 
technicians; and cooperative programs and matching grants with the 
Alaska Friends to conduct rural outreach and environmental education 
programs and to remove invasive species that threaten the health and 
integrity of refuge ecosystems. The major contributions of refuges to 
local economies are illustrated by the example of the Kenai National 
Wildlife Refuge. Every $1 spent by the refuge produces almost $15 in 
local recreational expenditures and more than $12 million in local tax 
revenues.
    In addition to the traditional refuge programs and activities, the 
Alaska refuges are uniquely situated to contribute information and 
expertise to major national and worldwide problems. The mounting 
scientific evidence of global warming has shown that northern Alaska is 
experiencing far greater impacts than other regions. The rate of 
temperature increase in Alaska is twice that of the lower 48 States. 
Coastlines, nesting areas, polar bear and walrus populations, and local 
villages are being severely damaged by the decreasing size of polar 
icepacks and the longer ice-free periods, which increase the severity 
and destructiveness of coastal storms. The melting of permafrost is 
destroying homes, offices, and other structures, and plant and animal 
species are advancing northward to areas where they have been unknown 
in human history. These changes not only interfere with the subsistence 
way of life of rural Alaskans, but they increase the costs of refuge 
research, management, and maintenance. Given adequate budgetary 
support, the Alaska refuges can provide extremely valuable biological 
and climatological monitoring and studies to increase our understanding 
of these processes and enable us to design and implement mitigation 
projects to reduce the impacts of global climate change.
    Failure to maintain current levels of funding for the NWRS will 
result in:
  --reduced subsistence and recreational opportunities;
  --fewer visitor services;
  --loss of important environmental education and science camps, 
        especially for children and youth in rural Native villages;
  --increased maintenance backlogs;
  --reduction of important scientific studies, such as wildlife 
        population and habitat monitoring that assist in understanding 
        global climate change; and
  --overall degradation and decay of the NWRS and public use and 
        enjoyment of its resources.
    We urge you to adopt the recommended $511 million fiscal year 2012 
appropriation for the NWRS, which is the minimal amount necessary to 
maintain our magnificent NWRS.
    We also urge the leveraging of conservation efforts through the 
following actions:
      State Wildlife Grants (SWG).--The FWS works with States to 
        maintain common species and restore declining species before 
        they become endangered. A slight increase for the SWG Program 
        to $95 million for fiscal year 2012 is essential to fulfill the 
        shared Federal-State responsibility to keep our Nation's 
        wildlife from becoming endangered.
      North American Wetlands Conservation Act (NAWCA).--NAWCA grants 
        enable the acquisition and restoration of critical wetlands to 
        implement the goals and objectives of the North American 
        Waterfowl Plan, the Waterbird Plan, the U.S. Shorebird Plan, 
        and Partners in Flight. A congressional allocation of $50 
        million in fiscal year 2012 will deliver multiple benefits that 
        include habitat restoration, improved water quality, and carbon 
        sequestration.
      Fully Fund the Land and Water Conservation Fund (LWCF) at $900 
        Million.--Created in 1965 and authorized at $900 million per 
        year (more than $3 billion today's dollars), the LWCF is our 
        most important land acquisition tool. More than 8 million acres 
        are unprotected within existing refuge boundaries, and there is 
        an increasing need to establish key wildlife corridors and 
        connections between protected areas. We urge the Congress to 
        pass legislation to permanently fund the LWCF.
    Adoption of the recommended $511 million appropriation for the NWRS 
will allow necessary biological and public programs to be maintained in 
ways that will benefit habitat, fish and wildlife, and public use and 
enjoyment of our magnificent wildlife refuges. We have an obligation to 
provide future generations the same opportunities to learn and benefit 
from our NWRS that all of us enjoy today.
                                 ______
                                 
                  Letter From the Friends of Back Bay
                                                     April 1, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: I am Molly Brown from 
Virginia Beach, Virginia. I am the president of Friends of Back Bay, a 
group of more than 150 dedicated volunteers who are committed to the 
protection of the Back Bay National Wildlife Refuge. Located in 
southeastern Virginia Beach, Back Bay National Wildlife Refuge (Refuge) 
was established on February 29, 1938, as a 4,589-acre refuge and 
breeding ground for migratory birds. We thank the Congress for their 
continued support of this project. The Director of the U.S. Fish and 
Wildlife Service (FWS) approved a Refuge boundary expansion on May 7, 
1990. The expansion area includes 6,340 acres of important wildlife 
habitat. To date the FWS has been able to acquire 4,996 acres.
    In order to continue the Back Bay Refuge expansion project, we 
respectfully request $1 million for fiscal year 2012. This money will 
help to fill in the mosaic pattern of small land parcels from willing 
sellers who have been waiting patiently to sell their land to the 
Refuge. This continuing project was first funded by the Congress in 
1990. With only a few remaining parcels to purchase, we hope the 
Congress will want to see this Back Bay project completed. Our project 
is not in the President's budget and we know there are no earmarks. So, 
how do we complete this project and what do we tell the willing sellers 
that have been waiting for years to sell their properties?
    The enclosed map gives a visual description of the acquisitions 
through 2010 and the remaining parcels by priority to be purchased from 
willing sellers within the Back Bay National Wildlife Refuge proposed 
acquisition boundary. Here is a brief description of each parcel.
                            fiscal year 2010
    Rice: Tract 249--$425,000--8 Acres.--Closing this fiscal year 
(2010) with LWCF funds appropriated. This project uses most of the 
appropriated funds with the remainder ($120,000) to be ``banked'' in 
combination with future funds to complete acquisitions, as listed 
below. Project Description--valuable riparian/wetland habitat on the 
southern bank of Nanney's Creek. This Creek has been identified as one 
of Virginia Beach's ``impaired waterways'' by the State DEQ. 
Cooperative efforts by private landowners (mostly farmers), the city of 
Virginia Beach, the State of Virginia and Back Bay NWR are ongoing to 
restore the water quality of this tributary of Back Bay. This property 
is adjacent to existing Refuge property on its north and east 
boundaries.
                            fiscal year 2012
    Brown: Tract 193--$216,000--18 Acres.--Project description: Mostly 
forested wetlands on the west side of Back Bay with existing valuable 
habitat for migratory birds, especially neotropical migrants. This 
property is within the original Refuge acquisition boundary and is 
adjacent to existing Refuge property on three sides (north, east, and 
south). Option to purchase in effect.
    Johnson: Tract 173--$402,000--30 Acres.--Project description: 
Emergent marsh habitat adjacent to Ashville Bridge Creek with existing 
valuable habitat for migratory birds, especially waterbirds. This 
property is within the original Refuge acquisition boundary and is 
adjacent to existing Refuge property on three sides (north, east, and 
west). Option to purchase in effect.
    Van Nostrand: Tract 250--$200,000--15 Acres.--Project description: 
This property has been cleared, and is ready for farming and/or 
development. Although the current habitat has little wildlife value, 
reforestation of this parcel, as Back Bay Refuge has done with so many 
other parcels, will serve as quality habitat for a variety migratory 
birds, especially neotropical migrants. Option to purchase in effect.
    Griffith: Tract 100c, d, and e--$250,000--105 Acres.--Project 
description: Emergent marsh habitat on the east side of Back Bay. This 
property already supports a wide variety of nesting and wintering 
migratory birds, especially waterfowl. Because this parcel is located 
on the bay side of the highly developed Sandbridge area of Virginia 
Beach, failure to acquire this piece could result in increased private 
recreational boating facilities by individuals who own lots/houses 
adjacent to this property. The Refuge is currently partnering with The 
Conservation Fund to appraise and acquire this parcel.
    Good things continue to happen at Back Bay. The Back Bay National 
Wildlife Refuge and its namesake, the Back Bay, harbor a rich array of 
aquatic life and vibrant bird populations that draw anglers and birders 
year round. The shallow brackish bay, averaging just 4 feet, is ruled 
by the wind making it a globally rare ecosystem. The bay is also 
designated an Aquatic Resource of National Importance by Federal 
agencies, but that doesn't automatically protect it from harm. The 
Refuge staff and volunteers continue to educate the public on the 
importance of protecting this beautiful resource. The educational 
project to enhance the wildlife viewing opportunities to the public is 
the ``Windows on Wildlife.'' This one-way glass allows the public to 
watch migratory birds without being seen by and thus disturbing the 
waterfowl. On a recent January day, the pond featured a visual 
smorgasbord of tundra swans, Canada geese, black sucks, snow geese, 
mallards, and pied-billed grebes. A red-tail hawk flew close to the 
building and landed on the branch of a near by tree. This ``national 
treasure'' received 150,000 visitors in 2010.
    The water clarity is better and vital underwater grasses are 
growing again. Large numbers of ducks are coming back. The local 
hunters had a very successful season. They met their quotas early in 
the season. One hunter left a duck on the ice too long and an eagle 
swooped down and grabbed it. The hunter had fun telling this story to 
his friends. He said it was a ``pretty one''.
    I wish to extend my appreciation for the funding that you 
appropriated through fiscal year 2009. The $545,000 that was 
appropriated in fiscal year 2009 has purchased 8 acres of a key parcel 
along Nanney's Creek. To date we have purchased 4,996 acres of the 
proposed 6,340-acre expansion. This means that this project is more 
than 78 percent completed in 18 years. Thank you for the opportunity to 
comment on this important project.
            Respectfully submitted,
                                            Molly P. Brown,
                                                         President.
                                 ______
                                 
   Letter From the Friends of Balcones Canyonlands National Wildlife 
                                 Refuge
                                                      May 18, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: On behalf of the Friends 
of Balcones Canyonlands National Wildlife Refuge I would like to 
express my appreciation for this opportunity to submit our testimony. 
The Friends of Balcones urges you to complete the land acquisition for 
Balcones Canyonlands National Wildlife Refuge in Central Texas. As a 
first step toward that goal, we are requesting $5 million from the Land 
and Water Conservation Fund (LWCF) for 2012. Completing the Refuge is 
anticipated to cost approximately $87 million in today's dollars, so 
acting now is especially important for monetary reasons and because of 
the intense pressure from urban expansion that is occurring within the 
Refuge acquisition boundary.
    Given the devastating impacts to wildlife from the Deep Water 
Horizon oil spill, it seems very timely for the Congress to pass 
legislation to permanently fund the LWCF at $900 million. Created in 
1965 with monies from off-shore oil drilling receipts and authorized at 
$900 million per year, the LWCF is our most important land acquisition 
tool. More than 8 million acres are unprotected within existing refuge 
boundaries including approximately 22,000 acres within the Balcones 
Canyonlands Refuge acquisition boundary. This makes funding the LWCF 
more important than ever. The Friends of Balcones urges you to fully 
fund the LWCF and to appropriate $5 million of the $900 million for 
land acquisition at Balcones Canyonlands National Wildlife Refuge.
    Balcones Canyonlands Refuge, although 19 years old, is only 
slightly more than 50 percent complete. It is important to act now as 
time is a critical consideration in completing the Refuge. Because of 
the proximity of the Refuge to the Austin metropolitan area, urban 
expansion is a serious threat to habitat needed by the Refuge. There 
are already four real estate developments within the acquisition 
boundary of the Refuge and more are expected.
    An appropriation of $5 million will allow the Fish and Wildlife 
Service to acquire approximately 1,550 acres of prime habitat for 
Balcones Canyonlands Refuge. Two of the three tracts to be purchased 
are key Golden-cheeked Warbler habitat and the third is potential 
Black-capped Vireo habitat. Both of these birds are on the endangered 
species list, and habitat protection and management are critical to 
their survival. In addition, protection of the third tract will help 
preserve the ranching heritage of the Texas Hill country. The $5 
million appropriation will fund purchase of the 350-acre 3 Creeks Ranch 
(second phase of this acquisition), the Penn property, and 1,000 acres 
of the Sunset Ranch, one of the last remaining large tracts of land 
with high-quality Golden-cheeked Warbler habitat left within the Refuge 
acquisition boundary. The rolling hills and steep canyons on this ranch 
provide nesting habitat for the Golden-cheeked Warbler and potential 
for Black-capped Vireo habitat management. The purchase of this large 
tract will also protect habitat for additional endemic species in the 
Hill Country as well as the unusual Karst topography of the Edwards 
Plateau. The ranch is situated near other Refuge property which makes 
it even more valuable as we attempt to protect large contiguous tracts 
of land. The properties have been appraised, and the sellers are 
willing. These acquisitions would be a significant step towards the 
long range goal of completing the Refuge. As mentioned earlier, acting 
now is particularly important, as the window of time is closing rapidly 
as a result of urban expansion, and the opportunity for protecting 
these species is at risk.
    Balcones Canyonlands Refuge is located in the Texas Hill Country 
northwest of Austin, Texas and resides in Burnet, Travis, and 
Williamson counties. The Refuge was formed in 1992 to conserve habitat 
of the endangered Golden-cheeked Warbler as a step towards recovery and 
eventual delisting of the species. In addition to the Golden-cheeked 
Warbler, the Refuge serves to protect the habitat of the endangered 
Black-capped Vireo and numerous other wildlife species.
    State-sponsored biological studies show that to stabilize and 
sustain these endangered songbirds, Balcones Canyonlands needs a total 
of 46,000 acres of habitat. It presently has some 23,000 acres. The 
Refuge augments a similarly named Preserve in Austin, comprised of 
nearly 30,000 acres and operated by the city and Travis County. The two 
parts were established for the same purpose and together are intended 
to provide habitat needed to enable recovery of these species.
    In addition to the recovery of these endangered species, Balcones 
Canyonlands Refuge is a source of eco-tourism for the surrounding area. 
Over the longer term, the Balcones Refuge is expected to become a major 
draw for birders interested in viewing the endangered Warbler and 
Vireo, for which this area provides unique habitat. The Refuge has been 
described as one of the Last Great Places by the Nature Conservancy and 
as an ``Important Bird Area'' by two national conservation groups based 
on its ``global importance'' to the endangered Warbler and Vireo.
    Also, Balcones Canyonlands offers Central Texas a variety of 
recreational opportunities compatible with wildlife protection. Once 
completed, Balcones Canyonlands will be a step towards providing 
additional accessible public outdoor areas, identified as a critical 
need in a study by Texas Parks and Wildlife.
    The Friends of Balcones Canyonlands National Wildlife Refuge is a 
nonprofit, volunteer organization. Our mission is to support, complete, 
and enhance Balcones Canyonlands Refuge and to promote the Refuge's use 
for recreational, educational, and scientific purposes. Our membership 
is drawn primarily from Central Texas communities situated near the 
Refuge. Our members care passionately about preserving our natural 
heritage and fulfilling our organization's mission of completing the 
Refuge. Because of all the reasons listed above, we strongly recommend 
that you set aside $5 million from the LWCF for Balcones Canyonlands 
Refuge for fiscal year 2012.
    In closing, thank you for considering our request of $5 million. 
Your actions in support of our request will significantly improve our 
chances for creating a fully functioning Refuge. We very much 
appreciate your attention to this matter and thank you for the 
opportunity to present this statement to the subcommittee.
            Respectfully submitted,
                                                  Dub Lyon,
                                                         President.
                                 ______
                                 
   Prepared Statement of the Friends of the Chassahowitzka National 
                                Wildlife
    Mr. Chairman and members of the subcommittee: On behalf of Friends 
of the Chassahowitzka National Wildlife Refuge Complex, Inc. (Friends) 
and its members, I want to thank you for your leadership and strong 
support of the National Wildlife Refuge System (NWRS) and the increase 
in funding over the past few years for the NWRS. I offer this testimony 
not only on behalf of our Friends' group, but also for the more than 
191 Affiliate Friends groups nationwide, and thousands of private 
citizens across the country that support our Nation's wildlife refuges.
    I further thank you for the opportunity to offer comments on the 
fiscal year 2012 Interior, environment, and related agencies 
appropriations bill. Specifically, we respectfully request that the 
subcommittee support the following:
  --Maintain status quo funding for the NWRS. Request that the Congress 
        maintain management capabilities for the NWRS, an $8 million 
        increase more than fiscal year 2010 levels. The NWRS actually 
        needs $900 million annually to adequately manage its 150 
        million acres; a funding allocation of $511 million in fiscal 
        year 2012 will simply maintain the status quo.
  --Leverage Federal Conservation Efforts through Partnerships. The 
        NWRS works with States to keep common species common and 
        restore declining species before they become endangered. A 
        slight increase for the State Wildlife Grants program to $95 
        million for fiscal year 2012 is essential to fulfilling the 
        shared Federal-State responsibility for keeping our Nation's 
        wildlife from becoming endangered.
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million. Created in 1965 and authorized at $900 million per 
        year (more than $3 billion today), the LWCF is our most 
        important land acquisition tool. More than 8 million acres are 
        unprotected within existing refuge boundaries and there is an 
        increasing need to establish key wildlife corridors and 
        connections between protected areas making the LWCF more 
        important than ever. Urge the Congress to pass legislation to 
        permanently fund the LWCF.
  --Allocate $50 million to The North American Wetlands Conservation 
        Act (NAWCA). NAWCA grants enable the acquisition and 
        restoration of critical wetlands to implement the goals and 
        objectives of the North American Waterfowl Plan, the Waterbird 
        Plan, the U.S. Shorebird Plan and Partners in Flight. A 
        Congressional allocation of $50 million in fiscal year 2012 
        will deliver multiple benefits including habitat restoration, 
        improved water quality and even carbon sequestration.
    The Friends, a 501(c)3 organization, were established in September 
1998, and is supported by dedicated volunteers with a membership base 
of 250 individuals. Our membership is diverse, including sportsmen, 
educators, business leaders, conservationists, and concerned citizens 
all across the State of Florida as well as the world.
    Contributing thousands of hours of support each year, we help 
remove invasive plants, provide general maintenance of equipment and 
buildings on the refuges, and organize cleanups to ensure wildlife is 
safe from debris like monofilament line and plastic bags. We work 
closely with our Refuge manager to help meet objectives as outlined in 
each refuge's Comprehensive Conservation Plan.
    The Cooperative Alliance for Refuge Enhancement (CARE) has 
determined that the NWRS needs $900 million annually to protect and 
care for the more than 550 wildlife refuges and monuments and thousands 
of prairie wetlands totaling approximately 150 million acres. These 
lands and waters provide essential habitat for migratory birds and 
other wildlife, safe havens for endangered species, and $1.7 billion 
annually to local economies in compatible recreational opportunities 
for more than 41 million visitors each year. Our request for $511 
million in O&M for fiscal year 2012 will maintain status quo and 
prevent the NWRS from being subjected to the dramatic 20 percent staff 
reductions of prior years. We respectfully urge the Congress to 
incrementally increase funding to restore the NWRS by carefully 
considering our request for $511 million in the fiscal year 2012 
budget.
    While providing adequate funding to operate and maintain the NWRS 
is of vital importance, most refuges are too small in size to achieve 
their conservation mission and objectives alone. Their integrity 
depends on the health of surrounding State, Federal, and private lands 
and waters. Consequently, there is a growing need to provide funding to 
ensure that lands and waters beyond refuge boundaries are conserved. 
The Friends encourages the subcommittee to allocate the full $900 
million funding to assess and purchase high-priority lands and 
conservation easements through the LWCF. The NWRS is mandated to be 
strategically grown, but years of inadequate funding for land 
acquisition has resulted in the loss of many important habitats. More 
than 8 million acres are unprotected within existing refuge boundaries 
and there is an increasing need to establish key wildlife corridors and 
connections between protected areas. The Obama administration has made 
full funding for LWCF by fiscal year 2014 a top priority and we request 
the Congress to make this a priority also. We urge the subcommittee to 
allocate the full $900 million funding in fiscal year 2012 to allow the 
NWRS to acquire lands and easements while they are available and 
affordable.
    Our refuge has benefited from the funding of both the LWCF and 
NAWCA. We received $1.5 million in fiscal year 2009 and another $1.5 
million fiscal year 2010 from LWCF and $75,000 and from the NAWCA grant 
allowing us to purchase the Three Sisters Springs property in Crystal 
River, Florida. The property consists of 57 acres of critical habitat 
for the endangered West Indian Manatee--one of the most charismatic 
species our country has. We invite the subcommittee and staff to come 
for a visit and see first hand the value of funding both the LWCF and 
NAWCA and how those funds are being used. See too the challenges we 
face to raise funds to support our plans to educate the public about 
manatees. In the meantime, please visit www.friendsofchazz.org to learn 
more about our wonderful refuges.
    In conclusion, the Friends of the Chassahowitzka National Wildlife 
Refuges believes the NWRS can meet its important conservation 
objectives only with strong and consistent funding leveraged by the 
valuable work of refuge staff and volunteers. We extend our 
appreciation to the subcommittee for its ongoing commitment to our NWRS 
and encourage you to approve $511 million for the fiscal year 12 NWRS 
O&M budget managed by FWS and to approve $900 million for fiscal year 
2012 for the LWCF land acquisition budget as well as funding the 
Department of the Interior's Challenge-Cost Share Program.
                                 ______
                                 
       Prepared Statement of the Friends of the Desert Mountains
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of the LWCF in fiscal year 2012. The proposed 
$900 million is the congressionally authorized amount for the program 
and seeks to renew focus on the promise of the LWCF: that it is right 
and wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the LWCF is 
one that will permanently pay dividends to the American people and to 
our great natural and historical heritage. As the LWCF is funded from 
Outer Continental Shelf revenues, not taxpayer dollars, these funds 
should go to their intended and authorized use.
    As part of the full commitment to the LWCF in fiscal year 2012, the 
U.S. Forest Service (USFS) included $1.5 million for the acquisition of 
land in San Bernardino National Forest in California in the President's 
budget. I am pleased that this funding was included in the request and 
urge the Congress to provide the full President's budget amount for the 
LWCF so that this important project can receive this needed funding.
    The Friends of the Desert Mountains is a nonprofit conservation 
organization based in the Coachella Valley area of southern California. 
Our mission is to protect important resource lands in this area and to 
provide support for the Santa Rosa and San Jacinto Mountains National 
Monument, established by the Congress through a bipartisan effort in 
2000, the House legislation authored by Congresswoman Mary Bono Mack 
and the Senate legislation by Senator Dianne Feinstein. The Friends has 
acquired or facilitated the acquisition of more than 40,000 acres over 
the last 20 years. We train and provide volunteers for the National 
Monument Visitor Center, sponsor the annual Wildflower Festival, 
provided guided hikes in the Monument, and support it in many other 
ways. While Fleming Ranch is just outside the National Monument 
boundary, it is part of the same ecosystem and part of the same 
national forest, a portion of which is in the National Monument. Thus, 
we strongly support its permanent conservation through acquisition by 
the USFS.
    The national forests in southern California protect a vast treasure 
of biological diversity as well as critically important water 
resources. From the coastline of the Pacific Ocean to the inland 
desert, the forested mountains provide wildlife habitat, water quality 
protection, and abundant recreational opportunities for burgeoning 
population.
    The San Bernardino National Forest encompasses the wild lands of 
the San Bernardino and San Jacinto mountain ranges in Riverside and San 
Bernardino counties. With the discovery of gold in the area in the mid-
19th century, the lands began to suffer from the effects of mining as 
well as timbering and overgrazing. The growing population of southern 
California relied on water sources that were being steadily degraded by 
these activities. The need to protect the watersheds and preserve the 
unique natural qualities of this ecosystem became apparent, and the San 
Bernardino National Forest was established in 1891 to meet this 
challenge.
    Maintaining healthy watersheds continues to be a high priority of 
forest management, and part of that protection strategy includes land 
acquisition. This year, a key inholding of the San Bernardino NF--
Fleming Ranch--is available for purchase by the USFS. This 1,288-acre 
property is located within and adjacent to the San Jacinto Wilderness 
in Riverside County. The ranch is visible from a 5-mile stretch of the 
Pacific Crest Trail (PCT), which lies just a quarter mile away. The 
ranch contains the largest unprotected portion of the upper watershed 
of Herkey Creek, which flows into Lake Hemet and is a tributary of the 
south fork of the San Jacinto River. Lake Hemet is a reservoir 
providing water to areas of Riverside County and also provides 
recreational opportunities such as fishing, boating, hiking, and 
camping.
    The landscape of Fleming Ranch includes montane meadows, 
grasslands, and mixed riparian, conifer, and oak forests. The property 
provides habitat for unique plant species such as the lemon lily (a 
State species of special concern), Johnson's rock cress, and California 
penstemon, and for animals like the California spotted owl, which nests 
on the ranch. These species and others will benefit from the protection 
of Fleming Ranch as the impacts of climate change become increasingly 
apparent. The wetlands and riparian habitats on Fleming Ranch have 
natural resilience to climate change impacts due to the tract's 
hydrology, and can offer habitat refugia. These habitats are rare in 
the San Jacinto Mountains and will be important to maintain healthy 
populations of amphibians, insect-eating birds, reptiles, rodents, and 
raptors in a changed climate. Properly managed, the watershed forests 
on the tract will also support climate adaptation by regulating water 
flows to protecting downstream areas and sustaining aquatic habitats 
even as climate change drives greater extremes in precipitation.
    The lands of the San Bernardino National Forest provide year-round 
outdoor recreation for the heavily populated areas of southern 
California, and improving public access to the area of the forest where 
Fleming Ranch is located has long been a priority of the San Jacinto 
Ranger District. The proximity of the ranch to the PCT, wilderness 
areas, and the Santa Rosa and San Jacinto Mountains National Monument 
will open up new recreational access for outdoor enthusiasts.
    Increased management efficiencies that accrue from inholding 
acquisition will reduce costs and improve management for activities 
such as wetlands restoration and fuel reduction. Improved forest 
health, water quality protection, habitat protection, and better public 
access will follow from Federal acquisition of Fleming Ranch. The 
President's fiscal year 2012 USFS land acquisition budget includes $1.5 
million to begin the acquisition of this stunning property.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in California, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
       Prepared Statement of the Friends of Maine Seabird Islands
    Mr. Chairman and members of the subcommittee: On behalf of the 200 
members of the Friends of Maine Seabird Islands (FOMSI), thank you for 
the opportunity to submit written testimony on the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. Thank 
you for your past support of the National Wildlife Refuge System 
(NWRS), the world's premier system of public lands and waters set aside 
to conserve America's fish, wildlife, and plants.
    The FOMSI is an all-volunteer group whose mission is to support the 
Maine Coastal Islands National Wildlife Refuge. The refuge manages 55 
islands on our 250-mile long coast, and several thousand acres of 
mainland wildlife habitat. First, let me emphasize that we are grateful 
that we have a National Wildlife Refuge on the coast of Maine. Why? For 
many reasons, all of which lead back to the positive economic and 
social benefits that are produced by the conservation of wild lands and 
wise use of our natural resources. The 2006 National Survey of Hunting, 
Fishing and Wildlife-Associated Recreation, found that, in Maine alone, 
hunters, anglers, and wildlife watchers generated nearly $1.5 billion 
in revenue for Maine. Clearly, wild lands and healthy fish and wildlife 
populations are important to this State's economy, and the National 
Wildlife Refuges in Maine are a significant part of that.
    Although we understand and take very seriously the economic 
challenges that our Nation faces, it is important to point out the 
positive economic impact that this refuge has on local economies. In 
Maine, according to studies conducted by Dr. Charles Colgan from the 
University of Southern Maine, 120 companies provide services involving 
seabird viewing as a recreational activity. These include small kayak 
guides and outfitters all the way to large ships that go on seabird 
watching cruises several times each day. An estimated 5,000 to 7,500 
trips are made by people annually primarily for seabird viewing and 
350,000 to 450,000 trips with seabird viewing as a secondary activity. 
The total estimate for seabird-related spending was $5 million to $10 
million in 2001. This does not count the number of birders and others 
who have their own boats and do not take the organized trips, yet come 
to this area specifically to see seabirds; accordingly, they have a 
significant, but uncalculated impact on the economy, too. Nor does it 
count the revenues from stores that sell merchandise from t-shirts to 
binoculars that go along with birding.
    Thousands of people come to the Maine coast each year to see the 
charismatic Atlantic puffin, a bird that nests in the United States 
only in Maine. Currently, more than 90 percent of the Atlantic puffins 
nesting in Maine nest on refuge islands, where they are actively 
protected by refuge staff and partners, such as the National Audubon 
Society and Maine Division of Inland Fisheries and Wildlife. If funding 
for this management is not maintained, these nesting birds will 
probably abandon their colonies and Maine will return to the pre-refuge 
situation in the 1970s and early 1980s when only gulls nested on many 
of the islands. Seabird viewing and birder expenditures will fall, and 
our already fragile economy will suffer further.
    The economic impact described above is only a part of the positive 
impact that the refuge has on the State's economy. Others visit the 
refuge units to hunt, hike, fish, and learn about conservation. Their 
contribution to the economy has never been formally calculated, but it 
probably equals that of the seabird watchers above.
    That is a brief summary of the economic impacts that one refuge has 
in our part of the country. There are five other refuges in Maine that 
are also important to Maine's economy. Multiply that by the 553 
National Wildlife Refuges in the NWRS, and it is clear that the 
Congress' investment in the NWRS pays off many-fold to our Nation's 
economy. Our National Wildlife Refuges are often economic powerhouses, 
especially in rural areas.
    Therefore, we respectfully ask you to:
  --Maintain status quo funding for the NWRS. We understand that a real 
        increase is hard to ask for in these times, but please maintain 
        management capabilities for the NWRS by approving an $8 million 
        increase more than fiscal year 2010 levels. The NWRS actually 
        needs $900 million annually to adequately manage its 150 
        million acres; a funding allocation of $511 million in fiscal 
        year 2012 will simply maintain the status quo.
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million. Created in 1965 and authorized at $900 million per 
        year (more than $3 billion today), the LWCF is refuges' most 
        important land acquisition tool. More than 8 million acres are 
        unprotected within existing refuge boundaries and there is an 
        increasing need to establish key wildlife corridors and 
        connections between protected areas making the LWCF more 
        important than ever.
  --Help the U.S. Fish and Wildlife Service leverage Federal 
        conservation efforts through partnerships, such as:
        State Wildlife Grants.--Funding is requested at $95 million to 
            partner with States to keep common species common and 
            restore declining species before they become endangered.
        North American Wetlands Conservation Act (NAWCA).--Funding is 
            requested at $50 million enable the acquisition and 
            restoration of critical wetlands to deliver multiple 
            benefits including habitat restoration, improved water 
            quality, and even carbon sequestration.
    We are proud of our National Wildlife Refuges, one of our country's 
greatest conservation achievements. We are but one of 230 ``Friends'' 
groups who support National Wildlife Refuges throughout the country. 
Friends groups provide assistance to our National Wildlife Refuges 
through monetary and equipment donations and volunteer labor. In fiscal 
year 2010, more than 40,000 friends and volunteers provided services 
for the NWRS equal to 648 positions, saving taxpayers millions of 
dollars. Volunteers throughout the country provide an astonishing 20 
percent of the work done of refuges each year. This is a further 
indication of how many Americans support the NWRS.
    The interest in our NWRS is significant and we are showing our 
support with our donated time and funds. However, we need proper 
funding of the NWRS so we can leverage our taxpayer dollars to provide 
even more economic and social benefits to our country.
    Finally, let me also add that with all the negative stories in the 
press today about Government appropriations and politics, the NWRS 
remains a positive success story since the first refuge was created by 
President Theodore Roosevelt more than 100 years ago. It has always 
enjoyed support from the Congress and we thank you for that, and for 
your continued support.
                                 ______
                                 
 Prepared Statement of the Friends of the National Wildlife Refuges of 
                                RI, Inc.
    Mr. Chairman and honorable members of the subcommittee: I am 
Melissa Hughes, board member, Friends of the National Wildlife Refuges 
of RI, Inc.
    I have been a member of the Friends of the National Wildlife 
Refuges of RI, Inc. only since fall 2010. However, I have been a 
visitor to 4 of the 5 wildlife refuges in Rhode Island and was a member 
of a local environmental group for the past 20 years. This group, the 
Narrow River Preservation Association, provides stewardship for the 
Narrow River watershed within which is located the John H. Chafee 
National Wildlife Refuge at Pettaquamscutt Cove. This time of the year 
letters go out to the Congress asking for support of the refuges. The 
Friends of the National Wildlife Refuges of RI, Inc. is requesting 
support for the RI Wildlife Refuge system and of general funding of the 
entire National Wildlife Refuge System (NWRS). I thank you for your 
consideration.
    According to a new report released at by the Cooperative Alliance 
for Refuge Enhancement (CARE), Rhode Island's five national wildlife 
refuges will be in grave jeopardy if proposed congressional budget cuts 
to the NWRS are enacted. Rhode Island's refuges protect diverse 
habitats such as salt marshes, uplands, kettle ponds, and maritime 
shrublands, and support a variety of wildlife including great egrets, 
herons, river otters, red-backed salamanders, and federally threatened 
and endangered species such as the piping plover and American burying 
beetle. In 2010, more than 426,000 visitors enjoyed wildlife-related 
recreation at Rhode Island refuges, including hunting, angling, and 
bird and wildlife-watching. At Ninigret National Wildlife Refuge alone, 
every $1 appropriated to the refuge budget generated $6.25 for the 
local economy.
    If budget cuts to the NWRS supported by some Members of Congress 
are enacted, national wildlife refuges in Rhode Island may not be able 
to continue protecting wildlife, offering world-class recreation, and 
ultimately enhancing their local economies. Rhode Island's refuges 
already are saddled with a backlog of approximately $2 million in 
deferred maintenance and another $2 million in mission-critical 
operations needs. The refuges need at least 22 additional staff, 
including wildlife management, visitor services and maintenance 
positions. Without sufficient funding, Rhode Island refuges will fall 
even further behind in their mission to conserve wildlife for the 
benefit of the American public.
    An overall funding level of $511 million in fiscal year 2012 should 
be maintained for the operations and maintenance budget of the NWRS, 
managed by the Fish and Wildlife Service (FWS). This is an $8 million 
increase more than fiscal year 2010. All of the refuges are in dire 
need of staffing and upkeep. Refuges provide unparalleled opportunities 
to hunt, fish, watch wildlife, and educate children about the 
environment. Without increased funding for refuges, wildlife 
conservation and public recreation opportunities will be jeopardized.
    NWRS's ability to leverage Federal conservation efforts through 
partnerships should be retained. Two grant programs that need support 
are:
  --State Wildlife Grants that allow the FWS to work with States to 
        keep common species common and restore declining species before 
        they become endangered. A slight increase for the State 
        Wildlife Grants program to $95 million for fiscal year 2012 is 
        essential to fulfilling the shared Federal-State responsibility 
        for keeping our Nation's wildlife from becoming endangered; and
  --The North American Wetlands Conservation Act grants enable the 
        acquisition and restoration of critical wetlands to implement 
        the goals and objectives of the North American Waterfowl Plan, 
        the Waterbird Plan, the U.S. Shorebird Plan and Partners in 
        Flight. A congressional allocation of $50 million in fiscal 
        year 2012 will deliver multiple benefits including habitat 
        restoration, improved water quality and even carbon 
        sequestration.
    The Land and Water Conservation Fund (LWCF) is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, LWCF needs to be fully funded at the $900 million level, as 
authorized by the Congress in 1965. The LWCF is our most important 
acquisition tool. The President has included meaningful increases to 
the program in his fiscal year 2012 budget, and I support the 
administration's commitment to fully funding the program in the near 
future. This wise investment in the LWCF is one that will permanently 
pay dividends to the American people and to our great natural and 
historical heritage.
    Funding increases in fiscal year 2008 through fiscal year 2010 
allowed for meaningful progress toward properly patrolling and 
enforcing laws on 150 million acres, maintaining recreation and 
education programs for the public, sustaining high water quality, 
completing habitat restoration projects, and more. Cutting operations 
and maintenance funding back to fiscal year 2008 levels would result in 
the elimination of several hundred staff positions and loss of 
important wildlife management, education, and hunting and fishing 
programs. The way to keep from reversing recent progress is to fund the 
NWRS at $511 million in fiscal year 2012.
    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our NWRS and respectfully request the Interior, 
Environment, and Related Agencies Appropriations Subcommittee allocate 
$511 million for the NWRS's fiscal year 2012 Operations & Maintenance 
budget, $95 million for State Wildlife Grants, $50 million for North 
American Wetlands Conservation Act grants, and fully fund the LWCF at 
the authorized lever of $900 million annually.
                                 ______
                                 
   Letter From the Friends of Rachel Carson National Wildlife Refuge
                                                      May 18, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: I am Brendan Stewart, a 
student at Cape Elizabeth High School and an intern with the Rachel 
Carson National Wildlife Refuge in Maine.
    I recently started my internship as a part of a high school project 
for graduating seniors. The program's goal was to help graduating 
seniors find areas of work that they are interested in. After working 
with the refuge, I have realized the importance of the conservation 
work that the refuge does. In light of the recent budget crisis and the 
proposed cuts in many areas, I am writing out of concern--the refuge 
needs to receive funding equal or greater to what it has in the past.
    The refuges protect wetland areas, which play a pivotal role in the 
public health of the people of Maine. Roughly one-half of Maine's 
residents get water from underground water sources (aquifers). 
Unfortunately, in the United States as a whole, water is being drawn 
from aquifers faster than their rate of recharge. Once an aquifer runs 
dry, dependents lose an important water source. Additionally, the 
threat of sinkholes increases as aquifers are drained, as there is no 
underground water to help suspend dirt particles. Wetland areas help 
aid in the process of aquifer recharge, which in turn provides clean 
drinking water to the people of Maine. If wetlands remain unprotected 
and open to development, this natural service is jeopardized. For 
example, homes built over filled-in wetland areas prevent water from 
draining back into underground aquifers by providing an impermeable 
surface over the previous wetland. In effect, development of housing 
over wetlands is like trying to grow a plant under an umbrella--after a 
while, the plant will die because of the lack of water it receives. In 
addition to that, pesticides, fertilizer, and motor oil runoff from 
cars can seep into the few permeable areas and contaminate groundwater 
supplies. Surface water supplies are also protected by the refuge. 
Freshwater streams and watershed areas are included in some of refuge's 
divisions. However, there is the opportunity to expand protection of 
surface water supplies and of watershed areas. If these areas are not 
protected, runoff chemicals and sediment produced as a result of 
construction may contaminate surface water. With water being an 
increasingly scarce resource, it is imperative that we protect the 
supplies that we have. For the reason of the human health benefits that 
the refuges provide, funding should be increased to help protect 
greater tracts of land.
    Another human benefit that the wetlands provide is flood 
protection. Vegetation in the wetland areas help hold floodwaters. In 
fact, flood peaks are generally 60 percent lower in areas with dense 
wetlands than those without. Cutting funding to the refuge will make 
acquisition of additional wetland areas difficult. If those areas are 
developed instead, the risk and effects of a potential flood would be 
increased. With the Rachel Carson National Wildlife Refuge being the 
refuge with the largest number of human neighbors nationwide, this is a 
prime concern. Continuation or increase of funding is required to help 
continue this positive effect that the wetlands provide for nearby 
human residences.
    In difficult economic times, the last action we should take is to 
shut down important sources of income. However, the development of 
wetland areas does just that. If wetlands are not protected, important 
breeding grounds for commercially important species, such as striped 
bass and various shellfish. According to statistics released by the 
Bureau of Land and Water Quality (BLWQ), Maine's wetlands help keep 
25,000 residents employed via the fishing industry alone, accounting 
for $270 billion in State revenue. On top of that, the BLWQ reports 
that $1.5 billion of tourism revenue in Maine is brought in yearly as a 
result of wetlands. To cut funding to the refuge makes it difficult to 
acquire new pieces of land to protect, potentially opening the wetlands 
up to developments, which could be located on other land tracts. It is 
imperative to protect wetland areas due to the economic benefits that 
they provide to the State.
    The wetland areas that the refuge protects also aid in 
sequestration of carbon in the atmosphere. The numerous plants within a 
wetland area absorb and store carbon. With human-caused climate change 
an important current issue, it is important that we protect wetland 
areas for this benefit to help offset the carbon put into the 
atmosphere by human activities.
    The refuge also helps protected threatened and endangered species, 
such as the New England Cottontail, a State-listed endangered species, 
and the Piping Plover, a federally threatened species. Cutting funding 
reduces the amount of protection that the refuge can provide to these 
species, and endangers their existence further. Many migratory bird 
species, as wells as the New England Cottontail, depend on the wetlands 
as early successional species, meaning that they require relatively 
young and developing habitats. If left unchecked, the shrub habitats 
that these animals depend upon could be overtaken by forest. With much 
of the land developed and not open to the natural cycle of habitat 
succession, new early successional shrub habitats will not be able to 
form. The existing shrub habitats require maintenance every few years 
to prevent further succession. If this maintenance does not take place, 
the habitats will be lost. The effects will be profound, with the loss 
of more Cottontail habitat (the Cottontail's range has already shrunk 
significantly since 1960) and loss of feeding grounds for migratory 
birds--with the lack of sufficient food--it is difficult for them to 
complete their migration. Additional funding will help with the 
maintenance of the habitats that the refuge protects as well as the 
continuation of habitat restoration. In short, cutting appropriations 
to the refuge will endanger various already threatened species and 
migratory birds.
    The observation of migratory birds in wetland areas also plays 
another important role. Maine is a prime location for offshore wind 
farms, and one of the major concerns tied to wind farms is the 
disruption of migratory bird patterns. The refuges provide an area to 
study the course taken and the number of birds in a migration, as well 
as their behavior. If an experimental wind farm were to be constructed, 
the refuges play a critical role in determining the effect of the wind 
farm on migration patterns. However, if the existing wetland areas are 
not protected and more wetlands are developed upon and destroyed, 
migratory birds may change migration patterns due to the lack of 
available habitat--this would affect data regarding wind farms, and may 
make the effect of wind farms on migration patterns unclear. If data 
like this were to be released, it would be difficult to garner public 
trust of wind farms. In a time where we as a Nation are looking to 
become energy self-sufficient, it is important to understand the 
ecological effects of our decisions and dispel notions that might be 
tied to new forms of energy. A lack of funding makes acquisition of new 
land difficult, opens up wetlands to development, and in turn, affects 
data and destroys a natural laboratory critical in understanding the 
effects of wind farms on migratory bird patterns.
    The wetlands that the Rachel Carson National Wildlife Refuge 
protects provide critical natural services to humans and to wildlife. 
Without future funding, the refuge will not be able to maintain 
habitat, the aquifer recharge service that the refuge provides will be 
affected, and the potential use of the protected wetlands as a natural 
laboratory to observe the effects of wind farms on migratory bird 
patterns will be lost. In addition to that, the risk and damage of 
floods will increase, and biodiversity will be lost.
    Thank you, Mr. Chairman, for the opportunity for me to present my 
testimony. The wetlands provide invaluable services to humans and to 
wildlife. I urge you to please increase appropriation of funds to the 
Rachel Carson National Wildlife Refuge.
                                           Brendan Stewart,
                                                            Intern.
                                 ______
                                 
   Letter From the Friends of Rachel Carson National Wildlife Refuge
                                                      May 20, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: Mr. Chairman and 
honorable members of the subcommittee: I am Bill Durkin, president of 
the Friends of Rachel Carson National Wildlife Refuge (NWR) in Maine.
    I have been a member of the Friends of Rachel Carson NWR for the 
past 20 years. The group was founded in 1987; we are a small group of 
about 200 members. This time of the year all of the letters go out to 
the Congress asking for support of the refuge. I have given numerous 
written statements over the years and we really appreciate your support 
in the past. This year, our refuge is not requesting any appropriations 
directly for the Rachel Carson NWR; this is a request for general 
funding of the National Wildlife Refuge System (NWRS). I thank you all 
for your consideration.
    We are requesting an overall funding level of $511 million in 
fiscal year 2012 for the operations and maintenance budget of the NWRS, 
managed by the Fish and Wildlife Service (FWS). This is an $8 million 
increase more than fiscal year 2010. All of the refuges are in dire 
need of staffing and upkeep. Refuges provide unparalleled opportunities 
to hunt, fish, watch wildlife, and educate children about the 
environment. Without increased funding for refuges, wildlife 
conservation, and public recreation opportunities will be jeopardized.
    Retain the NWRS's ability to leverage Federal conservation efforts 
through partnerships. Two grant programs that need support are:
  --State Wildlife Grants that allow the FWS to work with States to 
        keep common species common and restore declining species before 
        they become endangered. A slight increase for the State 
        Wildlife Grants Program to $95 million for fiscal year 2012 is 
        essential to fulfilling the shared Federal-State responsibility 
        for keeping our Nation's wildlife from becoming endangered.
  --The North American Wetlands Conservation Act grants enable the 
        acquisition and restoration of critical wetlands to implement 
        the goals and objectives of the North American Waterfowl Plan, 
        the Waterbird Plan, the U.S. Shorebird Plan and Partners in 
        Flight. A congressional allocation of $50 million in fiscal 
        year 2012 will deliver multiple benefits including habitat 
        restoration, improved water quality, and even carbon 
        sequestration.
    The Land and Water Conservation Fund (LWCF) is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the LWCF needs to be fully funded at the $900 million level, 
as authorized by the Congress in 1965. The LWCF is our most important 
acquisition tool. The President has included meaningful increases to 
the program in his fiscal year 2012 budget, and I support the 
administration's commitment to fully funding the program in the near 
future. This wise investment in the LWCF is one that will permanently 
pay dividends to the American people and to our great natural and 
historical heritage. The Rachel Carson NWR requests $750,000 towards 
the purchase of critical habitat for the New England Cottontail, an 
endangered species. This funding will be used for the purchase of land 
in the new York River Division of the refuge; this will be the first 
land holding in that division.
    The LWCF should be fully funded at $900 million annually--the 
congressionally authorized level. The LWCF is good for the economy, it 
is good for America's communities and their recreational access and it 
is critical for our public lands.
    The Rachel Carson NWR is named in honor of one of the Nation's 
foremost and forward-thinking biologists. After arriving in Maine in 
1946 as an aquatic biologist for the FWS, Rachel Carson became 
entranced with Maine's coastal habitat, leading her to write the 
international best seller The Sea Around Us. This landmark study, led 
Rachel Carson to become an advocate on behalf of this Nation's vast 
coastal habitat and the wildlife that depends on it, the refuge that 
bears her name is dedicated to the permanent protection of the salt 
marshes and estuaries of the southern Maine coast.
    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our NWRS and respectfully request the Interior, 
Environment, and Related Agencies Appropriations Subcommittee allocate 
$511 million for the NWRS fiscal year 2012 operations and maintenance 
budget; $95 million for State Wildlife Grants; $50 million for North 
American Wetlands Conservation Act grants; fully fund the LWCF at the 
authorized lever of $900 million annually; and appropriate $750,000 to 
the Rachel Carson NWR.
    Thank you again, Mr. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and it's habitat.
                                               Bill Durkin,
                                                         President.
                                 ______
                                 
  Prepared Statement of the Friends of the Savannah Coastal Wildlife 
                             Refuges, Inc.
    Mr. Chairman and honorable members of the subcommittee: Thank you 
for this opportunity to present testimony in support of the Land and 
Water Conservation Fund (LWCF) in the fiscal year 2012 Interior, 
environment, and related agencies appropriations bill. In an historic 
embrace of conservation, the President's budget request includes full 
funding of the LWCF in fiscal year 2012. The proposed $900 million is 
the congressionally authorized amount for the program and seeks to 
renew focus on the promise of the LWCF: that it is right and wise to 
reinvest proceeds from offshore drilling receipts in the protection of 
natural resources and recreational access for all Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the LWCF is 
one that will permanently pay dividends to the American people and to 
our great natural and historical heritage. As the LWCF is funded from 
the Outer Continental Shelf revenues--not taxpayer dollars--these funds 
should go to their intended and authorized use.
    As part of the full commitment to the LWCF in fiscal year 2012, the 
U.S. Fish and Wildlife Service (FWS) included $1.25 million for the 
acquisition of land adjacent to Savannah National Wildlife Refuge in 
Georgia in the President's budget. I am pleased that this funding was 
included in the request and urge the Congress to provide the full 
President's budget amount for the LWCF so that this important project 
can receive this needed funding.
    Lying on both the South Carolina and Georgia sides of the Savannah 
River, just upriver from the city of Savannah, is the picturesque 
Savannah National Wildlife Refuge. The refuge is more than 29,000 acres 
of freshwater marshes, tidal rivers and creeks, and bottomland hardwood 
forests. Known for its flora during the humid summer months, the region 
supports a diverse wildlife population. The variety of birdlife within 
the refuge is enhanced by its location on the Atlantic Flyway. During 
the winter, thousands of ring-necked ducks, teals, pintails, and as 
many as 10 other species of waterfowl migrate to the area, joining the 
resident wood ducks within the refuge. In the spring and fall, 
transient songbirds stop briefly on their journey to and from northern 
nesting grounds. Additionally, the Savannah National Wildlife Refuge is 
home to the endangered wood stork, West Indian manatee, and shortnose 
sturgeon as well as the threatened American alligator.
    Located within the boundaries of the Savannah National Wildlife 
Refuge and available for acquisition in fiscal year 2012 are two 
properties in the vicinity of Abercorn Creek that were included within 
the refuge boundaries in 1998. At that time, the Director of the FWS 
stated that the lands in the expansion area ``offer an outstanding 
diversity of wetland and upland habitats for the benefit of wintering 
waterfowl, neotropical migratory birds, wading birds, white-tailed 
deer, wild turkey, and many other species of wildlife.''
    The Abercorn Creek project consists of two tracts under separate 
ownerships in Effingham County. These rich parcels, one comprising 620 
acres and the other 388 acres, have remnant rice fields, wetlands, and 
upland forests and fields. The wetlands serve as the prime habitat for 
wildlife such as king rails, American alligators, and wood ducks. A 
host of migratory birds such as swallow-tailed kites and Swainson's and 
prothonotary warblers are found on the properties during spring and 
summer months.
    Once acquired by the refuge, the properties will offer important 
recreational access for activities such as hiking, canoeing, hunting 
and fishing, and environmental education. An existing road on one of 
the tracts leads to the northern interior of the refuge, and this 
critical road access will no doubt bring additional visitors to enjoy 
the unique offerings of this currently more remote part of the refuge. 
Opening up this area to greater visitation should also produce economic 
benefits to the surrounding communities.
    In recent years, the ongoing Savannah Port Project has created a 
great deal of real estate speculation adjacent to the refuge. The 
recession has slowed this process, but as the economy becomes more 
stable, an upward movement in property values will likely occur. The 
landowners are willing to make their lands available for conservation, 
but time is limited for the refuge to take advantage of these 
opportunities.
    The fiscal year 2012 President's budget recommends $1.25 million 
from the LWCF for land acquisition at Savannah National Wildlife 
Refuge. This allocation, in combination with $1.375 million proposed in 
the fiscal year 2011 budget, will allow the refuge to begin the 
acquisition of the Abercorn Creek properties and add critical acreage 
to the refuge that further enhances access, wildlife habitat, and 
public recreation.
    Friends of the Savannah Coastal Wildlife Refuges is a community-
based organization whose mission is to support the FWS and to protect 
and advocate for the national wildlife refuges within our region. We 
strongly support acquisition of the properties within the Abercorn 
Creek project and respectfully request that this subcommittee approve 
the necessary funding.
                                 ______
                                 
 Prepared Statement of the Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.
    Mr. Chairman and members of the subcommittee: On behalf of the 162 
members of the Friends of the Tampa Bay National Wildlife Refuges, 
including Egmont Key National Wildlife Refuge (NWR), Passage Key NWR, 
and Pinellas NWR, I want to thank you for your leadership and strong 
support for the National Wildlife Refuge System (NWRS) through 
increased funding over the past few years. We realize that in this time 
of budget cuts, it may be difficult to justify increasing the NWRS 
funding, but once the refuge habitats start to decline it will cost 
many times more than these small increases to return them to a 
condition that will fulfill their mandates. I further thank you for the 
opportunity to offer comments on the fiscal year 2012 Interior, 
environment, and related agencies appropriations bill. We respectfully 
request that the subcommittee support the following:
  --Increase the funding levels to $511 million for fiscal year 2012 
        for the operations and management of the NWRS;
  --Fund $27 million for refuge revenue sharing;
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million;
  --Fund $20.2 million for Landscape Conservation Cooperatives (LCC) in 
        the Fish and Wildlife Service (FWS);
  --Fund $20 million for inventory and monitoring for refuges;
  --Fund $37 million for the NWRS construction account for large-scale 
        restoration, visitor center, and energy-efficient projects;
  --Fund $80 million for NWRS visitors services;
  --Fund $39 million for refuge law enforcement;
  --Fund $5 million for the management of the new Pacific Marine 
        Monuments;
  --Fund $65 million for the FWS' Partners for Fish and Wildlife 
        Programs;
  --Fund $95 million for the State and Tribal Wildlife Grants Programs;
  --Fund $50 million for the North American Wetlands Conservation Fund;
  --Fund $$6.5 million for the Neotropical Migratory Bird Fund;
  --Fund $8.4 million for Wildlife Without Borders; and
  --Fund 8.5 million for the National Fish and Wildlife Foundation in 
        the FWS' Resource Management General Administration 
        appropriation.
    The Cooperative Alliance for Refuge Enhancement (CARE) has 
determined that the NWRS needs a budget of at least $900 million 
annually in operation and maintenance (O&M) funding in order to 
properly administer its 150 million acres as mandated in the Refuge 
Improvement Act. The current budget is far short of the amount actually 
required to effectively operate and maintain the refuges. An $8 million 
increase over fiscal year 2010 levels to $511 million for the fiscal 
year 2012 appropriation will allow the refuges to maintain status quo 
without drastic cuts. This is a reduced amount from the $526 million 
that the NWRS actually requires just for O&M capabilities. In this time 
of tight budgets, we feel that an $8 million increase to $511 would be 
appropriate and appreciated.
    The Tampa Bay Refuges are located at the mouth of Tampa Bay on the 
west central gulf coast of Florida. The budget increases in the past 
few years have meant increased management, protection, and restoration 
of the refuges and the ability to better meet the Comprehensive 
Conservation Plan (CCP) goals. In 2008 the Tampa Bay Refuges (TBRs) had 
one staff person who was split duty manager/law enforcement. It was 
very difficult for that one person to have the time to adequately 
manage the resources much less have time to patrol. Because of the 
incremental increases to the NWRS budgets over the last few years, the 
TBRs have a full-time manager, a full-time law enforcement every 
weekend during the summer nesting season, and Student Temporary 
Employment Program summer hire. Due to the past increases in budget and 
personnel the TBRs are able to do long-range planning for big picture 
issues such as erosion and increased public use. With decreases in 
budget, these will fall by the wayside and the wildlife will have a 
degraded or useless habitat.
    The Egmont Key NWR has the Fort Dade Guardhouse that has been 
restored and will make a great visitor center. Without funding, staff 
will not be sufficient to keep the center open to the public. This will 
compromise outreach and education goals for the TBRs. Even now with the 
incremental increases, the TBRs find themselves short of funds to keep 
up with invasive species and predators that threaten the wildlife that 
the refuge system is mandated to protect. With smaller budgets, there 
will also be less money for facilities maintenance which will then cost 
more to restore in the future. If the TBRs were to again lose ground on 
their budgets they would not be able to meet many of their CCP goals 
due to decreased staffing. Keeping the NWRS budget status quo with an 
increase to $511 million for fiscal year 2012 will keep the TBRs from 
losing too much ground.
    The LWCF was created in 1965 and authorized at $900 million. These 
funds are used for land acquisition to protect wildlife and their 
habitats. With the effects of a changing climate, it is more important 
now than ever to establish key wildlife corridors between protected 
areas so wildlife can migrate to more suitable habitat as their 
historic ones changes. The price of real estate is low at this time and 
the $900 million can go much further in protecting habitats than it can 
in a higher real estate market. When we start to lose species due to 
lack of food, water, shelter or space, we are changing the balance of 
nature. The FWS is in the planning stages for the new Everglades 
Headwaters NWR and Conservation Area through the center of the State of 
Florida. Funding to set aside these critical lands is urgently needed. 
With the new legislation enacted in Florida, it is all too easy for 
developers to wipe out environmentally sensitive lands. We will lose 
the possibility of these wildlife corridors forever if the areas are 
developed. We urge you to pass legislation to permanently fund the LWCF 
at $900 million per year as it was originally authorized to give 
wildlife a shot at having suitable habitats as our climate changes. 
Funding Refuge Revenue Sharing at $27 million will also allow the FWS 
to offset loss of local taxes on lands put into conservation, making it 
affordable for communities to help set aside lands for wildlife.
    With the BP Deepwater Horizon oil spill still fresh in our minds, 
the Friends of the Tampa Bay NWR's are extremely aware of the necessity 
for wildlife inventory and monitoring. We urge you to appropriate $20 
million for inventory and monitoring on refuges. Without historic data 
on flora and fauna, we cannot see trends in numbers and species to know 
how to adjust management of the lands. When disaster strikes like an 
oil spill we need to know what is on the public lands in order to help 
protect species and claim for losses. The Friends of the Tampa Bay 
NWR's volunteers have been providing Pinellas Refuges with monthly bird 
survey data for many years and have recognized trends in usage.
    Through partnerships including State and Tribal Wildlife Grants 
(SWG), the FWS is able to work together with the States to protect 
wildlife. This increases the amount of protection that can be afforded 
to wildlife. By funding the SWG program at $95 million, you are helping 
fulfill the responsibility to keep our wildlife from becoming 
endangered or extinct.
    The North American Wetlands Conservation Act (NAWCA) grants will 
also help create space, clean water, food, and shelter for wildlife by 
acquiring and restoring critical wetlands. Funding of this program at 
$50 million in fiscal year 2012 will create additional habitat for 
wildlife. This partnership through acquisition and restoration of 
critical wetlands also improves water quality and carbon sequestration.
    The Friends of the Tampa Bay National Wildlife Refuges, a 501(c)(3) 
organization, is 1 of 230 Friends groups who support the NWRs. As 
Friends groups, we provide assistance to the NWRs through volunteer 
labor and education. In fiscal year 2010, there were more than 40,000 
friends and volunteers who provided services for the NWRS equal to 648 
full-time equivalents, saving taxpayers million of dollars. The 
interest in our NWRS is significant and we are proving it with our 
donated time and funds. The administration's proposal to cut $2.3 
million from the visitor services budget will also decrease the amount 
of volunteer services that can be provided, causing an even greater 
impact to the refuges. We request $80 million appropriation for visitor 
services. Refuges are economic engines for the community. It is 
estimated that for each $1 the Congress spends toward a refuge, $4 is 
returned to the community in economic activity. Without volunteers, you 
lose many visitor services that fuel this economic activity.
    In conclusion, the Friends of the Tampa Bay National Wildlife 
Refuges believes the NWRS can meet its important conservation 
objectives only with strong and consistent funding leveraged by the 
valuable work of refuge staff and volunteers. We again extend our 
appreciation to the subcommittee for its ongoing commitment to our 
NWRS. We encourage you to approve a $511 million for the fiscal year 
2012 NWRS operations and maintenance budget managed by the FWS and to 
approve $900 millions for fiscal year 2012 for the LWCF land 
acquisition budget, approve funding the SWG program at $95 million and 
the NAWCA grants at $50 million, as well as the other important 
programs and projects outlined above. Each of these programs is an 
important part of keeping our planet healthy with a broad diversity of 
species.
                                 ______
                                 
   Prepared Statement of the Friends of Virgin Islands National Park
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of LWCF in fiscal year 2012. The proposed $900 
million is the congressionally authorized amount for the program and 
seeks to renew focus on the promise of LWCF: that it is right and wise 
to reinvest proceeds from offshore drilling receipts in the protection 
of natural resources and recreational access for all Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
National Park Service (NPS) included $5 million for the acquisition of 
land in the Virgin Islands National Park in the President's budget. I 
am pleased that this funding was included in the request and urge the 
Congress to provide the full President's budget amount for LWCF so that 
this important project can receive this needed funding.
    I represent the Friends of VI National Park, a 501(c)(3) nonprofit 
organization, dedicated to the protection and preservation of the 
natural and cultural resources of Virgin Islands National Park and to 
promoting the responsible enjoyment of this national treasure. We have 
more than 3,000 members--20 percent of whom live in the Virgin Islands 
and the balance represent every State in the Union.
    We carry on the rich tradition of using private philanthropy for 
the betterment of this park as well as mobilize volunteers and 
community participation. In our 23 years of work in support of Virgin 
Islands National Park we have been involved in many initiatives, 
projects, and activities that help this park be a model of natural 
resource protection and cultural preservation--but none have been as 
important as our work in support of the acquisition of Estate Maho Bay 
and its incorporation within the park.
    We have played the important role of informing and motivating the 
community about the issues related to the preservation of Estate Maho 
Bay. But motivation was hardly needed; the preservation of Estate Maho 
Bay and ensuring unimpeded access to this spectacular area enjoys near 
unanimous support among native St. Johnians, residents who have moved 
here from mainland United State and visitors alike--no easy feat for a 
community that prides itself in its diversity of opinions.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place for visitors. More than 800 species 
of trees, shrubs, and flowers are found in the park, and more than 30 
species of tropical birds breed on the island, which was designated a 
Biosphere Reserve by the United Nations in 1976. St. John is also home 
to two species of endangered sea turtles, the hawksbill and the green. 
In addition, the park contains archeological sites indicating 
settlement by Indians as early as 770 B.C. The later colonial history 
of St. John is also represented by remnants of the plantations and 
sugar mills established by the Danes in the 18th and 19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on earth match the breathtaking beauty of Maho Bay. Its crystal 
waters and soft white beaches are rimmed by a lush forested slope 
rising 1,086 feet. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green and hawksbill turtles and 
magnificent coral reefs. This fragile area contains large nesting 
colonies of brown pelicans, as well as the migratory warblers and terns 
that winter on St. John. In addition to its natural treasures, the 
largest concentration of historic plantations andruins on the island is 
found within this area.
    Slated for completion in 2011, if funds are available, is a 205-
acre acquisition of land overlooking Maho Bay within the Virgin Islands 
National Park boundaries. The property offers spectacular views of the 
bay and extends the amount of publicly owned beachfront at Maho Bay. 
This property, known as Estate Maho Bay, is extremely important because 
it connects the southern and northern sections of the national park and 
will preserve significant natural and cultural resources. With 
increasing growth and investment throughout the Caribbean--including 
places not far from the unspoiled beauty of St. John--these vulnerable 
lands have become the focus of intense development threats.
    Estate Maho Bay was originally part of a larger property under one 
ownership. A 3-acre beachfront parcel was carved out of that original 
property and came under separate ownership. Now available for 
acquisition by the Virgin Islands National Park, the Ortiz property 
lies adjacent to Estate Maho Bay and contains 422 linear feet of 
beachfront. NPS is already leasing this property for public 
recreational use for a nominal fee, with the understanding that the 
property will be purchased by the park. The Ortiz property can be 
acquired with an LWCF allocation of $3.05 million in fiscal year 2012.
    The acquisitions at Maho Bay will ensure continued public access to 
the beach, protect ecologically and historically significant land from 
development, and connect two separate sections of Virgin Islands 
National Park. The President's budget for fiscal year 2012 allocates $5 
million for acquisitions at Virgin Islands NP and encompasses the 
acquisition of the Ortiz property for $3.05 million as part of that 
larger ask.
    LWCF is our Nation's premier Federal program to acquire and protect 
lands at national parks, forests, refuges, and public lands and at 
State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in the U.S. Virgin Islands, and I appreciate your 
consideration of this funding request.
                                 ______
                                 
 Prepared Statement of the Friends of Wallkill River National Wildlife 
                                 Refuge
    Dear Madam Chair and honorable members of the committee: I 
appreciate the opportunity to express my strong support for the Land 
and Water Conservation Fund (LWCF) and urge the subcommittee to include 
ample funding for LWCF in the fiscal year 2012 Interior, environment, 
and related agencies appropriations bill. The President's budget 
request includes full funding of LWCF in fiscal year 2012. The proposed 
$900 million is the congressionally authorized amount for the program 
and seeks to renew focus on the promise of the LWCF: that it is right 
and wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans. I would also encourage you to support $549 million in 
funding for operations and maintenance on refuges, of that, I ask that 
Refuge Law Enforcement be funded at the level of at least $76 million.
    LWCF is authorized by the Land and Water Conservation Act of 1965. 
This act states: ``not less than $900 million for each fiscal year'' 
from ``Outer Continental Shell oil monies'' will go to subsidize the 
acquisition of State and Federal lands. Today, the Bureau of Ocean 
Energy Management, Regulation and Enforcement report annual revenues 
averaging $13.7 billion per year. I strongly encourage your support of 
fully funding this fund as dictated by the Congressional Act of 1965.
    In the National Wildlife Refuge system much of this funding is used 
to purchase wetlands. Wetlands is a technical term for what must of us 
are might commonly refer to as ``swamps'' and floodplains. These sites 
are the areas that water flows to when there is excess that does not 
flow down through the ground to replenish aquifers It is paramount to 
protect these lands for the purposes of replenishing Aquifers and as 
storage site for flood watersheds protecting habitat for endangered and 
threatened species.
    Land owners have a constitutionally protected right to sell their 
land as dictated by the fifth amendment eminent domain clause. When 
developers build on these wetlands, we see unsuspecting home owners 
flooded out. The American public then expects FEMA to come to their 
rescue financially. I say to you: it is far more financially 
intelligent to buy these lands and put them in preservation as a 
reservoir for naturally occurring, excessive water flow, than it is to 
keep bailing out homes built in flood plains. This funding is means to 
prevent building homes in flood plains and protects the water supply 
for the current population and future generations. We all want our 
children and grandchildren to have safe water.
    These sites also serve the purpose of naturally allowing waters to 
be absorbed into the aquifer. Safe, potable water is becoming a growing 
crisis throughout this country. Preserving lands for the replenishment 
of aquifers and watersheds, will ensure that the American public will 
have safe water for generations to come. This is a responsibility that 
the Congress has the ability to address now. I encourage you to 
reinstate LWCF in 2015.
    Historically, in New Jersey, LWCF has provided essential funding 
for our five national wildlife refuges, park service units from 
Delaware Water Gap, to the Edison National Historic Site, vital 
conservation dollars for the Highlands Conservation Act program and 
funding for numerous State and local parks and trails. It has protected 
watersheds and wetlands, ensuring clean, ample, and affordable drinking 
water supplies for New Jersey communities. Moreover, this conservation 
investment helps support jobs and economic vibrancy in our communities.
    In particular, today I wish to emphasize the continuing need for 
LWCF funding for national wildlife refuges in New Jersey and across the 
Nation. This is essential funding necessary to maintain the integrity 
of our refuges by protecting precious wildlife and fisheries habitat, 
wetlands and watershed, and expanding public access for recreation.
    As a board member and past president of Friends of the Wallkill 
River National Wildlife Refuge Association, I possess firsthand 
understanding of the land protection needs at this refuge. The refuge 
was established in 1990 to preserve and enhance wildlife habitat in one 
of the most fertile valleys and natural areas in all of New Jersey. The 
Wallkill River valley is a resource-rich part of the New Jersey-New 
York Highlands area. The extent of its forested wetlands and 
undisturbed grasslands makes the Wallkill River one of the largest 
high-quality inland waterfowl habitats in the mid-Atlantic region. The 
refuge provides critical habitat for migratory waterfowl on both the 
Atlantic Flyway and the Hudson-Delaware corridor and is a major black 
duck focus area of the North American Waterfowl Management Plan. Large 
populations of nesting black ducks, wood ducks, blue- and green-winged 
teal, mergansers, mallards, and pintail frequent the refuge's wetland 
areas. In addition, the Wallkill River and its tributaries are home to 
19 State-listed threatened and endangered species. Within the past 200 
years, the State of New Jersey has lost an estimated 40 percent of its 
forested wetlands.
    The Wallkill River NWR has focused on urgent land acquisition needs 
and faces serious development pressures. A recently approved land 
protection plan expands the refuge boundary to provide greater habitat 
protection for the federally listed endangered bog turtle. The U.S. 
Fish and Wildlife Service (FWS) continues to work with willing seller 
landowners and community partners to secure vital properties. Several 
high priority properties are currently available from willing seller 
landowners. However, without ample LWCF funding, these refuge land 
protection needs cannot be met and may be permanently lost to 
inappropriate development. Wallkill NWR has a need of $1.75 million, 
for land acquisition, still in waiting.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. LWCF is funded from offshore oil 
and gas leasing royalties, not taxpayer dollars, and these funds should 
go to their intended and congressionally enacted use. A 2009 study by 
The Trust for Public Land found that for every $1 invested in land 
conservation returns $10 in economic benefits to our New Jersey 
communities for flood control and other ecosystem goods and services. 
Further, our refuges and other public lands drive tourism and support 
jobs and economic vitality in surrounding communities. FWS reports that 
each year more than 2.1 million people participate in hunting, fishing, 
and wildlife watching in New Jersey contributing $1.7 billion to the 
State economy.
    In years past, I and others have made the request to this 
subcommittee to fully support and increase funding for Refuge Law 
Enforcement. Reports from the Government Accountability Office, the 
Department of the Interior Inspector General, the International 
Association of Chiefs of Police all concur that there is a serious lack 
of adequate law enforcement personnel on Refuges. The Deployment Model 
of 2005 states that the refuge system needs 845 full-time officers 
nationally. Currently, there are 237 full-time officers and 173 
collateral duty officers. Collateral duty officer's primary 
responsibility is another position such as maintenance or biology. The 
total law enforcement officers is 410 compared to the needed 845.
    In 1981, the Fire Division was under staffed and not adequately 
trained or equipt, resulting in the deaths of three staff members in 
1979 and 1981. (Okefenokee Refuge and Merritt Island Refuge). 
Congressman Sidney Yates worked to bring adequate funding so that the 
Fire Division could get the job done while maintaining the safety of 
personnel and public.
    Drug smuggling, growing marijuana, and selling drugs on refuges is 
presenting and increasing risk to staff and visitors on refuges. The 
National Park Service already experienced one fatality as a result of 
the Southwest Border drug smuggling and human trafficking. It may seem 
as if the loss of one officer is minor in the scheme of things: not to 
the family of that person. The risks on refuges are increasing because 
there has been inadequate law enforcement staffing.
    I ask that you not wait until there are fatalities as a result of 
the serious lack of law enforcement of refuges; please don't wait until 
there are fatalities to recognize the need for law enforcement. The 
current budget asks for $38 million for refuge law enforcement; I ask 
that you increase funding to $76 million. The budgets of 2005-2008 
dramatically cut staff on refuges; many refuges are still understaffed 
and unstaffed. The Refuge system now has 127 refuge complexes, 501 
satellite units, 52 stand-alones, 216 stations without any staff, and 
110 refuges that are closed. Adequate funding has not been made 
available to fully staff the refuge system to the level that is needed 
to fulfill the requirements of the Refuge Improvement Act of 1997. When 
there is no staff or law enforcement on refuges criminal activity 
increases; there is no one to document or react to wrong doing on the 
lands that are owned and by the American public.
    I urge the subcommittee to invest in the LWCF program to provide 
ample funding for wildlife refuges and other public lands protection, 
and to fund Refuges at $549 million for operations and maintenance, and 
to recognize the need for law enforcement on refuges by specifying $76 
million for law enforcement on refuges. In these tough economic times 
it is the wise choice that reaps direct benefits to the people of New 
Jersey and across the country.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission
    agencies--bureau of indian affairs (bia) and the environmental 
                        protection agency (epa)
    BIA Rights Protection Implementation.--At least $30,451,000 (same 
as the fiscal year 2010 appropriation).
      Great Lakes Indian Fish and Wildlife Commission (GLIFWC).--At 
        least $5,619,000 (proportionate allocation within the Rights 
        Protection Implementation (RPI) program).
      Agency/Program Line Item.--Department of the Interior, BIA, 
        Operation of Indian Programs, Trust-Natural Resources 
        Management, RPI, Great Lakes Area Resource Management.\1\
---------------------------------------------------------------------------
    \1\ The requested BIA funds reflect GLIFWC's allocation of this 
line item that also funds the 1854 Treaty Authority.
---------------------------------------------------------------------------
      Funding Authorizations.--Snyder Act, 25 U.S.C. s. 13; Indian 
        Self-Determination and Education Assistance Act (Public Law 93-
        638), 25 U.S.C. ss. 450f and 450h; and the treaties between the 
        United States and the GLIFWC's member Ojibwe Tribes, 
        specifically Treaty of 1836, 7 Stat. 491, Treaty of 1837, 7 
        Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 
        Stat. 1109.\2\
---------------------------------------------------------------------------
    \2\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
    EPA Great Lakes Restoration.--$350,000,000.
      Tribal need: $25,000,000.
      GLIFWC need.--$1,200,000 (estimated annual need).
      Agency/Program Line Item.--EPA, Environmental Programs and 
        Management, Geographic Programs, Great Lakes Restoration.
      Funding Authorizations.--Clean Water Act, 33 U.S.C. s. 1268(c); 
        and treaties cited above.
  the glifwc's goal--a secure funding base to fulfill treaty purposes
    For more than 25 years, the Congress has funded the GLIFWC in 
fulfillment of nondiscretionary treaty obligations and associated 
Federal court orders. The GLIFWC's conservation, natural resource 
protection, and law enforcement programs also provide a wide range of 
associated public benefits and assure participation in management 
partnerships in Wisconsin, Michigan, and Minnesota. The two elements of 
this funding request are:
      BIA Rights Protection Implementation.--At Least $30,451,000. In 
        fiscal year 2010, the Congress provided $30,451,000 in RPI 
        funding, with the GLIFWC's proportionate share in the amount of 
        $5,619,000. Due to the current uncertainty, the GLIFWC's fiscal 
        year 2011 budget is unknown.
      Stable funding at fiscal year 2010 levels has allowed the GLIFWC 
        to fill vacant positions, restore some funding to tribal courts 
        and registration stations, reinstate fish and wildlife 
        assessments, and meet a portion of its expanding harvest 
        monitoring requirements. It does not meet all of the GLIFWC's 
        program needs, but stable funding at this level acknowledges 
        the current budget climate while allowing the GLIFWC to meet 
        core functions and respond to growing demands for its services. 
        The GLIFWC recently estimated the full cost of its program at 
        approximately $9,870,000, including: $5,619,000 currently 
        provided through the RPI line item, approximately $1,800,000 
        provided by grants and other ``soft'' funding in fiscal year 
        2010, and $2,451,000 in unmet needs, including funding for 
        research and assessments of threats to the ceded territories, 
        for conservation enforcement officers, and to provide up-to-
        date public information using current technologies.
      EPA Environmental Programs and Management.--$350,000,000. The 
        GLIFWC supports continued funding for the Great Lakes 
        Restoration Initiative (GLRI) at the administration's proposed 
        fiscal year 2012 level of $350,000,000. It also recommends that 
        at least $25 million be provided to the BIA for tribes, to 
        ensure they are able to undertake projects that contribute to 
        the protection and restoration of the Great Lakes. Funding 
        provided through the BIA should be made available under the 
        Indian Self-Determination and Education Assistance Act 
        (ISDEAA). In 2010, the GLRI funding awarded through the ISDEAA 
        was virtually the only GLRI funding that was available before 
        the 2010 field season, allowing the early implementation of 
        projects to realize substantial ``on-the-ground'' ecosystem 
        benefits.
    Sustained funding for GLIFWC at the fiscal year 2010 level of 
approximately $1.2 million, will enable GLIFWC to sustain jobs that 
will allow it to fully participate in the decisionmaking processes that 
affect the treaty rights of its member tribes, ensure that decisions 
are based upon sound science, and implement specific habitat and human 
health research projects relevant to the subsistence, economic, and 
cultural needs of tribal communities.
     ceded territory treaty rights--the glifwc's role and programs
    Established in 1984, the GLIFWC is a natural resources management 
agency for 11-member Ojibwe Tribes regarding their ceded territory 
(off-reservation) hunting, fishing, and gathering treaty rights. These 
ceded territories extend over a 60,000-square-mile area in a three-
State region. The GLIFWC's mission is to:
  --ensure that its member tribes are able to exercise their rights for 
        the purposes of meeting subsistence, economic, cultural, 
        medicinal, and spiritual needs; and
  --ensure a healthy, sustainable natural resource base that supports 
        those rights.
    The GLIFWC is a ``tribal organization'' as defined by the Indian 
Self-Determination and Education Assistance Act. It is governed by a 
constitution ratified by its member tribes and by a board composed of 
the chairs of those tribes.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The GLIFWC operates a comprehensive ceded territory hunting, 
fishing, and gathering rights protection/implementation program through 
its staff of 65 full-time biologists, scientists, technicians, 
conservation enforcement officers, policy specialists, and public 
information specialists. Its activities include:
  --natural resource population assessments and studies;
  --harvest monitoring and reporting;
  --enforcement of tribal conservation codes in tribal courts;
  --funding for tribal courts and tribal registration/permit stations;
  --development of natural resource management plans and tribal 
        regulations;
  --negotiation and implementation of agreements with State, Federal, 
        and local agencies;
  --invasive species eradication and control projects;
  --biological and scientific research, including fish contaminant 
        testing; and
  --development and dissemination of public information materials.
              justification and use of the requested funds
    For more than 25 years, the Congress has recognized the GLIFWC as a 
cost-efficient agency that plays a necessary role in:
  --meeting specific Federal treaty and statutory obligations toward 
        the GLIFWC's member tribes;
  --fulfilling conservation, habitat protection, and law enforcement 
        functions required by Federal court decisions affirming the 
        tribes' treaty rights;
  --effectively regulating harvests of natural resources shared among 
        the treaty signatory tribes; and
  --serving as an active partner with State, Federal, and local 
        governments, with educational institutions, and with 
        conservation organizations and other nonprofit agencies.
    Particularly relevant to the requested EPA funds, tribal members 
rely upon treaty-protected natural resources for religious, cultural, 
medicinal, subsistence, and economic purposes. Their treaty rights mean 
little if contamination of these resources threatens their health, 
safety, and economy, or if the habitats supporting these resources are 
degraded.
    With the requested stable funding base, the GLIFWC will:
      Maintain the Requisite Capabilities To Meet Legal Obligations, To 
        Conserve Natural Resources, and To Regulate Treaty Harvests.--
        Although it does not meet all the GLIFWC's needs, sustained 
        funding at fiscal year 2010 levels would go a long way in 
        facilitating continued tribal compliance with various court 
        decrees and intergovernmental agreements governing the tribes' 
        treaty-reserved hunting, fishing, and gathering rights. It also 
        enhances the GLIFWC's capability to undertake work and 
        participate in relevant partnerships to tackle ecosystem 
        threats, such as invasive species, habitat degradation and 
        climate change, that harm treaty natural resources.
      Remain a Trusted Environmental Management Partner and Scientific 
        Contributor in the Great Lakes region.--With the requested EPA 
        funding base, the GLIFWC would maintain its role as a trusted 
        environmental management partner and scientific contributor in 
        the Great Lakes region. It would bring a tribal perspective to 
        the interjurisdictional mix of Great Lakes managers \3\ and 
        would use its scientific expertise to study issues and 
        geographic areas that are important to its member tribes, but 
        that others may not be examining.\4\
---------------------------------------------------------------------------
    \3\ The GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Restoration 
Initiative, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \4\ With the requested fiscal year 2012 funds, GLIFWC would:
      -- continue a ceded territory wild rice enhancement project;
      -- facilitate tribal review and input on the re-negotiation of 
the Great Lakes Water Quality Agreement and any implementing 
activities;
      -- continue to participate in the development and implementation 
of the Lake Superior Lakewide Management Plan;
      -- build upon its long-standing fish contaminant analysis and 
consumption advisory program by testing additional species, testing in 
a wider geographic range, and testing for chemicals of emerging 
concern; and
      -- enhance its invasive species and animal disease prevention, 
monitoring and mitigation programs, particularly given the potential 
impacts of climate change, the recent discovery of viral hemorrhagic 
septicemia (VHS) in Lake Superior and the potential migration of the 
Asian Carp into the Great Lakes.
---------------------------------------------------------------------------
      Maintain the Overall Public Benefits That Derive From its 
        Programs.--Over the years, the GLIFWC has become a recognized 
        and valued partner in natural resource management, in emergency 
        services networks, and in providing accurate information to the 
        public. Because of its institutional experience and staff 
        expertise, the GLIFWC provides continuity and stability in 
        interagency relationships and among its member tribes, and 
        contributes to social stability in the context of ceded 
        territory treaty rights issues.
    The GLIFWC has built and maintained numerous partnerships that:
  --provide accurate information and data to counter social 
        misconceptions about tribal treaty harvests and the status of 
        ceded territory natural resources;
  --maximize each partner's financial resources and avoid duplication 
        of effort and costs;
  --engender cooperation rather than competition; and
  --undertake projects and achieve public benefits that no one partner 
        could accomplish alone.
                 other related appropriations concerns
    Full Funding of BIA Contract Support Costs.--The GLIFWC seeks full 
funding of its contract support costs and supports the administration's 
fiscal year 2012 proposed increase of $29.5 million from fiscal year 
2010 levels. The GLIFWC anticipates its fiscal year 2011 indirect cost 
shortfall to be approximately $207,000, and this does not take into 
account the shortfall for all of its direct contract support costs. 
These shortfalls significantly inhibit the GLIFWC's ability to restore 
program cuts and service capacity.
    BIA Conservation Law Enforcement Officer Program.--The GLIFWC 
supports BIA's proposal for $1 million in fiscal year 2012 to support 
conservation officers like those employed by the GLIFWC. This program 
will assist tribal conservation enforcement programs in protecting and 
monitoring natural resources, and may be particularly important in 
light of proposed cuts to the Department of Justice Community Oriented 
Policing Tribal Grant Program.
    BIA Circle of Flight Tribal Wetland and Waterfowl Initiative.--The 
GLIFWC supports BIA funding of the Circle of Flight Tribal Wetland & 
Waterfowl Enhancement Initiative for Michigan, Minnesota, and 
Wisconsin. The Circle of Flight Program is a long-standing tribal 
contribution to the North American Waterfowl Management Plan that has 
leveraged matching partnership funding on a 3 to 1 ratio. In 2010, this 
program was awarded a Department of Interior ``Partners in 
Conservation'' Award.
                                 ______
                                 
             Prepared Statement of the Green Mountain Club
    Mr. Chairman and honorable members of the subcommittee: As director 
of Conservation for the Green Mountain Club, the nonprofit organization 
that maintains Vermont's Long Trail, the Nation's oldest long-distance 
hiking trail, I appreciate the opportunity to present this testimony in 
support of the Forest Legacy Program (FLP) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. The 
FLP works with landowners, the States, and other partners to protect 
critical forestlands with important economic, recreation, water 
quality, and habitat resources through conservation easement and fee 
acquisitions. The program has protected more than 2 million acres in 43 
States and territories, consistently with a 50 percent non-Federal cost 
share, double the required 25 percent cost share. For several years 
this important conservation program has been funded under the umbrella 
of the Land and Water Conservation Fund (LWCF).
    In an historic embrace of conservation, the President's budget 
request includes full funding of LWCF in fiscal year 2012. The proposed 
$900 million is the congressionally authorized amount for the program 
and seeks to renew focus on the promise of the LWCF: that it is right 
and wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans. Of that $900 million, the President requested $135 million 
for the FLP.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the FLP is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to LWCF and FLP in fiscal year 2012, 
the U.S. Forest Service included $2.55 million for the Northern Green 
Mountains Linkage project in Vermont in the President's budget. I am 
pleased that this funding was included in the request and urge the 
Congress to provide the full President's budget amount for the FLP so 
that this important project can receive this needed funding.
    The FLP in Vermont seeks to achieve significant conservation goals 
for the State by protecting the following types of land:
  --large contiguous and productive forest blocks;
  --wildlife habitats dependent on large contiguous forest blocks;
  --threatened and endangered species habitat;
  --State fragile areas and undeveloped shoreline;
  --significant wetlands; and
  --important recreation corridors.
    Sustainable timber harvesting is also critical; the annual 
contribution of forest products, forest-based manufacturing, and 
forest-related recreation to Vermont's economy is more than $2.6 
billion. All tracts are well suited for development of large estate 
lots or subdivisions due to the extensive road frontage, water bodies, 
gentle terrain, scenic value, and proximity to ski resorts and urban 
areas.
    The 5,804-acre Northern Green Mountains Linkage project is situated 
on the spine of the Northern Green Mountains in Lamoille and Orleans 
Counties, and will protect managed and productive timberland while 
protecting 25 undeveloped ponds, 25 miles of streams, several rare 
species and natural resource communities and high-quality habitat. 
Using fee and easement acquisitions, the project will link 62,200 acres 
of conserved lands, including lands the Green Mountain Club has 
protected for the Long Trail, providing connectivity from the Champlain 
Valley to the Green Mountains and north to Quebec and east to the 
Worcester Range. This project will address the problem of forest 
fragmentation and associated impacts on the timber economy, public 
access to recreation and wildlife habitat connectivity in Vermont's 
northern region by permanently protecting critically located 
properties.
    Vermont's Northern Green Mountains are one of the wildest and 
largest forested landscapes remaining in all of New England. The 
region, which follows the spine of the Green Mountains north from Mount 
Mansfield to the Canadian border, encompasses sweeping tracts of forest 
where moose, bobcat, black bear, and a myriad of rare and endangered 
songbirds make their home. These mountains and their slopes are 
remarkably diverse, containing all the major ecosystem types of the 
ecoregion, from boreal forests, temperate mixed hardwoods, and alpine 
meadows to floodplain forests and marshes. Additionally, there are 
State rare and threatened plant species on the properties, including 
cliff fern, rose pogonia, lungwort, and smooth musk flower. It is also 
a magnet for hikers, skiers, backpackers, and other outdoor 
enthusiasts, particularly those drawn by more than 65 miles of the Long 
Trail--the Nation's oldest long-distance hiking path built by the Green 
Mountain Club between 1910 and 1930 and the inspiration for the 
Appalachian Trail. Also snaking through the region is the increasingly 
popular Catamount Trail, a skiing trail traversing the length of 
Vermont.
    The Northern Green Mountains have long been recognized as a top 
conservation priority by many of the region's small towns, such as Jay, 
Westfield, and Hyde Park, who are now mobilizing to conserve the places 
that define and sustain their communities. Two Countries One Forest 
(2C1Forest), a Canadian-American coalition of 50 conservation 
organizations, public agencies, and researchers sponsored scientific 
research to identify important wildlife corridors in the Northern 
Appalachian Acadian ecoregion. In 2007, 2C1Forest chose the Northern 
Green Mountains-to-Sutton Mountains linkage as one of their top five 
conservation priorities. The area has also been identified as 
significant in VT Fish & Wildlife's soon-to-be-completed statewide 
assessment and ranking of large forested blocks and associated linkage 
habitats. The Northern Green Mountains are a crucial place for regional 
landscape connectivity because they help tie the Adirondacks of New 
York, and the central Appalachians of Massachusetts and points south to 
the Northern Appalachians of Maine and Canada. In so doing they serve 
as an important north-south corridor for wildlife and, because of their 
large range in elevation, provide species with flexibility in their 
movement.
    Projects like the Northern Green Mountains Linkage that maintain 
connectivity on local, State, and regional scales are also critical to 
support adaptation of wildlife species to climate change. These 
corridors will facilitate species movement in response to shifts in 
forest habitat, food availability, and snowpack. As 1 of the 5 most 
important mega-corridors in the entire region, protecting the Northern 
Green Mountains habitat linkage will be essential for climate 
adaptation. These forested tracts also offer important climate 
adaptation value as habitat refugia for cold-loving species whose 
habitats will be lost in other areas. The Northeast Climate Impacts 
Synthesis Assessment Team projects that this region will retain 
consistently cold winters and reliable snowpack through the end of the 
21st century, even under high-carbon-emission scenarios. This is 
significant for a wide range of snow-dependent species, like snowshoe 
hare and marten, as these same projections suggest that snowpack will 
largely disappear from New England to the south of the project area. 
Protection of this area is also important for adaptation of the eastern 
brook trout. Some of the parcels for protection include important 
headwater streams to the Missisquoi River, one of Vermont's important 
habitat areas for eastern brook trout. Conserving these high-elevation 
headwater streams will help maintain flows and cooler water 
temperatures in the lower lying Missisquoi as the climate warms in this 
area.
    The 3,739 acres that will be conserved with fiscal year 2012 FLP 
funding is made up of three separate parcels. Almost the entire 
expanse--95 percent--of the 1,748-acre Jay Brook tract in Westfield is 
more than 1,500 feet, providing critical wildlife habitat protection 
and important refugia to species adapting to climate change. Protection 
of this land would conserve 3.6 miles of the Catamount Trail and add an 
extra conserved buffer to 5.8 miles of The Long Trail, where portions 
of the Long Trail State Forest are only 650 feet wide--an inadequate 
buffer of the State's most well-known and well-loved trail. The 1,478-
acre Bullard Tract, in Eden and Hyde Park provides a wide linkage that 
connects lowland forest to previous FLP investments around Green River 
Reservoir State Park (protected with fiscal year 1999 funds) up to the 
ridgeline of the Green Mountains on the Eden Forest property (protected 
with fiscal years 2009 and 2010 funds). Lastly, the 513-acre Westfield 
Mountain Tract is managed for the production of maple syrup and high-
value timber and would be a significant addition to a previously 
conserved block of forestland in the Northern Green Mountains.
    The vast majority of the land in the Northern Greens remains in 
private hands, with thousands of acres available on the open market. 
Threats from an expanding second-home industry (even in today's 
uncertain economy), road construction, and changing forestry and 
farming practices put key blocks of forestland at risk and create 
barriers to wildlife movement. Such changes also threaten the vibrant 
rural culture and economy of the Northern Greens, with is mix of small-
scale community farms, forestry, and recreation. A recent explosion of 
development pressure in the Northern Green Mountains resulting from 
expanding ski resorts and the area's proximity to greater Burlington 
and other population centers, has made this a ``now or never'' moment 
to conserve key landscapes in this important habitat and recreation 
area. According to census data, growth rates in Lamoille and Orleans 
counties are more than double the growth rate in Vermont as a whole. In 
Vermont, only 21 percent of the Northern Green Mountains is protected 
from development, compared to 45 percent of the central and southern 
Green Mountains.
    A request for $2.3 million in FLP funding was requested in the 
fiscal year 2011 President's budget for the first 2,065 acres of the 
Northern Greens project. The President's budget for fiscal year 2012 
requests an additional $2.55 million from the FLP for the remaining 
3,739 acres of the project, which is ranked 19 in the Nation out of 46 
projects. These 2 years of Federal funds are needed to ensure the 
protection of critical forest resources in northern Vermont and will be 
matched by $1.62 million of non-Federal contributions for the 
acquisition of full fee and partial interests through conservation 
easement.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Vermont, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
          Prepared Statement of the Glacier National Park Fund
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, Environment, and Related Agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of LWCF in fiscal year 2012. The proposed $900 
million is the congressionally authorized amount for the program and 
seeks to renew focus on the promise of the LWCF: that it is right and 
wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf (OCS) revenues, not taxpayer dollars, these funds 
should go to their intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
National Park Service (NPS) included $1.223 million for the acquisition 
of land in Glacier National Park in Montana in the President's budget. 
I am pleased that this funding was included in the request and urge the 
Congress to provide the full President's budget amount for LWCF so that 
this important project can receive this needed funding.
    In 2010, Glacier National Park celebrated the 100th anniversary of 
its creation by the Congress and President Taft on May 11, 1910. That 
law declared that the national park in Montana should be ``dedicated 
and set apart as a public park or pleasure ground for the benefit and 
enjoyment of the people of the United States.'' Since 1932, Glacier, 
along with its northern neighbor--Waterton Lakes National Park--has 
symbolized the long-lasting friendship between the American and 
Canadian peoples as an international peace park.
    Two years before the park's creation, George Bird Grinnell, a co-
founder of the Audubon Society and the Boone and Crockett Club, 
appropriately called the area the ``Crown of the Continent''. Indeed, 
Triple Divide Peak in the park is the meeting point between three of 
the main drainages of the North American continent (Hudson Bay, Pacific 
Ocean, and the Gulf of Mexico). The Crown of the Continent is also the 
meeting point for diverse wildlife at the intersection of mountains, 
plains, forests, and rivers. The park protects habitat for more than 
270 species of birds, 70 species of mammals, and 25 species of native 
fish.
    Today, Glacier receives nearly 2 million visitors annually. The 
park provides more than 730 miles of hiking trails (often in 
backcountry glacial valleys and forests), camping, horseback riding, 
and boating on the its many lakes. Visitors can also choose to spend 
the night at one of several historic park-owned lodges, which were 
built at the beginning of the 20th century at the foot of rugged snow-
capped mountains or on the shore of a cold glacial lake. Most visitors 
ascend to Logan Pass in the center of the park via the spectacular 50-
mile-long Going to the Sun Road. Completed in the 1930s, this 
engineering marvel clings to mountainsides surrounded by majestic 
alpine scenery.
    The Glacier National Park Fund was created in 1999 as the nonprofit 
partner of Glacier National Park. Our mission is to support the 
preservation of the outstanding natural beauty and cultural heritage of 
Glacier National Park for the use and enjoyment of present and future 
generations by fostering public awareness and encouraging private 
philanthropy. We have allocated more than $3 million in direct grants 
to the park along with another $1.5 million in outreach and public 
awareness activities. We are dedicated to partnering with NPS to ensure 
that future generations can enjoy Glacier the same way we have through 
our lifetimes. Thus, we are very excited about this opportunity to 
acquire an inholding that will provide additional opportunities to 
experience Glacier and wholeheartedly support and applaud the efforts 
to make this invaluable and historic piece of land a part of Glacier 
National Park.
    Available for acquisition in fiscal year 2012 is the 120-acre 
Harrison Creek inholding. The tract is located at the south end of the 
park along the Middle Fork of the Flathead River--the legislated 
boundary of the park. The Congress declared the Middle Fork a national 
wild and scenic river in 1976 from its headwaters to the confluence 
with the South Fork. U.S. Route 2 and the BNSF/Amtrak transcontinental 
railway follow the river along its south side, with the 286,700-acre 
Great Bear Wilderness lying within the Flathead National Forest just 
beyond. The Harrison Creek tract is the second largest private 
inholding within Glacier National Park and the only inholding bordering 
the Middle Fork of the Flathead Wild and Scenic River corridor. The 
river is popular with rafters, floaters, anglers, and other outdoor 
recreation enthusiasts.
    If acquired, the Harrison Creek tract will improve access for 
hiking and horseback riding. The South Boundary Trail runs through the 
property and is one of the first trails available to hikers after 
winter snows begin to melt, providing spectacular views of the Middle 
Fork and an abundant array of wildflowers.
    The property is prime habitat for a host of species including elk, 
wolves, Canada lynx, and grizzly bear. The river corridors, 
floodplains, and associated riparian habitat attract these species from 
the surrounding mountains. Since the tract is entirely surrounded by 
public lands, its development would threaten protected habitat on both 
sides of the Middle Fork.
    The Harrison Creek tract is part of the Doody Homestead. A historic 
cabin sits on the portion of the homestead that NPS already owns, but 
the remaining private portion contains artifacts and remnants of 
pioneer life. Dan Doody was one of the first rangers in the park, and 
his wife Josephine was known to supply moonshine to grateful railroad 
workers in the early 1900s.
    The acquisition of the Harrison Creek tract would prevent 
incompatible development on a prominent site along U.S. Route 2 and the 
Middle Fork; improve recreational access for rafters, horseback riders, 
hikers, and anglers; and enhance habitat connectivity within the Crown 
of the Continent. NPS has prioritized the acquisition of this tract as 
part of Glacier's centennial celebration. An allocation of $1.223 
million from the Land and Water Conservation Fund--as recommended in 
the President's budget--is needed in fiscal year 2012 to acquire this 
inholding within one of America's most beloved and beautiful national 
parks.
    LWCF is our Nation's premier Federal program to acquire and protect 
lands at national parks, forests, refuges, and public lands and at 
State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Montana. I greatly appreciate your consideration 
of this funding request.
                                 ______
                                 
       Prepared Statement of the Green Ravens Environmental Club
    Mr. Chairman and honorable members of the subcommittee: We 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF). The Green Ravens support this 
program because of the impact it could have in our neighborhoods in 
Albuquerque if the Price's Dairy property can be acquired and turned 
into a national wildlife refuge. LWCF would be the Congress' way of 
supporting this refuge idea through the property's protection.
    In supporting the Price's Dairy project, we have learned a lot 
about the LWCF and how it helps Albuquerque and other places in New 
Mexico. LWCF was created back in 1964 to protect important lands and 
the natural, recreational, economic, water, historic, and ecological 
resources on them. The program is supposed to receive $900 million a 
year from money generated from offshore drilling. The concept of LWCF 
is simple: when we use and decrease a natural resource, we should put 
some of the gain to use and increase other natural resources like our 
public lands.
    We understand that the President has proposed full funding of LWCF 
in fiscal year 2012. We think this is wise and will help make America a 
better place to live and enjoy our outdoors. For the Green Ravens, we 
think this proposal will make it easier and eventually allow for the 
U.S. Fish and Wildlife Service to protect the 570-acre Price's Dairy 
property in the South Valley and make it a part of a national wildlife 
refuge.
    Price's Dairy is one of the last undeveloped properties in the 
South Valley. Other properties have been developed around it, and it is 
one of the last remaining places to see birds and other wildlife close 
to our neighborhood and school. It is important to protect this 
property before it is lost.
    The property is next to the Rio Grande, one of New Mexico's 
greatest resources. The river supplies a lot of water for the people of 
New Mexico for drinking, for farming and ranching, and for the wildlife 
that live near it. The protection of the Price's Dairy property and its 
water rights will save water and make the river healthier.
    A refuge at Price's Dairy would also expand recreational and 
educational opportunities for students like us, the rest of the people 
in Albuquerque, and everyone who comes to visit. The refuge would host 
class trips, internships, and volunteer activities. It would be a place 
to learn about our natural surroundings in New Mexico:
  --the Rio Grande;
  --the mountains;
  --the desert; and
    the wildlife.
    There are many trails along the river, and the refuge would focus 
attention on the trails and increase their use.
    All of these recreation, tourism, and educational activities would 
help the economy of the South Valley. Most importantly, it would also 
do so in our own neighborhood in a place accessible to our families and 
schools and to the people who come to New Mexico to visit. The refuge 
would be the first urban national wildlife refuge in the Southwest.
    We know it will take time to create this refuge and to buy the land 
through the LWCF. We believe it is worth the time, because, if the 
refuge project is completed, we will have it, benefit from it, and take 
care of it for many years to come. It will then be around for our 
children when they are in high school.
    Thank you, Mr. Chairman, for the opportunity to present this 
written testimony from the Green Ravens of Rio Grande High School in 
support of the LWCF and the proposed Middle Rio Grande National 
Wildlife Refuge.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges the Congress to 
appropriate at least $1.2 billion for the U.S. Geological Survey (USGS) 
in fiscal year 2012. The USGS is one of the Nation's premier science 
agencies. It addresses many of society's greatest challenges, including 
mineral and energy resources, natural hazards, climate change, and 
water availability and quality. The USGS benefits every American every 
day. The magnitude 9.0 earthquake and tsunami that devastated Japan on 
March 11, 2011 emphatically demonstrates the value of robust natural 
hazards monitoring and warning systems and the need for increased 
funding for the USGS. Nevertheless, funding for the USGS has stagnated 
in real dollars for more than a decade.
    The GSA supports strong and growing budgets for the USGS. Increased 
Federal funding for Earth science is needed to stimulate innovations 
that fuel the economy, provide national security, and enhance the 
quality of life. The USGS has a unique combination of expertise and 
assets that enable it to address interdisciplinary research challenges 
that are beyond the capabilities of most other organizations.
    The GSA, founded in 1888, is a scientific society with more than 
24,000 members from academia, government, and industry in all 50 States 
and more than 90 countries. Through its meetings, publications, and 
programs, GSA advances the geosciences, enhances the professional 
growth of its members, and promotes the geosciences in the service of 
humankind. The GSA encourages cooperative research among Earth, life, 
planetary, and social scientists, fosters public dialogue on geoscience 
issues, and supports all levels of earth science education.
                               rationale
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
research pay substantial dividends. According to the National 
Academies' report Rising Above the Gathering Storm (2007), ``Economic 
studies conducted even before the information-technology revolution 
have shown that as much as 85 percent of measured growth in U.S. income 
per capita was due to technological change.'' In 2010, the National 
Academies issued an updated report, Above the Gathering Storm, 
Revisited, which says:

``It would be impossible not to recognize the great difficulty of 
carrying out the Gathering Storm recommendations, such as doubling the 
research budget, in today's fiscal environment, with worthy demand 
after worthy demand confronting budgetary realities. However, it is 
emphasized that actions such as doubling the research budget are 
investments that will need to be made if the Nation is to maintain the 
economic strength to provide for its citizens healthcare, social 
security, national security, and more. One seemingly relevant analogy 
is that a nonsolution to making an overweight aircraft flight-worthy is 
to remove an engine.''

    Likewise, the National Commission on Fiscal Responsibility and 
Reform, headed by Erskine Bowles and Alan Simpson, said:

``Cut and invest to promote economic growth and keep America 
competitive. We should cut red tape and unproductive Government 
spending that hinders job creation and growth. At the same time, we 
must invest in education, infrastructure, and high-value research and 
development to help our economy grow, keep us globally competitive, and 
make it easier for businesses to create jobs.''

    ``Earth science is a critical component of the overall science and 
technology enterprise. Growing support for Earth science in general and 
the USGS in particular are required to stimulate innovations that fuel 
the economy, provide security, and enhance the quality of life. Earth 
science provides knowledge and data essential for developing policies, 
legislation, and regulations regarding land, mineral, energy, and water 
resources at all levels of Government.''
  advancing science and scientific integrity at the department of the 
                             interior (doi)
    Science and scientific integrity advanced through the combination 
of two recent developments at the DOI. Secretary of the Interior Ken 
Salazar issued a new 5-year strategic plan that for the first time 
elevates science to 1 of 4 mission areas for the entire DOI. The DOI 
also adopted a comprehensive scientific integrity policy that sets 
clear expectations for all employees, including political appointees, 
public affairs officers, and scientists. These developments are cause 
for optimism. The GSA expects that the elevation of science to a 
mission area will guide investments and the allocation of resources 
that are reflected in the budget for the USGS.
                      broader impacts of the usgs
    The USGS is one of the Nation's premier science agencies. It 
addresses many of society's greatest challenges, including natural 
hazards, mineral and energy resources, climate change, and water 
availability and quality.
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, floods, droughts, wildfires, and hurricanes--remain 
        a major cause of fatalities and economic losses worldwide. A 
        failure to prevent natural hazards from becoming natural 
        disasters will increase future expenditures for disaster 
        response and recovery. Recent natural disasters provide 
        unmistakable evidence that the United States remains vulnerable 
        to staggering losses. The magnitude 9.0 earthquake and tsunami 
        that devastated Japan on March 11, 2011, the magnitude 7.0 
        earthquake that killed more than 200,000 people in Haiti on 
        January 12, 2010, and the small volcanic eruptions in Iceland 
        that disrupted global air traffic in April 2011, provide 
        compelling evidence that the United States needs better data to 
        inform further actions to reduce risks from natural hazards. An 
        improved scientific understanding of geologic hazards will 
        reduce future losses through better forecasts of their 
        occurrence and magnitude. We urge the Congress to increase 
        funding for the USGS to modernize and upgrade its natural 
        hazards monitoring and warning systems.
  --Energy and mineral resources are critical to the functioning of 
        society and to national security and have positive impacts on 
        local, national, and international economies and quality of 
        life. Improved scientific understanding of these resources will 
        allow for their better management and utilization, while at the 
        same time address economic and environmental issues. The USGS 
        assessments of mineral and energy resources--including rare 
        earth elements, unconventional natural gas resources, and 
        geothermal resources--are essential for making informed 
        decisions about the Nation's future. Widespread deployment of 
        new energy technologies can reduce greenhouse gas emissions, 
        mitigate climate change, and reduce dependence on foreign oil. 
        Minerals and energy are intertwined because many emerging 
        energy technologies--such as wind turbines and solar cells--
        depend on rare earth elements and critical minerals that 
        currently lack diversified sources of supply. China accounts 
        for 95 percent of world production of rare earth elements 
        although it has only 36 percent of identified world reserves 
        (USGS, 2010). A renewed Federal commitment to innovative 
        research, information, and education on mineral and energy 
        resources is needed to address these issues.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's history can 
        increase confidence in the ability to predict future states and 
        enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
  --The availability and quality of surface water and groundwater are 
        vital to the well-being of both society and ecosystems. Greater 
        scientific understanding of these critical resources--and 
        communication of new insights by geoscientists in formats 
        useful to decisionmakers--is necessary to ensure adequate and 
        safe water resources for the future.
  --Research in Earth science is also fundamental to training and 
        educating the next generation of Earth science professionals.
                           budget shortfalls
    President Obama's fiscal year 2012 budget request for the USGS is 
$1.118 billion, a decrease of $15 million or 1.3 percent below the USGS 
budget request for fiscal year 2011. Although there is a $6 million or 
0.5 percent increase in the total USGS budget request for fiscal year 
2012 compared to the fiscal year 2010 enacted level, the fiscal year 
2012 budget request contains $89.1 million in budget cuts in core 
science programs that would be offset by increases in other areas, 
including a $48 million increase in a new account for National Land 
Imaging. The proposed budget cuts would have significant negative 
impacts on the scientific capabilities of the USGS. Proposed reductions 
in the fiscal year 2012 USGS budget request include -$9.8 million for 
biological information management and delivery; -$9.6 million for 
mineral resources; -$8.9 million for National Water Quality Assessment; 
-$6.5 million for Water Resources Research Act Program; and -$4.7 
million for earthquake hazards. The GSA urges the Congress to 
appropriate at least $1.2 billion for the USGS in fiscal year 2012.
    It appears that responsibilities for Landsat satellites have been 
transferred from the NASA to the USGS without a corresponding transfer 
of budget authority. In the USGS budget request for fiscal year 2012, a 
$48 million increase for National Land Imaging would be offset by 
budget decreases for core USGS science programs. This trend cannot 
continue without compromising the mission of the USGS. Experience with 
other satellites indicates that the cost of operating Landsat is likely 
to rise significantly in future years with the launch of Landsat 8, 9, 
and 10.
    The USGS budget has been nearly stagnant in real dollars since 
1996. The USGS budget for fiscal year 2010 was below the USGS budget 
for fiscal year 2001 in real dollars. The decline in funding for the 
USGS during this time period would have been greater if the Congress 
had not repeatedly restored proposed budget cuts. Federal funding for 
non-Defense research and development has increased significantly while 
funding for the USGS stagnated for more than a decade. During this 
time, natural hazards, mineral and energy resources, and water 
availability and quality have become increasing important to the 
Nation.
                                 ______
                                 
         Prepared Statement of the Gathering Waters Conservancy
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) and the Forest Legacy Program 
(FLP) in the fiscal year 2012 Interior, environment, and related 
agencies appropriations bill. In an historic embrace of conservation, 
the President's budget request includes full funding of LWCF in fiscal 
year 2012. The proposed $900 million is the congressionally authorized 
amount for the program and seeks to renew focus on the promise of the 
LWCF: that it is right and wise to reinvest proceeds from offshore 
drilling receipts in the protection of natural resources and 
recreational access for all Americans. Of that $900 million, the 
President requested $135 million for FLP.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF and FLP 
will permanently pay dividends to the American people and to our great 
natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to LWCF and FLP in fiscal year 2012, 
the U.S. Forest Service (USFS) included funding requests for two 
projects in Wisconsin. First, $1 million was recommended for 
acquisitions in the Chequamegon-Nicolet National Forest as part of the 
Wisconsin Wild Waterways program. Second, $2.5 million was requested 
for the Chippewa Flowage project in FLP. I am pleased that this funding 
was included in the request and urge the Congress to provide the full 
President's budget amount for LWCF and FLP so that these important 
projects can receive this needed funding.
                     wisconsin wild waterways--lwcf
    The Chequamegon-Nicolet National Forest in northern Wisconsin 
boasts towering stands of balsam and spruce, diverse hardwood trees, 
and swamp forests with spruce, tamarack, and white cedar. These varied 
forest types are complimented by an abundance of lakes, rivers, and 
streams. The forest offers outstanding opportunities for diverse 
recreation, including hunting and fishing, hiking and camping, wildlife 
viewing, crosscountry skiing, bicycling, and snowmobiling.
    The 1.5 million-acre forest hosts thousands of visitors each year. 
Active outdoor recreation contributes more than $9.7 billion annually 
to the State's economy and supports 129,000 jobs. As a top destination 
for recreation, the Chequamegon-Nicolet National Forest provides an 
economic boost to Wisconsin while preserving its natural heritage.
    USFS has recognized the unique attributes of the Wisconsin forests 
by undertaking the Wisconsin Wild Waterways land protection program, 
supported through annual funding from the LWCF. The program focuses on 
consolidation of publicly owned land to benefit recreation and natural 
resources and to improve forest management. In the past few years, more 
than 10,000 acres of undeveloped shoreline along several critical lakes 
and streams have been protected through this program.
    In fiscal year 2012, there is an opportunity to support the LWCF 
acquisitions that would place valuable properties within the ownership 
of the USFS. Placing these inholdings in USFS ownership will ensure 
that they are managed to preserve their values as wildlife habitat, 
timber production and recreational amenities. The President's budget 
for fiscal year 2012 includes $1 million for the Wisconsin Wild 
Waterways Project at the Chequamegon-Nicolet National Forest. This will 
be a significant investment in a multi-year, multi-property 
conservation effort by Wisconsin's Board of Commissioners of Public 
Lands, The Nature Conservancy, and The Trust for Public Land.
                         chippewa flowage--flp
    The protection of 18,179 acres of forestlands within the 
checkerboard of public and private ownership is an exciting opportunity 
to create a unified area of 1 million protected acres that can support 
the local economy by preserving vast wildlife habitat, help climate 
mitigation and adaptation, ensure public access for recreation, and 
maintain sustainable forestry practices.
    The easement is an important opportunity to create a unified block 
of more than 1 million acres of protected forest and natural lands in 
the Chippewa Flowage watershed, which is an ecological gem. The 
Chippewa Flowage is one of the wildest lakes in Wisconsin, drawing 
recreationists from around the world for its fishing. More than 12,000 
acres within the flowage are managed jointly by the Wisconsin 
Department of Natural Resources, USFS, and the Lac Courte Oreilles Band 
of Lake Superior Chippewa (LCO). The western boundary of the easement 
property adjoins nearly 24,000 acres of primarily natural LCO tribal 
land.
    Many natural resources used by the LCO tribe traditionally and 
currently are found on the property and adjoining tribal lands, 
including birch and pole oak for wigwam poles, morel mushrooms, and 
abundant wildlife for trapping and hunting. Benefits for surrounding 
communities include water supply and watershed protection. The Village 
of Radisson's municipal water flows from parts of this property. The 
federally listed endangered Gray Wolf is known to frequent the 
property, which also contains State Species of Concern, State 
Threatened and State Endangered species.
    The Chippewa Flowage is a major tourist destination, helping to 
generate $8 million annually in Wisconsin from fishing, hunting and 
wildlife viewing. Public access on this property will continue to 
support the local economy. Forest-based recreation accounts for about 
$5.5 billion of the $14 billion spent on recreation in the State. The 
Wisconsin Northwoods is also a common destination for migratory and 
forest interior birdwatchers. If this property is not protected by an 
FLP easement, it will be divided and sold like other nearby 
timberlands.
    The property will also offer unique values for addressing climate 
change, as it holds important forestlands and wetlands containing large 
carbon stores that will help mitigate climate change. Carbon 
sequestration on the lands will be further enhanced by the sustainable 
forestry guidelines of the FLP easement.
    LWCF is our Nation's premier Federal program to acquire and protect 
lands at national parks, forests, refuges, and public lands and at 
State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation. FLP works 
with landowners, the States, and other partners to protect critical 
forestlands with important economic, recreation, water quality, and 
habitat resources through conservation easement and fee acquisitions. 
For several years this USFS program has been funded under the umbrella 
of the LWCF.
    Gathering Waters Conservancy's mission is to help land trusts, 
landowners and communities protect the places that make Wisconsin 
special. Our goal is to increase the amount of protected land in the 
State through private, voluntary action. Unlike any other organization, 
we accomplish our mission by promoting private, voluntary conservation 
action and strengthening Wisconsin land trusts. Gathering Waters 
Conservancy provides land trust services in three related ways:
  --we function to keep land trusts running smoothly, we help them 
        increase the pace and sustainability of their work;
  --we work on a nonpartisan, nonadversarial basis to advance policies 
        and programs that promote permanent, voluntary land 
        conservation and strengthen Wisconsin's land trust community; 
        and
  --finally we work to help land trusts become well-known and valued 
        community institutions. We aim to see land trusts strongly 
        supported and sought out as conservation leaders.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of these nationally important 
protection efforts in Wisconsin, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States (HSUS), 
      Humane Society Legislative Fund, and Doris Day Animal League
    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations with a combined membership of more than 11 million 
supporters nationwide. We urge the subcommittee to address these 
priority issues in the fiscal year 2012 Department of the Interior 
appropriation.
                        large constrictor snakes
    The HSUS commends the U.S. Fish and Wildlife Service (FWS) for 
proposing to list nine species of large constrictor snakes as 
``injurious'', which will prohibit importation and interstate movement 
of these animals as pets. A recent, comprehensive report by the U.S. 
Geological Survey showed these snakes all pose medium or high risk to 
our environment; none are low risk. While Burmese pythons and, to a 
lesser extent, boa constrictors have been established in Florida for 
some time, it appears that Northern African pythons are now breeding 
there as well. In other areas, releasing these animals to fend for 
themselves can lead to an inhumane death from starvation, dehydration, 
being struck by cars, or exposure to bitterly cold temperatures. The 
FWS must have the resources to respond quickly to prevent the spread of 
these species and establishment of new ones.
                 environmental protection agency (epa)
Endocrine Disruptor Screening Program
    Research focused on molecular screening has the potential to 
revolutionize toxicity testing improving both its efficiency as well as 
the quality of information available for human safety assessment in the 
Endocrine Disruptor Screening Program (EDSP). These ``next-generation 
tools'' will speed up the assessments of chemicals in the EDSP and 
reduce, and ultimately, replace animal use. We urge the subcommittee to 
incorporate the following report language:

    ``Recognizing ToxCast has great promise to streamline and 
significantly increase the throughput of the Endocrine Disruptor 
Screening Program (EDSP), the Committee directs EPA to accelerate the 
evaluation, validation and implementation of the endocrine-relevant 
ToxCast assays. The Agency shall devote $26,209,000 in fiscal year 2012 
to Office of Research and Development's Computational Toxicology 
Research, with a $5,000,000 increase over the fiscal year 2012 
Presidential Budget to be expressly devoted to validating ToxCast 
endocrine screening methods for the EDSP. This increase will be funded 
from the fiscal year 2012 Science and Technology account.
    ``EPA shall not issue EDSP Test Orders for additional substances 
until such time as 1) the EDSP List 1 test results have been collected, 
analyzed by EPA and poorly performing or redundant assays eliminated 
and replaced, if necessary, with valid ToxCast assays; and 2) the 
Agency uses a peer consultation process to revise the EDSP weight of 
the evidence guidance to assure a systematic and consistent approach 
for evaluating other scientifically relevant information and EDSP 
results. These two activities, led by the EPA office issuing EDSP List 
1 test orders, shall include public comment, independent scientific 
peer review, and publication of Agency responses before adoption by the 
Agency.''

                multinational species conservation fund
    The HSUS joins a broad coalition of organizations in requesting an 
increase over the administration's request for the Multinational 
Species Conservation Fund (MNSCF) and Wildlife Without Borders. The 
MNSCF was established by the Congress to benefit African and Asian 
elephants, rhinos, tigers, great apes, and marine turtles. The Congress 
has been very supportive of these programs in the past. Unfortunately 
in past years, the funding has been considerably less than the amounts 
necessary to carry out these valuable missions. We ask that you 
continue to support these highly threatened mammals and birds in fiscal 
year 2012 by appropriating $2 million each for the Asian elephant, 
African elephant, and marine turtle, $2.5 million for the Great Ape 
Conservation Funds, and $4 million for the combined Rhinoceros and 
Tiger Conservation Fund. We also request $7.4 million for the Wildlife 
Without Borders regional program. These numbers represent level funding 
for all of the Funds except Rhino-Tiger, which has a $1 million 
increase to bring it level with African and Asian elephants and marine 
turtles and to capitalize on commitments made at last year's Tiger 
Summit.
    While we wholeheartedly support increased funding for the MNSCF, we 
are concerned about past incidents and future opportunities for funds 
from these conservation programs to be allocated to promote trophy 
hunting, trade in animal parts, and other consumptive uses--including 
live capture for trade, captive breeding, and entertainment for public 
display industry--under the guise of conservation for these animals. 
Grants made to projects under the MNSCF must be consistent with the 
spirit of the law.
                        protection for walruses
    We urge this subcommittee to appropriate the necessary funds in 
fiscal year 2012 to permit the listing of the Pacific walrus, which has 
been placed on the candidate list for threatened or endangered status 
under the Endangered Species Act. The FWS recently found that listing 
the Pacific walrus was warranted, due primarily to threats the species 
faces from loss of sea ice in its arctic habitat as a result of climate 
change. Walruses are targeted by native hunters for subsistence; 
hundreds are killed annually, with this number climbing to as many as 
7,000 in some years. In some hunting villages, females and their calves 
are preferentially killed, against the recommendation of the FWS and 
standard management practice. By waiting to list the Pacific walrus, 
the species' likelihood of survival is in doubt. We encourage this 
subcommittee to direct the FWS to prioritize the Pacific walrus listing 
by immediately moving forward with the listing process.
     bureau of land management (blm)--wild horse and burro program
    The HSUS is one of the leading advocates for the protection and 
welfare of wild horses and burros in the United States with a long 
history of working collaboratively with the BLM--the agency mandated to 
protect America's wild horses and burros--on the development of 
effective and humane management techniques. Wild free-roaming horses 
and burros deserve first to be given every chance to live out their 
lives wild and free, as the American public has clearly mandated and 
the Congress has stated. When intervention is required, we owe them our 
best efforts to ensure that any human actions that affect their lives--
such as gathers, transportation, confinement, and adoption--are done in 
a way to assure their humane treatment.
    Therefore, the HSUS strongly supports a significant reduction in 
the number of wild horses and burros gathered and removed from our 
rangelands annually. We believe removing horses from the range without 
implementing any active program for preventative herd growth is 
unsustainable, and simply leads to a continual cycle of roundups and 
removals when more long-term, cost-efficient and humane management 
strategies, such as fertility control, are readily available.
    For years, the BLM has removed far more wild horses and burros from 
the range than it could possibly expect to adopt annually, and as a 
consequence, the costs associated with caring for these animals off the 
range have continued to skyrocket. For instance, between 2001 and 2007, 
the BLM removed approximately 74,000 (an average of about 10,600 
animals per year) from the range, but could only place 3,000 horses a 
year, with the rest forced into holding facilities. The annual costs 
associated with caring for one wild horse in a long-term holding 
facility is approximately $500, and the average lifespan of a wild 
horse in captivity is 30 years. There are approximately 40,600 horses 
in these pens currently. In the most recently completed fiscal year 
(2010), holding costs accounted for $36.9 million out of a total wild 
horse and burro budget of $63.9 million (plus an additional $2.1 
million in 2009 ``carryover'' funding).
    We are encouraged by the BLM's recent announcement (referenced in 
the agency's fiscal year 2012 budget justifications) \1\ regarding the 
agency's intent to open ``a new chapter in the management of wild 
horses, burros, and our public lands'' by fast-tracking ``fundamental 
reforms'' to its current policies and procedures. Specifically, the 
agency announced that it would strengthen its commitment to the use of 
fertility control by significantly increasing the number of mares 
treated with fertility control--from 500 in 2009, to a target of 2,000 
in each of the next 2 years. This represents a huge step in the right 
direction.
---------------------------------------------------------------------------
    \1\ Bureau of Land Management 2012 Budget Justifications (Page IV 
66-67) http://www.doi.gov/budget/2012/data/greenbook/FY2012--BLM--
Greenbook.pdf
---------------------------------------------------------------------------
    The idea of using fertility control to efficiently manage wild 
horses and burros on the range is nothing new, and one that we have 
been actively supporting and involved with for several decades. As 
early as 1982, the National Academy of Sciences (NAS) called on the BLM 
to use immunocontraception to manage wild horse and burro populations, 
finding it an effective technology and part of a pro-active management 
strategy. And in its 1990 report on the BLM's wild horse management 
program, the U.S. Government Accountability Office (GAO) found then 
that keeping excess animals in long-term holding was costly and 
recommended that BLM examine alternatives, such as treating animals 
with reproductive controls and releasing them back on the range.\2\ 
Further, a 2008 paper determined that contraception on-the-range could 
reduce total wild horse and burro management costs by 14 percent, 
saving $6.1 million per year.\3\ Finally, the results of an economic 
model commissioned by The HSUS indicates that by treating wild horses 
and burros with the fertility control vaccine Porcine Zona Pellucida, 
the BLM would save approximately $204 million over 12 years while 
achieving and maintaining Appropriate Management Levels on wild horse 
Herd Management Areas in the United States.
---------------------------------------------------------------------------
    \2\ GAO, Rangeland Management: Improvements Needed in Federal Wild 
Horse Program, GAO/RCED-90-110 (Washington D.C.: Aug. 20, 1990).
    \3\ Bartholow, J. 2007. Economic benefit of fertility control in 
wild horse populations. J. Wildl. Mgmt. 71(8):2811-2819.
---------------------------------------------------------------------------
    However, even with a significant increase in the number of mares 
treated and released back onto the range, by the end of fiscal year 
2012, the BLM plans to remove an additional 15,000 wild horses from our 
public lands. Since there are already 40,600 wild horses and burros 
living in Government holding facilities today--and, on average, the 
agency is only able to find homes for approximately 3,000 animals a 
year--by 2012, there could be more than 50,000 animals in captivity. 
That's almost twice the number of wild horses and burros living on our 
public lands today, and as a result, the cost of caring for these 
animals off the range could more than double in a just a few years.
    The BLM must balance the number of animals removed from the range 
annually with the number of animals it can expect to adopt in a given 
year if it hopes to effectively reduce off-the-range management costs. 
Therefore, while we support the BLM's efforts to increase the use of 
fertility control to manage wild horse herds, we strongly recommend 
that the subcommittee deny the $12 million budget increase that the BLM 
has requested, and instead, direct the agency to focus all spending on 
gather, treat, and release programs and the proper care of horses in 
its custody rather than continuing with a removal program that further 
floods Government pens with wild horses.
    Again, we commend the Secretary and the BLM for taking critical 
steps towards a more sustainable wild horse management program and 
believe the subcommittee's guidance and support for humane and 
sustainable management will further the implementation of a program 
that will be of great benefit not only to our Nation's beloved wild 
horse populations, but also to the American taxpayer.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Gregory E. Conrad and I am Executive Director of the 
Interstate Mining Compact Commission (IMCC). I appreciate the 
opportunity to present this statement to the Subcommittee on the 
Interior, Environment, and Related Agencies regarding the views of the 
Compact's member States on the fiscal year 2012 budget request for the 
Office of Surface Mining Reclamation and Enforcement (OSM) within the 
U.S. Department of the Interior. In its proposed budget, OSM is 
requesting $60.3 million to fund title V grants to States and Indian 
tribes for the implementation of their regulatory programs, a reduction 
of $11 million or 15 percent below the fiscal year 2010 enacted/fiscal 
year 2011 continuing resolution level. OSM also proposes to cut 
discretionary spending for the title IV abandoned mine land (AML) 
program by approximately $6.8 million, including the elimination of 
funding for the emergency program, and a reduction in mandatory AML 
spending by $184 million pursuant to a legislative proposal to 
eliminate all AML funding for certified States and tribes.
    The Compact is comprised of 24 States that together produce some 95 
percent of the Nation's coal, as well as important noncoal minerals. 
The Compact's purposes are to advance the protection and restoration of 
land, water, and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources, and to assist in achieving and 
maintaining an efficient, productive, and economically viable mining 
industry.
    OSM has projected an amount of $60.3 million for title V grants to 
States and tribes in fiscal year 2012, an amount which is matched by 
the States each year. These grants support the implementation of State 
and tribal regulatory programs under the Surface Mining Control and 
Reclamation Act (SMCRA) and as such are essential to the full and 
effective operation of those programs.
    In fiscal year 2010, the Congress approved an additional $5.8 
million increase for State title V grants over the fiscal year 2009 
enacted level, for a total of $71.3 million. This same amount was 
approved for fiscal year 2011. For the first time in many years, the 
amount appropriated for these regulatory grants aligned with the 
demonstrated needs of the States and tribes. The States are greatly 
encouraged by the significant increases in title V funding approved by 
the Congress over the past 3 fiscal years. Even with mandated 
rescissions and the allocations for tribal primacy programs, the States 
saw a $12 million increase for our regulatory programs over fiscal year 
2007 levels. As we noted in our statement on last year's budget, State 
title V grants had been stagnant for more than 12 years and the gap 
between the States' requests and what they received was widening. This 
debilitating trend was compounding the problems caused by inflation and 
uncontrollable costs, thus undermining our efforts to realize needed 
program improvements and enhancements and jeopardizing our efforts to 
minimize the potential adverse impacts of coal extraction operations on 
people and the environment.
    In its fiscal year 2012 budget, OSM has once again attempted to 
reverse course and essentially unravel and undermine the progress made 
by the Congress in supporting State programs with adequate funding. 
This comes at precisely the wrong time. The States are still in the 
process of putting the recent improvements in funding to work in their 
programs through the filling of vacant positions and the purchase of 
much needed equipment. As States prepare their future budgets, we trust 
that the recent increases approved by the Congress will remain the new 
base on which we build our programs. Otherwise we find ourselves 
backpedaling and creating a situation where those who were just hired 
face layoffs and purchases are canceled or delayed. Furthermore, a 
clear message from the Congress that reliable, consistent funding will 
continue into the future will do much to stimulate support for these 
programs by State legislatures and budget officers who each year, in 
the face of difficult fiscal climates and constraints, are also dealing 
with the challenge of matching Federal grant dollars with State funds. 
In this regard, it should be kept in mind that a 15 percent cut in 
Federal funding generally translates to an additional 15 percent cut 
for overall program funding for many States, especially those without 
Federal lands, since these States can only match what they receive in 
Federal money.
    OSM's solution to the drastic cuts for State regulatory programs 
comes in the way of an unrealistic assumption that the States can 
simply increase user fees in an effort to ``eliminate a de facto 
subsidy of the coal industry.'' No specifics on how the States are to 
accomplish this far-reaching proposal are set forth, other than an 
expectation that they will do so in the course of a single fiscal year. 
OSM's proposal is completely out of touch with the realities associated 
with establishing or enhancing user fees, especially given the need for 
approvals by State legislatures. IMCC's recent polling of its member 
States confirmed that, given the current fiscal and political 
implications of such an initiative, it will be difficult, if not 
impossible, for most States to accomplish this feat at all, let alone 
in less than 1 year. OSM is well aware of this, and yet has every 
intention of aggressively moving forward with a proposal that was 
poorly conceived from its inception. We strongly urge the subcommittee 
to reject this approach and mandate that OSM work through the 
complexities associated with any future user fees proposal in close 
cooperation with the States and tribes before proposing cuts to Federal 
funding for State title V grants.
    At the same time that OSM is proposing significant cuts for State 
programs, the agency is proposing sizeable increases for its own 
program operations ($4 million) for Federal oversight of State 
programs, including an increase of 25 FTEs. OSM justifies this increase 
based on its ``new strategic direction'', i.e., expanded and enhanced 
oversight of State regulatory programs and strengthened stream 
protections to maintain the hydrologic balance of watersheds pursuant 
to the June 2009 Memorandum of Understanding with the U.S. Army Corps 
of Engineers and the Environmental Protection Agency (EPA). However, as 
we have articulated on numerous occasions over the past 18 months in 
comments submitted to the agency, OSM has never fully explained or 
justified the basis for these new directions. In fact, OSM's annual 
oversight reports indicate that, in general, the States are doing a 
commendable job of implementing their programs.
    In making the case for its funding increase, OSM's budget 
justification document contains vague references to the need for 
improvement in approximate original contour (AOC) compliance and re-
evaluation of bonding procedures in 10 States with respect to bond 
adequacy. OSM also notes a marked increase in the number of potential 
violations pursuant to enhanced Federal oversight inspections during 
fiscal year 2010. However, when placed in context, neither of these two 
explanations justifies the significant increase in funding for Federal 
operations. Increasing the number of Federal inspections can logically 
be expected to generate more Ten-Day Notices, especially where State 
regulatory authorities are not invited to accompany Federal inspectors 
(as required by OSM's own regulations). The oversight process can also 
be expected to identify areas of potential program improvement, 
especially where OSM has designated certain areas for more intensive, 
nationwide review, as it did in fiscal year 2010 with regard to AOC and 
bond adequacy. Again, the overall performance of the States as detailed 
in OSM's annual oversight reports demonstrates that the States are 
implementing their programs effectively and in accordance with the 
purposes and objectives of SMCRA.
    In our view, this suggests that OSM is adequately accomplishing its 
statutory oversight obligations with current Federal program funding, 
and that any increased workloads are likely to fall upon the States, 
which have primary responsibility for implementing appropriate 
adjustments to their programs identified during Federal oversight. In 
this regard, we note that the Federal courts have made it abundantly 
clear that SMCRA's allocation of exclusive jurisdiction was ``careful 
and deliberate'' and that the Congress provided for ``mutually 
exclusive regulation by either the Secretary or State, but not both.'' 
Bragg v. West Virginia Coal Ass'n, 248 F. 3d 275, 293-4 (4th Cir. 
2001), cert. Denied, 534 U.S. 1113 (2002). While the courts have ruled 
consistently on this matter, the question remains for the Congress and 
the administration to determine, in light of deficit reduction and 
spending cuts, how the limited amount of Federal funding for the 
regulation of surface coal mining and reclamation operations under 
SMCRA will be directed--to OSM or the States. For all the above 
reasons, we urge the Congress to approve not less than $71 million for 
State and tribal title V regulatory grants, as fully documented in the 
States' and tribes' estimates for actual program operating costs.
    With regard to funding for State title IV Abandoned Mine Land (AML) 
program grants, congressional action in 2006 to reauthorize title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State title IV 
grants are funded primarily by mandatory appropriations. As a result, 
the States should have received a total of $498 million in fiscal year 
2012. Instead, OSM has budgeted an amount of $313.8 million based on an 
ill-conceived proposal to eliminate mandatory AML funding to States and 
tribes that have been certified as completing their abandoned coal 
reclamation programs. This $184.2 million reduction flies in the face 
of the comprehensive restructuring of the AML program that was passed 
by the Congress in 2006, following more than 10 years of congressional 
debate and hard fought compromise among the affected parties. In 
addition to the elimination of funding for certified States and tribes, 
OSM is also proposing to reform the distribution process for the 
remaining reclamation funding to allocate available resources to the 
highest-priority coal AML sites through a competitive grant program, 
whereby an Advisory Council will review and rank AML sites each year. 
While we have not seen the details of the proposal, which will require 
adjustments to SMCRA, it will clearly undermine the delicate balance of 
interests and objectives achieved by the 2006 amendments. It is also 
inconsistent with many of the goals and objectives articulated by the 
administration concerning both jobs and environmental protection, 
particularly stream quality. We urge the Congress to reject this 
unjustified proposal, delete it from the budget and restore the full 
mandatory funding amount of $498 million. In this regard, we endorse 
the testimony of the National Association of Abandoned Mine Land 
Programs (NAAMLP), which goes into greater detail regarding the 
implications of OSM's legislative proposal for the States.
    We also urge the Congress to approve continued funding for the AML 
emergency program. In a continuing effort to ignore congressional 
direction, OSM's budget would completely eliminate funding for State-
run emergency programs and also for Federal emergency projects (in 
those States that do not administer their own emergency programs). When 
combined with the great uncertainty about the availability of remaining 
carryover funds, it appears that the program has been decimated. 
Funding the OSM emergency program should be a top priority for OSM's 
discretionary spending. This funding has allowed the States and OSM to 
address the unanticipated AML emergencies that inevitably occur each 
year. In States that have federally operated emergency programs, the 
State AML programs are not structured or staffed to move quickly to 
address these dangers and safeguard the coalfield citizens whose lives 
and property are threatened by these unforeseen and often debilitating 
events. And for minimum program States, emergency funding is critical 
to preserve the limited resources available to them under the current 
funding formula. We therefore request that the Congress restore funding 
for the AML emergency program in OSM's fiscal year 2012 budget.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as the EPA's 319 program. Until fiscal year 2009, 
language was always included in OSM's appropriation that encouraged the 
use of these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of acid 
mind drainage (AMD) from abandoned mines. This is a perennial, and 
often expensive, problem, especially in Appalachia. IMCC therefore 
requests the subcommittee to once again include language in the fiscal 
year 2012 appropriations bill that would allow the use of AML funds for 
any required non-Federal share of the cost of projects by the Federal 
government for AMD treatment or abatement.
    We also urge the subcommittee to support funding for OSM's training 
program, including moneys for State travel. These programs are central 
to the effective implementation of State regulatory programs as they 
provide necessary training and continuing education for State agency 
personnel. In this regard, it should be noted that the States provide 
nearly one-half of the instructors for OSM's training course and, 
through IMCC, sponsor and staff benchmarking workshops on key 
regulatory program topics. IMCC also urges the subcommittee to support 
funding for TIPS, a program that directly benefits the States by 
providing critical technical assistance. Finally, we support funding 
for the Watershed Cooperative Agreements in the amount of $1.55 
million.
                                 ______
                                 
     Prepared Statement of the Independent Tribal Court Review Team
    Thank you for the opportunity to testify today and to address the 
serious funding shortages that have limited and continue to hinder the 
operations of tribal judicial systems in Indian country. I serve as the 
lead judge representing the Independent Tribal Court Review Team 
(ITCRT). For the past 5 years, the ITCRT has conducted an assessment of 
approximately 73 tribal courts systems, including analysis of staffing 
and resources. We thank this subcommittee for the additional $10 
million funding in fiscal year 2010. These funds were a blessing to 
tribes. Even minimal increases were put to good use. It is the strong 
recommendation of the ITCRT that the Federal tribal courts budget be 
substantially increased in fiscal year 2012 to support the needs of 
tribal judicial systems.
            budget priorities, requests and recommendations
    A $10 million increase for tribal courts above the fiscal year 2010 
enacted level.
    A $58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 U.S.C. 3601 and reauthorized in year 2000, 
Public Law 106-559 (no funds have been appropriated to date).
    The increase funding will support the:
  --Hiring and training of court personnel;
  --Compliance with the 2010 Tribal Law and Order Act;
  --Salary increases for existing judges and court personnel;
  --State-of-the-art technology for tribal courts;
  --Security and security systems to protect court records and privacy 
        of case information;
  --Tribal court code development; and
  --Financial code development.
                               background
    The Bureau of Indian Affairs (BIA) within the Department of the 
Interior provides funding to tribal governments to supplement their 
justice systems including courts. Tribal courts play a ``vital role'' 
in tribal self-determination and self-governance as cited in long-
standing Federal policy and acts of the Congress. Funding levels from 
the BIA to support tribal justice systems have not kept up with the 
Federal obligations and responsibilities.
    For the past 5 years, the ITCRT has been traveling throughout 
Indian country assessing how tribal courts are operating. During this 
time, we have completed approximately 73 court reviews. There is no one 
with more hands-on experience and knowledge regarding the current 
status of tribal courts than the ITCRT.
    We have come into contact with every imaginable composition of 
tribe: large and small; urban and rural; and wealthy and poor. What we 
have not come into contact with is any tribe whose court system is 
operating with financial resources comparable to other local and State 
jurisdictions.
                       justification for request
    Hiring and Training of Court Personnel.--Tribal courts make do with 
underpaid staff, underexperienced staff, and minimal training. (We have 
determined that hiring tribal citizens limits the inclination of staff 
to move away; a poor excuse to underpay staff.)
    Compliance With the 2010 Tribal Law and Order Act.--To provide 
judges, prosecutors, public defenders, who are attorneys and who are 
bared to do ``enhanced sentencing'' in tribal courts.
    Salary Increases for Existing Judges and Court Personnel.--Salaries 
should be comparable to local and State court personnel to keep pace 
with the nontribal judicial systems and be competitive to maintain 
existing personnel.
    Tribal Courts Need State-of-the-Art Technology--(Software, 
Computers, Phone Systems, Tape Recording Machines, etc.).--Many tribes 
cannot afford to purchase or upgrade existing court equipment unless 
they get a grant. This is accompanied by training expenses and 
licensing fees which do not last after the grant ends.
    Security and Security Systems To Protect Court Records and Privacy 
of Case Information.--Most tribal courts do not even have a full-time 
bailiff, much less a state-of-the-art security system that uses locked 
doors and camera surveillance. This is a tragedy waiting to happen.
    Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic 
development, and code development does not take priority. Tribes make 
do with under-developed codes. The Adam Walsh Act created a hardship 
for tribes who were forced to develop codes, without funding, or have 
the State assume jurisdiction. (States have never properly overseen law 
enforcement in a tribal jurisdiction.)
    Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.
                          tribal courts review
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to 
allocate funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian country are judges automatically fired 
for decisions against the legislature.
    Our research indicates tribal courts are at a critical stage in 
terms of need. Nationwide, there are 184 tribes with courts that 
received $24.7 million in Federal funding in 2010.
    Assessments have indicated that the BIA only funds tribal courts at 
26 percent of the resources needed to operate. Tribes who have 
successful economic development ventures generally subsidize their 
tribal courts. On the flip side, tribes who cannot afford to assist in 
the financial operations of the court are tasked with doing the best 
they can with what they have even at the expense of decreasing or 
eliminating services elsewhere. All this while operating at a 
disadvantage with already overstrained resources and underserved needs 
of the tribal citizens. The assessment suggests that the smaller courts 
are both the busiest and most underfunded.
    The grant funding from the Department of Justice (DOJ) is intended 
to be temporary. However, we have found that it is often used for 
permanent needs such as funding a drug court clerk who then is used as 
a court clerk with drug court duties. When the DOJ funding runs out, so 
does the permanent position. We have witnessed many failed drug courts, 
failed court management software projects (due to training costs), and 
incomplete code development projects. When the DOJ funding runs out, so 
does the project.
    As a directive from the Office of Management and Budget, our 
reviews specifically examined how tribes were using Federal funding. In 
the last 5 fiscal years through fiscal year 2010, there were only two 
isolated incidents of a questionable expenditure of Federal funds. It 
is speculated that because of our limited resources, we compromise 
one's due process and invoke ``speedy trials'' violations to save 
tribal courts money. Everyone who is processed through the tribal 
judicial system is afforded their constitutional civil liberties and 
civil rights.
    We do not wish to leave an entirely negative impression about 
tribal courts. It is true that tribal courts need an immediate, 
sustained, and increased level of funding. However, as we have noted, 
there are strong indications that the courts will put such funding to 
good use.
    There are tribes like the Fort Belknap Tribe of Montana whose chief 
judge manages both offices and holds court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    There are several courts where the roofs leak when it rains and 
those court houses cannot be fixed due to lack of sufficient funds. The 
ITCRT took pictures of those damaged ceilings for the BIA hoping to 
have additional funds for the tribes to fix the damaged ceilings.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts offer jury trials. In many courts, one sustained jury trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many tribal courts have defense advocates. These advocates 
are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in court budgets, and if 
the defense advocate or prosecutor should leave, the replacement 
process is slow.
    I come here today to tell the Congress these things. We feel it is 
our duty to come here on behalf of tribes to advocate for better 
funding. Tribes ask us to tell their stories. They open their files and 
records to us and say, ``We have nothing to hide''. Tell the Congress 
we need better facilities, more law enforcement, more detention 
facilities, more legal advice, better codes, etc. The list goes on and 
on. But, as we have indicated, it all involves more funding. This 
Congress and this administration can do something great. We 
respectfully request that funding be invested in our tribal courts to 
fulfill and meet the promises that have been made.
                           national requests
    We support the requests and recommendations of the National 
Congress of American Indians.
    In closing and on behalf of the ITCRT; Charles D. Robertson Jr., 
Honorable Philip D. Lujan, Myrna R. Rivera, and myself, we thank you 
for the opportunity to provide these requests and recommendations.
                                 ______
                                 
         Prepared Statement of the Inter Tribal Buffalo Council
                      introduction and background
    My name is Ervin Carlson; I am a member of the Blackfeet Nation in 
Montana and the president of the Inter Tribal Buffalo Council (ITBC), 
formerly the Inter Tribal Bison Cooperative. Please accept my sincere 
appreciation for this opportunity to submit written testimony to the 
honorable members of the Senate Committee on Appropriations; 
Subcommittee on the Interior, Environment, and Related Agencies. The 
ITBC has recently become a federally charted Indian Organization under 
section 17 of the Indian Reorganization Act and is headquartered in 
Rapid City, South Dakota. The ITBC is comprised of 56 federally 
recognized Indian tribes in 19 States.
    On behalf of the member tribes of the ITBC I would like to address 
the following issues:
  --request an appropriation of $3 million for fiscal year 2012 from 
        the Department of the Interior (DOI), Bureau of Indian Affairs 
        (BIA), and Operation of Indian Programs to continue our 
        restoration effort; to continue to provide highly qualified 
        technical assistance; implement our marketing initiative; and 
        to continue our health initiative which utilizes buffalo to 
        treat and prevent diet-related diseases among Native Americans;
  --explain to the subcommittee the unmet needs of the members of the 
        ITBC; and
  --update the subcommittee on the present initiatives of the ITBC.
    The American buffalo, also known as bison, has always held great 
meaning for American Indian people. The buffalo provided the tribes 
with food, shelter, clothing, and essential tools. In the 1800's, the 
Whiteman recognized the reliance Indian tribes had on the buffalo. Thus 
began the systematic destruction of the buffalo to try to subjugate the 
tribal nations. The slaughter of more than 60 million buffalo left only 
a few hundred buffalo remaining.
    Indian people developed a strong spiritual and cultural 
relationship with the buffalo that has not diminished with the passage 
of time. To Indian people, buffalo represent their spirit and remind 
them of how their lives were once lived, free and in harmony with 
nature. It is this connection that caused multiple tribes to come 
together to organize the ITBC with the mission of preserving the sacred 
relationship between Indian people and the buffalo through restoring 
buffalo to tribal lands. The ITBC envisioned the restoration of buffalo 
on tribal lands would foster sustainable economic development that 
would be compatible with each of the tribal cultures. The land bases of 
most tribal reservations is unsuitable for farming or raising livestock 
but this marginal land is ideal for raising buffalo who have lived in 
this ecosystem for thousands of years. The ITBC received funds in 1992 
and began their restoration efforts.
    Federal appropriations have allowed the ITBC to successfully 
restore buffalo to more than 50 reservations on more than 1 million 
acres of trust land, thereby preserving the sacred relationship between 
Indian people and the buffalo. The respect that Indian tribes have 
maintained for the buffalo has fostered a very serious, high level of 
commitment by the ITBC member tribes for successful buffalo herd 
development. With healthy, viable buffalo herds, opportunities now 
exist for tribes to utilize buffalo for prevention and treatment of the 
diet-related diseases that gravely impact Native American populations 
such as diabetes, obesity, cardiovascular disease, and others. Viable 
buffalo herds also offer tribes the opportunity to develop sustainable 
economic development projects surrounding the buffalo. The primary 
focus of the ITBC is to help develop tribal herds that are able to 
provide a wholesome healthy meat product to the tribal members while 
remaining economically viable in the reservation landscape. This will 
allow the tribes to utilize a culturally relevant resource in a manner 
that is compatible with their spiritual and cultural beliefs and 
patterns as a means to achieve self-sufficiency.
                            funding request
    The ITBC respectfully requests an appropriation for fiscal year 
2012 in the amount of $3 million. This amount would restore the ITBC 
funding to the fiscal year 2006 appropriation level and will greatly 
enhance our ability to successfully accomplish tribal goals and 
objectives. This request will help balance our continuing growth in 
membership with our funding level. The $3 million funding level would 
restore vital funding that was cut in fiscal year 2007, by the previous 
administration, and has not been restored. Our requested funding level 
of $3 million will allow our member tribes to continue their successful 
restoration efforts, to restore our marketing initiative and to restore 
the health initiative for the prevention and treatment of diet-related 
diseases among Native American populations, while simultaneously 
building economic sustainability for the tribal projects.
                    funding shortfall and unmet need
    In fiscal year 2006, the ITBC and its member tribes were funded 
through appropriations at $4,150,000. The President's budget in fiscal 
year 2007 and fiscal year 2008 eliminated funding for the ITBC. The 
ITBC was funded $1 million in fiscal year 2007 through a congressional 
earmark appropriation. In fiscal year 2008, the ITBC received $1 
million from the BIA for herd development grants to tribes only. In 
fiscal year 2009, the ITBC was received $1 million through a 
congressional earmark appropriation in the DOI, BIA budget and 
$421,0000 for the ITBC administration from the BIA fiscal year 2008 
carryover funds. In fiscal year 2010, the ITBC was in the BIA budget at 
the level of $1.4 million. In fiscal year 2011, the ITBC was included 
in the Presidents budget for $1.4 million through the BIA. Reductions 
in funding critically impacted the ITBC's successful Marketing Program 
and Health Initiative to address diet-related health problems epidemic 
on most reservations in a manner that would provide economic stability 
to the tribal programs.
    Without the restoration of funding close to the fiscal year 2006 
level, new member tribes will not receive adequate funding to begin 
buffalo restoration efforts. Tribes that have successfully restored 
buffalo to tribal lands will not receive adequate technical assistance 
and resource development funds to ensure the sustainability of existing 
herds. Furthermore, the investment made by the Congress in fiscal year 
2006 toward the ITBC's healthcare initiative has been cut to the point 
of almost being nonexistent. This was designed to utilize buffalo for 
prevention and treatment of diet-related diseases among Native American 
populations.
    The ITBC is structured as a member cooperative and 100 percent of 
the appropriated funds are expended on the development and support of 
tribal buffalo herds and buffalo product business ventures. The ITBC 
funding is distributed to the ITBC member tribes via a Herd Development 
Grant Program developed by the consensus of the members. The ITBC 
surveys member tribes annually to determine unmet project needs and 
currently the total unmet needs for the ITBC member tribe's projects is 
$10 million. The Tribal Bison Project Proposal summaries that detail 
the ITBC member tribes projects and financial needs are on file with 
the ITBC and available for your review.
                     the itbc goals and initiatives
    The goal of the ITBC is restoration of buffalo to Indian lands for 
tribes to utilize in their day to day lives in a manner that promotes 
sustainable economic development. The ITBC's ultimate goal is for 
tribal buffalo herds to achieve sustainability and become a daily part 
of tribal life through an increased presence in the diets of tribal 
members.
Economic Development
    In 1991, seven Indian tribes had small buffalo herds numbering less 
than 1,600 animals. The buffalo provided little or no economic benefit 
to the tribal owners. The ITBC has proven extremely successful at 
buffalo restoration in its 15 years of existence. Today, with the 
support and technical assistance of the ITBC and its fellow member 
tribes, 57 Indian tribes are engaged in raising buffalo or developing 
plans to raise buffalo and incorporate them into their daily lives. The 
ITBC and the member tribes have restored approximately 15,000 buffalo 
back to tribal lands for use by the tribes and their members.
    Many of these tribal buffalo programs have developed herds large 
enough to justify plans for marketing products as a step toward self-
sufficiency. Because of the depressed economies on the reservations, 
jobs are scarce. Buffalo restoration efforts on the reservations have 
created hundreds of direct and indirect jobs relating to buffalo 
management and production. As a result, a significant amount of revenue 
derived from buffalo products circulates through Indian reservation 
economies.
    However, tribes must have the resources to build solid foundations 
for this new industry to become fully self-sufficient and maintain 
sustainable buffalo herds. The ITBC provides critical technical 
assistance to member tribes that have developed sustainable management 
and infrastructure development plans. Additionally, the ITBC provides 
training curriculum for the newly created jobs and marketing plans as 
tribal herds reach marketing capabilities. The ITBC has commenced 
implementation of a marketing initiative to provide member tribes with 
viable marketing options for utilization of buffalo as economic 
development efforts. This marketing initiative is in an infancy stage 
and renewed funding is critical to achieve success.
Tribal Buffalo Marketing Initiative
    The ITBC member tribes face a multitude of obstacles when trying to 
get their buffalo to market. The remoteness of the reservations means 
having to transport buffalo long distances to processing plants and 
this results in higher operating costs. The quality of meat is also 
negatively impacted by introducing an increased amount of stress on the 
buffalo. Further compounding the problem is the reluctance of some 
processing plants to process range-fed buffalo and the requirements of 
some buyers that animals be corn finished in a feedlot situation. Some 
buyers also require USDA certification which means USDA-inspected 
processing plants must be used which increases transport time. The ITBC 
believes this lack of a constant supply chain that is cost effective is 
what is limiting the economic development of tribal buffalo herds.
    The ITBC has assisted the Gros Ventre and Assiniboine Tribes of the 
Fort Belknap Indian Community in northern Montana with the development 
of a meat-packing facility acquired by the tribe in Malta, Montana. 
They have also begun to operate a smoke house in addition to the 
packing plant. The ITBC has assisted the Cheyenne River Sioux Tribe in 
South Dakota with operation of their meat-packing facility. The ITBC 
has provided assistance to the Ponca Tribe of Nebraska for a tannery 
that the tribe has started to produce brain tanned hides. The ITBC is 
currently providing buffalo for the USDA AMS solicitation for ground 
bison for inclusion in the Food Distribution Program for Indian 
Reservations (FDPIR). The ITBC believes the creation of locally driven, 
regional marketing plans will help to overcome the remoteness of the 
reservations. Tribally owned processing plants would decrease the 
transportation time and increased cold storage capacity would also be 
very beneficial to ensuring a consistent supply of product for 
marketing ventures. The ITBC will provide technical assistance in the 
areas of meat processing, cold storage facility development, processing 
plant enhancement, development of distribution and supply systems for 
buffalo meat and by-products and development of a cooperative brand 
name with standards and labeling guarantees for Native American 
produced buffalo.
Preventive Health Care Initiative
    The ITBC is committed to providing buffalo meat to Indian 
reservation families both as an economic development effort for Native 
American producers and, more critically, as a healthy food to 
reintroduce into the diets of Native American populations. Current 
research indicates that the diet of most Indian reservation families 
includes large amounts of high cholesterol, processed meats that 
contribute to diabetes, obesity, cardiovascular disease and other diet-
related illnesses.
    The ITBC member tribes has just commenced preventive healthcare 
initiatives with fiscal year 2006 funding that provided easy access to 
buffalo meat on Indian reservations and educated Indian families on the 
health benefits of range-fed buffalo meat. The decrease in funding led 
to the elimination of the majority of the program with only the 
educational program still in existence. A restoration of the funds will 
allow the program to operate at the fiscal year 2006 level.
    Generally, buffalo meat is not sold in small quantities at the 
reservation grocery and convenience stores which leaves Indian families 
with few alternatives to the high-fat, high cholesterol, processed 
meats stocked in reservation stores. Buffalo meat, if available, is 
usually priced out of the affordable price range of the tribal 
families. The ITBC seeks to remedy this concern by providing buffalo 
meat in family sized quantities to reservation markets and interact 
with the Federal food programs. The ITBC will work with Federal food 
programs to make buffalo meat available through the local school 
systems and local community health networks working on addressing 
diabetes and other health issues.
                               conclusion
    In 2012, the ITBC will have been in existence for 20 years 
assisting its member tribes to restore buffalo to their native lands 
for cultural purposes and working toward economic development for herd 
sustainability. The ITBC will continue to provide technical assistance 
and funding to its member tribes to facilitate the development of 
sustainable buffalo herds.
    The ITBC and its member tribes have created a new reservation 
industry, tribal buffalo production, resulting in new money for 
reservation economies. In addition, the ITBC continues to support 
methods to market buffalo meat by providing easy access to meat on the 
reservations and education efforts about the health benefits buffalo 
meat can bring to the native diet. The ultimate goal is to restore the 
tribal herds to a size large enough to support the local health needs 
of the tribal members and also generate revenue through a cooperative 
marketing effort to achieve economic self-sufficiency.
    The ITBC and it member tribes are appreciative of past and current 
support from the Congress and the administration. I urge the 
subcommittee to consider restoring the ITBC funding close to the fiscal 
year 2006 level of $3 million, which will allow the ITBC to continue 
the restoration efforts and restore the marketing and health initiative 
program started in fiscal year 2006.
    I would like to thank this subcommittee for the opportunity to 
present testimony and the members of the ITBC invite the honorable 
members of the subcommittee to visit our tribal buffalo projects and 
experience first hand their successes.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    The Izaak Walton League of America appreciates the opportunity to 
submit testimony for the record concerning appropriations for fiscal 
year 2012 for various agencies and programs under the jurisdiction of 
the subcommittee. The League is a national, nonprofit organization with 
38,000 members and more than 250 local chapters nationwide. Our members 
are committed to advancing common sense policies that safeguard 
wildlife and habitat, support community-based conservation, and address 
pressing environmental issues. The following pertains to programs 
administered by the Departments of Agriculture and the Interior, Fish 
and Wildlife Service, and Environmental Protection Agency.
    keep fiscal year 2012 bill free of extraneous policy provisions
    The League opposes inclusion of policy ``riders'' which would 
undermine the ability of the departments and agencies under the 
subcommittee's jurisdiction to effectively implement their statutory 
authority. In particular, the League opposes any provision which would 
prevent the EPA from proposing, finalizing, or implementing any 
guidance, rulemaking, or other authorized administrative action 
concerning jurisdiction over ``waters of the United States'' under the 
Clean Water Act. We also oppose any provision barring the EPA from 
exercising its authority under the Clean Air Act to regulate emissions 
of greenhouse gases.
    The League strongly supports administrative actions the EPA and 
Army Corps of Engineers could take to restore Clean Water Act 
protections to some of the streams, wetlands, and other waters that are 
now at risk of pollution and destruction under the Supreme Court's 
SWANCC and Rapanos decisions. These actions are necessary and 
appropriate. In fact, Supreme Court justices, including Chief Justice 
John Roberts and Justice Breyer, have urged the agencies to take such 
action. Any steps the agencies could take would occur through well-
established administrative processes, which provide multiple 
opportunities for public participation, comment, and review. It is 
counterproductive to bar agency action, which could restore Clean Water 
Act protections to wetlands that provide essential habitat for fish, 
wildlife, and waterfowl, as well as streams that flow to public systems 
supplying drinking water for more than 117 million Americans.
      departments of agriculture and the interior--land and water 
                        conservation fund (lwcf)
    The League supports providing $900 million for the LWCF in fiscal 
year 2012 as requested by the administration. It is important to begin 
to reinvest in strategic land acquisition to protect critical habitat, 
secure valuable in-holdings, provide recreational access, and to buffer 
against the likely impacts of climate change. Dramatically reducing 
funding for LWCF will not provide meaningful savings to taxpayers 
because it is capitalized with revenue from off-shore oil and gas 
drilling. As importantly, diverting resources from LWCF to offset other 
expenditures from the general treasury directly undermines the 
fundamental premise on which LWCF is based. That common sense premise 
is a portion of the revenue generated by natural resource extraction 
should be invested in conserving other natural resources at the 
national, regional, and State levels.
 fws--national wildlife refuge system (nwrs) operations and maintenance
    The League joins other members of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 21 wildlife, 
sporting, conservation, and scientific organizations representing 
millions of members and supporters, in requesting $511 million in 
fiscal year 2012 for operations and maintenance of the NWRS. This is 
approximately $8 million more than the administration's request, and is 
designed to partially offset rising fixed costs that erode the already 
underfunded system budget.
    The League and CARE groups appreciate the importance of fiscal 
discipline and making strategic spending decisions. CARE annually 
develops an estimate of the operations and maintenance budget that is 
necessary to effectively provide visitor services and law enforcement 
and conserve and manage fish, wildlife, and habitat across the refuge 
system. CARE estimates operations and maintenance needs total $900 
million annually. Although our long-term goal is to make steady 
progress toward a budget which more accurately reflects demands on the 
ground, CARE's request for fiscal year 2012 is flat after accounting 
for inflation and other fixed costs.
    Although holding the refuge system budget constant for multiple 
fiscal years diminishes capability to effectively perform core 
functions, cutting the budget to the fiscal year 2008 level would have 
much more negative repercussions. Returning to fiscal year 2008 levels 
would cut the system's operation and maintenance budget by 
approximately $66 million. The FWS estimates that cutting this amount 
would adversely affect a wide range of functions, including:
      Visitor Services.--In 2010, approximately 44.5 million Americans 
        visited wildlife refuges across the country to hunt and fish, 
        observe wildlife, learn from FWS professionals, or simply take 
        a walk in the woods. And these visitors have a direct, positive 
        impact on local economies. The FWS estimates that refuge 
        visitors generate $1.7 billion in economic activity and support 
        27,000 private-sector jobs.
      If funding is cut to the fiscal year 2008 level, the FWS 
        estimates that 54 visitor centers will be closed and another 11 
        currently under construction will not be opened due to staff 
        reductions. Functioning visitor centers are essential to 
        providing tens of millions of Americans with information, 
        professional expertise and programming, and basic services that 
        make their visits to refuges not only enjoyable, but in many 
        cases, practical. The FWS further estimates that 48 refuges 
        would terminate hunting programs and another 45 would shutter 
        angling programs. As access to private land for hunting and 
        fishing continues to decline and the broader hunting and 
        angling community works hard to grow the number of 
        participants, it would be counterproductive to reduce 
        opportunities to pursue both sports on readily available and 
        accessible public land. If visitor services decline due to 
        budget cuts and visitation is negatively impacted, our shared 
        goal of reviving the economy and creating jobs could be 
        undermined.
      Law Enforcement.--As the subcommittee knows, the refuge system 
        faces pressing law enforcement challenges, including illegal 
        drug production and trafficking, illegal immigration, serious 
        violent crime, and poaching. At the same time, the system has 
        only a fraction of the personnel recommended by law enforcement 
        professionals and independent auditors. In 2005, the 
        International Association of Chiefs of Police concluded that 
        the refuge system needs 845 full-time law enforcement officers 
        to effectively protect visitors and enforce laws applicable to 
        the system. In fiscal year 2011, the system has 213 officers, 
        which is unchanged from fiscal year 2010 and approximately 75 
        percent below the level recommended by our police chiefs. The 
        analysis of refuge system performance issued by Management 
        Systems International (MSI) in 2008 concluded that: ``[A]t many 
        refuges, law enforcement coverage is insufficient to ensure 
        protection of resources and the safety of visitors and refuge 
        staff.''
      If the system budget is reduced to the fiscal year 2008 level, 
        the FWS could be forced to fire law enforcement officers along 
        with hundreds of other essential staff. With the system already 
        under-resourced in this critical area, deep budget cuts would 
        only exacerbate existing law enforcement problems.
      Operations and Maintenance Backlog.--The subcommittee is also 
        very familiar with the persistent backlog of operations and 
        maintenance projects across the NWRS. The FWS now estimates 
        that deferred maintenance projects--everything from repairing 
        washed out trails and roads to rebuilding duck blinds and 
        observation platforms--total about $2.7 billion. Repeatedly 
        deferring essential maintenance only makes the problems worse 
        and more expensive to address over time. We frequently hear 
        about ``running government like a business''. Experts recommend 
        that businesses invest 2 to 6 percent of the total value of 
        assets in annual maintenance. For the refuge system, with 
        assets valued at more than $23 billion, the annual maintenance 
        budget is about $135 million, which represents an investment of 
        less than 1 percent. Further cutting investment in maintenance, 
        which is essential to providing quality visitor services and 
        effectively managing habitat, fish, and wildlife, is not a good 
        business practice.
                 fws--state and tribal wildlife grants
    As a member of the Teaming with Wildlife Coalition, the League 
urges the subcommittee to provide $95 million in fiscal year 2012, 
which is equal to the administration's request, for State and Tribal 
Wildlife Grants. The State Wildlife Grants support proactive 
conservation projects aimed at preventing wildlife from becoming 
endangered. Experience shows that efforts to restore imperiled wildlife 
can be particularly contentious and costly when action is taken only 
after species are formally listed as threatened or endangered pursuant 
to the Endangered Species Act. State Wildlife Grants augment State and 
community-based efforts to safeguard habitat and wildlife before either 
reaches the tipping point. This program also provides States with an 
important source of Federal funds to address nongame species. Finally, 
the Federal investment leverages significant funding from private, 
State, and local sources.
                      epa--great lakes restoration
    The League supports providing $350 million as requested to build on 
the investment made in Great Lakes restoration in fiscal years 2010 and 
2011. The Great Lakes provide drinking water to 35 million people and 
support jobs and recreational opportunities for millions more. However, 
the health of the Great Lakes is seriously threatened by untreated 
sewage, toxic pollution, invasive species, and habitat loss. The eight 
States that border the Lakes and many nongovernmental organizations 
have invested significant resources to safeguard these national 
treasures. Sustained Federal investment at a significant level is also 
needed or the problems will only get worse and cost even more to fix.
    Cleaning up the Great Lakes will provide many benefits, including 
economic development in the region. According to the Brookings 
Institution, Great Lakes restoration efforts produce $2 in economic 
return for every $1 invested. Restoration projects create jobs for 
engineers, landscape architects, construction workers, and many more. 
Restoration results in cleaner drinking water, clean beaches, and 
healthy fish and wildlife habitat. These results lay the foundation for 
long-term prosperity in the region.
    The League urges the subcommittee to provide at least $350 million 
to advance this critical initiative, especially when numerous studies 
estimate that $5 billion is required to restore the Great Lakes 
ecosystem.
 epa--non-point source management program (clean water act section 319)
    The League urges the subcommittee to appropriate at least $200 
million for section 319, the Non-point Source Management Program. 
Unfortunately, the administration proposes to cut more than $36 million 
compared to fiscal year 2010 at the same time the EPA and many States 
report that nonpoint source pollution is the leading cause of water 
quality problems, including harmful effects on drinking water supplies, 
recreation, fisheries and wildlife. Based on the pressing nature of the 
problem, it makes sense to maintain, if not increase, investment which 
helps States and local governments to more aggressively tackle nonpoint 
source pollution.
                      epa--chesapeake bay program
    The League supports the administration's request for $67.4 million 
in fiscal year 2012 for the Chesapeake Bay Program. The Chesapeake Bay 
is the largest estuary in the United States and one of the largest in 
the world. More than 16 million people live within the Bay watershed. 
The Bay is a critical economic, environmental, and recreational 
resource for these residents and the Nation as a whole. However, the 
productivity and health of this nationally significant resource remain 
seriously impaired by nutrient pollution from multiple sources 
throughout the watershed.
    The EPA and States have launched a significant and rigorous effort 
to cut pollution and improve water quality. Few would argue that 
implementing the recently adopted total maximum daily load (TMDL) will 
not be challenging or not require significant investment to reduce 
point and nonpoint source pollution. However, the EPA is requesting 
additional funds, in part, to support States, local governments, and 
other partners as they begin implementing the TMDL. The League believes 
it is essential to provide technical assistance to achieve results on-
the-ground and lay the foundation for long-term pollution reductions.
    The Izaak Walton League appreciates the opportunity to testify 
about these important issues.
                                 ______
                                 
 Prepared Statement of the Jamestown S'Klallam Tribe, Washington State
    On behalf of the Jamestown S'Klallam Tribe, I want to thank this 
subcommittee for the opportunity to submit this written testimony on 
our funding priorities and requests on the fiscal year 2012 Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS) budgets. The 
fiscal year 2012 President's proposed budget presents a renewed 
opportunity for the U.S. Government to live up to the promises made to 
American Indians/Alaska Native tribal governments. We have long 
appreciated this subcommittee's support of our funding requests and are 
pleased to submit the following recommendations and requests:
                tribal-specific appropriation priorities
    We request $600,000 for a land purchase for the Tamanowas Rock 
Sanctuary Project and a $200,000 increase to the BIA tribal base budget 
for fish and wildlife management.
              local/regional requests and recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
                 national requests and recommendations
BIA Requests
    Provide a $82.9 million general increase to the BIA Tribal Priority 
Allocation (TPA) for inflationary and fixed costs; provide $47.5 
million increase for the BIA Contract Support Cost (CSC), including 
direct CSC; and provide $5 million increase in the Indian Self-
Determination (ISD) Fund; restoration and increase funding for Indian 
Loan Guarantee Program; and establishment and funding for a Surety 
Bonding Guarantee Program
IHS Requests
    Hold Indian health programs harmless and protect from roll-backs, 
freezes, and recessions; exempt tribes from Federal pay freeze and use 
appropriate inflation rates; a $200 million increase for Contract 
Health Services (CHS); a $153 million increase for IHS to fully fund 
CSC, including direct CSC; and increase $5 million to the IHS Office of 
Tribal Self-Governance (OTSG).
    We support all requests and recommendations of the National 
Congress of American Indians (NCAI) and the National Indian Health 
Board (NIHB). The leadership of the Jamestown S'Klallam Tribe remains 
actively involved in both NCAI and NIHB and has participated in 
numerous national forums to discuss and prioritize program funding and 
budgets. We are extremely supportive of the requests from these 
organizations.
              tribal-specific appropriation justification
    $600,000 for a Land Purchase for Tamanowas Rock Sanctuary 
Project.--The purpose of the project is to preserve tribal cultural and 
ceremonial access to an important archaeological site of the S'Klallam 
American Indian people. Tamanowas Rock, located in Eastern Jefferson 
County on the Olympic Peninsula of Washington State, is of great 
cultural and spiritual significance to the Tribes in the region, and 
also holds special significance for the local non-Indian community. As 
a geological formation, the estimated age of the Rock is 43 million 
years. More importantly, the oral history associated with the Rock 
among the local Tribes includes the era of the mastodons (extinct for 
8,000 years), when it was used as a perch by tribal hunters and a story 
of a great flood (assumed to be a tsunami from around 3,000 years ago) 
when people tied themselves to the Rock to avoid being swept away.
    In 1976, the Rock was listed in the Washington Heritage Register as 
having significant archaeological interest. The tribes and local 
community have been working for more than 10 years to try to protect 
the Rock from development. In February 2005, the Jamestown S'Klallam 
Tribe, acting on behalf of all the S'Klallam Tribes, obtained loans to 
purchase a 20-acre parcel and a group of platted properties totaling 
66.32 acres (if dedicated roads are vacated, the acreage is closer to 
100 acres for the platted properties). This property was in imminent 
threat of development in the vicinity of the Rock. We are taking the 
lead to seek funds to purchase the land and the remaining 80 acres 
directly surrounding Tamanowas Rock, all of which would be protected in 
perpetuity.
    $200,000 Increase to the BIA Tribal Base Budget for Fish and 
Wildlife Management.--Jamestown S'Klallam Tribe is 1 of 4 tribes that 
signed the Point No Point Treaty with the U.S. Government in 1855. The 
U.S. Government formally recognized Jamestown in 1981. By then, the BIA 
was contracting with tribes to provide fisheries management services. 
The Point No Point Treaty Council (PNPTC) was serving as the fisheries 
management agency for the other Klallam and Skokomish Tribes. Rather 
than redistribute the funding pie, Jamestown received a smaller portion 
for fisheries management in relation to the other three tribes. Even 
with self-governance (SG), the BIA continues to distribute contracted 
funds based on funding history, thus Jamestown receives a significantly 
smaller portion of the PNPTC base funding than the other three tribes. 
The Jamestown S'Klallam Tribe is nonetheless required to meet the basic 
fisheries and wildlife management responsibilities of U.S. vs. 
Washington (Boldt Decision), including planning, negotiation, 
regulation, technical expertise, and enforcement. The $200,000 increase 
to our fiscal year 2012 SG base is needed to implement these essential 
treaty fish and wildlife management services.
                    national requests and priorities
BIA Requests
    The President has committed to support and advance tribal ISD and 
SG for the Nation's 567 federally recognized tribes. Consistent with 
that commitment, the fiscal year 2012 budget should include the 
following critical increases:
  --TPA General Increase.--Provide $82.9 million (10 percent increase 
        more than fiscal year 2010) for a general increase to the BIA 
        TPA for inflationary and fixed costs.
    TPA is one of the most important funding areas for tribal 
governments. It covers such needs as scholarships and higher education 
funding, human services, economic development, and natural resources 
management. This funding has steadily eroded due to inflation and 
population growth. The effects of rising costs of travel, equipment, 
supplies, and purchased services have been compounding for years while 
the Native American population has increased at 1.6 percent per year. 
Since tribes have the flexibility to use TPA funds to meet the unique 
needs of their individual communities, they are the main resources for 
tribes to exercise their powers of ISD and SG.
  --CSC.--Provide a $47.5 million Increase for the BIA to fully fund 
        CSC, including direct CSC and provide $5 million for the ISD 
        Fund.
    Excluding the President's requested increase of $21.5 million for 
CSC for fiscal year 2011, the BIA projected a CSC shortfall of $47.5 
million. The BIA did not make projections for fiscal year 2012 or 
fiscal year 2013, but the projected shortfall would go up based upon 
inflation and new contracting. Additionally, $5 million is needed 
annually for administrative costs for new and expanded programs (ISD 
Fund). When CSC is not fully funded, tribes are forced to utilize 
limited direct program services dollars or tribal resources to cover 
these shortfalls. Further, CSC directly funds jobs-- and those jobs 
directly enhance services for education, law enforcement and other 
essential governmental services across Indian country. We respectfully 
urge the subcommittee to fund these essential services and not permit 
Indian agreements to remain the only government contracts that are not 
fully funded.
    Indian Loan Guarantee Program.--Restoration and increase funding. 
Part of the rationale to cut back this program is that the program 
could be duplicating other services, such as Small Business 
Administration loan programs. This assumption is wrong and will 
undermine the tribes economic development efforts. This important 
program has resulted in a very positive impact for Indian country. The 
default rate is low and key in assisting tribes with economic 
development and providing additional jobs to Indian country. We 
respectfully urge the subcommittee to preserve this program at minimum 
to the fiscal year 2010 level of $8.1 million.
    Surety Bonding.--Establishment and funding of a Surety Bonding 
Program. There long been a need for a surety bonding program for Indian 
country. The traditional bonding industry-- uncomfortable and 
unfamiliar with sovereign tribes--require excessive waivers of 
sovereign immunity to issue surety bonds for our companies requiring 
these bonds. This industry impediment clearly suppresses our business 
opportunities.
IHS Requests
    Our tribe strongly encourages the following:
  --Hold Harmless.--Hold Indian health programs harmless and protect 
        prior year and proposed fiscal year 2011 and fiscal year 2012 
        increases from budget roll-backs, freezes, and rescissions. We 
        have been encouraged by the increased investments made in 
        Indian health in fiscal years 2008, 2009, and 2010 and greatly 
        appreciate President Obama's proposed increases for fiscal year 
        2011 and 2012. However, we are equally concerned that efforts 
        by the Congress and the Administration to reduce the overall 
        size of the Federal budget may jeopardize the recent progress 
        to address severe and chronic health and funding disparities in 
        Indian country as well as our ability to effectively implement 
        the Indian Health Care Improvement Act and the Affordable Care 
        Act.
    Current Services.--Exempt tribes from Federal pay freeze and use 
appropriate inflation rates. Not only Commissioner Corps Officers, but 
all tribal and Federal IHS employees should be exempted from any 
Federal employee pay freeze that may be imposed in fiscal year 2011, 
2012, or 2013. The rates of inflation applied to hospitals and clinics, 
dental health, mental health, and CHS in developing the IHS budget 
should correspond to the appropriate components in the consumer price 
index, and that there should be parity in the calculation of inflation 
among the Department of Health and Human Services operating divisions.
    CHS.--Provide $230 million Increase for CHS and Catastrophic Health 
Emergency Fund (CHEF). Tribes have recommended that an increase of $200 
million is needed for CHS funding plus an additional $30 million for 
the CHEF, for a total of $1.17 billion. At present, less than one-half 
of the CHS need is being met, leaving too many Indian people without 
access to necessary medical services. This level will allow those 
tribes who are not served by an IHS hospital to provide healthcare 
services at the same level as those tribes who are served by an IHS 
hospital.
    (CSC)T1.--Provide $153 million for IHS to fully fund CSC, including 
direct CSC. This year's fiscal year 2012 request of a $63.3 million 
increase for CSC continues a sad chapter of neglect for the ISD Fund. 
For fiscal year 2012, the estimated shortfall is $153 million.
    OTSG.--Increase $5 million to the IHS OTSG.--In 2003, the Congress 
reduced funding for this office by $4.5 million, a loss of 43 percent 
from the previous year. In each subsequent year, this budget was 
further reduced due to the applied Congressional rescissions. As of 
2011, there are 331 SG tribes managing approximately $1.5 billion in 
funding. This represents 59 percent of all federally recognized tribes 
and 33 percent of the overall IHS funding.
    In closing, we thank you for the opportunity to provide this 
written testimony on the budget priorities of the Jamestown S'Klallam 
Tribe.
                                 ______
                                 
  Letter From the Kennesaw Mountain National Battlefield Park, Georgia
                                                       May 4, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of the LWCF in fiscal year 2012. The proposed 
$900 million is the congressionally authorized amount for the program 
and seeks to renew focus on the promise of the LWCF: that it is right 
and wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the LWCF will 
permanently pay dividends to the American people and to our great 
natural and historical heritage. As the LWCF is funded from Outer 
Continental Shelf (OCS) revenues, not taxpayer dollars, these funds 
should go to their intended and authorized use.
    As part of the full commitment to the LWCF in fiscal year 2012, the 
National Park Service (NPS) included $2.772 million for the acquisition 
of land in the Kennesaw Mountain National Battlefield Park in Georgia 
in the President's budget. I am pleased that this funding was included 
in the request and urge the Congress to provide the full President's 
budget amount for the LWCF so that this important project can receive 
this needed funding.
    After victories in 1863 at Gettysburg in the East and Vicksburg and 
Chattanooga in the West, 1864 appeared to be a bright year for Union 
arms. A favorable end to the Civil War appeared closer than ever. In 
concert with each other Union armies launched southbound offensives in 
Virginia and Georgia at the beginning of May against supposedly 
weakened Confederate forces. The marching and fighting was nearly 
continuous. In Virginia it was exceptionally intense and brutal at the 
Wilderness, Spotsylvania, and Cold Harbor. In northern Georgia, due to 
the topography and geography, the Union troops of General William 
Tecumseh Sherman had more room and opportunities for less violent 
flanking maneuvers that pushed back the Confederates under General 
Joseph E. Johnston. By June 19, Johnston had retreated to a strong 
defensive position at Kennesaw Mountain near Marietta, 20 miles from 
the center of Atlanta.
    The Congress established Kennesaw Mountain National Battlefield 
Park in 1935 to commemorate the battle and the 1864 Atlanta campaign. 
The park protects nearly 2,850 acres of battlefield along a 5.5-mile 
line west of Marietta. Many of the 1.3 million annual visitors hike or 
drive to the top of Kennesaw Mountain to see the panoramic view of the 
Atlanta skyline to the southeast and the Appalachian foothills to the 
north and northwest. The mountain is 1,800 feet above sea level and 700 
feet above the visitor center and surrounding Marietta. Visitors also 
enjoy 18 miles of trails, Civil War interpretive programs, historic 
monuments, surviving earthworks, and the opportunity to view birds and 
wildlife.
    Available for acquisition in fiscal year 2012 is the 16-acre 
Leavell property. The inholding is located on the south side of Burnt 
Hickory Road near the center of the park. The NPS owns surrounding 
property to the west and south, while the tract directly to the east 
has been developed for several large houses. Just farther to the east 
along Burnt Hickory Road, there is a NPS parking area for visitors 
wishing to hike 1,240-ft Pigeon Hill to the northeast and the Hardage 
Saw Mill site to the south. A tributary of Noses Creek passes through 
the property. Noses Creek eventually flows into Sweetwater Creek, a 
tributary of the Chattahoochee River.
    The acquisition of the Leavell property by the NPS would protect a 
significant inholding at Kennesaw Mountain across which Union troops in 
General Joseph Lightburn's brigade attacked to reach Pigeon Hill. Given 
its frontage on Burnt Hickory Road and the growth in and around 
Marietta and the entire Atlanta metropolitan area, the property is 
likely to be developed if not conserved. Tracts to the north and east 
within the boundaries of the national battlefield park have already 
been developed.
    These descriptions of the land and the battle are very helpful in 
understanding the overall battlefield, the actions that took place, and 
its consequences. However, as an historian, it is worth presenting some 
of the words of the soldiers who fought at Kennesaw Mountain.
    On June 26, 1864, as General Sherman prepared orders to charge the 
Kennesaw Mountain Line, his men prepared rations and wrote letters home 
to family. These men looked across the open field to the fortified 
trenches they were soon going to attack. On one of the hottest days of 
the 1864 campaign, many a soldier of General Lightburn's Brigade 
touched pen to paper to send one last letter to a mother.
    Martin Comer of the 53rd Ohio wrote in the fading light of the 25th 
of June: ``Dear Mother in the hardest of all the hard campaigns, in the 
hottest of days I set down to write you a few lines. We have prepared 
three days rations and have been given orders to attack soon. I have 
all the faith in God as you have tought me. I wish only to return home 
and see you and father once more. Your loving son.''
    Jefferson Cantor wrote, ``Mother and father we are near Atlanta, I 
feel one more charge will do in the rebbles and we shall take the queen 
city. I have hope to return home soon and to embrace you once more as 
mother and son. Your son Jeff.''
    Charles B. Fox wrote, ``Dear mother I hope that those who have 
stayed home in the fight against the destruction of our nation will 
know what our brave boys have done in this campaign. We will save our 
country and once more to live in the peace of our land, I hope to enjoy 
that peace, and to all my love to you, mother I hope to see you soon. 
your loving son C B Fox.''
    Austin Gilmore, a slave who enlisted in the 111th Illinois as a 
cook, but on June 27, 1864, under a general order from General Sherman 
that all cooks and musicians would take up as stretcher bearers when 
the army went into battle. They would wear a white armband on their 
left sleeve. Austin on June 27, 1864, took on this duty and while 
removing a white wounded soldier from harm's way was wounded himself in 
the right hip. On July 1, 1864, in a hospital in Rome, Georgia, Austin 
died and 1867 he was placed in an unknown grave in the Marietta 
National Cemetery.
    The story of these brave men and many more are told on the ground, 
which we are asking to be purchased. This ground has already been paid 
for and all we need to do is purchase it and preserve it for future 
generations. I am asking in the names of these brave men to have this 
land saved.
    An allocation of $2.772 million from the LWCF in fiscal year 2012--
as recommended in the President's budget--is needed to protect this 
important Civil War battlefield inholding at Kennesaw Mountain National 
Battlefield Park.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Georgia, and I appreciate your consideration of 
this funding request.

                                              Brad Quinlin,
                                               Civil War Historian.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the subcommittee to approve 
fiscal year 2012 funding for the National Endowment for the Arts (NEA) 
at a level of $167.5 million. We urge the Congress to continue 
supporting the important work of this agency, which broadens public 
access to the arts, nurtures cultural diversity, spurs the creation of 
new artistic works, and fosters a sense of cultural and historic pride, 
all while supporting countless jobs in communities nationwide.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of nearly 900 orchestras across North America runs 
the gamut from world-renowned symphonies to community groups, from 
summer festivals to student and youth ensembles. The only national 
organization dedicated solely to the orchestral experience, the League 
is a nexus of knowledge and innovation, advocacy, and leadership 
advancement for managers, musicians, volunteers, and boards. Founded in 
1942 and chartered by the Congress in 1962, the League links a national 
network of thousands of instrumentalists, conductors, managers, board 
members, volunteers, and business partners.
    Federal arts support has a compelling exponential impact: the 
intense competition for Federal dollars means that the awarding of an 
NEA grant greatly enhances and strengthens an orchestra's application 
for funding from other sources. Furthermore, an NEA grant serves as an 
emblem of public value and national artistic significance, and 
communities large and small partake in the distinction of presenting 
nationally recognized NEA-supported programs. In fiscal year 2010, the 
NEA's Grants to Organizations included 119 grants to orchestras, and 
continued funding for the agency will support its ability to serve the 
American public. The Endowment promotes creation, engagement, and 
learning in the arts through Arts Works, the major support category for 
organizations that includes the Access to Artistic Excellence, Learning 
in the Arts for Children and Youth, and Challenge America: Reaching 
Every Community grant programs--as well as through vital Federal/State 
partnerships.
    The presence of orchestras is often an indicator of a community's 
economic and cultural strength. In fact, investing in the arts has a 
demonstrated impact in helping to reverse economic decline. In addition 
to fueling local economies, attracting new business development, and 
educating young people, music unites people and cultures in good times 
and bad. The League is committed to help orchestras by bringing new 
knowledge and perspectives concerning the shifting priorities in our 
communities to our members. Likewise, the NEA plays an incredibly 
valuable leadership role through its direct grants to organizations, 
strategic initiatives, and ongoing national research illuminating 
trends in public participation and workforce development.
    nea grants help orchestras educate and encourage america's youth
    The Boise Philharmonic, a 70-member professional orchestra with an 
administrative staff of 9 employees, is Idaho's largest and oldest 
performing arts organization. The orchestra maintains a vast array of 
educational programs, including classes for young children, a Family 
Concert series, annual Children's Concerts with full symphony orchestra 
performing for 15,000 school children in 9 free performances, Musicians 
in the Schools, Ensembles in the Schools, Conductor in the Schools and 
the Jeker Eagle Schools music project. In fiscal year 2010 the Boise 
Philharmonic received NEA support for Classic Collaborations, a series 
of concerts accompanied by related educational activities. Each concert 
in the series integrated symphonic music with vocal music, theater, or 
dance along with participating area opera, theater, and dance 
companies, embodying the collective strength of arts disciplines coming 
together.
    The New World Symphony, a 23-year-old orchestral academy whose 750 
graduates now perform in more than 176 orchestras across the country, 
is also committed to serving America's youth. In addition to connecting 
musicians and artists around the globe, the orchestra provides 
instruction and mentoring to schools by making its performances 
available to school systems across South Florida. The Musician 
Professional Development Program receives NEA support to offer 
performances, coaching, and community outreach activities as a means to 
prepare more than 80 gifted young musicians each year for musical 
leadership positions in the orchestral field. Thanks in part to Federal 
funding, these young musicians have the opportunity to experience music 
at multiple levels of engagement and enjoy the advantages of highly 
trained coaches to develop their own professional careers in music.
 nea funding leads to increased public access to culturally diverse art
    The NEA, together with the organizations it helps support, is 
committed to improving public access to the arts. With grants reaching 
every congressional district, the NEA helps orchestras connect to their 
community and the experience of live music serves as a conduit for 
disparate communities to connect with each other. The Pacific Symphony, 
employing 88 part-time musicians and 44 full-time staff, formed a 
partnership with an Indian cultural center in Irvine, California to 
present numerous traditional Indian performances to rapt audiences. 
With assistance from the NEA, many listeners experienced a new musical 
form and enjoyed the cultural richness of their own community for the 
first time. The traditional performers were also integrated into the 
orchestra's American Composers Festival, featuring the world premiere 
of a new work, Passion of Ramakrishna, by Philip Glass. NEA funds not 
only supported traditional works of art, but a new work that celebrates 
our diverse American heritage.
    Federal support often enables grantees to extend their reach beyond 
their immediate cities and towns, bringing unique musical experiences 
to communities that would not otherwise be able to enjoy them. The 
Bremerton Symphony Orchestra employs 11 full-time and part-time staff, 
and with 120 volunteer orchestra and chorale members, it will present 
an ``Inspiring Virtuosity'' concert with violinist Marie Rossano. In 
addition to the concert itself, the orchestra's NEA grant will help 
make the concert accessible to the Hispanic and Tribal populations of 
the Kitsap Peninsula as well as low income families of Bremerton. The 
orchestra conductor will meet personally with each of the groups to 
invite members of Kitsap County to the concert. NEA grants are 
undoubtedly a vital part of the support system that enables orchestras 
to showcase our society's rich array of cultures and to engage and 
connect with the diverse audiences around them.
           nea support fosters national pride and remembrance
    In addition to widening access to our country's cultural diversity, 
NEA grants provide a stirring way for orchestras to aid in the 
remembrance of key moments in our American history. To commemorate the 
10th anniversary of September 11th, the New York Philharmonic 
commissioned a new work, ``One Sweet Morning,'' by American composer 
John Corigliano. The orchestra, which employs 192 full-time and 353 
part-time or seasonal staff, along with 190 volunteers, will use its 
NEA grant in the presentation of this poignant artistic perspective on 
the years following September 11, 2001, which will incorporate texts on 
war and peace by American lyricist E.Y. ``Yip'' Harburg, Lithuanian-
American poet Czeslow Milosz, the Ancient Greek poet Homer, and Tang 
Dynasty poet Li Po.
    The National Symphony Orchestra, numbering 100 musicians and 19 
administrative employees, likewise commemorated another important event 
in American history--the 50th anniversary of President John F. 
Kennedy's 1961 inauguration. The historic concert was performed earlier 
this year at Constitution Hall in tribute to a leader who believed that 
the arts can help shape the national character and bring understanding 
between nations. The celebration included the commissioned piece, 
Remembering JFK (An American Elegy) by Peter Lieberson, which 
incorporated text from President Kennedy's speeches and writings.
    The city of Birmingham pays homage to another important figure in 
American history in Reflect and Rejoice: A Community Tribute to Dr. 
Martin Luther King, Jr., an annual remembrance of the progress that has 
taken place since Dr. King's ``Letter from a Birmingham Jail,'' written 
in 1963. A consortium grant from the NEA supports this musical and 
artistic collaboration between partners such as the Birmingham Civil 
Rights Institute, local choirs, and the Alabama Symphony Orchestra, 
which employs an administrative staff of 20 full-time and 2 part-time 
employees, a full-time core orchestra of 54 musicians, and 4 
conductors. In conjunction with the tribute, the orchestra holds a 
poetry contest every year in which students submit poems inspired by 
orchestral work from the Reflect & Rejoice concert. Appreciating our 
history is crucial for current and future generations, and the NEA is a 
valued partner in creating impactful, engaging, and memorable ways such 
as these to honor our past.
            nea funding encourages new works and programming
    NEA grants to orchestras help support the creative capacity of 
American musicians and composers. A grant from the NEA will support the 
Living Composers Project, produced by The Saint Paul Chamber Orchestra, 
whose 35 musicians and 33 full-time and 15 part-time administrative 
staff share a commitment to stimulate and challenge audiences by 
including recent and newly commissioned works as part of its regular 
programming. The project will encompass more than 20 performances and 
world premieres throughout the Twin Cities metro area. Composers will 
be invited to attend performances of their commissioned pieces and 
participate in open rehearsals and pre- and postconcert discussions to 
help introduce audiences to contemporary chamber orchestra music in 
thoughtful and engaging ways.
    With 10 full-time staff and approximately 70 part-time musicians, 
the long-term support of the NEA has been essential to the Albany 
Symphony Orchestra in keeping living American composers at the center 
of its mission. This year, an NEA grant will help in the production of 
the orchestra's American Music Festival, which nurtures and supports 
the work of living composers like Joan Tower, Zhou Long, and Michael 
Daugherty. Festivals such as this one are essential to assuring that 
orchestral music remains a part of the American cultural experience and 
that opportunities can be presented to composers to have their works 
shared at the highest artistic level.
    NEA grants uniquely encourage orchestras to cultivate innovation, 
ensure that music continues to flourish within our cultural landscape, 
and help make it possible for audiences of all sizes to access it from 
every part of the country. Thank you for this opportunity to express 
the value of NEA support for orchestras and communities across the 
Nation. The Endowment's unique ability to provide a national forum to 
promote excellence, both through high standards for artistic products 
and the highest expectation of accessibility, remains one of the 
strongest arguments for a Federal role in support of the arts. We urge 
you to support creativity and access to the arts by approving $167.5 
million in funding for the National Endowment for the Arts.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians
    As vice-president of the Lac du Flambeau Tribe of Lake Superior 
Chippewa Indians, located in Wisconsin, I am pleased to submit this 
testimony, which reflects the needs and concerns of our tribal members 
for the upcoming fiscal year 2012. We would like to begin our testimony 
by expressing our deep appreciation for President Obama's commitment to 
the United States' obligations to tribes and Indian people. We would 
also like to thank the subcommittee, particularly this subcommittee, 
for supporting Indian programs throughout the fiscal year 2011 
appropriations process. We understand the Congress' concern for our 
country's depressed economy and that it must respond by tightening the 
belt of the Federal Government. In the face of these circumstances, we 
particularly appreciate the support you have shown our programs.
                     bureau of indian affairs (bia)
    Education.--The President has made education one of his core 
priorities nationwide. Investing in educating our children is an 
investment in our future. An educated workforce creates economic 
opportunities, allows individuals and families to be self-sufficient, 
and, as a whole, allows us to be competitive in national and global 
markets. Education is one area where a relatively small amount of 
investment leads to long-term savings and benefits.
    Because the tribe's children attend public schools, Johnson 
O'Malley (JOM) funding provides the core of the tribe's education 
program. In our tribe, JOM money funds a counselor/mentor position at 
the local high school. This position is particularly important as our 
children transfer from an elementary school that is more than 90 
percent Indian to a high school in which they are the minority. We 
believe this rough transition is part of the reason why our native 
students at Lakeland Union High School have had a graduation rate of 
56-61 percent over the last 4 years. While we deeply appreciate that 
the President's request did not cut funding for the program, we would 
like to take the opportunity to remind the subcommittee that this is an 
important program that deserves full funding.
    Higher education is even more important as the overall workforce 
becomes college educated. Tribal communities must continue to evolve 
with other communities. Higher education is needed for our children to 
learn the skills necessary to enter the workforce, to be innovators, 
and to lead our tribal governments. President Obama has repeatedly 
expressed his commitment to national education programs, and in his 
address to Indian country he made a commitment to honor ``obligations 
to Native Americans by providing tribes with the educational resources 
promised by treaty and Federal law.'' We embrace that commitment, but 
we want to remind you that the need for support does not lie only with 
high schools. Our students who want to pursue higher education need our 
continued support.
    The budget proposes $2.164 million for Special Higher Education 
Program (SHEP) Scholarships to support Indian students working for 
graduate degrees. We strongly support the SHEP program, and are 
concerned that funding for it has remained flat over the last couple of 
years. Tribal communities have made great strides in educating their 
youth. Those strides are evident in the fact that more Indian students 
are attending and graduating from colleges and other postsecondary 
institutions. However, tribal communities must continue to evolve with 
other communities. The national and global economy has changed--
students must earn graduate degrees to remain competitive. After making 
progress in Indian education, Indian students cannot be allowed to fall 
behind again because of lack of access to higher education programs.
    One area of education that requires additional attention is job 
training and technical education. We propose an increase in adult basic 
education. At Lac du Flambeau, we would use any increase in this 
account to fund technical training at a local technical college. In the 
area of job training, we would use increases to double the number of 
scholarships for such areas as heating/ventilation/air conditioning, 
welding or culinary arts. This would be the training our members need 
to rejoin the workforce.
    Natural Resources and Conservation Officers.--Tribes are leaders in 
natural resource protection and the BIA natural resource funding is 
essential to maintain our programs. Lac du Flambeau has a comprehensive 
natural resources department and dedicated staff with considerable 
expertise in natural resource and land management. Our activities 
include raising fish for stocking, conservation law enforcement, 
collecting data on water and air quality, developing well head 
protection plans, conducting wildlife surveys, and administering timber 
stand improvement projects on our 86,000-acre reservation. We greatly 
appreciate the slight increases natural resources programs have 
recently received.
    We would like to remind the Congress that, in addition to being 
important cultural and environmental resources for current and future 
generations, natural resources provide many tribes and surrounding 
communities with commercial and economic opportunities. Whether tribes 
use those resources to sell licenses for hunting or recreational 
fishing, or operate commercial fisheries, these resources often provide 
much needed economic resources for families and tribes. As you all 
know, each and every economic opportunity today is invaluable, and 
should not be taken lightly. To ensure that these opportunities 
continue, these resources must be protected. We fear that the natural 
resource budget will be cut without understanding the importance they 
play in our economies.
    One of the critical elements of our natural resource program is our 
Conservation Law Enforcement Officers (CLEOs). These officers are 
primarily responsible for enforcing hunting and fishing regulations 
related to the exercise of treaty rights, but they also have a much 
larger role in law enforcement. They are often the first to respond to 
emergency situations, and are the first line of defense for any meth 
labs found on or near the reservation. These officers play an integral 
part in protecting our cultural and economic resources, as well as 
assisting with the most important role of protecting public safety. We 
would like to express our thanks to President Obama for including $1 
million for conservation law enforcement in his fiscal year 2012 budget 
request. However, this amount will be divided among tribes nationwide. 
We respectfully request that the amount provided for these CLEOs be 
increased to assist tribes that are not able to supplement the funding 
be better able to administer their conservation law enforcement 
program.
    Housing Improvement Program (HIP).--The HIP is a critical program 
for tribes like Lac du Flambeau, providing much-needed money to 
renovate dilapidated housing. This is an especially critical need in 
northern Wisconsin, where substandard housing can have serious health 
and safety consequences in the winter, and especially at a time when 
President Obama has requested reduced funding for heating assistance 
programs. On average, Lac du Flambeau receives about $38,000 annually--
enough to improve a single home, leaving the waiting list for HIP 
services increasingly long each year. We are grateful that President 
Obama did not cut funding for this program in his fiscal year 2012 
request, but we would like to remind the subcommittee that the current 
funding is already inadequate in our State, and States like it, where 
the average temperature from December through March is 5-10 degrees at 
night.
    Great Lakes Indian Fish and Wildlife Commission (GLIFWC).--Related 
to the tribe's natural resource needs, we would like to voice our 
continuing support for the GLIFWC. The tribe is a member of the GLIFWC, 
which assists the tribe in protecting and implementing its treaty-
guaranteed hunting, fishing, and gathering rights. We would also like 
to take this opportunity to express the need to maintain the tribal 
set-aside from the Great Lakes Restoration Initiative at $3 million.
             environmental protection agency (epa) programs
    Clean Water Program.--The Clean Water Program provides grants to 
tribes under section 106 of the Clean Water Act to protect water 
quality and aquatic ecosystems. The Lac du Flambeau Clean Water program 
maintains and improves water quality as development continues for the 
tremendous amount of surface water within the exterior boundaries of 
our reservation. According to the 2000 Census, the Lac du Flambeau 
Reservation includes nearly one-half of all of the water area (56.34 
square miles) within the Wisconsin Indian reservations. The tribe's 
Geographic Information System Program indicates that there are 260 
lakes covering 17,897 acres, 71 miles of streams, and 24,000 acres of 
wetlands within the reservation. Surface waters cover nearly one-half 
of the Lac du Flambeau Reservation. Funding to maintain clean waters on 
our reservation has already decreased below the minimum required to 
maintain our program, and the President has proposed a cut to the 
national program. We ask the subcommittee to protect funding for this 
program important to the health of our communities.
    Clean Air.--Tribal communities have the authority, through the 
Tribal Authority Rule, to implement Clean Air Act (CAA) regulatory 
programs and to conduct air quality monitoring, emissions inventories, 
and other studies and assessments. They are eligible for funding 
through the EPA to conduct these programs and services. However, when 
the EPA first increased its funding for these activities, relatively 
few tribes were conducting clean air activities. This funding has 
remained the same, although more and more tribes are taking over these 
clean air programs. During the past 10 years, the funding as ranged 
between $10.7 million and $13.3 million. As more tribes are applying 
for this funding, the funds are becoming increasingly inadequate. We 
respectfully request that these funds are increased to assist tribes in 
administering their CAA programs and activities.
          indian self-determination act contract support costs
    Inflation, Cost of Living, and Fixed Costs.--We fully support the 
increase that President Obama has requested for these contract support 
costs (CSC)--providing an increase of $29.4 million for the tribal 
government programs, and $63.3 million for the Indian Health Service 
(IHS). Again, this is a relatively small investment that will protect 
against a need for greater funding in the future.
    Under the Indian Self-Determination Act, many tribes have assumed 
responsibility for providing core services to their members. If these 
services were provided by the Federal Government, employees would 
receive pay cost increases mandated by Federal law, but the Congress 
and the Department of the Interior have historically failed to fulfill 
their obligation to ensure that tribes have the same resources to carry 
out these functions.
    One particular element of the CSC is the cost of health insurance, 
which is increasing every year. In order for us to maintain a $10 per 
hour employee (approximately $20,000 per year), the tribe faces an 
associated healthcare benefit cost of $20,350 for a family health 
insurance plan. When the tribe is forced to supplement underfunded BIA 
and IHS programs in order to cover these costs, direct services to our 
members suffer. We have less money available to provide counseling to 
students, collect water samples, put more officers in the field, 
provide basic health service, etc. Without full funding of CSC funding, 
the tribe will continue to decrease services to our tribal membership 
because we cannot afford to absorb these costs.
                                  ihs
    Contract Health.--A need that is expressed to the subcommittee 
every year is increased funding for the IHS, and particularly in 
contract healthcare funding. This request is constant because contract 
healthcare funding is so important to the basic health and well-being 
of our communities, and is historically and continually tragically 
underfunded. Again we would like to express our appreciation to 
President Obama, and this subcommittee, for providing increases to 
contract healthcare funding over the past couple of years. I do not 
want this to go unappreciated. We strongly support the $89.6 million 
increase for contract health services proposed for the fiscal year 2012 
budget. However, even at this level only half of the need is being met. 
We would request that an additional $118 million be provided. We 
believe this modest funding increase, would increase access to 
necessary care for a significant number of Indian people.
    Dental Health.--We fully support the increase that the President 
has requested for the dental health subaccount. However, this increase 
is for commissioned officers' pay costs, population growth, and 
inflation. No increase is provided to expand services to already under-
served populations. Dental services in Indian country, like most health 
services, are extremely limited, and routine procedures are generally 
unavailable. It has been reported that only 25 percent of Indian people 
had access to dental care in 2008. While this is unacceptable in its 
own right, with growing evidence that dental health directly impacts 
the health of our hearts and cardiovascular systems, adequate dental 
health is necessary to protect the overall health of our communities. 
We respectfully request that an additional $10 million more than the 
President's request be provided for dental health.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    Good morning and thank you Mr. Chairman and distinguished 
subcommittee members for the opportunity to share with you the 
appropriation priorities of the Lummi Nation for the fiscal year 2012 
budgets of the Bureau of Indian Affairs (BIA) and the Indian Health 
Service (IHS).

Lummi-specific requests--BIA:
  --+$300,000 to increase the funding for the BIA natural resources law 
        enforcement.
  --+$2 million--Phase 1.--New water supply system increase in funding 
        for hatchery construction, operation, and maintenance. Funding 
        will be directed to increase hatchery production to make up for 
        the shortfall of wild salmon; and

Committee directive requests:
  --Direct the BIA to work with Lummi Nation to ensure that its needs 
        related to the removal of wild stocks from the salmon available 
        for harvest are met through increased hatchery construction, 
        operations, and maintenance funding; and
  --Direct the Department of the Interior (DOI) to fully fund the 
        Office of Indian Energy and Economic Development, Workforce 
        Development Division to continue its job training/development 
        work that has resulted in jobs.

Lummi-specific requests--IHS:
  --Request funds for community-based AIDS/HIV rapid testing; and
  --+$4 million to combat drug epidemic in Lummi community.

Regional requests:
  --Support the requests of the Affiliated Tribes of Northwest Indians, 
        the Northwest Portland Area Indian Health Board, and the 
        Northwest Indian Fisheries Commission.

National requests:
  --Tribal Priority Allocation (TPA) General Increase.--Provide $82.9 
        million (10 percent increase more than fiscal year 2010) for 
        general increase;
  --Contract Support Costs (CSC).--Provide $50 million increase for BIA 
        and $112 million for the IHS to fully fund CSC, including 
        direct CSC; and provide $5 million for the Indian Self-
        Determination (ISD) Fund;
  --Law Enforcement/Tribal Courts/Tribal Detention Facilities.--Provide 
        $30 million more than fiscal year 2010 levels;
  --Education.--Provide $24.3 million to fully restore funding to 
        Johnson O'Malley (JOM);
  --Increase funding to the Office of Tribal Self-Governance (OTSG) to 
        fully staff the office; and
  --Support the requests of the National Congress of American Indians.
                         background information
    The Lummi Nation is located on the northern coast of Washington 
State, and is the third-largest tribe in Washington State serving a 
population of more than 5,200. The Lummi Nation is a fishing nation. We 
have drawn our physical and spiritual sustenance from the marine 
tidelands and waters for hundreds of thousands of years. Now the 
abundance of wild salmon is gone. The remaining salmon stocks do not 
support commercial fisheries. Our fishers are trying to survive from 
shellfish products. In 1999, we had 700 licensed fishers who supported 
nearly 3,000 tribal members. Today, we have about 523 remaining. This 
means that more than 200 small businesses in our community have gone 
bankrupt in the past 15 years. This is the inescapable reality the 
Lummi Nation fishers face without salmon. We were the last surviving 
society of hunters/gatherers within the contiguous United States. We 
can no longer survive in the traditional ways of our ancestors.
                      lummi-specific requests--bia
+$2 million--Phase 1. New water supply system increase in funding for 
        hatchery construction, operation and maintenance. Funding will 
        be directed to increase hatchery production to make up for the 
        shortfall of wild salmon.
    The Lummi Nation currently operates two salmon hatcheries that 
support tribal and nontribal fishers in the region. The tribal hatchery 
facilities were originally constructed utilizing Federal funding from 
1969-1971. Predictably some of the original infrastructure needs to be 
repaired, replaced, and/or modernized. Lummi Nation fish biologists 
estimate that these facilities are currently operating at 40 percent of 
their productive capacity. Through the operation of these hatcheries 
the tribe annually produces 1 million fall Chinook and 2 million Coho 
salmon. To increase production, we offer a ``phased approach'' that 
addresses our water supply system. The existing system only provides 
850 gallons per minute to our hatchery. To increase production to a 
level that will sustain tribal and nontribal fisheries alike, we need 
to increase our water supply four fold. A new pump station and water 
line will cost the tribe approximately $6 million. We are requesting 
funding for the first phase of this project. Our goal is to increase 
fish returns by improving aquaculture and hatchery production and 
create a reliable, sustainable resource to salmon fishers by increasing 
enhancement.
+$300,000 to increase the funding for the BIA natural resources law 
        enforcement.--Two new officers, extended training beyond the 
        Police Academy, and one new patrol vehicle.
    The Lummi people rely on several commercial fisheries for their 
livelihood and several noncommercial fish, game, fowl, and natural 
plants for ceremonial and subsistence purposes. Lummi Natural Resource 
Officers patrol the Lummi Indian Reservation and all areas open to 
harvest within the Usual and Accustom (U&A) fishing grounds, and 
hunting and gathering areas of the Lummi Nation, as defined by the 
Treaty of Point Elliott and Federal court cases interpreting the 
treaty.
    There are currently three Natural Resource Enforcement Officers 
(NREOs) and one sergeant to patrol the 1,846 square miles of marine 
area and 9,145 square miles of the ceded lands. The NREO's patrol from 
the Canadian Border to Mount St. Helens; a distance roughly 300 miles 
north to south. The Natural Resource Officers patrol a vast area, with 
a large amount of natural resources to protect, including: shellfish, 
salmon, halibut, deer and elk, and other protected species. NREOs also 
respond to emergency oil spills and natural disasters.
    Currently, Lummi NREOs are only able to concentrate their patrol to 
the major treaty concerns of fishing, crabbing, and shellfish 
harvesting. Other important enforcement activities include: halibut 
fishing, hunting, goeduck harvests, derelict vessels and gear 
management, and monitoring protected species. The addition of two NREOs 
would mean that we could effectively patrol the U&A, enforce tribal 
laws, and protect our natural environment.
    To increase efficiency within the department and to promote safety 
of our officers, we request funds for training beyond the basic 
training that is given in the academy. Our officers patrol in boats, 
ATVs, and motorized vehicles, and require proper training in operation 
and maintenance.
Direct the DOI to fully fund the Office of Indian Energy and Economic 
        Development, Workforce Development Division to continue its job 
        training/development work that has resulted in jobs.
    Unemployment on the reservation has been very difficult to address 
with limited on-reservation jobs. Tribal governments need to be able to 
meet the employment and training needs of our membership as well as the 
business development needs of our communities. We need financial 
assistance to enable our membership to get the job skills the local 
(reservation and nonreservation) labor market demands. The Lummi Nation 
and many other tribes worked well with the Office of Indian Energy and 
Economic Development. We developed and successfully implemented a 
welding training program with the support of both union and nonunion 
companies. Now we hear that all employment and training funding has 
been eliminated from this office. We ask the subcommittee to direct the 
BIA to replace the employment and training support activities that were 
provided by the Office of Indian Energy and Economic Development.
                      lummi-specific requests--ihs
Request Funds for Community-based AIDS/HIV Rapid Testing
    Lummi Nation is requesting that all tribal health systems, 
operating within the IHS, be provided with an annual allocation to 
support community-based AIDS/HIV rapid testing based on the population 
served. Lummi Nation is experiencing an epidemic of black tar heroin 
among its addicted members. This has increased the risk in our 
community for contracting HIV. We are seeking this funding on an 
emergency basis, to support implementation of rapid HIV testing among 
all tribal members.
+$4 Million To Combat Drug Epidemic in Lummi Community
    Drug abuse is at epidemic proportions on the Lummi Reservation. The 
proximity of the Lummi Reservation to the United States and Canadian 
borders makes for a key ingredient in successful drug trafficking. With 
that prime ingredient add production, transportation, distribution, 
abuse, and drug-related crimes . . . welcome to where I live and where 
my people are becoming prisoners in our own homes.
    Our people are seeking a return to health through massive 
consumption of Lummi Nation healthcare resources. We have been 
successful in slowing the rate of death due to overdose suicides. We 
have increased the number of tribal members receiving substance abuse 
treatment and mental health counseling by 300 percent. But we are not 
equipped to keep pace with the increasing access and use of heroin and 
other opiate additive drugs that have besieged our ports, borders, 
communities, and citizens.

National requests--BIA:
  --TPA General Increase.--Provide $82.9 million (10 percent increase 
        more than fiscal year 2010) for general increase;
  --CSC.--Provide $50 million increase for BIA to fully fund CSC, 
        including direct CSC; and provide $5 million for the ISD Fund;
  --Law Enforcement/Tribal Courts/Tribal Detention Facilities.--Provide 
        $30 million more than fiscal year 2010 levels;
  --Education.--Provide $24.3 million to fully restore funding to JOM; 
        and
  --Increase funding to the OTSG to fully staff the office for the 
        increase of tribes entering Self-Governance.

National requests--IHS:
  --Fully Fund Current Services.--Provide $532 million for the IHS and 
        tribal pay costs, inflation, and population growth; staffing 
        for new/replacement facilities and healthcare facilities 
        construction previously approved plan;
  --Contract Health Services (CHS).--Provide $118 million increase for 
        CHS;
  --CSC.--Provide $122 million for the IHS to fully fund CSC; and
  --OTSG.--Increase $5 million to the IHS OTSG.

    Thank you for this opportunity to provide these oral and written 
appropriations priorities of the Lummi Nation.

    Hy'shqe.
                                 ______
                                 
                   Letter From Ludlow's Island Resort
                                                    March 28, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: I appreciate the 
opportunity to present this testimony in support of the Land and Water 
Conservation Fund (LWCF) in the fiscal year 2012 Interior, environment, 
and related agencies appropriations bill. In an historic embrace of 
conservation, the President's budget request includes full funding of 
the LWCF in fiscal year 2012. The proposed $900 million is the 
congressionally authorized amount for the program and seeks to renew 
focus on the promise of the LWCF: that it is right and wise to reinvest 
proceeds from offshore drilling receipts in the protection of natural 
resources and recreational access for all Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the LWCF is 
one that will permanently pay dividends to the American people and to 
our great natural and historical heritage. As the LWCF is funded from 
Outer Continental Shelf revenues, not taxpayer dollars, these funds 
should go to their intended and authorized use.
    As part of the full commitment to the LWCF in fiscal year 2012, the 
U.S. Forest Service (USFS) included $1.4 million for the acquisition of 
land in the Chippewa and Superior national forests in Minnesota in the 
President's budget. I am pleased that this funding was included in the 
request and urge the Congress to provide the full President's budget 
amount for the LWCF so that this important project can receive this 
needed funding.
    The Minnesota Wilderness land acquisition program includes the 
Superior and Chippewa national forests in Minnesota and is focused on 
protecting public access to lakes and streams as well as ensuring 
critical habitat protection for fish and wildlife. These forests offer 
Minnesotans and other visitors abundant opportunities for outdoor 
recreation and are an integral part of the Northwoods economy.
    Located in the northeastern-most tip of Minnesota, the Superior 
National Forest (SNF) spans 150 miles along the United States-Canadian 
border and is one of the wettest, wildest forests in the entire 
national forest system. The deep pine woods of the SNF play host to a 
landscape of lakes, bogs, and rocky outcrops that are remnants of the 
glacial period and create the only thriving boreal or northern forest 
in the continental United States. More than 10 percent of the forest 
consists of surface water, and another 1,300 miles of cold-water 
streams and 950 miles of warm-water streams flow within the forest's 
boundaries.
    Visitors to the SNF are attracted by its abundance of outdoor 
recreational opportunities. For wilderness devotees, there are few 
areas in the United States that can rival the solitude and timelessness 
of the Boundary Waters Canoe Area Wilderness (BWCAW), a maze of lakes, 
rivers, and rocks at the northern edge of the SNF, offering 12,000 
miles of canoe trails. Here and elsewhere in the forest, outdoor 
enthusiasts can enjoy camping, biking, canoeing, fishing, hiking, 
cross-country skiing, snowmobiling, and dog sledding. The deep foliage 
and plentiful water also attract a wide variety of wildlife, including 
bald eagle, common loon, moose, timber wolf, black bear, lynx, and 
migratory birds. The BWCAW hosts a quarter of a million visitors each 
year, who follow in the wake of Native Americans and the voyageurs--
those French-Canadian fur traders who canoed these waters 200 years 
ago.
    The Chippewa National Forest (CNF) is located in the heart of 
northern Minnesota, combining elements of western prairies and northern 
boreal forests. Within the forest, elements of these two ecosystems are 
found side by side: red oak next to white pine, wild ginger alongside 
wild rice, and Canada lynx habitat abutting sandhill crane territory. 
The CNF shares borders with the Leech Lake Band of Ojibwe. More than 
400,000 acres of the CNF are actually lakes and wetlands. The CNF 
contains 2 of Minnesota's 5 largest lakes, and eight different types of 
wetlands each with distinct plant and animal life. Sixty-seven of the 
314 wildlife species that make their home on the CNF are dependent on 
lakes and wetlands. More than 230 species use wetlands and only 20 
percent of Minnesota's original wetland remain today. The first 
national forest west of the Mississippi River, the CNF is one of the 
few areas with wetlands essentially unchanged since settlement. This 
area is unique in that it contains some 40 wild rice producing lakes.
    Through the USFS's Minnesota Wilderness acquisition program, four 
properties totaling 111 acres are available for acquisition in fiscal 
year 2012 in the Superior and Chippewa NFs. The President's budget for 
fiscal year 2012 includes a request for $1.4 million, which will go 
towards the acquisition of these tracts, whose total value is $2.728 
million. Funding for the SNF and CNF was also requested in fiscal year 
2011; if approved the $1.4 million request would protect Phase II of 
Wolf Island and a partial acquisition of Stony Point.
    Stony Point ($1.05 million).--The 40-acre Stony Point property is 
located on a prominent point on the shores of Leech Lake in the CNF. 
Home to thousands of acres of waterfowl and other wildlife habitat, 
Leech Lake has one of the largest nesting populations of bald eagles in 
the lower 48 States--almost 200 pairs. The Stony Point bald eagle 
nesting site contains a half-mile of Leech Lake frontage. The pristine 
parcel is completely surrounded by national forest ownership and likely 
contains Native American artifacts. Acquisition by the CNF would 
eliminate the need for road access that would otherwise impact more 
than a half-mile of undisturbed wetlands. The property was purchased by 
a developer who intended to develop it into several homesites, thus 
depriving forest visitors of significant scenic and recreational 
values.
    Kremer Lake ($1.125 million).--Located on the eastern boundary of 
the CNF, the 43-acre Kremer Lake property offers substantial lakeshore 
protection along the Edge of the Wilderness National Scenic Byway (Rte. 
38) near Grand Rapids in Itasca County. The Kremer Lake parcel is 
located along the north shore of this more than 80-feet deep small 
lake, which lies along the west side of the byway. The property has 
more than 4,500 feet of riparian shoreline and is adjacent to the Suomi 
Hills Semi-Primitive Recreation Area. It is located within the Upper 
Mississippi River watershed and contains wildlife habitat for the 
endangered gray wolf and the Canadian lynx, as well as for the 
sensitive bald eagle. This property offers substantial recreational 
opportunities, such as fishing, hiking and cross country skiing, and 
its acquisition would improve public access to the lake for these 
purposes. Demand for summer recreational residences and hunting cabins 
is present in the area near Grand Rapids, and portions of the Kremer 
Lake property could be developed for this purpose. Its acquisition 
would eliminate any development threat and ensure permanent protection 
of critical water resources.
    Fall Lake I and II ($553,000).--Two adjacent properties totaling 
just more than 28 acres are available this year and would provide 
access into the BWCAW, lakefront protection, and enhanced recreational 
opportunities for the SNF. Both properties are located on a peninsula 
that is otherwise almost completely protected by USFS ownership. The 
Fall Lake I property, at 11 acres, is primarily forested, features 550 
feet of frontage on Fall Lake and adjoins the BWCAW. A USFS campground 
situated across from the tract makes it especially desirable for the 
SNF. The landowners had considered disposing of the property because of 
escalating property taxes, but they have now chosen to sell the 
property for conservation by working through a nonprofit conservation 
organization. The Fall Lake II property, at 17.3 acres, features 413 
feet of frontage on Fall Lake and also adjoins the BWCAW. The 
property's landowners were not willing to wait until Federal 
acquisition funds might be available, so a nonprofit conservation 
organization agreed to purchase the property and hold it for the USFS 
until the USFS acquisition funds are available. The property is 
primarily upland forest with some forested wetlands. The Superior NF 
recognizes the need to protect the scenic values of the BWCAW by 
acquiring these highly developable properties now.
    Public acquisition of Stony Point, Kremer Lake, and the Fall Lake 
properties will ensure that the attributes of the Northwoods region so 
treasured by its many visitors--the solitary sound of the common loon, 
the serenity of an evening paddle, and the call of the wild--will be 
protected in perpetuity. While the total value of these three tracts is 
$2.728 million, an allocation of $1.4 million from the LWCF as proposed 
in the President's budget for fiscal year 2012 will allow the USFS to 
begin to secure these properties and provide greater access for current 
and future generations of visitors to both secluded lakes and popular 
lakes within the forests that are such critical natural resources for 
the public.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, public lands, and at 
State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    My resort, located on Lake Vermilion relies on visitors to the 
great Northwoods of Minnesota. Protection of key places, such as Wolf 
Island, Stony Point, Kremer Lake/Spider Lake are critical to insure 
that future generations can continue to enjoy these valued resources as 
well as contribute to the tourism economy in the area.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Minnesota, and I appreciate your consideration of 
this funding request.
            Sincerely,
                                               Mark Ludlow,
                                                             Owner.
                                 ______
                                 
     Prepared Statement of the Little River Band of Ottawa Indians
    My name is Larry Romanelli. I am the elected Ogema of the Little 
River Band of Ottawa Indians situated in Michigan. Our tribe is 
organized under the Indian Reorganization Act of 1934 and is comprised 
of more than 4,000 tribal citizens. I offer this testimony in support 
of fully funding the United States' legal obligation to pay contract 
support costs (CSC) to tribes like the Little River Band that have 
contracted or compacted with the United States to operate the Indian 
Health Service (IHS) and Bureau of Indian Affairs (BIA) programs. To 
meet that legal obligation, the IHS appropriation for CSC should be 
increased to $615 million, and the BIA appropriation for CSC should be 
increased to $228 million.
    The Little River Band operates a self-governance compact with IHS. 
Under our compact we administer a clinic that includes a family 
physician, a registered nurse, and a laboratory. We also employ 
community health representatives (CHRs)--nurses and diabetic 
specialists who make home visits across a nine-county area. We provide 
out-patient substance abuse treatment services, as well as prevention 
initiatives, along with additional mental health services. And for care 
that goes beyond our in-house capacity, we administer an elaborate 
contract health services program under which we collaborate with local 
private providers. Our compact totals more than $1.5 million annually, 
and in direct care delivery we employ 38 people in several disciplines 
and service focuses.
    We fully honor our compact with IHS. We have excellent independent 
audits. We also provide far better care than IHS would ever be able to 
provide if IHS were in direct control of these services. Our tribal 
management is smarter, more dedicated, and better able to match local 
services to the needs of our patients and our community. We combine an 
efficiency and effectiveness that IHS could never match. We are very 
proud of what we have been able to achieve in carrying out the 
essential governmental function of healthcare pursuant to our contracts 
and now our compact.
    But IHS has not honored its bargain with us.
    Specifically, IHS has failed to pay us CSC that IHS, itself, 
calculates that we have been owed. Every year IHS issues a CSC 
shortfall report, detailing the amounts by which IHS underfunds our 
contract. It is a truly stunning admission of the agency's breach of 
our rights.
    According to IHS' data, in fiscal year 2010 IHS underpaid the Band 
by $386,022. For us, $386,022 is six nursing positions. It is six 
substance abuse counselors in our understaffed behavioral health 
department. It purchases 6 years' worth of vaccine and medical supplies 
necessary to operate our clinic. It is equivalent to nine full-time 
billing specialists to assist us in collecting third-party revenues.
    The IHS CSC shortfall report only tells part of the story, for IHS 
is funding us at only 33 percent of our actual expenditures for 
healthcare. Yet, even with the additional contribution the tribe makes 
each year, we are spending less per person than is spent on the average 
Federal employee health plan beneficiary. I cannot think of a single 
contractor we work with that would provide service to us for one-third 
of the actual costs to do the work
    The shortfall we have faced year after year must finally be closed. 
Once closed, the funds will be used to enhance healthcare services 
through increased employment, because at the Band we currently leave 
positions vacant to make up for the shortfall in IHS covering our fixed 
costs. Just last year, when our shortfall was reduced by just $290,000, 
the Band was able to fill six positions, including a physician's 
assistant, a nurse, a medical assistant, a clinical applications 
coordinator, a billing office coordinator, and a benefits coordinator. 
Plainly the CSC shortfall is costing us jobs and, just as plainly, 
reducing that shortfall will help restore those jobs.
    The same is true with our BIA contract. The BIA's data shows that 
last year we were underpaid $273,532, representing five lost positions 
in a contract devoted to public safety, family services, education, 
governance, and natural resources. Eliminating that deficit would 
enable us to expand education and training programs to prepare our 
students for the types of jobs that are currently in demand and will be 
on the cutting edge of the Nation's future:
  --information technologies;
  --alternative energy development; and
  --skilled tradesmen for infrastructure development.
    We could set up ``friend of the court'' and child support 
enforcement agencies to ensure that dependent children are supported 
appropriately and have their needs met in their best interest and in a 
proper cultural setting. We could expand our economic development 
through diversification of enterprise ventures that could meet the 
needs of the current economic recovery.
    In short, eliminating the shortfall would help us to leverage 
permanent employment positions in many of the areas I have mentioned, 
providing the people of my Band economic stability and employment 
security in a populace that critically needs help to attain the 
standard of living most of America enjoys. But the BIA and IHS first 
have to be furnished sufficient funds to pay all of its contracts in 
full. The CSC shortfalls must be stopped.
    But pulling together does not mean dishonoring the contracts we 
make. Our tribe would never break a contract we made, and the Federal 
Government has no excuse for breaking its contracts with our tribe--all 
the more so given the tragic history our tribe has already suffered as 
a result of hostile government policies.
    So, I come here today to ask that the Congress direct the IHS and 
the BIA to finally honor their contracts with our tribe, and their 
contracts with all other tribes, by fully paying the CSC to which we 
are entitled, and by adding the necessary appropriations to finally get 
these sums paid.
    Thank you for the opportunity to testify today on these critical 
issues.
                                 ______
                                 
      Prepared Statement of the Maine Appalachian Trail Land Trust
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Forest Legacy Program (FLP) in the fiscal year 2012 Interior 
appropriations bill. FLP works with landowners, the states, and other 
partners to protect critical forestlands with important economic, 
recreation, water quality, and habitat resources through conservation 
easement and fee acquisitions. The program has protected more than 2 
million acres in 43 States and territories, consistently with a 50 
percent non-Federal cost share, double the required 25 percent cost 
share. For several years this important conservation program has been 
funded under the umbrella of the Land and Water Conservation Fund 
(LWCF).
    In an historic embrace of conservation, the President's budget 
request includes full funding of LWCF in fiscal year 2012. The proposed 
$900 million is the congressionally authorized amount for the program 
and seeks to renew focus on the promise of the LWCF: that it is right 
and wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans. Of that $900 million, the President requested $135 million 
for FLP.
    The Appalachian Trail (AT) travels 281 miles across Maine from the 
summit of Mount Katahdin southwesterly to the Maine-New Hampshire 
border. The Maine Appalachian Trail Land Trust was formed in 2002 for 
the purpose of identifying lands along the AT that have high natural 
resource and recreational value, then working with willing landowners 
to explore ways that the landowner, communities, and recreationists 
would benefit from State ownership of land parcels or easements. This 
State of Maine application for FLP funding is the result of those 
efforts.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the FLP is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from OCS 
revenues, not taxpayer dollars, these funds should go to their intended 
and authorized use.
    As part of the full commitment to LWCF and FLP in fiscal year 2012, 
the U.S. Forest Service included $1.73 million for the High Peaks--
Orbeton Stream project in Maine in the President's budget. I am pleased 
that this funding was included in the request and urge the Congress to 
provide the full President's budget amount for FLP so that this 
important project can receive this needed funding.
    With more than 15 million acres of forestland, Maine remains one of 
the Nation's most heavily forested States. The white pine, spruce fir, 
and northern hardwoods that characterize the Maine woods are a critical 
component in two of Maine's largest industries--forestry and tourism. 
They provide incredible recreational opportunities for the State's 
residents and many visitors, including hiking, hunting, snowmobiling, 
fishing, camping, boating, and numerous other activities. This 
landscape also sustains valuable fish and wildlife habitat for many 
different animal species.
    One of the greatest challenges facing Maine's forests is the 
fragmentation of ownership and the conversion of lands to nonforest 
uses. With most of Maine's woods being privately owned, the State of 
Maine and its nonprofit partners have been working to protect critical 
areas using a combination of Federal, State, local, and private funding 
to purchase targeted fee lands and large-scale conservation easements. 
The State of Maine was 1 of the original 5 States to join FLP when it 
was created in 1990 and has greatly benefited from the matching Federal 
funds that has to date resulted in the conservation of almost 675,000 
acres of forestlands. These forestlands now provide permanent 
protection of valuable natural resources, public access to renowned 
recreation lands, and continued harvesting of timber resources in a 
sustainable fashion.
    Continuing its focus on protecting strategically important 
recreation lands, the State of Maine has proposed the 17,000 acre High 
Peaks Conservation Project (Crocker Mountain and Orbeton Stream) for 
FLP funding in fiscal year 2012. The High Peaks Conservation Project 
will protect two key tracts that are part of a 71,000-acre network of 
conserved lands in Franklin County that includes the Bigelow Preserve, 
the Redington Navy Base, the Mount Abraham Reserve, and the National 
Park Service AT corridor. AT bisects the Crocker Mountain parcel for 
approximately 10 miles and is within the viewshed of the northern 
portion of the Orbeton Stream parcel. Protecting these two tracts will 
preserve both motorized and nonmotorized trail networks in the region 
and enhance the Rangeley/High Peaks area as a tourist destination. More 
than 75 percent of the acreage conserved will stay in working forest 
status and continue to provide a source of raw materials for the 
forestry, logging, wood products, paper, and furniture manufacturing 
industries in Franklin County.
                            crocker mountain
    The Crocker Mountain tract holds exceptional economic, natural 
resource, and recreational value for the State of Maine. At almost 
11,800 acres, it is the largest remaining working forest in the Town of 
Carrabasset Valley. Given that Franklin County has the highest 
percentage of workers in the forest products industry in Maine, 
continuing to operate roughly 60 percent of the property as working 
forest will help keep the region's forestry workers employed.
    The Crocker Mountain property contains 3 of the 14 highest peaks in 
Maine and is part of the State's largest subalpine forest. Climate 
models predict that this high mountain area will be one of the few 
places in the Northeast to retain consistent snowpack, cold 
temperatures, and spruce fir forests that are needed for species like 
Eastern brook trout, lynx, marten, and snowshoe hare. The property also 
contains 25 percent of the global population of the State-listed 
endangered Roaring Brook mayfly. This insect is only found at 12 
locations in the world and 3 of the locations are on the Crocker 
Mountain property.
    The property buffers a spectacular 10-mile section of the AT. In 
addition, it includes approximately 3 miles on snowmobile Route 115 of 
Maine's Interconnected Trail System (ITS) and 4 miles of the State-
sanctioned ATV trail system that serve as important links in the 
State's network of motorized trails. Protection of the property will 
guarantee access for nonmotorized recreation as well, including 
hunting, hiking, mountain biking, and cross-county skiing.
    This project represents an important opportunity to protect 
significant ecological resources, preserve jobs in Maine's forest 
products industry, and promote outdoor recreation in the region. The 
State of Maine will pursue sustainable timber harvesting on the 
property, which will maintain local jobs and provide a revenue stream 
for the Bureau of Parks and Lands. Located only a stone's throw away 
from Sugarloaf Ski Resort-Maine's most popular ski area-Crocker 
Mountain is prime real estate for second home residential development. 
If a conservation sale is not successful, the landowner, a real estate 
investment trust, will pursue a development strategy.
    The High Peaks Conservation Project represents another outstanding 
model for a successful Federal/State/private partnership that will keep 
forests as forests for public benefit and maintain their value as a 
source of timber to fuel the State's economy. Without immediate 
protection, the Crocker Mountain parcel faces a serious threat of 
development. In fiscal year 2012, the Maine Bureau of Parks and Lands 
is requesting an allocation from the FLP of $7 million to acquire the 
11,798-acre Crocker Mountain parcel in fee.
                             orbeton stream
    The Orbeton Stream property is owned and managed for timber by a 
small local family timber company that uses the fiber to supply its 
mill, directly supporting the company's 40 employees. The company also 
supplies fiber to all of the major mills located throughout Franklin 
County. Protecting this 5,808-acre property from subdivision and 
development through the purchase of a conservation easement will help 
keep Maine's forests working and will ensure access for recreation, 
including backwoods fishing for native wild brook trout, and hiking, 
paddling, and hunting.
    The property is in the primary foreground viewshed of AT and 
maintaining its undeveloped state is integral to preserving the scenic 
characteristics of this section of the trail. The property has been 
identified as a priority for conservation by the State wildlife action 
plan and other conservation planning efforts. The Orbeton property also 
includes a critical 6.4-mile section of snowmobile Route 84 of Maine's 
ITS system.
    The entire Orbeton Stream parcel has been designated by the 
National Oceanographic and Atmospheric Administration as critical 
habitat for the federally listed Atlantic salmon. In 2007, as a result 
of significant restoration efforts by the Maine Department of Marine 
Resources, salmon reared in the Orbeton watershed returned from the 
North Atlantic Ocean for the first time in more than 150 years. The 
Eastern Brook Trout Joint Venture has identified this property as one 
of its highest priorities for protection. Conserving the Orbeton Stream 
property will ensure a continued source of sustainably managed and 
certified forest products and protect a strategically important parcel 
for outdoor recreation. This property is at great risk of development 
and without income from the sale of a conservation easement, the 
landowner will have few other options but to subdivide the property.
    The High Peaks Conservation Project represents another outstanding 
model for a successful Federal/State/private partnership that will keep 
forests as forests for public benefit and maintain their value as a 
source of timber to fuel the State's economy. Without immediate 
protection, the Crocker Mountain parcel faces a serious threat of 
development. In fiscal year 2012, the Maine Bureau of Parks and Lands 
is requesting an allocation from FLP of $1.73 million to purchase a 
conservation easement on the 5,808-acre Orbeton Stream parcel.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of these nationally important 
protection efforts in Maine, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
         Letter From the Marine Conservation Biology Institute
                                                     April 6, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: The Marine Conservation 
Biology Institute (MCBI), based in Bellevue, Washington, is a nonprofit 
conservation organization whose mission is to protect vast areas of the 
ocean. We use science to identify places in peril and advocate for 
bountiful, healthy oceans for current and future generations. MCBI 
supports the U.S. Fish and Wildlife Service (USFWS) National Wildlife 
Refuge System (NWRS) for the habitats it protects, particularly the 
monuments and refuges that conserve marine environments. I wish to 
thank the members of the Subcommittee on the Interior, Environment, and 
Related Agencies for the opportunity to submit written testimony 
recommending $9.03 million in fiscal year 2012 for the management of 
the Nation's marine monuments.
    The USFWS NWRS oversees 553 refuges and 4 marine national monuments 
covering more than 234,000 square miles. A comprehensive analysis 
compiled by the Cooperative Alliance for Refuge Enhancement (CARE), of 
which MCBI is a member, shows that the NWRS needs at least $900 million 
in annual operations and maintenance funding to properly administer its 
lands and waters, educational nature programs, habitat restoration 
projects, and much more. Of that $900 million goal for the NWRS, $18 
million is needed to provide sufficient management of the marine 
national monuments.
    Four marine national monuments have been established in the Pacific 
Ocean since 2006: Papahanaumokuakea Marine National Monument, Marianas 
Trench Marine National Monument, Pacific Remote Islands Marine National 
Monument, and Rose Atoll Marine National Monument. Together, these 
monuments protect approximately 335,348 square miles of marine habitat, 
of which the Service's jurisdiction from the Hawaii-Pacific Refuge 
Complex increased by 215,600 square miles. These four monuments include 
12 marine refuges and more than 20 islands, atolls, and reefs spread 
across the vast Pacific Ocean. President Bush gave the Department of 
the Interior (designated to the USFWS) management responsibility over 
the three newest monuments, although the Department of Commerce 
maintains primarily responsibility for managing fishing in the outer 
waters. In sum, USFWS responsibilities in the Pacific Islands have 
increased substantially, but the funding to manage these vast areas has 
not followed suit.
               papahanaumokuakea marine national monument
    Papahanaumokuakea Marine National Monument is managed collectively 
by the Department of the Interior, USFWS; the Department of Commerce, 
National Oceanic and Atmospheric Administration (NOAA); and the State 
of Hawaii, Department of Land and Natural Resources. The monument is 
home to millions of seabirds, an incredible diversity of coral species 
including deep-sea corals, and the highly endangered Hawaiian monk 
seal. Approximately 90 percent of Hawaii's green sea turtles nest in 
the monument, as do about 99 percent of the world's population of 
Laysan albatross and 98 percent of the black-footed albatross. These 
islands within the monument are also important to Native Hawaiians for 
culture, history, and religion.
            pacific remote islands marine national monument
    The Pacific Remote Islands Marine National Monument contains some 
of the last remaining, relatively intact coral reef and pelagic 
ecosystems in the Pacific Ocean. Any 1 of the 7 coral islands contains 
nearly four times as many shallow water, reef-building coral species as 
the entire Florida Keys. The monument provides habitat for an estimated 
14 million seabirds and many threatened or endangered species such as 
leatherback, loggerhead, and green sea turtles; humphead wrasse; 
bumphead parrotfish; and the globally depleted giant clam. An estimated 
200 seamounts, most of which have yet to be identified or explored, are 
predicted to exist in the pelagic zone within 200 nautical miles of 
these seven islands. Seamounts are important biodiversity hotspots 
because they provide habitat and localized nutrients in the vast 
pelagic waters of the Pacific.
                  rose atoll marine national monument
    Rose Atoll Marine National Monument is home to a very diverse 
assemblage of terrestrial and marine species, many of which are 
threatened or endangered. Rose Atoll supports 97 percent of the seabird 
population of American Samoa, including 12 federally protected 
migratory seabirds and 5 species of federally protected shorebirds. 
Rose Atoll is the largest nesting ground in the Samoan Islands for 
threatened green sea turtles and is an important nesting ground for the 
endangered hawksbill turtle. Rose Atoll also provides sanctuary for the 
giant clam, whose population is severely depleted throughout the 
Pacific Ocean.
                marianas trench marine national monument
    The Marianas Trench Marine National Monument protects areas of 
biological, historical, and scientific significance. The monument is 
home to unusual life forms found in its boiling and highly acid waters, 
highly diverse and unique coral reef systems (more than 300 species of 
stony coral), and an astonishingly high population of apex predators, 
including large numbers of sharks. It monument also encompasses the 
Mariana Trench, the deepest ocean area on Earth, deeper than Mount 
Everest is tall.
           marine national monument management implementation
    It is imperative that USFWS establish appropriate management 
measures to adequately protect the land, waters, and seafloor of all 
four of these relatively pristine marine monuments. In particular, the 
USFWS must have adequate funds to continue to develop management plans 
for each monument, hire adequate management personnel, provide 
transportation to visit the islands on a regular basis, develop plans 
to restore damaged reefs and lands, and consult with NOAA and the U.S. 
Coast Guard to provide proper surveillance and enforcement actions for 
all the monuments.
    Restoration actions are needed at most of the islands, including 
restoring natural habitats, removing discarded equipment and structures 
from past military occupations, and dealing with old waste disposal 
sites. Additionally, human exploration and occupation has introduced 
many invasive species to the islands, including various rodents, 
insects, and plants, which should be removed for the survival of the 
native species.
    For example, two fishing vessels that grounded in the Pacific 
Remote Islands Marine National Monument have yet to be removed and are 
currently devastating the surrounding coral ecosystems. In 1991, a 121-
foot Taiwanese fishing boat sank on Palmyra Atoll; in 2007 an abandoned 
85-foot fishing vessel was discovered on Kingman Reef. These two 
islands are home to coral reefs that are some of the most pristine in 
the world. The Palmyra wreck sits directly on the reef and continues to 
damage the ecosystem by leaching iron into the water which has 
accelerated the rapid growth of a nuisance corallimorph, Rhodactis 
howesii. According to the report by the U.S. Geological Service and the 
University of Hawaii, greater than 100 million corallimorph individuals 
cover more than 247 acres of the bottom. The most recent expedition to 
the atoll shows that the corallimorph doubled coverage in 1 year 
(within 500 meters of the ship in 2007 to 1,100 meters in 2008). Refuge 
managers recently reported that the corallimorph is continuing to 
spread out of control and the ship must be removed immediately to avoid 
further damage to the ecosystem.
    The Kingman Reef wreck's initial grounding gouged the reef and has 
continued to cause physical and ecological damage. The area is showing 
early signs of the nuisance corallimorph, as well as an elevated growth 
of algae. The algae and the corallimorph become very abundant when 
stimulated by increases in limited nutrients, such as iron from 
corroding ship, and in time smother and kill the surrounding coral 
reefs. The algae are present on nearly 10 percent of the metal debris 
(metallic engine parts, piping, cookware, etc.). Both the algae and 
corallimorph are present within 200 meters of the abandoned shipwreck. 
As the ship continues to break apart, more steel will be scattered over 
the reef crest encouraging algae and corallimorph growth. If this 
growth continues unabated, it is expected to spread towards the north 
facing shoreline where more fragile coral gardens are located.
                          appropriation needs
    MCBI requests that the subcommittee increase funding for NWRS 
operations to $9.03 million in fiscal year 2012 to begin to properly 
manage and restore the four Pacific monuments. Of the approximately 
$7.5 million that USFWS received in fiscal year 2010 to manage 
Papahanaumokuakea Marine National Monument, over half contributed to 
the maintenance and operation of Midway Atoll Airfield and upkeep of 
historic buildings, which is managed and funded jointly with the 
Federal Aviation Administration. The remaining USFWS funds were 
inadequate for monument resource management needs. For instance, USFWS 
does not currently have adequate funds to hire a biologist for the 
monument.
    MCBI recommends a small increase of $0.5 million to continue to co-
manage Midway Atoll Airfield and more adequately manage the natural 
resources of the monument. The requested amount is in line with the 
National Oceanic and Atmospheric Administration's funding to co-manage 
the monument.
    Furthermore, USFWS received less than $200,000 in fiscal year 2010 
for management of the three new marine monuments. It has been more than 
2 years since the establishment of the newest monuments and an increase 
of less than $200,000 to manage these three extraordinary marine 
monuments is unacceptable. To properly manage and restore these 
monuments, the monuments at minimum need $1.03 million to hire a 
manager to oversee each new monument (a Rose Atoll Manager was funded 
in fiscal year 2010), one public planner position to aid in management 
responsibilities, and associated administrative costs such as office 
space costs and travel expenses. Additional funds would begin to 
address restoration measures to remove nuisance and invasive species 
that are impacting native wildlife populations. Funds will also fund an 
initial assessment for the removal of the two shipwrecks mentioned 
above that are damaging coral habitats.
    In summary, the USFWS has not requested sufficient funds in fiscal 
year 2012 to meet its stewardship responsibilities to manage the four 
marine national monuments and associated refuges.
    MCBI respectfully recommends that the subcommittee appropriate a 
total of $9.03 million to USFWS NWRS to protect and restore these 
marine conservation areas for current and future generations.
    Thank you for the opportunity to share our views.
            Sincerely,
                                          William Chandler,
                             Vice President for Government Affairs.
                                 ______
                                 
    Prepared Statement of the Miccosukee Tribe of Indians of Florida
    Chairman Reed, Ranking Member Murkowski, members of the 
subcommittee, on behalf of the Miccosukee Tribe of Indians of Florida, 
thank you for the opportunity to submit testimony to the subcommittee 
to address several issues of importance to the Miccosukee Tribe of 
Indians of Florida. When I was sworn in as Chairman in January 2010, I 
made several commitments to the Miccosukee people including good 
governance, protecting and enhancing our sovereignty, economic 
development, and environmental stewardship. As elected officials, you 
understand the great honor, but also the great responsibilities of 
leadership. We need your support in several areas related to our tribe, 
Indian country, as well as our home, the Florida Everglades. These 
remarks focus on programs at the Interior Department including the 
National Park Service (NPS), the Bureau of Indian Affairs, among other 
matters including the Congressional trust relationship with Indian 
country.
      carcieri v. salazar fix: action needed in the 112th congress
    I urge the Senate to try again this Congress to enact a legislative 
fix to address the harmful effects of the U.S. Supreme Court decision, 
Carcieri v. Salazar. As you are aware, since 1934, the Department of 
Interior has construed the Indian Reorganization Act to allow the 
Secretary of the Interior to place lands into trust status for all 
federally recognized Indian tribes. The Carcieri decision has 
overturned this principal by not allowing the placement of lands into 
trust for certain tribes. If this mistaken interpretation of the Indian 
Reorganization Act is not corrected, it will lead to unequal treatment 
of currently federally recognized tribes; threatening tribal 
sovereignty, economic self-sufficiency, and self-determination. It will 
also create long-term challenges to public safety and criminal 
jurisdiction across Indian country, and put in serious risk important 
and much needed land acquisitions for schools, housing, health clinics, 
and protection of tribal sacred sites. On behalf of the Miccosukee 
people, I strongly urge the 112th Congress to take concrete and 
immediate steps to correct this issue. The longer you delay action, the 
more Indian country will suffer.
             dispelling myths about federal tribal programs
    I want to commend this subcommittee's oversight efforts. Your 
taking a closer look at the management practices of the Department of 
the Interior, as well as regulatory overreach by the NPS, is necessary 
and long overdue. We are living in challenging economic times and, as I 
will detail shortly, the Department of the Interior and its many 
bureaus are unnecessarily making everyday life more difficult for the 
Miccosukee Tribe and the Miccosukee people. Working together, in 
substantive government-to-Government and sovereign-to-sovereign 
partnership, we will begin to fix these problems through better 
communication and consultation. As chairman of the Miccosukee Tribe, on 
behalf of the Miccosukee people, I have already met with several 
Members of Congress and agency officials to discuss some of these 
issues. But we need to do much more. And the Congress, particularly, 
needs to step-up and do more to correct the mismanagement.
    I have two issues that I would like to discuss in more detail. One, 
we need to dispel the myth that Federal tribal assistance programs are 
no longer needed because of Indian gaming. Two, I will ask for your 
support about an environmental catastrophe in the making in our home, 
the Florida Everglades. On this latter point, I am sure that it is not 
everyday that witnesses come before this subcommittee not to ask for 
funding, but rather to save the Federal Government millions of dollars. 
As you are all well aware, the U.S. Constitution explicitly recognizes 
Indian tribes as sovereign governments. Furthermore, the United States 
has historically developed a legal policy based on Federal trust 
responsibility towards Native Americans and Indian tribes. In 1942, the 
Supreme Court held in Seminole Nation v. United States, that the 
Federal Government has charged itself with moral obligations of the 
highest responsibility and trust. The Congress has a unique and 
important role in this process. Nevertheless, we all know that in 
practice, this Federal trust responsibility has not worked as well as 
it should.
    There is a misperception in popular culture and, regrettably, among 
some in the Congress, that Federal tribal assistance programs are 
comparable to welfare. Nothing could be further from the truth. Federal 
tribal assistance programs are designed and used to further assist the 
Federal Government to carry out its legal and moral duty towards Indian 
country--legally binding special relationship that the United States 
has voluntarily created by its actions and policies.
    Some tribes, like the Miccosukee Tribe, have Indian gaming. Through 
Indian gaming, many Indian tribes have been able to defeat the vicious 
cycle of poverty and economic stagnation. These enterprises help 
achieve significant improvements in the areas of health, housing and 
education. While not all Indian tribes have Indian gaming, even those 
that have successful gaming businesses have been severely affected by 
worldwide economic crisis.
    Federal tribal assistance programs should never be considered gifts 
by the Federal Government, but rather well established commitments. 
Federal tribal assistance programs are simply what the word means: 
assistance. This program provides much needed supplemental funds for 
vital tribal programs for the young, elder and infirm, as well as for 
tribal judicial systems. The proceeds from Indian gaming, even for 
those gaming enterprises that are very successful, are simply not 
enough to provide for all of these vital services.
    We applaud subcommittee efforts to maintain and increase Federal 
funding for tribal healthcare, education, social services, and other 
vital programs. I urge you to take a close and hard look at these 
programs and make sure that they are not de-funded or underfunded. The 
incidence of Indian country poverty continues to be among the highest 
of any minority group in the United States. Federal tribal assistance 
programs are a critical component of the tribes' plan to achieve self-
sufficiency. Therefore, Federal tribal assistance programs must be 
maintained at the current levels or increased. The Miccosukee people, 
however, recognize that in this new era of fiscal responsibility and 
spending restraints, there may come a time when a program needs to be 
de-funded. The Miccosukee people have such program for you: a very 
expensive, scientifically un-sound and arbitrary Interior Department 
bridging project that will cause great harm to the Florida Everglades 
and to the Miccosukee people.
      everglades bridging--an environmental disaster in the making
    As many of you in this subcommittee are aware, in addition to 
utilizing the proceeds from Indian gaming to finance vital services for 
the community, the Miccosukee Tribe and the Miccosukee people also use 
these proceeds to honor and protect our sacred, religious, and 
traditional stewardship of the land. We do this by supporting sound 
projects that are designed to protect and save our ancestral home, the 
Florida Everglades.
    As the chairman of the Miccosukee Tribe, I am humbled, but at the 
same time, proud to represent to you that no one in the history of the 
United States has done more to protect the Florida Everglades than the 
Miccosukee people. Our unwavering commitment to protect, save, restore, 
and preserve the Florida Everglades is based on well-rooted historical 
and religious reasons. The Florida Everglades is today, as it has been 
for centuries, the home of the Miccosukee people. We have invested, and 
continue to invest, our human and economic resources in making sure 
that future generations of Miccosukees, Floridians, and the world will 
have a clean and environmentally sound Everglades.
    ``We must honor the earth, from where we are made'' is not a slogan 
but a central tenet of the Miccosukee people. When the Everglades hurt, 
we hurt. For years our tribe has struggled to have an equal place at 
the table with regards to Everglades restoration. As this subcommittee 
well knows, the Miccosukee people's commitment to the protection of the 
Florida Everglades is well-documented. Our commitment to Everglades 
conservation is unwavering.
    In 2008, the Interior Department and U.S. Army Corps of Engineers 
decided to build a 1 mile-long bridge at the eastern end of the Tamiami 
Trial (U.S. Highway 41), which runs east to west through the Florida 
Everglades and the Miccosukee Tribe, connecting Miami-Dade County and 
Collier County. The price tag at the time was $81 million. The 
Miccosukee Tribe immediately realized that this project was fiscally 
and scientifically unsound. We filed for a declaratory and injunctive 
action in Federal District Court. The judge agreed with our arguments, 
labeling the project as an ``environmental bridge to nowhere''. On 
November 13, 2008, the judge issued a temporary injunction against the 
project and temporarily stopped further construction until all Federal 
laws, rules and procedures, such as the National Environmental Policy 
Act (NEPA), were complied with. Unfortunately, the Congress was 
misinformed and mistakenly led to intervene the following year.
    On March 11, 2009, the Congress passed the Omnibus Appropriations 
Act of 2009. In this appropriations act, language was inserted that 
authorized the expenditures of funds already allocated for this project 
and to continue construction, ``notwithstanding any other provision of 
law.'' By inserting this provision, the Congress deliberately overruled 
the Federal injunction and divested the Federal courts of subject 
matter jurisdiction over this important matter. This legislative 
maneuver was done without any input from the Miccosukee Tribe, its 
representatives or other advisors in Florida and Washington, DC. We 
believe that the ``notwithstanding any other provision of law'' 
language used to start this bridge work violates our Constitutional 
rights and goes against several existing Federal laws including NEPA; 
Native American Graves Protection and Reparation Act (``NAGPRA''); the 
American Indian Religious Freedom Act (``AIRFA''); and the National 
Historic Preservation Act (``NHPA''), among others.
    The Miccosukee Tribe can find no better example in recent 
Everglades restoration history of the dangers of misguided Federal 
largesse and counter-productive environmental legislation than this One 
Mile Bridge. It symbolizes all that is wrong with an arbitrary 
appropriation maneuver conducted without consultation with the 
government and people that the legislation will affect. It is 
emblematic of the what the Government Accountability Office (GAO) said 
in 2007 about the Comprehensive Everglades Restoration Plan (CERP): 
there is ``little assurance'' that the CERP will be effective because 
the agencies and officials are not using any overarching sequencing 
criteria for the work, but rather focus on availability of funds. See 
South Florida Ecosystem: Restoration Is Moving Forward but Is Facing 
Significant Delays, Implementation Challenges, and Rising Costs (GAO-
07-520, May 31, 2007).
    In this One Mile Bridge project, the Department of the Interior, 
the NPS and the United States Corps of Engineers have, like in previous 
occasions, instead of working with the Miccosukee as true partners to 
save the Everglades, largely ignored our ideas. The concerns of the 
Miccosukee people were ignored. Less expensive, safer and 
scientifically available alternatives supported by the Miccosukee Tribe 
and the former Commandant of the U.S. Army Corp of Engineers for the 
region were also ignored.
    In January 2010, the University of Miami released a study that 
supports our position that a Culvert Approach will be just as effective 
as bridging. Under the Culvert Approach, the focus will be on clearing 
existing culverts, which are small tunnels or bridges under the Tamiami 
Trail. Also adding additional culverts where necessary, and clearing a 
large swale area south of each culvert. This will be accomplished 
following the Time Sequence Plan detailed in CERP. The Culvert Approach 
will save millions of dollars of taxpayers' money and will deliver the 
same amount of water to the Everglades National Park as the current 
proposal. In contrast to the elevated bridge approach represented by 
the One Mile Bridge, or any future bridges, the cost of the Culverts 
Approach will be significantly less and will potentially save the 
Federal Government close to $400 million.
    We have yet to receive a detailed, verifiable cost-estimate on the 
One-Mile Bridge. There seems to be $60 million in the President's 
current budget for Mod Waters, $8 million of which will be used for 
Limited Reevaluation Report (LRR) work that specifically includes the 
One-Mile Bridge. In 2009, the fiscal year 2010 omnibus included $234 
million for NPS construction projects, including the One-Mile Bridge. 
This subcommittee has the power to direct the Secretary of the Interior 
to exercise his discretionary authority to stop construction of this 
One Mile Bridge and to do the required studies. This is the right thing 
to do from a scientific, fiscal, and practical perspective. With the 
aforementioned in mind, no additional bridging should be authorized or 
appropriated by the Congress for the Florida Everglades. We strongly 
recommend using the Culverts Approach first while simultaneously 
performing all the necessary studies. Thank you for allowing me this 
opportunity to share the thoughts of the Miccosukee people with you. 
There is much good work to be done. The Miccosukee people and I look 
forward to working with you.
                                 ______
                                 
         Prepared Statement of the Montana Wildlife Federation
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Forest Legacy Program (FLP) in the fiscal year 2012 Interior, 
environment, and related agencies appropriations bill. FLP works with 
landowners, the States, and other partners to protect critical 
forestlands with important economic, recreation, water quality, and 
habitat resources through conservation easement and fee acquisitions. 
The program has protected more than 2 million acres in 43 States and 
territories, consistently with a 50 percent non-Federal cost share, 
double the required 25 percent cost share. For several years this 
important conservation program has been funded under the umbrella of 
the Land and Water Conservation Fund (LWCF).
    In an historic embrace of conservation, the President's budget 
request includes full funding of LWCF in fiscal year 2012. The proposed 
$900 million is the congressionally authorized amount for the program 
and seeks to renew focus on the promise of the LWCF: that it is right 
and wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans. Of that $900 million, the President requested $135 million 
for FLP.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in FLP is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to LWCF and FLP in fiscal year 2012, 
the U.S. Forest Service included $6.5 million for the Stimson 
Forestland Conservation project in Montana in the President's budget. I 
am pleased that this funding was included in the request and urge the 
Congress to provide the full President's budget amount for FLP so that 
this important project can receive this needed funding.
    Montana's FLP is dedicated to maintaining working forests while 
conserving and enhancing natural and public values including land, 
water, wildlife, and timber resources. The State of Montana has 
participated in the program since 1999 and has successfully protected 
more than 173,350 acres of forestland through 15 projects across the 
State. This year, Montana has identified the Stimson Forestlands 
Conservation Project-lands that support remarkable public resources and 
face very real development and conversion pressures--as its top--ranked 
FLP.
    The Stimson Forestlands Conservation Project will permanently 
conserve approximately 28,000 acres of highly productive forestlands in 
the lower Kootenai River watershed of northwest Montana for wildlife 
and fisheries habitat protection, continued sustainable forest 
management activities, water quality protection, and public recreation. 
The project lands consist of various parcels stretching from the south 
end of Bull Lake, north through the Lake Creek drainage to the city of 
Troy, and then northwest along both sides of the Kootenai River all the 
way to the Idaho border. The parcels range in size from 70 to 7,200 
acres, and share more than 70 miles of common boundary with adjoining 
National Forest System (NFS) lands. The landowner, Stimson Lumber 
Company, has agreed to convey a conservation easement over the entire 
28,000 acres to Montana Fish, Wildlife and Parks if timely funding for 
the purchase can be identified and secured.
    The Stimson project area contains some of the best wildlife and 
fisheries habitat in Montana. The area supports a wide range of 
signature wildlife species including elk, mule deer, moose, gray wolf, 
black bear, bighorn sheep, mountain goat, fisher, and wolverine. It 
also serves as a core recovery area for the federally listed threatened 
Canada lynx and bull trout and an endangered population of grizzly 
bear. Grizzly bear populations south of Canada are currently listed as 
``threatened'' under the Endangered Species Act, except for the 
Cabinet/Yaak population, which is listed as ``endangered''. The Stimson 
project area represents the largest block of privately owned land in 
the Cabinet-Yaak recovery zone and includes four grizzly bear linkage 
zones identified by the FWS as critical to the survival of this 
population of bears.
    Native fish species on the property include westslope cutthroat 
trout, interior redband rainbow trout, and a remnant population of 
white sturgeon. Montana Fish, Wildlife and Parks has identified almost 
10 miles of ``outstanding'' bull trout habitat and just more than 4 
miles of ``substantial'' westslope cutthroat trout habitat on the 
Stimson project lands alone. Further, the interior redbands in this 
area represent Montana's only native rainbow trout population. 
Importantly, Trout Unlimited scientists have reviewed the coldwater 
habitat areas on this property for future security from climate change 
impacts, and consider much of the project area to be on the breaking 
point between serving as climate refugia for westslope cutthroat and 
bull trout versus being lost as effective habitat. The property 
contains some areas of core refugia, but climate-driven threats from 
elevated winter flooding are high. The proposed conservation easement 
will enhance opportunities for needed restoration activities that will 
improve overall watershed health and function, and thereby increase the 
resilience of this area to climate change.
    The area also supports a wide range of wetlands and forest-
dependent birds, many of which are listed as priority species in the 
Montana Partners In Flight Bird Conservation Plan, including bald 
eagle, peregrine falcon, trumpeter swan, and flammulated owl.
    The entire Kootenai drainage is widely regarded as one of the best 
timber growing regions in Montana. With its modified Pacific maritime 
climate and abundant rain and snowfall, the region grows trees faster 
and in greater volume than almost any other place in the State. By 
keeping 28,000 acres in active forest management, the Stimson project 
will help to support the timber industry and forest products 
infrastructure in Montana (and nearby north Idaho) while prohibiting 
subdivision and development activities that would further fragment the 
forest landscape. Recent trends in Lincoln County indicate that the 
Stimson-owned lands near Bull Lake and in the Lake Creek and Kootenai 
River corridors would be highly susceptible to development if they were 
ever sold off. The proposed conservation easement would permanently 
remove this risk and prevent habitat fragmentation and fire management 
costs resulting from increased development within and expansion of the 
wildland-urban interface.
    Outdoor recreation opportunities in the Stimson project area 
abound. Hunting and angling are favorite activities given the area's 
superb fisheries and wildlife values. Deer and elk hunting alone 
generate approximately 31,000 hunter days per year in the area, 
contributing an estimated $600,000 to the local economy. The area's 
healthy populations of black bear, mountain goat, moose, mountain lion, 
diverse upland game birds, and its robust trout fisheries make it a 
popular destination for other sportsmen as well. Hiking, mountain 
biking, camping, skiing, snowmobiling, ATV use, floating, wildlife 
viewing, horse-back riding, and other outdoor recreational pursuits are 
also very popular. The Kootenai River, which is today eligible for wild 
and scenic designation, flows through the Stimson project lands for 
almost 20 miles as it cascades down from the famous Kootenai Falls. 
Highway 2 follows the river through rugged canyons all the way to the 
Idaho border and is truly one of the most scenic routes in the State. 
Recreational activities not only provide enjoyment for residents and 
visitors but also contribute significantly to the local economy, 
allowing local outfitters, guides, and other outdoor recreation 
businesses to thrive and prosper. Making the Stimson project lands 
permanently accessible to the general public will enhance local 
recreational opportunities and improve access to thousands of acres of 
adjoining NFS lands.
    The total cost for the overall 28,000-acre Stimson Forestlands 
Protection Project is estimated to be $16 million. An allocation of 
$6.5 million from FLP is needed in fiscal year 2012 and would be 
matched with a 25 percent in-kind contribution from Stimson in the form 
of donated easement value. Additional funding is being sought from the 
Federal Habitat Conservation Plan (HCP) Land Acquisition Program; the 
Bonneville Power Administration (BPA); and possibly the National Fish 
and Wildlife Foundation (NFWF). Successfully protecting the Stimson 
project lands will conserve critical habitat and scenery, while greatly 
enhancing public access and recreational opportunities in this 
exceptional natural resource area.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Montana, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
                   Prepared Statement of Morey Zuber
    Mr. Chairman and members of the subcommittee: We have volunteered 
at four different National Wildlife Refuges during the last 2 years and 
are scheduled to volunteer at two more in 2011. These hours are not 
paid and allow us to give back to our beautiful country's wildlife and 
habitat. There are many areas of the budget, especially defense, where 
you can eliminate waste and maintain your support for this area of the 
economy, which will benefit us here at home. We respectfully request 
that you consider the following in your appropriations:
  --Increase the funding levels for the National Wildlife Refuge System 
        (NWRS) by $8 million more than the fiscal year 2010 funding 
        levels bringing the funding to $511 million for fiscal year 
        2012.
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million.
  --Fund the State Wildlife Grants (SWG) program at $95 million for 
        fiscal year 2012.
  --Fund the North American Wetlands Conservation Act (NAWCA) grants at 
        $50 million for fiscal year 2012.
    NWRS needs a budget of at least $900 million annually in operation 
and maintenance funding in order to properly administer its 150 million 
acres as mandated in the Refuge Improvement Act. The current budget is 
far short of the amount actually required to effectively operate and 
maintain the Refuges. An $8 million increase more than fiscal year 2010 
levels for the fiscal year 2012 appropriation will allow the refuges to 
maintain status quo without drastic cuts. This is a reduced amount from 
the $15 million minimum increase each year that the NWRS actually 
requires just for management capabilities. In this time of tight 
budgets, we feel that an $8 million increase to $511 would be 
appropriate and appreciated.
    The LWCF was created in 1965 and authorized at $900 million. These 
funds are used for land acquisition to protect wildlife and their 
habitats. With the effects of a changing climate, it is more important 
now than ever to establish key wildlife corridors between protected 
areas so wildlife can migrate to more suitable habitat as their 
historic ones changes. The price of real estate is low at this time and 
the $900 million can go much further in protecting habitats than it can 
in a higher market. When we start to lose species due to lack of food, 
water, shelter, or space, we are changing the balance of nature. We 
urge you to pass legislation to permanently fund the LWCF at $900 
million per year as it was originally authorized.
    Through partnerships including SWGs the Fish and Wildlife Service 
(FWS) is able to work together with the States to protect wildlife. 
This increases the amount of protection that can be afforded to 
wildlife. By increasing the SWG program to $95 million, you are helping 
fulfill the responsibility to keep our wildlife from becoming 
endangered or extinct.
    NAWCA grants will also help create space, clean water, food, and 
shelter for wildlife by acquiring and restoring critical wetlands. 
Funding of this program at $50 million in fiscal year 2012 will create 
additional habitat for wildlife. This partnership through acquisition 
and restoration of critical wetlands also improves water quality and 
carbon sequestration.
    In conclusion, we, as full time volunteers, believe the NWRS can 
meet its important conservation objectives only with strong and 
consistent funding leveraged by the valuable work of refuge staff and 
volunteers. We again extend our appreciation to the subcommittee for 
its ongoing commitment to our NWRS. We encourage you to approve a $511 
million for the fiscal year 2012 NWRS operations and maintenance budget 
managed by FWS and to approve $900 millions for fiscal year 2011 for 
LWCF land acquisition budget as well as funding the SWG program at $95 
million and NAWCA grants at $50 million.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs
    My name is Michael Garner and I am director of Maryland's Abandoned 
Mine Land program. I also serve as president of the National 
Association of Abandoned Mine Land Programs (NAAMLP). NAAMLP represents 
30 States and tribes with federally approved abandoned mine land 
reclamation (AML) programs authorized under title IV of the Surface 
Mining Control and Reclamation Act (SMCRA). Title IV of SMCRA was 
amended in 2006 and significantly changed how State AML grants are 
funded. State AML grants are still based on receipts from a fee on coal 
production, but beginning in fiscal year 2008, the grants are funded 
primarily by mandatory appropriations. As a result, the States should 
receive $498 million in fiscal year 2012. We adamantly oppose the 
Office of Surface Mining Reclamation and Enforcement's (OSM) proposed 
budget amount of $313.8 million for State AML grants, a reduction of 
$184.2 million, and reject the notion that a competitive grant process 
would improve AML program efficiency. The proposed spending cuts would 
eliminate funding to States and tribes that have ``certified'' 
completion of their highest-priority coal reclamation sites. OSM has 
also proposed a $6.8 million reduction in discretionary spending that 
would eliminate the Federal emergency program under section 410 of 
SMCRA. I appreciate the opportunity to testify before the subcommittee 
and outline some of the reasons why NAAMLP opposes OSM's proposed 
fiscal year 2012 budget.
    SMCRA was passed in 1977 and set national regulatory and 
reclamation standards for coal mining. The act also established a 
reclamation fund to work toward eliminating the innumerable health, 
safety and environmental problems that exist throughout the Nation from 
the mines that were abandoned prior to the act. The Fund generates 
revenue through a fee on current coal production. This fee is collected 
by OSM and distributed to States and tribes that have federally 
approved regulatory and AML programs. The promise the Congress made in 
1977, and with every subsequent amendment to the act, was that, at a 
minimum, half the money generated from fees collected by OSM on coal 
mined within the boundaries of a State or tribe, referred to as ``State 
Share'', would be returned for uses described in title IV of the act if 
the State or tribe assumed responsibility for regulating active coal 
mining operations pursuant to title V of SMCRA. The 2006 amendments 
clarified the scope of what the State share funds could be used for and 
reaffirmed the promise made by the Congress in 1977.
    If a State or tribe was successful in completing reclamation of 
abandoned coal mines and was able to ``certify'' under section 411 of 
SMCRA, then the State share funds could be used to address a myriad of 
other abandoned mine issues as defined under each State or tribes 
approved Abandoned Mine Reclamation Plan. These Abandoned Mine 
Reclamation Plans are approved by OSM and they ensures that the work is 
in accordance with the intent of SMCRA. Like all abandoned mine 
reclamation, the work of certified States and tribes eliminates health 
and safety problems, cleans up the environment, and creates jobs in 
rural areas impacted by mining.
    This reduction proposed by OSM in certified State and tribal AML 
grants not only breaks the promise of State and tribal share funding, 
but upsets the balance and compromise that was achieved in the 
comprehensive restructuring of SMCRA accomplished in the 2006 
amendments following more than 10 years of discussion and negotiation 
by all affected parties. The funding reduction is inconsistent with the 
administration's stated goals regarding jobs and environmental 
protection. We therefore respectfully ask the subcommittee to continue 
the funding for certified States and tribes at the statutory authorized 
levels and turn back any efforts to amend SMCRA in this regard.
    In addition to the $184.2 million reduction, the proposed fiscal 
year 2012 budget would terminate the Federal AML emergency program, 
leaving the States and tribes to rely on funds received through their 
nonemergency AML grant funds. This contradicts the 2006 amendments, 
which require the States and tribes to maintain ``strict compliance'' 
with the nonemergency funding priorities described in section 403(a), 
while leaving section 410, Emergency Powers, unchanged. Section 410 of 
SMCRA requires OSM to fund the emergency AML program using OSM's 
``discretionary share'' under section (402)(g)(3)(B), which is entirely 
separate from State and tribal nonemergency AML grant funding under 
sections (402)(g)(1), (g)(2), and (g)(5). SMCRA does not allow States 
and tribes to administer or fund an AML emergency program from their 
nonemergency AML grants, although, since 1989, 15 States have agreed to 
implement the emergency program on behalf of OSM contingent upon OSM 
providing full funding for the work. As a result, OSM has been able to 
fulfill their mandated obligation more cost effectively and 
efficiently. Ten States and 3 tribes continue to rely solely on OSM to 
operate the emergency program within their jurisdiction.
    Regardless of whether a State/tribe or OSM operates the emergency 
program, only OSM has the authority to ``declare'' the emergency and 
clear the way for the expedited procedures to be implemented. In fiscal 
year 2010, OSM made 153 emergency declarations in Kentucky and 
Pennsylvania alone, States where OSM had operated the emergency 
program. In fiscal year 2011, OSM issued guidance to the States that 
the agency ``will no longer declare emergencies''. OSM provided no 
legal or statutory support for its position. Instead, OSM has 
``transitioned'' responsibility for emergencies to the States and 
tribes with the expectation that they will utilize nonemergency AML 
funding to address them. OSM will simply ``assist the States and tribes 
with the projects, as needed''. Of course, given that OSM has proposed 
to eliminate all funding for certified States and tribes, it begs the 
question of how and to what extent OSM will continue to assist these 
States and tribes.
    If the Congress allows the elimination of the emergency program, 
States and tribes will have to adjust to their new role by setting 
aside a large portion of their nonemergency AML funds so that they can 
be prepared for any emergency that may arise. Emergency projects come 
in all shapes and sizes, vary in number from year to year and range in 
cost from thousands of dollars to millions of dollars. Requiring States 
and tribes to fund emergencies will result in funds being diverted from 
other high-priority projects and delay certification under section 411, 
thereby increasing the backlog of projects on the Abandoned Mine Land 
Inventory System. For minimum program States and States with small AML 
programs, large emergency projects will require the States to redirect 
all or most of their AML resources to address the emergency, thereby 
delaying other high-priority reclamation. With the loss of stable 
emergency program funding, minimum program States will have a 
difficult, if not impossible, time planning, budgeting, and prosecuting 
the abatement of their high-priority AML problems. In a worst-case 
scenario, a minimum program State would not be able to address a costly 
emergency in a timely fashion and would have to ``save up'' multiple 
years of funding before even initiating the work to abate the 
emergency, in the meantime ignoring all other high-priority work.
    OSM's proposed budget suggests addressing emergencies, and all 
other projects, as part of a competitive grant process whereby States 
and tribes compete for funding based on the findings of the proposed 
AML Advisory Council. OSM believes that a competitive grant process 
would concentrate funds on the highest-priority projects. While a 
competitive grant process may seem to make sense at first blush, 
further reflection reveals that the entire premise is faulty and can 
only undermine and upend the deliberate funding mechanism established 
by the Congress in the 2006 amendments. Since the inception of SMCRA, 
high-priority problems have always taken precedence over other 
projects. The focus on high priorities was further clarified in the 
2006 amendments by removing the lower-priority problems from the act 
and requiring ``strict compliance'' with high-priority funding 
requirements. OSM already approves projects as meeting the definition 
of high priority under its current review process and therefore an AML 
Advisory Council would only add redundancy and bureaucracy instead of 
improving efficiency.
    We have not been privy to the particulars of OSM's legislative 
proposal, but there are a myriad of potential problems and implications 
for the entire AML program based on a cursory understanding of what OSM 
has in mind. They include the following:
  --Has anyone alleged or confirmed that the States/tribes are not 
        already addressing the highest-priority sites? Where have the 
        2006 amendments faltered in terms of high-priority sites being 
        addressed as envisioned by the Congress? What would remain 
        unchanged in the 2006 amendments under OSM's proposal?
  --If the current AML funding formula is scrapped, what amount will be 
        paid out to the noncertified AML States and tribes over the 
        remainder of the program? What does OSM mean by the term 
        ``remaining funds'' in its proposal? Is it only the AML fees 
        yet to be collected? What happens to the historic share 
        balances in the Fund, including those that were supposed to be 
        re-directed to the Fund based on an equivalent amount of 
        funding being paid to certified States and tribes each year? 
        Would the ``remaining funds'' include the unappropriated/prior 
        balance amounts that have not yet been paid out over the 7-year 
        installment period?
  --Will this new competitive grant process introduce an additional 
        level of bureaucracy and result in more funds being spent 
        formulating proposals and less on actual AML reclamation? The 
        present funding formula allows States and tribes to undertake 
        long-term strategic planning and efficiently use available 
        funds.
  --How long will OSM fund a State's/tribe's administrative costs if it 
        does not successfully compete for a construction grant, even 
        though the State/tribe has eligible high-priority projects? How 
        will OSM calculate administrative grant funding levels, 
        especially since salaries and benefits for AML project managers 
        and inspectors predominantly derive from construction funds? 
        Would funding cover current staffing levels? If not, how will 
        OSM determine the funding criteria for administrative program 
        grants?
  --How does OSM expect the States and tribes to handle emergency 
        projects under the legislative proposal? Must these projects 
        undergo review by the Advisory Council? Will there be special, 
        expedited procedures? If a State/tribe has to cut back on 
        staff, how does it manage emergencies when they arise? If 
        emergency programs do compete for AML funds, considerable time 
        and effort could be spent preparing these projects for review 
        by the Advisory Council rather than abating the immediate 
        hazard. Again, how can we be assured that emergencies will be 
        addressed expeditiously?
  --One of the greatest benefits of reauthorization under the 2006 
        amendments to SMCRA was the predictability of funding levels 
        through the end of the AML program. Because State and tribes 
        were provided with hypothetical funding levels from OSM (which 
        to date have proven to be quite accurate), long-term project 
        planning, along with the establishment of appropriate staffing 
        levels and project assignments, could be made accurately and 
        efficiently. How can States/tribes plan for future projects 
        given the inherent uncertainty associated with having to 
        annually bid for AML funds?
    Given these uncertainties and the negative implications for the 
accomplishment of AML work under title IV of SMCRA, the Congress should 
reject the proposed amendments to SMCRA as being counterproductive to 
the purposes of SMCRA and an inefficient use of funds. We request that 
the Congress continue mandatory funding for certified States and tribes 
and provide funding for AML emergencies. A resolution to this effect 
adopted by the NAAMLP at its recent winter meeting is attached, as is a 
more comprehensive list of questions concerning the legislative 
proposal. We ask that they be included in the record of the hearing.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as the Environmental Protection Agency's 319 program. 
Until fiscal year 2009, language was always included in OSM's 
appropriation that encouraged the use of these types of matching funds, 
particularly for the purpose of environmental restoration related to 
treatment or abatement of acid mind drainage (AMD) from abandoned 
mines. This is an ongoing, and often expensive, problem, especially in 
Appalachia. NAAMLP therefore requests the subcommittee to once again 
include language in the fiscal year 2012 appropriations bill that would 
allow the use of AML funds for any required non-Federal cost-share 
required by the Federal Government for AMD treatment or abatement.
    We also urge the subcommittee to support funding for OSM's training 
program and TIPS, including moneys for State/tribal travel. These 
programs are central to the effective implementation of State and 
tribal AML programs, as they provide necessary training and continuing 
education for State/tribal agency personnel, as well as critical 
technical assistance. Finally, we support funding for the Watershed 
Cooperative Agreements in the amount of $1.55 million because it 
facilitates and enhances State and local partnerships by providing 
direct financial assistance to watershed organizations for acid mine 
drainage remediation.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    The National Association of Clean Air Agencies (NACAA), an 
association of air pollution control agencies in 51 States and 
territories and more than 165 metropolitan areas across the country who 
have the primary responsibility under the Clean Air Act (CAA) for 
implementing our Nation's clean air program, appreciates this 
opportunity to provide testimony on the fiscal year 2012 proposed 
budget for the United States Environmental Protection Agency (EPA). The 
NACAA supports the President's request for a $78.9 million increase 
more than fiscal year 2010 levels in Federal grants for State and local 
air pollution control agencies under sections 103 and 105 of the CAA--
part of the State and Tribal Assistance Grant (STAG) program. This 
would raise to $305.5 million the total amount of section 103/105 air 
grants to State and local air agencies.
                 air pollution threatens public health
    Simply put, air pollution kills people. In the United States, 
exposure to dirty air causes tens of thousands of premature deaths each 
year and results in serious health problems, such as the aggravation of 
respiratory and cardiovascular diseases; difficulty breathing; 
increased susceptibility to respiratory infections; adverse effects on 
learning, memory, IQ, and behavior; and cancer. Air pollution also 
harms vegetation and land and water systems, impairs visibility and 
causes other adverse impacts.
    There are few places, if any, where one can escape dirty air in 
this country. According to the EPA, approximately 127 million people 
lived in counties that exceeded at least one of the health-based 
National Ambient Air Quality Standards (NAAQS) in 2008.\1\ With a new 
health-based standard for ozone, this number will likely be higher. 
With respect to hazardous air pollutants, or ``air toxics'', the EPA 
data show that everyone in the United States has an increased cancer 
risk of more than 10 in 1 million (1 in 1 million is generally 
considered ``acceptable'').\2\ We doubt this subcommittee addresses any 
other issues that cause more preventable deaths each year.
---------------------------------------------------------------------------
    \1\  Our Nation's Air: Status and Trends Through 2008 (February 
2010), EPA, www.epa.gov/airtrends/2010/.
    \2\ National Air Toxics Assessment for 2005--Fact Sheet, 
www.epa.gov/ttn/atw/nata2005/05pdf/sum_results.pdf.
---------------------------------------------------------------------------
substantial funding increases for state and local air quality programs 
                             are essential
    State and local air quality agencies have been faced with 
insufficient budgets for many years. Section 105 of the CAA authorizes 
the Federal Government to provide grants for up to 60 percent of the 
cost of State and local air programs, while States and localities must 
provide a 40 percent match. But the truth is that State and local air 
programs, on average, supply 77 percent of their budgets (not counting 
permit fees under the Federal title V program), while Federal grants 
equal only 23 percent. State and local agencies provide far more than 
their fair share of the funding. The graph below illustrates this 
funding disparity.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Due to the budget crisis, State and local governments are 
increasingly strapped for resources and finding it ever more difficult 
to carry the Federal Government's share of the funding responsibility. 
According to data from the Environmental Council of the States (ECOS), 
State environmental budgets are declining significantly, decreasing 
11.6 percent from fiscal year 2009 to fiscal year 2011.\3\ From a 
survey of 37 States, ECOS found that 2,112 environmental agency 
positions have been eliminated or held vacant due to budget limitations 
in fiscal year 2010.\4\ Because of the continuing adverse impact of the 
recession on States and localities, air agencies will continue to make 
more painful decisions, such as reducing or cutting air programs that 
protect public health.
---------------------------------------------------------------------------
    \3\ ECOS Green Report--Status of State Environmental Agency Budget, 
2009-2011 (August 2010), Environmental Council of the States, http://
ecos.org/files/4157_file_August_2010_Green_Report.pdf.
    \4\ ECOS Green Report--Impacts of Reductions in FY 2010 on State 
Environmental Agency Budgets (March 2010), Environmental Council of the 
States, http://ecos.org/files/
4011_file_March_2010_ECOS_Green_Report.pdf.
---------------------------------------------------------------------------
    As a result of these funding woes, States and localities must 
increasingly rely on Federal contributions. Unfortunately, Federal 
grants to State and local air agencies (as the graph shows) have been 
relatively stagnant and the purchasing power has actually decreased due 
to inflation. In fact, Federal grants decreased by nearly 10 percent in 
purchasing power between fiscal year 2000 and fiscal year 2010. At the 
same time, the responsibilities air agencies face have increased 
dramatically.
    A 2009 NACAA funding study showed that there is an annual shortfall 
of $550 million in Federal grants for State and local air programs.\5\ 
While the proposed increase would not solve all our funding problems, 
it would be very helpful in our efforts to obtain and maintain 
healthful air quality. Because State and local agencies already provide 
77 percent of their budgets, meeting the 40 percent match associated 
with this increase nationally should not be a problem.
---------------------------------------------------------------------------
    \5\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies, (April 2009), NACAA, 
http://www.4cleanair.org/Documents/Reportneeds survey042709.pdf.
---------------------------------------------------------------------------
    We recognize that the Congress must choose among many worthy 
programs in determining how to appropriate scarce resources. But we 
also note that air quality programs are extremely cost effective and 
improvements in public health advance the health of our economy. Fewer 
sick days, less spending for healthcare costs and a healthier and more 
productive workforce have great economic benefits. An EPA analysis from 
March 2011 shows that the benefits of the CAA since 1990 have exceeded 
the cost by more than 30 to 1.\6\ This is a substantial return on our 
investment. Additionally, a University of Massachusetts/Ceres study 
showed that upcoming CAA rules will create almost 1.5 million new 
jobs.\7\ The additional grants will also stimulate the economy by 
creating new jobs within air quality agencies across the country. While 
not all grants will be used for personnel, they could fund up to 700 
new jobs, averaging 14 per State. Finally, well-funded and well-run air 
agencies are better able to serve the community, including through more 
effective permitting and compliance assistance. These services help 
fuel the recovery of our local economies. Considering this and the fact 
that the public's health and welfare are at stake, we simply cannot 
afford to underfund these important programs.
---------------------------------------------------------------------------
    \6\ The Benefits and Costs of the Clean Air Act Amendments from 
1990 to 2020 (March 1, 2011), EPA, http://www.epa.gov/air/sect812/
feb11/summaryreport.pdf.
    \7\ New Jobs--Cleaner Air: Employment Effects under Planned Changes 
to the EPA's Air Pollution Rules (February 2011), Ceres and the 
Political Economy Research Institute of the University of 
Massachusetts, Amherst, http://www.peri.umass.edu/fileadmin/pdf/
other_publication_ types/green_economics/CERES_PERI_Feb11.pdf.
---------------------------------------------------------------------------
 the administration's request includes increases for essential programs
    The President's proposed budget includes increases over fiscal year 
2010 levels in four primary areas: core activities, increasing capacity 
for greenhouse gas permitting, monitoring, and support for the 
greenhouse gas reporting rule. These are all extremely important 
efforts in need of increased financial support.
    Core Activities ($37.4 million).--The President's request 
rightfully recognizes the importance of State and local air agencies' 
core programs by calling for additional grant funds to support them. 
Without a doubt, new and innovative efforts are necessary, but ongoing 
core programs are critical as well, including the day-to-day activities 
that are the foundation of our programs. The additional funds will 
support continuing program responsibilities and the increased workload 
that State and local air agencies face as the EPA updates its health-
based NAAQS. Agencies must update or prepare new State Implementation 
Plans (SIPs) for ozone, nitrogen dioxide (NO<INF>2</INF>), sulfur 
dioxide (SO<INF>2</INF>), lead and fine particulates. For example, SIPs 
for the 2006 PM<INF>2.5</INF> standard are due in December 2012, for 
the new lead standard in late 2011, 2012 and 2013, and for the new 
SO<INF>2</INF> and NO<INF>2</INF> standards in 2013 and 2014. State and 
local agencies must develop these plans, which require complex tasks, 
such as compiling emission inventories, carrying out sophisticated 
modeling, significantly expanding and operating monitoring networks, 
adopting and enforcing regulations and addressing multi-pollutant and 
multi-State transport issues, among other things.
    Increasing Capacity for Greenhouse Gas Permitting ($25 million).--
State and local agencies must continue to expand their capacity to 
issue greenhouse gas (GHG) permits for new and modified sources under 
the ``Prevention of Significant Deterioration'' Program and title V 
operating permits for existing sources. The increase would be used as 
States take on these tasks by supporting staff development and 
training, program planning and analysis, source identification, 
outreach to industry and responding to the public.
    Support for the Greenhouse Gas Reporting Rule ($1.5 million).--The 
President's proposed budget includes funding to assist State and local 
agencies in the collection, review, analysis, and use of greenhouse gas 
registry emissions data and linking State-based reporting systems to 
the EPA's new system.
    Monitoring ($15 million).--State and local agencies must increase 
monitoring activities to address new and revised standards for ozone, 
lead, NO<INF>2</INF>, and SO<INF>2</INF>. Additionally, more monitoring 
of hazardous air pollution is needed in locations where the public 
lives, works, attends school, and carries out daily activities. These 
efforts require purchasing additional ambient air monitoring equipment 
that provides essential information about the levels of pollutants in 
the air, and later, the success of control measures. While the 
President's request for increased grants to acquire new monitoring 
equipment in fiscal year 2012 is not sufficient to address all the 
additional monitoring needs, it will be very helpful as State and local 
agencies expand their monitoring capabilities to address the new and 
revised standards and hazardous air pollutants. The increases are 
especially critical since they were needed in fiscal year 2011 but have 
not been appropriated, putting State and local agencies behind in their 
schedules for acquiring and deploying this equipment.
    The EPA is once again recommending that fine particulate monitoring 
funds be shifted from section 103 authority, where no match is needed, 
to section 105, which would require additional matching funds. We 
request that these funds remain under section 103 authority, as they 
have in the past, rather than the EPA beginning a phased-in shift of 
these funds to section 105 authority. For individual agencies that have 
concerns about the matching requirements, this will ensure that they 
can continue receiving these monitoring funds.
               diesel retrofit funding should be restored
    The NACAA is a member of a broad coalition representing public-
interest, environmental, business and governmental organizations, among 
others, supporting funds for diesel retrofits. The coalition is 
disappointed that the President did not request grant funds authorized 
by the Diesel Emissions Reduction Act (DERA). The DERA programs have a 
successful record of substantially decreasing harmful particle 
pollution from diesel exhaust. We ask that the Congress provide $50 
million in fiscal year 2012 for the DERA funding. Of course, funding 
for the DERA should supplement, and not come at the expense of, State 
and local air agency grants.
                               conclusion
    The President's budget request calls for essential increases in 
grants for State and local air quality programs at a time when these 
agencies must handle both continuing and significant new 
responsibilities. While the proposed increases would not fully address 
the enormous deficit that these programs face, they would provide 
additional support when it is desperately needed.
    The NACAA recommends, therefore, that the Congress appropriate the 
President's fiscal year 2012 request for Federal grants to State and 
local air quality agencies under sections 103 and 105 of the CAA, which 
is $305.5 million ($78.9 million above fiscal year 2010 levels). 
Additionally, the NACAA recommends that the DERA programs be funded in 
the amount of $50 million.
    Thank you for this opportunity to testify and for considering the 
efforts of State and local air quality programs as they improve and 
protect public health.
                                 ______
                                 
   Prepared Statement of the National Assembly of State Arts Agencies
    The National Assembly of State Arts Agencies (NASAA), representing 
the State and special jurisdictional government arts agencies, is 
pleased to submit testimony in support of funding at $167.5 million for 
the National Endowment for the Arts (NEA) in fiscal year 2012. The 
President's budget request would reduce current NEA support to $146.255 
million in 2012. Funding the NEA at $167.5 million would hold the 
agency at its 2010 level and would provide support to help sustain a 
healthy nonprofit arts sector contributing to communities nationwide.
    Appropriations Request.--We are encouraged that the Congress has 
voted in recent years for incremental increases in funding for the NEA. 
We urge the Congress to maintain those gains at $167.5 million for the 
NEA in the fiscal year 2012 Interior, environment, and related agencies 
appropriations bill to continue the critical level of funds to the 
State arts agencies, working with the NEA to extend the reach of 
Federal arts dollars and broaden public access to the arts in every 
State, translating national leadership into local benefit.
                     the federal-state partnership
    It is through State arts agencies that the NEA is able to reach 
beyond its own direct grants into communities throughout the Nation. 
The NEA funds granted to State arts agencies ensure that every State 
receives a significant share of Federal arts support. By statute, the 
NEA allocates 40 percent of its annual grant making dollars to State 
arts agencies. These Federal funds combine with State legislative 
appropriations and other dollars to ensure that Federal funding reaches 
far, broadening access to the arts for communities throughout the State 
and strengthening the State's arts infrastructure.
    States help the NEA achieve its own goals, especially in arts 
education, reaching underserved constituencies, strengthening the 
cultural infrastructure, and preserving America's cultural heritage.
    Proposals in the administration's 2012 budget request, discussed 
below, include a disregard for the congressional mandate that the NEA 
allocate 40 percent of program funds to the State and regional arts 
agencies. This departure from the mandate poses negative financial 
consequences for the States and compromises the capacity of State arts 
agencies to fulfill the Federal mission.
    State arts agencies work to address the objectives of the NEA and 
help Government to achieve broad public policy goals, such as promoting 
education excellence, expanding access to the arts, stimulating 
economic growth and strengthening communities. State arts agencies use 
Federal funds to increase access to the arts and support the arts 
programs and artists in their communities, greatly extending the NEA's 
reach and benefits.
    The funding from State arts agencies reaches broader and deeper 
than the NEA direct program grants, greatly enhancing the impact and 
effectiveness of the Federal arts funding. Each year in partnership 
with the NEA, State arts agencies support more than 22,000 projects, 
almost 10 times the number of grants awarded directly by the NEA. Funds 
go to 17,500 organizations, schools, and artists in nearly 5,000 
communities across the United States, and in every congressional 
district. State arts agencies will manage $346 million in Federal, 
State, and other funds for distribution in 2011.
    Communities across the Nation benefit deeply from this Federal-
State relationship. Combined Federal and State funds--distributed 
through State arts agency grants and services--bring the benefits of 
the arts to many more communities than the NEA is able to reach 
directly. State arts agencies fund the arts in small towns and rural 
communities untouched by direct NEA grants, enabling arts organizations 
and programs in those communities to receive the benefits of public 
support otherwise unavailable to them.
    State Arts Agency Grant Making.--Through services and grant making, 
State arts agencies, enabled by Federal dollars, increase citizen 
access to the arts and help each State to recognize, cultivate, and 
promote its unique creative assets. State arts agency grant 
requirements encourage local investment in the arts. Applicants match--
and usually exceed--the funds granted by the State with funds from 
local government, the private sector, or earned-income activities.
    Arts in Education.--Supporting lifelong learning in the arts, with 
assistance from the NEA, is a top priority for State arts agencies. 
State arts agencies invest more than $74 million in arts education 
grants to more than 2,800 communities. More than one-third of all State 
arts agency grants (about 8,500 grants) have a significant arts 
education component. These grants support a wide range of activities, 
including performances, exhibitions, residencies (both school and 
nonschool), instruction, and curriculum development. Other types of 
grants--unique to State government--support the design of assessment 
and evaluation tools and fund professional development programs. State 
arts agencies also support after-school/out-of-school arts programs, 
early childhood arts learning, the arts in higher education, and many 
programs that teach the arts to adults and seniors. In 2010, State arts 
agencies awarded more than 8,900 grants in arts education, compared 
with 255 direct grants from the NEA.
    Access to the Arts.--State arts agencies use their funds to broaden 
and diversify participation in a wider variety of art forms through 
support for touring and presentation of more than 7,000 exhibits and 
performances within their States. Public arts spending is especially 
important, for example, in rural areas which are often artistically 
underserved due to geographic and economic isolation. In 2009, State 
arts agencies invested more than $32 million in programs to widen the 
availability of the arts. With 16 percent of the U.S. population 
residing in rural, nonmetropolitan areas, State arts agencies award 24 
percent of grants to these areas; the NEA awards 7 percent of its 
grants outside of metropolitan areas.
                    support for local arts agencies
    Local arts agencies--nonprofit organizations and municipal or 
county governmental agencies--are important State arts agency partners. 
State arts agencies invest more than $39 million--14 percent of all 
State arts agency grant dollars--in local arts agencies. About one-
third of the dollars awarded to local arts agencies by State arts 
agencies is operating support--flexible dollars that can be used to 
support community arts activities and operations in accordance with 
local needs and circumstances.
    Supporting the Cultural Infrastructure.--Public spending on the 
arts is a good investment in the economic growth of every community. 
State arts agencies recognize that cultural development is a vital part 
of economic development strategies, attracting businesses and new 
residents and generating jobs.
    Individual Artists.--State arts agencies recognize the vital role 
that professional artists and traditional artists have in their 
communities, and the importance of supporting the creativity of 
individual artists in their States. Through fellowship grants and 
residencies, State arts agencies help artists further their work, 
encourage the excellence of individual artists in their States, promote 
and showcase the artistic creations of their artists, and acknowledge 
the diversity of cultural and artistic expression throughout their 
States.
    Cultural Heritage Preservation.--State arts agencies help to 
document and preserve cultural heritage by investing more than $7 
million in 2009 in the preservation of cultural traditions to support 
the work of master folk artists and folklorists; apprenticeships in the 
traditional arts; and supporting festivals, online sites, and heritage 
trails. In 2010, the States awarded 1,326 grants for heritage and 
traditional arts, compared with 142 directly awarded from the NEA.
    2012 Budget Request: Implications for State Arts Agencies.--The NEA 
has proposed in the President's 2012 budget a number of changes that 
we, the NASAA and our member State agencies, consider ill-advised. 
These changes directly affect the work of State arts agencies in every 
State and jurisdiction. It is through State arts agencies that the NEA 
is able to reach beyond its own direct grants into communities 
throughout the Nation. Any action that hampers the capacity of State 
arts agencies should be examined in cooperation with the field.
    Allocation of Program Funds to States.--The NEA budget requests $5 
million for the Our Town initiative to be funded in 2012 in a new 
category not considered part of program funds. In 2011, funding for Our 
Town at $5 million is included in the total amount of program funding. 
The proposal to exempt Our Town funding from the State allocation 
violates the current policy that was established consistent with 
congressional directives to allocate 40 percent of program funds to the 
State arts agencies. This budgetary shift in funding effectively 
reduces support to State arts agencies by $2 million. This shift from 
established policy is inconsistent with the NEA's own stated budget 
priority that ``State funding will be adjusted commensurate with the 
overall program reduction.'' It is through State arts agencies that the 
NEA is able to reach beyond its own direct grants into communities 
throughout the Nation. The NASAA urges the Congress to include any 
funding for Our Town with program funds for allocation of the full 40 
percent share of program funds to State arts agencies.
    Matching Requirements.--The NEA is seeking statutory clarification 
regarding the allowed matching requirements of State arts agencies. The 
administration's intention is to ``clarify that match must come from 
funds controlled and managed by the State and that funds from third 
parties not directly controlled and managed by the State are not 
eligible (such as subgrant match.)'' The proposed clarifying language 
would allow States to match with such funds as appropriated funds, 
donated funds, and trust funds. Clarification of matching requirements 
is desirable, provided some flexibility is provided to States during 
the short term. The NASAA requests that the Congress require the NEA to 
consult with the NASAA and the State arts agencies about how to craft 
this language for the appropriate identification of eligible matching 
funds.
    Match Waivers.--The administration's 2012 budget document seeks 
permission from the Congress to develop criteria on the ``waive-of-
match'' provision for States and regions. The administration explains 
that while States may seek a waiver authority, it does not appear to be 
the intent of the NEA's authorizing legislation ``to allow waiver of 
match in perpetuity,'' and guidance is desirable as to the 
circumstances around the ability of States and regions to seek a waiver 
of match. Again, the NASAA requests that the Congress require the NEA 
to consult with the NASAA and the State arts agencies about how to 
develop these criteria for waiver of matching funds.
    Poetry Out Loud!.--The NEA proposes to reduce funding to Poetry Out 
Loud!--the national poetry recitation contest. The program was 
initiated by the NEA and made a national competition with cooperation 
of State arts agencies. Poetry Out Loud! is worthy of maintaining at 
its current budget level. The NEA should first seek other sponsors for 
this event before considering any reductions to State arts agencies. If 
any reduction is to be made, Poetry Out Loud! grants to States should 
not be reduced by a percentage greater than the overall agency cut to 
program funds.
    Arts in Education.--Similarly, the NEA is proposing to reduce its 
support to State arts agencies for arts in education. Prior to the cuts 
in the NEA budget in the 1990s, the NEA invested an amount of $5 
million for arts education. This amount has been reduced over the years 
to an amount of $1.7 million in fiscal year 2010. Any reduction taken 
in support to the States for arts in education should be no greater 
than proportional to funding cuts taken in other NEA programs.
    Heritage and Jazz Awards.--The NEA proposes to replace national 
honors in Jazz and Folk/Traditional Arts with combined awards that 
address all art forms. The NASAA supports the position to maintain the 
National Heritage Awards and the Jazz Masters Awards. These singular 
awards are vitally important to promoting the continued health of these 
efforts, which are typically outside the mainstream of the arts. Many 
State arts agencies consider their folk and traditional arts programs 
to be among their highest priorities. Jazz has been called America's 
classical music and is arguably Americas' most important original 
contribution to the arts.
                                 ______
                                 
     Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the subcommittee, I am Phil Giudice of 
Massachusetts, and Chair of the National Association of State Energy 
Officials (NASEO). The NASEO represents the energy offices in the 
United States, its territories, and the District of Columbia. The NASEO 
is submitting this testimony in support of funding for the ENERGY STAR 
program (within the Climate Protection Division of the Office of Air 
and Radiation) at the U.S. Environmental Protection Agency (EPA). The 
NASEO supports funding of at least $55 million, including specific 
report language directing that the funds be utilized only for the 
ENERGY STAR program. The ENERGY STAR program is voluntary, successful 
and cost-effective. With energy prices increasingly volatile, ENERGY 
STAR can help consumers quickly.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments and business to achieve these 
goals in a cooperative manner. The NASEO has worked very closely with 
the EPA and more than 40 States are ENERGY STAR partners. In 2005, the 
EPA and the NASEO announced a State partnership program, which has many 
State members. We are also working closely with the EPA on home 
performance with ENERGY STAR. With very limited funding, the EPA's 
ENERGY STAR program works closely with the State energy offices to give 
consumers and businesses the opportunity to make better energy 
decisions, without regulation or mandates.
    ENERGY STAR focuses on energy-efficient products as well as 
buildings. In 2008, 550 million ENERGY STAR products were purchased. 
The ENERGY STAR label is recognized across the United States. It makes 
the work of the State energy offices much easier, by working with the 
public on easily recognized products, services, and targets. In order 
to obtain the ENERGY STAR label a product has to meet established 
guidelines. ENERGY STAR's voluntary partnership programs include ENERGY 
STAR Buildings, ENERGY STAR Homes, ENERGY STAR Small Business and 
ENERGY STAR Labeled Products. The program operates by encouraging 
consumers, working closely with State and local governments, to 
purchase these products and services. Marketplace barriers are also 
eradicated through education. State energy offices are working with the 
EPA to promote ENERGY STAR products, ENERGY STAR for new construction, 
home performance with ENERGY STAR (especially for existing homes), 
ENERGY STAR for public housing, etc.
    In addition to the State partners, the program has more than 14,000 
voluntary partners including more than 2,000 manufacturers using the 
label, more than 1,000 retail partners, more than 5,000 builder 
partners, 4,500 businesses, 550 utilities, and thousands of energy 
service providers. The home performance with ENERGY STAR activity 
allows us to focus on whole-house improvements, not simply a single 
product or service. This is extremely beneficial to homeowners. We are 
also working closely with the EPA in the implementation of the ENERGY 
STAR Challenge, which is encouraging businesses and institutions to 
reduce energy use by 10 percent or more, usually through very simple 
actions. We are working with the building owners to identify the level 
of energy use and compare that to a national metric, establish goals 
and work with them to make the specified improvements. Again, this is 
being done without mandates.
    The State energy offices are very encouraged with progress made at 
the EPA and in our States to promote programs to make schools more 
energy efficient, in addition to an expanding ENERGY STAR business 
partners program. Hopefully, this expansion will continue. The EPA has 
been expanding the technical assistance work with the State energy 
offices in such areas as benchmark training (how to rate the 
performance of buildings), setting an energy target and training in 
such areas as financing options for building improvements and building 
upgrade strategies.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects, and 
policies are developed recognizing both energy and environmental 
concerns. We have worked closely with this program at the EPA to 
address these issues. The level of cooperation from the agency has been 
extraordinary and we encourage these continued efforts.
                               conclusion
    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. The NASEO supports robust program 
funding in fiscal year 2012. Funding for the ENERGY STAR program is 
justified. The NASEO endorses these activities and the State energy 
offices are working very closely with the EPA to cooperatively 
implement a variety of critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
 fiscal year 2012 appropriations recommendations for the united states 
                department of agriculture forest service
    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the Senate 
Appropriations Subcommittee on the Interior, Environment, and Related 
Agencies regarding our fiscal year 2012 appropriations recommendations. 
Our priorities center on appropriations for the USDA Forest Service 
(USFS) State and Private Forestry (S&PF) programs. As States face the 
most challenging fiscal environment since the Great Depression, the 
NASF fully appreciates the difficult choices that come with spending 
decisions. We therefore recommend that fiscal year 2012 appropriations 
for S&PF be held at $306 million, representing similar funding levels 
enacted in fiscal year 2010.
    The NASF delivers technical and financial assistance and forest 
health, water, and wildfire protection for more than two-thirds of 
America's forests. The USFS S&PF mission area provides vital support 
for delivering these services alongside other socioeconomic and 
environmental health benefits in both rural and urban areas. The S&PF 
programs provide a significant return on the Federal investment by 
leveraging the boots-on-the-ground and financial resources of State 
agencies to deliver assistance to forest landowners, tribes, and 
communities. As States and the Federal Government face extremely tight 
fiscal conditions, the NASF, in partnership with the S&PF mission area 
of the USFS, are best positioned to maximize the effectiveness of the 
limited resources available to respond to priority forest issues and 
focus efforts in those areas where they are needed most.
       responding to priority forest issues, trends, and threats
    The NASF has completed the Statewide Forest Resource Assessments 
and Strategies called for in the Food, Conservation, and Energy Act of 
2008 (2008 farm bill). Management activities are underway to implement 
these ``forest action plans'' and respond to the following trends, 
issues, and priorities:
Forest Pests and Invasive Plants
    Among the greatest threats identified in the forest action plans 
are exotic forest pests and invasive species. The growing number of 
damaging pests is often a result of the introduction and spread by way 
of wooden shipping materials, movement of firewood and through various 
types of recreation. A new damaging pest is introduced every 2 to 3 
years. These pests have the potential to displace native trees, shrubs 
and other vegetation types in forests. Estimates indicate that 138 
alien tree and shrub species have invaded native U.S. forest and shrub 
ecosystems while more than 20 alien species of plant pathogens attack 
woody plants. Plant pathogens alone have been estimated to result in 
the loss of $7 billion of forest products each year. These losses do 
not account for the value of clean and abundant water, wildlife 
habitat, clean air, and other environmental services that may be lost 
or impacted due to insect and disease infestation.
    In response, the Cooperative Forest Health Management Program 
(CFHP) provides technical and financial assistance to States and 
territories to maintain healthy, productive forest ecosystems on non-
Federal forest lands. The CFHP treated native pest species on more than 
150,000 acres and non-native invasive species on more than 500,000 
acres in fiscal year 2010. Funding for the CFHP supports activities 
related to prevention, suppression, and eradication of insects, 
diseases, and plants as well as conducting forest health monitoring 
through pest surveys.
    The NASF supports funding the CFHP at the fiscal year 2010 enacted 
level of $60 million (i.e. $49 million through S&PF and $11 million 
through Wildland Fire Management). We believe the proposed reduction 
included in the President's fiscal year 2012 budget will expose more of 
the Nation's forests to exotic and invasive pests such as the emerald 
ash borer, hemlock woolly adelgid, thousand cankers disease, 
goldspotted oak borer and others that--in some cases--are already 
eliminating certain tree species. This request is supported by a strong 
diversity of organizations including members of the Continental 
Dialogue on Non-native Forest Insects and Diseases (see letter of 
support at www.stateforesters.org).
Fuel Loads and Wildland Fire
    More people in fire-prone landscapes, high fuel loads, drought, and 
unhealthy landscapes are among the factors that have led the NASF to 
identify wildland fire as a significant priority issue in their State 
forest action plans. These factors have created a wildland fire 
situation that has become increasingly expensive and complex and, in 
many cases, threatens human life and property. The NASF alongside many 
other organizations in the forestry, conservation and environmental 
community agree that the USFS State Fire Assistance (SFA) Program and 
the Wildfire Suppression Reserve Fund established under the Federal 
Land Assistance, Management and Enhancement (FLAME) Act are key tools 
in addressing the threat of wildland fire (see letter of support at 
www.stateforesters.org).
    The SFA is the fundamental Federal assistance mechanism that States 
and local fire departments use to develop preparedness and response 
capabilities for wildland fire management on non-Federal lands. The 
program has helped more than 11,000 communities prioritize their 
preparedness and mitigation efforts through the development of 
Community Wildfire Protection Plans (CWPPs); yet, the threat of 
wildfire to life and property remains in more than 69,000 
communities.\1\ The NASF recommends $39 million for Cooperative Fire 
Protection SFA and $71 million for Wildland Fire Management SFA to 
address the mitigation and preparedness backlog in communities at risk 
from wildland fire.
---------------------------------------------------------------------------
    \1\ NASF FY2009 Communities at Risk Report, February 2010.
---------------------------------------------------------------------------
    In 2009, the FLAME Act established two funds--one for the USFS and 
another for the Department of the Interior (DOI)--to reduce the need 
for the agencies to transfer funds to wildfire suppression from other 
agency programs, which had historically led to considerable disruptions 
to important program functions. The Congress included specific 
instructions that FLAME should be funded with improved estimates and 
that funding should not come at the expense of other agency programs. 
For fiscal year 2010, the USFS received $413 million. The NASF and its 
partners support funding at equivalent levels for fiscal year 2012.
Working Forest Landscapes
    Working forest landscapes are a key part of the rural landscape and 
provide jobs, clean water, wood products, and other essential services 
to millions of Americans. For instance, 80 percent of renewable biomass 
energy comes from wood, 53 percent of all freshwater in the United 
States originates on forest land and more than $200 billion in sales of 
consumer products and services are provided through the Nation's 
forests each year.\2\ Working forest landscapes contribute to a healthy 
forest products industry that employs more than 1 million people.\3\
---------------------------------------------------------------------------
    \2\ Society of American Foresters. The State of America's Forests. 
2007.
    \3\ American Forest and Paper Association. ``Our Industry: Economic 
Impact.'' http://afandpa.org (accessed Friday April 1, 2011)
---------------------------------------------------------------------------
    Private forests make up two-thirds of all the forestland in the 
United States. Totaling 423 million acres, private forests support an 
average of eight jobs (per 1,000 acres) and provide 92 percent of trees 
harvested for wood products.\4\ The ability of working forests to 
continue providing jobs, renewable energy, clean and abundant water and 
other important services is in jeopardy as private forests are lost to 
development. The USFS estimates that 57 million acres of private 
forests in the United States are at risk of conversion to urban 
development over the next two decades. The Forest Stewardship Program, 
Forest Legacy Program (FLP), and other programs within USDA are key 
tools identified in the forest action plans to keep working forests 
intact.
---------------------------------------------------------------------------
    \4\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
    The Forest Stewardship Program (FSP) is the most extensive family 
forest-owner assistance program in the country. Planning assistance is 
delivered in cooperation with State forestry agencies primarily through 
the development of the FSP Plans. The program provides information to 
private landowners to help them manage their land for wildlife, 
recreation, aesthetics, timber production, and many other purposes. The 
technical assistance provided through the FSP is a gateway to other 
effective USDA, State and private sector programs designed to help keep 
working forests intact. For instance, the FSP enables landowners to 
participate in the FLP, Environmental Quality Incentives Program, and 
the Biomass Crop Assistance Program. The FSP also increasingly serves 
as the gateway to participating in forest certification programs and 
accessing renewable energy and carbon markets. The NASF recommends $29 
million for the FSP in fiscal year 2012.
Urban and Community Forest Management Challenges
    Urban forests include the tree canopy cover above every 
neighborhood, town and city in America. They provide environmental, 
social and economic benefits to more than 80 percent of the Nation's 
population. The forest action plans identified a number of benefits 
associated with urban forests including energy savings, improved air 
quality, neighborhood stability, aesthetic values, reduced noise, and 
improved quality of life for communities across the country. At the 
same time, the forest action plans reported a number of threats to 
urban and community forests including fire in the Wildland Urban 
Interface (WUI), urbanization and development, invasive plants and 
insects, diseases and others.
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), the USFS's Urban & Community Forestry (U&CF) Program 
has provided technical and financial assistance to promote stewardship 
that is critically important green infrastructure. The program is 
delivered in close partnership with the NASF and leverages existing 
local efforts that have helped thousands of communities and towns 
manage, maintain, and improve their tree cover and green spaces. For 
instance, the program leveraged an additional $40 million in State and 
local support and provided 1,250 small grants to local communities in 
fiscal year 2010 to help communities manage risk, respond to storms and 
disturbances, and contain threats from invasive pests. The NASF and the 
broad urban forestry community support an appropriation of $32 million 
in fiscal year 2012 for the Urban and Community Forestry Program (see 
letter of support at www.stateforesters.org).
  flexibility for states to apply resources where they are needed most
    As part of the development of the forest action plans, each State 
underwent a comprehensive process that involved a wide range of 
partners and interagency cooperation to examine issues, structure 
priorities, and provide direction for those programs authorized under 
the CFAA. The NASF is now in the operational phase of this process that 
includes implementation of the respective CFAA Programs consistent with 
national and State-specific priorities identified in forest action 
plans. While there is some consistency among States in program 
direction, the mix and configuration of CFAA programs and services that 
can deliver the greatest public value varies among States.
    With completed forest action plans, States are now in a position to 
maximize the total public value from Federal investment across the 
Nation. The NASF supports providing increased flexibility within CFAA 
program implementation through the States in order to ensure States 
collectively maximize their contributions to achieving the national 
priorities expressed in the 2008 farm bill. We would like to see 
continued discussion and guidance from the subcommittee on possible 
alternative approaches to this matter that meet our shared desire to 
maximize the public's return on the investment of Federal funds. Strong 
performance metrics for both the States and the USFS should be part of 
this effort.
    importance of forest inventory data in monitoring forest issues
    The Forest Inventory and Analysis (FIA) Program, managed by Forest 
Service Research, is the Nation's only comprehensive forest inventory 
system for assessing the health and sustainability of the Nation's 
forests across all ownerships. The FIA provides essential data related 
to forest species composition, forest growth rates, and forest health 
data and is the baseline inventory estimates used in State forest 
action plans. The program provides unbiased information that serves as 
the basis for monitoring trends in wildlife habitat, wildfire risk, 
insect and disease threats, predicting spread of invasive species and 
for responding to priorities identified in the forest action plans.
    The Agricultural Research, Extension, and Education Reform Act of 
1998 (Public Law 105-85) mandated the USFS to partner with the States 
and nongovernmental interests to implement a nationally consistent, 
annual inventory program in all States, ensuring timely availability of 
data and developing State-level reports every 5 years. Unfortunately, 
the President's fiscal year 2012 budget proposes an overall $10 million 
reduction to the FIA that will disrupt the inventory cycle length and 
otherwise dismantle program delivery. A solid inventory is essential to 
responding to contemporary forest issues such as estimating sustainable 
woody biomass supplies for renewable energy production, forest carbon 
inventories, and determining the timber supply available to support 
local mills and local jobs. The NASF and many others in the forestry, 
conservation, and environmental community recommend $72 million for the 
FIA Program in fiscal year 12, with $67 million funded through Forest 
and Rangeland Research and $5 million through the S&PF (see letter of 
support at www.stateforesters.org).
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to testify on tribal programs in the 
fiscal year 2012 budget under the Interior, environment, and related 
agencies appropriations bill. This testimony will address programs in 
the Department of the Interior, Environmental Protection Agency (EPA), 
and Indian Health Service (IHS).
    Despite reductions for many Federal agencies and programs, the 
President's fiscal year 2012 budget proposal largely protects funding 
for many Indian programs, and even contains some proposed increases for 
Indian health and public safety. NCAI commends the administration for 
these proposed increases, especially given diminished Federal 
resources. But as the Congress deliberates over the fiscal year 2012 
budget, we ask that you remember that funding for Indian programs 
supports the trust responsibility--and that trust responsibility is not 
a line item--it is a solemn duty.
    Although the Congress will begin deliberations on the fiscal year 
2012 Federal budget in a very tight budget atmosphere, it also follows 
one of the most significant years of bipartisan accomplishments for 
Indian country in recent memory. As you know, in 2010, the U.S. 
Government took historic steps to address numerous long-standing 
challenges faced by tribal nations. The Congress made permanent the 
Indian Health Care Improvement Act (IHCIA) and President Obama signed 
into law the Tribal Law & Order Act (TLOA). But, like other laws, TLOA 
and IHCIA will not mean much if they are not implemented, and effective 
implementation is contingent upon adequate Federal funding for 
authorized programs. This moment presents the Federal Government with 
an extraordinary opportunity to further tribal self-determination and 
honor the promises of the Federal trust responsibility.
    A key theme of the last election was that the Congress and the 
Federal budget should focus on programs that are undeniably part of the 
Federal Government's constitutional role. Federal obligations to tribal 
citizens--largely funded by the Federal budget--are the result of 
centuries-old treaties negotiated and agreements made between Indian 
tribes and the United States in exchange for land and resources. 
Together, these obligations make up the trust responsibility. The 
authority to fund programs that help fulfill this responsibility is 
founded in the Constitution, specifically the Indian Commerce Clause, 
the Treaty Clause, and the Property Clause.
    Meeting this constitutional responsibility and empowering citizens 
and communities to meet the challenges that they face is a priority 
tribal nations share with many new Members of Congress. In this 
context, NCAI commends the administration for including language for 
the Carcieri fix in the fiscal year 2012 budget request and urges 
immediate passage of a clean Caricieri fix.
    NCAI has compiled recommendations on many specific programs and 
agencies that affect Indian country, but, in general, NCAI urges the 
Congress to hold Indian programs harmless in the fiscal year 2012 
appropriations process and exempt them from across-the-board 
rescissions. Tribal programs have endured tremendous fluctuations in 
recent decades, making it difficult for tribes to achieve community 
stability. Each year, tribes should receive resources at least equal to 
those appropriated to State and local governments so that tribes, too, 
may meet the critical needs of their citizens and so that the Federal 
Government may fulfill its sacred trust responsibility. As Members of 
Congress begin considering the Nation's Federal budgetary priorities, 
the debate should acknowledge the solemn agreements made with Indian 
tribes that are backed by the Constitution.
             bureau of indian affairs (bia)--public safety
    The recent passage of TLOA is proof that the calls of tribal 
leaders have not fallen on deaf ears. The Congress and the Obama 
administration have heard the concerns of Indian people and attempted 
to address them in this new law. The intended ends of the TLOA cannot 
be achieved unless tribes have the means to implement them. This 
requires adequate Federal funding for TLOA-authorized programs, as well 
as full funding of other critical tribal justice programs that will 
support the overarching TLOA vision of comprehensive law enforcement 
reform.
    Under Public Safety and Justice activities in the Bureau of Indian 
Affairs, the President has proposed a net $25.8 million increase from 
the fiscal year 2010 level, which includes $20 million in programmatic 
increases and $10.6 million for fixed costs. NCAI supports increases 
for BIA Public Safety and Justice programs.
                                  ihs
    The fiscal year 2012 request for IHS is $4.6 billion in 
discretionary budget authority--a significant increase of $571 million, 
or 14.1 percent, more than the fiscal year 2010 enacted level. Indian 
country won a substantial victory in 2010 with the passage and 
permanent reauthorization of the Indian Health Care Improvement Act 
(IHCIA) as part of the Patient Protection and Affordable Care Act 
(PPACA). American Indians and Alaska Natives realized a number of 
positive provisions in the overall PPACA legislation. As such, Indian 
country seeks to ensure that the Indian healthcare delivery system is 
strengthened so that Indian people and Indian health programs benefit 
from reformed systems. In order to achieve these results, fundamental 
components are necessary to fully implement IHCIA and PPACA in Indian 
country. In the current fiscal environment, NCAI and tribal leaders are 
encouraged to see strong support in the fiscal year 2012 budget request 
for IHS and urge the Congress to enact the 14.1 percent increase for 
IHS overall.
    Contract Support Costs (CSC).--The fiscal year 2012 request for IHS 
contract support costs is $461.8 million, an increase of $63.3 million 
and 16 percent. The IHS recently projected that the shortfall in fiscal 
year 2012 will be $153 million, which would result in a cut of $153 
million in tribally contracted programs, not IHS-administered programs. 
NCAI recommends the IHS CSC line item be increased to $615 million.
                                  epa
    The President's fiscal year 2012 budget request for EPA includes 
proposed funding for a Multimedia Tribal Implementation Grants program 
to support on-the-ground implementation of environmental protection on 
tribal lands. These grants, for which $20 million is requested, are 
tailored to address an individual tribe's most serious environmental 
needs. This new grant program will advance negotiated environmental 
plans, measures, and results as agreed upon by tribes and EPA, thus 
ensuring that tribal environmental priorities are addressed to the 
fullest extent possible. An additional $2.9 million is requested for 
tribal capacity building and implementation of this new grant program. 
NCAI supports this initiative and the proposed fiscal year 2012 levels 
for grants and implementation.
    The Multimedia Tribal Implementation Grants program will complement 
the environmental capacity developed under EPA's Indian Environmental 
General Assistance Program, for which the administration requests an 
$8.5 million increase, for a proposed fiscal year 2012 level of $71.4 
million. This requested increase will assist tribal environmental 
programs that have the capacity to take on additional responsibilities. 
NCAI supports this requested increase.
                         bia--natural resources
    After years of natural resources program cuts, several meaningful 
increases were provided in fiscal year 2010. An increase of $12 million 
was provided for rights protection implementation and $4 million for 
fish hatchery operations and maintenance.
    Several modest but helpful increases are requested in the fiscal 
year 2012 budget request. These include $1 million for rights 
protection implementation; $1 million for tribal management/
development; $1 million for forestry; $1 million for water management 
planning and pre-development; $1 million for wildlife and parks; $1 
million for wildlife and parks fish hatchery maintenance projects; and 
$500,000 for invasive species. Yet, even with these increases, the base 
TPA programs that fund tribes' day-to-day conservation 
responsibilities:
  --Tribal management/development;
  --Natural resources TPA;
  --Wildlife and parks TPA; and
  --Forestry would still remain at funding levels lower than they were 
        a decade ago.
    NCAI supports the requested increases, and urges sustained, 
increased funding in future years, especially given the level funding 
for BIA natural resources programs over a number of years.
    In fiscal year 2012, there is a provision of $200,000 for 
Cooperative Landscape Conservation to address climate change adaptation 
in the Northwest. Compared to the $131 million provided to Interior in 
fiscal year 2010 and the $175 million requested in fiscal year 2012 for 
climate change adaptation, the $200,000 is woefully inadequate. This 
amount of funding must be increased as it is well established that 
tribes are disproportionately impacted by climate change, and tribal 
lands make up 4 percent of the entire land area of the United States, 
and 16 percent of the lands managed by Interior. NCAI supports a 
significant increase proportionate to the climate impacts on tribal 
lands and the size of the Indian country land base to enable tribes to 
address the impacts of climate change.
                     support for tribal governments
    Every tribe in the United States, directly or through intertribal 
consortia, operates one or more contracts with the IHS or the BIA under 
the Indian Self-Determination and Education Assistance Act (ISDA, 
Public Law 93-638). The statute requires that IHS and BIA fully 
reimburse every tribal contractor for CSCs' that are necessary to carry 
out the transferred Federal activities. Cost-reimbursable government 
contracts similarly require payment of ``general and administrative'' 
costs. Full payment of fixed contract support costs is essential. 
Without this support, offsetting program reductions must be made, 
vacancies cannot be filled, and services must be reduced--all to make 
up for the shortfall.
    BIA reports that its CSC shortfall exceeded $62 million in fiscal 
year 2010, meaning full contract support cost requirements that year 
totaled $228 million. Yet, the fiscal year 2012 budget requests only 
$195.5 million, which would result in a $33 million cut to tribally 
operated BIA programs next year. Based on this data, NCAI recommends 
the BIA CSC line item be increased to $228 million.
    tribal grant support costs (tgsc) for tribally operated schools
    The operation of schools by tribes or locally elected tribal school 
boards is a major exercise of tribal self-determination, encouraged by 
Federal Indian policy for the last 35 years. Tribes and tribal 
organizations that exercise this option are entitled by law to receive 
TGSC (formerly known as Administrative Cost Grants) to cover the 
administrative or indirect costs incurred when they take over a school. 
In fiscal year 2010 the funding available for TGSC met only 60 percent 
of need, the lowest rate to date. For current contract and grant 
schools, $70.3 million should be appropriated to fully fund TGSC need, 
with an additional $2 million to fund the administrative needs of those 
schools that convert to contract or grant status in fiscal year 2012, 
to avoid diverting funds from existing tribally operated schools.
                              bia, overall
    The administration and the Congress have listened to the calls from 
tribes to provide meaningful increases to BIA overall in fiscal year 
2010. Efforts have also been made to address tribal priorities in the 
fiscal year 2012 budget in the face of overall budget constraints. The 
fiscal year 2012 budget request includes increases for natural 
resources, law enforcement and courts, and contract support costs. 
However, from a broader view, BIA and tribes continue to receive less 
funding in the President's budget requests (and in reality) relative to 
other bureaus and agencies in the Department of the Interior. For 
instance, the President's fiscal year 2012 budget requests an increase 
of $138 million for the National Park Service (NPS), an increase of $48 
million for the Fish and Wildlife Service (FWS), and a decrease of $119 
million for the BIA. Additionally, over the last nine fiscal years the 
budget for the FWS has grown by 30 percent; NPS by 28 percent; U. S. 
Geological Survey by 19 percent; Bureau of Land Management by 13 
percent. Meanwhile, BIA has seen an increase of only 8 percent. NCAI 
and tribal leaders recognize and appreciate that reductions to Indian 
Affairs funding could have been steeper, but urge this committee and 
appropriators to reverse this disproportionate funding trend (relative 
to other agencies) and provide an increase to the overall BIA budget to 
support tribal self-determination and communities throughout Indian 
country.
    Indian Guaranteed Loan Program.--The President's budget includes a 
reduction to this program of $5.1 million. The Indian Guaranteed Loan 
program is a very successful program. It is leveraged money so it makes 
no sense to cut money that represents a ten to one financing for 
tribes. Cutting $1 million is the same as cutting $10 million. These 
are guarantees which went unused; however, the issue was not with 
tribes not utilizing the funds but with Interior not getting them out. 
The individual business program utilizes a 10:1 funding ratio, meaning 
a $10 million investment could guarantee $100 million in business 
loans. This has worked well for individuals; however, tribes with 
limited resources willing to develop community-wide businesses and grow 
their local economies have to turn to the bond market for financing. 
The market, along with the rating agencies, has not gauged tribal risk 
effectively, making capital expensive or nonexistent. Guaranteed 
financing is needed for tribal development projects. This applies to 
loans and surety or performance guarantees, which have a lower 3:1 
ratio. The surety guarantees are needed because the surety bond 
industry excludes tribally owned construction companies in 
underwriting. NCAI requests that the Congress restore funding for the 
Indian Guaranteed Loan program for fiscal year 2012.

       Prepared Statement of the National Cooperators' Coalition
                                summary
    The National Cooperators' Coalition (NCC) urges the Subcommittee on 
the Interior, Environment, and Related Agencies to increase the funding 
of the U.S. Geological Survey's (USGS) Cooperative Fish and Wildlife 
Research Units (CFWRUs) by $2.7 million more than the amount in the 
fiscal year 2010 continuing resolution to fill vacant scientist 
positions. At a time when Federal spending needs to be reduced, the 
CFWRUs are precisely the type of program that should receive greater 
support because they successfully leverage $3 for every $1 of Federal 
funds appropriated for the program. With typically just three Federal 
scientists, each of the 38 CFWRUs is lean and highly productive and 
uses partnerships to avoid the need for Federal spending on 
administrative personnel, building space, and much of the operating 
expenses. This cost-effective program, however, is in jeopardy unless 
funds are provided to replace its retiring scientists.
    The NCC also recognizes the efforts of several States that want to 
establish new unit capacity. Contingent on full funding of the base 
CFWRU Program, it is vital to these efforts that an additional $2.5 
million be appropriated for the new capacity which will add units in 
Nevada, New Jersey, and North Dakota, and complete the wildlife mission 
at existing units in Hawaii and California.
    The NCC is an alliance of non-Federal CFWRU Program cooperators and 
other supporters. Its members include State fish and wildlife agencies, 
universities, and nongovernmental organizations. The mission of the NCC 
is to build a stronger and more coordinated base of support to serve 
research, education, and technical assistance needs of the non-Federal 
CFWRU program cooperators.
            continue to build on this subcommittee's efforts
    We greatly appreciate your leadership in adding funding in fiscal 
years 2008, 2009, and 2010 for the CFWRU research and training 
partnership, which for more than 75 years has brought together State 
fish and wildlife agencies, State universities, and Federal agencies 
around a local, applied research agenda. As a result, to provide the 
capacity in the CFWRU Program that existed a decade ago, the fiscal 
year 2012 USGS appropriation now needs just $2.7 million more than the 
fiscal year 2010 enacted level.
    Each of the CFWRUs in 38 States is a true Federal/State/university/
private partnership among the USGS, a State natural resource agency, a 
host university, and the Wildlife Management Institute. The CFWRUs 
build on these partner contributions to leverage more than $3 for every 
$1 appropriated to the program by the Congress. The CFWRUs have 
established a record of educating new natural resource professionals 
who are management-oriented, well-versed in science, grounded in State 
and Federal agency experience, and able to assist private landowners 
and other members of the public. Restoration of funding support would 
ensure that the Interior Department provides the Federal scientist 
staffing agreed to with the CFWRU partners so that the return on the 
continuing investment in the program by those partners is realized and 
fully leveraged. At a time when Federal spending needs to be reduced, 
the role of the CFWRU Program in facilitating solutions to natural 
resources management challenges and training the fish and wildlife 
managers of tomorrow should be expanded rather than compromised by 
funding shortfalls that result in the absence of scientist leaders.
    State and Federal natural resources agencies are facing 
unprecedented challenges posed by energy development needs, invasive 
species, infectious diseases, wildfire, and increased demand for 
limited water resources. These agencies also face the challenge of 
replacing an extraordinary number of natural resource professionals who 
are retiring. Finding workable solutions to these challenges requires 
the kind of approaches to research emphasized by the CFWRUs, which rely 
on leveraging Federal dollars through collaborative, interdisciplinary 
efforts to help resolve emerging issues at scales that transcend 
individual State boundaries.
    With appropriation of $22 million for the CFWRUs for fiscal year 
2012, a sound foundation will exist on which new capacity should be 
built. With appropriation of an additional $2.5 million will add CFWRUs 
in Nevada, New Jersey and North Dakota, and complete the wildlife 
mission at existing CFWRUs in Hawaii and California. Rutgers 
University, University of Nevada--Reno, North Dakota State University, 
The University of North Dakota, University of Hawaii--Hilo, and 
Humboldt State University bring a wealth of research, education, and 
innovative technology to address contemporary conservation issues at 
regional and national scales. The respective State agency partners 
bring an extensive history of successful fish and wildlife management 
skills and resources that complement those existing at the 
universities. The State agency and university partners are well-
equipped to collaborate with the CFWRUs to help resolve natural 
resources management challenges that transcend State boundaries.
    We urge you to make greater use of the CFWRUs and to expand this 
program in five States. The program's efficient and cost-effective 
research and training partnership brings together State fish and 
wildlife agencies, State universities, and Federal agencies around a 
local, applied research agenda. With your assistance, this program can 
make the best use of limited Federal funds to become even more 
effective in using science and collaboration to address the natural 
resources challenges facing the Interior Department, other Federal, 
State and local agencies and this country's citizens.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    Thank you Chairman Reed, Ranking Member Murkowski, and members of 
the Senate Appropriations Subcommittee on the Interior, Environment, 
and Related Agencies for the opportunity to provide testimony. On 
behalf of all 57 SHPOs, I extend our appreciation for this opportunity 
to provide the following testimony which details our fiscal year 2012 
appropriations request, the State Historic Preservation Offices (SHPOs) 
responsibilities under the National Historic Preservation Act (NHPA) 
and how Preservation Makes  centsent$ through job creation, economic 
development, and heritage preservation.
    Request.--$50,000,000 for SHPOs.
    Funded through withdrawals from the Historic Preservation Fund (16 
U.S.C. 470h) Department of the Interior's (DOI) National Park Service 
Historic Preservation Fund (HPF).
         fiscal year 2012 hpf funding request makes  centsent$
    The National Conference of State Historic Preservation Officers 
requests a total $70 million withdrawal from the HPF for fiscal year 
2012 with funding distribution amounts of $50 million for SHPOs, $11 
million for Tribal Historic Preservation Officers and a total of $9 
million for the Save Americas Treasures and Preserve America grant 
programs. This request is 10 percent less than the cumulative amount 
the four programs received in fiscal year 2008.
        preservation makes  centsent$--federal-state partnership
    In 1966, the Congress recognized the importance of preserving and 
building upon our past by passing the National Historic Preservation 
Act (NHPA, 16 U.S.C. 470), which established historic preservation as a 
Federal Government priority. Instead of using Federal employees to 
carry out the act, the DOI and the Advisory Council on Historic 
Preservation partner with the States and use SHPOs to:
  --locate and record historic resources;
  --nominate significant historic resources to the National Register of 
        Historic Places;
  --foster historic preservation programs at the local government level 
        and promote the creation of preservation ordinances;
  --provide funds for preservation activities;
  --comment on Federal preservation tax projects;
  --review all Federal projects for their impact on historic 
        properties; and
  --provide technical assistance to Federal agencies, State and local 
        governments, and the private sector. And, States contribute 
        half the cost of the Federal program.
              preservation makes  centsent$--job creation
    Historic preservation creates jobs. Whether it is through the 
historic tax credit program, preservation grants, or other 
rehabilitation avenues, preservation creates skilled, principally 
local, jobs.
  --In 2010, while still in a national recession, there were nearly 
        1,000 new historic tax credit projects started, averaging 47 
        jobs per project. The private investment in the approved and 
        completed projects in 2010 totaled $3.42 billion.\1\
---------------------------------------------------------------------------
    \1\ ``Federal Tax Incentives for Rehabilitating Historic 
Buildings--Statistical Report and Analysis for Fiscal Year 2010.'' 
National Park Service.
---------------------------------------------------------------------------
  --The mixed-use redevelopment of the Hathaway Mill in Waterville, 
        Maine, resulted in the investment of approximately $31 million 
        in rehabilitation and related new construction costs. The 
        project supported 185 construction jobs and approximately 315 
        people are currently employed in the building.
    Mississippi's $27.5 million Hurricane Relief Grant Program for 
Historic Preservation has rehabilitated nearly 300 historic buildings 
and created 4,198 full-time and part-time jobs.
          preservation makes  centsent$--economic development
    From Providence, Rhode Island to Milwaukee, Wisconsin, and all 
around the country, historic preservation plays a key role in creating, 
maintaining, and growing communities while preserving their historical 
significance. The Federal Rehabilitation Tax Credit (FRTC) Program is 
an important driver in economic development. Program benefits and 
examples include:
  --Increasing the value of the rehabilitated property and returning 
        underutilized structures to the tax roles.
  --Encouraging protection of landmarks through the promotion, 
        recognition, and designation of historic structures.
  --Upgrading downtowns and neighborhoods and often increasing the 
        amount of available housing within the community.
  --In Rhode Island, from 2001 to 2010, the FRTC leveraged $1.291 
        billion in private investment.
  --The Blue Ribbon Loft Apartments in Wisconsin is the first building 
        to be redeveloped on the 21-acre Pabst Brewery site. The three-
        story, 140,000-square-foot brick building (known as the Keg 
        House) was converted into a 95-unit loft style apartment 
        community. The $15.8-million development has 69 units for low- 
        and moderate-income wage earners.
    In 2010, still in the midst of a recession, the Federal 
rehabilitation tax credit spurred $3.42 billion in private investment, 
created more than 41,600 skilled, local jobs and more than 5,500 
moderate and low-income housing units. All of which brings in both 
short- and long-term economic opportunities for the community.
    Heritage tourism also creates jobs, new businesses, builds 
community pride, and can improve quality of life. The SHPOs are 
essential, ground-level partners in identifying historic places and 
providing research for tourism interpretation. According to a 2009 
national research study on U.S. Cultural and Heritage travel by Mandela 
Research, 78 percent of all U.S. leisure travelers participate in 
cultural and/or heritage activities while traveling. Cultural and 
heritage travelers also spend on average $994 per trip compared to $611 
for all U.S. travelers.
           preservation makes  centsent$--america's heritage
    Preservation honors the significant places of American history at 
the local, State, and Federal levels through creating historic 
districts and listing resources in National and State Historic 
Registers. The SHPOs, through the authority of the NHPA are there to 
assist, support, and encourage communities with their efforts. National 
Register recognition by the Secretary confirms citizens' belief in the 
significance of their community. That recognition, in turn, builds 
community pride and stable, livable neighborhoods such as Natchez, 
Mississippi; Cambridge, Maryland; and Rockland, Maine. Further, this 
neighborhood improvement comes from individual, private investment, not 
from Federal programs.
    The National Historic Preservation Program is one of assistance, 
not acquisition. The Federal Government does not own, manage, or 
maintain responsibility for the historic assets in the National 
Historic Preservation Program. Instead, the program, through the SHPOs, 
provides individuals, communities, and local and State governments the 
tools they need to preserve and utilize their historic heritage for the 
betterment of their community and the Nation.
    The Washington Post recently posted a video ``Preserving History as 
Population Changes.'' The video shows several people who live and/or 
work in the historic Washington, DC U Street corridor neighborhood. 
Central to the reasons these folks became involved in the neighborhood 
was the history, sense of place, and utilization of historic resources 
such as the renowned Lincoln Theatre. (http://www.washingtonpost.com/
local/preserving-history-as-population-changes/2011/03/26/
AF7LV7dB_video.html?hpid=z3).
    While the population change to the U Street neighborhood has 
brought challenges, Mazi Mutafa states in the video:

    ``The same people who saw value in buying less expensive real 
estate for theatres and businesses also thought--well why don't I live 
here since I work here or why don't I live here since I play here? I 
think the real challenge is not the fact that it's changed, it's the 
fact that one of the dangers of losing people who are from a community 
is that the history of it becomes less meaningful. And so I think 
that's why places like Lincoln Theatre are really important, to not 
just tell the story of what's happened today, but to tell the story of 
what's happened in the past so that the people who move to this 
neighborhood realize that as new residents they are a part of a 
history, though the people who made that history may not look like 
them, they lived in these very houses, they walked these same streets. 
So they need to see themselves as a part of that same history and a 
continuation of that history, not as a kind of replacement of that 
history.''
            preservation makes  centsent$--money well spent
    Federal funding for SHPOs is money well spent. Under the 
administration's Program Assessment Rating Tool, management of historic 
preservation programs received a score of 89 percent, indicating 
exemplary performance of mandated activities. Reinforcing this finding 
is the December 2007 National Academy of Public Administration (NAPA) 
report ``BACK TO THE FUTURE: A Review of the National Historic 
Preservation Program'' and the 2009 National Parks Second Century 
Report, which called for fully funding the HPF.
    The NAPA, a nonprofit, independent coalition of top management and 
organizational leaders, found that the National Historic Preservation 
Program ``. . . stands as a successful example of effective Federal-
State partnership and is working to realize Congress' original vision 
to a great extent. However, the panel concluded ``that a stronger 
Federal leadership role, greater resources, and enhanced management are 
needed to build upon the existing, successful framework to achieve the 
full potential of the NHPA on behalf of the American people.'' \2\
---------------------------------------------------------------------------
    \2\ NAPA, ``BACK TO THE FUTURE: A Review of the National Historic 
Preservation Programs'' December 2007, p. 29.
---------------------------------------------------------------------------
                      2010 shpo's accomplishments
     The SHPOs used their HPF allocations well in 2010. While virtually 
every State continues to experience staffing and operation reductions, 
SHPOs are still charged with implementing the requirements of the NHPA 
to the fullest extent. Highlights of 2010 historic preservation 
accomplishments include:
  --Reviewing 242,000 Federal undertakings, a 126 percent increase from 
        2009.
  --More than $3.42 billion of private investment in the rehabilitation 
        of commercial historic properties under the FRTC Program.
  --An estimated 41,641 jobs created by the FRTC Program in 2010.
  --5,514 low- and moderate-income housing units created through the 
        FRTC.
  --Approximately 24.5 million acres surveyed for cultural resources 
        and more than 168,000 properties evaluated for their historical 
        significance.
  --1,214 new listings in the National Register of Historic Places.
  --112,000 National Register eligibility opinions.
  --49 new communities became Certified Local Governments (CLGs).
  --Under local law, CLG's newly designated 53,700 properties, and 
        67,300 properties took part in local preservation review, 
        programs, and incentives.
                               conclusion
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary, 50, 100, or 500 years from now. I 
would like to thank the subcommittee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and through our partnership, the SHPOs 
stand committed to identify, protect, and maintain our Nation's 
historic heritage. Thank you.
                                 ______
                                 
                 Letter From the Northern Forest Center
                                                      May 11, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies,
Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies,
Washington, DC.
    Dear Chairman Reed and Senator Murkowski: This testimony is from 
the Northern Forest Center, a nonprofit organization based in Concord, 
New Hampshire, in support of a fiscal year 2012 appropriation of $5 
million for the Community Forest and Open Space Conservation Program 
(Community Forest Program) under the United States Forest Service 
(USFS). This would match the level of funding proposed for the program 
in the President's fiscal year 2012 budget.
    The Community Forest Program will provide 50-50 matching grants to 
local governments, Indian tribes, and nonprofit organizations to 
acquire forestlands under threat of development. The program was 
established in the 2008 farm bill to give these local entities the 
ability to keep important forests as forests while exerting strong 
local control over management and directing timber revenues to local 
budgets and economic development. The program also provides a small 
amount of technical assistance funding to State forestry agencies so 
that those agencies may help interested grantees plan for and implement 
outstanding forest management.
    As noted by the recent USFS report, ``Private Forests, Public 
Benefits'', communities across America are threatened with loss of 
access to forest values through accelerating conversion of private 
forests. These threatened forestlands are often needed for essential 
community and tribal purposes, including water supply protection, the 
timber-based economy, wildlife habitat, youth outdoor education, and 
recreational opportunities, including hunting and fishing.
    The economic opportunities that can be created from these locally 
owned forests are particularly compelling. According to a recent study, 
``The Impact of Privately-Owned Forests'' (2009), private forests 
currently support eight jobs per every 1,000 acres, and each acre of 
private forest generates an average of $733 in forest products sales. 
When private forests are lost to development, those forest jobs and 
revenues are lost. Across the country local governments, tribes, and 
nonprofits are stepping up to conserve their forest land base in active 
forestry to help support a strong and diversified economy. Because 
these lands are kept in local hands, they can be managed efficiently to 
help generate economic opportunities in the woods.
    The Northern Forest Center advocates for the Northern Forest region 
of Maine, New Hampshire, Vermont, and New York, and helps its 
communities benefit from forest based economic development and 
conservation initiatives. Our organization has been involved in the 
creation of several community forests, including in the town of Errol, 
New Hampshire, which formed a community nonprofit to purchase 5,200 
acres to help local foresters retain access to the woods. This 
acquisition created seven new forest jobs--a substantial impact on this 
rural community. In the West similar efforts are springing up, often 
led by local wood producer cooperatives like the Mount Adams Resource 
Stewards in Washington State. These local groups seek funding from the 
Community Forest Program to purchase threatened forestlands in their 
communities so that they remain open for forestry.
    It is important to note that restoration forestry can also create 
jobs. A study by Garrett-Peltier and Pollin (2009) found that watershed 
restoration and other kinds of forest restoration create 39.7 jobs for 
every $1 million invested--the most of any economic sector they 
examined. Local governments, tribes, and nonprofits often are uniquely 
positioned to purchase impaired forests and to work patiently over time 
to restore them to full health and productivity. Many of these entities 
are very eager to use the Community Forest Program to acquire lands so 
that they may implement this kind of long-term restoration forestry for 
continued output of timber and biomass while also achieving other 
natural resource objectives.
    Among other important purposes, this program can help meet the need 
to reconnect Americans, especially young people, with our forests. It 
is well established that in many parts of America, young people are 
losing this connection--a Kaiser Family Foundation study found that the 
average young American spends 44 hours per week staring at some kind of 
electronic screen.
    Community forests are often located in places where young people 
would otherwise have few chances to choose more time in the outdoors. 
The Jefferson Memorial Forest in Louisville, Kentucky is a great 
example. This 6,000-acre forest on the edge of the city provides 
endless opportunities from youth outdoor education to cultural events. 
It is a place where urban residents can connect to Kentucky's forest 
heritage and culture. The city of Louisville is interested in using the 
Community Forest Program to help add land to the Jefferson Memorial 
Forest where development is encroaching.
    The Community Forest Program has a broad base of support. The 
program was established with the support of a large and diverse 
national alliance of forestry, landowner, industry, land conservation, 
and wildlife groups. More than 130 groups have endorsed the program 
since 2008, including hunters and anglers from the Association of Fish 
and Wildlife Agencies; Florida Wildlife Federation; Georgia Wildlife 
Federation; Izaak Walton League of America--National and Iowa Division; 
Minnesota Conservation Federation; Mississippi Wildlife Federation; 
National Wildlife Federation; New Jersey State Federation of 
Sportsmen's Clubs; New York State Conservation Council; South Carolina 
Wildlife Federation; Texas Conservation Alliance; Vermont Federation of 
Sportsmen's Clubs; and Wildlife Mississippi. Tribes including the 
Eastern Band of Cherokee Indians have offered support, as well local 
governments from the city of Louisville, Kentucky to the Town of 
Arcata, California. Land trusts, wildlife groups, and other interests 
have also offered support. This broad and diverse support is a reminder 
of how effectively community and tribal forests truly can advance the 
public interest.
    The Congress allocated $1 million in fiscal year 2010 to finish 
rulemaking for the program with an eye toward opening the program to 
begin awarding grants in fiscal year 2011 or fiscal year 2012 at the 
latest. That rulemaking is nearly complete. The comment period on the 
Proposed Rule closed in early March, and the Final Rule is expected 
soon. The President included $5 million in his fiscal year 2012 budget 
in recognition of the diverse needs that this program could fulfill, 
and its readiness to begin making grants.
    Through this testimony, we respectfully encourage the Senate 
Interior, Environment, and Related Agencies Appropriations Committee to 
allocate $5 million in fiscal year 2012 to the Community Forest 
Program. This funding will help America's local governments, tribes, 
and nonprofits become even more active leaders for conservation of our 
forests, and to provide a boost to America's economic recovery through 
the forest-based economy.

                                                 Joe Short,
                                       Program and Policy Director.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2012 funding for 
the National Fish and Wildlife Foundation (NFWF). The NFWF's fiscal 
year 2012 appropriations request will be matched dollar-for-dollar with 
non-Federal funds to conserve fish, wildlife, and their habitats 
through local partnerships. We believe that the NFWF is a sound 
investment in a time of constrained budgets because of our proven track 
record and statutory requirement to leverage Federal funding with 
private contributions to maximize conservation benefit. We appreciate 
the subcommittee's past support and respectfully request your approval 
of funding at the following levels:
  --$8.537 million through the U.S. Fish and Wildlife Service's (FWS) 
        resource management general administration appropriation;
  --$3 million through the Bureau of Land Management's (BLM) management 
        of lands and resources appropriation; and
  --$3 million through the Forest Service's (USFS) National Forest 
        System appropriation.
    Since its inception, the NFWF has leveraged nearly $530 million in 
Federal funds into $1.8 billion in on-the-ground and in-the-water 
conservation with less than 5 percent aggregate overhead to the Federal 
Government and fewer than 100 staff nationwide.
    The NFWF was established by the Congress in 1984 to foster public-
private partnerships to conserve fish, wildlife, and their habitats. 
The NFWF is required by law to match each federally appropriated dollar 
with a minimum of one non-Federal dollar. We consistently exceed this 
requirement by leveraging Federal funds at a 3:1 average ratio while 
building consensus and emphasizing accountability, measurable results, 
and sustainable conservation outcomes.
    Last summer, the NFWF was able to immediately respond to the gulf 
disaster through our existing partnerships and grantee network. We 
provided assistance to our Federal agency partners and began 
fundraising for projects to safeguard the populations of species most 
at risk from the gulf oil spill. Through philanthropic contributions by 
BP and Walmart, the NFWF provided nearly $10 million in non-Federal 
funds for projects to reduce the losses and bolster populations of 
migratory birds and sea turtles in the gulf region. In addition, as an 
in-kind donation, the NFWF worked with FedEx to transfer 25,000 sea 
turtle eggs and their nests from gulf beaches to the east coast of 
Florida. The NFWF will announce an additional $10 million of gulf 
projects in April 2011 that focus on migratory birds, sea turtles, 
oysters, and other marine species and their habitats.
    With your support, fiscal year 2012 funds will support our long-
standing partnerships and new initiatives with the FWS, the BLM, and 
the USFS. Several of our priority initiatives for fiscal year 2012 are 
described below.
                        fish habitat restoration
    In cooperation with the FWS, the BLM, and the USFS, the NFWF 
provides community-based grants to assist rural communities, farmers, 
ranchers, and other private landowners with restoring habitats that are 
essential for native fish species and their migration corridors. To the 
extent possible, the NFWF is also partnering with the National Oceanic 
and Atmospheric Administration (NOAA) and the USDA's Natural Resources 
Conservation Service on these efforts, and successfully leveraging 
Federal support with corporate contributions for fish habitat 
conservation on private and public lands. The NFWF is building on our 
long history in fish habitat restoration to strategically target our 
partnership efforts toward specific species of concern and this will 
continue in fiscal year 2012 and beyond. Focal species for the NFWF's 
grants include: eastern brook trout, Apache trout, Colorado cutthroat 
trout, and coho salmon.
                 path of the pronghorn and sage grouse
    In 2009, the NFWF and our partners identified the Green River Basin 
of Wyoming as a priority area for coordinated conservation efforts. The 
Basin supports significant populations of sage grouse, mule deer, 
pronghorn, and elk. These species are threatened by habitat 
fragmentation, subdivision and fencing of key areas that the wildlife 
move through, mortality along increasingly busy local roads and 
highways, and potential conflicts with expanding energy production 
infrastructure on their wintering range. In partnership with the FWS, 
the BLM, and the USDA's Natural Resources Conservation Service, the 
NFWF has focused its grant-making on work to improve fencing so that 
pronghorn and other wildlife can migrate more easily, reducing the 
effects of roads on wildlife, and protecting key parcels where 
subdivision and development will imperil the entire migration corridor.
         the chesapeake bay, great lakes, and long island sound
    Watershed health plays an important role in fish and wildlife 
conservation and has been a feature of the NFWF's grantmaking since 
establishing our partnership with the Environmental Protection Agency 
(EPA) in 1998. In the last decade, the NFWF has formed strategic 
public-private partnerships to restore and protect fish and wildlife 
habitat while improving water quality in the Chesapeake Bay, Great 
Lakes, and Long Island Sound. Federal partners in the programs include 
the EPA, the Department of the Interior (DOI) agencies, the USFS, the 
USDA's Natural Resources Conservation Service, the NOAA, and others. 
The NFWF leveraged various Federal funds for these partnerships but, 
more importantly, attracted private contributions from corporations and 
other private foundations. The NFWF's watershed grant programs 
continued positive results in 2010 with priority project requests far 
exceeding available funds.
                       youth in natural resources
    The DOI's fiscal year 2012 budget request includes $2 million, 
split between the FWS and the BLM, for the NFWF to establish a 
competitive grant program for youth conservation job programs. With the 
movement of Americans to urban areas and more indoor recreational 
pursuits, America's youth are developing a gap in their knowledge of 
fish and wildlife and the need for natural resource conservation. 
Through this unique initiative, local organizations will develop 
employment programs that foster a conservation ethic, expose youth to 
career opportunities in the conservation community, and ultimately 
cultivate future generations of wildlife professionals.
    The NFWF will work with the FWS and the BLM to develop a public-
private partnership by leveraging the Federal funding with at least an 
equal amount of privately financed contributions. Funds will be awarded 
to refuges, fish hatcheries, Friends groups, the BLM field offices, 
Youth Conservation Corps, nongovernmental organizations and others who 
seek to develop innovative conservation employment opportunities for 
youth. Wildlife habitat conservation education will be an integral 
aspect of this grant program and the NFWF will partner with the DOI's 
National Conservation Training Center to develop learning goals, 
curricula, and other training material that can be integrated into job 
programs.
                               conclusion
    The NFWF has a 27-year history with the DOI and has been successful 
in bringing together public and private partners to build strategic 
partnerships to address the most significant threats to fish and 
wildlife populations and their habitats. The NFWF has partnerships with 
14 Federal agencies and more than 50 corporations and private 
foundations. We have a successful model of coordinating and leveraging 
Federal funds and attracting support from the private sector to form 
public-private partnerships for fish and wildlife conservation.
    We are working directly with the Federal agencies and our other 
partners to maximize results and produce sustainable conservation 
outcomes. To that end, the NFWF is incorporating monitoring and 
evaluation into our programs to measure progress, promote adaptive 
management, demonstrate results, and continuously learn from project 
investments. We look forward to building on our partnerships with the 
FWS, the BLM, and the USFS in fiscal year 2012 and appreciate the 
subcommittee's continued support of these collaborative efforts.
                         background on the nfwf
    As of fiscal year 2010, the NFWF has awarded more than 11,000 
grants to national and community-based organizations through successful 
partnerships with the DOI agencies, the USDA's USFS and Natural 
Resources Conservation Service, the EPA, the NOAA, and others. This 
collaborative model brings together multiple Federal agencies with 
State, tribal, and local governments and private organizations to 
implement coordinated conservation strategies in all 50 States.
    The NFWF's grant-making involves a thorough internal and external 
review process. Peer reviews involve Federal and State agencies, 
affected industry, nonprofit organizations, and academics. Grants are 
also reviewed by the NFWF's issue experts, as well as evaluation staff, 
before being recommended to the board of directors for approval. In 
addition, according to our congressional charter, the NFWF provides a 
30-day notification to the Members of Congress for the congressional 
district and State in which a grant will be funded, prior to making a 
funding decision. Mr. Chairman, we greatly appreciate your continued 
support and hope the subcommittee will approve funding for the NFWF in 
fiscal year 2012.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) requests that $10 
million be included in the U.S. Geological Survey's (USGS) Groundwater 
Resources Program account to begin implementation of a national 
groundwater monitoring network. The NGWA is the world's largest 
association of groundwater professionals, representing public and 
private sector engineers, scientists, water well contractors, 
manufacturers, and suppliers of groundwater-related products and 
services.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. In the United States, 78 percent of 
community water systems, nearly all of rural America's private 
household wells, and 42 percent of agricultural irrigation water are 
supplied by groundwater. While the Nation's people, food supply, 
economy and ecosystems depend on groundwater, no systematic nationwide 
monitoring network is in place to measure what is currently available 
and how groundwater levels and quality may be changing over time. As 
with any valuable natural resource, our groundwater reserves must be 
monitored to assist in planning and minimizing potential impacts from 
shortages or supply disruptions. Just as one cannot effectively oversee 
the Nation's economy without key data; one cannot adequately address 
the Nation's food, energy, economic, and drinking water security 
without understanding the extent, availability and sustainability of a 
critical input--groundwater.
    In the face of current and anticipated water supply shortages, 
public and private sector water professionals have put out the call 
over the years for increased groundwater monitoring, and the 
dissemination of the resulting data to the Nation.\1\ And the need to 
take action continues to this day.\2\ \3\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office. Freshwater Supply: 
States' Views of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Shortages. (GAO-03-514). July 2003. Page 1.
    \2\ White House Council on Environmental Quality. Progress Report 
of the Interagency Climate Change Adaptation Task Force: Recommended 
Actions in Support of a National Climate Change Adaptation Strategy. 
October 5, 2010. Page 11.
    \3\ U.S. Government Accountability Office. Energy-Water Nexus: A 
Better and Coordinated Understanding of Water Resources Could Help 
Mitigate the Impacts of Potential Oil Shale Development. (GAO-11-35). 
October 2010. Page 39.
---------------------------------------------------------------------------
    The Congress listened and responded to these requests for enhanced 
groundwater monitoring by authorizing a national groundwater monitoring 
network with passage of Public Law 111-11 (Omnibus Public Land 
Management Act) in 2009. In 2010, six States \4\ voluntarily pilot 
tested concepts for a national groundwater monitoring network as 
developed by the Federal Advisory Committee on Water Information's 
(ACWI) Subcommittee on Ground Water (SOGW). If this effort moves 
forward, consistent, comparable nationwide data would become accessible 
through a Web portal for Federal, State, local government, and private 
sector users. In these tight fiscal times, the proposed network would 
build on existing State and Federal investments, maximizing their 
usefulness and leveraging current dollars to build toward systematic 
nationwide monitoring of the groundwater resource.
---------------------------------------------------------------------------
    \4\ The six pilot States were Illinois, Indiana, Minnesota, 
Montana, New Jersey, and Texas. Additionally, Idaho, North Carolina, 
South Carolina, Washington and Wyoming volunteered as pilots but were 
not included given limited oversight resources.
---------------------------------------------------------------------------
    Unfortunately, the administration's fiscal year 2012 budget request 
proposes to reduce the USGS's Ground Water Resources Program by 25 
percent and delay implementation of a national groundwater monitoring 
network. We ask that instead of the proposed delay, the subcommittee 
redirect $10 million above the fiscal year 2012 USGS's Ground Water 
Resources Program budget request to:
  --Provide grants to regional, State, and tribal governments to cost 
        share increased expenses to upgrade monitoring networks for the 
        50 States to meet the standards necessary to understand the 
        Nation's groundwater resources. The shared funding arrangements 
        should be modeled after highly successful cooperative programs 
        (e.g. STATEMAP) that already exist between the USGS and the 
        States; and
  --Support the additional work necessary for USGS to manage a national 
        groundwater monitoring network and provide national data access 
        through an Internet Web portal.
    The redirection of an appropriation of $10 million for groundwater 
monitoring that is being requested here is small in comparison to the 
entirety of the Department of the Interior's appropriations. But the 
$10 million appropriation is vital when we understand that for a small 
investment we can begin finally to put in place adequate monitoring of 
the hidden resource that provides nearly 40 percent of the Nation's 
drinking water supply. Thank you for your consideration of this 
request.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
    Mr. Chairman and members of the subcommittee: On behalf of the 
National Humanities Alliance (NHA) and its 104 member organizations and 
institutions, we write to express strong support for the National 
Endowment for the Humanities (NEH). Our members, and the thousands of 
teachers, scholars, humanities organizations and institutions they 
represent, use NEH grants to maintain a strong system of academic 
research, education, and public programs in the humanities. For fiscal 
year 2012, we respectively urge the subcommittee to continue funding 
for NEH at the fiscal year 2010 enacted level of $167.5 million.
                                overview
    As you know, the President's fiscal year 2012 budget proposes 
$146.3 million in funding for NEH, including $118.2 million for program 
funds and $28 million for administration. This represents an overall 
cut of $21.2 million (about 13 percent) from the NEH's fiscal year 2010 
budget level. For NEH program funds (which support grants at the 
national and State levels), the President's budget represents an even 
deeper decrease of $21.8 million (about 16 percent) from the fiscal 
year 2010 level of $140 million. We do not support the cuts proposed by 
the administration, and are especially concerned about the deep erosion 
of funds that the President's budget represents for NEH competitive 
grants nationwide.
    In recent years, NHA has proposed significant new funding to help 
rebuild and expand NEH programs, that were cut dramatically in the mid-
1990s. We recognize the seriousness of the fiscal situation faced by 
the Congress and the administration, and understand that now is not the 
time to request an increase for this agency. However, we do not believe 
that cutting a relatively small discretionary program like NEH--which 
represents a tiny fraction of the Federal budget and plays such an 
important role--is the solution to the current crisis.
  --While much smaller than many of its counterparts in the Federal 
        Government, such as the National Science Foundation, NEH is the 
        lead Federal agency tasked with advancing and preserving 
        knowledge in a broad range of academic fields, and it plays a 
        central role in supporting the Nation's education and research 
        infrastructure.
  --NEH grants support high-quality resources, materials, and programs 
        that reach individuals and communities in every State and 
        district in this country.
  --NEH funding is an extremely efficient investment of taxpayer funds, 
        with most NEH grants leveraging significant direct or indirect 
        non-Federal support.
    A $22 million cut to NEH will have a significant and detrimental 
impact on the ability of this agency to fulfill its mission to the 
American people, without resolving the deficit in any meaningful way. 
Moreover, these cuts will deprive the American people of critical 
resources at a time when they are needed more than ever.
                      importance of the humanities
    The public value of the humanities is unquestioned. They enrich 
individual lives, they bring communities together, they underpin our 
civic institutions, they bring forth our history and our shared values, 
they make possible how our heritage is understood and preserved, and 
they support a broadly educated and competitive workforce.
    The humanities encompass a broad range of fields--including the 
study of languages, linguistics, literature, history, law, government, 
philosophy, archaeology, comparative religion, ethics, and more. From 
the basic building blocks of early education, to the highest levels of 
academic attainment, humanities fields provide essential skills and 
competencies, and support critical modes of thought. Students who get a 
sound humanities education, focused on careful reading and disciplined 
writing, do better in all fields of study, and are sought after by 
employers. Study and knowledge of the humanities prepare us to become 
active and informed citizens, as well as to succeed in the increasingly 
competitive, and global workforce.
    Almost all sectors and trades depend on a U.S. workforce with 
access to high-quality education in humanities fields across the 
educational continuum. But the humanities workforce itself is 
significant, with more than 2.5 million Americans directly engaged in a 
broad range of humanities professions--K-12 teachers, college/
university faculty, museum curators, librarians, translators, news 
analysts, and others. This figure does not include the many trades that 
require professionals with advanced aptitude or training in the 
humanities, such as:
  --advertising;
  --marketing;
  --public administration;
  --law;
  --national security;
  --intelligence,
  --international trade;
  --arts;
  --entertainment;
  --science;
  --engineering; and
  --health.
    Finally, the humanities represent areas of expertise vital to 
addressing complex policy challenges--from informing medical ethics, to 
understanding the root causes of world hunger, to fighting illiteracy. 
And they support capacities especially relevant to the 21st century:
  --knowledge of world cultures, religions, and languages;
  --understanding of U.S. history and democratic traditions; and
  --humanistic perspectives to evaluate the implications of scientific 
        and technological advances.
                             national needs
    As the NEH founding legislation recognizes, there is a clear 
Federal role in supporting the humanities, just as there is for the 
sciences and other fields:

    ``An advanced civilization must not limit its efforts to science 
and technology alone, but must give full value and support to the other 
great branches of scholarly and cultural activity in order to achieve a 
better understanding of the past, a better analysis of the present, and 
a better view of the future.''

    At a time of rapid globalization, technological development, and 
severe economic challenges, the wisdom of this statement is as evident 
today--if not more so--than it was almost 50 years ago.
    According to many corporate executives, higher education leaders, 
and other experts, the U.S. liberal arts curriculum in our Nation's 
schools, colleges, and universities is at risk. The United States has a 
long tradition of fostering broad access to education that integrates 
learning across the sciences, mathematics, and the humanities. Even as 
we move away from this approach, it is aggressively being emulated by 
China and other nations around the world who have identified this 
aspect of our educational system as a unique driver of United States 
economic leadership and innovation in the last century.
    In recent studies, employers rank reading and writing as top 
deficiencies in new hires, with more than one-third of employers ending 
high school graduates ``deficient'' in reading comprehension, and 
``written communications'' topping the list of applied skills found 
lacking in high school and college graduates. This comes at a real 
cost--with annual spending on remedial writing courses estimated at 
more than $3.1 billion for large corporations and $221 million for 
State employers.
    As the impact of the recession continues to be felt around the 
country, many Americans are turning to further education, and local 
resources like libraries, museums, and State humanities councils as a 
means of finding jobs, and connecting with their communities at a time 
of crisis. While demand for their services increases, many nonprofit 
humanities institutions and organizations are struggling to maintain 
access to programs, due to continued constriction of traditional 
revenue sources (e.g., endowments, private giving, State and local 
funding). School districts are cutting back on teachers and course 
offerings, and many colleges and universities--especially public 
institutions--have closed humanities departments or cut back on full-
time instructors, despite growing wait-lists for basic courses like 
writing and history.
                              the neh role
    NEH is the lead Federal agency with the mission to create, 
preserve, and disseminate knowledge in the humanities that is essential 
for the achievements described above. Each year, NEH awards hundreds of 
competitive, peer-reviewed grants to a broad range of nonprofit 
educational organizations and institutions, and to individual scholars, 
throughout the country. Grantees include:
  --universities;
  --2- and 4-year colleges;
  --humanities centers;
  --research institutes;
  --museums;
  --historical societies;
  --libraries;
  --archives;
  --scholarly associations;
  --K-12 schools;
  --local education agencies; and
  --public television/film/radio producers.
    These grants help support educational advancement, professional 
development, jobs and institutional activities for thousands of 
students, teachers, faculty, and others engaged in the humanities in 
communities across the United States every year.
    As noted above, we are especially concerned about the decline in 
funding for NEH competitive grants. From the community's perspective, 
NEH competitive grants fall into two categories:
      Core Programs.--Research, education, preservation, digital 
        humanities, challenge grants, and public programs;
      Special Initiatives.--Bridging cultures, we the people.
    NEH grants are known for their quality, and their ability to 
leverage significant non-Federal funding for humanities projects 
nationwide. They are also extremely competitive. Annually, demand for 
humanities project support through NEH far exceeds funding available. 
In fiscal year 2010, NEH received 5,205 competitive grant applications 
representing more than $515 million in requested funds (a 20 percent 
increase in the number of applications submitted for the previous 
year). Of these, NEH was able to fund only 16.6 percent of the 
proposals submitted. This is too low, when compared to recent rates as 
high as 32 percent reported by grantmaking agencies like the National 
Science Foundation (NSF), and means that excellent work vital to the 
humanities is unable to go forward.
    Examples of underfunded NEH grant programs include:
  --fellowships and collaborative research;
  --digital humanities projects;
  --professional development for teachers and faculty; preservation of 
        historically significant collections;
  --public film;
  --radio;
  --television and digital media projects; and
  --challenge grants to build institutional capacity and leverage non-
        Federal support.
                impact of the president's budget request
    Competitive Programs.--Unfortunately, the President's budget for 
fiscal year 2012 would deeply and disproportionately cut NEH 
competitive grants. Collectively, total funding provided for 
competitive grants through the NEH Core Programs (listed above) would 
decrease from $79.6 million in fiscal year 2010 to $70.8 million in 
fiscal year 2012--an $8.7 million (or 11 percent) cut. In addition, the 
President's budget terminates We the People, an initiative launched in 
2004 to advance understanding of U.S. history and culture (funded at 
$14.5 million in fiscal year 2010). Since its inception, We the People 
has been structured to redirect funds across NEH programs and 
divisions. But by cutting We the People, rather than allocating its 
resources to the NEH programs that underpin it, the budget proposal 
further weakens NEH core programs. While amounts have varied annually, 
in recent years, NEH core programs have received, on average, roughly 
half of We the People funds ($7.4 million in fiscal year 2010). 
Factoring in termination of We the People, we estimate the total impact 
of the President's budget on NEH competitive grants would be a 
reduction of at least $16 million (or 18 percent).
    Looked at over a longer timeframe, the situation is even more 
difficult. Funding for NEH competitive grants through the national core 
programs is very low compared to past years, and we cannot let it fall 
further behind. In fiscal year 1994 (the nominal funding peak for the 
NEH), collectively, funding for these programs was provided at $116.4 
million. Adjusted for inflation, this would be equivalent to $173.7 
million in today's dollars--more than double the current level.
    Special Initiatives.--The President's budget would provide modest, 
new funding of $4 million for the agency's Bridging Cultures 
initiative, a program developed by NEH Chairman Jim Leach to enhance 
Americans' understanding of the Nation's rich cultural heritage, as 
well as the cultural complexity of the world in which we live. NHA has 
advocated for many years for expansion of the agency's programmatic 
coverage in areas of international education, global competency, and 
cultural understanding, and we welcome this effort.
    NEH Federal/State Partnership.--NEH extends its reach through 
annual operating grants to State humanities councils located in every 
State and U.S. territory. For fiscal year 2012, the administration has 
requested $40.1 million, a nominal decrease of $270,000 from the fiscal 
year 2010 enacted level. There is a significant decrease, however, when 
also factoring in the termination of We the People, of a total of 
roughly $7 million (or 15 percent).
                               conclusion
    This subcommittee stands as steward to many of our Nation's 
greatest shared natural and cultural resources. We recognize that the 
Congress faces unprecedented and difficult choices in this and coming 
years. Nevertheless, we ask the subcommittee to consider the 
demonstrated contributions of the NEH, and the importance of continued 
funding for the humanities through NEH as an investment in the Nation's 
long-term economic recovery and competitiveness, the strength and 
vitality of our civic institutions, the preservation and understanding 
of our diverse cultural heritage, and the lives of our citizens. Thank 
you for consideration of our request, and for your past and continued 
support for the humanities.
    Founded in 1981, NHA is a coalition of nonprofit organizations and 
institutions dedicated to the advancement of education, research, 
preservation and public programs (www.nhalliance.org).
                                 ______
                                 
    Prepared Statement of the New Hampshire Fish and Game Department
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
conserving land at the Umbagog National Wildlife Refuge in northern New 
Hampshire. This year presents an opportunity to continue the 
conservation of the 31,300-acre Androscoggin Headwaters property from a 
willing landowner with appropriations from the Land and Water 
Conservation Fund (LWCF) and the Forest Legacy Program (FLP).
    For fiscal year 2012 the President's budget includes funding 
requests for two phases of the larger Androscoggin Headwaters 
conservation project. First, the U.S. Fish and Wildlife Service (FWS) 
recommends $1.5 million for acquisitions in the Umbagog National 
Wildlife Refuge. Second, the U.S. Forest Service (USFS) recommends $5 
million for the project from the FLP. I am pleased that this funding is 
included in the request and urge the Congress to provide the full 
amount in the President's budget for LWCF and FLP so that these 
important projects can receive necessary funding. The first two phases 
in fiscal year 2011 had funding recommended in that year's President's 
budget, and the Congress is still working on finishing the fiscal year 
2011 budget. The provision of sufficient funding to LWCF and FLP in 
fiscal year 2011 will improve the opportunity to provide funding in 
fiscal year 2012.
    Supporting the Androscoggin Headwaters Conservation Project is a 
good fit for the New Hampshire Fish and Game Department. Our mission 
states that as guardian of New Hampshire's fish, wildlife and marine 
resources, we work in partnership with the public, nongovernmental 
organizations and other agencies to conserve, manage and protect these 
resources and their habitats, to inform the public about the resources, 
and to provide opportunities for the public to use and appreciate these 
resources. The Androscoggin Headwaters project implements strategies 
identified in our New Hampshire Wildlife Action Plan that will conserve 
habitats and species of greatest conservation need. It also advances 
the objectives of New Hampshire's Forest Resource Plan, and its 
strategies promoting forest stewardship and sustainable forest 
economies. The project directly contributes to the priorities of the 
New England Governors, who at their September 2009 conference passed a 
resolution establishing a New England Forest Initiative to ``Keep 
Forests as Forests''. In addition, the project is a signature effort of 
the Mahoosuc Initiative, a coalition of local, regional, and national 
nonprofits that have formed an alliance to promote land conservation; 
tourism and forestry-related economic development; and enhanced quality 
of life for residents in the region. The Eastern Brook Trout Joint 
Venture has also offered their support for the Androscoggin Headwaters 
Project.
    Covering 31,300 acres of remote forests, streams, and ponds, the 
Androscoggin Headwaters property is one of the largest unprotected 
ownerships remaining in the State of New Hampshire. The property is 
located at the headwaters of the Androscoggin River adjacent to Umbagog 
National Wildlife Refuge, and features a variety of wildlife and 
fishery resources that are of regional and national significance. The 
property is an important source of forest products and jobs for the 
region's timber economy, and is a popular destination for hunting, 
fishing, snowmobiling, and other outdoor pursuits. The Trust for Public 
Land (TPL) is working with the landowner, New Hampshire Fish and Game, 
the New Hampshire FLP, and the Umbagog National Wildlife Refuge to 
bring the most critical wildlife habitat into public ownership while 
retaining the balance of the property in private ownership subject to a 
State-held FLP conservation easement.
    Situated at the southern range of the boreal forest zone and near 
the northern range of the deciduous zone, the region provides habitat 
for species of both forest types. Many of these species are identified 
as priorities in the New Hampshire State Wildlife Action Plan. The 
Umbagog Refuge encircles much of Lake Umbagog, with 8,700 acres of open 
water, many miles of shoreline, protected coves and backwaters, and 
diverse wetland complexes. The Refuge protects unique habitat for many 
wetland-dependent and migratory species, including bald eagle, Canada 
warbler, wood thrush, and American black duck; as well as many species 
of State concern, including common loon, northern harrier, American 
woodcock, and others. For the common loon and osprey, Lake Umbagog is 
considered the best breeding habitat in New Hampshire. Lake Umbagog and 
its associated wetlands have been listed by both Maine and New 
Hampshire as a priority site under the Atlantic Coast Joint Venture of 
the North American Waterfowl Management Plan. The Refuge includes a 
very large and exemplary native bog community that is designated as a 
National Natural Landmark.
    Located along the border of northern New Hampshire and western 
Maine in the Mahoosuc Mountains, Lake Umbagog is the westernmost link 
in the chain of Rangeley Lakes, famed for their excellent recreational 
opportunities. Anglers, kayakers and canoeists explore numerous coves 
and bays on Lake Umbagog and the dozens of rivers, streams, and smaller 
ponds around the Lake. Hunters, hikers, nature photographers, and 
wildlife watchers all find extensive opportunity in the Refuge and the 
Androscoggin Headwater property's remote expanses. The region is a 
well-known and sought-after fishery that offers anglers the opportunity 
to fish for warm water species such as smallmouth bass, perch, and 
pickerel in Lake Umbagog and for cold water species, notably eastern 
brook trout, in the feeder streams and surrounding ponds.
LWCF Request
    Available for acquisition in fiscal year 2012 is the second phase 
(4,532 acres) of the larger, 31,300 acre five-phase Androscoggin 
Headwaters Conservation Project. At its successful conclusion, this 
project will conserve 15 undeveloped ponds and 38 miles of streams with 
some of the finest cold-water fisheries in the Northeast. The project 
will add a total of 7,450 acres in fee ownership to the Umbagog NWR, 
which currently owns 21,650 acres. The target property lies entirely 
within the authorized refuge acquisition boundary. It is also part of a 
much larger 63,000 acre conserved working forest landscape that 
includes the existing refuge, a community forest owned by the Town of 
Errol, and FLP conservation easements held by the State.
    The Phase II 4,532-acre portion contains Mollidgewock Brook, an 
undeveloped tributary to the Androscoggin River, and smaller streams 
that total more than 11.5 miles. Along the Mollidgewock Brook are 
significant wetland complexes that are utilized by waterfowl for 
nesting and breeding. All told there are 546 acres of prime wetlands on 
the Phase II tract. New Hampshire Audubon has designated approximately 
1,100 acres of the property as part of the Umbagog Important Bird Area 
and Audubon has ongoing field research into Rusty Blackbird habitat on 
the parcel.
    The allocation of $1.5 million from LWCF as proposed in the fiscal 
year 2012 President's budget will begin the second phase of the 
Androscoggin Headwaters project, allowing the refuge to conserve 
important habitat for Federal trust species and link it to other 
protected lands. The appropriation will ensure shoreline protection, 
public access for recreation, and wetland habitat preservation.
FLP Request
    Available for acquisition in fiscal year 2012 through the FLP is a 
12,637-acre phase of the Androscoggin Headwaters Conservation Project. 
At its successful conclusion, the project will conserve 23,000 acres as 
privately owned working forest through FLP conservation easements held 
by the State of New Hampshire.
    The Androscoggin Headwaters South parcel is comprised of upland and 
lowland forest noted for its excellent soils and mix of hardwood and 
softwood stands. The property contains two completely undeveloped 
tributaries to the Androscoggin River, Mollidgewock Brook and Bog 
Brook. These streams and associated wetland complexes support nesting 
habitat for a diversity of waterfowl and a wild brook trout fishery. 
This parcel also includes several popular snowmobile trails that 
connect Errol, New Hampshire to Berlin, New Hampshire. The required 
match for the appropriated funds will be met through the conservation 
of a 938-acre parcel that contains Greenough Pond and Little Greenough 
Pond, which are 2 of only 3 ponds in New Hampshire that sustain native, 
nonstocked brook trout populations.
    Northern New Hampshire has relied on forest products as the fuel 
for the region's economic engine for more than 200 years. Traditionally 
that has meant pulp and papermaking. As the northern New England paper 
industry has declined, jobs have been leaving the region. Our northern 
forest, however, is poised for a new source of economic activity. There 
are several proposals for utility-scale biomass energy plants that will 
take wood chips from the region's forests to produce renewable energy. 
In addition to jobs in logging, trucking, and value-added forest 
products, the conservation of this property will support good jobs in 
the tourism industry. Businesses catering to hunters, anglers, 
snowmobilers, kayakers, wildlife viewers, and other outdoor enthusiasts 
will benefit from the guarantee of public access for recreation that 
will be created through the conservation of this large block of 
forestland.
    The property is threatened with significant second home development 
along the waterfront parcels. The remote ponds are scenic, have 
tremendous recreational opportunities, and are highly valued for 
development of waterfront vacation homes. This kind of development 
would seriously undermine habitat for loons and other waterfowl, 
degrade water quality for the wild trout populations, and limit public 
recreational access. The Androscoggin Headwaters conservation strategy 
will protect the entire waterfront.
    The Androscoggin Headwaters Project also will help wildlife adapt 
to the impacts of climate change. At 31,300 acres, the project will 
conserve ecological systems from valley bottom to ridge top. The 
property is located in the northeast corner of New Hampshire close to 
the Mahoosuc Mountains and Rangeley Lakes, a region that is forecast to 
retain consistently cold winters and a deep snow pack under high carbon 
emission scenarios. Numerous species adapted to northern New England's 
long cold winters will find refuge here as suitable habitat to the 
south warms and fragments. Among these are snowshoe hare, American 
marten, three-toed woodpecker, and the federally threatened/State-
endangered Canada Lynx.
    Protection of the Androscoggin Headwaters property will connect 
large blocks of conservation land, adding to more than 100,000 acres. 
The property's proximity to other conserved lands--including Umbagog 
National Wildlife Refuge, 13-Mile Woods Community Forest, and State-
owned and easement lands around Maine's Richardson Lake, Grafton Notch, 
and Rapid River--will significantly advance the creation of landscape-
scale habitat connectivity in this region.
    An allocation of $5 million--as proposed in the fiscal year 2012 
President's budget--from the amounts appropriated to the New Hampshire 
will complete the second easement phase of the Androscoggin Headwaters 
Conservation Project and will ensure continued sustainable forestry, 
public access for recreation, and protect upland and wetland habitats 
recognized as some of the most important in the Eastern United States.
    I thank the chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
conservation effort in New Hampshire, and I appreciate your 
consideration of this funding request.
                                 ______
                                 
         Prepared Statement of the National Indian Health Board
    Mr. Chairman, and members of the subcommittee, my name is Lester 
Secatero. I serve as the Albuquerque Area Representative to the 
National Indian Health Board (NIHB) \1\ and the chairman of the 
Albuquerque Area Indian Health Board. The NIHB offers the following 
comments regarding the President's proposed fiscal year 2012 budget for 
the Indian Health Service (IHS).
---------------------------------------------------------------------------
    \1\ Established in 1972, NIHB serves all federally recognized 
tribal governments by advocating for the improvement of healthcare 
delivery to AI/ANs, as well as upholding the Federal Government's trust 
responsibility to AI/ANs. We strive to advance the level and quality of 
healthcare and the adequacy of funding for health services that are 
operated by the IHS, programs operated directly by tribal governments, 
and other programs. Our board members represent each of the 12 areas of 
IHS and are elected at-large by the respective Tribal governmental 
officials within their area. NIHB is the only national organization 
solely devoted to the improvement of Indian healthcare on behalf of the 
tribes.
---------------------------------------------------------------------------
    NIHB was pleased to learn that, for the fiscal year 2012 IHS 
budget, the administration recommends a $571 million increase more than 
the fiscal year 2010 enacted the IHS appropriations. This 14.1 percent 
increase is quite significant. It acknowledges the critical health 
needs of our tribal communities and represents the continued commitment 
to honor the Federal Government's legal obligation and scared 
responsibility to provide healthcare to American Indians and Alaska 
Natives (AI/AN).
National Tribal Budget Formulation Workgroup's Recommendations
    The trust obligation to provide healthcare is paramount, and it is 
upon this foundation that the IHS National Tribal Budget Formulation 
Workgroup built its recommendations for the fiscal year 2012 IHS 
budget. Each year, this Workgroup consolidates all the IHS areas' 
budget formulation recommendations; develops a consensus national 
tribal budget and health priorities document; and presents the 
recommendation to the U.S. Department of Health and Human Services 
(HHS).\2\ NIHB supports this Government-to-government process and the 
final recommendations developed by the Workgroup.
---------------------------------------------------------------------------
    \2\  For copies of previous Workgroup recommendations, please visit 
the NIHB Budget Formulation page athttp://www.nihb.org/legislative/
budget--formulation.php.
---------------------------------------------------------------------------
    The Workgroup's recommendations for fiscal year 2012 were formally 
presented to the HHS on March 4, 2010, 11 months before the President 
presented his fiscal year 2012 budget proposal to the Congress. Since 
the release of the Workgroup's recommendation, the Patient Protection 
and Affordable Care Act (ACA), which includes the permanent 
reauthorization of the Indian Health Care Improvement Act (IHCIA), was 
also passed and enacted. Although not included in the Workgroup's 
fiscal year 2012 recommendations, we know that funding the new 
opportunities now available under the reauthorized IHCIA is important 
to Indian country.
    The Workgroup's recommendations focus on two types of needed 
increases:
      Current Services Increases.--Preserving basic healthcare programs 
        currently being funded. Increases in current services are the 
        budget increments needed to enable the Indian healthcare 
        delivery system to continue operating at its current level. 
        These increases are more importantly than ever. This category 
        contains such items as Federal and tribal pay cost increases; 
        inflation; contract support costs (CSC); funding for population 
        growth; and facilities construction and staffing. Without these 
        increases to base funding, the Indian health system would 
        experience a decrease in its ability to care for the service 
        population.
      Program Increases.--Significant program increases are required to 
        address the overwhelming health needs in Indian country. The 
        recommended increases are made in key IHS budget accounts to 
        enable programs to improve and expand the services they provide 
        to Indian patients. IHS has long been plagued by woefully 
        inadequate funding, which has made it impossible to supply 
        Indian people with the level of care they need and deserve, and 
        to which they are entitled by treaty obligation.
    Below is a highlight of a few programs targeted by the Tribal 
Workgroup for vital increases.
    Current Services.--Federal and tribal pay costs. The Workgroup 
recommended a $12 million increase for Federal pay costs and a $13 
million increase for tribal pay costs. However, the President's 
proposal contains a 1.4 percent pay raise for Commissioned Officers 
that are $4.1 million and notes that the Federal and tribal pay costs 
are subject to the pay freeze enacted by the Congress. NIHB recommends 
that tribal and Federal IHS employees should be exempted from any 
Federal employee pay freeze.
    Current Services: CSC--Shortfall.--Tribes in all areas operate one 
or more such contracts. The ability of tribes to successfully operate 
their own healthcare systems, from substance abuse programs to entire 
hospitals, depends upon the proper appropriation of CSC. Full CSC 
funding honors the legal duty to pay these costs, and protects 
healthcare resources intended for service delivery. A year ago, the 
projection to fully fund CSC was $145 and today, IHS projects an fiscal 
year 2012 shortfall in CSC payments of $153 million. NIHB supports the 
Workgroup's goal of full funding CSC, and urges that the CSC line item 
be increased by $153 million for fiscal year 2012.
    Program Increases: Contract Health Services.--The contract health 
service (CHS) program serves a critical role in addressing the 
healthcare needs of Indian people. The CHS program exists because the 
IHS system lacks the capacity to provide directly all the healthcare 
needed by the IHS service population. In theory, CHS should be an 
effective and efficient way to purchase needed care--especially 
specialty care--which Indian health facilities are not equipped to 
provide. In reality, CHS is so grossly underfunded that Indian country 
cannot purchase the quantity and types of care needed. As a 
consequence, many of our Indian patients are left with untreated and 
often painful conditions that, if addressed in a timely way, would 
improve quality of life at lower cost. The Workgroup proposes an 
increase of $118 million for CHS.
    Program Increase: Sanitation Facilities Construction.--Currently 12 
percent of AI/AN homes do not have adequate potable water supply in 
comparison to 1 percent of homes for the U.S. general population.\3\ 
The IHS Sanitation Facilities Construction (SFC) program provides 
potable water and waste disposal facilities and IHS reported that for 
every $1 IHS spends on sanitation facilities to serve eligible existing 
homes, at least a twentyfold return in health benefits is achieved.\4\ 
Due to the remaining need and success of this investment, the Workgroup 
recommends $14 million increase.
---------------------------------------------------------------------------
    \3\ IHS Fact Sheets: Safe Water and Waste Disposal Facilities 
(January 2011) at http://info.ihs.gov/SafeWater.asp.
    \4\ Id.
---------------------------------------------------------------------------
Additional Budget Recommendations
    In addition to the Workgroup's recommendations, NIHB would like to 
provide additional recommendations regarding the IHS budget.
Projected Savings in the IHS budget
    There is a critical need for more funding for basic healthcare 
services to go directly to all of our facilities and if the President's 
14 percent increase is realized, that will help; however, the proposed 
cuts to the ``small grant'' programs hold a small price tag ($7 million 
collectively, as articulated in the President's budget request), but, 
the impact of these programs in Indian country is enormous. All of 
these small grants serve and target very vulnerable Native populations, 
such as children, elders and women, and their purpose is to strengthen 
and build capacity for the long-term health of the tribes in such areas 
as public health; wellness; fighting childhood obesity and working to 
end domestic violence against Native women. In addition, the proposal 
includes cutting the small grant to the tribes' primary healthcare 
resource for information and coordination of the national tribal voice: 
the NIHB. We ask that you do not implement any cuts to this 
organization, which is vital to improving the health status of all 
tribal People.
Protect IHS Budget From Rollbacks, Freezes, and Rescissions
    As a discretionary budget line, the IHS budget falls target to the 
across the board cuts to discretionary funding. Indian country is 
thankful for the support of the Congress and the administration during 
the previous 2 fiscal years for significant increases to the IHS 
budget. However, the IHS budget has been subject to proposed budget 
cuts in the past. This was detrimental not only to an agency budget, 
but on the lives and well being of AI/ANs. Today, the IHS budget is 
funded approximately at half the level of need. Any budget cuts, in any 
form, will have harmful affects on the healthcare delivery to AI/ANs. 
The NIHB asks the committee to exempt the IHS from any cuts, freezes, 
or rescissions.
Create a long-term investment plan to fully fund IHS Total Need
    Tribes have long asked for full funding of the IHS. Developing and 
implementing a plan to achieve funding parity is critical to the future 
of Indian health and to fulfilling the United Status's trust 
responsibility to AI/AN people. The funding disparities between the IHS 
and other Federal healthcare expenditures programs still exists and in 
2010, IHS spending for medical care was $2,741 per user in comparison 
to the average of Federal healthcare expenditure of $6,909 per 
person.\5\ Tribes and NIHB ask the Federal Government to design and 
implement a true full funding plan for the IHS budget.
---------------------------------------------------------------------------
    \5\ IHS Fact Sheets: IHS Year 2011 Profile (January 2011) available 
at http://info.ihs.gov/Profile2011.asp.
---------------------------------------------------------------------------
  the indian health service's fiscal year 2012 budget recommendations

                       CURRENT SERVICES INCREASES
------------------------------------------------------------------------
                                                            President's
                                            Fiscal year     fiscal year
                                           2012 proposal   2012  request
------------------------------------------------------------------------
Tribal workgroup:
    Federal pay costs...................     $12,000,000      $4,102,000
    Tribal pay costs....................      13,000,000  ..............
    Inflation...........................      63,300,000     155,308,000
    Additional medical inflation........      54,800,000  ..............
    Population growth...................      42,900,000      96,550,000
    Staffing for new/replacement              35,000,000      71,533,000
     facilities.........................
    CSC--shortfall......................     145,000,000  ..............
                                         -------------------------------
      Total, Current services...........    $366,000,000    $327,493,000
 
Program increases:
    Hospitals and clinics...............     $90,000,000  ..............
    Indian Health Care Improvement Fund.      15,000,000      54,000,000
    Information technology..............  ..............       4,000,000
    Chronic diseases....................  ..............       2,529,000
    Dental..............................       5,000,000  ..............
    Mental health.......................       4,000,000               0
    Alcohol and substance abuse.........      10,000,000       4,000,000
    Contract health services............     118,000,000      89,635,000
    Urban indian health.................       9,000,000       1,000,000
    Direct operations...................  ..............       3,404,000
    Business operations support.........  ..............       6,033,000
    CSC (new and expanded)..............  ..............      50,000,000
    IHCIA implementation................  ..............       2,000,000
    Facilities maintenance and                10,000,000  ..............
     improvement........................
    Sanitation facilities construction..      14,000,000    (19,619,000)
    Healthcare facilities construction..      84,000,000      53,958,000
    Small ambulatory program............      10,000,000  ..............
    Equipment...........................       5,000,000  ..............
    Proposed grants savings.............  ..............     (7,000,000)
                                         -------------------------------
      Total, program expansion..........    $374,000,000    $243,940,000
                                         -------------------------------
      Total, increases..................    $730,000,000    $571,433,000
------------------------------------------------------------------------
\1\ Items not considered by the National Tribal Budget Workgroup.
\2\ The National Tribal Budget Workgroup based their recommendations on
  the President's proposed budget for fiscal year 2011 and released
  their recommendations in March 2010. The tribal figures for current
  services may need to be adjusted to ensure full funding of current
  services.
\3\ Funding for IHS programs has not kept pace with inflation, while
  Medicaid and Medicare have accrued increase of 5 to 10 percent per
  year.

                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
                                summary
    This statement is submitted in support of fiscal year 2012 
appropriations for Colorado River Basin salinity control activities of 
the Bureau of Land Management (BLM). I urge that at least $5.2 million 
be appropriated for the BLM within the soil, water, and air management 
program for activities that help control salinity in the Colorado River 
Basin, and of that amount, $1.5 million be marked specifically for 
identified salinity control related projects and studies.
                               statement
    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective Governors of the States. The Forum has 
examined the features needed to control the salinity of the Colorado 
River. These include activities by the States, the Bureau of 
Reclamation (BOR), the Department of Agriculture, and the BLM. The 
Salinity Control Program has been adopted by the seven Colorado River 
Basin States and approved by the Environmental Protection Agency as a 
part of each State's water quality standards.
    About 75 percent of the land in the Colorado River Basin is owned, 
administered or held in trust by the Federal Government. BLM is the 
largest land manager in the Colorado River Basin, and manages public 
lands that are heavily laden with naturally occurring salt. When salt-
laden soils erode, the salts dissolve and enter the river system, 
affecting the quality of water used from the Colorado River by the 
Lower Basin States and Mexico.
    The proposed BLM budget calls for five principal priorities within 
the soil, water, and air management program. One priority is reducing 
saline runoff in the Colorado River Basin, which will help achieve the 
goals of interstate, Federal, and international agreements concerning 
the salinity of the Colorado River. Accordingly, the BLM needs to 
target at least $5.2 million for activities in fiscal year 2012 that 
benefit salinity control in the Colorado River Basin.
    In the past, BLM has allocated $800,000 of the soil water and air 
management appropriation for funding specific project proposals 
submitted by BLM staff to the BLM salinity control coordinator. The 
recently released annual report of the federally chartered Colorado 
River Basin Salinity Control Advisory Council reports that BLM has 
identified projects that could utilize funding in the amount of $1.5 
million for fiscal year 2012. Consequently, I request that $1.5 million 
of the $5.2 million be marked specifically for these identified 
Colorado River Basin salinity control activities.
    I support past Federal legislation that declared that the Federal 
Government has a major and important responsibility with respect to 
controlling salt discharge from public lands. The Congress has charged 
the Federal agencies to proceed with programs to control the salinity 
of the Colorado River Basin with a strong mandate to seek out the most 
cost-effective solutions. BLM's rangeland improvement programs are some 
of the most cost-effective salinity control measures available. In 
addition, these programs are environmentally acceptable and control 
erosion, increase grazing opportunities, produce dependable stream run-
off, and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost-effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation, and 
quantification of cost effective salinity control measures on public 
lands.
    BOR studies show that quantified damages from Colorado River 
salinity to United States water users are about $353 million per year. 
Unquantified damages increase the total damages significantly. For 
every increase of 30 milligrams per liter in salinity concentration in 
the waters of the Colorado River, an increase in damages of $75 million 
is experienced by the water users of the Colorado River Basin in the 
United States. Control of salinity is necessary for the Basin States, 
including New Mexico, to continue to develop their compact-apportioned 
waters of the Colorado River. The Basin States are proceeding with an 
independent program to control salt discharges to the Colorado River, 
in addition to cost sharing with BOR and Department of Agriculture 
salinity control programs. It is vitally important that the BLM pursue 
salinity control projects within its jurisdiction to maintain the cost 
effectiveness of the program and the timely implementation of salinity 
control projects that will help avoid unnecessary damages in the United 
States and Mexico.
    At the urging of the Basin States, BLM has created a full-time 
position to coordinate its activities among the BLM State offices and 
other Federal agencies involved in implementation of the salinity 
control program. BLM's budget justification documents have stated that 
BLM continues to implement on-the-ground projects, evaluate progress in 
cooperation with the BOR and USDA, and report salt retention measures 
to implement and maintain salinity control measures of the Federal 
salinity control program in the Colorado River Basin. BLM is to be 
commended for its commitment to cooperate and coordinate with the Basin 
States and other Federal agencies. The Basin States and I are pleased 
with BLM administration's responsiveness in addressing the need for 
renewed emphasis on its efforts to control salinity sources and to 
comply with BLM responsibilities pursuant to the Colorado River Basin 
Salinity Control Act, as amended.
    I request the appropriation of at least $5.2 million in fiscal year 
2012 for Colorado River salinity control activities of the BLM within 
the soil, water, and air management program, and that $1.5 million of 
that amount be marked specifically for identified salinity control 
related projects and studies. I appreciate consideration of these 
requests. I fully support the statement of the Colorado River Basin 
Salinity Control Forum submitted by Don Barnett, the Forum's Executive 
Director, in request of appropriations for BLM for Colorado River 
salinity control activities.
                                 ______
                                 
 Prepared Statement of the Northwest Portland Area Indian Health Board
    Good morning Chairman Simpson, Ranking Member Moran, and members of 
the subcommittee. On behalf of the 43 federally recognized tribes that 
the Northwest Portland Area Indian Health Board (NPAIHB) represents, we 
thank you for this opportunity to provide testimony on the Indian 
Health Service (IHS) budget to the subcommittee.
    Established in 1972, the NPAIHB is a Public Law 93-638 tribal 
organization that represents 43 federally recognized tribes in the 
States of Idaho, Oregon, and Washington on healthcare issues. Over the 
past 21 years, our board has conducted a detailed analysis of the IHS 
budget. Our Annual IHS Budget Analysis and Recommendations report has 
become the authoritative document on the IHS budget. It is used by the 
Congress, the administration, and national Indian health advocates to 
develop recommendations on the IHS budget. It is indeed an honor to 
present you with our recommendations.
                       indian health disparities
    The Indian Health Care Improvement Act declares our Nation's policy 
is to elevate the health status of the American Indian/Alaska Native 
(AI/AN) people to a level at parity with the general U.S. population. 
Over the last 30 years, the IHS and tribes have made great strides to 
improve the health status of Indian people through the development of 
preventative, primary-care, and community-based public health services. 
Examples are seen in the reductions of certain health problems between 
1972-1974 and 2000-2002: gastrointestinal disease mortality reduced 91 
percent, tuberculosis mortality reduced 80 percent, cervical cancer 
reduced 76 percent, and maternal mortality reduced 64 percent; with the 
average death rate from all causes dropping 29 percent.\1\
---------------------------------------------------------------------------
    \1\ Fiscal year 2000-2001 Regional Differences Report, Indian 
Health Service, available at: www.ihs.gov.
---------------------------------------------------------------------------
    While tribes have been successful at reducing the burden of certain 
health problems, there is strong evidence that other types of diseases 
are on the rise for Indian people. For example, national data for 
Indian people compared to the U.S. all races rates indicate they are 
638 percent more likely to die from alcoholism, 400 percent greater to 
die from tuberculosis, 291 percent greater to die from diabetes 
complications, 91 percent greater to die from suicide, and 67 percent 
more likely to die from pneumonia and influenza.\2\ In the Northwest, 
stagnation in the data indicates a growing gap between the AI/AN death 
rate and that for the general population might be widening in recent 
years. These data document the fact that despite the considerable gains 
that tribes have made at addressing health disparities, that in some 
instances these gains are reversing themselves that the health of 
Indian people could be getting worse.\3\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Please note findings in, The Health of Washington State: A 
Statewide Assessment of Health Status, Health Risks, and Health Care 
Services, December 2007. Available at: http://www.doh.wa.gov/hws/
HWS2007.htm.
---------------------------------------------------------------------------
               recommendation: maintain current services
    The fundamental budget principle for Northwest tribes is that the 
basic healthcare program must be preserved by the President's budget 
request and the Congress. Preserving the IHS base program by funding 
the current level of health services should be a basic budget principle 
by the Congress. Otherwise, how can unmet needs ever be addressed if 
the existing program is not maintained?
    Current services estimates' calculate mandatory costs increases 
necessary to maintain the current level of care. These ``mandatories'' 
are unavoidable and include medical and general inflation, Federal and 
tribal pay act increases, population growth, and contract support 
costs.
    Our analysis of the IHS budget indicated that it would have taken 
at least $474 million to maintain current services in this current 
fiscal year. The President's request in fiscal year 2011 (an increase 
of $354 million) would come close to funding the mandatory costs of 
current services. Unfortunately, the IHS and tribal health programs 
will now suffer the consequences of the current budget debate despite 
the duty and obligation of the United States to provide health 
services. The current budget debate to curtail discretionary spending 
will have a severe effect on the IHS and tribal programs if they are 
not adequately funded. Respectfully we request that the subcommittee 
recommend that the IHS and tribal health programs be exempt from any 
reductions in discretionary spending. This request should be honored in 
recognition of the duty and obligation that the United States has to 
provide healthcare to Indian people. It is further compelling when one 
considers the severe health disparities that AI/AN people suffer.
                    per capita spending comparisons
    The most significant trend in the financing of Indian health over 
the past 10 years has been the stagnation of the IHS budget. With 
exception of a notable increase of 9.2 percent in fiscal year 2001 and 
last year's 14 percent increase, the IHS budget has not received 
adequate increases to maintain the costs of current services 
(inflation, population growth, and pay act increases). The consequence 
of this is that the IHS budget is diminished and its purchasing power 
has continually been eroded over the years. As an example, in fiscal 
year 2009, we estimated that it would take at least $513 million to 
maintain current services.\4\ The final appropriation for the IHS was a 
$235 million increase, falling short by $278 million. This means that 
tribes must absorb unfunded inflation and population growth by cutting 
health services.
---------------------------------------------------------------------------
    \4\ Fiscal year 2009 IHS Budget Analysis and Recommendations, 
Northwest Portland Area Indian Health Board, March 17, 2008; available 
at: www.npaihb.org.
---------------------------------------------------------------------------
    The IHS Federal Disparity Index (FDI) is often used to cite the 
level of funding for the Indian health system relative to its total 
need. The FDI compares actual healthcare costs for an IHS beneficiary 
to those costs of a beneficiary served in mainstream America. The FDI 
uses actuarial methods that control for age, sex, and health status to 
price health benefits for Indian people using the Federal Employee 
Health Benefits (FEHB) plan, which is then used to make per capita 
health expenditure comparisons. It is estimated by the FDI, that the 
IHS system is funded at less than 60 percent of its total need.\5\
---------------------------------------------------------------------------
    \5\ Level of Need Workgroup Report, Indian Health Service, 
available at: www.ihs.gov.
---------------------------------------------------------------------------
              fiscal year 2012 ihs budget recommendations
    The NPAIHB supports the level of funding requested in the 
President's fiscal year 2012 budget request. The President's request is 
$571 million more than the fiscal year 2010 enacted level. While this 
might seem like a sizable increase, it is only $217 million more than 
the President's fiscal year 2011 request. These increases in fiscal 
year 2011 and fiscal year 2012 taken together are still less than 
adequate to cover the costs of maintaining current services. We urge 
the subcommittee to fund the levels in the President's request.
    We also recommend that the subcommittee provide additional funding 
to cover the IHS Contract Support Cost (CSC) now estimated to be at 
least $153 million. The CSCs cover the administrative cost of tribes 
carrying out the IHS Federal trust responsibilities. The benefits of 
tribes operating the IHS programs are well documented. For years the 
administration failed to request adequate funding for the CSC 
obligations, and the resulting shortfalls grew. In 2010, with the 
assistance of this subcommittee, the Congress and the President 
supported a $116 million increase to reduce the IHS contract support 
cost shortfall by about one-half. It is estimated that the CSC increase 
will restore an estimated 2,000 to 3,000 jobs in Indian country. We 
recommend that the subcommittee provide additional funding to cover the 
CSC obligations owed to tribes.
                       additional recommendations
    The NPAIHB recommends that the subcommittee restore funding 
eliminated in the President's request for tribal pay costs. We estimate 
this funding to be $13.4 million based in the fiscal year 2011 IHS 
congressional justification. These costs were eliminated in the 
President's fiscal year 2012 request.
    The NPAIHB recommends that at least an additional $50 million be 
provided for the IHS Contract Health Service Program (CHS). The CHS 
Program is extremely important for Northwest tribes since the NPAIHB 
does not have any hospitals and must rely on the CHS Program for all 
specialty and inpatient care. Other parts of the IHS system have access 
to hospitals for specialty and inpatient care. Because of this, the CHS 
Program makes up 34 percent of the NPAIHB budget and when less than 
adequate inflation and population growth increases are provided, the 
NPAIHB tribes are forced to cut health services to absorb these 
mandatory costs. Those IHS areas that have inpatient care can absorb 
CHS funding shortfalls more easily the CHS dependent areas with their 
larger size staffing packages and infrastructure. The Senate Committee 
on Indian Affairs' 2011 Views and Estimates letter highlights the fact 
that the unmet need in the CHS Program is at least $1 billion and 
certainly an additional $80.2 million is justified.
    We recommend that the subcommittee provide an additional $53 
million to fund past year's CSC shortfalls that are owed to tribes 
under Public Law 93-638. The well-documented achievements of the Indian 
self-determination policies have consistently improved service 
delivery, increased service levels, and strengthened tribal 
governments, institutions, and services for Indian people. Every 
administration since 1975 has embraced this policy and the Congress has 
repeatedly affirmed it through extensive amendments to strengthen the 
Indian Self-Determination Act in 1988 and 1994.
    We understand that our recommendations may seem unreasonable in 
current fiscal environment, however when you consider the significant 
health needs of Indian country they are realistic. We hope that you 
will be able to fund our recommendations and look forward to working 
with the subcommittee on our request.
    Thank you for this opportunity to provide our recommendations on 
the fiscal year 2012 IHS budget.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, I am Tom Kiernan, president of the National Parks 
Conservation Association (NPCA). I appreciate the opportunity to submit 
testimony on behalf of NPCA's more than 345,000 members to present our 
views regarding appropriations for the National Park Service (NPS) for 
fiscal year 2012.
    Mr. Chairman, we truly understand and appreciate the enormity of 
the challenge you face in attempting to set reasonable, responsible 
spending priorities when the imperative of significantly reducing the 
overall level of Federal expenditures is driving the Nation's political 
discourse and agenda. We want to thank you for the care you have taken 
with the national parks so far, and especially the money they need to 
operate and meet basic, fixed operating costs. We know and appreciate 
that you will do the best you can for the parks under the 
circumstances; and you know we probably will say it is not enough. I 
would like to take this opportunity to re-articulate the arguments and 
bolster the record as to why providing sufficient and even increased 
levels of funding for the National Park System must continue to be a 
national priority.
    Ronald Reagan called America's national parks, ``the envy of the 
world.'' Franklin Roosevelt said, ``there is nothing so American as our 
national parks.'' Created by the Congress for the benefit and use of 
all our citizens, national parks are--like national defense--inherently 
and fundamentally a Federal responsibility. While park friends groups 
and private philanthropy contribute a good deal for the benefit of 
several specific parks and units in the system, there is simply no 
viable alternative to Federal appropriations to maintain these places 
that the Congress itself determined to be the most precious and 
important to America's story and way of life, intact, and operating.
    The annual budget of NPS amounts to less than one-thirteenth of 1 
percent of the overall budget of the United States. Clearly, NPS must 
re-examine its priorities and very carefully manage its financial 
resources to address new budget realities. We very much appreciate that 
the national park operations account has not received as large a cut as 
other programs. However, we were very disappointed that the final 
fiscal year 2011 continuing resolution did cut park operations by more 
than $10 million and cut NPS programs more broadly by more than $130 
million--reductions to beneficial, worthy, and needed endeavors. At 
this point, there simply is no fat to cut out before starting to remove 
muscle and bone.
    Park Operations.--Adequate funding for park operations remains the 
top priority for NPCA.
    The Federal budget and appropriations process has been a roller-
coaster ride for the parks over the past 12 years. The operations 
budget for NPS was short-changed by multiple administrations and 
congresses until the annual operating shortfall reached more than $800 
million in fiscal year 2007. The result:
  --a growing crisis with missing rangers, shuttered visitor centers, 
        dirty or un-operational restrooms, deteriorating landscapes and 
        historic artifacts, dangerous or crumbling roads and trails, 
        and
  --reduced interpretive and educational programs--in short, eroding 
        resources and diminishing services for millions of park 
        visitors.
    For fiscal year 2008, with the 100th anniversary of NPS and the 
creation of the modern National Park System approaching in 2016, the 
Bush administration heeded our call and initiated what was envisioned 
as a sustained, 10-year program of incremental, $100 million annual 
operations increases intended to erase the operating shortfall and to 
put the national parks in their best possible condition in time for the 
centennial. This Centennial Initiative was supported by both parties in 
the Congress--particularly the members of this subcommittee--and was 
continued through the next two budget and appropriations cycles, which 
included the transition to a new administration. Some adjustments were 
made in other sections of NPS budget to accommodate the operations 
increases, but things were still underway for putting the parks in 
healthy shape by 2016. While this infusion enabled parks to re-employ 
thousands of people needed for resource protection, maintenance, law 
enforcement, and visitor services, it still leaves an annual operations 
shortfall today of more than $600 million. That shortfall allows 
virtually no room for error or unforeseen natural catastrophes or 
circumstances such as unexpectedly large increases in the price of fuel 
and other fixed costs.
    NPCA strongly believes the trajectory begun in fiscal year 2008--
annual operations increases of $100 million plus fixed costs, carried 
forward by two Presidents and recommended by the National Parks Second 
Century Commission--should be continued. While the operations increases 
the Congress approved for fiscal year 2008-fiscal year 2010 have made a 
difference, the gains that were made can easily be lost. It is also 
important to put them in context. As significant as they were, by 
fiscal year 2011, overall NPS funding had reached the same level in 
real dollars as had been appropriated in fiscal year 2002.
    A National Park System that is well managed, with park personnel 
who are well-trained, park resources that are protected, and visitors 
who are safe and well-served, requires investments by the Congress. It 
is, of course, not a perfect world. We understand the reality of 
maintaining that trajectory in this fiscal climate, but at a bare 
minimum, we need to keep up with fixed costs so the hard-won progress 
of the last few years is not erased, and so we don't find ourselves, 
once again, in the kind of crisis our parks and their visitors saw only 
a few short years ago.
    Multiple studies show that every $1 invested in the national parks, 
at least $4 is generated in economic value to the public. These 
reliable economic engines contribute $13.3 billion annually in local, 
private-sector economic activity and support nearly 270,000 private 
sector jobs. For example, on March 14, the Idaho Statesman published an 
article citing a new study by Headwaters Economics of Bozeman, Montana, 
that shows the local areas around Yellowstone have 5,155 jobs tied to 
the park, with visitors spending $302 million in 2009. City of Rocks 
creates 86 jobs, and generated $6.4 million in visitor spending in the 
local area for 2009. Craters of the Moon supports 104 jobs and created 
$5.8 million in visitor spending in Idaho in 2009. In short, spending 
on the national parks creates American jobs.
    There is a lot of talk on Capitol Hill these days about what the 
American people want and what the American people expect. Those phrases 
are thrown around on both sides of the aisle, often without much 
empirical evidence. The American people are visiting our national parks 
more than ever, with more than 280 million visitors last year. That is 
more than 4 million above the average of the previous 5 years. The 
American people's great love affair with their national parks spans 
time, region, economic status, and political persuasion. It is not 
diminished by the condition of the economy. A recent Harris poll found 
NPS to be the Federal entity most admired by the American people, even 
edging out the Armed Forces and Social Security. Another recent poll 
shows that 9 out of 10 Americans have visited a national park and more 
than 6 out of 10 have done so in the past 2 years. A bipartisan 
majority of Americans (73 percent) believe it is important that the 
parks are fully restored and ready to serve the country for another 100 
years in time for the national park centennial in 2016. Despite 
concerns about the economy and the Federal budget, 88 percent of 
Americans say it is extremely or quite important to protect and support 
the national parks. Few issues enjoy such widespread agreement and 
bipartisan support among the American people.
    Land and Water Conservation Fund (LWCF).--NPCA supports full 
funding for LWCF, though we understand how difficult it would be for 
this subcommittee to achieve this when faced with a shrinking 
allocation. We believe in the healthy, rewarding recreational 
opportunities and the completion of existing national park units the 
LWCF was envisioned to provide. Though we respect that the subcommittee 
may not view full funding as realistic in this fiscal climate, LWCF 
should not be drastically reduced to the point recommended, for 
example, in H.R. 1. Arguing that no funds for land acquisition under 
LWCF should be provided to the NPS until the maintenance backlog is 
eliminated is comparing apples to oranges.
    Removing privately owned inholdings from within park boundaries and 
completing parks will actually make their administration and resource 
management more efficient and cost effective, thereby freeing up money 
for other needs. Removing inholdings often improves things like 
invasive species control and water quality, reduces wildfire risks, 
removes obstacles to recreation and to wildlife management, and 
facilitates conservation of historical resources. In most instances, 
completion of specific parks by purchasing certain inholdings has been 
directed by the Congress. Right now, there are many willing sellers and 
with real estate prices at rock bottom, this is an ideal time for NPS 
to acquire critical inholdings before they are lost forever to 
incompatible development. The longer we wait and the more pressure for 
incompatible development, the more expensive the land becomes. It is a 
far more complicated proposition than simply opposing or supporting the 
expansion of Federal holdings or the size of the Federal Government; 
LWCF is part of successful management of our national parks.
    The Deferred Maintenance Backlog.--The backlog is attributable to 
chronic funding deficiencies in several categories, including 
operations, construction, and transportation. These deficiencies have 
forced park managers to make unfortunate choices between what needs to 
be done and what absolutely must be done immediately to keep the parks 
up and running and visitors satisfied and safe. It would be one thing 
if the Congress specifically required revenue that would otherwise 
legally be directed to the LWCF to be used for a period of time to 
eliminate the maintenance backlog, but that is not the tradeoff that is 
offered. Unfortunately, new funding reductions and prudent management 
decisions necessitated by budget uncertainty over the recent past have 
resulted in an increase in the maintenance backlog from roughly $9 
billion last year to nearly $11 billion today. Clearly that is a move 
in the wrong direction, and at current levels of investment, the 
backlog will continue to increase in perpetuity. The longer needed 
repairs and maintenance to facilities is put off, the more expensive 
and difficult they become.
    With our Nation facing deficits, identifying savings is an 
important priority, but is not the only priority. Even if the Congress 
were to eliminate every $1 of discretionary spending tomorrow, the 
deficit would continue to grow. The National Park System is about more 
than America's past; it's about our future, as the story of this great 
nation and our experiment in democracy continues to unfold.
    One-thirteenth of 1 percent! If even this fundamental Federal 
responsibility cannot be met, it may mean nothing less than losing some 
of these national resources--resources important to understanding where 
we came from, how we got here and where we are going--forever. The 
future of our way of life and the shared values that define it will be 
diminished.
    Is it important for the next generation of Americans to know what 
happened at Gettysburg? Should they understand the hardships faced at 
Valley Forge by the volunteer militia fighting to give birth to a new 
nation? Should they have a chance to see--really see, not just in 
cyberspace--what a buffalo looks like in the wild, or know the wonder 
of Old Faithful erupting, or learn to catch a fish? Should they still 
remember those who bravely died at Pearl Harbor or on Flight 93? Is it 
important that the lofty Lamp of Liberty shines on in New York Harbor, 
a beacon of freedom and opportunity, reminding of our values, for 
generations to come? The responsibility for that future lies with this 
subcommittee, and future generations are depending on you and your 
colleagues to leave them a future enriched by these American treasures.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairman Reed, Ranking Member Murkowski, and other 
honorable members of the subcommittee for this opportunity to submit 
written testimony on the fiscal year 2012 Interior, environment, and 
related agencies appropriations bill.
    The National Recreation and Park Association (NRPA) is a national, 
nonprofit organization with a mission of advancing parks, recreation 
and environmental conservation efforts that enhance the quality of life 
for all people. Park and recreation agencies touch the lives of every 
American in every community. Through our network of approximately 
20,000 citizen and professional members we represent park and 
recreation departments in cities, counties, townships, special park 
districts, regional park authorities, and citizens concerned with 
ensuring close-to-home access to parks and recreation opportunities in 
their communities.
    As your subcommittee works to craft the fiscal year 2012 
appropriations bill, we request that you do not zero out funding for 
the Land and Water Conservation Fund (LWCF). While we recognize that 
these are tough economic times, funding for the LWCF is a budget 
neutral item because the program is authorized for this amount to be 
paid for with oil and gas leasing revenue. Additionally, the LWCF is 
much more than a Federal land acquisition program. It also provides 
grants to States and local communities, grants that must be matched 
dollar-for-dollar, for the construction of outdoor recreation projects 
which create jobs and build healthy communities We, therefore, 
specifically request that you to invest in the Nation's local 
communities by allocating a minimum of 40 percent of total LWCF 
appropriations to the State Assistance Program (SAP) in fiscal year 
2012.
    By ensuring an allocation of 40 percent, the subcommittee has the 
opportunity to make a worthwhile contribution to the economy since 
every State in the Nation annually receives funding through the LWCF 
SAP, which has funded projects in 98 percent of counties in the United 
States. The LWCF SAP provides critical investments in close-to-home 
parks and outdoor recreation infrastructure in urban population centers 
as well as rural areas. This funding is used for capital projects and 
cannot be used for operations.
    In a report prepared by the National Park Service (NPS) in March 
2011, it is documented that in fiscal year 2010 the $40 million 
appropriated to the LWCF SAP made a direct impact on park and 
recreation facilities in or near 221 local communities and helped 
``encourage active participation to strengthen the health and vitality 
of the citizens of the United States pursuant to the original intent of 
the Act.''
    Finally, beyond the Program's direct assistance to develop and 
enhance facilities, every assisted site is protected against conversion 
to nonrecreation use to ensure the Federal and State/local investment 
remains available for recreational use, not just for today's citizens, 
but for all future generations of Americans.
    According to a 2010 report by the NPS, our country faces $18.5 
billion in unmet need relative to outdoor recreational resources. For 
example, according to the NPS:
  --Rhode Island has a total of $2,332,548 or 86 percent in unmet need.
  --South Dakota struggles with the balance of satisfying the demand 
        for new recreation with repair and upgrade needs, totaling 
        $22,284,226 in unmet need.
  --Alaska has $47,531,509 or 99 percent in unmet need.
  --Kansas State parks saw a 32 percent increase in 2009 visitation, 
        which contributed to an increase in unmet needs of $101 million 
        for the State's parks and outdoor recreation facilities.
  --Washington's estimated unmet need of $227.4 million represents a 
        diverse portfolio of outdoor recreation projects, including new 
        construction, and the renovation of aging recreational sites.
    There is undoubtedly need for a continued robust investment. 
Funding provided through LWCF SAP not only provides necessary community 
resources for outdoor recreation opportunities, community health 
resources, and environmental stewardship, it also stimulates State and 
local economies, and job creation.
    It is obvious that LWCF SAP funds are vital to many States and 
literally determines whether local, regional, or State park recreation 
facilities are available for public use.
         lwcf sap stimulates jobs creation and local economies
    Projects funded through the LWCF SAP stimulate outdoor recreation 
and local economies. Close-to-home recreation has become increasingly 
important as a result of the current economic downturn. The National 
Association of State Park Directors reports that America's State park 
system contributes $20 billion to local and State economies. 
Additionally, The Outdoor Industry Association reports that recreation 
contributes $730 billion annually to the U.S. economy, supports 6.5 
million jobs across the country (this equates to 1 in every 20 jobs), 
generates $49 billion in annual national tax revenue, produces $289 
billion annually in retail sales and services across the United States, 
and provides sustainable growth in rural communities.
    As you can see from the examples below, the LWCF SAP has an 
incredible impact on job creation in States throughout the country.
    In Idaho, the LWCF SAP has funded projects such as the Modie 
Wildlife Park and Riverfront Park which ensure the citizens of Idaho 
stay connected with nature, active, and healthy. The Idaho Active 
Outdoor Recreation Economy supports 37,000 jobs across Idaho, generates 
$154 million in annual State tax revenue, and produces $2.2 billion 
annually in retail sales and services across Idaho--more than a 5 
percent of gross State product.
    Arizonans also recreate close-to-home in local parks and venues. 
Parks like the De Anza Trail help the Arizona Active Outdoor Recreation 
Economy support 82,000 jobs across Arizona, generate nearly $350 
million in annual State tax revenue, and produce almost $5 billion 
annually in retail sales and services.
    Without the continued support for the Nation's treasured parks and 
recreation sites through the LWCF SAP, the Congress would effectively 
contribute to State unemployment rates and budget deficits.
                             public health
    The LWCF SAP plays a critical role in advancing parks and 
recreation that directly contributes to fighting our Nation's obesity 
and ``Type 2'' diabetes epidemics. Several medical studies have shown 
that there is a strong correlation between proximity to recreational 
facilities and parks and physical activity. It is estimated that 
obesity costs the United States Government about $344 billion in 
medical-related expenses by 2018, accounting for approximately 21 
percent of healthcare spending. The Centers for Disease Control (CDC) 
currently estimates 65 percent of adults and 16 percent of children are 
overweight or obese, and even small improvements in the lifestyles of 
Americans would yield marked health improvements and contribute 
substantially to decreasing the Nation's rising healthcare costs. In 
fact, CDC notes that the creation of or enhanced access to places for 
physical activity led to a 25.6 percent increase in the percentage of 
people exercising on 3 or more days per week. Investing in programs 
such as the LWCF SAP would provide a significant return on investment 
through the reduction in healthcare costs.
                         environmental benefits
    The LWCF SAP not only meets important national goals and delivers 
tangible benefits to the American public by improving health, providing 
recreation opportunities to all Americans, and improving communities 
through economic development, it also significantly contributes to 
protecting our environment and promoting environmental stewardship. 
LWCF SAP projects have a historical record of contributing to reduced 
and delayed storm water runoff volumes, enhanced groundwater recharge, 
storm water pollutant reductions, reduced sewer overflow events, 
increased carbon sequestration, urban heat island mitigation and 
reduced energy demands, resulting in improved air quality, increased 
wildlife habitat, and increased land values on the local level.
        lwcf sap: addressing national issues on the local level
    The following examples, provided by the NPS:
Focal Points of Close-to-Home Access to Health and the Outdoors
    In Anne Arundel County, Maryland, LWCF funding will be used to 
acquire 54 acres of forest and meadow land with 650 feet of waterfront 
on the Magothy River. This park will offer spectacular views of the 
river, walking and fitness trails and picnic areas.
    The Rhode Island Department of Environmental Management (DEM) 
completed the construction of a new beach facility at Salty Brine State 
Beach in Narragansett, Rhode Island. One of Rhode Island's most popular 
beaches, the new fully accessible facility is LEED Certified to the 
Silver Standard. According to DEM Director W. Michael Sullivan, the new 
bathhouse will generate more energy than it will use, making it the 
first State facility that is self-sufficient. Also in Rhode Island, 
$4.4 million in LWCF SAP funds are being used for a construction and 
renovation project at the East Matunuch State Beach.
    In Clark County, Washington, LWCF funding enabled the Salmon Creek 
Greenspace to acquire uplands and riparian wetlands at the confluence 
of Salmon Creek and Morgan Creek will provide new trail access for 
hiking, walking and trail running. The 64-acre acquisition protects 
critical open space within the city of Battle Ground.
    In Juneau, Alaska, LWCF SAP funding was used to construct a ski 
lift, lodge, warming hut, trails, and maintenance buildings at The 
Eaglecrest Recreation Area.
    In Kern County, California, Annin Avenue Recreation Park received 
LWCF funding to acquire approximately 12 acres of land, previously 
slated for industrial use, to develop a vital green space for sports 
activities in a low-income agricultural community. Annin Avenue 
Recreation Park will add nine American Youth Soccer Organization-
regulation soccer fields and two baseball fields.
    Mr. Chairman and members of the subcommittee, parks, and recreation 
agencies are not merely community amenities; they are essential 
services which are necessary for the economic and environmental 
vitality as well as physical wellness of communities throughout this 
country. By providing funding for LWCF's SAP, which has proven itself 
invaluable to addressing national issues, the Congress would be 
investing in the health and well-being of communities across this 
Nation from the standpoint of economic recovery, environmental 
protection, as well as providing safe and affordable places for 
recreation. Because this investment has a positive impact on the 
national economy in the areas through job creation and local economic 
stimulation, now is the ideal time to ensure that a minimum of 40 
percent of LWCF funding is provided to the SAP in fiscal year 2012.
    Thank you for this opportunity to present testimony.
                                 ______
                                 
         Prepared Statement of the Northern Sierra Partnership
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of LWCF in fiscal year 2012. The proposed $900 
million is the congressionally authorized amount for the program and 
seeks to renew focus on the promise of the LWCF: that it is right and 
wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from OCS 
drilling revenues, not taxpayer dollars, these funds should go to their 
intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
U.S. Forest Service (USFS) included $2 million for the acquisition of 
land in Tahoe National Forest in California in the President's budget. 
I am pleased that this funding was included in the request and I urge 
the Congress to provide the full President's budget amount for LWCF so 
that these important projects can receive this needed funding. 
Furthermore, Federal investment helps nonprofits attract private money, 
multiplying the conservation benefit of this LWCF request many times 
over.
    The Northern Sierra Partnership (NSP), of which I am President, is 
a ground-breaking partnership of five local, national, and 
international conservation organizations:
  --The Nature Conservancy;
  --the Trust for Public Land;
  --Truckee Donner Land Trust;
  --Feather River Land Trust; and
  --the Sierra Business Council.
    Since our formation in 2007, we have protected more than 10,000 
acres and raised more than $30 million in pledges and gifts. We 
approach conservation on a landscape scale, focusing only on the 
projects with the highest-water quality, recreation, and habitat values 
in the entire region. NSP invests millions of dollars in conservation 
projects in the Northern Sierra, ensuring that any Federal money is 
highly leveraged with nongovernmental funds. Since 2005, LWCF 
investments in the region have been leveraged with private money at a 
1.5 to 1 ratio.
    Once referred to by John Muir as the ``Range of Light'', 
California's Sierra Nevada mountains provide some of the country's most 
inspiring landscapes. They are also the sole source of drinking water 
for millions of Californians and constitute one of the largest and most 
important hotspots of biodiversity in the United States. The Sierra 
Nevada extends for more than 400 miles along eastern California, from 
the Mojave Desert in the south to the Feather River Basin in the north. 
The sapphire shimmer of Lake Tahoe--the Nation's largest and deepest 
alpine lake--is the hub of the north-central Sierra Nevada, and the 
Tahoe and Eldorado national forests extend deep into the mountains 
north and west of the lake. Elevations climb from about 1,500 feet in 
the forest's western foothills to more than 9,000 feet at the Sierra 
crest. Landscapes range from dry woodlands in the west to whitebark 
pines and primrose-dotted meadows at the higher elevations.
    In the 19th century, the Sierra was a major physical obstacle to 
the completion of the transcontinental railroad, and the Federal 
Government granted lands to railroad companies in alternating square 
miles along the route as an incentive to extend the tracks across the 
plains and mountains to the Pacific Ocean. The Sierra ``checkerboard'' 
of alternating Federal and private ownership is a legacy of these 
Federal land grants and presents numerous challenges. The forest 
habitat that is home to many birds and animals may be pristine in one 
area, yet severely degraded in another. Likewise, public recreation 
areas are limited in size and often are affected by nearby privately 
owned sections. In addition, it is difficult and costly for both 
private and public landowners to manage their segmented lands as 
productive and healthy forests.
    To meet these challenges, the USFS has sought to consolidate these 
checkerboard lands, thereby improving management of and access to 
existing federally owned lands. In addition, this effort affords 
greater protection to the rivers and streams of California's Sierra 
Nevada, fulfilling another important mission of the USFS, which ranks 
watershed protection and improvement as primary strategic goals of land 
acquisition. The checkerboard pattern of ownership also makes it 
difficult to maintain sufficient habitat for spotted owls and for 
species such as the American marten and the Sierra Nevada red fox--both 
sensitive species.
    According to a climate study conducted by The Nature Conservancy, 
the northern Sierra Nevada is projected to see dramatic future changes 
in climate. These include an increase in average temperatures by as 
much as 4 degrees in the next 50 years, and projected reductions in 
total precipitation of 12 to 24 percent. This level of change will 
impose greater stress on forest systems and threaten the timing and 
flow of water that sustains human communities and coldwater fisheries. 
Consolidation of checkerboard lands and other fragmented holdings, as 
will be achieved by this project, can help address these climate 
challenges. Assuring connectivity of habitats will allow for species 
migration in response to changing conditions and food availability. In 
addition, consolidating Federal ownership can facilitate more 
integrated forest management and watershed restoration. This will help 
maintain the health of forests and forest habitats, and will enhance 
watershed function to stabilize water levels, flow, and timing under a 
new and more variable precipitation regime.
    Available and proposed for acquisition in fiscal year 2012 are 
three properties totaling 1,849 acres in the Tahoe National Forest. 
These lands are entirely or substantially surrounded by national forest 
lands, and consolidation of these properties will give the USFS an 
improved ability to manage its lands for climate change, wildfire, 
recreation, and habitat protection. These proposed tracts include the 
890-acre Hole in the Ground property adjacent to the proposed Castle 
Peak Wilderness, the 480-acre White Rock Lake property that is a short 
distance from the Pacific Crest Trail, and the 479-acre Big Avalanche 
property contains a rare limestone cave network that has evidence of 
seasonal presence of the imperiled Plecotus townsendii (Townsend's big-
eared bats).
    If the USFS is unable to acquire these properties, the result would 
likely be cabin construction, parcel splitting, and other activities 
that further complicate land management. The President's fiscal year 
2012 USFS budget request includes $2 million for Sierra Nevada 
Inholdings, and protection of these important lands can go forward with 
congressional approval of the budget request for the LWCF.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in California, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition
    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, of Washington, D.C. I 
appear here today as counsel to the National Tribal Contract Support 
Cost Coalition, comprised of 20 tribes and tribal organizations 
situated in 11 States and collectively operating contracts to 
administer more than $400 million in Indian Health Services (IHS) and 
Bureau of Indian Affairs (BIA) facilities and services on behalf of 
more than 250 Native American tribes.\1\ I am here to discuss the legal 
duty and urgent need to fully fund the contract support costs (CSC) 
that are owed these and other tribes performing contracts and compacts 
in fiscal year 2012 on behalf of the United States pursuant to the 
Indian Self-Determination Act--specifically $615 million for IHS CSC 
requirements and $228 million for BIA CSC requirements.
---------------------------------------------------------------------------
    \1\  The NTCSCC is comprised of the:
      -- Alaska Native Tribal Health Consortium (Alaska);
      -- Arctic Slope Native Association (Alaska);
      -- Central Council of the Tlingit & Haida Indian Tribes (Alaska);
      -- Cherokee Nation (Oklahoma);
      -- Chippewa Cree Tribe of the Rocky Boy's Reservation (Montana);
      -- Choctaw Nation (Oklahoma);
      -- Confederated Salish and Kootenai Tribes (Montana);
      -- Copper River Native Association (Alaska);
      -- Forest County Potawatomi Community (Wisconsin);
      -- Kodiak Area Native Association (Alaska);
      -- Little River Band of Ottawa Indians (Michigan);
      -- Pueblo of Zuni (New Mexico);
      -- Riverside-San Bernardino County Indian Health (California);
      -- Shoshone Bannock Tribes (Idaho);
      -- Shoshone-Paiute Tribes (Idaho, Nevada);
      -- SouthEast Alaska Regional Health Consortium (Alaska);
      -- Spirit Lake Tribe (North Dakota);
      -- Tanana Chiefs Conference (Alaska);
      -- Yukon-Kuskokwim Health Corporation (Alaska); and
      -- the Northwest Portland Area Indian Health Board (43 tribes in 
Idaho, Washington, Oregon).
---------------------------------------------------------------------------
    No single enactment has had a more profound effect on more tribal 
communities than has the Indian Self-Determination Act (ISDA). In just 
three decades tribes and inter-tribal organizations have taken over 
control of vast portions of the BIA and IHS, including Federal 
Government functions in the areas of healthcare, education, law 
enforcement and land and natural resource protection. Today, not a 
single tribe in the United States is without at least one self-
determination contract with each agency, and collectively the tribes 
administer more than $2.82 billion in essential Federal Government 
functions, employing an estimated 35,000 people.
    In the IHS Aberdeen area, more than 20 percent of the IHS budget is 
under contract to the tribes. In Alaska, 100 percent of the IHS budget 
and most of the BIA budget has been contracted over to the tribes. From 
the Navajo Nation to the Pacific Northwest to California, tribes in 35 
States have demanded their self-determination rights and secured 
control over IHS and BIA programs.
    ISDA has by any measure been a success unprecedented in the history 
of America's relations with its tribes. It has served not only to shift 
back to the tribes the primary role of controlling and administering 
essential governmental services, but to reinvigorate those tribal 
governments so they would be in a position to engage in meaningful 
economic and resource development to better their communities.
    ISDA employs a contracting mechanism to carry out its goal of 
transferring essential governmental functions from Federal agency 
administration to tribal government administration. To carry out that 
goal and meet contract requirements, the act requires that IHS and the 
BIA fully reimburse every tribal contractor for the CSC that are 
necessary to carry out the contracted Federal activities. (Cost-
reimbursable government contracts similarly require reimbursement of 
``general and administrative'' costs.) Full payment of fixed CSC is 
essential: without it, offsetting program reductions must be made, 
vacancies cannot be filled, and services are reduced, all to make up 
for the shortfall. In short, a CSC shortfall is equivalent to a program 
cut.\2\
---------------------------------------------------------------------------
    \2\  CSC are the necessary costs of operating a Federal program 
under contract. When the BIA and IHS operate these programs, the 
agencies have the benefit of their own bureaucracies and other agencies 
to support the programs with personnel and financial management 
systems, legal resources, procurement systems and the like, both from 
within their two Departments and from other departments like the 
General Services Administration and the Office of Personnel Management. 
Tribal contractors require similar resources to carry out contracted 
programs, as well as to meet mandatory Federal requirements (including 
annual audits). They cover those resources with CSCs. Most fixed CSCs 
are set by Government-issued indirect cost rates, with the rates issued 
based upon certified independent audits and adjusted based upon 
postyear audits.
---------------------------------------------------------------------------
    For years the administration failed to request full funding for its 
CSC obligations, and the resulting shortfalls grew. The first major 
effort to address this deficiency in the past 10 years occurred in 
fiscal year 2010, when the Congress and the President supported a $116 
million increase to reduce the IHS CSC shortfall by about one-half, and 
a $19 million increase to address BIA CSC shortfalls. The IHS increase, 
alone, will eventually restore 2,820 health sector jobs in Indian 
country. Even still, in fiscal year 2010 these increases left a severe 
CSC shortfall well in excess of $160 million.
    Today, IHS projects an fiscal year 2012 shortfall in CSC payments 
of $153 million. That means a $153 million cut in tribally contracted 
programs next year--not IHS--administered programs, but tribally 
administered health programs alone--to cover the shortfall.
    BIA's most recent projection of full CSC requirements is $228.3 
million (set forth in the BIA's March 2011 shortfall report). Yet, the 
fiscal year 2012 budget requests only $195.5 million, resulting in a 
required cut in tribally operated BIA programs of $33 million next 
year. Fortunately, the recently enacted fiscal year 2011 continuing 
resolution raises the floor on CSC payments to $220 million. According 
to BIA, this should almost close the historic funding gap in paying 
these contracts.
    It is not acceptable for the administration to seek deficit 
reduction by singling out tribally administered health and law 
enforcement programs for such grave cuts in essential governmental 
services. Indeed, the Congress 23 years ago directed that the agencies 
``must cease the practice of requiring tribal contractors to take 
indirect costs from the direct program costs, which results in 
decreased amounts of funds for services,'' S. Rept. 100-274, at 9 
(1987). Yet, the practice continues.
    Funding CSCs in full will permit the restoration of Indian country 
jobs that have been cut while the shortfalls continue. The recent 
fiscal year 2010 reduction in the CSC shortfall produced a stunning 
increase in Indian country jobs. For instance, last year the Cherokee 
Nation received close to $8 million of its shortfall and restored 124 
positions to the Nation's healthcare system; the Forest County 
Potawatomi Community received about $400,000 and added 13 positions; 
the Little River Band of Ottawa Indians received about $300,000 and 
added six clinical positions; the Riverside-San Bernardino County 
Indian Health consortium received $2 million and restored 23 positions; 
and the Southcentral Foundation of Alaska received nearly $9 million 
and restored 97 positions. Third-party revenues generated from these 
new positions will eventually more than double the number of restored 
positions, and thereby double the amount of healthcare that tribal 
organizations will provide in their communities. Similar increases 
occurred across many of the BIA contractors and compactors in fiscal 
year 2010, though at far smaller numbers given the BIA's smaller CSC 
increase that year.
    In fiscal year 2012 the National Tribal Contract Support Cost 
Coalition recommends that:
  --the IHS CSC line be increased to $615 million; and
  --the BIA CSC line be increased to $228 million.
    The status quo is not acceptable. First, at the administration's 
proposed funding levels the combined projected CSC shortfall in fiscal 
year 2012 for both agencies will exceed $186 million. That means a $186 
million cut in tribal health, education, law enforcement and other 
contracted programs, representing more than 3,600 jobs.
    Second, the status quo penalizes tribes for their self-
determination contracting activities. Today, a $1 million IHS-operated 
clinic has $1 million to provide services. But a $1 million tribally 
operated clinic on average has only $750,000 to serve the same 
community. That is a cruel and unfair burden to impose on the very 
tribes that seek greater tribal self-determination.
    Third, the continuing shortfalls have all but brought to a halt 
forward progress under the ISDA. For years, new IHS and BIA contracting 
activities have slowed to a trickle, and each agency is stuck at no 
more than 60 percent of its budget operated by tribes. The Congress's 
Policy of Tribal Self-Determination will not move forward until the CSC 
shortfalls are addressed.
    Fourth, investing funds here is wise. No part of the IHS or BIA 
budgets is more highly scrutinized than are the funds awarded under 
these contracts. There is a transparency and accountability here that 
is unrivaled in other government contracting work.
    Fifth, fully paying CSCs is legally required. The United States 
Supreme Court so held in the 2005 Cherokee Nation case. It is not a 
matter of writing a better law, but of honoring the law that the 
Congress has already written.
    Finally, it is a stain on America when the Nation honors to the 
penny all other government contracts, even when honoring those 
contracts demands supplemental appropriations, but not contracts with 
Indian tribes. As much as law, policy, fairness and good sense, the 
Nation's honor demands that these contracts be paid in full for 
services duly rendered to the United States.
    In addition to these recommended funding levels, the Coalition 
recommends that the subcommittee require both agencies to consistently 
project and budget the additional CSC requirements associated with new 
contracts and program expansions (on average, 13.5 cents for each new 
IHS program dollar, and 10.4 cents for each new BIA program dollar). 
IHS did this in its fiscal year 2012 budget, but the BIA did not. 
Further, the subcommittee should reconcile the different language used 
in the IHS and BIA portions of the bill (language attached), eliminate 
the old ``section 314'' language (a useless vestige after the Cherokee 
case), and assure that each agency has an ISD Fund inside the overall 
CSC appropriation to address new contracting initiatives.
    Thank you again for the opportunity to offer these recommendations.
      suggested changes to ihs and bia bill language regarding csc
IHS Language
    ``Provided further, That, notwithstanding any other provision of 
law, of the amounts provided herein, not to exceed [$461,837,000] 
$615,000,000 shall be for payments to tribes and tribal organizations 
for contract or grant support costs associated with ongoing contracts, 
grants, self-governance compacts, or annual funding agreements between 
the Indian Health Service and a tribe or tribal organization pursuant 
to the Indian Self-Determination Act of 1975, as amended, prior to or 
during fiscal year 2012, as authorized by such Act, of which not to 
exceed [$5,000,000] $10,000,000 may be used for contract support costs 
associated with new or expanded self-determination contracts, grants, 
self-governance compacts, or annual funding agreements (proposed new 
language underscored; stricken language in brackets or strike-outs).''
BIA Language
    ``and of which, notwithstanding any other provision of law, 
including but not limited to the Indian Self-Determination Act of 1975, 
as amended, not to exceed [$195,490,000] $228,000,000 shall be 
available for payments for contract support costs associated with 
ongoing contracts, grants, compacts, compacts, or annual funding 
agreements entered into between with the Bureau of Indian Affairs and a 
tribe or tribal organization pursuant to the Indian Self-Determination 
Act of 1975, as amended, prior to or during fiscal year 2012, as 
authorized by such Act, of which not to exceed $5,000,000 may be used 
for contract support costs associated with new or expanded self-
determination contracts, grants, self-governance compacts, or annual 
funding agreements.''
                                 ______
                                 
    Prepared Statement of the National Tribal Environmental Council
    On behalf of the National Tribal Environmental Council (NTEC) and 
our 187 member tribes, we thank you for the opportunity to provide 
fiscal year 2012 funding recommendations for the Department of the 
Interior, environment, and other related agencies under the purview of 
this subcommittee.
    Founded in 1991, the NTEC works with federally recognized tribes to 
protect tribal environments. The NTEC's mission is to support Indian 
tribes and Alaska Natives in protecting, regulating, and managing their 
environmental resources according to their own priorities and values.
    Despite having some of the most pristine habitat in the United 
States, tribes have been historically underfunded for wildlife and 
natural resource management and conservation. There are 565 federally 
recognized American Indian tribes and more than 300 reservations in the 
United States. Tribes manage 95 million acres of land, 11 million acres 
more than the National Park Service (NPS). Tribal lands contain more 
than 997,000 acres of lakes, 13,000 miles of rivers, and 18 million 
acres of forested lands. Tribal lands provide vital habitat for more 
than 525 federally listed plants and animals, many of which are both 
ecologically and culturally significant to tribes.
                     bureau of indian affairs (bia)
Interior Department (DOI) Climate Change Adaptation Initiative 
        (Cooperative Landscape Conservation)
    Increase the BIA's allocation of the DOI's Climate Change 
Adaptation Initiative to $8.75 million.
    The DOI began a Climate Change Adaptation Initiative in 2009, an 
undertaking that Indian tribes support in principle. The 
administration's fiscal year 2012 budget request for the initiative is 
$175 million, an increase of $39 million more than the 2010-2011 
continuing resolution. The $136 million for the initiative in 2010-2011 
continuing resolution did not include any funding for tribes. Despite a 
substantial increase in the overall funding request, the situation for 
tribes is nearly as bad in the 2012 budget. Of the $175 million, only 
$200,000 (taken from an existing BIA real estate services account) will 
be used to involve and assist Indian tribes in the North Pacific 
cooperative. As such, tribes are accorded a mere .001 percent of the 
funding for participation in only 1 of 21 Landscape Conservation 
Cooperatives. This contradicts the DOI's statement that it ``is working 
collaboratively across its bureaus, with other Federal agencies, State, 
and tribal governments, and nongovernmental organizations to leverage 
fiscal resources and expertise and focus them on conservation of the 
Nation's different ecosystems.'' \1\ Moreover, this is highly 
inequitable, especially considering the disproportionate effect of 
climate change on tribes and their homelands. Sovereign Indian tribes 
deserve a broader seat at the table in the Climate Change Adaptation 
Initiative and a more equitable share of the funding.
---------------------------------------------------------------------------
    \1\ Fiscal Year 2012 The Interior Budget in Brief, DH-37, emphasis 
added.
---------------------------------------------------------------------------
    Tribal lands comprise 4 percent of the U.S. land base, but 
represent a higher percentage if compared to the Federal lands involved 
in the Initiative. Tribal lands comprise 95 million acres which, 
divided by the total 587 million acres of Federal land, equal 16 
percent. Tribal lands include 11 million acres more than the NPS, yet 
the administration proposed nearly 50 times more funding for the NPS in 
fiscal year 2012.

------------------------------------------------------------------------
                                                              Acres  (in
                           Agency                              millions)
------------------------------------------------------------------------
Bureau of Land Management...................................         258
Fish and Wildlife Service...................................         150
Bureau of Indian Affairs/tribes.............................          95
National Park Service.......................................          84
                                                             -----------
      Total.................................................         587
------------------------------------------------------------------------

    Given that tribal natural resources have been historically 
underfunded and there is no Federal program or funding that 
specifically supports tribal climate adaptation efforts, we request 
that the allocation to tribes via the BIA should be increased to $8.75 
million, or 5 percent of DOI's Climate Change Adaptation Initiative, 
for tribes to address and adapt to the impacts of climate change. To 
achieve this equitable increase for tribes, the money provided to the 
various DOI agencies for the Initiative must be reallocated. We request 
that you include language in the bill directing the Secretary to set 
aside these funds for tribes.
                 trust natural resources (tnr) program
    Increase fiscal year 2010-2011 continuing resolution amount of 
$175.62 million by at least $13.36 million for BIA TNR Program.
    The BIA TNR Program represents the largest amount of base, Federal 
funding for tribal natural resource management. There are several 
modest increases in the fiscal year 2012 budget request, such as $1 
million each for rights protection implementation, tribal management/
development, forestry, water management planning and pre-development, 
wildlife and parks, and wildlife and parks fish hatchery projects, and 
$500,000 for invasive species. Even with these increases, base programs 
that fund tribes' daily conservation responsibilities are funded at 
levels less than a decade ago.
    In 1999, the BIA reported that tribes had more than $356 million of 
unmet annual needs for natural resource management.\2\ Despite some 
annual increases since then, the BIA and tribes have lagged 
significantly behind in funding compared to other DOI agencies. For 
example, the fiscal year 2012 budget requests increases of $138 million 
for the NPS and $48 million for the U.S. Fish and Wildlife Service 
(FWS), yet the request for the BIA is a decrease of $119 million. 
Moreover, in the last 9 years the BIA budget has grown only 8 percent 
compared to an average of more than 23 percent for other DOI agencies 
(FWS: 30 percent; NPS: 28 percent; USGS: 19 percent; and BLM: 13 
percent). Because the BIA spending on natural resources in the last 11 
years has been relatively flat compared to inflation and the BIA's 
budget has been historically inadequate to meet the natural resource 
needs of Indian tribes, their needs have multiplied.
---------------------------------------------------------------------------
    \2\ U.S. Department of the Interior, Bureau of Indian Affairs, 
Report on Tribal Priority Allocations, July 1999, 52.
---------------------------------------------------------------------------
    The fiscal year 2012 request is $13.36 million less than the fiscal 
year 2010 enacted level primarily due to a shift of Minerals and Mining 
(M&M) funding from TNR to economic development and modest decreases to 
a variety of TNR programs. We acknowledge that the shift of M&M means 
the money still exists but in a different place. However, due to the 
significant unmet annual needs for tribal natural resource management 
and the historic underfunding of tribal natural resource base programs, 
we believe it is vital to augment TNR base funding with a respective 
amount. Thus, we request at least a $13.36 million increase more than 
2010-2011 continuing resolution levels to the BIA TNR core programs.
                                  fws
Tribal Wildlife Grants Program
    Increase FWS Tribal Wildlife Grants funding to $9.4 million.
    Unfortunately, tribes are not eligible for funding under Federal 
wildlife and fishery restoration programs such as the Federal Aid in 
Wildlife Restoration Act (Pittman-Robertson) or the Federal Aid in 
Sport Fish Restoration Act (Dingell-Johnson) that fund activities 
through an excise tax on hunting and fishing equipment. Although tribal 
members pay taxes that support this funding, they remain excluded from 
receiving the benefits and only States are allowed to access them.
    In 2002, the Congress authorized the FWS to provide funding to 
tribes under the Tribal Wildlife Grant (TWG) and Tribal Landowner 
Incentive programs. Tribal proposals for support often total more than 
$30 million annually. In fiscal year 2009, the FWS only funded 41 TWG 
proposals out of 101 submitted, awarding $7 million to tribes with a 
meager average award of $170,000. With 565 federally recognized tribes, 
competition is severe and tribes rarely receive sufficient funds to 
fully support important conservation efforts.
    In fiscal year 2010-2011 continuing resolution, States received 
nearly $1 billion from the Pittman-Robertson, Dingell-Johnson, and 
State Wildlife Grants Programs. Thus, the $7 million tribes received 
from the TWG program was only .007 percent of the amount States 
received. From 2002-2010, States received nearly 86 times more FWS 
funding than tribes for fish and wildlife conservation, or $6.25 
billion for States compared to $72.2 million for tribes.\3\
---------------------------------------------------------------------------
    \3\ In this example, state funding includes the FWS Wildlife and 
Sport Fish Restoration Programs and State Wildlife Grants. Tribal 
funding includes the FWS Tribal Wildlife Grants and Tribal Landowner 
Incentive Program.
---------------------------------------------------------------------------
    Since the inception of the TWG program in 2002, no more than $7 
million per year has been made available on a competitive basis to the 
Nation's 565 federally recognized tribes. We are pleased to see the 
fiscal year 2012 request of a $1 million increase to the TWG program 
funding over fiscal year 2010-2011 continuing resolution. Yet, at this 
low level of funding, very few tribes receive any TWG funding; those 
receiving TWG funding typically get very little; and no tribe receives 
sufficient funding to sustain long-term tribal wildlife and natural 
resource management efforts. In fiscal year 2010, the State portion of 
the State and Tribal Wildlife Grant Program was increased by $15 
million (20 percent more than fiscal year 2009). Tribes deserved at 
least the same 20 percent increase in fiscal year 2010, which would 
have amounted to $1.4 million. Thus we request that the TWG Program 
funding be increased to $9.4 million for fiscal year 2012 ($1 million 
from fiscal year 2012 request plus 20 percent fiscal year 2010 
increase).
 america's great outdoors (ago) and youth in the great outdoors (ygo) 
                              initiatives
    Set aside $7.5 million of the AGO initiative for tribes. Set aside 
$2.34 million of the YGO Initiative for tribes.
    The AGO Initiative ``seeks to empower all American citizens, 
community groups, and local, State and tribal governments to share in 
the leadership responsibility for protecting, improving, and providing 
greater access to natural areas and their resources and leaving a 
healthy, vibrant outdoor legacy for generations to come.'' Tribes 
support these goals for protecting natural resources for current and 
future generations. Despite DOI's written commitment to partner with 
tribes in its fiscal year 2012 Budget in Brief and the declaration that 
the AGO Initiative directs the FWS to ``build on . . . tribal 
priorities for conservation,'' there is no dedicated funding for tribes 
to participate in the AGO Initiative.\4\ The fiscal year 2012 request 
for the AGO is $5.5 billion, including $150 million for partnership 
programs. We request that at least 5 percent, or $7.5 million, be 
allocated to tribes via the BIA or the FWS for participation and 
partnership in the AGO Initiative.
---------------------------------------------------------------------------
    \4\ Interior Budget in Brief, DH 4-5 and BH 61.
---------------------------------------------------------------------------
    The DOI, via the YGO Initiative, likewise aims to engage and 
partner with tribes to employ, educate, and engage youth to explore, 
connect with, and preserve America's natural and cultural heritage. We 
appreciate that the BIA and other DOI agencies have employed and 
engaged tribal youth in these programs in the past, but there seems to 
be no dedicated funds to ensuring sustainable tribal youth engagement. 
The fiscal year 2012 request for the YGO Initiative is $46.8 million. 
We request that 5 percent, or $2.34 million, be allocated and dedicated 
to tribes via the BIA or the FWS for participation and partnership in 
the YGO Initiative.
                 environmental protection agency (epa)
General Assistance Program
    Preserve the administration's fiscal year 2012 request of $71.4 
million for the EPA General Assistance Program (GAP).
    Since 1992, the EPA's Indian Environmental GAP has served a 
critical need in providing funding to tribes to build capacity for 
environmental management. The fiscal year 2012 budget request includes 
a much-needed $8.5 million increase for GAP. This requested increase 
will help tribes to continue to build environmental capacity and 
further advance efforts to manage tribal environments. We request that 
EPA GAP be funded at the proposed $71.4 million level.
Multimedia Tribal Implementation Grants Program
    Preserve the administration's fiscal year 2012 request of $20 
million for the Multimedia Tribal Implementation Grants Program.
    The fiscal year 2012 budget request for the EPA proposes a new 
Multimedia Tribal Implementation Grants Program to support on-the-
ground implementation of environmental protection on tribal lands. This 
program would provide $20 million ($12 million less than the fiscal 
year 2011 request) for tribes to address their most pressing 
environmental needs. This program would allow tribes to move beyond the 
planning measures supported by GAP and allow them to begin implementing 
tribal environmental priorities. We request that the multimedia tribal 
grants be funded at the proposed $20 million level.
                                 ______
                                 
     Prepared Statement of the Nez Perce Tribal Executive Committee
    Honorable Chairman and members of the subcommittee, as Chairman of 
the Nez Perce Tribal Executive Committee, I would like to thank you for 
the opportunity to provide testimony on behalf of the Nez Perce Tribe 
to this subcommittee as it evaluates and prioritizes the spending needs 
of the United States Government regarding the Indian Health Service 
(IHS), Bureau of Indian Affairs (BIA), Environment Protection Agency 
(EPA), the Forest Service (USFS) and the Fish and Wildlife Service 
(FWS).
    As with any government, the Nez Perce Tribe does a wide array of 
work and provides a multitude of services to the tribal membership as 
well as the community at large. The Nez Perce Tribe has a health clinic 
with a satellite office, a tribal police force with 16 officers, a 
social services department, a comprehensive natural resource program 
that does work in forestry, wildlife management, land services and land 
management, habitat restoration, air quality and smoke management, 
water quality and sewer service, and one of the largest fisheries 
departments of any tribe in the Nation working on recovery of listed 
species under the Endangered Species Act. The Nez Perce Tribe conducts 
its extensive governmental functions and obligations through a 
comprehensive administrative framework, which is necessary for a 
sovereign nation that oversees and protects the treaty rights of the 
Nez Perce People in addition to providing the day-to-day governmental 
services to its members and the surrounding communities. The Nez Perce 
Tribe has long been a proponent of self-determination for tribes and 
believes its primary obligation is to protect the treaty-reserved 
rights of the Nez Perce Tribe and its members. All of the work of the 
tribe is guided by this principle. As a result, the tribe works 
extensively with many Federal agencies and proper funding for those 
agencies and their work with, for and through tribes is of vital 
importance.
    The National Congress of American Indians (NCAI) has produced a 
comprehensive budget request outline for Indian country which the tribe 
supports. I believe that it is a valuable tool that the subcommittee 
should use when formulating a final budget for fiscal year 2012. For 
the purpose of today's testimony, I would like to give you a idea of 
some of the specific needs of the Nez Perce Tribe.
                                  ihs
    The Nez Perce Tribe was pleased to see President Obama's budget 
provided for increased spending for the IHS. The request for $4.6 
billion is an increase of 14 percent more than the fiscal year 2010 
funding and is desperately needed. This equates to an increase in 
$571.4 million in spending. Contract Support Cost (CSC) funding should 
also be funded at $615 million. The tribe's shortfall last year for CSC 
was $152,546 and the shortfall for all Idaho tribes was $1.27 million. 
Proper funding for the operations of the clinic is imperative. The Nez 
Perce Tribe currently operates one healthcare clinic, Nimiipuu Health, 
in Lapwai, Idaho on the Nez Perce Reservation. Nimiipuu Health also has 
a branch facility 65 miles away in Kamiah, Idaho on the Nez Perce 
Reservation. Nimiipuu Health has an active patient count of 4,504 
patients. Our total expenditures for fiscal year 2010 were $13,359,275. 
Our Contract Health Services (CHS) cost for outpatient services for 
fiscal year 2010 was $3,696,827. In this fiscal year for the 5 months 
ended February 28, 2011 our total expenditures totaled $5,822,118. 
Annualized for the full 12 months this will result in a cost of 
$13,973,083. Our CHS cost at the end of February was $2,002,555 and 
annualized would result in a total expenditure of $4,806,132. Our 
revenue from the IHS for 2010 was $9,884,067 and is projected for 2011 
at $9,927,580, but may be reduced to $9.3 million and therefore we are 
projected to have a $1 to $1.5 million shortfall this fiscal year.
    In 2010, the tribe expended $3,475,208 of third-party billings 
collected in 2010 in addition to the reserves we had from 2009. If 
expenditures continue as they are projected based on the first 5 months 
of fiscal year 2011, the tribe will have to collect in third-party 
billings $4,045,503 with only 35 percent of patients having insurance. 
This is approximately double what the tribe normally collects from 
third-party billings. As a result, the tribe has for the past 3 months 
been in priority one status for out CHS patients. This means life and 
limb are the claims that get approved for treatment. The tribe has also 
operationally reduced its overall budget by 5 percent. When funding for 
services is rationed, patients are put on a deferred services list. 
Last year when I testified, the list amounted to $1,293,434 in deferred 
healthcare cost. Any shortfall in funding creates a trickle-down effect 
in emergency and preventative patient care.
                                  bia
    For the fiscal year 2011 budget proposal, the BIA proposed several 
spending recommendations for improving trust land management that were 
supported by the tribe. The Nez Perce Tribe entered into an agreement 
with the United States Government in 2005 known as the Snake River 
Basin Water Rights Settlement Act of 2004 (title X of division J of 
Public Law 108-447, 118 Stat. 3431, et seq.). A component of the 
agreement was the transfer of approximately 11,000 acres of land from 
the Bureau of Land Management to the tribe. The lands were supposed to 
be surveyed as part of the transfer. Funding for those surveys has not 
been made to this date. The fiscal year 2011 budget request called for 
$695,000 for that fiscal year to begin that process. Although that 
amount would not cover the full cost of the surveys, it would allow the 
process to begin. The tribe supports a renewal of that appropriation 
request in the fiscal year 2012 budget that was not funded during this 
budget cycle.
    The tribe requests more emphasis be placed on funding for contract 
support costs through the BIA and that it be funded at $228 million. 
The tribe applauded the passage of the Tribal Law and Order Act and the 
increased emphasis on accountability in the prosecution of crime in 
Indian country. However, the on the ground law enforcement still lacks 
proper funding. The Nez Perce Reservation covers 1,200 square miles and 
covers five counties and has a mixture of tribal and nontribal 
residents. Currently, the Nez Perce Tribe contributes $600,000 per year 
to cover the shortfall in BIA funding for the tribe's law enforcement. 
This funding comes from cigarette taxes levied by the tribe. This 
funding is constantly under attack by the State. Addressing this 
shortfall in BIA funding should be a priority.
    The tribe also relies on the BIA for funding for its work related 
to endangered species and protection of the tribe's treaty resources 
including Chinook and steelhead salmon. The funding has also been used 
to supplement the research efforts of the tribe relative to Big Horn 
Sheep. The BIA Endangered Species Program provides tribes with the 
technical and financial assistance to protect endangered species on 
trust lands, but funding of this program has declined significantly 
over the last 8 years.
    In addition, the funding provided under the BIA Rights Protection 
fund is critical as it supports the exercise of off-reservation hunting 
and fishing for tribes like the Nez Perce. It is important to 
understand that this funding is not for equipment, but is used for job 
creation. The tribe has employed two new conservation officers and an 
additional biologist for our programs under the funding during the last 
fiscal year. As mentioned with law enforcement, the tribe has to cover 
and manage a large area in fisheries related activities from the 
Lostine River in Oregon to the south fork of the Salmon River and a 
capable and adequate staff is vital to continue this work.
    The Tribal Management and Development Program also needs increased 
funding. NCAI has recommended $20 million for base and programmatic 
funding. This program is critical for fish and wildlife management of 
the tribe. Programs such as our fisheries programs and outside groups 
such as the Inter-Tribal Buffalo Council rely heavily on this funding.
    The tribe supports the funding requests for the BIA Wildlife and 
Parks Tribal Priority Allocations that the Columbia River Inter-Tribal 
Fish Commission will testify about later today. This funding is 
allowing important work to be done on fish recovery through hatchery 
operation and maintenance. As stated earlier, the tribe has invested a 
large amount of its personnel and resources in the restoration and 
recovery of this important resource through its fisheries programs. The 
State of Idaho directly benefits from this work as well through its 
sports fisheries. These programs have been successful, but more work 
needs to be done.
                              fws and usfs
    The tribe relies heavily on funding sources within the FWS and the 
USFS. First, the Tribal Wildlife Grants account for a small pot of 
money that has resulted in huge returns from the tribe's perspective. 
This competitive grant does not simply dole out funds for projects, but 
awards grants based on the quality of the proposal. The tribe has 
received funding from this grant four out of the last 5 years based on 
the quality of our research work on Big Horn Sheep. The Big Horn Sheep 
is a treaty resource of the tribe that is declining rapidly within the 
tribe's ceded territory. The funds from this program provide the 
resources to keep the research going. Funding for these grants was 
eliminated in some proposals for the fiscal year 2011 budget. The tribe 
strongly urges this subcommittee to not eliminate this funding as it 
provides a large return in work for a small investment. It is also one 
of the few sources of funds tribes can tap into for wildlife research.
    The tribe also supports increased funding for the work of the USFS 
in the protection of treaty reserved resources of tribes. The Nez Perce 
Tribe reservation and its usual and accustomed areas are rich in 
natural resources and encompass eight different national forests. The 
tribe works closely with each forest administration to properly manage 
its resources on behalf of the tribe. These range from protecting and 
properly managing the products of the forest to managing the vast 
wildlife in each one such as elk, deer, bighorn sheep, and wolves. 
Increased funding is necessary so that the USFS can meet these trust 
obligations and continue to work with tribes such as the Nez Perce on a 
Government-to-government basis.
    Similarly, the tribe is looking for funding for solutions to help 
with its Bison hunt in the Gallatin National Forest near Yellowstone 
National Park. For the last 5 years, the Nez Perce Tribe has returned 
to the Gallatin to exercise its treaty right to harvest bison in that 
area. The treaty hunt has been successful and this year the tribe 
harvested over 60 animals. However, there is still concern by the 
livestock industry over the transmission of disease by the bison and 
therefore a ship and slaughter program used by the State of Montana to 
protect domestic livestock has the potential to endanger such treaty 
based hunts. More funding for work and research to assist in helping 
the USFS, the FWS and the National Park Service meet the treaty hunting 
rights of the Nez Perce Tribe and the Confederated Tribes of the Salish 
Kootenai is needed.
                                  epa
    The Nez Perce Tribe currently implements, on behalf of the EPA, the 
Federal Air Rules for Reservations Program (FARR). The program monitors 
air quality and regulates field burning throughout the Nez Perce 
Reservation. The tribe is located in region 10 of the EPA. The Tribe is 
currently dependent on several EPA sources for funding for the FARR. 
Continued funding is needed for tribes to meet their air quality needs 
and operate programs under the delegation of the EPA. The EPA 
consistently uses the Nez Perce Tribe's FARR Direct Implementation 
Tribal Cooperative Agreement (DITCA) Program as a model of success, but 
region 10 is being forced to look for ways that the Nez Perce Tribe can 
reduce the cost of its FARR DITCA. The Nez Perce Tribe cannot cut its 
FARR DITCA budget without adversely impacting the tribe's ability to 
protect the health and welfare of the 18,000 residents of the Nez Perce 
Reservation. The Nez Perce Tribe currently operates its entire FARR 
DITCA program for about the same cost per year as the State of Idaho 
operates solely an agricultural burning program, therefore, EPA gets a 
much bigger ``bang for their buck'' with the FARR DITCA program 
compared to the State program and is a program worthy of investment.
    The tribe was pleased to see that Administrator Lisa Jackson 
proposed $1.3 billion for State and tribal partnerships in the fiscal 
year 2011 budget. Funding for this work in fiscal year 2012 would be 
important. In addition to the air quality program, the Tribe is 
currently in facilitated discussions with the State of Idaho that are 
being funded through grants from the EPA. The facilitated discussions 
involve the tribe adopting water quality standards to improve the water 
quality on the Nez Perce Reservation. The tribe will be looking to the 
EPA for continued assistance and funding for these programs. The tribe 
also relies heavily on contract support dollars for our water resource 
programs such as the storage tank remediation issues and watershed 
restoration. Deep cuts to the EPA budget would severely affect these 
programs. As you can see, the Nez Perce Tribe does a variety of work, 
sometimes instead of and sometimes on behalf of the United States, but 
the tribe still expects the United States to provide proper funding 
under its trust obligations.
                                 ______
                                 
         Prepared Statement of the National WH&B Advocate Team
    This is an urgent call to the Appropriations Committee and the 
Congress delegates to cut spending for roundups/removals of America's 
threatened wild horses and burros through fiscal year 2012 
appropriations. The appropriation powers vested in the Congress must be 
used immediately to stop the waste of millions of tax dollars and to 
save America's fast-disappearing national treasures, the famous wild 
horses and burros (WH&B) of the West. Independent research using the 
U.S. Bureau of Land Management (BLM) numbers and methodology has 
uncovered the following:
   fiscally irresponsible management--millions of tax dollars wasted
    The BLM is creating the out-of-control costs of the program by 
taking wild horses and burros off the range, including nonexcess 
animals, and by not allocating reasonable resources to them on their 
legal Western public lands. The herds are better managed on the range 
at very little cost by keeping the family bands intact, using limited 
fertility control and scientifically based, reformed management 
protocols.
    Millions of taxpayer dollars are being wasted on the unnecessary, 
inhumane roundups and removals of herds, $10 million in fiscal year 
2010, and the warehousing of animals, $36 million in fiscal year 2010.
    Millions of taxpayer dollars are spent to support the BLM Grazing 
Program for less than 0.5 percent of the total U.S. livestock inventory 
at a loss of $123 million to $500 million per year. The 2008 GAO report 
stated the program lacks accountability, science and fiscal 
sustainability.
   dangerously low numbers on the range--blm removing non-excess wh&b
    The BLM's 26,600 is the targeted national appropriate management 
level, which is ``in ecological balance with their occupied habitat'' 
(President's fiscal year 2011 Proposed Budget, pg. IV-79). Research 
shows the BLM appears to be using taxpayer dollars to unnecessarily 
round up nonexcess animals below 26,600 in violation of the 1971 Act.
    Estimated WH&B numbers on the range are very much lower than the 
38,000 BLM is currently reporting. The numbers could be as low as 
18,000 (see Report pg. 5).
    Estimated WH&B numbers on the range are over-inflated (see Report 
pg. 7).
    Extremely low numbers--26,600--are for long-term survival of the 
protected herds. Of that number, burros are in grave danger at only 
about 3,000 left in the wild. The majority of herds on the range 
consist of numbers well below the 150 animals per herd considered 
necessary for sustainability over time.
    The BLM's own numbers and census methodology projected forward 
leave only an estimated 5,700 animals on the range by the end of fiscal 
year 2012--a sure setup for extinction.
   minimal land/forage/water allocated for sustainability over time--
                        constant downward trend
    The herds are not overpopulated. They are under-allocated land, 
forage, and water. They are being squeezed off their legal public 
lands. The original 53 million acres where they were found in 1971 have 
been reduced to approximately 26 million acres. Continued reductions 
are planned. The herds are restricted to these approximately 26 million 
BLM acres or less than 4 percent out of 650 million total Federal 
public land acres, which includes 245 million BLM acres (see Report pg. 
12).
    Livestock graze more than 239 million United States Forest Service 
and BLM acres, which includes the approximately 26 million acres to 
which iconic herds are restricted in their Herd Management Areas 
(HMAs). On the HMAs, livestock are given preference and are allocated 
the majority of forage compared to the legally protected herds. Three 
to fifteen times more forage goes to livestock (see Report pg. 10).
    Three hundred thirty-nine Herd Areas (HAs), in 1971 (317 per 2005 
CRS Report) have been reduced down to the BLM's count of 180 HAs and 
HMAs. Needless to say, hundreds of unique herds have been zeroed out 
and lost forever over the last 40 years.
 lack of science, consistency, accuracy, credibility, and transparency
    The BLM's published data over the program life is inaccurate, 
inconsistent, noncredible, and nontransparent.
    No state-of-the-art, scientific census of actual WH&B numbers on 
the range has ever been undertaken to substantiate the program goals.
    Current on-the-range management practices lack science and long-
term efficacy studies on fertility treatment, sex ratio adjustments, 
herd/band behavior/dynamics/health, and the causes of compensatory 
reproduction. Current roundup methods are inhumane as demonstrated by 
ample documentary evidence.
    Program lacks true independent peer review and accountability. 
Forced to acknowledge the lack of a science-based program, the BLM has 
engaged the National Academy of Sciences to analyze the whole program 
and make recommendations. This could be a 2-year study and will be a 
waste of time and more taxpayer dollars if massive roundups/removals 
are not halted to coincide with the study.
    America asks the Congress to defund the wasteful, destructive 
roundups/removals of wild horses and burros through the appropriations 
process until proper reforms and humane, science-based, on-the-range 
management protocols are put in place.\1\
---------------------------------------------------------------------------
    \1\ Refer to full Report to Congress on Defunding Roundups/Removals 
at: http://tinyurl.com/6fo39y2.
    Roundup Video link: http://bit.ly/g72Rkj.
---------------------------------------------------------------------------
 what the congress can do right now to save taxpayer dollars and save 
              america's threatened wild horses and burros
Vote for Fiscal Responsibility in the Program
    Defund roundups/removals of WH&B, with the exception of 
independently verifiable emergency situations, for fiscal year 2012 
through the current budget process. Keep funding at fiscal year 2010 
level of $64 million (Save $12 million). Reallocate program funds for 
humane, on-the-range WH&B management and stop additional stockpiling of 
animals in Government holding facilities not accessible by the American 
public (Save $12 million fiscal year 2012). Reallocate program funds 
for an immediate independent, accurate, state-of-the-art census of 
animals on the range and in holding. Guesstimated numbers are no longer 
acceptable. Reallocate program funds to repatriate as many animals as 
possible in holding back to their legal Western public lands (Potential 
to save more than $48 million in fiscal year 2012). Ensure continued 
funding for all horses in holding until they can be repatriated to 
their legal Western public lands. Ensure no funds are allocated for 
euthanasia or slaughter of wild horses and burros. Acknowledge and 
encourage revenue-producing ecotourism centered around the cultural, 
historic, and heritage assets of America's living legends. Wildlife 
viewing is a $45 billion a year national industry as reported by USFWS, 
2006.
Demand Science, Credibility, Accuracy, Consistency and Transparency in 
        the Program
    Ensure the NAS Study of the program is truly independent. Suggest 
additional parameters be reviewed to enhance the study (see Report pgs. 
21-22). Develop and pass legislation to ensure the highest humane 
treatment and management practices on the range, which includes 
improved WH&B handling, tracking, accountability, and real consequences 
for inappropriate management. Consider alternatives to remove entire 
program from the BLM's jurisdiction and create another entity that will 
truly preserve and protect America's herds as the original 1971 act 
intended.
Create More Equitable Land/Forage/Water Reallocation Legislation To 
        Protect and Preserve Viable Herds on the Range Long Term
    Acknowledge that reducing the original HAs of 53 million acres down 
to less than 26 million acres and zeroing out more than 150 herds has 
violated the multiple-use mandate of the 1971 act. Acknowledge WH&B are 
not being allocated equitable resources on their restricted, legal 
Western public lands to sustain their health and longevity as federally 
protected species mandated by the 1971 act. Utilize powers already 
vested in the 1971 act to return all original HA acreage to WH&B and 
designate WH&B as the ``principle'' user on all HMAs and HAs. This will 
entail passing legislation requiring the BLM to amend the land use and 
range management plans of all the HMAs and HAs in order to:
  --reinstate migratory routes and lands lost to WH&B;
  --designate the lands as ``ranges'' for WH&B;
  --reflect marked increases in forage and water allocations to WH&B, 
        as the ``principle'' user of those resources; and
  --reflect marked increases in appropriate management levels of WH&B 
        to ensure their continued survival for generations to come on 
        public lands.
Stand up for Increased Appropriate Management Level Numbers of WH&B on 
        the Range for their True Preservation Well Into the Future
    Acknowledge that 26,600 WH&B on the range in the 10 Western States 
are far below a ``species of concern'' population level as compared to 
other large wild land species. Wild burros numbering about 3,000 are in 
the endangered category right now. Support the increase of appropriate 
management levels of WH&B so their numbers will be sustainable for 
long-term survival on all HMAs and HAs.
    Support repatriation of WH&B currently in expensive holding 
facilities back to their legal lands in the West, thus saving millions 
of taxpayer dollars and preserving and protecting America's living 
legends as was originally intended by the 1971 Act.\2\
---------------------------------------------------------------------------
    \2\ Refer to full Report to Congress on Defunding Roundups/Removals 
at: http://tinyurl.com/6fo39y2.
    Roundup Video link: http://bit.ly/g72Rkj.
---------------------------------------------------------------------------
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and other honorable members of the subcommittee, I am 
Billy Frank, Jr., Chairman of the Northwest Indian Fisheries Commission 
(NWIFC). It is indeed a privilege for me to be among the distinguished 
cadre of Northwest tribal leaders who are also here to present the 
funding requests of their people. Their strong support and 
encouragement gives our organization focus and direction and helps make 
us successful in protecting and enhancing their treaty rights. To meet 
the many natural resource management responsibilities required of the 
tribes, I submit the following requests for the Bureau of Indian 
Affairs (BIA) and the Environmental Protection Agency (EPA).
           summary of fiscal year 2012 appropriations request
BIA
    Rights Protection Implementation Account.--Increase the funding to 
western Washington fisheries management by $8.643 million from the 
amount contained in the President's fiscal year 2012 budget to a total 
of $17.146 million. Restore the Washington State timber-fish-wildlife 
project to the fiscal year 2010 enacted levels of $2.736 million. 
Increase salmon marking by $1.4 million from the amount contained in 
the President's fiscal year 2012 budget to a total of $2.4 million. 
Increase the funding to U.S./Canada Pacific Salmon Treaty by $694,000 
from the amount contained in the President's fiscal year 2012 budget to 
a total of $4.8 million.
    Fish, Wildlife, and Parks Account.--Support the fish hatchery 
maintenance account at $5.452 million as requested in the President's 
fiscal year 2012 budget.
EPA
    Support the tribal General Assistance Program (GAP) at $71.375 
million as requested in the President's fiscal year 2012 budget. 
Support the Multimedia Tribal Implementation Grants Program at $20 
million as requested in the President's fiscal year 2012 budget. 
Restore the Puget Sound Geographic Program to the fiscal year 2010 
enacted level of $50 million.
National Requests
    We also support the budget priorities and funding requests of the 
National Congress of American Indians.
    On behalf of our 20 member tribes, I am here today to speak to our 
fiscal year 2012 natural resource management funding requests for the 
BIA and the EPA. But before I do that, I must first acknowledge the 
outstanding support this subcommittee has given to us in the past 
couple of years. You listened to our story and have helped us greatly 
with your actions that supported our needs. We are also pleased that 
the fiscal year 2012 President's budget continues to be supportive of 
the northwest natural resources funding requests and includes many of 
the subcommittee's actions from the last 2 years.
 tribes, treaty rights, and trust obligations of the federal government
    Indian tribes have always inhabited the watersheds of western 
Washington, with cultures based on harvesting fish, wildlife, and other 
natural resources in the region. In the mid-1850s, a series of treaties 
were negotiated between the Federal Government and the tribes in the 
region. Through the treaties, the tribes ceded most of their land, but 
in doing so, reserved certain rights to fish, hunt, and gather to 
protect their way of life.
    The promises of the treaties were quickly broken in the decades 
that followed as the tribes were systematically denied their treaty-
protected rights by the State of Washington. In 1974, the tribes won a 
major victory in U.S. vs. Washington (Boldt Decision), which reaffirmed 
their treaty-protected fishing rights. The ruling, which has been 
upheld by the U.S. Supreme Court, established the tribes as co-managers 
of the resource and determined they were entitled to 50 percent of the 
harvestable number of salmon returning to Washington State waters. More 
recent Federal court rulings and solicitor opinions upholding treaty-
reserved rights have further expanded the role and responsibilities of 
the tribes as natural resource managers. Those rulings, combined with 
the interconnectedness of all natural resources, mean that tribal 
participation is essential in nearly all aspects of natural resource 
management in the region.
    The tribes from the Pacific Northwest have stepped forward and have 
embraced co-management. Today, the tribes have developed sophisticated 
natural resource programs designed to protect and enhance their treaty 
rights. Tribal programs, based on deep cultural and philosophical 
underpinnings, have served as the backbone of salmon recovery, 
providing the technical, policy, and legal framework for this 
incredibly difficult task. Tribes perform complicated harvest, 
hatchery, and habitat management tasks that neither the State nor the 
Federal Government can effectively carry out. Tribal programs, largely 
funded by the BIA, serve as a de facto arm of the Federal Government as 
it labors to uphold its trust obligations to the tribal people. These 
funds are contracted or compacted by the tribes through the Indian 
Self-Determination and Education Assistance Act. Under this act, tribes 
were delegated authority to provide their own services created by the 
Federal trust responsibility. It is because of the role that tribes 
play in protecting their rights that they require adequate, long-term, 
and stable funding.
        justification of fiscal year 2012 appropriations request
BIA
    Increase the funding to western Washington fisheries management by 
$8.643 million from the amount contained in the President's fiscal year 
2012 budget to a total of $17.146 million.
    Over the past several years, the tribes and the NWIFC have 
requested an increase of $12 million in the base western Washington 
fisheries management program. In fiscal year 2010, the Congress heard 
our plea and increased the national rights protection implementation 
account by $12 million with $3.386 million of this going to the western 
Washington fisheries management program. This increase was very much 
appreciated and will go towards meeting many of our needs. However, we 
once again ask the Congress to address the remaining identified needs 
of the NWIFC and our member tribes. We respectfully request an increase 
of $8.643 million from the amount contained in the President's fiscal 
year 2012 budget to a total of $17.146 million which is consistent with 
our needs assessment presented in fiscal year 2010 to this 
subcommittee.
    Restore the Washington State Timber-Fish-Wildlife Project to the 
Fiscal Year 2010 Enacted Levels of $2.736 Million.--The congressional 
increase to the rights protection implementation subactivity in fiscal 
year 2010 of $12 million was allocated to all programs within this 
element including the Washington State timber-fish-wildlife project. 
However, the President's fiscal year 2012 budget did not carry forward 
the entire fiscal year 2010 increase. The Washington State timber-fish-
wildlife project was reduced by $10,000. Thus, we respectfully request 
that this account be restored to maintain the fiscal year 2010 funding 
level.
    Increase Salmon Marking by $1.4 Million From the Amount Contained 
in the President's Fiscal Year 2012 Budget to a Total of $2.4 
Million.--The salmon marking line item was funded at $1 million by the 
fiscal year 2010 increase in the rights protection implementation 
subactivity. These funds are used to mark salmon at tribal hatcheries 
and to use these marked fish to scientifically monitor salmon 
populations and watersheds in western Washington, pursuant to the 
Federal requirement to mass mark Pacific salmon reared in facilities 
funded by Federal dollars. We respectfully request an additional $1.4 
million to fully implement more extensive selective fisheries targeted 
at these marked fish.
    Increase U.S. Pacific Salmon Treaty by $694,000 From the Amount 
Contained in the President's Fiscal Year 2012 Budget to a Total of $4.8 
Million.--The Pacific Salmon Treaty Act of 1985 charges the United 
States Section of the Pacific Salmon Commission with the responsibility 
for implementation of the Pacific Salmon Treaty, a bilateral treaty 
with Canada. Tribes assist in meeting the Federal Government's 
obligations in implementing the treaty by participating in cooperative 
research and data gathering programs. We support the U.S. section's 
recommendation to fund the Department of the Interior, the BIA at $4.8 
million, an increase of $694,000 from the amount contained in the 
President's fiscal year 2012 budget.
    Support the Fish Hatchery Maintenance Account at $5.452 Million as 
Requested in the President's Fiscal Year 2012 Budget.--Tribal fish 
hatcheries in western Washington are part of the largest fish hatchery 
system in the world. Tribal hatcheries produce 50 percent of the coho 
salmon and 33 percent of the Chinook salmon in Puget Sound and the 
coast of Washington. These hatcheries provide fish that significantly 
contribute to both non-Indian recreational and commercial harvest, as 
well as for tribal fisheries. Today, hatcheries also play a large role 
in recovering pacific salmon, many of which are listed under the 
Endangered Species Act. A comprehensive needs assessment study was 
conducted in fiscal year 2006 by the BIA at the request of Congress 
which identified a level of need of more than $48 million in necessary 
hatchery maintenance and rehabilitation costs. We support the funding 
of this account at $5.452 million as requested in the President's 
fiscal year 2012 budget.
                                  epa
    Support the Tribal Gap at $71.375 Million as Requested in the 
President's Fiscal Year 2012 Budget.--We support full funding of the 
EPA Indian GAP at the $71.375 million amount requested in the 
President's fiscal year 2012 budget. This funding has built essential 
tribal capacities and remains critical to the tribes' ability to 
sustain their important water quality programs. We support the increase 
of $8.5 million from the fiscal year 2010 enacted level which is 
included in the President's budget.
    Support the Multimedia Tribal Implementation Grants Program at $20 
Million Requested in the President's Fiscal Year 2012 Budget.--This 
program was initially included in the President's fiscal year 2011 
budget request. It will allow the EPA to provide targeted multimedia 
(cross discipline) grants to tribes for implementation of Federal 
environmental programs. This program logically follows the capacity 
building function under the tribal GAP, as noted above. This program is 
a substantial investment from within the EPA and will continue to build 
a firm foundation for environmental protection. Tribes in western 
Washington are ready to partner with the EPA to begin this 
implementation program. We support $20 million for the Multimedia 
Tribal Implementation Grant program funding, which is included in the 
President's fiscal year 2012 budget.
    Restore the Puget Sound Geographic Program to the Fiscal Year 2010 
Enacted Level of $50 Million.--Marine resources are very important to 
our member tribes. The Puget Sound Geographic Program provides 
essential funding that will help protect, restore, and enhance Puget 
Sound. Tribes will continue to seek funding from this EPA account, in 
coordination with the Puget Sound Partnership. Such funding will allow 
the tribes to participate in the necessary scientific work, 
implementation measures, and policy discussions on issues that affect 
our treaty rights. We support restoring this program to the fiscal year 
2010 enacted level of $50 million. With this level of funding, 
collaborative work can continue on key marine issues, salmon recovery, 
land-use management, and regulatory changes.
                               conclusion
    Mr. Chairman, and members of the subcommittee, we know that it is 
difficult to allocate scarce Federal funds at this time. However, we 
believe that the management work that we perform to protect our 
valuable resources and to help fulfill the trust obligation of the 
Federal Government continues to be worthy of your support.
    Thank you.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
    Mr. Chairman and members of the subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals, Friends 
organization affiliates and concerned citizens, thank you for your 
strong support for the National Wildlife Refuge System (NWRS). The 
meaningful funding increases from fiscal year 2008-fiscal year 2010 
allowed the NWRS to emerge from the years of declining budgets that 
followed the 2003 refuge centennial. Unfortunately, the final 
appropriation for fiscal year 2011, an $11 million cut, represents a 
$19 million reduction when factoring in the amount the NWRS needs 
annually to maintain existing management capabilities. We respectfully 
request an appropriation of $511 million for fiscal year 2012, which 
would essentially be flat funding from fiscal year 2010.
    The NWRA appreciates the opportunity to offer comments on the 
fiscal year 2012 Interior, environment, and related agencies 
appropriations bill and we respectfully request the subcommittee 
support the following funding allocations for programs in the NWRS and 
the U.S. Fish and Wildlife Service (FWS):
  --$511 million for the operations and maintenance (O&M) accounts of 
        the NWRS;
  --$27 million for Refuge Revenue Sharing;
  --$900 million for the Land and Water Conservation Fund (LWCF), 
        including $140 million for the NWRS;
  --$20.2 million for Landscape Conservation Cooperatives (LCCs) in the 
        FWS;
  --$20 million for Inventory and Monitoring for refuges;
  --$37 million for the NWRS construction account for large-scale 
        restoration projects, visitors centers, and energy-efficiency 
        projects;
  --$80 million for NWRS Visitors Services;
  --$39 million for Refuge Law Enforcement
  --$5 million for the management of the new Pacific Marine Monuments;
  --$65 million for the FWS' Partners for Fish and Wildlife Program;
  --$95 million for the State and Tribal Wildlife Grants Program;
  --$50 million for the North American Wetlands Conservation Fund;
  --$6.5 million for the Neotropical Migratory Bird Fund;
  --$8.4 million for Wildlife Without Borders;
  --$8.5 million for the National Fish and Wildlife Foundation (NFWF) 
        in the FWS' Resource Management General Administration 
        appropriation.
         national wildlife refuge funding--o&m and construction
    The NWRA chairs the Cooperative Alliance for Refuge Enhancement 
(CARE), a diverse coalition of 21 sporting, conservation, and 
scientific organizations representing more than 14 million Americans 
that works to support the NWRS's ability to accomplish its mission. 
After years of flat budgets, the Congress in recent years has 
demonstrated a commitment to fund our national wildlife refuges, and 
the increases from fiscal year 2008-fiscal year 2010 allowed for the 
suspension of workforce downsizing plans that outlined an eventual 20 
percent reduction in overall staffing levels. Even so, CARE estimates 
that the NWRS needs at least $900 million in annual funding to properly 
administer its 150 million acres and remains committed to aiming for 
this goal.
    NWRA respectfully requests that you provide $511 million in fiscal 
year 2012 for NWRS O&M. We estimate the refuges need at least $519 
million to maintain management capabilities from fiscal year 2010; our 
request represents a sacrifice as we deal with our Nation's fiscal 
crisis.
    This $511 million request for refuge O&M includes $8 million for 
inflationary costs, which, due to the freeze on Federal salaries, is 
less than the annual adjustment of at least $15 million for inflation 
the NWRS ordinarily needs just to maintain management capabilities, 
including rent, utilities, salaries, concrete, gas, and steel--
everything a refuge needs to function. The final appropriation for 
fiscal year 2011, an $11 million cut, ($492 million) will in effect be 
a $19 million reduction when factoring in this annual need. Our request 
of $511 million is a reasonable amount for the Service to maintain most 
management capabilities. Without providing adequate funding for these 
fixed costs, refuges will simply be unable to maintain current programs 
and public services, and the backlog will grow.
    Refuges have almost $1 billion worth of construction needs, 
including the replacement of deteriorating structures that are becoming 
more expensive to maintain. We request flat funding for the NWRS's 
construction budget at $37 million, including funds for large-scale 
habitat restoration. Funds for new visitor/administration centers, 
including those at the Potomac River Refuges near Washington, DC and 
the Sherburne NWR outside Minnesota's Twin Cities, will provide a net 
benefit in efficiencies and in economic impact. Refuges with a broad 
range of programs create more service industry jobs and more income for 
local communities.
          supporting jobs and leveraging american volunteerism
    Refuges are economic engines in local communities, returning on 
average $4 in economic activity for every $1 appropriated by Congress. 
Nationwide this equates to more than $2 billion in annual economic 
impact. Refuges are job creators; more than 30,000 jobs--largely in the 
private sector--are attributed to refuge-related activities. Ecosystem 
restoration activities deliver the biggest pay-off, where $1 million 
invested creates 30 jobs, while $1 million invested in recreation 
creates 22 jobs. Refuges provide significant bang for the buck, despite 
receiving the least amount per acre of all land management agencies. 
Refuges are managed with $3.36 per acre while the National Forest 
Service and National Park Service receive $32.25 and $37.11 per acre, 
respectively.
    Refuges are also vital places for the American people to connect 
with nature and volunteer. Currently, refuge Friends and volunteers do 
approximately 20 percent of all work on refuges, the equivalent of 648 
full time employees. We request $80 million for Visitors Services for 
the NWRS. The administration's proposed $2.3 million cut to Visitors 
Services represents a cut to the programs that oversee volunteers and 
thereby a marked decline in the work volunteers are able to contribute, 
leaving that work essentially undone.
               using science to guide adaptive management
    The FWS and the NWRS are developing landscape level strategies to 
address habitat changes due to shifting land use, increasing human 
population, the spread of invasive species and changing climates. But 
the need is urgent and time is of the essence--especially with species 
on the verge of collapse in locations such as Alaska and Hawaii. We 
strongly support the FWS initiative to establish Landscape Conservation 
Cooperatives (LCCs) to bring the best science to bear to help local, 
State, and Federal agencies make the most educated management 
decisions. We recommend an allocation of $20.2 million to fund LCCs in 
fiscal year 2012, building upon the initial LCC investments in fiscal 
year 2010.
    The NWRA further recommends an allocation of $20 million for the 
NWRS's Inventory and Monitoring program. As the Gulf oil spill showed, 
basic inventories of our natural assets are crucial if the American 
people are to recoup costs in the event of manmade disasters.
        commitment to refuge communities--refuge revenue sharing
    The NWRS uses the net income derived from use permits, timber 
harvests, and so on to make payments to local counties or communities 
to offset lost tax revenue, and relies on Congressional appropriations 
to the Refuge Revenue Sharing program to compensate for the shortfall 
between revenues and obligations. Due to declining revenue and lack of 
appropriations, the Service has been paying less than 50 percent of its 
tax-offset obligations since 2001. This has a measurable impact on 
local communities that is felt even more starkly in difficult economic 
times--and it creates severe strain in relations between the Federal 
units and their local community, threatening the goodwill and 
partnerships that are keystones of successful conservation. NWRA 
requests $27 million for the Refuge Revenue Sharing Program, which, in 
recognition of the President's proposal to zero out funding, is still 
only half of what is needed. The NWRA also calls for a review of the 
Refuge Revenue Sharing Act of 1935 as amended, and consideration of 
conversion to a Payment-in-Lieu of Taxes (PILT) program to be 
consistent with the National Park Service, the Bureau of Land 
Management and the U.S. Forest Service and to provide Refuge 
communities with more equitable payments.
                   partnerships and strategic growth
    The Partners for Fish and Wildlife Program is a powerful tool for 
working with private landowners to collaboratively conserve refuge 
landscapes. The program consistently leverages Federal dollars for 
conservation, generating between $4-$10 in conservation return for 
every $1 appropriated, and has been key to the success of many iconic 
landscape conservation projects. In the past 2 years, the Wyoming 
Landscape Conservation Initiative used $454,000 in habitat restoration 
and enhancement to leverage an additional $1.4 million from private 
partners. But the Partners program saw its purchasing power erode 
between 8-24 percent in 2010 due to rising diesel fuel and seed costs. 
If funded at its authorized level of $75 million, the program would net 
at least $300 million worth of additional conservation. NWRA requests 
an fiscal year 2012 appropriation of $65 million for the Partners for 
Fish and Wildlife Program, a $5 million increase to maintain 
capabilities.
    The NWRA also calls upon the Congress to fully fund the Land and 
Water Conservation Fund (LWCF) at its authorized level of $900 million, 
with 75 percent devoted across agencies to investments in iconic 
landscapes. Created in 1965 and authorized at $900 million per year 
(more than $3 billion in today's dollars), the LWCF is our most 
important land acquisition tool. With more than 8 million acres still 
unprotected within existing designated refuge boundaries, and the need 
to establish key wildlife corridors and connections between protected 
areas, the LWCF is more important than ever. In 2011, NWRA recommends 
that Congress approve LWCF funding to support projects such as:
  --Bear River Migratory Bird Refuge (Utah)--$1.4 million;
  --Blackwater NWR (Maryland)--$1.5 million;
  --Cache River NWR (Arkansas)--$4.25 million;
  --Connecticut River--Silvio O. Conte NFWR (New Hampshire, Vermont, 
        Massachusetts, Connecticut)--$6.5 million;
  --Everglades Headwaters NWR (Florida)--$10 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$5 million;
  --Nestucca Bay NWR (Oregon)--$2 million;
  --Rocky Mountain Front Conservation Area (Montana)--$8 million;
  --Rhode Island NWR Complex (Rhode Island)--$3.28 million;
  --Southeast Louisiana Refuge Complex (Louisiana)--$500,000; and
  --Stillwater NWR (Nevada)--$3 million to acquire water rights.
    There are several additional extremely worthy refuge land 
acquisitions advocated for by refuge ``Friends'' organizations and 
refuge partners and we have provided the subcommittee with those 
requests in a separate document.
    The NWRA also urges the subcommittee to appropriate $95 million for 
the State and Tribal Wildlife Grants Program to implement State 
Wildlife Action Plans; $50 million for the North American Wetlands 
Conservation Fund; $6.5 million for the Neotropical Migratory Bird 
Conservation Fund and $8.5 million for the National Fish and Wildlife 
Foundation.
              returning to fiscal year 2008 funding levels
    Some in the Congress have recommended returning to fiscal year 2008 
funding levels; we must caution that this would have immediate and 
severe impacts to our national wildlife refuges. With the NWRS already 
44 percent underfunded, proposals to return the agency to fiscal year 
2008 levels would result in an estimated 20 percent cut to current 
funding and would have dramatic ramifications including:
  --Elimination of hundreds of staff positions, significantly reducing 
        the System's ability to restore habitats, control invasive 
        species, maintain roads, and respond to illegal activities;
  --Decline in the quality and quantity of visitor services programs, 
        forcing an estimated 54 visitor centers to close and preventing 
        11 more under construction from opening at all;
  --Reduction of volunteer efforts, as cuts to staff who oversee 
        volunteers will result in a decline in the work volunteers are 
        able to contribute;
  --Reduction of hunting programs on an estimated 48 refuges and 
        reduction of fishing programs on an estimated 45 refuges;
  --A halt on progress of the NWRS's inventory and monitoring program, 
        likely reducing it to a skeletal operation. The need for this 
        program was made clear by the Deepwater Horizon oil spill, 
        which forced FWS staff to hastily catalog gulf coast refuge 
        assets in order to prove damages and recoup costs from 
        responsible parties. Now the only refuges nationwide with a 
        comprehensive inventory of species and water quality are those 
        that were in the path of oil.
    In conclusion, the NWRA believes the NWRS can meet its important 
conservation objectives only with strong and consistent funding 
leveraged by the valuable work of refuge volunteers. We extend our 
appreciation to the subcommittee for its ongoing commitment to our 
NWRS.
                                 ______
                                 
            Prepared Statement of the 1854 Treaty Authority
    The 1854 Treaty Authority is an inter-tribal natural resource 
organization which implements the off-reservation hunting, fishing and 
gathering rights of the Grand Portage and Bois Forte Bands of the Lake 
Superior Chippewa in the area ceded to the United States in the Treaty 
of 1854. Our program is funded by a Public Law 93-638 contract with the 
Bureau of Indian Affairs (BIA), which is appropriated directly through 
the BIA's ``Trust/Natural Resource Management--Rights Protection 
Implementation.'' The 1854 Treaty Authority respectfully requests that 
the Senate fund this appropriation in fiscal year 2012 at the same 
level it was funded in fiscal year 2010 ($30,451,000) in order to meet 
the increased cost of fulfilling our court-ordered responsibilities.
    For background purposes, the Grand Portage, Bois Forte and Fond du 
Lac Bands are signatories to the Treaty of September 30, 1854, 10 Stat. 
1109. In that Treaty the Bands ceded approximately 5 million acres in 
northeastern Minnesota, reserving the right to hunt, fish and gather in 
that territory. For most of the 20th century, those off-reservation 
rights lay dormant and unrecognized and tribal subsistence activities 
were relegated to lands within reservation boundaries. In 1985 the 
Bands went to Federal court seeking a declaratory judgment that the 
1854 Treaty did indeed reserve these off-reservation rights and that 
the State of Minnesota had no authority to regulate tribal hunting, 
fishing and gathering in the ceded territory. In the course of that 
litigation, the Bands and the State entered into negotiations 
concerning the exercise of treaty rights in the ceded territory. The 
negotiations resulted in an agreement which was approved by both the 
Minnesota Legislature and the tribal governments. The agreement was 
then entered as a consent decree in the Federal litigation such that 
the obligations of the parties are enforceable in court.
    One of the Bands' obligations under the agreement and court order 
was to create a means by which the Bands could effectively regulate 
Band member activities. After the Fond du Lac Band exercised its right 
to opt out with notice, the two remaining Bands formed the 1854 Treaty 
Authority. To this day, the 1854 Treaty Authority is the entity 
responsible for management of the Bands off-reservation hunting, 
fishing and gathering rights.
    The 1854 Treaty Authority employs 10 full-time employees, 
consisting of an administrative division (3), a resource management 
division (4) and an enforcement division (3). Two of the Resource 
Management positions are grant (temporary) funded. The organization is 
overseen by a Board of Directors comprised of the elected Tribal 
Councils of the Grand Portage and Bois Forte Bands. The 1854 Treaty 
Authority also has a Judicial Services Division which retains a judge 
to hear matters arising under the tribal code.
    The 1854 Treaty Authority is a shining example of cooperation as we 
gather and share biological information with State, Federal, local, and 
other tribal governmental units. The 1854 Treaty Authority is 
authorized through a Joint Powers Agreement with the State of Minnesota 
to enforce State natural resource laws over nontTribal users and State 
Officers are authorized to enforce tribal law applicable to tribal 
users. The 1854 Treaty Authority has also conducted many natural 
resource improvement and research projects with the above-mentioned 
Government entities, as well as organizations from the private sector.
    However, the 1854 Treaty Authority has struggled to maintain its 
full-time staff. Up until fiscal year 2010, we had not had an increase 
in base funding for our programs of any significance in many years, and 
in fact the base funding had decreased the previous seven funding 
cycles. Simultaneously, cost of living expenses increased at a regular 
rate, and some expenses have increased at an alarming rate (e.g. health 
and vehicle insurance, fuel, etc). Staff pay costs (wages plus 
benefits) combined with a decrease in base funding compelled the Treaty 
Authority to absorb all the cost increases internally at the expense of 
other programs and services. In 2007, we were unable to continue doing 
so and two vacated positions (one biologist and one enforcement) remain 
unfilled due to lack of funding. Of particular concern is the fact that 
our current enforcement staffing level (three officers) is woefully 
inadequate to cover the 5 million acres of ceded territory.
    I understand that this is not a unique situation, but at the same 
time the Federal Government has a trust responsibility to protect and 
preserve treaty rights. Those rights will be jeopardized if the 1854 
Treaty Authority cannot fulfill its obligations as an effective manager 
of treaty resources. We strongly believe that we can continue to be an 
integral and positive component of natural resource management in 
northeastern Minnesota. As history shows in the short 23 years of our 
existence we have been able to establish the Bands rightful place among 
all stakeholders and provide services that stretch beyond tribal 
benefit. In short, the work we do benefits all users and citizens of 
this region.
    We are very thankful for the increase in fiscal year 2010 funding 
which enabled us to make up some of the shortfall which has plagued us 
in recent years. If we can continue to maintain funding at its current 
level, we can begin to look at ways to refill the two vacant positions 
that are sorely needed to provide adequate services to the tribes.
    Finally, I would like to close with a sincere thank you for the 
years of funding which have enabled the tribes success in this area, 
and especially the increase in 2010, and respectfully reiterate the 
request for the Senate to fund this appropriation in fiscal year 2012 
at the same level it was funded in fiscal year 2010 ($30,451,000) in 
order to meet the increased cost of fulfilling our court-ordered 
responsibilities.
                                 ______
                                 
            Letter From the Oregon Water Resources Congress
                                                      May 11, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.

RE: Fiscal year 2012 Budget for the U.S. Environmental Protection 
        Agency's Clean Water State Revolving Fund Loan Program (CWSRF)
    Dear Chairman Reed and Senator Murkowski: The Oregon Water 
Resources Congress (OWRC) was established in 1912 as a trade 
association to support member needs to protect water rights and 
encourage conservation and water management statewide. The OWRC 
represents nonpotable agricultural water suppliers in Oregon, primarily 
irrigation districts, as well as water control districts, and other 
special districts and local governments that deliver irrigation water. 
The association represents the entities that operate water management 
systems, including water supply reservoirs, canals, pipelines, and 
hydropower production.
    OWRC is concerned about reductions to the Environmental Protection 
Agency's (EPA) Clean Water State Revolving Fund Loan Program (CWSRF) 
and is requesting that appropriations for this program be increased to 
$5 billion in fiscal year 2012. CWSRF is an efficient program that 
addresses critical water infrastructure needs while benefiting the 
environment, local communities, and the economy.
    We are disappointed that the administration's request of $1.55 
billion for the CWSRF program is a reduction from enacted 2010 funding, 
and is still far short of what is needed to address critical water 
infrastructure needs in Oregon and across the Nation. This funding may 
lead to 600 clean water projects nationally, but that is an average of 
only 12 per State, far less than what's been funded in the past and 
well short of what is needed. The Oregon Department of Environmental 
Quality's (DEQ) recent ``Proposed Intended Use Plan Update #2--State 
fiscal year 2011,'' reflects a total of $23,462,936 in funding requests 
from five agricultural water suppliers alone.
    Six OWRC member districts have successfully received loans from the 
CSWRF over the last several years and many more will apply if funds are 
available. Numerous irrigation districts and other water suppliers need 
to pipe currently open canals, thereby improving water quality by 
eliminating run-off into the canals and increasing water availability 
for fish and irrigators by eliminating water loss from the canal 
system. These projects not only benefit the environment and the patrons 
served by the water delivery system, but also benefit the economy.
    Four irrigation districts received more than $11 million funding in 
Oregon from the 2009 ARRA funding through the CWSRF for projects which 
created valuable jobs while improving water quality. These four 
projects were essential to DEQ not only meeting but exceeding the 
minimum requirement that 20 percent of the total ARRA funding for the 
CWSRF be used for ``green'' projects. Those districts' applications had 
been on DEQ's list of eligible projects for many years and would 
probably still be on that list had the ARRA funding not been made 
available. We provide that comment not to complain, but to emphasize 
the need for additional funding for this program.
    We acknowledge the administration's desire to develop and implement 
``green infrastructure''. In fact, as mentioned above, irrigation 
districts and other water suppliers in Oregon are on the forefront of 
``green infrastructure'' through innovative piping projects that 
provide multiple environmental benefits. However, the EPA's proposal to 
provide an average of 5 percent of water infrastructure spending in 
future budget years does not change the need for increased funding 
today or provide certainty about the specific amount of funding in 
future years. The CWSRF is often an integral part of an overall package 
of State, Federal, and local funding that necessitates a stronger level 
of assurance that loan funds will be available for planned water 
infrastructure projects. Reductions in the CWSRF could lead to loss of 
grant funding and delay or derail beneficial projects that irrigation 
districts have been developing for years.
    We appreciate the administration's efforts to improve both the way 
Federal dollars are spent and program efficiency. However, the CWSRF 
has been an extremely valuable tool in Oregon for improving water 
quality and efficiently addressing infrastructure challenges that are 
otherwise cost-prohibitive. While our comments are focused on the need 
for additional funding of the CWRSF to meet our members' needs, it is 
our understanding that the list of eligible projects for and needing 
this funding grows annually and exceeds the Oregon DEQ's funding 
capacity. The latest Intended Use Plan lists 140 projects for a total 
of $480,500,455. Additional information about the irrigation district 
projects and other projects funded in Oregon through the CWSRF can be 
found at: www.deq.state.or.us/wq/loans/docs/IUP2011Update2.pdf
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. 
Oregon is facing record levels of unemployment and the CWSRF helps 
provide much needed construction and professional services jobs. The 
CWSRF is a perfect example of the type of program that should have 
funding increased because it creates jobs while benefiting the 
environment, and is an efficient return on taxpayer investment. It's 
not a hand-out but a wise investment that allows local communities to 
leverage their limited resources and address critical infrastructure 
needs that would otherwise be unmet.
    We respectfully request the appropriation of at least $5 billion 
for the EPA's CWRSF for fiscal year 2012.
            Sincerely,
                                             Anita Winkler,
                                                Executive Director.
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance
    We urge the subcommittee to designate a total of $167.5 million to 
the National Endowment for the Arts (NEA) for fiscal year 2012. Mr. 
Chairman and distinguished members of the subcommittee, I am grateful 
for this opportunity to submit testimony on behalf of the Performing 
Arts Alliance (PAA) and its member organizations--American Music 
Center, Association of Performing Arts Presenters, Chorus America, 
Dance/USA, Fractured Atlas, League of American Orchestras, National 
Alliance for Musical Theatre, National Association of Latino Arts and 
Culture, National Performance Network, OPERA America, and Theatre 
Communications Group. The PAA is a national network of more than 18,000 
organizational and individual members comprising the professional, 
nonprofit performing arts, and presenting fields. For more than 30 
years, the PAA has advocated for national policies that recognize, 
enhance, and foster the contributions the performing arts make to 
America.
    This testimony is intended to highlight the importance of the 
Federal investment in the arts in order to sustain a vibrant cultural 
community. With strong Federal support, the NEA can widen citizen 
access to the cultural, educational, and economic benefits of the arts, 
and advance creativity and innovation in communities across the United 
States.
    NEA increases opportunities for the American public to enjoy and 
benefit from the performing arts. Since the establishment of NEA in 
1965, access to the performing arts has improved in communities large 
and small across the country. NEA has helped foster the development of 
the many regional theatres, opera companies, dance companies, 
orchestras, and performing arts centers that Americans now enjoy. 
Despite diminished resources, NEA awards almost 2,400 grants annually 
to nonprofit arts organizations for projects that encourage artistic 
creativity, provide lifelong learning opportunities, and engage 
audiences in the finest the arts have to offer. This modest public 
investment in the Nation's cultural life has resulted in both new and 
classic works of art reaching all 50 States and the U.S. territories.
    NEA contributes to the economic growth and development of 
communities nationwide. The arts are part of a diversified 21st century 
economy. Along with nonprofit arts organizations, creative enterprises 
make significant contributions to State and local economies, generating 
employment and tax revenues, and providing goods and services in high 
demand by the public. A strong arts sector is an economic asset that 
stimulates business activity, attracting companies that want to offer 
their employees and clients a creative climate and amenity-rich 
community.
                the nonprofit performing arts community
    The following member profiles of the PAA, which include national 
service organizations representing new music, presenting, chorus, 
dance, musical theatre, Latino arts and culture, opera, orchestras, and 
theatre fields, exemplify the economic, educational, and quality of 
life benefits that performing arts organizations bring to communities 
across the country.
                               new music
    American Music Center (AMC) is dedicated to building a national 
community of artists, organizations, and audiences, creating, 
performing, and enjoying new American music. Since its founding in 
1939, AMC has been a leader in providing field-wide advocacy, support, 
and connection. AMC supports the community by making grants to 
composers and ensembles each year and by offering professional 
development resources for new music professionals. AMC connects the 
community through an array of information services and through 
engagement with the broader performing arts field, providing benefits 
and services for nearly 2,400 members in all 50 States and 25 countries 
around the world.
                            arts presenters
    Performing arts presenters bring professional performing artists 
from all over the world into the communities they serve and include 
organizations such as performing arts centers in major urban cities, 
academic institutions, festivals and fairs, as well as the artists, 
artist managers, agents, local arts agencies, touring artists, and 
companies who work together to engage communities in live performance 
experiences. The Association of Performing Arts Presenters (Arts 
Presenters), a national service and advocacy organization, represents 
an industry of more than 7,000 nonprofit and for-profit organizations, 
with members hailing from all 50 States and 28 countries on 6 
continents around the globe. Arts Presenters' members bring 
performances to more than 2 million audience goers each week and spend 
in excess of $2.5 billion annually, and the field of presenters serves 
more than 6 million audience members every week. The membership 
includes a range of organizations from very small presenting groups 
(under $50,000 budgets) to multimillion dollar budgets and individuals 
who are artists or performing arts professionals, representing a 
diversity of performing arts fields.
    Through NEA grants, Arts Presenters is able to build partnerships 
and alliances to develop new artistic works and global cultural 
exchanges as well as offer critical leadership training, professional 
development, and opportunities to explore the competencies for 21st 
century presenting for emerging and mid-career practitioners.
                                 chorus
    When Chorus America was founded nearly 35 years ago, one of their 
primary goals was to ensure that choral music was recognized, 
celebrated, and supported as a key component of the national arts 
landscape. Since that time, the NEA has been a partner with Chorus 
America in this goal, not only with steady grant support for the work 
of our service organization, but also by supporting the work of many of 
their member choruses of all types and sizes.
    NEA's 2008 Survey of Public Participation in the Arts confirms that 
singing in a chorus is the most popular form of public participation in 
the performing arts. Chorus America's own research, the 2009 Chorus 
Impact Study, found that 22.9 percent of households report one or more 
adults or children currently participate in a chorus. There are an 
estimated 270,000 choruses in the United States with more than 42.6 
million people singing in them. This research also illustrated how 
adults who sing in choruses are remarkably good citizens. Chorus 
members are more likely to volunteer, contribute financially, and 
participate in their communities than the general public. Not only is 
choral music a linchpin of music repertoire, choruses are a hub for 
engagement in the arts and can be valuable assets in building healthy 
communities.
    NEA's grants to choruses encourage the highest standards of 
performance, the creation of new and excellent art reflecting the 
issues of our time, and bring the beauty and power of choral singing--
frequently reaching otherwise underserved populations. Given the 
numbers of people involved in choral music as artists and/or audience 
members, and the many positive characteristics of choruses and choral 
singers, the NEA's financial support and other resources for nonprofit 
choruses is incredibly important in terms of directly benefiting 
communities large and small all around the country.
                                 dance
    NEA's support for the field of dance helps increase the quality and 
the visibility of the field throughout the United States. Dance is one 
of the most accessible and universally practiced art forms and Dance/
USA's professional company members represent the vast cultural and 
stylistic diversity exhibited in this art form. Funding from the NEA 
supports the creation of high-quality, innovative works of choreography 
and powerful community dance education programs throughout the United 
States. The NEA's programs have helped solidify dance as a national 
treasure spread across cities and through communities, schools, and 
theaters in all 50 States and have ensured that the best of American 
dance is available to all in the United States and a showpiece for the 
rest of the world.
    In addition to the more than 600 professional dance companies, the 
United States has more than 1,000 pre-professional and semi-
professional groups. According to 2009 data, the 288 dance companies 
with expense budgets of $100,000 or more generated more than $600 
billion in economic activity across the United States and employed more 
than 12,000 people in a mix of full-time and part-time positions.
                            fractured atlas
    Fractured Atlas is a nonprofit organization that serves a national 
community of artists and arts organizations. Their programs and 
services facilitate the creation of art by offering vital support to 
the artists who produce it, and they help artists and arts 
organizations function more effectively as businesses by providing 
access to funding, healthcare, education, and more, all in a context 
that honors their individuality and spirit. Their fiscal sponsorship 
program has grown from six local groups to more than 2,200 nationally, 
and in 2011 their membership topped 16,000 artists and arts 
organizations, with an expanded audience of more than 100,000 through 
their Open Arts Network.
    Most funding from institutional and government sources comes with 
restrictions; it is intended for a specific project, program, or 
geographic area. Those restrictions can make it difficult for a 
national, multidisciplinary organization like Fractured Atlas to find 
support for the full scope of our services, or for initiatives that 
bring together partners working in different artistic disciplines and 
regions. Yet those broad-based initiatives are essential to our ability 
serve artists with the innovative tools and resources that impact their 
lives. NEA is one of the few funders that understand the value of 
ambitious arts initiatives that transcend the boundaries of geography 
and discipline. Without the NEA's support, the extended audience of 
more than 100,000 artists and arts groups that we currently reach would 
shrink significantly. The NEA is also of enormous intellectual value as 
a platform for national conversations about the arts: their role in 
daily life, value in communities as an economic driver, and importance 
as a thread of cultural identity. Those conversations manifest 
themselves in action that influences how resources are allocated from 
the Federal to the local level.
                            musical theatre
    The National Alliance for Musical Theatre (NAMT) is the national 
service organization dedicated exclusively to musical theatre and 
serving some of the leading musical theatre producers in the world. 
Last season, NAMT members collectively staged more than 16,000 
performances attended by more than 11 million people, employed 15,500 
people, and provided education programs for more than 1 million 
students and teachers. The NAMT has presented its Festival of New 
Musicals annually since 1989, bringing together theatre producers and 
writers, with the goal of furthering the development and production of 
new musicals. The NAMT's Festival has showcased more than 300 writers 
and 200 new musicals, which have had thousands of subsequent 
productions worldwide.
            national association of latino arts and culture
    Founded in 1989, the National Association of Latino Arts and 
Culture (NALAC) is the Nation's only multidisciplinary Latino arts 
service organization. NALAC provides critical advocacy, funding, 
networking opportunities, and professional development training to 
build the capacity and sustainability of the Latino arts and cultural 
field to sustain artists and arts organizations in every region of the 
country. NALAC's constituency is a multi-ethnic, multigenerational, and 
interdisciplinary community that includes thousands of artists and 
hundreds of not-for-profit Latino arts and cultural organizations in 
the United States.
                   national performance network (npn)
    NPN is a group of diverse cultural organizers, including artists, 
working to create meaningful partnerships and to provide leadership 
that enables the practice and public experience of the contemporary 
arts in the United States. NPN's resources currently support and 
connect 50-75 performing arts organizations, called NPN Partners, 
across the country. NPN constituency ranges from two-person operations 
to multi-million dollar arts centers. NPN Partners are ethnically, 
culturally, and stylistically diverse and reflect a cross-section of 
urban, suburban, and rural communities that are generally under-
represented. More than 425,000 audience members have attended NPN-
sponsored performances and more than 285,000 people have participated 
in NPN residency activities.
    For many NPN/VAN members, NEA provides resources that are not 
otherwise available to them, for example, if they are in cities or 
rural areas with limited arts support. Funding from NEA is an important 
validation of their work and often leverages new local support. The 
rigor of NEA panels represents the level of excellence achieved by the 
organizations which receive grants; this is particularly true for 
organizations supporting new and experimental work. Presenters are able 
to use NEA funding to take risks, such as presenting new work, by 
making them less dependent on box office.
                                 opera
    OPERA America members are found in communities all across the 
country--a total of 117 companies in 43 States. In the United States, 
more than half of these companies were established after 1970, making 
the growth of opera throughout North America a relatively new 
phenomenon. More than 4.3 million people attended a live performance at 
one of OPERA America's Professional Company Members in 2009, including 
education and outreach programs, and festivals. In 2009-2010, OPERA 
America's Professional Company Members in North America presented 2,100 
performances and 449 fully staged main season and festival productions. 
All together, the opera companies of America provide more than 55,000 
full-time and part-time employees.
    NEA's support of the field of opera has been invaluable in 
supporting audience development, increasing accessibility, and 
promoting innovative programming. During fiscal year 2009, the opera 
field received almost $1.6 million from NEA that supported arts 
education programs for youth, young artist training programs, 
technology to increase the accessibility of opera, and the creation of 
new works by American composers. These programs result in more vibrant 
communities, a well-rounded education for children and youth, and the 
crucial development of the next generation of performers and composers. 
Funding from NEA supports opera companies and festivals and ensures 
quality programs and performances that are treasured throughout the 
United States and abroad.
                               orchestras
    Supported by a network of musicians, volunteers, administrators, 
and community leaders, America's symphony, chamber, collegiate, and 
youth orchestras total more than 1,800, existing in every State and 
territory, with annual budgets ranging from less than $10,000 to more 
than $90 million. More than half a million individuals are involved in 
orchestras, including conductors, staff, board members, musicians, and 
volunteers. Orchestra revenue totaled $1.69 billion in 2008-2009, and 
their economic impact exceeds several times that amount as orchestras 
create jobs, engage in commerce with local businesses, and spur local 
expenditures on related goods and services.
    An NEA grant serves as an emblem of public value and artistic 
significance, and orchestras in communities large and small partake in 
the distinction of presenting nationally recognized NEA-supported 
programs. In fiscal year 2010, the NEA's Grants to Organizations 
included 119 grants to orchestras, and continued funding for the agency 
will support its ability to serve the American public. Orchestras 
utilize NEA support to educate and encourage America's youth, increase 
public access to culturally diverse music, foster civic pride, and 
encourage new orchestral works and programming. Orchestras now offer 
nearly 13,000 education concerts, more than 1,000 community engagement 
concerts, and more than 40 kinds of programs, including pre-school 
programs; in-depth, multi-year community residencies; and long-term 
partnerships with schools.
                                theatre
    Today, thanks in large measure to the pivotal role played by the 
NEA since 1965, the not-for-profit theatre field consists of more than 
an estimated 1,800 theatres located in major metropolitan centers, 
urban neighborhoods, suburbs and rural communities. Their wide-ranging 
repertoire includes classics; modern plays and musicals; new plays, 
adaptations and translations by American and international writers; 
plays for culturally specific and young audiences; and experimental, 
multimedia and performance-art works.
    Theatre Communications Group, the national organization for the 
American nonprofit theatre, reports that combined, these theatres 
directly contributed nearly $1.9 billion to the U.S. economy; the real 
economic impact is even greater when spending by theatres' attendees 
and employees in their local communities is taken into account. The 
universe of theatres employed more than 128,200 theatre workers, 
including actors, directors, playwrights, designers, administrators, 
and technicians.
    By supporting many of the Nation's finest theatre institutions, NEA 
has contributed far beyond the actual monetary value of its grants. 
Nearly every Pulitzer Prize-winning play since 1976 originated at an 
NEA-funded theatre, and a network of educational and outreach programs 
has sprung up across the country as a result of NEA support, ensuring 
access to all Americans and developing new generations of audiences.
                               conclusion
    Performing arts organizations are a vital component of community 
life, allowing citizens to appreciate our Nation's culture and heritage 
through excellent artistic programming. The arts illuminate the human 
condition, our history, contemporary issues, and our future. NEA is an 
investment that realizes significant returns on the Federal dollars 
invested, both measurable and intangible. We urge you to designate no 
less than $167.5 million to NEA. Thank you for your consideration of 
our request.
                                 ______
                                 
         Prepared Statement of the Pinon Community School, Inc.
    My name is Jeffrey Mike, and in addition serving on the School 
Board for the Pinon Community School in Pinon, Arizona, I also serve as 
a Member of the Board of Directors of the Native American Grant School 
Association (NAGSA). Both organizations are well aware of the many 
challenges facing Native American Schools, whether operated under a 
contract or grant from the Bureau of Indian Education. Some of those 
challenges are shared by all our schools, and others are unique 
depending on the mission of the particular school. Pinon, however, 
focuses its concerns on three very specific aspects of the fiscal year 
2012 budget that affects its ability to provide services to our student 
population: tribal grant support costs (administrative costs); 
transportation; and facilities. Specifically, Pinon requests the 
following:
  --For the BIE, funding for Tribal Grant Support Costs (TGSC) in the 
        amount of $72.3 million to fully meet the indirect costs 
        incurred by all tribally operated schools.
  --For the BIE, $73 million in school transportation funding.
  --For the BIE, the restoration of $61 million to the school 
        construction account; and
  --For the BIE, $76 million in facilities maintenance funding and 
        $109.8 million facilities operation funding.
    Background.--Pinon Community School, which has a very proud 
tradition of serving Native American students since 1932, currently 
operates as a tribally controlled grant school primarily funded through 
appropriations received from the United States Department of the 
Interior and pass-through funding received from the Department of 
Education. Its mission includes the operation of a kindergarten program 
serving approximately 60 students per year, and also the operation of a 
residential dormitory that houses up to 120 students at any particular 
time of year.
    Pinon Community School operates in one of the more remote 
geographic areas of our country. According to the 2000 Census, the last 
we were able to find that provided detailed demographic information, 
the town of Pinon had a population of 1,190--91.93 percent of which was 
Native American--with an average family income of $23,393. More than 58 
percent of the households had children under the age of 18, and 53.7 
percent of those households reported income below the poverty line. The 
nearest ``metropolitan'' area, Chinle, is more than 60 miles away, and 
its population was just more than 5,300 as measured in the 2000 census. 
We are located more than 250 miles from Albuquerque, New Mexico and 
almost 300 miles from Phoenix, Arizona.
    Not surprisingly, we serve a very unique function in our community. 
First, we operate a kindergarten program that serves approximately 60 
children each school year. Second, we provide residential housing and 
services for an additional 90 to 120 students who attend the elementary 
and secondary schools of the Pinon Unified School District, part of the 
Arizona public school system. Our dormitory exists because those 
students live too far away to commute to school on a daily basis or 
have a family situation that makes a dormitory situation a more 
appropriate option during the school week. Our dormitory provides these 
students a safe place to live and obtain their daily meals.
    The poverty in our area is extremely evident. Many, if not most, of 
our school age children, have parents who struggle to provide 
economically for their families, and our residential program is a 
beacon of hope for those children who need the ongoing attention and 
input that is so crucial for the academic success that will hopefully 
lead to a productive and happy adult life.
    While our budget requests do not specifically address all of our 
concerns, we believe that it is important for Members of Congress, and 
indeed the American public at large, to understand exactly what our 
school, and our students face every day. Many, if not most of our 
students are what you might consider ``at risk.'' Moreover, it should 
be fairly apparent that children who are compelled to live away from 
their families for the school week need the type of services and 
healthy diversions that will not only protect them from the many 
pitfalls that confront the idle, and may I add, especially teenagers, 
but also enhance their chances of moving forward to advanced 
educational opportunities. Unfortunately, we find that many of our 
students are years--sometimes 4 or 5 years--behind grade level. We do 
not receive the funds to provide supplemental educational services, 
e.g., tutoring, and we also do not have the funds to provide the type 
of counseling that will help us keep our students on the ``straight and 
narrow.'' We estimate that we would need to hire at least two certified 
counselors to help with these issues but simply do not have the funds.
    The State government funded a ``21st Century Program'' to help us 
to provide after-school activities to engage our students, but that 
funding is due to run out next year. Many years ago the Federal 
Government provided funding for ``Intensive Residential Guidance'' for 
dormitory students but that money is long gone also. Sadly, we do not 
even have the funds to maintain our athletic fields where we could 
otherwise provide organized physical activity and recreation for 
children living away from home.
    We know that it can be very difficult for those who live in more 
populated areas--where more resources are available--to understand the 
challenges that our school, and more importantly, our students and 
their families face every day.
    As we stated from the outset, as the Congress begins to consider 
the fiscal year 2012 budget we request that it take our concerns into 
account.
    TGSC.--When the Congress recognized that the Native American 
community should have the right to assume responsibility for the 
education of its own children, it also committed to funding the 
administrative costs of making that a reality. Yet every tribally 
operated school suffers, and has suffered, for 19 of the past 20 years, 
from the chronic underfunding of its administrative costs, which 
include the cost of retaining essential administrative employees, such 
as business managers, performing essential and required government 
requirements, such as audits, background checks and other required 
reports. By all estimates, Federal Government funding of TGSC hovers at 
the 61 percent rate, and every $1 that the Federal Government does not 
provide for administrative costs comes out of the pockets of our 
students, in the form of fewer of the services to which they are 
entitled. For this reason, we endorse the proposal of the National 
Congress of American Indians, that the appropriation for TGSC be 
increased to $70.3 million for existing schools, with an additional $2 
million for those schools which may be converting to grant status 
during the next fiscal year.
    Transportation Costs.--Pinon's transportation issues are 
complicated. We begin by pointing out that the BIE has proposed 
$52,739,000 for school transportation costs, which translates into a 
payment rate of $3.23 per mile. Pinon's residential students in Grades 
1-12 attend schools in the Pinon Unified School District which assumes 
the cost of their transportation to and from school. Be aware, however, 
that Pinon still must transport its residential students home every 
Friday, and back to school every Monday. All the costs that affect the 
rest of America, most recently the increased cost of gasoline, affect 
Pinon too, but there is no accommodation in the budget for this 
reality. In addition, we have a very different situation for our 
kindergarten students. We must transport our kindergarten students from 
the school to their doorsteps. There is only one paved road in our 
service area. Therefore, the school is obliged to transport these very 
young children to their homes over unpaved roads, which are 
particularly susceptible to weather (rain, snow, flooding, etc.) and 
are not otherwise maintained. The failure of the BIE to account for 
these conditions is inexcusable. Exacerbating this problem is that the 
funding provided by the BIE does not permit the School to acquire the 
types of vehicles which would allow it to safely transport its students 
under hazardous weather conditions. Four-wheel drive vehicles, which 
would help accomplish this, are significantly more expensive ($10,000 -
$15,000 more) and are simply out of the price range of the school.
    Ironically, Pinon, which leases its school buses from the Federal 
Government, just recently received a notice from the General Services 
Administration that it intends to increase the rate for school bus 
rentals by BIE funded schools over the next 2 years; yet, the BIE has 
provided no funding to alleviate the hardship that Pinon will 
experience as a result of this increase.
    For these reasons, Pinon endorses the recommendation of the 
National Congress of American Indians to increase the School 
transportation budget for BIE funded Schools to $73 million.
    Facilities Operation and Maintenance and Replacement School 
Construction.--Under the BIE's latest ``Education Facility Condition 
Index'' Pinon's facilities have been rated as ``poor''. At least six 
employee units have been condemned (which in the case of a residential 
facility is a serious issue). In one of the residential dormitories, 
two wings have been condemned.
    The decision to eliminate all funding for replacement school 
construction, while at the same time failing to request adequate 
funding for facilities maintenance and operation seems shortsighted, to 
say the least. When the BIE fails to fund facilities maintenance at 
realistic levels, small preventable problems become bigger and more 
expensive to address, and in emergency situations school funding must 
be diverted from other programs to address these needs. The recently 
published ``Education Facility Condition Index'' reports a deferred 
maintenance backlog in the amount of $302 million but the BIE has 
requested only $50.7 million in facilities maintenance funding, a mere 
fraction of what is needed to make a dent in the maintenance backlog. 
In addition, the BIE has requested $58.7 million for facilities 
operations, which are currently funded at only 46 percent of need.
    The National Congress of American Indians has requested a 
significant investment in the infrastructure for Native American 
Schools. We whole-heartedly support its requests for $76 million in 
Facilities Maintenance funding and $109.8 million for Facilities 
Operation. In addition, we respectfully request that the Congress at 
least restore the $60.9 million that the BIE has cut from the budget 
for school replacement construction, and direct the BIE to reopen the 
process for school construction applications, so that schools that are 
in dire need of replacement facilities have the ability to secure their 
place on the priority list.
    Conclusion.--We thank you for the opportunity to provide our input 
as the Congress commences its deliberations on the fiscal year 2012 
budget for BIE-funded Schools. Mr. Oscar Tso, Principal of Pinon 
Community School, is ready and available to answer any questions you 
may have.
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 17 
years, through operations funding and dedicated Challenge Cost Share 
funds, for the national scenic and historic trails administered by the 
National Park Service (NPS). We also appreciate your increased 
allocation of funds to support the trails administered and managed by 
the Forest Service and for the trails in the Bureau of Land Management 
(BLM) National Landscape Conservation System (NLCS). To continue the 
progress that you have fostered, the Partnership requests that you 
provide annual operations funding for each of the 30 national scenic 
and historic trails for fiscal year 2012 through these appropriations:
      NPS.--$16.45 million for administration of 23 trails and for 
        coordination of the long-distance trails program by the 
        Washington office.
        Construction.--$346,000 for the Ice Age Trail and $200,000 for 
            the Pacific Crest Trail.
      USDA Forest Service (USFS).--$8.7 million to administer six 
        trails and $1.2 million to manage parts of 16 trails 
        administered by the NPS or BLM. $1 million for Iditarod Trail 
        construction.
      BLM.--To coordinate its National Trails System Program: $250,000; 
        to administer these trails:
        Iditarod Trail.--$700,000.
        Camino Real de Tierra Adentro Trail.--$230,000.
        Old Spanish Trail.--$350,000; and to manage portions of 10 
            trails administered by the NPS or the USFS: $4 million; 
            $3,140,000 for operating five National Historic Trail 
            interpretive centers;
        Construction.--$300,000 for the Pacific Crest Trail.
    We ask that you appropriate $4.5 million for the NPS Challenge Cost 
Share Program and continue to direct one-third ($1.5 million) for 
national scenic and historic trails or create a separate $1.5 million 
National Trails System Challenge Cost Share Program.
    We ask that you add $500,000 to the BLM's Challenge Cost Share 
Program and allocate it for the national scenic and historic trails it 
administers or manages.
    We ask that you appropriate from the Land and Water Conservation 
Fund (LWCF) for land acquisition:
      To the USFS.--$6.65 million for the Pacific Crest Trail, $1.7 
        million for the Florida Trail; $3.442 million for the Old 
        Spanish Trail; $9.2 million for the Appalachian Trail, $1.5 
        million for the North Country Trail, and $1.4175 million for 
        the Nez Perce Trail;
      To the BLM.--$3.5 million for the Oregon Trail in Oregon, $7.5 
        million for the Pacific Crest Trail in Oregon, and $1 million 
        for the Oregon, California, Mormon Pioneer, and Pony Express 
        Trails in Wyoming; and
      To the NPS.--$5.2 million to grant to the State of Wisconsin to 
        match State funds for the Ice Age Trail and $2 million to grant 
        to seven States for the North Country Trail;
        --$2.1 million for the New England Trail;
        --$2.005 million for the Appalachian Trail;
        --$2 million for the Oregon Trail--City of Rocks Reserve; and
        --$1.17 million for San Antonio Missions National Historic 
            Park--El Camino Real de los Tejas National Historic Trail.
    We also ask that you appropriate from the USFS Forest Legacy 
program $8.730 million to protect High Peaks in Maine along the 
Appalachian Trail.
                                  nps
    The $16.45 million we request for NPS operations includes increases 
for some of the trails to continue the progress and new initiatives 
made possible by the additional funding the Congress provided over the 
past 7 years. We support the administration's requested funding for the 
new Star Spangled Banner and Washington-Rochambeau National Historic 
Trails and we request $400,000 for the Park Service to implement 
planning and administration for the New England National Scenic Trail.
    We request an increase of $626,000 to expand NPS efforts to protect 
cultural landscapes at more than 200 sites along the Santa Fe Trail, to 
develop GIS mapping, and to fund public educational outreach programs 
of the Santa Fe Trail Association. An increase of $763,000 for the 
Trail of Tears will enable the NPS to work with the Trail of Tears 
Association to develop a GIS to map the Trail's historical and cultural 
heritage sites to protect them and to develop interpretation of them 
for visitors. We support the administration's requested increases of 
$282,000 for the Juan Bautista de Anza and $147,000 for the Ala Kahakai 
Trails. We request a further increase to $400,000 for the Ala Kahakai 
Trail to enable the NPS to work with E Mau Na Ala Hele, the Ala Kahakai 
Trail Association, and other community organizations to care for 
resources on the land and with the University of Hawaii to conduct 
archaeological and cultural landscape studies along this trail.
    We support the administration's requested funding of $1,708,000 for 
the Appalachian Trail to expand the highly successful ``Trail to Every 
Classroom'' program of the Appalachian Trail Conservancy. The 
$1,483,000 we request for the 4,200-mile North Country Trail will 
enable the Park Service to provide greater support for the regional GIS 
mapping, trail building, trail management, and training of volunteers 
led by the North Country Trail Association. This funding will also 
enable the NPS to move the administrative office for the North Country 
Trail to Michigan for more efficient and effective collaboration with 
the North Country Trail Association. The $1,399,000 we request for the 
Ice Age Trail includes a $550,000 increase to enable the NPS to develop 
and begin to implement an Interpretive Plan, to complete trail route 
planning, and to support stewardship by Ice Age Trail Alliance staff 
and volunteers of lands acquired for the trail.
    Construction.--We request that you appropriate for trail 
construction projects $346,000 for the Ice Age Trail and $200,000 for 
the Pacific Crest Trail in the national parks crossed by the trail.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership's member organizations applaud the administration's 
decision to restore these highly effective programs of the NPS, BLM, 
and Fish and Wildlife Service (FWS). We request that you fund all of 
them and appropriate $4.5 million in Challenge Cost Share funding to 
the NPS for fiscal year 2012 as a wise investment of public money that 
will generate public benefits many times greater than its sum. We ask 
you to continue to direct one-third of the $4.5 million for the 
national scenic and historic trails to continue the steady progress 
toward making these trails fully available for public enjoyment. We 
suggest, as an alternative to the annual allocating of funds from the 
Regular Challenge Cost Share program, that you create a separate 
National Trails System Challenge Cost Share program with $1.5 million 
funding.
    We support the administration's requested $947,000 for the Connect 
Trails to Parks project to enhance the public's understanding of the 
National Trails System and its relationship to the National Park 
System.
                                  usfs
    As you have done for several years, we ask that you provide 
additional operations funding to the USFS for administering five 
national scenic trails and one national historic trail, and managing 
parts of 16 other trails. We ask you to appropriate $8.7 million as a 
separate budgetary item specifically for the Arizona, Continental 
Divide, Florida, Pacific Crest, and Pacific Northwest National Scenic 
Trails and the Nez Perce National Historic Trail within the over-all 
appropriation for Capital Improvements and Maintenance for Trails. 
Full-time managers have been assigned for each of these trails by the 
USFS. Recognizing the on-the-ground management responsibility the USFS 
has for 838 miles of the Appalachian Trail, more than 650 miles of the 
North Country Trail, and sections of the Ice Age, Anza, Caminos Real de 
Tierra Adentro and de Tejas, Lewis & Clark, California, Iditarod, 
Mormon Pioneer, Old Spanish, Oregon, Overmountain Victory, Pony 
Express, Trail of Tears and Santa Fe Trails, we ask you to appropriate 
$1.2 million specifically for these trails.
    Work continues, supported by funds you provided over the past 10 
years, to close several major gaps in the Florida Trail. In 2010, 
Florida Trail Association volunteers maintained 1,322 miles and 
completed eight major construction and restoration projects along the 
Trail. The Partnership's request of $8.7 million above includes $2.5 
million to enable the USFS and FTA to continue this maintenance, to 
control invasive species, do ecosystem restoration, and otherwise 
manage 4,625 acres of new Florida Trail land.
    The Partnership's request of $8.7 million above also includes $2.3 
million for the Pacific Crest Trail, $2 million for the Continental 
Divide Trail, $1 million for the Pacific Northwest Trail, $640,000 for 
the Nez Perce Trail, and $239,000 for the Arizona Trail. We also 
request $1 million of additional funding for construction of sections 
of the Iditarod Trail.
                                  blm
    While the BLM has administrative authority only for the Iditarod, 
El Camino Real de Tierra Adentro, and the Old Spanish National Historic 
Trails, it has on-the-ground management responsibility for 641 miles of 
five scenic trails and 3,115 miles of eight historic trails 
administered by the NPS and USFS. The bureau recognized the 
significance of these trails by including them in the NLCS and, for the 
first time, in fiscal year 2002, by providing funding for each of them. 
The Partnership applauds these decisions of the BLM and encourages its 
staff to budget specific funding for each of these trails.
    We support the administration's increase of $15 million in base 
funding for the NLCS and ask that you appropriate as new permanent base 
funding $250,000 for National Trails System Program Coordination, 
$700,000 for the Iditarod Trail, $230,000 for El Camino Real de Tierra 
Adentro Trail, $350,000 for the Old Spanish Trail, and $4,000,000 for 
management of the portions of the 10 other trails under the care of the 
BLM. We request $300,000 for maintenance of the Pacific Crest Trail; 
and $3,140,000 to operate five historic trails interpretive centers.
    We ask you to fund the BLM's Challenge Cost Share program and to 
add $500,000 directed for projects for the National Trails System as 
you have done for many years with the NPS's Challenge Cost Share 
program.
    To promote greater management transparency and accountability for 
the National Trails and the whole NLCS, we urge you to request 
expenditure and accomplishment reports for each of the NLCS Units for 
fiscal year 2011 and to direct the BLM to include unit-level 
allocations by major subactivities for each of the scenic and historic 
trails, and wild and scenic rivers--as the BLM has done for the 
monuments and conservation areas--within a new activity account for the 
NLCS in fiscal year 2012. Existing accounts for Wilderness Areas and 
Wilderness Study Areas should also be included in this new NLCS 
activity account. The BLM's lack of a unified budget account for 
National Trails prevents the agency from efficiently planning, 
implementing, reporting, and taking advantage of cost-saving and 
leveraging partnerships and volunteer contributions for every activity 
related to these national resources.
                                  lwcf
    The Partnership applauds and supports the administration's 
intention to provide full funding of $900 million for the LWCF. We 
request that you provide robust and consistent funding to keep on a 
trajectory to achieve annual full funding for the LWCF and that you 
make the specific appropriations for national scenic and historic 
trails detailed at the beginning of this statement and below.
    USFS.--The $6.65 million we request for the Pacific Crest Trail 
will continue to support the acquisition underway by the Forest Service 
Lands Team and the NPS National Trail Land Resources Program Center, 
protecting 12 miles of PCT in Washington and taking 34 miles off of 
roads in southern California. The $1.7 million requested for the 
Florida Trail will continue another successful collaboration between 
these two agencies to protect 30 tracts and 3.4 miles of the Trail 
along the Suwanee River. We request $3.442 million to protect a stretch 
of the Old Spanish Trail in the Carson National Forest, $9.2 million to 
protect sections of the Appalachian Trail in the Cherokee and Pisgah 
National Forests and $1.5 million to buy land for the North Country 
Trail in the Hiawatha and Ottawa National Forests. We also request 
$1.4175 million to acquire land in Hell's Canyon of the Snake River in 
Oregon to protect sites along the Nez Perce Trail.
    BLM.--We request $6 million for the Cascade Siskiyou National 
Monument and $1.5 million for Porcupine Mountain that will preserve 
sections of the Pacific Crest Trail in Oregon, $3.5 million to purchase 
land along the Big Sandy River in Oregon for the Oregon Trail, $1 
million to protect sections of the Oregon, California, Mormon Pioneer, 
and Pony Express Trails along the Platte River in Wyoming.
    NPS.--The National Trails System Act encourages States to assist in 
the conservation of the resources and development of the national 
scenic and historic trails. Since fiscal year 2000 Wisconsin has 
matched $13.6 million Federal LWCF funding with $27.7 million to help 
protect 67 miles of the Ice Age National Scenic Trail by purchasing 51 
parcels totaling 7,727 acres. Another 40 parcels are under negotiation, 
appraisal or option to purchase. The requested $5.2 million LWCF grant 
to Wisconsin will continue this very successful Federal/State/local 
partnership for protecting land for the Ice Age Trail. We request $2 
million to provide similar grants to the seven States along its route 
to close gaps in the North Country Trail, $2.1 million for the Park 
Service to acquire three parcels for the New England Trail, and $2.005 
million for the NPS to acquire parcels in Pennsylvania and Vermont for 
the Appalachian Trail. We also request $2 million for the City of Rocks 
Reserve in Idaho to protect an important section of the Oregon Trail 
and $1.17 million for San Antonio Missions National Historic Park along 
El Camino Real de los Tejas National Historic Trail.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as the Congress' support for 
the trails has grown. In 2010, the trail organizations fostered 
1,115,559 hours--an increase of 23 percent more than 2009--of 
documented volunteer labor valued at $24,366,484 to help sustain the 
national scenic and historic trails. The organizations also raised 
private sector contributions of $12,486,240 to benefit the trails.
                                 ______
                                 
                Prepared Statement of the Pueblo of Zuni
    Keshi, ko'don dewanan a'deya'ye. My name is Arlen Quetawki and I am 
the Governor of the Pueblo of Zuni. It is an honor to be able to 
present this testimony to the subcommittee. My tribe's current land 
area covers some 450,000 acres in western New Mexico and a northeastern 
portion of Arizona, about 150 miles west of Albuquerque, New Mexico. 
Although we face many challenges, we are fortunate that we still live 
in our ancestral homelands. Ours is a very traditional and humble 
community, and I invite the chairman and members of this subcommittee 
to visit with us in Zuni. You will not be disappointed.
    I submit this testimony because decades after we first started 
contracting with the Government, the Government still fails to honor 
our contracts by failing to pay the Contract Support Costs (CSC) the 
Government admits it owes. The time is long past when this shameful 
conduct must end, and when the Government's practice of repeatedly 
breaching agreements with our tribe and with other Indian tribes must 
cease. This is something this subcommittee and the Congress can change. 
I therefore ask that the subcommittee increase CSC funding to the 
Indian Health Service (IHS) up to $615 million, and that it increase 
CSC funding to the Bureau of Indian Affairs (BIA) up to $228 million.
    In the 1990s our tribe began to confront a financial crisis over 
the Government's recurring payment shortfalls. Here is the background 
to that crisis.
    As you know, in order to operate the essential Government programs 
that the IHS and the BIA have transferred to us, we must have an 
administrative structure in place. Just like any government or 
business, we need insurance. We need to account for our contract 
expenditures. We need to make payroll. We need to purchase and track 
property and equipment. And, we need to manage our employees. On top of 
all this, Federal law adds unique demands requiring us to pay for 
independent and certified audits every year.
    These are the expenditures that the Government expects us to cover 
from a special pool of funds called an ``indirect cost pool.'' Money 
for that pool comes from all of the tribe's contracts and grants, as 
well as from tribal revenues. From this pooled money we pay for all our 
fixed administrative costs, including insurance and audit costs. (Of 
course, the Federal Government does things differently, such as self-
insuring, or else using agency lawyers and accountants, or using the 
General Services Administration, the Office of Personnel Management, 
and other agencies to carry out these same functions.)
    We cannot spend whatever we choose to spend on these things. Nor 
would we want to. Instead, our expenditures must be reviewed and 
approved by an agency within the Department of the Interior called the 
National Business Center (NBC). NBC sets our indirect cost pool 
expenditures, and from that an indirect cost rate, all based on a 
certified independent audit from the most recent completed year. Then, 
after the New Year is over we do another audit to see how the funds 
were actually spent, and then square up with the NBC. The system is 
completely transparent, and completely accountable.
    We try to keep our indirect cost rate as low as possible, so that 
most of our funds are devoted to the direct delivery of services to our 
people, whether it is law enforcement, healthcare or Head Start. We are 
not a rich tribe, so every dollar must count.
    Once we have an indirect cost rate, that rate applies to all of the 
funding agencies with which we have contracts and grants. That is the 
law as spelled out by the NBC and by the Office of Management and 
Budget. The problem is that, contrary to that same law, every year the 
BIA and the IHS disregard these agreements.
    The law requires them to pay the full indirect costs we have 
negotiated with the NBC. But, the IHS and the BIA refuse. They do not 
budget for these costs. They do not ask the Congress for these costs. 
And so the Congress does not appropriate the funds to pay these costs.
    But since these are fixed costs and we have to account for spending 
these costs, we must still pay them. The result? Deep program 
reductions in the essential services that we have contracted to provide 
to our people.
    Cuts in public health nursing, and in alcohol and substance abuse 
treatment.
    Cuts in emergency medical services.
    Cuts in police and realty services.
    Cuts in child education and adult scholarships.
    Cuts in housing services.
    The list goes on and on. Year in and year out we are forced to cut 
jobs that provide services to our people, so that our books remain 
balanced in the face of the BIA and the IHS underpayments.
    This has got to stop.
    No other Government contractor gets shorted on its contracts. If 
necessary, supplemental appropriations are made to pay the Government's 
contracts in full. This subcommittee must therefore ask the question: 
Why does the Government think it is lawful to cheat us on our 
contracts? Is it because we are Indian tribes, instead of Boeing or 
Haliburton? The question must be asked.
    For my tribe the crisis reached the boiling point in the late 
1990s. We sought out legal counsel, and we filed two class-action 
lawsuits, one against the IHS and one against the BIA. Our BIA lawsuit 
eventually resulted in a settlement for all the Nation's tribes over 
shortfalls that occurred in the early 1990s. The settlement was part of 
a combined settlement with other claims in another class action against 
the BIA that was filed by our neighbors, the Ramah Navajo Chapter. Our 
IHS lawsuit was blocked by another judge from proceeding as a class 
action. Then, we settled our own claims against the IHS, but only for 
the shortfalls we suffered in the mid-1990s.
    Since those cases nothing has changed.
    Today, the BIA and the IHS shortfalls continue. Even after a 1999 
Government Accountability Office report investigated and confirmed the 
integrity of the entire CSC process, and reported on the terrible 
impacts the shortfalls are creating in Indian communities, the 
shortfalls continue. Even after the Supreme Court ruled in the 2005 
Cherokee Nation case that the Government must pay these contracts in 
full, the shortfalls continue. Even after the BIA adopted a new CSC 
policy in 2006, the shortfalls continue.
    Mr. Chairman, the time has come to end this shameful practice.
    Our tribe embraces tribal self-determination. We welcome being free 
from the oppressive dictates of the IHS and the BIA. We welcome being 
responsible and accountable to our own people for the governmental 
services being provided on our reservation.
    But the IHS and the BIA, by continuing these CSC shortfalls, 
penalize tribes like us that choose this path. The BIA and the IHS 
programs remain protected from any cuts so long as the BIA and the IHS 
operate the programs. But once the programs are transferred to a tribe 
under a self-determination contract, the BIA and the IHS demand that we 
cut jobs and divert program resources, to make up for the shortfall in 
the agencies' contract payments.
    Current appropriations language actually says this. The law 
actually authorizes cuts in our program funds, in order to cover the 
shortfall in the BIA's CSC payments.
    The result? Last year we again suffered deep CSC shortfalls of more 
than $690,000, including more than $683,000 just in BIA underpayments. 
In fact, the BIA does not even pay one-half of the total contract 
support costs it is required to pay under the law and our contracts. 
Not only is this shortfall stunning in itself, it means cuts in several 
jobs at a time when our community can hardly afford more unemployment. 
If the country is worried about double-digit unemployment, we sadly 
have the expertise in this category, as we have been experiencing 
unemployment greater than 60 percent for more than 10 years.
    The time has come to correct this terrible practice.
    On behalf of the Pueblo of Zuni, I ask that this subcommittee make 
sure that, from this day forward, the Government honors its legal duty 
to pay the full CSC that are due under our contracts and under the 
Indian Self-Determination Act.
    We are prepared to be partners with the Government in promoting 
greater transparency, increased local employment, enhanced tribal self-
determination, and a reduced Federal bureaucracy. But, the Government 
must be an honest partner with us, just as we must annually account and 
cut square corners with the Government, so too the BIA and the IHS must 
be upright in honoring these contracts.
    We thus join the voice of many other tribal leaders in calling for 
full funding of these contracts in the fiscal year 2012 appropriation.
    Thank you for the opportunity to testify on this critical issue 
facing Indian country, and on what has become a grave threat to the 
forward march of tribal self-determination.
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission
    Mr. Chairman, and honorable members of the subcommittee, I am Dr. 
Jeffrey Koenings and I am presenting written testimony on behalf W. Ron 
Allen, Alternate Commissioner on the Pacific Salmon Commission (PSC) 
and the chairman of the U.S. section's Budget Committee. The U.S. 
Section prepares an annual budget for implementation of the Treaty. The 
integrated budget details program needs and costs for Tribal, Federal, 
and State agencies involved in the Treaty. Under the Bureau of Indian 
Affairs (BIA) budget, the U.S. section recommends that the Congress:
  --Fund the tribes' program at a restored funding level of $4,800,000 
        for tribal research projects and participation in the U.S./
        Canada Pacific Salmon Treaty process, an increase of $680,000 
        more than the fiscal year 2010 enacted levels and the 
        President's recommended fiscal year 2011 level. This funding 
        level represents status quo funding plus adjustments to meet 
        increased obligations under the 2009-2018 Pacific Salmon Treaty 
        Agreement. The funding for tribal participation in the U.S./
        Canada Salmon Treaty is a line item in the BIA's budget under 
        the rights protection implementation, wildlife and parks, other 
        recurring programs area.
    Under Fish and Wildlife Service (FWS) programs, the U.S. section 
recommends that the Congress:
  --Provide base funding of $417,000 for FWS participation in the 
        Treaty process, and provide funding of $315,000 for the Pacific 
        States Marine Fisheries Commission's (PSFMC) Regional Mark 
        Center. This funding level represents an increase of $65,000 
        more than the fiscal year 2010 enacted level for the Mark 
        Center to make up for losses from other programs and allow the 
        Mark Center to maintain the same level of service to the U.S. 
        section.
    This base funding for the FWS will pay for the critically important 
on-going work. The funding for PSFMC Mark Center is utilized to meet 
Treaty requirements concerning data exchange with Canada. These program 
recommendations are integrated with those of the State and Federal 
agencies to avoid duplication of effort and provide for the most 
efficient expenditure of scarce funds.
    A copy of the integrated U.S. section budget justification has been 
made available to the subcommittee. The budget summary justifies the 
funding we are recommending today. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation of the Treaty and are used in cooperative programs 
involving Federal, State, and tribal fishery agencies and the 
Department of Fisheries in Canada. The monetary commitment of the 
United States is matched by the commitment of the Government of Canada.
    The U.S. section of the PSC is recommending an adjustment to the 
funding for the work carried out by the 24 treaty tribes that 
participate in the implementation of the Treaty. Programs carried out 
by the tribes are closely coordinated with those of the States and 
Federal agencies. Tribal programs are essential for the United States 
to meet its international obligations. Tribal programs have taken on 
additional management responsibilities due to funding issues with State 
agencies. All participating agencies need to be adequately funded to 
achieve a comprehensive U.S. effort to implement the Treaty.
    We are strongly recommending maintaining base funding of $417,000 
for the FWS so the United States can maintain the critical database to 
implement the Treaty. We also strongly recommend funding of $315,000 to 
allow continuation of work carried out by the Regional Mark Processing 
Center. This work, maintaining and updating a coastwide computerized 
information management system for salmon harvest and catch effort data 
as required by the Treaty, has become even more important to monitor 
the success of management actions at reducing impacts on ESA-listed 
salmon populations. Canada has a counterpart database. The database 
will continue to be housed at the PSFMC. The FWS will contract with the 
PSFMC to provide this service.
    Mr. Chairman, the United States and Canada established the PSC, 
under the Pacific Salmon Treaty of 1985, to conserve salmon stocks, 
provide for optimum production of salmon, and to control salmon 
interceptions. After more than 20 years, the work of the PSC continues 
to be essential for the wise management of salmon in the Northwest, 
British Columbia, and Alaska. For example, upriver Bright fall Chinook 
salmon from the Hanford Reach of the Columbia River are caught in large 
numbers in Alaskan and Canadian waters. Tribal and nontribal fishermen 
harvest sockeye salmon from Canada's Fraser River in the Strait of Juan 
de Fuca and in Puget Sound. Canadian trollers off of the west coast of 
Vancouver Island catch Washington coastal Coho salmon and Puget Sound 
Chinook salmon. In the Northern Boundary area between Canada and 
Alaska, fish from both countries are intercepted by the other country 
in large numbers. The Commission provides a forum to ensure cooperative 
management of salmon populations. In 2008, the United States and Canada 
successfully concluded lengthy negotiations to improve this management, 
including the adjustments to the coastwide abundance-based management 
regime for Chinook salmon and a framework for abundance based 
management for southern Coho populations. The agreement is intended to 
last through 2018. The Fraser River sockeye and pink chapter to the 
Pacific Salmon Treaty expired in 2010 and negotiators worked out an 
interim arrangement while Canada's Cohen Commission completes its 
judicial inquiry on the Fraser River sockeye fishery.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continues these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the PSC to develop recommendations that help to ensure solutions 
that minimize impacts on listed stocks, especially if we are allowed to 
work towards the true intent of the Treaty: mutually beneficial 
enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the subcommittee 
for the support that it has given the U.S. section in the past. Please 
feel free to contact me, or other members of the U.S. section, through 
the Office of the U.S. Section Coordinator to answer any questions you 
or subcommittee members may have regarding the U.S. section of the 
Pacific Salmon Commission budget.
summary of tribal and fws programs under the u.s.-canada pacific salmon 
                                 treaty

                                           DEPARTMENT OF THE INTERIOR
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                   2010 enacted        2012          Increase
                                                                   appropriation  recommendation
----------------------------------------------------------------------------------------------------------------
Bureau of Indian Affairs, Wildlife and Parks, Rights                       4,120           4,800           2,530
 Implementation.................................................
U.S. Fish and Wildlife Service, Anadromous Fisheries............             667             732              65
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation
    ``The Great Spirit bestowed life to all of us, including the 
animals, birds, fish, insects and plants. Our collective Native 
warnings and predictions were ignored in the rush to capitalize and 
exploit the bountiful resources of the land. Countless irreplaceable 
species are preserved now in museums or documents in textbooks. As the 
consequences of unmanaged exploitation and pollution reach irreversible 
proportions, the United States heeded our centuries old appeals for 
environmental protection. We only hope it's not too late and that 
Mother Nature's wounds can still be healed. We will continue to serve 
as the environmental conscience to the nation and the world.''
                                Joseph B. DeLaCruz,
                                                 President,
                                 Quinault Indian Nation, 1972-1993.

    In the spirit of these profound words of our former president, I am 
honored to appear before this subcommittee on behalf of the Quinault 
Indian Nation and provide testimony on our priority requests and 
recommendations on the fiscal year 2012 budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS).

Tribal-specific priority requests:
  --$7 million a year for Blueback Restoration--BIA (for 2012-2019);
  --$500,000 for Substance Abuse Strategy--IHS;
  --$325,000 to fully implement the Quinault Forest Management Plan 
        (FMP); and
  --$2.21 million McBride Road Maintenance and Emergency Reservation 
        Exit.

Local/regional requests and recommendations:
  --Affiliated Tribes of Northwest Indians;
  --Northwest Portland Area Indian Health Board; and
  --Northwest Indian Fisheries Commission.

Self-governance and national requests and recommendations:

    BIA:
      Tribal Priority Allocation General Increase.--Provide $82.9 
        million (10 percent increase more than fiscal year 2010);
      Contract Support Costs (CSC).--Provide $50 million Increase for 
        BIA to fully fund the CSC, including direct CSC; and provide $5 
        million for the Indian Self-Determination (ISD) Fund;
      Law Enforcement/Tribal Courts/Tribal Detention Facilities.--
        Provide $30 million more than fiscal year 2010 levels; and
      Increase funding to the Office of Tribal Self-Governance (OTSG) 
        to fully staff the office for the increase of tribes entering 
        Self-Governance.

    IHS:
      Fully Fund Current Services.--Provide $532 million for IHS and 
        tribal pay costs, inflation, and population growth; staffing 
        for new/replacement facilities and healthcare facilities 
        construction previously approved plan;
      Contract Health Services (CHS).--Provide $118 million increase 
        for CHS;
      CSC.--Provide $122 million for IHS to fully fund CSC; and,
      OTSG.--Increase $5 million to the IHS OTSG.

    We support all requests and recommendations of the National 
Congress of American Indians and the National Indian Health Board.
                 tribal specific requests justification
$61 Million Blueback Restoration ($7 Million Annually From 2012-2019)
    The Blueback Restoration Program is designed to halt the current 
habitat loss and deterioration and to repair and restore natural 
habitat forming processes and sockeye production on the Quinault 
floodplain. Conditions that will result from implementation of this 
program will benefit other salmon stocks in the system and will serve 
to protect private property and public infrastructure. The program plan 
calls for formation of public and private coalitions and partnerships 
to implement restoration actions.
    The Quinault River Blueback (Sockeye Salmon) Restoration Program 
will help to restore the natural beauty and productivity of the 
Quinault River Basin to historic levels, thus making it a more 
attractive tourism destination. In addition, the program will provide 
local construction jobs during its implementation phase, and the 
restoration program will result in conditions that will improve and 
sustain commercial and sport fishing on the Quinault River. The program 
will also benefit local residents and businesses by reducing the 
likelihood of flooding and property loss and increasing local economies 
both in the near- and long-term future. Implementation of the 
restoration program will help avoid the burdensome and restrictive 
consequences of having the Quinault sockeye listed as threatened or 
endangered under provisions of the Endangered Species Act (ESA).
    This unique and valuable stock of salmon is near collapse due 
mostly to degraded habitats in the upper Quinault River Basin and in 
Lake Quinault. This habitat loss has occurred over the past century due 
to historic timber harvesting, property development, and infrastructure 
construction. Natural processes on the floodplain began unraveling in 
the late 1800s and the deterioration is continuing in the present time.
    This is a long-term project expected to take up to 20 years to 
complete structure placement and enhancement, including the engineering 
and material procurement, with full implementation occurring in the 
decades following as natural processes rebuild the habitat to historic 
conditions. Through successful efforts of this program, it will protect 
and restore the livelihoods of 100 commercial fishermen and 25 sport 
fishing guides in Grays Harbor and Jefferson Counties and the Quinault 
Indian Reservation.
    The program will also contribute partial support for approximately 
20 jobs in the fish processing industry in western Washington, thus 
improve the economic status of the families living in the communities 
within the Quinault Indian Reservation. The program will provide 
employment for 10-30 laborers and equipment operators in Grays Harbor 
and Jefferson counties during the construction phases of individual 
projects. This project will reverse adverse environmental impacts by 
restoring habitats and ecosystems of the Quinault River and Lake 
Quinault while at the same time stabilizing the river channel in 
efforts to protect infrastructure and property loss.
    The construction phase of this plan was implemented in the fall of 
2008 with the construction of 12 engineered log jams. With full funding 
as needed on an annual basis, the basic construction phase of this 
project is expected to be completed at the end of fiscal year 2019. 
Fertilization, data acquisition, and monitoring will continue for many 
years.
$500,000 Substance Abuse and Security Strategic Plan
    The Quinault Indian Nation Substance Abuse and Security Strategic 
Plan seeks to improve, integrate, and strengthen the overall health and 
services to protect the communities on the reservation from the 
significant risks related to heroin and methamphetamine production, 
sale, and use by targeting enforcement, outreach, prevention, 
stabilization, and harm reduction services to high-risk populations.
    Heroin and methamphetamine use within the Quinault Indian Nation is 
a serious concern and a significant public health and social challenge. 
Some of the major problems contributing to the spread of meth 
trafficking is the size and isolation of our communities, and 
jurisdictional issues related to law enforcement on tribal lands. 
Tribal and local agencies are discovering that cooperation and 
collaboration represent a way to leverage resources to attack the 
threat of heroin and methamphetamine. Cooperative, inter-jurisdictional 
law enforcement efforts are the only way that Federal, tribal, and 
State law enforcement agencies will be able to effectively combat 
methamphetamine.
    During this past year, the Quinault Indian Nation identified border 
and security threats as an added component to our comprehensive 
substance abuse strategy. The Quinault Indian Reservation occupies 27 
miles of international border along the Pacific Ocean. We believe drug 
traffickers have discovered our unpatrolled borders and the 22 points 
of entry via abandoned logging roads directly to U.S. Hwy 101. Our 
ocean fishermen have reported high-speed vessels making multiple trips 
into Raft River, a system in a very remote location along our central 
coast. Following our meetings with the U.S. Border Patrol, we learned 
that our coastline is not a part their regular patrol routes. Our 
resources protection officers and police officers have also received 
multiple reports of camouflaged persons exiting from boats onto our 
shore, while confirming no military operations were underway at that 
time. We have also received multiple reports of low-flying helicopters 
both within the interior and along our coastline at odd hours of night 
and early morning.
    The Quinault Indian Nation's Substance Abuse Strategic Plan is part 
of a broader more comprehensive alcohol and drug strategy that 
recognizes the need to plan for the future. The Nation has encouraged 
collaborative relationships among Government departments, health 
authorities, professionals, community members, and families to create 
conditions that prevent drug use, treat drug users, educate the public 
and hold offenders accountable and control access to supply while 
helping ensure safer communities.
    Most importantly, we have actively sought the guidance and wisdom 
of our elders and with the participation of our youth, community, 
churches, and school districts we have undertaken a multidisciplinary 
approach and strategy, emphasizing prevention, enforcement, treatment, 
and aftercare. Unfortunately, the best plans prove valuable only when 
the funding is available to execute and implement the strategy. We have 
found that at every level and in every discipline, funding to support 
our strategy is appallingly inadequate. We stress the urgent need to 
reclaim our communities to protect our families, our elders and our 
next seven generations from this menacing and deteriorating drug on the 
Quinault Indian Nation Reservation.
$325,000 Fully To Implement the Quinault Forest Management Plan (FMP)
    From time immemorial, the Quinault people have been deeply 
connected with the land, water systems, and forests. The Quinault 
Indian Nation, with enthusiasm and tremendous hope for building a 
sustained economy, adopted an FMP in 2001. However, recent budget 
reductions have brought our efforts in implementing the plan to a near 
standstill. We are entering a second phase of implementation and must 
evaluate the plan's effectiveness and our need to undertake adaptive 
management measures. However, with recent and impending reductions in 
natural resource funding, we are left with very little hope for 
implementing the plan as it was originally intended. Moreover, the ESA 
created unfunded mandates for the Quinault Indian Nation FMP. We 
contend with ongoing issues, daily, due to a lack of funding and 
inadequate staffing levels. We urge you to be very cognizant of trust 
obligations and commitments to maximize tribal resources and restore 
funding levels to ensure that progress made, thus far, will continue to 
support a comprehensive and sustained management approach to 
reservation lands.
$2.21 Million McBride Road Maintenance and Emergency Reservation Exit 
        Route: BIA/Roads Maintenance Program
    The Quinault Reservation is located in Grays Harbor County in the 
village of Taholah, Washington; a rural isolated and economically 
deprived area. The village of Taholah lies in a tsunami danger zone. 
The site of the village is barely above sea level and experts have 
determined that the sea level is rising because of global warming 
patterns. For Taholah, tsunami is a health and safety risk factor that 
we must live with everyday. The Quinault Indian Reservation is 
interlaced with thousands of miles of roads that are left over from 
large logging contracts that ended in about 1980. Most of these roads 
do not have the required right-of-way and do not receive funding for 
maintenance.
    The village of Taholah is accessible via SR 109 that parallels the 
Pacific Ocean. The McBride Road, a single forest road, is the only 
escapement route available to the 1,000 community members of the 
Quinault Indian Nation living in the village of Taholah. Its state of 
disrepair necessitates that immediate action be taken to bring the road 
up to a Class B gravel road status to be used in cases of emergency. 
The cost for this project is $876,500 to repair 10.75 miles and could 
be accomplished within a 3-month timeframe during dry weather 
conditions. The project will create four new jobs in right-of-way 
acquisition and road engineering and will impact about 400 jobs of 
timber workers, fishermen, and fishing guides that rely on these roads 
for their livelihood.
    Major portions of this route are at sea level. What is particularly 
important to understand is that the portions of this road above sea 
level are susceptible to mudslides. Three such mudslides have occurred 
in the past 5 years. In a single event, the road blocked access for 3 
days. Medical needs for village people became an issue, while those in 
need of kidney dialysis were particularly affected. Some tribal members 
were able to evacuate the village by using another, longer alternate 
route. Still, this application is unsafe for use by the general public 
because the forest roads are not patrolled, well-maintained, have 
limited signage and cell reception.
                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.
                            request summary
    Mr. Chairman and members of the subcommittee: On behalf of the 
Board of Trustees of the Ramah Navajo School Board, Inc., we are 
requesting funding to address the education needs of American Indians 
and Alaska Natives (AI/AN) on the national level, and also the more 
specific education and health needs of the Ramah Navajo Reservation in 
Cibola County, at Pine Hill, New Mexico. Specifically, we are 
requesting the Congress to:
  --Direct the Bureau of Indian Education (BIE) to reopen the 
        Replacement School Construction Priority process to solicit new 
        applications, or--in the alternative--appropriate $5.6 million 
        for the replacement of Ramah Navajo Elementary School building;
  --For the Indian Health Services (IHS), $3.45 million for a Ramah 
        Navajo elder community center;
  --For the IHS, $2.55 million for the Ramah Navajo School's water well 
        and sewer system;
  --For the BIE, continue the funding to support American Indian tribal 
        colleges;
  --For the BIE, funding for ``Tribal Grant Support Costs'' in the 
        amount of $72.3 million to meet the indirect cost needs of all 
        tribally controlled schools; and
  --For the BIE, funding for the Indian School Equalization Formula 
        (ISEF), the core academic budget, in the amount of $431 
        million.
                               background
    The Ramah Navajo School Board, Inc., established in 1970, governs 
the K-12 Pine Hill School (a federally funded BIA/BIE school), the Pine 
Hill Health Center and more than 30 other school and community programs 
on the Ramah Navajo Reservation in Cibola County, at Pine Hill, New 
Mexico. We have the distinction of operating the first Indian-
controlled health clinic and the first Indian-controlled high school in 
the country. The Ramah Navajo School Board serves the 4,000-plus 
members of the Ramah Band of Navajo Indians, and on their behalf, I 
want to thank you for the commitment and support you have provided to 
our community over the past 40 years. The Ramah Navajo people are well 
aware of the current fiscal climate in our country and the many 
difficult decisions that must be made to restore economic prosperity 
for all Americans. That being said, the Federal Government, through the 
BIE and the IHS, has an historic and long-standing trust responsibility 
to the health and well-being of American Indian communities such as 
Ramah Navajo, who, long before the current economic downturn, struggled 
to provide to their members basic services, such as education and 
healthcare. The BIE school system, for example, has long been 
underfunded, and the fiscal year 2012 proposed budget falls far short 
of remedying this state of affairs. Given the importance of education 
to the future viability of our community, we hope that the Congress 
will recognize and address the very real funding needs of our tribally 
operated school. Ramah Navajo, one of the most remote communities in 
the country, faces unique challenges and must receive continued funding 
to operate its facilities and provide essential community-based 
programs. With all these factors in mind, we unequivocally support the 
fiscal year 2012 budget requests prepared by the National Congress of 
American Indians (NCAI) for the BIE-funded school programs, and in 
particular, the request for realistic funding for Tribal Grant Support 
Costs (TGSC) and the ISEF Program. Ramah Navajo also has three 
community requests for which it seeks your support.
                           specific requests
    Request No. 1: Direct the BIE to reopen the ``Replacement School 
Priority List'' and/or appropriate $5.6 million needed to replace the 
Ramah Navajo elementary school building.--The Federal Government, 
through the BIE, is responsible for facility operations and maintenance 
for all buildings on Ramah Navajo's K-12 Pine Hill School campus. The 
elementary school (building #803), which opened in 1975, has served our 
community for the past 35 years. In August 2010, however, it was 
discovered that this building has sustained serious water damage, mold 
growth, and insect infestation. The consulting engineers have 
recommended the replacement of all exterior walls, the roof, and 
interior finishes. In replacing the exterior walls, it would be also be 
necessary to remove and replace plumbing and electrical equipment. 
Given the extent of the major renovation needed to bring the building 
up to a safe and usable condition, it has been recommended that the 
building be demolished, and a new elementary school building be 
constructed in its place. In the meantime, the elementary school 
building has been sealed closed due to the structural defects (e.g., 
the roof is on the verge of collapse in some locations), and also the 
high concentrations of mold in the building. As a result, our 300 
elementary school students are housed in other school buildings. In 
addition to the concerns about the physical plant, the current 
situation adversely impacts our entire education environment; raises 
concerns about overcrowding and student health and safety; and limits 
our ability to expand our student enrollment. We have an emergency need 
for a new elementary school building, and the BIE has a process for 
evaluating school construction applications and ranking them on a 
priority list for funding. However, 6 years have passed since the BIE 
has added any new schools to the replacement school construction 
priority list. And since Ramah Navajo does not have any other way to 
make its case for a replacement elementary school building, we are left 
with an uninhabitable elementary school building. The fiscal year 2012 
proposed budget includes no funding for replacement school or facility 
construction. This would inflict severe hardship on schools, such as 
Ramah Navajo, who now face a critical need for replacement facilities. 
Therefore, we urge the Congress to direct the BIE to reopen the 
competitive process by which Indian schools can submit applications to 
justify their requests for replacement school construction. 
Alternatively, and given the administration's proposed freeze on ``new 
construction'', we urge the Congress to direct the BIE to identify 
funding from the facilities improvement and repair account to 
immediately redress our critical building deficiencies so that our 
school can be fully utilized once more.
    Request No. 2: Appropriate $3.45 million for a Ramah Navajo elder 
community center.--There is a great need in the Ramah Navajo community 
for an elder community center to be located near the Pine Hill Health 
Center on our school campus so elders can have a center dedicated to 
their needs. Our community is spread out over 625 square miles with 
only one paved road. Family hogans and houses are geographically 
remote, raising concerns about the well-being of our elders. 
Approximately 480 residents older than 65 and another 905 between the 
ages of 50 and 64 are seen at the Pine Hill Health Center. Although 
some of our elders qualify for part-time care takers through Medicaid 
to help with the functions of daily living, most of our elders do not, 
leaving them vulnerable to many unmet needs, such as accidental falls, 
taking care of personal finances, bathing, cooking and hot meals, and 
other elderly needs.
    The Pine Hill Health Center has received an IHS Elder Initiative 
grant to conduct a comprehensive survey of our elder community covering 
everything from personal needs assessments, home safety and 
environmental assessments, thorough physical exams and a community 
evaluation and survey of elder needs. This study shows that the 
community is very much in need of an elder community center that will 
address the needs of our elders, including, but not limited to, 
healthcare, nutrition, education, intergenerational social activities 
in conjunction with the school, and space to train local caregivers. As 
the median age of our population rises, as our IHS-funded survey 
confirms, this community will increasingly require a facility where 
services to this growing and vulnerable population can be provided. The 
Ramah School Board officials have met with the IHS area office to 
discuss this need. We are beginning the process to get this project on 
the IHS priority list, but have been told that it is probably a 20-year 
waiting period. This is unacceptable to us and to our elders.
    Request No. 3: Appropriate $2.55 million for the Pine Hill School 
water well and sewer system.--The Pine Hill School water well and sewer 
system, constructed in the early 1970s, was originally intended to 
serve only the new Pine Hill School and housing units for the school 
staff. Over the past 37 years, the board of trustees has added numerous 
other buildings and facilities for school and community programs. The 
Water and Sewer System also serves non-Ramah facilities, such as the 
Pine Hill Market, and provides clean water to nearby community housing 
projects (70-plus units). We seek funding for a new water and sewer 
system through the IHS sanitation facilities program. The funds 
requested are essential for the health and safety of our students, 
teachers, and housing residents. At this time, our west sewer lagoon 
does not comply with applicable Environmental Protection Agency laws 
and regulations, so we urgently need to bring the lagoon into 
compliance. The funds sought for this project will also be used for the 
design and construction of a new 8- to 10-inch sewer line main from the 
school campus to the sewer lagoon, and for the upgrade of the well, 
which is the principal source of water for our school campus.
    Request No. 4: Continue funding to support American Indian tribal 
colleges throughout the country.--Since the threatened cuts to the BIE 
budget to support American Indian tribal colleges throughout the 
country will end the hopes of thousands of American Indians for a 
college education and skilled, living wage jobs, especially for their 
own tribes, we urge the Congress to continue the critical funding for 
these colleges at least at the same level as it did in the budget for 
the last fiscal year.
    Request No. 5: Increase the TGSC for tribally operated schools to 
$72.3 million.--The TGSC, formerly known as administrative cost grants, 
cover those indirect/administrative costs incurred by tribes that have 
elected to take over operation of the BlE-funded schools on their 
reservations. This funding covers such expenses as payroll, accounting, 
insurance, background checks, and other legal, reporting and 
recordkeeping requirements. Almost all these costs are legally mandated 
and/or conditions for the receipt of program funding. Yet, 
appropriations for the TGSC have consistently lagged behind the needs 
of tribally controlled schools. In fiscal year 2010, for example, the 
amount appropriated by the Congress funded only 62 percent of the 
administrative costs incurred by schools. For fiscal year 2012, the 
proposed budget requests a $3 million increase more than the fiscal 
year 2010 enacted levels, which the BIE estimates would meet 65 percent 
of need. Given the ever rising costs of fiscal management, insurance, 
and other ``contract support'' expenses, and the possibility that three 
additional schools may be converting to tribally controlled status in 
fiscal year 2012, it is altogether likely that this additional $3 
million will not be sufficient to raise the cost rate above the current 
62 percent of need. For 19 of the last 20 years, our Pine Hill School, 
as well as all other tribally operated schools, has not received its 
full TGSC amount. On the other hand, significant efforts have been made 
in the budget to address Contract Support Costs (CSC) for the BIA and 
the IHS non-school contractors. For example, the proposed budget 
requests an increase of $25.5 million to fund CSC for non-school 
contractors (with an additional $2 million to pay for the costs of new 
contractors). For the IHS, the administration seeks a $50 million 
increase. In fiscal year 2010, the BIA and the IHS non-school 
contractors also received significant increases, while tribally 
operated schools received no increases since fiscal year 2004. While we 
are grateful that the Congress has recognized the need to address the 
shortfalls in funding for our nonschool programs, these efforts do not 
remedy the very real impacts associated with inadequate funding of our 
school's TGSC, and we request that the comparable needs of our schools 
be recognized and fully funded. The NCAI has calculated that $70.3 
million is needed to fully fund the TGSC for current grant schools with 
an additional $2 million for schools newly converting to tribally 
controlled status. We fully endorse this request.
    Request No. 6: Fund the ISEF Account at $431 million in order to 
fulfill the Federal Government's obligation to Indian children in the 
BIE school system. These funds support Indian education programs, which 
is, of course, the core function of our schools. Without an increase to 
the ISEF, our own school will not be able to continue to recruit and 
retain the high-quality personnel needed for our education program to 
succeed. Key support services also require subsidies. For example, our 
food service budget, transportation, and facilities and maintenance 
funding falls far short of the amounts realistically needed, and these 
shortages must be supplemented by our ISEF funds. We must also provide 
school security, a school nursing staff, and after-school programs. All 
of these costs should be the responsibility of the BIE, but its budget 
for the ISEF chronically fails to supply the level of support needed 
and does not take into account the enhanced costs of operating a small 
school such as ours in a sparsely populated reservation community. Over 
the past 7 years, the ISEF budget has increased by only 13 percent, 
less than 2 percent per year. The proposed fiscal year 2012 budget 
requests $392.3 million. This translates into a ``weighted student 
unit'' amount of $5,320.62, an increase of less than $9 more than the 
fiscal year 2010 enacted amount. Instead, we urge that the ISEF 
appropriation be set at $431 million as recommended by the NCAI, the 
amount realistically required to begin to rectify the historic 
underfunding of the BIE school system. Our children deserve as much.
                               conclusion
    The Board of Trustees for the Ramah Navajo School Board, Inc., 
appreciates your support. We hope that this information will help the 
Congress, especially new members, better understand the needs of and 
unique challenges faced by the AI/AN communities generally, and the 
Ramah Navajo Reservation community, in particular. Thank you for this 
opportunity to present our testimony.
                                 ______
                                 
   Prepared Statement of the Riverside-San Bernardino County Indian 
                              Health, Inc.
    On behalf of Riverside-San Bernardino County Indian Health, Inc. of 
California, I write to request that the fiscal year 2012 appropriation 
include $615 million in contract support cost (CSC) funding for the 
Indian Health Service (IHS). According to IHS, this is the amount that 
is legally required to fully pay the contracts that tribal 
organizations like us (along with hundreds of Indian tribes) are 
carrying out to operate Federal IHS facilities and healthcare programs. 
Without this funding, in fiscal year 2012 Riverside will once again 
suffer a shortfall of $3,094,883 in carrying out its IHS contract.
    The chairman and this subcommittee know well that, when the IHS 
contracts over the operation of its facilities to tribal organizations 
under the Indian Self-Determination Act (ISDA), the result is 
strengthened tribal government institutions; increased local employment 
and training; a reduced Federal bureaucracy; and--perhaps most 
importantly--increased local control over the design and delivery of 
critical healthcare programs. We take distant bureaucrats from 
Washington, DC out of the picture, along with their reams of 
regulations and manuals, to produce true local control over healthcare.
    The Congress, the President, and every IHS Director since 1975 has 
recognized that no policy in American history has had a more profound 
effect on strengthening tribal institutions, quality of care, and local 
employment than has the Indian Self-Determination Policy reflected in 
the ISDA. This is why it is critical that the Congress honor and 
support that Policy by appropriating the sums required by law and by 
our contracts for fixed contract support costs.
    As the subcommittee knows, CSC are fixed costs. They are set by the 
agencies and they must be paid off the top, no matter what. Since these 
costs are fixed, the direct result of CSC underpayments is the loss of 
local jobs and reductions in healthcare and related services. The 
impact for Indian country is particularly severe when you consider that 
Indian healthcare is barely one-half the amount the Government spends 
to care for Federal prisoners, and only 38 percent of the Nation's 
overall per capita healthcare spending.
    The last thing we need to be doing is diverting the few funds we 
have in order to subsidize the Government's CSC underpayments. Doing 
that only punishes our Indian patients and dishonors the Government's 
trust responsibility to provide healthcare.
    At Riverside we know that closing the CSC gap produces jobs and 
improves healthcare and outcomes among our people. In fiscal year 2010 
Riverside was allocated $1,976,000 to partially reduce our CSC 
shortfall. With that, we opened 23 jobs, including 1 pharmacist; 1 
pharmacy technician; 3 chemical dependency counselors; 1 nursing 
director; 5 registered dental assistants; 2 dental receptionists; 1 
dentist; 1 case utilization review manager (for our Contract Health 
Care private-sector referral program); 1 optometrist; 2 opticians; 2 
nurse practitioners; 1 patient escort; 1 fitness specialist to assist 
our diabetic patients; and 1 social worker. These are real jobs, good 
jobs, and permanent jobs. They are also a fraction of the jobs we lost 
to the CSC shortfall.
    The time has come, after 35 years, to finally end the CSC 
shortfalls that have damaged our healthcare programs, punished our 
people, and broken the Government's contract promises. I therefore 
respectfully, but urgently ask that you consider increasing the 
contract support cost line in the IHS budget to $615 million. In making 
this request I wish to point out this request has the full support of 
the National Indian Health Board, the National Congress of American 
Indians and the National IHS Tribal Self-Governance Advisory Committee.
                                 ______
                                 
        Prepared Statement of the Sac and Fox Nation of Oklahoma
    On behalf of the Sac and Fox Nation of Oklahoma I am submitting the 
following budget priorities for the fiscal year 2012 budgets for the 
Bureau of Indian Affairs (BIA) and the Indian Health Service (IHS). 
Thank you for considering these requests
                              introduction
    At the time of this written submission, current year funding for 
fiscal year 2011 remains under negotiation and is currently funded 
under a continuing resolution through April 8, 2011. While discussions 
will resume in the Congress on proposals for a comprehensive plan to 
address a final enacted amount for fiscal year 2011, final funding 
levels remain uncertain. Therefore, our requests and analysis of the 
fiscal year 2012 President's proposed budget are compared to the fiscal 
year 2010 final enacted.
    The President has committed to support and advance tribal Self-
Determination and Self-Governance for the Nation's 567 federally 
recognized tribes. Consistent with that commitment, the fiscal year 
2012 President's proposed budget presents a renewed opportunity for the 
U.S. Government to live up to the promises made to American Indians/
Alaska Native (AI/AN) tribal governments. Further, it provides a 
concrete fulfillment of the President's promise to the tribal 
leadership to ensure that the AI/AN governments are full and equal 
partners in the family of governments.
                              bia requests
    Overall, the fiscal year 2012 budget request for the BIA is 
approximately 4.5 percent below the 2010 enacted level. While we are 
concerned about several of the proposed decreases, we strongly support 
and urge the passage of those significant increases included in fiscal 
year 2012 President's proposed budget, including:
  --$25 million increase in Contract Support Costs (CSC);
  --$20 million increase for tribal law enforcement activities;
  --$8.9 million increase to improve the state of Bureau of Indian 
        Education (BIE) schools;
  --$3.9 million increase to implement new safety and security measures 
        at 10 schools and two dormitories;
  --$3 million increase for tribal grant support costs; and
  --$3 million for tribal management/development.
    In order to effectively carry out the transfer of Federal 
activities to tribes under the Indian Self-Determination and Education 
Assistance Act, we respectfully request this subcommittee to protect 
and support the President's fiscal year 2012 proposed increases for the 
BIA programs and to support the following additional program increases:
      Tribal Priority Allocation (TPA) General Increase.--Provide $82.9 
        million (10 percent increase over fiscal year 2010) for general 
        increase.
      TPA is one of the most important funding areas for tribal 
        governments. It covers such needs as scholarships and higher 
        education funding, human services, economic development, and 
        natural resources management. This funding has steadily eroded 
        due to inflation and population growth. The effects of rising 
        costs of travel, equipment, supplies, and purchased services 
        have been compounding for years while the Native American 
        population has increased at 1.6 percent per year. Since tribes 
        have the flexibility to use TPA funds to meet the unique needs 
        of their individual communities, they are the main resources 
        for tribes to exercise their powers of Self-Determination and 
        Self-Governance (SG). We respectfully urge the subcommittee to 
        provide at least a 10 percent ($82.9 million) ``general 
        increase'' more than the fiscal year 2010 enacted level for TPA 
        in order to maintain these programs and services.
      CSC.--Provide a $50 million increase for the BIA to fully fund 
        CSC, including direct CSC and provide $5 million for the Indian 
        Self-Determination (ISD) Fund.
      The CSC are the key to Self-Determination for tribes. Full 
        funding of the CSC covers the fixed overhead costs that a tribe 
        must incur to operate a BIA program or facility as required 
        under the Indian Self-Determination and Education Assistance 
        Act. When the CSC is not fully funded, tribes are forced to 
        utilize limited direct program services dollars or tribal 
        resources to cover these shortfalls. Further, contract support 
        costs directly funds jobs--and those jobs directly enhance 
        services for education, law enforcement, and other essential 
        governmental services across Indian country. We respectfully 
        urge the subcommittee to fund these essential services and not 
        permit Indian agreements to remain the only Government 
        contracts that are not fully funded.
      Law Enforcement/Tribal Courts/Tribal Detention Facilities.--
        Provide $30 million more than fiscal year 2010 levels.
      Effective implementation of the recently enacted Tribal Law and 
        Order Act (TLOA) requires a commitment of resources if its 
        intended goals are to be fully implemented to address issues of 
        public safety and justice in Indian country. Increased and 
        targeted funding will support tribes in their implementation of 
        the TLOA. We respectfully urge the subcommittee to provide an 
        increase in funds for officer recruitment and training, tribal 
        courts and for tribal detention facilities operations and 
        maintenance.
      Education.--Provide $24.3 million to fully restore funding to 
        Johnson O'Malley (JOM).
      Investments in education for our Native children prepare our 
        youth for active and equal participation in our economic 
        systems as well as to help these students who have historically 
        been underserved to achieve their dream of going to college and 
        providing them with the skills to serve as future leaders. We 
        respectfully urge the subcommittee to restore funding for the 
        JOM Program which provides special and unique need as 
        determined through parent committees.
      Increase funding to the Office of Tribal Self-Governance (OTSG) 
        to fully staff the office for the increase of tribes entering 
        Self-Governance (SG).
                              ihs requests
    The President's fiscal year 2012 proposed increase for the IHS 
represents a significant increase of $571 million (14.1 percent) more 
than the fiscal year 2010 enacted level. This represents a positive 
step toward meeting the overwhelming $22.1 billion needed to bring 
parity in healthcare for the AI/AN. Last year, permanent 
reauthorization of the Indian Health Care Improvement Act (IHCIA) was 
included as part of the Patient Protection and Affordable Care Act 
(ACA). Effective implementation of the IHCIA requires an investment in 
Indian health to ensure that Indian healthcare delivery system is 
strengthened so that the AI/ANs and Indian health programs benefit from 
these reformed systems.
    We respectfully urge this subcommittee to hold Indian health 
program harmless and to protect and support the President's fiscal year 
2012 proposed increases for the IHS programs from budget roll-backs, 
freezes, and rescission. We offer the following additional 
recommendations:
      Fully Fund Current Services.--Provide $532 million for the IHS 
        and tribal pay costs, inflation, and population growth; 
        staffing for new/replacement facilities and healthcare 
        facilities construction previously approved plan.
      Mandatory costs increases are necessary to maintain the current 
        level of services. These ``mandatories'' are unavoidable and 
        include medical and general inflation, pay costs, and 
        population growth. Maintaining current services is a 
        fundamental budget principle. We respectfully urge the 
        subcommittee to provide an increase necessary to maintain the 
        current level of care.
      Contract Health Services (CHS).--Provide $118 million increase 
        for CHS.
      This increase of $118 million is a modest increase compared to 
        the estimated needs of $1 billion. At present, less than one-
        half of the CHS need is being met, leaving too many Indian 
        people without access to necessary medical services. We 
        respectfully urge the subcommittee to provide to address this 
        critical need.
      CSC.--Provide $122 million for the IHS to fully fund CSC.
      For fiscal year 2012, the estimated shortfall is $153 million. 
        Investing funds here is wise. No part of the IHS budgets is 
        more highly scrutinized than are the funds awarded under these 
        contracts. There is a transparency and accountability here that 
        is unrivaled in other government contracting work. Adequate CSC 
        funding assures that tribes have the ability to deliver the 
        highest-quality healthcare services to their members. We 
        respectfully urge the subcommittee to fund these essential 
        services and not permit Indian agreements to remain the only 
        Government contracts that are not fully funded.
      OTSG.--Increase $5 million to the IHS OTSG.
      As of 2011, there are 334 SG tribes managing approximately $1.4 
        billion in funding. This represents 59 percent of all federally 
        recognized tribes and 33 percent of the overall IHS funding. 
        The OTSG supports tribes operating programs under the Tribal 
        Self-Governance Amendments of 2000. The SG process serves as a 
        model program for healthcare reform implementation and builds 
        tribal infrastructures to provide quality services to the AI/AN 
        people. We respectfully urge the subcommittee to provide an 
        increase to provide for adequate implementation of this act.
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation
    My name is Charles Clement. I am the Chief Operating Officer of 
Southcentral Foundation (SCF) in Alaska. SCF is a tribal organization 
that compacts with the Secretary of Health and Human Services (HHS) 
under title V of the Indian Self-Determination Act (ISDA) to carry out 
various Indian Health Service (IHS) programs. In doing so, the SCF acts 
pursuant to tribal authority granted by Cook Inlet Region, Inc., an 
Alaska Native regional corporation designated by the Congress as an 
Indian tribe for purposes of ISDA activities. As my testimony reflects, 
we request that in fiscal year 2012 the Congress fully fund contract 
support cost requirements by $615 million, and that it also add $25 
million to forward-fund a small portion fiscal year 2013 joint venture 
staffing requirements.
    The SCF has carried out IHS programs under ISDA agreements for more 
than 25 years. In accordance with its compact with the HHS, the SCF 
currently provides medical, dental, optometric, behavioral health, and 
substance abuse treatment services to more than 45,000 Alaska Native 
and American Indian beneficiaries living within the municipality of 
Anchorage, the Matanuska-Susitna Borough, and nearby villages. The SCF 
also provides services to an additional 13,000 residents of 55 rural 
Alaska villages covering an area exceeding 100,000 square miles. To 
administer and deliver these critical healthcare services, the SCF 
employs more than 1,400 people.
    Today, I will focus my remarks on two issues, contract support cost 
funding and joint venture funding.
                  contract support cost (csc) funding
    The greatest impediment to the full performance of our self-
governance compact with the IHS has been the historic underfunding of 
our CSC. Since those costs are fixed, when the IHS fails to cover our 
contract support costs--despite a statutory mandate and a contract 
obligation to do so--the SCF has no choice but to cut positions, which 
in turn cuts services, and which in turn cuts down our billings and 
collections from Medicare, Medicaid, and private insurers (billings 
which would otherwise go into additional staff and services for our 
people).
    The reverse is also true, and it is proven: when CSC shortfalls are 
finally paid, the results are increased employment, increased services 
and increased collections leading to more employment and services. In 
fiscal year 2010, the President requested and the Congress approved an 
historic increase in ``contract support cost'' appropriations for 
fiscal year 2010, for which the SCF is deeply appreciative. Nationally, 
this increase (which totaled $116 million) cut down the current 
shortfall in CSC payments by about one-half. In a moment I will detail 
the advances the SCF has already made with the partial restoration of 
its CSC funds in fiscal year 2010.
    But before doing that I need to explain the costs that we are 
talking about. The majority of the SCF's CSC (about 80 percent) are 
comprised of fixed overhead costs that are determined by an indirect 
cost rate that is approved by the HHS's Division of Cost Allocation. 
The remainder of the SCF's CSC (about 20 percent) are set directly by 
the IHS through direct negotiations. Together, these are the fixed CSC 
that the SCF actually incurs, year in and year out, whether the IHS 
reimburses us or not. These costs are independently audited each year 
by certified public accountants, as required by law.
    Even though OMB circulars require that every agency must honor our 
Federal indirect cost rate, and despite the fact that the ISDA mandates 
that the IHS must add ``in full'' all CSC to the SCF's self-governance 
compact, in the past, the IHS has never fulfilled those obligations. 
Nor has the IHS ever met its obligation to inform the Congress mid-year 
of the amounts it owes the SCF in the current year, and the IHS has 
never requested supplemental appropriations from the Congress to 
address those contract shortfalls. Instead, the IHS has adopted a 
practice of issuing its contract shortfall reports 1 year late, long 
after the Congress can do anything about it through the supplemental 
appropriations process.
    So far as we have been able to determine, no other contractors are 
treated this way. The HHS, including the IHS, treats its contracts with 
Indian tribes--and only its contracts with Indian tribes--as if they 
were just grants. We provide a contracted service for a contracted 
price, but then the IHS only pays us what it thinks it can afford, and 
it never budgets enough in its annual appropriation to pay all of its 
contracts with all of the tribes.
    This practice must stop. In fiscal year 2012, the IHS should 
finally pay its contract obligations in full. The CSC line-item should 
be fully funded at $615 million, as the IHS's own calculations disclose 
is required in the IHS budget justification.
    It is said that CSC shortfalls are the necessary result of fiscal 
constraints. But as I have noted, neither the HHS nor any other Federal 
agency I know of ever uses that as a reason not to pay a Government 
contractor in full, whether the issue involves other IHS or HHS 
procurement contracts, or the Government's contracts to feed our troops 
overseas. Fiscal constraints are never a reason for a Government to 
renege on its contract obligations, and if they were no one could ever 
rely on the Government as a contracting party.
    Existing fiscal constraints should also not fall disproportionately 
on the tribally administered portion of the IHS system. On the one 
hand, when fiscal constraints lead the Congress to reduce program 
funding, the burden of that decision is shared equally between the IHS-
operated portion of the healthcare delivery system and the tribally 
operated portion of that same system. The tribe, like IHS, is then 
awarded a contract to operate a smaller program.
    But when budgetary constraints lead to insufficient contract 
support appropriations, tribes, and tribal organizations like the SCF 
shoulder the full brunt of the reduction, requiring the contracted 
programs themselves to be cut in order to make up the difference. All 
the while, parallel programs that remain under the IHS operation are 
entirely protected from those funding decisions.
    In effect, and in reality, underfunding CSC disproportionately 
balances budgetary constraints on the backs of tribal contractors, 
alone. It punishes the people served under those contracts by forcing 
reductions in contracted programs. If the Congress is going to cut 
budgets or limit budget increases, fairness demands that such actions 
occur in portions of the budget that are shouldered equally by the IHS 
and the tribes and tribal organizations.
    The SCF's CSC requirements reflect critical infrastructure, often 
mandated by the Congress. They include federally mandated costs such as 
annual independent audits, and they also cover items such as liability 
and property insurance, workers' compensation insurance, and payroll 
and procurement systems. We have to buy insurance. We need to make 
payroll. We have to purchase supplies and services, and track property 
and equipment. Given these fixed costs, when CSC are cut, the SCF has 
no choice but to make up the difference through staffing and service 
reductions. As a result, the shortfall has had a direct impact on 
employment--or rather, unemployment--in our area. Indisputably, CSC 
shortfalls mean lost jobs.
    At even a high estimate of $100,000 per average full-time 
equivalent employee, every $1 million loss in our CSC payments 
initially costs the SCF 10 jobs. In actuality, however, the impact is 
even worse, since the reduction in services also means a reduction in 
revenues from Medicare, Medicaid, and other third-party insurers and 
payers. Therefore, the true job loss for the SCF is more than 20 
positions.
    The SCF is one of the country's larger tribal healthcare 
contractors. In fiscal year 2008, the HHS failed to pay us roughly 40 
percent of our entire CSC requirement: $10.7 million. The impact of 
such a large shortfall on jobs was stunning, and it severely 
constrained our ability to meet the healthcare needs of the Alaska 
Native and American Indian population in our service area. The 
shortfall meant we could not hire doctors, nurse practitioners, home 
health workers, psychiatrists, mental health clinicians, dentists, 
dental hygienists, optometrists, pharmacists, and substance abuse 
counselors--and I could list many more. Things only got worse in fiscal 
year 2009, when the SCF lost another $12.8 million, again nearly 40 
percent of our CSC requirement.
    But the reverse is also true, and it is proven: when CSC shortfalls 
are reduced, more healthcare is delivered. Thanks to this 
administration's unprecedented support in fiscal year 2010, the SCF saw 
its CSC shortfall close last year by about $8.8 million. As a result, 
the SCF in fiscal year 2010 opened 97 positions to fill multiple 
healthcare provider teams and support staff. If the remaining shortfall 
were closed through appropriate HHS budget priorities, the SCF would be 
able to add another 50 positions that currently cannot be filled.
    The SCF applauds the President's proposal in fiscal year 2012 to 
narrow the nationwide gap by $66 million more than fiscal year 2010 
levels. That said, these sums are simply not even close to sufficient 
to cover either the current shortfall this year or the anticipated 
shortfall next year. For that reason, the SCF respectfully calls upon 
the Congress to provide $615 million in CSC funding for fiscal year 
2012, so that the HHS can finally honor these contracts in full.
    The administration has made bold and historic efforts to narrow the 
gap. Given the continuing recession and a persistent gap in Indian 
healthcare, now is the time to finally close it. Every tribe has 
contracts with the IHS to carry out some of the agency's healthcare 
services, and nearly every tribe is currently being penalized for 
taking that initiative. Closing the CSC gap will directly benefit 
nearly every Indian and Alaska Native community in the Nation that is 
served by the IHS.
                         joint venture funding
    The second issue I need to address concerns the many joint venture 
projects currently underway across the country in which several tribes 
and tribal organizations (including the SCF) have secured non-Federal 
financing to construct healthcare facilities to be operated by the 
tribes under self-determination or self-governance agreements, in 
exchange for a contractual commitment by the IHS to fund the staffing 
of those facilities once they are completed.
    The SCF is gravely concerned that insufficient continuing services 
appropriations will be available to fully staff the several joint 
venture projects that will come on line in fiscal year 2013, as well as 
the associated CSC requirements for running those facilities. As things 
stand, the IHS already commits to only staff these facilities at 85 
percent of full staffing. Without any CSC funding, that percentage will 
drop to 60 percent. Such an outcome will severely strain the ability of 
many tribes to provide effective care, to meet their debt service 
obligations, and to properly operate these facilities. Subcommittee 
instructions to the agency can help ensure that such consequences do 
not befall the joint venture program. Forward-funding a portion of 
these costs in fiscal year 2012 with $25 million (one-fifth of what 
will be required in fiscal year 2013) would be a sound management 
practice that would permit hiring to begin before we open our doors on 
October 1, 2012.
    Thank you for granting me the opportunity to testify on behalf of 
the SCF and the 58,000 Native American people we serve.
                                 ______
                                 
      Letter From Sonosky, Chambers, Sachse, Endreson & Perry, LLP
                                                       May 5, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.

Re: Testimonies from tribes and tribal organizations regarding contract 
        support costs in the fiscal year 2012 budget
    Dear Chairman Reed and Senator Murkowski: I write on behalf of the 
National Tribal Contract Support Cost Coalition to request that copies 
of the enclosed House testimonies be made a part of the Senate 
Committee's record on the fiscal year 2012 appropriation for Interior, 
environment, and related agencies.
    These testimonies are all directed to the enormous shortfall still 
remaining in the contractual duty of the Indian Health Service (IHS) to 
pay full contract support costs under its contracts awarded to tribes 
and tribal organizations operating Federal hospitals, clinics, and 
other healthcare programs for the IHS across Indian country. Although 
this subcommittee has been open to the administration's past requests 
for increased funding to address this binding contract obligation, the 
administration's $462 million fiscal year 2012 request is, by its own 
admission, a stunning $153 million short of the full amount needed to 
pay these contracts in full.
    The reasons supporting closing this gap in fiscal year 2012 are 
many, including:
  --the legal duty to pay these contracts under the law and the Supreme 
        Court's 2005 Cherokee Nation decision;
  --the effectiveness of these contracts in improving health while 
        producing local jobs and improved local governance;
  --failing to pay these federally determined fixed costs punishes 
        tribal contractors by compelling offsetting health program 
        reductions and layoffs; and
  --100 percent of contract support cost dollars go into tribal 
        healthcare--not one penny goes to the agency bureaucracy.
    But perhaps the greatest reason to pay the shortfall is that these 
fully performed contracts are the only contracts which the Federal 
Government sees fit to underpay, even after amendments and a Supreme 
Court decision declaring that these contracts are to be treated no 
differently than any other Federal contract.
    Although the enclosed testimonies vary widely, they all address 
this same fundamental problem. They represent the views, not only of 
national organizations like National Indian Health Board and National 
Congress of Indians, but also the specific views of more than 290 
tribes (individually or in tribal consortia) situated across the States 
of Washington, Idaho, Montana, Oregon, California, Nevada, Michigan, 
Wisconsin, Alaska, Oklahoma, and New Mexico.
    Thank you once again for the subommittee's special commitment to 
Indian healthcare, as well as the subommittee's specific commitment to 
correcting the injustice that these contract support cost shortfalls 
impose upon nearly all of the 565 tribes contracting with the IHS to 
operate Federal facilities or services in 35 States under the Indian 
Self-Determination Act.
            Sincerely,
                                           Lloyd B. Miller,
                                                           Partner.
                                 ______
                                 
 Prepared Statement of the SouthEast Alaska Regional Health Consortium
    I write as president of the SouthEast Alaska Regional Health 
Consortium (SEARHC) to urge that the subcommittee increase the Indian 
Health Service (IHS) requested appropriation for contract support cost 
(CSC) payments up to $615 million. This will permit the IHS to finally 
pay in full all of its contract obligations to SEARHC and the hundreds 
of other tribes and tribal organizations that operate IHS facilities 
across the United States.
    The SEARHC is an inter-tribal consortium of 18 federally recognized 
tribes situated throughout the southeast panhandle of Alaska. Our 
considerable service area encompasses more than 35,000 square miles, an 
area larger than the State of Maine. With no road system connecting our 
communities, the challenges to deliver healthcare are considerable.
    We meet this challenge through a network of community clinics and 
the Mt. Edgecombe Hospital, and our array of healthcare services 
includes medical, dental, mental health, physical therapy, radiology, 
pharmacy, laboratory, nutritional, audiology, optometry, and 
respiratory therapy services. In addition we provide supplemental 
social services, substance abuse treatment, health promotion services, 
emergency medical services, environmental health services, and 
traditional Native healing.
    We administer more than $42 million in IHS facilities and related 
programs and services. These are Federal services which we operate on 
behalf of the Federal Government through a self-governance compact and 
associated funding agreement.
    To carry out the Government's healthcare programs under this 
contract requires us to incur certain fixed costs, including a number 
of costs mandated by the Federal Government. These costs include 
substantial annual audit costs, insurance costs, and an array of 
administrative costs to operate our personnel and financial management 
systems.
    Virtually none of these CSC are covered in the direct service 
budget which the IHS contracts to pay under our funding agreement. This 
is because the IHS either does not incur these costs at all (in the 
case of audit expenses and insurance costs), or because the IHS 
receives resources to carry-out these functions from other portions of 
the IHS budget, other divisions of the Department of Health and Human 
Services, or even other departments of the Federal Government. Still, 
these are mandatory fixed costs which SEARHC must incur year in and 
year out, and for SEARHC these costs are set every year by the 
Department's Division of Cost Allocation.
    Decades ago SEARHC was required to accept a contract that did not 
provide for the payment of these CSCs. Over the years, however, the 
Congress amended the Indian Self-Determination Act to require that our 
full requirement for contract support costs be added ``in full'' to the 
negotiated budget for our direct services. Thus today, both the law and 
our compact and funding agreement require that CSC be added in full.
    But this has not happened. The IHS will not pay the full amount 
owed under our contract. In fact, we never know how much IHS is going 
to choose to pay us until our contract has already been fully 
performed. We really have no choice in the matter--our people depend 
upon us to provide healthcare on a continuing basis.
    No Federal agency should be able to simply declare unilaterally 
that it is not going to pay the full amount of a contract, and not tell 
the contractor how much it will actually be paid until the contract 
year is almost over. Yet that is what has been happening to SEARHC.
    In the last completed fiscal year (2010) SEARHC was underpaid 
approximately $2,761,000 in fixed CSCs. SEARHC has no tax base, and 
thus no way to make up for the difference other than to take resources 
that would otherwise support the delivery of services. Again, this is 
because CSCs are fixed and must be paid off the top. The result is a 
severe impact on our ability to fully discharge our contract and 
provide maximum care to our beneficiaries.
    Worst yet, the Government's conduct is simply wrong. So far as 
SEARHC has been able to determine, in no other area of Government 
contracting does an agency decide at the end of a year how much it is 
going to pay a contractor after it has already received the benefit of 
the bargain. The Government would never treat other Government 
contractors this way, and there is no excuse for the Government's 
treatment of tribal contractors, particularly given the mandatory 
language in the Indian Self-Determination Act which controls the award 
of our contract documents.
    The SEARHC is a member of the National Tribal Contract Support Cost 
Coalition (NTCSCC), and we fully endorse the NTCSCC's testimony. We 
call for full funding of CSCs in fiscal year 2012. It has been almost 7 
years to the day since the Supreme Court required that the Government 
honor its self-determination contracts and self-governance agreements 
with tribal healthcare providers; at long last we hope that the 
Congress will work with the administration to provide the funds 
necessary to meet that statutory and contractual commitment in full.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the tribal leadership and members of the Squaxin 
Island Tribe, I am honored to submit our funding priorities and 
recommendations for the fiscal year 2012 budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS). The fiscal 
year 2012 President's proposed budget presents a renewed opportunity 
for the U.S. Government to live up to the promises made to American 
Indians/Alaska Natives (AI/ANs) tribal governments. We want to thank 
this subcommittee for their long-standing support and urge your 
consideration of the following requests:
                        tribal-specific requests
    $1 million increase for Northwest Indian Treatment Center (NWITC) 
residential program in IHS.
                 regional requests and recommendations
    The Squaxin Island Tribe is actively involved in the collective 
Northwest Tribal efforts and supports the requests and recommendations 
of:
  --Northwest Portland Area Indian Health Board;
  --Affiliated Tribes of Northwest Indians; and
  --Northwest Indian Fisheries Commission.
     self-governance (sg) and national requests and recommendations
Bureau of Indian Affairs
    Tribal Priority Allocation (TPA) General Increase.--Provide $82.9 
million (10 percent increase over fiscal year 2010).
    Contract Support Costs (CSC).--Provide a $50 million increase for 
the BIA to fully fund CSC, including Direct CSC; and provide $5 million 
for the Indian Self-Determination (ISD) Fund.
    Increase funding to the Office of Tribal Self-Governance (OTSG) to 
fully staff the office for the increase of tribes entering SG.
IHS
    Fully Fund Current Services.--Provide $532 million for the IHS and 
tribal pay costs, inflation, and population growth; staffing for new/
replacement facilities and healthcare facilities construction 
previously approved plan.
    Contract Health Services (CHS).--Provide $118 million increase for 
CHS.
    CSC.--Provide $122 million for the IHS to fully fund CSC.
    OTSG.--Increase $5 million to the IHS OTSG.
    We support all requests and recommendations of the National 
Congress of American Indians and the National Indian Health Board.
                    squaxin island tribe background
    The Squaxin Island Tribe is located in southern Mason County, near 
Shelton, Washington in the 6th Congressional District. The tribal 
government and its economic enterprises constitute the largest employer 
in the county with more than 1,250 employees. The tribe is a signatory 
to the 1854 Medicine Creek Treaty and is a SG tribe. The tribe has a 
current enrollment of 1,017 and an on-reservation population of 426 
living in 129 homes. Squaxin has an estimated service area population 
of 2,747; a growth rate of about 10 percent, and an unemployment rate 
of about 30 percent (according to the BIA Labor Force Report).
                tribal specific requests justifications
    $1 million increase for Northwest Indian Treatment Center (NWITC) 
residential program in IHS.
    ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep Waters to 
the Light''--The NWITC has not received an adequate increase in its 
base IHS budget since the original congressional set-aside in 1993. An 
increase of $1 million would restore lost purchasing power and meet the 
need to add mental health and psychiatric components to treatment. This 
increase would allow the NWITC to continue its effective treatment of 
Native Americans.
    The Squaxin Island Tribe operates the NWITC located in Elma, 
Washington (6th Congressional District). The NWITC is a residential 
chemical dependency treatment facility designed to serve American 
Indians from tribes located in Oregon, Washington, and Idaho who have 
chronic relapse patterns related to unresolved grief and trauma. The 
NWITC is unique in its integration of tribal cultural values into a 
therapeutic environment for co-occurring substance abuse and mental 
health disorders.
    The NWITC has more than 15 years of experience providing 
residential treatment with culturally competent models and is 
accredited by the Commission on Accreditation of Rehabilitation 
Facilities (CARF), an international accrediting organization for 
behavioral health programs. The NWITC is also certified by Washington 
State Division of Alcohol and Substance Abuse (DASA) Division of 
Behavioral Health and licensed by the Department of Health.
    Approximately 180 clients are treated at the NWITC each year. In 
2009, the NWITC served 193 patients from 28 tribes. In 2009, the NWITC 
added intensive case management and crisis support to alumni in order 
to continue to promote positive outcomes for clients. Our base 
allocation in 1994 was $850,161. In 2010 it was $994,877. If value 
equity to the 1994 baseline were maintained, the 2010 allocation would 
have been $1,250,895. Despite funding challenges, the NWITC has 
continued to develop and deliver innovative, culturally appropriate 
services to meet increasingly complex demands.
    Let me share just one of the many NWITC success stories: X came 
into treatment referred by a tribe on the Kitsap Peninsula. He came 
pressured by court, but did not believe he could change--nor did he 
really want to. While in treatment his spirit awakened and he came to 
believe in a different possibility. He is now a chemical dependency 
counselor. He writes each year on the anniversary of his admission to 
thank us for his changed life. He sends pictures of the children he is 
raising and tells us their lives are also changed.
    It is critical to increase the NWITC's annual base allocation from 
IHS in order to sustain the current services to the tribes of the 
Northwest. We respectfully request the subcommittee to increase the 
annual base allocation for the NWITC by an additional $1,000,000 to 
guarantee that patients can be admitted based on need, not State 
funding streams, and that culturally infused, integrated, and 
comprehensive treatment services and recovery support services will be 
maintained.
                sg and national requests and priorities
    Squaxin Island was 1 of the first 30 tribes in the Nation to enter 
into a Self-Governance Compact with the Federal Government. Today, the 
tribe establishes its own priorities and budgets for funds previously 
administered by the BIA and the IHS. In order to effectively carry out 
the transfer of Federal activities to tribes under the Indian Self-
Determination and Education Assistance Act, we respectfully request 
this subcommittee to protect and support the President's fiscal year 
2012 proposed increases for Indian Affairs programs and to support the 
following additional program increases:
      TPA General Increase.--Provide $82.9 million (10 percent increase 
        more than fiscal year 2010) for general increase. TPA is one of 
        the most important funding areas for tribal governments. It 
        covers such needs as scholarships and higher education funding, 
        human services, economic development, and natural resources 
        management. This funding has steadily eroded due to inflation 
        and population growth. The effects of rising costs of travel, 
        equipment, supplies, and purchased services have been 
        compounding for years while the Native American population has 
        increased at 1.6 percent per year. Since tribes have the 
        flexibility to use TPA funds to meet the unique needs of their 
        individual communities, they are the main resources for tribes 
        to exercise their powers of Self-Determination and Self-
        Governance. We respectfully urge the subcommittee to provide at 
        least a 10 percent ($82.9 million) ``general increase'' more 
        than the fiscal year 2010 enacted level for TPA in order to 
        maintain these programs and services.
      CSC.--Provide $50 million increase for BIA to fully fund CSC, 
        including Direct CSC; and provide $5 million for the ISD Fund. 
        Contract support costs are the key to Self-Determination for 
        tribes. Full funding of CSC covers the fixed overhead costs 
        that a tribe must incur to operate a BIA program or facility as 
        required under the Indian Self-Determination and Education 
        Assistance Act. When CSC is not fully funded, tribes are forced 
        to utilize limited direct program services dollars or tribal 
        resources to cover these shortfalls. Further, CSC directly 
        funds jobs--and those jobs directly enhance services for 
        education, law enforcement, and other essential governmental 
        services across Indian country. We respectfully urge the 
        subcommittee to fund these essential services and not permit 
        Indian agreements to remain the only Government contracts that 
        are not fully funded.
      Increase funding to the OTSG to fully staff the office for the 
        increase of tribes entering SG.
                              ihs requests
    The President's fiscal year 2012 proposed increase for the IHS 
represents a significant increase of $571 million (14.1 percent) more 
than the fiscal year 2010 enacted level. This represents a positive 
step toward meeting the overwhelming $22.1 billion needed to bring 
parity in healthcare for AI/ANs. Last year, permanent reauthorization 
of the Indian Health Care Improvement Act (IHCIA) was included as part 
of the Patient Protection and Affordable Care Act (ACA). Effective 
implementation of the IHCIA requires an investment in Indian health to 
ensure that Indian healthcare delivery system is strengthened so that 
AI/ANs and Indian health programs benefit from these reformed systems.
    We respectfully urge this subcommittee to hold Indian health 
program harmless and to protect and support the President's fiscal year 
2012 proposed increases for IHS programs from budget roll-backs, 
freezes, and rescission. We offer the following additional 
recommendations:
      Fully Fund Current Services.--Provide $532 million for the IHS 
        and tribal pay costs, inflation, and population growth; 
        staffing for new/replacement facilities and healthcare 
        facilities construction previously approved plan. Mandatory 
        costs increases are necessary to maintain the current level of 
        services. These ``mandatories'' are unavoidable and include 
        medical and general inflation, pay costs and population growth. 
        Maintaining current services is a fundamental budget principle. 
        We respectfully urge the subcommittee to provide an increase 
        necessary to maintain the current level of care.
      CHS.--Provide a $118 million increase for CHS. This increase of 
        $118 million is a modest increase compared to the estimated 
        needs of $1 billion. At present, less than one-half of the CHS 
        need is being met, leaving too many Indian people without 
        access to necessary medical services. We respectfully urge the 
        subcommittee to provide to address this critical need.
      CSC.--Provide $122 million for the IHS to fully fund CSC. For 
        fiscal year 2012, the estimated shortfall is $153 million. 
        Investing funds here is wise. No part of the IHS budgets is 
        more highly scrutinized than are the funds awarded under these 
        contracts. There is a transparency and accountability here that 
        is unrivaled in other government contracting work. Adequate CSC 
        funding assures that tribes have the ability to deliver the 
        highest-quality healthcare services to their members. We 
        respectfully urge the subcommittee to fund these essential 
        services and not permit Indian agreements to remain the only 
        Government contracts that are not fully funded.
      OTSG.--Increase $5 million to the IHS OTSG. As of 2011, there are 
        334 SG tribes managing approximately $1.4 billion in funding. 
        This represents 59 percent of all federally recognized tribes 
        and 33 percent of the overall IHS funding. The OTSG supports 
        tribes operating programs under the Tribal Self-Governance 
        Amendments of 2000. The SG process serves as a model program 
        for healthcare reform implementation and builds tribal 
        infrastructures to provide quality services to AI/AN people. We 
        respectfully urge the subcommittee to provide an increase to 
        provide for adequate implementation of this act.
    On behalf of the Squaxin Island Tribal Council and tribal members, 
thank you for this opportunity.
                                 ______
                                 
      Prepared Statement of the Santa Monica Mountains Conservancy
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of LWCF in fiscal year 2012. The proposed $900 
million is the congressionally authorized amount for the program and 
seeks to renew focus on the promise of the LWCF: that it is right and 
wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended, and authorized, use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
National Park Service (NPS) included $3.044 million for the acquisition 
of land in the Santa Monica Mountains National Recreation Area in 
California in the President's budget. I am pleased that this funding 
was included in the request and urge the Congress to provide the full 
President's budget amount for LWCF so that this important area can 
receive this needed funding.
    Southern California is 1 of only 5 locations in the world that 
feature the Mediterranean biome. Characterized by mild, rainy winters 
and warm, dry summers, the biomes (geographically limited ecosystems) 
are moderated by the windward presence of cold ocean currents offshore. 
The landscapes in these areas are noted for the evergreen shrublands, 
called chaparral in California, that host very diverse, but spatially 
limited, ecosystems of flora and fauna. These Mediterranean biomes also 
present attractive climates for human habitation, leaving the 
ecosystems highly threatened by development. Protecting undeveloped 
lands in these fragile ecological areas has become especially urgent in 
the burgeoning Los Angeles metropolitan area.
    The Santa Monica Mountains National Recreation Area was established 
in 1978 to protect land in the mountains northwest of the Los Angeles 
basin. In creating this park, the Congress noted the region's important 
scenic, recreational, and historic resources, as well as the public 
health benefits from protecting lands in the Santa Monica Mountains. In 
addition to NPS lands, a number of State-owned lands, including Point 
Mugu, Leo Carrillo, Malibu Creek, and Topanga State parks and several 
State beaches, are located within the boundaries of the national 
recreation area. Millions of people visit the Santa Monica Mountain's 
each year exemplifying its importance and significance to the 
surrounding communities and beyond.
    Within the Santa Monica Mountains are the Zuma and Trancas Canyons. 
The perennial streams running through these canyons give rise to an 
abundance of animal and plant life. Ecologically important, the canyons 
have been inhabited for more than 10,000 years. Ancestors of the 
Chumash Indians gathered food and found shelter in the canyons, which 
were later included in a Spanish land grant of 13,330 acres and became 
Rancho Topanga Malibu Sequit. Eventually the Pacific Coast Highway 
crossed the land, making its beauty accessible to travelers. Most of 
this land is now under NPS ownership, protecting its multitude of 
natural and historic resources.
    The NPS at Santa Monica has identified a number of properties for 
future acquisition, and it is important for NPS to continue the 
acquisition and protection of these ecologically, recreationally, and 
archeologically important scenic lands. The President's fiscal year 
2012 Budget recommendation of $3.044 million through the LWCF, if 
combined with funds made available in fiscal year 2011, will permit the 
acquisition of extremely important lands in and near the Zuma/Trancas 
Canyons.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in California, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
            Prepared Statement of the Shoshone-Paiute Tribes
    My name is Robert Bear. I am the chairman of the Shoshone-Paiute 
Tribes of the Duck Valley Indian Reservation. Our 290,000-acre Duck 
Valley Reservation straddles Idaho and Nevada. I, together with a six-
member business council, oversee tribal government operations for our 
more than 2,500 enrolled members. I am testifying to respectfully urge 
the subcommittee to fully fund tribal contract support cost (CSC) 
requirements in fiscal year 2012 ($615 million for the Indian Health 
Service (IHS) and $225 million for the Bureau of Indian Affairs (BIA)), 
and to support the administration's request for $6 million to fund our 
water settlement in fiscal year 2012.
    The Shoshone-Paiute Tribes face challenging conditions in an 
extremely remote area. While farming and ranching continue to be our 
primary businesses, our members struggle to make ends meet. The 2005 
BIA Labor Force Statistics show that our members who reside in the 
Idaho portion of the reservation suffer an unemployment rate of 79 
percent, while those who reside on the Nevada portion suffer an 
unemployment rate of 64 percent. For those tribal members fortunate 
enough to be working, 51 percent still live below the poverty level. 
From our Owyhee Community Health Facility, to our housing program, to 
the other programs the tribes operate under our title IV and title V 
self-governance (SG) compacts, conditions remain tough for our members.
    Without the requested CSC increase, the Shoshone-Paiute Tribes will 
continue to suffer contract underpayments from the Government of 
$450,078 under our IHS compact and $145,026 under our BIA contract, 
together equivalent to 11 positions in healthcare, public safety, roads 
safety, housing, and other essential governmental services. Given not 
only our precarious local economy, but also the Government's legal 
obligations to our tribes, this is not acceptable.
    Every $1 that BIA and IHS withhold in owed CSC funding means a $1 
less in direct program services that we can spend on our members. It 
means staff vacancies for healthcare and social programs that our 
members so desperately need and deserve, and which they would receive 
were the Government still running these programs. From fiscal year 2007 
through fiscal year 2010 these two agencies will have shorted us by 
more than $2 million--monies that the agencies were required to pay us, 
but did not pay us, under our SG contracts.
    CSC shortfalls cost jobs is shown by what happened last year when 
the shortfall was partially reduced, thanks to this subcommittee's and 
the President's commitment. When IHS reduced our shortfall by $224,225, 
we added four jobs, including two medical coders and a clerk/voucher 
examiner (all to strengthen our third-party collections from Medicare, 
Medicaid, and other third-party payers), plus a security guard. These 
are all good paying and vitally needed jobs that will now be permanent.
    Our experience last year proves that reducing the CSC shortfall 
really does restore jobs that were lost on account of the historic 
shortfall.
    CSC shortfall amount may be just another number to BIA and IHS 
officials who have long neglected their contractual obligations to 
tribes. But I know it means more to this subcommittee and this 
Congress. For us, these shortfalls mean not only lost jobs but a youth 
lost in the criminal justice system, or a diabetic elder who is turned 
away from needed counseling or denied prescriptions, or billings that 
go uncollected because we haven't the staff to pursue valid claims.
    It also means a stop in forward progress toward greater self-
determination, and instead continued dependence on BIA.
    For instance, in 2008, we entered into an agreement with the 
Federal Highway Administration (FHWA) to assume the Indian Reservation 
Roads program serving the Duck Valley Reservation. We also notified BIA 
of our intent to assume the BIA Road Maintenance program. Our plan was 
to consolidate transportation planning, design, construction and 
maintenance under tribal administration. The only problem was that the 
prior administration would not provide required CSC. If we took over 
the BIA Road Maintenance Program in 2008, the BIA told us we'd have to 
divert program funds to pay for our insurance, audit and other CSC.
    Had we been able to go forward, we would decide which roads to 
repair. We would coordinate with the Elko County School District to 
ensure that bus routes remain open during bad weather. We would be in 
charge of improving road safety on our reservation for our own people 
and our neighbors. We would employ our own members who need the work 
and can do the work.
    Mr. Chairman, the Shoshone-Paiute Tribes cannot subsidize BIA- and 
IHS-funded programs. We simply haven't the means to do so. Besides, it 
is both wrong and illegal under the Indian Self-Determination Act to 
shortchange the tribal governments that offer to administer the 
Government's programs and that take those programs off of the 
Government's hands. We even secured a Supreme Court victory that says 
so in Cherokee Nation and Shoshone-Paiute Tribes v. Leavitt (2005). But 
until this subcommittee provides the necessary funds to meet those 
obligations, we will continue to see our contracts breached year in and 
year out.
    As for the remainder of the President's budget, we want to salute 
the President for honoring the Government's commitment in our water 
settlement by allocating $6 million in the budget for this purpose in 
fiscal year 2012. While we appreciate the need to slim down Government 
expenditures wherever possible, a settlement is a legally binding 
obligation which must be honored and paid. We thank the President for 
recognizing this, and the subcommittee for its support as well.
    Thank you for the honor of presenting testimony to this 
subcommittee on behalf of the Shoshone-Paiute Tribes of Idaho and 
Nevada.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    On behalf of the Standing Rock Sioux Tribe, I am pleased to submit 
testimony concerning the President's fiscal year 2012 budget for the 
Bureau of Indian Affairs (BIA) and Indian Health Service (IHS). I want 
to express my appreciation to this subcommittee for its strong support 
of Indian tribes. I would like to focus my remarks on education, public 
safety, healthcare, and infrastructure.
    The Standing Rock Sioux Tribe is situated in North Dakota and South 
Dakota. The reservation comprises 2.3 million acres, including 1.4 
million acres of trust land owned by the tribe or tribal members. About 
10,000 tribal members and nonmembers reside on the reservation in eight 
communities and in smaller towns. The tribe's primary industry is 
cattle ranching and farming. We are remote, rural Indian reservation.
    As the Congress addresses the needs of the Indian country in light 
of the budget deficit, I would urge you to consider three fundamental 
questions. First, what is the impact of funding Indian programs on 
jobs? While Indian tribes like Standing Rock are often among the 
largest employers in their areas, unemployment in Indian country 
remains at levels that are unimaginable elsewhere. Federal investments 
in education, public safety, and infrastructure in Indian country are 
crucial to providing jobs in these chronically high unemployment areas.
    Second, what kind of country are we? The Federal Government has a 
special trust obligation to Indian tribes arising from the 
Constitution, treaties, and other documents. Much has been promised to 
Indian tribes in return for the loss of our lands. Are we a country 
that keeps its promises? Maintaining needed funding for programs aiding 
Indian country is one way to demonstrate the integrity of the United 
States in honoring its commitments.
    Third, is it fair to limit the debate on the budget to only 
discretionary spending? Certainly not. The only way to fairly address 
the budget deficit is to put everything on the table. Social security, 
Medicare, tax reform, and other key issues need to be included. It is 
simply not right to undermine necessary programs for Indian country, 
while the major reasons for the budget deficit remain unaddressed. With 
these questions in mind, we turn to Standing Rock's specific 
recommendations.
    In the 19th century, the Sioux Nation ceded millions of acres of 
land to the United States. But as recently as the 1950s, the United 
States Army Corps of Engineers flooded more than 56,000 acres of prime 
tribal farmland on the Standing Rock Sioux Reservation to create the 
Oahe Dam to increase navigation along the lower Missouri River and to 
provide cheap hydro-electric power to the north-central United States. 
Tens of millions of Americans benefit from the Oahe Dam, but it brought 
great hardship to our tribe. These hardships continue to this day.
    The Oahe Dam devastated our tribe. It displaced more than 25 
percent of our reservation's population. We lost our best farmland and 
are still working to reclaim irrigable lands on our reservation. The 
creation of Lake Oahe further isolated our reservation. It established 
over a 100-mile transportation barrier from Bismarck, North Dakota to 
Mobridge, South Dakota, where the first bridge crossing over the 
Missouri River south of Bismarck is located. Our rural location and 
lack of infrastructure (roads, safe drinking water, sewers, and 
electricity) contribute to the economic challenges our tribe faces. But 
working in partnership with the United States and our neighbors, we can 
turn challenges into opportunities for economic growth and job 
creation.
    The tribe is working steadily to expand opportunities for economic 
development to provide jobs for our members and improve the standard of 
living on our reservation. We operate the Standing Rock Farms, a Parts-
on-Demand operation, two modest tribal casinos, and a sand and gravel 
operation which helps us supplement services and programs for our more 
than 14,000 enrolled members. A few retailers also operate businesses 
on our reservation. Despite the measures we are taking at the local 
level to improve living conditions on our reservation, we have 
persistent unemployment above 50 percent, and a high dropout rate among 
our high school students. More than 40 percent of Indian families on 
our reservation live in poverty. Yet, the administration has proposed 
cutting discretionary spending for the BIA by $118.9 million or 4.5 
percent more than the fiscal year 2010 enacted level.
    Education.--Native Americans are poorly represented in colleges 
across the country. Investment in Indian education--at every level--is 
critical to the future success of our children.
    Scholarships and Adult Education (+$32 Million).--I recommend that 
the Congress double the funding for the BIA Scholarship and Adult 
Education Program by $32 million. Our tribe has provided $3 million in 
tribal funds over 3 years to support a scholarship program to provide 
more than 300 students with grants of between $3,000-$3,500/semester 
which allow them to pursue degrees from accredited colleges, 
universities, and vocational schools. The BIA financed scholarships 
total about $500,000 per year. This meets 25 percent of our need. The 
adult education component enables adults to obtain their GED or the 
required skills needed to transition to a community college or job 
placement.
    United Tribes Technical College (UTTC).--I urge the subcommittee to 
fully fund the UTTC, which is an exceptional institution that serves 
many of our tribal members and provides a sound education.
    Johnson O'Malley Act (JOM) (+$11 Million).--I urge the Congress to 
increase funding for the JOM program to $24.3 million to address the 
unique educational and cultural needs of Native children attending 
public schools (an increase of $11 million above the administration's 
request). The JOM was funded at $24 million in 1994. The JOM is a 
critical program that fully involves local communities and Native 
parents in the education of our children.
    Public Safety Needs.--Living conditions on Standing Rock are 
difficult. According to recent Federal statistics (2010), more than 
1,163 reservation households on Standing Rock had family incomes 
between 30 percent-80 percent of median family income in the area. On 
the North Dakota portion of our reservation (Sioux County, North 
Dakota), the median family income is $27,473. This figure is 57 percent 
of North Dakota's overall median family income of $47,898. On the South 
Dakota portion of our reservation (Corson County, South Dakota), the 
median family income is $27,591. This figure is about 59 percent of the 
South Dakota average median family income of $46,244. On Standing Rock, 
485 households, or 42 percent of our least well off households, earn 30 
percent of median family income.
    We have far too few BIA public safety officers patrolling our eight 
districts and small communities on our 2.3 million acre reservation. 
Police officers in Indian country are our primary first responders. The 
BIA equipment and technology are outdated, including police cruisers, 
radios, and communications infrastructure. We do not have access to 
computerized law enforcement statistics.
    In the spring and summer of 2008, following the deaths of several 
tribal members, at our request and with the help of our congressional 
delegation, the BIA began ``Operation Dakota Peacekeeper'' as part of 
the Department of the Interior's Safe Indian Communities initiative to 
reduce crime, target illegal drug activities, and provide much needed 
investigative support to prosecute domestic violence and crimes against 
children. A total of 56 BIA officers were detailed from their 
reservations to Standing Rock over a 7-month period.
    Operation Dakota Peacekeeper more than quadrupled our normal BIA 
police force. Before the surge, we had only 10 BIA public safety 
officer positions filled. This was enough for two officers per 24-hour 
shift to patrol a 2.3 million acre reservation encompassing four towns, 
eight separate communities, 2,500 miles of roads, and a population of 
10,000 residents. The public safety surge was an overwhelming success. 
Tribal elders felt safe in their homes and began to leave their doors 
unlocked and windows open at night. It also highlighted the glaring 
need for greater numbers of patrol and other public safety personnel on 
our reservation.
    The Congress enacted and President Obama signed the Tribal Law and 
Order Act (TLOA) in law which creates a number of important mandates to 
strengthen tribal courts and justice systems.
    Criminal Investigations and Police Services (+25 Million).--In 
order for the administration to fully implement the TLOA and to address 
the shortfall of more than 1,800 police officers in Indian country 
cited in a 2006 GAP report, we encourage the Congress to increase 
funding for criminal investigations and police services to $215 
million, or $25 million more than the 2.2 percent increase ($4.2 
million) proposed by the administration above the fiscal year 2010 
enacted level of $185 million.
    Detention/Corrects (+$15 Million).--Until the BIA addresses the 
shortages of corrections officers cited in the 2006 GAP report and to 
implement requirements of the TLOA, we recommend that the Congress 
increase funding for BIA-funded detention/corrections by $15 million 
above the administration's proposed budget of $85 million.
    Tribal Courts (+$20 Million).--We urge the Congress to increase the 
modest funding of $25 million appropriated for the Tribal Courts 
Program. Our tribe cannot effectively carry out criminal proceedings, 
let alone civil cases, with our small BIA allocation, even when heavily 
subsidized by the tribe. Our tribal courts are crowded, cramped and 
outdated and limit our ability to administer a comprehensive criminal 
justice system on the reservation.
    Facilities, Operation, and Maintenance (+$5 Million).--We urge the 
Congress to add an additional $5 million to the BIA-funded public 
safety and justice's facility, operation and maintenance budget of 
$13.7 million. Adequate maintenance and repair is essential to extend 
the useful life of facility infrastructure and make needed repairs 
until Indian tribes can invest in adequate infrastructure for tribal 
courts, police stations, and detention facilities.
    Healthcare.--The majority of our tribal elders continue to suffer 
from diabetes, heart disease, and hypertension. Accidents are the 
leading cause of death among our members. On the North Dakota portion 
of our reservation, 6.6 percent of our tribal members are age 65 and 
older. In North Dakota generally, 14.7 percent are age 65 and older 
(more than double our figure). On the South Dakota portion of our 
reservation, 9.6 percent of our tribal members are age 65 and older. In 
South Dakota generally, this figure is 14.5 percent, more than 50 
percent higher than on our reservation. More is needed to serve our 
elders properly. All our members deserve the opportunity to live full 
and productive lives and compete successfully in today's global 
economy.
    We are pleased to see the administration acknowledge the large 
health disparity that exists between Native Americans and the rest of 
the population. The fiscal year 2012 funding of $4.166 billion for IHS 
services is recognition that Indian country still has a long way to go 
to improve the health of our members. Far too many of our members live 
with debilitating diseases and illnesses that shorten their lives. We 
urge the subcommittee to protect the administration's proposed increase 
of $508 million above the fiscal year 2010 enacted level for IHS 
services, which includes an increase of $89 million for Contract Health 
Services (CHS) and $63 million for Contract Support Costs. On Standing 
Rock, many members go without needed healthcare services each year 
because of inadequate CHS dollars. The proposed increases will better 
enable tribes and the IHS to implement provisions in the permanent 
extension of the Indian Health Care Improvement Act that are designed 
to redress health disparities in Indian country.
    Taking Care of Existing Infrastructure Needs (+$75 Million).--I 
strongly oppose the $1 million cut the administration has proposed for 
the BIA Road Maintenance Program and the flat line funding this program 
has received over the last 20 years. The decision to underfund this 
program will cost taxpayers millions of dollars as tribes and the BIA 
must reconstruct roads far sooner due to poor road maintenance. With 
inadequate routine maintenance, roads which should last 20 years, last 
only 7-10 years. Limited to $25 million, tribes operating the Road 
Maintenance Program cannot tackle the large backlog of deferred road 
maintenance needs that make our roads and bridges unsafe and impede 
travel on our reservations. We invested $26.5 million, which we 
borrowed from Wells Fargo, to reconstruct nearly 20 miles of community 
streets. We installed sidewalks, curbs, gutters, and street lights 
throughout the reservation for the first time. We are struggling to 
maintain that investment because we expend most of our Road Maintenance 
Program funds during the winter months to pay for snow removal (labor, 
fuel, salt, sand, truck repairs, truck rentals, etc.) and to respond to 
other road emergencies such as floods.
    Lack of adequate funding for the Road Maintenance Program and new 
construction (Indian Reservation Roads/Bridges Program) undermine our 
ability to achieve every major program priority we have (public safety, 
healthcare, education, housing, and economic development). All of these 
programs depend on and require a modern infrastructure. Road 
Maintenance is a public safety program. Poor road conditions contribute 
to the unacceptably high levels of serious injury and death on Indian 
reservation roads each year. We urge the Congress to appropriate $100 
million annually for the Road Maintenance Program so that we can better 
maintain our road systems.
    Economic Development.--We urge the Congress to appropriate $5 
million for the BIA's Office of Indian Energy and Economic Development 
to help tribes build their reservation economies. Increased 
appropriations will allow this program to more effectively serve 
reservations to promote job creation and economic development we so 
badly need.
    Thank you for providing our tribe the opportunity to present 
testimony.
                                 ______
                                 
               Prepared Statement of the Sawtooth Society
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, Environment, and Related Agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of LWCF in fiscal year 2012. The proposed $900 
million is the congressionally authorized amount for the program and 
seeks to renew focus on the promise of the LWCF: that it is right and 
wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf (OCS) revenues, not taxpayer dollars, these funds 
should go to their intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
U.S. Forest Service (USFS) included $3.5 million for the Salmon-Selway 
Initiative in Idaho in the President's budget. Furthermore, USFS ranked 
this initiative as the second-highest LWCF priority in the country. I 
am pleased that this funding was included in the request and urge the 
Congress to provide the full President's budget amount for LWCF so that 
this important project can receive this needed funding.
    Located in central Idaho, the Salmon-Selway ecosystem, totaling 
almost 4 million acres, is one of the largest and wildest habitats in 
the continental United States. A rugged complex of mountains, rivers, 
and forests, it includes the Selway-Bitterroot and the Frank Church-
River of No Return wilderness areas, five national forests, numerous 
rivers, and the Sawtooth National Recreation Area. The area provides 
unique habitats critical for fish and wildlife including threatened and 
endangered species such as Chinook salmon, steelhead trout, bull trout, 
bald eagle, lynx, and gray wolves. Each year in late summer, salmon and 
steelhead trout return to the high reaches of the Salmon and Clearwater 
rivers, traveling 900 miles and climbing 7,000 feet from the Pacific 
Ocean to the mountain tributaries of their birth--the highest salmon 
spawning grounds on earth.
    The Salmon-Selway Ecosystem also offers unparalleled public 
recreation opportunities for hunting, fishing, hiking, cross-country 
skiing, whitewater rafting and kayaking, camping, and bicycling. 
Funding from the LWCF in fiscal year 2012 will protect two key 
properties to help conserve the wild character of the region, ensure 
public access for recreation, and protect wildlife habitat and water 
quality.
      morgan ranch, middle fork of the salmon wild & scenic river
    Over the past decade, USFS has been working to protect key 
resources along the Salmon River and its tributaries by securing 
interests in critical inholdings from willing sellers. Some tracts have 
been conveyed into USFS ownership, and other properties have stayed in 
private ownership under conservation easements designed to maintain 
traditional uses while preventing incompatible development.
    The Middle Fork of the Salmon WSR is among the most renowned 
rafting destinations in the world, enjoyed by an estimated 10,000 
rafters every summer. Available for protection in fiscal year 2012 is 
phase II of the Morgan Ranch property, a 160-acre inholding on Sulphur 
Creek at the confluence with the Middle Fork of the Salmon Wild and 
Scenic River (WSR) corridor and within the Frank Church-River of No 
Return Wilderness. The Morgan Ranch property is located just 2.5 miles 
downstream from the Boundary Creek campground, a popular launch site 
for rafters and trailhead for the many hikers and equestrians who use 
the Middle Fork Trail. Rafters from the Boundary Creek put-in, 1 of 2 
main launching sites along the Middle Fork, float right past Morgan 
Ranch on their way to the first rapids at Sulphur Slide.
    Apart from its scenic and recreational importance, Morgan Ranch is 
a significant resource for fish and wildlife. The valuable wetlands and 
riparian habitat along Prospect and Sulphur Creek drainages constitute 
about half the property and support a wide diversity of wildlife 
including gray wolf, wolverine, moose, elk, sandhill crane, bald eagle, 
mountain lion, and mule deer. Sulphur Creek provides significant 
spawning and rearing habitat for Chinook salmon, steelhead trout, and 
bull trout, all federally listed endangered species. The area drainages 
also support westslope cutthroat trout and provide critical habitat for 
the only remaining wild run of Chinook salmon on the Snake River 
system. A combination of fee and conservation easement acquisition of 
Morgan Ranch will ensure permanent protection of this sensitive 
property while eliminating the threat of incompatible backcountry 
development.
      rodeo grounds ranch, sawtooth national recreation area (nra)
    The Sawtooth NRA offers some of the finest and most renowned 
outdoor recreation in the world including fishing, white-water sports, 
hiking, Nordic skiing, and backcountry camping. Its mountains form the 
headwaters of six important rivers that feed the Snake River and offer 
vital habitat for area wildlife and four threatened and endangered 
salmonid species. More than 1,000 lakes and glacial tarns are also 
found inside the recreation area. With a proud ranching tradition 
stretching back for more than a century, traditional land uses have 
long been interwoven with the public values here, and stewardship of 
these natural and recreational assets has been outstanding. To protect 
the historic uses and compatible public recreation values of this 
remarkable landscape, the USFS has utilized LWCF appropriations dating 
back to 1972 to acquire conservation easements protecting some 17,000 
acres of private land within the national recreation area.
    Available for acquisition at the Sawtooth NRA in fiscal year 2012 
is a conservation easement on the 160-acre Rodeo Grounds Ranch. Located 
just 5 miles from the historic town of Stanley, the property is a well-
known and prominent component of the viewshed along Idaho Route 21--the 
Ponderosa Pine Scenic Byway--that connects the Sawtooth NRA to Boise. 
With substantial frontage on Valley Creek, a major Salmon River 
tributary, the ranch provides habitat for all four fish species listed 
as threatened or endangered in the Sawtooth NRA:
  --Chinook salmon;
  --sockeye salmon;
  --bull trout; and
  --steelhead.
    USFS has identified Valley Creek as one of the most important 
tributaries in the Upper Salmon River watershed for the recovery of the 
Chinook salmon, especially for rearing and spawning habitat.
    The conservation easement on Rodeo Grounds Ranch will allow for 
continued historic use and private ownership of the property, while 
conserving its natural values and recreational access by anglers to 
Valley Creek. This access would likely be lost if the property were to 
be developed, converted from existing use, or fragmented into smaller 
holdings. Moreover, incompatible development of this key Sawtooth 
gateway property would irreparably compromise a scenic landscape that 
draws hundreds of thousands of visitors each year. The easement will 
protect the historic ranch structures and the scenic landscape of the 
valley.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Idaho, and I appreciate your consideration of this 
funding request.
    The Sawtooth Society, formed in 1997, is a nonprofit and 
nonpartisan organization dedicated exclusively to:
  --serving as an advocate for the SNRA;
  --preserving open space in the SNRA; and
  --enhancing recreation facilities and services in the SNRA.
                                 ______
                                 
Prepared Statement of the St. Vincent National Wildlife Refuge, Florida
    Mr. Chairman and honorable members of the subcommittee: I, Landy 
Luther, am the current president of the Supporters of St. Vincent 
National Wildlife Refuge (NWR). Our organization was established to 
promote better understanding, appreciation, and conservation of the 
natural history and environment of St. Vincent NWR. Our goals are:
  --Increase the public awareness of the Refuge;
  --provide financial support to the Refuge; and
  --to support Refuge projects.
    We feel that our mission and goals are consistent with the 
acquisition of the property that is the subject of this testimony.
    I appreciate the opportunity to present this testimony in support 
of the Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of LWCF in fiscal year 2012. The proposed $900 
million is the congressionally authorized amount for the program and 
seeks to renew focus on the promise of the LWCF: that it is right and 
wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
U.S. Fish and Wildlife Service (FWS) included $1.35 million for the 
acquisition of land in St. Vincent NWR in Florida in the President's 
budget. I am pleased that this funding was included in the request and 
urge the Congress to provide the full President's budget amount for 
LWCF so that this important project can receive this needed funding.
    St. Vincent NWR encompasses a 12,500-acre undeveloped barrier 
island lying opposite the mouth of the Apalachicola River in the Gulf 
of Mexico. Located just off the Florida panhandle in western Franklin 
and Gulf counties, the island is 4 miles across at its widest point and 
9 miles long. This triangular island is larger and wider than most of 
the northern gulf coast barrier islands. Prior to becoming a refuge, 
St. Vincent NWR was used primarily as a private hunting and fishing 
preserve. Established in 1968, the refuge was originally intended as a 
sanctuary for waterfowl, the majority of which are resident wood ducks 
and migrating blue-winged teal. Since then, however, the refuge mission 
has been broadened to include the protection of habitat for endangered 
species and to provide a variety of recreational activities.
    St. Vincent NWR provides a sanctuary for a number of threatened, 
endangered, and recovering species. Loggerhead sea turtles come ashore 
to nest on the island's pristine beaches. Indigo snakes inhabit gopher 
tortoise burrows in the dunes. Wood stork and peregrine falcons stop on 
the island during their seasonal migrations, and bald eagles nest in 
the pines near the island's freshwater lakes and marshes. In 1990, St. 
Vincent became one of several Southeastern coastal islands where 
endangered red wolves are being bred. Once weaned, the wild pups raised 
here are taken to reintroduction sites such as Alligator River NWR in 
North Carolina. These solitary animals once roamed the Southeast, but 
predator control programs and habitat loss have decimated their 
populations.
    St. Vincent NWR serves as an important stop-off point in the Gulf 
of Mexico region for neotropical migratory bird species. Seaside 
sparrows nest in huge numbers and various other neotropical birds stop 
for food and shelter during spring and fall migrations. More than 260 
bird species have been logged on the refuge and Christmas bird counts 
by the Audubon Society typically include more than 100 species. 
Wildlife is attracted to the island's diversity of habitat types. Ten 
separate habitat types ranging from tidal marsh to scrub oak and pure 
stands of cabbage palm have been identified on the island. Plants on 
the island include 15 species that are listed as threatened by the 
State of Florida.
    Currently, the refuge staff travels to and from the undeveloped and 
uninhabited island using a boat that is docked on a mainland marina at 
Indian Pass. The dockage rights are subject to a month-to-month lease 
from a private landowner who has recently indicated an intent to sell 
and/or develop the property. Faced with the loss of this facility, the 
refuge staff must find another location to dock the boat, as it is 
critical for the management of the refuge to secure appropriate access 
to the island.
    Available for acquisition in fiscal year 2012 is the 3.21-acres 
Schoelles tract. Located close to the refuge's administrative offices 
in the city of Apalachicola, the site includes a boat ramp and marina 
to accommodate the refuge boat. Properties available for purchase with 
pre-existing facilities are rare in this area. It is very difficult to 
obtain permitting for new marinas and ramps in Florida, making this 
property prime for development if it is not obtained by the refuge. Not 
only will the property's existing wet-slip marina and boat ramp provide 
immediate access for the refuge staff's motorized boat, it will also 
allow future recreational access to nonmotorized boats such as canoes 
and kayaks.
    Conserving this property will prevent its development into a 
coastal residential subdivision. Limiting coastal development is 
critical to reducing the costs associated with storm and hurricane 
damage as well as to protecting the quality of adjacent waters. Bounded 
to the north by Highway 30A and to the south by St. Vincent Sound, the 
inclusion of the parcel within refuge boundaries would provide a small 
buffer zone along the sound, designated a Class II Florida Outstanding 
Waterway. St. Vincent Sound supports endangered species communities, 
important recreational and commercial fisheries, and sea grass beds 
that provide significant waterfowl habitat. The ecological significance 
of these waters is underscored by the fact that they are protected as 
part of the Apalachicola National Estuarine Reserve.
    A $1.35 million allocation from the LWCF in fiscal year 2012--as 
recommended by the President's budget--will maintain necessary access 
to St. Vincent Island for FWS staff; improve access to St. Vincent 
Sound for fishermen, oystermen, and recreational boaters; and protect 
additional natural resources along the mainland shore.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Florida, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
            Prepared Statement of the Travis Audubon Society
    On behalf of the Travis Audubon Society I would like to express my 
appreciation for this opportunity to submit our testimony. Travis 
Audubon urges you to complete the land acquisition for Balcones 
Canyonlands National Wildlife Refuge in Central Texas. As a first step 
toward that goal, we are requesting $5 million from the Land and Water 
Conservation Fund (LWCF) for 2012. Completing the Refuge is anticipated 
to cost approximately $87 million in today's dollars, so acting now is 
especially important for monetary reasons and because of the intense 
pressure from urban expansion that is occurring within the Refuge 
acquisition boundary.
    Given the devastating impacts to wildlife from the Deep Water 
Horizon oil spill, it seems very timely for the Congress to pass 
legislation to permanently fund the LWCF at $900 million. Created in 
1965 with monies from off-shore oil drilling receipts and authorized at 
$900 million per year, the LWCF is our most important land acquisition 
tool. More than 8 million acres are unprotected within existing refuge 
boundaries including approximately 22,000 acres within the Balcones 
Canyonlands Refuge acquisition boundary. This makes funding the LWCF 
more important than ever. Travis Audubon urges you to fully fund the 
LWCF and to appropriate $5 million of the $900 million for land 
acquisition at Balcones Canyonlands National Wildlife Refuge.
    Balcones Canyonlands Refuge, although 19 years old, is only 
slightly more than 50 percent complete. It is important to act now as 
time is a critical consideration in completing the Refuge. Because of 
the proximity of the Refuge to the Austin metropolitan area, urban 
expansion is a serious threat to habitat needed by the Refuge. There 
are already four real estate developments within the acquisition 
boundary of the Refuge and more are expected.
    An appropriation of $5 million will allow the U.S. Fish and 
Wildlife Service to acquire approximately 1,550 acres of prime habitat 
for Balcones Canyonlands Refuge. Two of the three tracts to be 
purchased are key Golden-cheeked Warbler habitat and the third is 
potential Black-capped Vireo habitat. Both of these birds are on the 
endangered species list, and habitat protection and management are 
critical to their survival. In addition, protection of the third tract 
will help preserve the ranching heritage of the Texas Hill Country. The 
$5 million appropriation will fund purchase of the 350-acre 3 Creeks 
Ranch (second phase of this acquisition), the Penn property, and 1,000 
acres of the Sunset Ranch, one of the last remaining large tracts of 
land with high-quality Golden-cheeked Warbler habitat left within the 
Refuge acquisition boundary. The rolling hills and steep canyons on 
this ranch provide nesting habitat for the Golden-cheeked Warbler and 
potential for Black-capped Vireo habitat management. The purchase of 
this large tract will also protect habitat for additional endemic 
species in the Hill Country as well as the unusual Karst topography of 
the Edwards Plateau. The ranch is situated near other Refuge property 
which makes it even more valuable as we attempt to protect large 
contiguous tracts of land. The properties have been appraised, and the 
sellers are willing. These acquisitions would be a significant step 
toward the long range goal of completing the Refuge. As mentioned 
earlier, acting now is particularly important, as the window of time is 
closing rapidly as a result of urban expansion, and the opportunity for 
protecting these species is at risk.
    Balcones Canyonlands Refuge is located in the Texas Hill Country 
northwest of Austin, Texas and resides in Burnet, Travis, and 
Williamson counties. The Refuge was formed in 1992 to conserve habitat 
of the endangered Golden-cheeked Warbler as a step towards recovery and 
eventual delisting of the species. In addition to the Golden-cheeked 
Warbler, the Refuge serves to protect the habitat of the endangered 
Black-capped Vireo and numerous other wildlife species.
    State-sponsored biological studies show that to stabilize and 
sustain these endangered songbirds, Balcones Canyonlands needs a total 
of 46,000 acres of habitat. It presently has some 23,000 acres. The 
Refuge augments a similarly named Preserve in Austin, comprised of 
nearly 30,000 acres and operated by the city and Travis County. The two 
parts were established for the same purpose and together are intended 
to provide habitat needed to enable recovery of these species.
    In addition to the recovery of these endangered species, Balcones 
Canyonlands Refuge is a source of eco-tourism for the surrounding area. 
Over the longer term, the Balcones Refuge is expected to become a major 
draw for birders interested in viewing the endangered Warbler and 
Vireo, for which this area provides unique habitat. The Refuge has been 
described as one of the Last Great Places by the Nature Conservancy and 
as an ``Important Bird Area'' by two national conservation groups based 
on its ``global importance'' to the endangered Warbler and Vireo.
    Also, Balcones Canyonlands offers central Texas a variety of 
recreational opportunities compatible with wildlife protection. Once 
completed, Balcones Canyonlands will be a step toward providing 
additional accessible public outdoor areas, identified as a critical 
need in a study by Texas Parks and Wildlife.
    The Travis Audubon Society is a nonprofit, bird conservation 
organization with more than 2,000 members and supporters. Our vision is 
to inspire conservation through birding, and our logo is the Golden-
cheeked Warbler. We were involved in the development of the Habitat 
Conservation Plan which created the Balcones Canyonlands Preserve in 
Travis County and the Balcones Canyonlands National Wildlife Refuge in 
Burnet, Travis, and Williamson counties. We care passionately about the 
Golden-cheeked Warbler and the Black-capped Vireo and about completing 
the Refuge which will protect critical habitat for these endangered 
songbirds. Because of all the reasons listed above, we strongly 
recommend that you set aside $5 million from the LWCF for Balcones 
Canyonlands Refuge for fiscal year 2012.
    In closing, thank you for considering our request of $5 million. 
Your actions in support of our request will significantly improve our 
chances for creating a fully functioning Refuge. We very much 
appreciate your attention to this matter and thank you for the 
opportunity to present this statement to the subcommittee.
                                 ______
                                 
 Prepared Statement of the Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.
    Mr. Chairman and members of the subcommittee: On behalf of the 162 
members of the Friends of the Tampa Bay National Wildlife Refuges, 
including Egmont Key National Wildlife Refuge (NWR), Passage Key NWR, 
and Pinellas NWR, I want to thank you for your leadership and strong 
support for the National Wildlife Refuge System (NWRS) through 
increased funding over the past few years. We realize that in this time 
of budget cuts, it may be difficult to justify increasing the NWRS 
funding, but once the refuge habitats start to decline it will cost 
many times more than these small increases to return them to a 
condition that will fulfill their mandates. I further thank you for the 
opportunity to offer comments on the fiscal year 2012 Interior, 
environment, and related agencies appropriations bill. We respectfully 
request that the subcommittee support the following:
  --Increase the funding levels to $511 million for fiscal year 2012 
        for the operations and management of the NWRS;
  --Fund $27 million for refuge revenue sharing;
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million;
  --Fund $20.2 million for Landscape Conservation Cooperatives (LCC) in 
        the U.S. Fish and Wildlife Service (FWS);
  --Fund $20 million for inventory and monitoring for refuges;
  --Fund $37 million for the NWRS construction account for large scale-
        restoration, visitor center, and energy-efficient projects;
  --Fund $80 million for NWRS visitors services;
  --Fund $39 million for refuge law enforcement;
  --Fund $5 million for the management of the new Pacific Marine 
        Monuments;
  --Fund $65 million for the FWS' partners for fish and wildlife 
        programs;
  --Fund $95 million for the State & Tribal Wildlife Grants programs;
  --Fund $50 million for the North American Wetlands Conservation Fund;
  --Fund $$6.5 million for the Neotropical Migratory Bird Fund;
  --Fund $8.4 million for Wildlife Without Borders; and
  --Fund 8.5 million for the National Fish & Wildlife Foundation in the 
        FWS's resource management general administration appropriation.
    The Cooperative Alliance for Refuge Enhancement (CARE) has 
determined that the NWRS needs a budget of at least $900 million 
annually in operation and maintenance (O&M) funding in order to 
properly administer its 150 million acres as mandated in the Refuge 
Improvement Act. The current budget is far short of the amount actually 
required to effectively operate and maintain the refuges. An $8 million 
increase more than fiscal year 2010 levels to $511 million for the 
fiscal year 2012 appropriation will allow the refuges to maintain 
status quo without drastic cuts. This is a reduced amount from the $526 
million that the NWRS actually requires just for O&M capabilities. In 
this time of tight budgets, we feel that an $8 million increase to $511 
would be appropriate and appreciated.
    The Tampa Bay Refuges (TBRs) are located at the mouth of Tampa Bay 
on the west central gulf coast of Florida. The budget increases in the 
past few years have meant increased management, protection, and 
restoration of the Refuges and the ability to better meet the 
Comprehensive Conservation Plan (CCP) goals. In 2008, the TBRs had one 
staff person who was split duty manager/law enforcement. It was very 
difficult for that one person to have the time to adequately manage the 
resources much less have time to patrol. Because of the incremental 
increases to the refuge budgets over the last few years, the TBRs have 
a full-time manager, a full-time law enforcement officer every weekend 
during the summer nesting season, and a Student Temporary Employment 
Program summer hire. Due to the past increases in budget and personnel 
the TBRs are able to do long-range planning for big-picture issues such 
as erosion and increased public use. With decreases in budget, these 
will fall by the wayside and the wildlife will have a degraded or 
useless habitat.
    Egmont Key NWR has the Fort Dade Guardhouse that has been restored 
and will make a great visitor center. Without funding, staff will not 
be sufficient to keep the center open to the public. This will 
compromise outreach and education goals for the TBRs. Even now with the 
incremental increases, the TBRs find themselves short of funds to keep 
up with invasive species and predators that threaten the wildlife that 
the refuge system is mandated to protect. With smaller budgets, there 
will also be less money for facilities maintenance which will then cost 
more to restore in the future. If the TBRs were to again lose ground on 
their budgets they would not be able to meet many of their CCP goals 
due to decreased staffing. Keeping the NWRS budget status quo with an 
increase to $511 million for fiscal year 2012 will keep the TBRs from 
losing too much ground.
    The LWCF was created in 1965 and authorized at $900 million. These 
funds are used for land acquisition to protect wildlife and their 
habitats. With the effects of a changing climate, it is more important 
now than ever to establish key wildlife corridors between protected 
areas so wildlife can migrate to more suitable habitat as their 
historic ones changes. The price of real estate is low at this time and 
the $900 million can go much further in protecting habitats than it can 
in a higher real estate market. When we start to lose species due to 
lack of food, water, shelter, or space, we are changing the balance of 
nature. The FWS is in the planning stages for the new Everglades 
Headwaters NWR and Conservation Area through the center of the State of 
Florida. Funding to set aside these critical lands is urgently needed. 
With the new legislations enacted in Florida, it is all too easy for 
developers to wipe out environmentally sensitive lands. We will lose 
the possibility of these wildlife corridors forever if the areas are 
developed. We urge you to pass legislation to permanently fund the LWCF 
at $900 million per year as it was originally authorized to give 
wildlife a shot at having suitable habitats as our climate changes. 
Funding refuge revenue sharing at $27 million will also allow FWS to 
offset loss of local taxes on lands put into conservation, making it 
affordable for communities to help set aside lands for wildlife.
    With the BP Deepwater Horizon oil spill still fresh in our minds, 
the Friends of the Tampa Bay NWR's are extremely aware of the necessity 
for wildlife inventory and monitoring. We urge you to appropriate $20 
million for inventory and monitoring on refuges. Without historic data 
on flora and fauna, we cannot see trends in numbers and species to know 
how to adjust management of the lands. When disaster strikes--like an 
oil spill--we need to know what is on the public lands in order to help 
protect species and claim for losses. Friends of the Tampa Bay NWR's 
volunteers have been providing Pinellas Refuges with monthly bird 
survey data for many years and have recognized trends in usage.
    Through partnerships including State & Tribal Wildlife Grants, the 
FWS is able to work together with the States to protect wildlife. This 
increases the amount of protection that can be afforded to wildlife. By 
funding the State & Tribal Wildlife Grants program at $95 million, you 
are helping fulfill the responsibility to keep our wildlife from 
becoming endangered or extinct.
    The North American Wetlands Conservation Acts grants will also help 
create space, clean water, food, and shelter for wildlife by acquiring 
and restoring critical wetlands. Funding of this program at $50 million 
in fiscal year 2012 will create additional habitat for wildlife. This 
partnership through acquisition and restoration of critical wetlands 
also improves water quality and carbon sequestration.
    The Friends of the Tampa Bay National Wildlife Refuges, a 501(c)3 
organization, is 1 of 230 Friends groups who support the NWRs. As 
Friends groups, we provide assistance to the NWRs through volunteer 
labor and education. In fiscal year 2010, there were more than 40,000 
friends and volunteers who provided services for the NWRS equal to 648 
full-time equivalents (FTE), saving taxpayers millions of dollars. The 
interest in our NWRS is significant and we are proving it with our 
donated time and funds. The administration's proposal to cut $2.3 
million from the visitor services budget will also decrease the amount 
of volunteer services that can be provided, causing an even greater 
impact to the refuges. We request $80 million appropriation for visitor 
services. Refuges are economic engines for the community. It is 
estimated that for each $1 the Congress spends towards a refuge, $4 is 
returned to the community in economic activity. Without volunteers, you 
lose many visitor services that fuel this economic activity.
    In conclusion, the Friends of the Tampa Bay National Wildlife 
Refuges believes the NWRS can meet its important conservation 
objectives only with strong and consistent funding leveraged by the 
valuable work of refuge staff and volunteers. We again extend our 
appreciation to the subcommittee for its ongoing commitment to our 
NWRS. We encourage you to approve a $511 million for the fiscal year 
2012 NWRS O&M budget managed by the FWS and to approve $900 million for 
fiscal year 2012 for the LWCF land acquisition budget, approve funding 
the State Wildlife Grants Program at $95 million and the North American 
Wetlands Conservation Act grants at $50 million, as well as the other 
important programs and projects outlined above. Each of these programs 
is an important part of keeping our planet healthy with a broad 
diversity of species.
                                 ______
                                 
      Prepared Statement of the Taos County Board of Commissioners
    Chairman and honorable members of the subcommittee: I appreciate 
the opportunity to present this testimony in support of the Land and 
Water Conservation Fund (LWCF) in the fiscal year 2012 Interior, 
Environment, and Related Agencies appropriations bill. In an historic 
embrace of conservation, the President's budget request includes full 
funding of the LWCF in fiscal year 2012. The proposed $900 million is 
the congressionally authorized amount for the program and seeks to 
renew focus on the promise of the LWCF: that it is right and wise to 
reinvest proceeds from offshore drilling receipts in the protection of 
natural resources and recreational access for all Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the LWCF will 
permanently pay dividends to the American people and to our great 
natural and historical heritage. As the LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
administration has included funds in the President's budget request for 
two projects in Taos County. The U.S. Forest Service (USFS) designated 
$3.442 million for the Miranda Canyon property in the Carson National 
Forest and the Bureau of Land Management (BLM) proposed $1 million for 
the acquisition of the Martinez property along the Rio Grande National 
Wild and Scenic River (WSR). I am pleased that this funding was 
included in the overall request and urge the Congress to provide the 
full President's budget amount for LWCF so that these important 
projects can receive this needed funding.
    The public lands in Taos County provide significant benefits to 
residents. The protected landscapes attract visitors from around the 
country who seek great open spaces, rushing river canyons, and abundant 
wildlife. This economic activity sustains our county, provides jobs, 
and makes Taos County a unique place to live, work, and visit. These 
lands also ensure water supply and quality. Development within 
forestlands burdens watersheds, fragments wildlife habitat, and places 
a strain on fire management. The landscapes also keep our western 
heritage in place and in view for all to see.
                 carson national forest--miranda canyon
    The 4,990-acre Miranda Canyon property is located 10 miles south of 
Taos on the spurs of Picuris Peak, a 10,801-foot mountain. There are 
also numerous meadows and riparian vegetation that provide excellent 
habitat for wildlife. The landscape has numerous ridges and peaks that 
provide breathtaking views of the Rio Grande Gorge to the west and of 
Wheeler Peak, the highest peak in New Mexico, to the north.
    The Miranda Canyon property holds significant recreational, 
economic, and historic value in the region. The property is crossed by 
popular hiking trails--one of which reaches the summit of Picuris Peak. 
These trails provide access to the adjacent Carson National Forest and 
increase opportunities for camping, hunting, and horseback riding. The 
property also contains historical features such as the Old Spanish 
Trail, a pack mule trail that served as a link between land-locked New 
Mexico and coastal California between 1829 and 1848, after which other 
routes became more popular. Recognizing the national significance of 
this historic trade route, the Congress designated it the Old Spanish 
National Historic Trail in 2002. Increased recreational access to the 
forest and surrounding lands has a great positive impact on the local 
economy.
    With the property on the forested slopes of Picuris Peak, it is 
highly visible below in the valley. The property's development would 
have serious consequences for the scenic and water resources of our 
county. The subdivision of the nearly 5,000-acre tract would have 
marred the prominent landscape and threatened the area's watersheds and 
water supplies.
    The landowner is fortunately working to conserve the tract through 
USFS ownership, which has tremendous support from the community and 
residents of Taos County. The $3.442 million included in the 
President's budget will start the multi-phase acquisition of the tract.
          rio grande national wild and scenic river--martinez
    The 61-acre Martinez property is located 15 miles northwest of Taos 
on the eastern rim of the Rio Grande Gorge. It is also just 1.5 miles 
north of the Rio Grande Gorge Bridge. The span, which carries the U.S. 
Route 64 roadway 650 feet above the river, is the fifth-highest bridge 
in the Nation and is listed on the National Register of Historic 
Places.
    This acquisition would continue the BLM's efforts to protect land 
along the Rio Grande; to date more than 19,000 acres have been 
protected. This conservation initiative has protected the gorge, 
expanded recreational access to the river and a network of trails along 
the gorge rim, and conserved habitat for bald eagles, peregrine 
falcons, and other birds.
    The Rio Grande is one of the greatest natural resources in New 
Mexico. Every year 300,000 visitors come to the Rio Grande WSR. 
Thousands of people stop and admire the Rio Grande Gorge Bridge on 
their way to and from Taos on U.S. 64. Public lands, including the wild 
and scenic river, national forests, and BLM lands, provide 
opportunities for hiking, camping, hunting, fishing, horseback riding, 
wildlife watching, and photography. Whitewater rafting is particularly 
popular: Class III and IV rapids challenge rafters in the 17-mile Taos 
Box and 5-mile Racecourse sections of the river.
    Second, the river is essential to water supplies in New Mexico. 
About 1.3 million people, or nearly 70 percent of the State's 
population, live in the 10 counties along the river. The Rio Grande 
provides vital drinking water to these residents and irrigation water 
for agricultural purposes.
    Like Miranda Canyon, the Martinez tract is prominently located and 
visible to many. Development of the tract would damage the landscape 
and hinder recreational access in the river corridor. On July 6, 2010, 
the Taos County Commission unanimously passed a resolution in support 
of this acquisition.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation. In New 
Mexico, the LWCF definitely protects our local economy and water 
resources, our heritage, and our fantastic landscapes.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in New Mexico, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference
    My name is Jerry Isaac and I am submitting this testimony as 
president of the Tanana Chiefs Conference (TCC). The TCC is an 
intertribal consortium of 42 Alaska Native tribes situated in the 
interior of Alaska and spanning a largely roadless area of 235,000 
square miles--almost equal to the State of Texas. I am submitting this 
testimony to address two specific issues relating to the fiscal year 
2012 budget:
  --staffing for joint venture (JV) facilities; and
  --contract support costs (CSC).
    As my testimony explains, the TCC believes that:
  --JV staffing should be increased by an additional $25 million more 
        than the President's budget, in anticipation of several JV 
        projects coming on line in fiscal year 2013; and
  --CSC funding to the Indian Health Service (IHS) should be increased 
        to $615 million, and to the BIA should be increased to $228 
        million, in order to meet the agencies' legal obligations under 
        their contracts and compacts with the tribes.
                       staffing for jv facilities
    Last year, the TCC entered into a JV agreement with the IHS. Under 
the contract, the TCC agreed to secure its own financing to build a new 
desperately needed facility in Fairbanks, Alaska, to meet the growing 
needs of our villages. In return, the IHS signed a contract agreeing to 
provide the funds necessary to staff the facility at 85 percent of 
capacity. (The IHS says it does not staff any facilities at more than 
85 percent of capacity). Under the JV agreement, the TCC will continue 
to administer all IHS-funded healthcare in our region out of the new 
facility, operating under our self-governance compact.
    The new facility will cost approximately $72 million. All of this 
will be borrowed. As you can imagine, the debt service on these funds 
will be substantial. However, taking on this debt is feasible because 
once the facility is staffed and operational--as the IHS has 
contractually committed to do--the TCC make its debt payments out of 
program revenues.
    In all of these respects, the TCC is no different than many other 
tribes and tribal organizations around the Nation that have in recent 
years benefited from the joint venture authority provided under section 
818(e) of the Indian Health Care Improvement Act: the tribes secure 
funding to construct facilities which the IHS agrees are necessary and 
should be built but, which, as a practical matter, the IHS cannot build 
due to severely limited construction appropriations.
    I am deeply concerned that, when all of the JV facilities come on 
line in fiscal year 2013, the increased required national appropriation 
for staffing ($100 million) and associated contract support ($25 
million) will be too high for the Congress to address at one time. For 
that reason, and because we need to start hiring in fiscal year 2012 to 
be operational on October 1, I strongly recommend that the Congress 
consider adding to the fiscal year 2012 budget $25 million of the 
staffing requirements for these JV projects. Either by this means or 
otherwise, it is imperative that the follow-on fiscal year 2013 budget 
include sufficient funds for the IHS to fully meet its commitment that 
year to the TCC and the other JV participants that will operate 
completed construction projects in fiscal year 2013.
    Honoring the IHS's contractual commitment to tribes and tribal 
organizations like the TCC--a commitment upon which the TCC has relied 
in the course of taking on substantial debt--must be the IHS's first 
priority.
                                  csc
    The imperative to fully fund the IHS's CSC requirements comes from 
the same source: binding Government contracts that the IHS has entered 
into with the TCC and hundreds of other tribes and tribal contractors 
across the country.
    At the end of fiscal year 2010 the TCC was suffering from a $3.2 
million shortfall in its CSC requirements with the IHS. Had those funds 
been paid, the TCC would have been able to fill or create more than 70 
positions. But because the IHS failed to meet its contractual 
obligation to pay the TCC's fixed costs incurred to operate the IHS's 
programs, the TCC had no choice but to cover those fixed costs by 
diverting direct service funds. Positions were then left vacant.
    The same is true of the BIA contracts that we operate. In fiscal 
year 2010, the BIA's data reports that TCC was underpaid more than $1 
million in CSCs, forcing vacancies in all of our BIA-funded compact 
programs.
    This has been going on for years, and it is finally time that it 
stop.
    The President's budget for fiscal year 2012 admits that, at the 
requested $462 million funding level, the IHS will be unable to cover 
$153 million in contract support costs it owes self-governance and 
self-determination tribes and tribal organizations. To be clear, that 
means a $153 million cut in tribally administered programs in fiscal 
year 2012, just as the TCC was required to cut $3.2 million in fiscal 
year 2010 from its own compacted programs. The same is true for our BIA 
compact, where another $1 million in programs was cut last year, and 
will be cut again next year absent full funding of our contracts.
    It is not only illegal, but immoral for the IHS and the BIA to 
structure their budgets in such a way that they cut only tribally 
administered IHS and BIA programs--not IHS--administered or BIA-
administered programs, but only tribally administered programs--in 
order to meet the agencies' overall budget targets. The thousands of 
Alaska Native patients and clients who we serve should not be punished 
because those services are administered under self-governance compacts 
instead of directly by the IHS or the BIA.
    I am particularly concerned about this issue as we plan for fiscal 
year 2013. In fiscal year 2013, TCC will have a significantly increased 
contract support cost requirement associated with operating the new IHS 
JV clinic. We project the requirement will likely exceed $6 million. As 
it is, the IHS has only committed to staff the TCC's clinic at 85 
percent of capacity. If none of the TCC's contract support cost 
requirements to operate the new clinic are covered, the resulting $6 
million cut in staffing will drop the clinic to 65 percent of staffing 
capacity. This will severely compromise the TCC's ability both to 
administer the new IHS facility and to meet its debt obligations. Worse 
yet, services to our people will be gravely compromised.
    We understand that the dollars required to finally close the gap in 
CSC requirements are large, but this is only because the problem has 
been allowed to snowball over so many years. Once a budget correction 
is made to finally close the CSC gap inside both agencies, maintaining 
full funding of CSC on a going-forward basis will be much more 
manageable.
    This is why the TCC respectfully requests that the IHS 
appropriation for CSC be increased by $153 million above the 
President's recommended level, to $615 million, and that the BIA 
appropriation for CSC for fiscal year 2012 be similarly increased by 
$33 million to $228 million.
    Thank you for the opportunity to present this testimony.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Mr. Chairman and distinguished members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 488 not-for-profit member theatres across the country 
and the 30 million audience members that the theatre community serves. 
We urge you to support a funding level of $167.5 million for the 
National Endowment for the Arts (NEA) for fiscal year 2012.
    Indeed, the entire not-for-profit arts industry stimulates the 
economy, creates jobs, and attracts tourism dollars. The not-for-profit 
arts generate $166.2 billion annually in economic activity, support 5.7 
million jobs and return $12.6 billion in Federal income taxes. Art 
museums, exhibits and festivals combine with performances of theatre, 
dance, opera and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In an uncertain economy where corporate 
donations and foundation grants to the arts are diminished, and 
increased ticket prices would undermine efforts to broaden and 
diversify audiences, these Federal funds simply cannot be replaced. 
Maintaining the strength of the not-for-profit sector, along with the 
commercial sector, will be vital to supporting the economic health of 
our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture--and provide artistic homes for the 
development of--the current generation of acclaimed writers, actors, 
directors and designers working in regional theatre, on Broadway and in 
the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times, and producing work that reflects and 
celebrates the strength of our Nation's diversity.
    Here are some recent examples of NEA grants and their impact:
From the NEA's Access to Artistic Excellence Program
    La Jolla Playhouse in California was awarded a $25,000 Access to 
Artistic Excellence grant to present the world premiere play``Shah 
Mat'', by playwright Naomi Iizuka. San Diego is home to many military 
installations and the corporate headquarters of several major defense 
contractors. It is also home to the third-largest Iraqi refugee 
community in the United States and a burgeoning Afghani community. 
``Shah Mat'' will utilize extensive interviews with members of all of 
these communities, alongside original scenes and monologues, to examine 
the impact of the current wars in Iraq and Afghanistan on a city that 
serves as a microcosm of the Nation as a whole. Playing an important 
role in attracting tourism to the region, more than 100,000 people, 
20,000 of whom were from outside the county, attended performances in 
2010. In addition, the Playhouse's flagship education touring 
initiative brought a musical for young audiences to 43 schools across 
the county, reaching 15,500 children through 66 performances. La Jolla 
Playhouse is not only a vital cultural resource for the County of San 
Diego, but also a provider of hundreds of jobs. In 2010, alone, the 
Playhouse employed more than 450 people and engaged 1,085 volunteers.
    Imagination Stage in Bethesda, Maryland was awarded $20,000 to 
support the commission and world premiere musical adaptation of 
``George and Martha: Tons of Fun'' by playwright/composer/lyricist Joan 
Cushing. Based on a children's book written by James Marshall, the fun 
new musical will add to the vitally needed canon of children's 
theatrical literature. Imagination Stage produces theatre and arts 
education programs which nurture, challenge, and empower young people 
of all abilities. It offers a year-round season of professional shows 
(adult actors performing for families and classes), after-school 
programs and summer camps for ages 1-18, and arts-integration 
professional development training for teachers, students, schools and 
families. All programs are informed by a core belief in making the arts 
inclusive and accessible to all children, regardless of their physical, 
cognitive, or financial status.
    Trinity Repertory Company in Providence, Rhode Island was awarded 
$20,000 to support a production of ``Twelfth Night'' by William 
Shakespeare. Associate Director Brian McEleney will direct and star in 
the cast, comprised of company members and graduate students from the 
Brown University/Trinity Rep Consortium. The Brown University/Trinity 
Rep MFA Programs were formed in the belief that graduate theatre 
training is most effective when it combines in-depth studio work with 
rigorous academic study and an ongoing relationship to a working 
professional theatre. For more than 40 years, Trinity Rep has been a 
leader in arts education, believing that theater has a unique power to 
enrich and transform young people's lives.
    CENTERSTAGE in Baltimore, Maryland was awarded $30,000 to support 
the American premiere of ``Let There Be Love'', a new play by British 
playwright Kwame Kwei-Armah. The production will be accompanied by 
outreach opportunities, including postshow discussions and community 
engagement sessions. CENTERSTAGE is an artistically driven institution 
committed to engaging, educating, and expanding the horizons of diverse 
audiences through challenging, bold, thought-provoking classical and 
contemporary theater.
    Milwaukee Public Theatre in Milwaukee, Wisconsin was awarded 
$10,000 to support performances of ``Winter Voices: Native Stories to 
Warm the Heart'', featuring storyteller, musician, and dancer Thirza 
Defoe. The organization will partner with Wisconsin Tribal Services to 
tour the production and accompanying workshops to multiple sites 
targeting American Indian families. Milwaukee Public Theatre has its 
roots in a profound belief in the arts as a healing resource that must 
be available to all people, regardless of age, ability/disability, 
culture, ethnicity, or income level. From its beginnings as a 2-person 
company of mime/musician/storytellers, it has grown into a multi-
faceted outreach arts organization working yearly with more than 100 
artists from all cultures and arts disciplines and reaching more than 
100,000 people with highly diverse programming that tours throughout 
the community and beyond.
    These are only a few examples of the kinds of extraordinary 
programs supported by the NEA. Theatre Communications Group urges you 
to support a funding level of $167.5 million for fiscal year 2012 for 
the NEA, to maintain citizen access to the cultural, educational, and 
economic benefits of the arts, and to advance creativity and innovation 
in communities across the United States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and its economic vitality. It is supported by a 
remarkable combination of government, business, foundation, and 
individual donors. It is a striking example of Federal/State/private 
partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts. The NEA was 
funded at $167.5 million in the fiscal year 2010 budget; however, it 
has never recovered from a 40 percent budget cut in fiscal year 1996 
and its programs are still under-funded. We urge the subcommittee to 
maintain funding at $167.5 million to preserve the important cultural 
programs reaching Americans across the country.
    Thank you for considering this request.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2012 appropriations. My name is Thomas J. Cassidy, Jr. and 
I am director of Federal Land Programs. The Nature Conservancy is an 
international, nonprofit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to preserve the plants, animals and natural 
communities that represent the diversity of life on Earth by protecting 
the lands and waters they need to survive.
    This is an unusual budget year and a challenging fiscal 
environment. The Conservancy recognizes that there is a need for fiscal 
austerity. However, we do not believe that conservation programs should 
suffer from disproportionate and extreme reductions, as did important 
wildlife and land conservation programs in the House-passed H.R. 1. Our 
budget recommendations this year do not exceed the President's budget 
request except for a few instances in which we recommend fiscal year 
2010 funding levels. Moreover, as a science based and business oriented 
organization, we believe strongly that the budget levels we support 
represent a prudent investment in our country's future that will reduce 
risks and ultimately save money based on the tangible benefits natural 
resources provide each year to the American people. We look forward to 
working with you, Mr. Chairman, and members of the subcommittee, as you 
address the ongoing needs for conservation investments to sustain our 
Nation's heritage of natural resources that are also important to the 
economic vitality of communities across this country.
    Land and Water Conservation Fund (LWCF).--The Conservancy is an 
enthusiastic supporter of the President's request to fully fund the 
LWCF and the mix of programs it funds. We are especially interested in 
the proposed competitive stateside program. We are hopeful that 
increased funding for the LWCF can be the catalyst for the kind of 
cooperative and community based conservation called for in the 
President's America's Great Outdoors Initiative.
    This year, the Conservancy is specifically supporting 29 
biologically rich land acquisition projects totaling $75.13 million. 
Priorities include continuing phased acquisitions of projects at 
Oregon's Hell's Canyon National Recreation Area, Montana Legacy 
Project; Arizona's Shield Ranch; South Carolina's Cape Romain National 
Wildlife Refuge (NWR) and the Silvio O. Conte National Fish and 
Wildlife Refuge. We are also pleased to support the administration's 
proposals for investing in conservation easements on the working 
ranches of the Kansas' Flint Hills Legacy Conservation Area and 
Montana's Rocky Mountain Front Conservation Area. Both of these 
projects exemplify landscape scale conservation through the cost 
effective means of conservation easements.
    Forest Legacy Program.--We support $150 million for this program, 
and are specifically supporting nine projects totaling $26.485 million. 
We hope this year to complete the phased acquisition of Kentucky's Big 
Rivers Corridor, Idaho's Boundary Connections project and the phased 
acquisitions of New York's Follensby Pond and Tennessee's Northern 
Cumberlands.
    Endangered Species.--The Conservancy enthusiastically supports the 
President's request of $100 million for the Cooperative Endangered 
Species Conservation Fund (CESCF). The Conservancy and its partners 
have used the Habitat Conservation Plan (HCP) and Recovery Land 
Acquisition Programs to secure key habitat for numerous threatened, 
endangered and at-risk species and, thus, to help avoid conflicts over 
Endangered Species Act issues. It has been an important catalyst for 
several local government-led HCPs that facilitate urban development and 
streamline permitting of essential transportation and energy 
infrastructure. In one part of Riverside County, California alone, a 
single HCP has facilitated development of transportation infrastructure 
that alleviates congestion and creates jobs in this rapidly growing 
area. The plan facilitates development on more than 700,000 acres 
through acquisition of 153,000 acres in new conservation lands. In 
recent years, CESCF funds have also been used to provide permanent 
habitat protection through conservation easement on high-priority 
private lands, such as in northern Idaho's Kootenai Valley, providing a 
critical link between higher elevation public lands of the Selkirk 
Mountains and Montana's Blackfoot Valley. We also support continued 
funding for the Upper Colorado River Endangered Fish Recovery Program, 
recovery funds for the San Juan River Basin Recovery Implementation 
Program, and fish hatchery needs associated with the recovery plans in 
this region.
    Climate Change.--Fish, wildlife, and their habitats are and will 
continue to be profoundly impacted by climate change, regardless of our 
successes in reducing greenhouse gas emissions. If we are to get out 
ahead of such change to avoid disastrous losses in critical habitat and 
the species that depend on that habitat, we must develop the place-
based science to make informed, cost-effective management investments. 
The Conservancy appreciates the President's commitment to respond to 
the global climate challenge, and this subcommittee's sustained 
leadership in supporting cooperative, science-based programs to respond 
to the global climate challenge help ensure resilient land and 
seascapes. In particular, we welcome this subcommittee's commitment to 
both the United States Geological Survey (USGS)-led Climate Science 
Centers and Department of the Interior's Landscape Conservation 
Cooperatives. The investments to date have catalyzed a critical program 
of work that will require continuing support as our knowledge and 
understanding of adaptation needs grow.
    Wildland Fire Management.--Hazardous fuels reduction funding and 
projects are essential for protecting communities, watersheds, and 
habitats. We support the President's budget overall funding level for 
hazardous fuels reduction, however are concerned that an arbitrary 
ratio for funds going to Wildland Urban Interface (WUI) and non-WUI 
projects will constrain the ability of the Forest Service (USFS) and 
Department of the Interior agencies to fund fuels projects that protect 
communities, watersheds, special habitats, and other values critical to 
the agency's missions. We also support continued use of the FLAME 
account to ensure there is adequate funding for high-cost wildfire 
seasons.
    Integrated Resource Restoration.--The Conservancy supports the 
President's fiscal year 2012 proposal for the Integrated Resource 
Restoration budget and notes the significant improvements over the 
fiscal year 2011 proposal. We strongly support full funding of $40 
million for the Collaborative Forest Landscape Restoration Program. We 
also support creation of the Restoration and Management of Ecosystems 
line item with $659 million by combining a variety of programs that 
were formerly separate functions, including Wildlife and Fisheries 
Habitat Management, Forest Products, Hazardous Fuels Reduction in 
Wildlands, and postfire Rehabilitation and Restoration. Separate 
funding for these and other activities led to inefficient, 
uncoordinated activities in wildlife, fisheries, timber, water source 
improvement, fuels reduction, and postfire rehabilitation that did not 
necessarily contribute to restoration goals. This new budget will 
enhance the USFS' ability to provide and measure important natural 
services, such as clean and abundant water, renewable energy from 
biomass, restored wildlife and fish habitat, and reduced risk of 
damaging wildfire in overgrown forests. A pilot of at least two 
regions, for 3 years, would be a reasonable step toward the 
administration's objective of integrated, efficient restoration 
funding.
    Forest Health Management.--America's forests are threatened by a 
growing number of non-native pests and diseases. The Conservancy 
appreciates the subcommittee's leadership in consistently providing 
funding above the President's request. The Forest Health Management 
Program should receive an increase to the fiscal year 2010 level of 
$138 million to effectively address economically and ecologically 
damaging pests, including the Asian Longhorned Beetle, Emerald Ash 
Borer, Hemlock Woolly Adelgid, Sudden Oak Death, thousand-canker 
disease (threatening walnut trees), and the goldspotted oak borer.
    USFS Research Program.--We support the President's request for the 
Forest Service Research Program to maintain funding of research to 
improve detection and control methods for the Asian Longhorned Beetle, 
Emerald Ash Borer, Hemlock Woolly Adelgid, goldspotted oak borer, and 
other non-native forest pests and diseases.
    State Wildlife Grants.--The Conservancy endorses the Teaming with 
Wildlife Coalition's support of the President's request. Strong Federal 
investments are essential to ensure strategic actions are undertaken by 
State and Federal agencies and the conservation community to conserve 
wildlife populations and their habitats. We also strongly support the 
proposed $20 million competitive grant program as a subset of the 
program.
    NWR Fund.--The Conservancy shares the chairman's concern that the 
administration's request eliminates the discretionary funding of this 
important program that offsets the loss of tax revenues to counties due 
to the refuge system. We recommend funding this program at the fiscal 
year 2010 enacted level.
    Migratory Bird and Partnership Programs.--The subcommittee has 
consistently provided vitally important investments for a number of 
migratory bird programs. Such investments are essential to reverse 
declines in bird populations through direct conservation action, 
monitoring and science. We urge the subcommittee to fund the 
President's request for such established and successful programs as the 
North American Wetlands Conservation Act (NAWCA) and the Joint 
Ventures, and the Migratory Bird Management Program. We support the 
President's request for the Fish and Wildlife Service (FWS) Coastal 
Program and Partners for Fish and Wildlife Program and request $10 
million for the National Fish Habitat Initiative.
    International Programs.--There are large unmet needs for 
international conservation. When well-managed conservation contributes 
much to human welfare in developing countries and globally. Recognizing 
that the current fiscal situation requires a measure of austerity, we 
support the President's request for the FWS' Multinational Species 
Conservation Funds, the international wildlife trade programs, Wildlife 
Without Borders and the Neotropical Migratory Bird Conservation Fund. 
Each of those programs face substantial cuts from the fiscal year 2010 
enacted levels. We also support a line item and funding for the USFS' 
International Programs at its fiscal year 2010 enacted level of $9.818 
million.
    The Bureau of Land Management (BLM) Climate Change, Ecoregional 
Assessments and Resource Management.--The Conservancy supports the 
administration's recommended funding for the BLM's Climate Change 
Adaptation Initiative. This will enable completion of ecoregional 
assessments, a key information tool for the Bureau to respond to the 
growing challenges of climate change and energy development. We also 
recommend robust funding for the BLM resource management and 
transportation planning activities. These funds are needed to complete 
ongoing planning efforts and to initiate new planning efforts in key 
places, without which the Bureau cannot make informed mitigation and 
siting decisions for traditional and renewable energy proposals and 
take the management actions necessary to improve priority wildlife and 
aquatic habitats, ensure water quality, control invasive species, and 
manage off-road vehicle use. The BLM should also be encouraged to use 
existing data sets when available so that funding can be focused on 
critical data needs instead of creating duplicitous data sets.
    USGS: Water Resources.--We support increased funding levels for the 
National Streamflow Information Program and the Cooperative Water 
Program, including work on water availability studies and work to 
implement a national water use and assessment program. As climate 
change, drought, and population growth increase the demands on water 
resources, it is critical to invest in the integration of State and 
Federal water resource data and to better understand water needs of 
human communities and the environment.
    Environmental Protection Agency (EPA).--The EPA's programs make 
important contributions to the Nation's conservation agenda. National 
estuary, wetland, and watershed programs protect vital water resources 
that are essential to community health and economic prosperity. 
Targeted geographic programs support scientific research, planning, and 
cost-effective actions to improve water quality and restore aquatic 
ecosystems. Targeted grant programs provide funding for states and 
localities to proactively protect their water supplies through 
traditional infrastructure improvements and through innovative green 
infrastructure protection strategies that are more cost effective in 
the long run. We support the President's request for the EPA's Water 
Ecosystem Programs and Geographic Programs, including the Great Lakes, 
Chesapeake Bay, Puget Sound, as well as the estuary and wetlands 
programs, and the Sustainable Community/Ecosystem research. We also 
support the President's request for the Clean Water State Revolving 
Fund and Categorical Grants for Non-Point Source and Pollution Control, 
with the added recommendation that the EPA allocate a significant 
portion of these funds to State and local projects that achieve habitat 
protection and restoration in aquatic ecosystems.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2012 Interior, environment, and 
related agencies appropriations bill.
                                 ______
                                 
                Prepared Statement of the Town of Ophir
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior appropriations bill. In an historic embrace of conservation, 
the President's budget request includes full funding of LWCF in fiscal 
year 2012. The proposed $900 million is the congressionally authorized 
amount for the program and seeks to renew focus on the promise of the 
LWCF: that it is right and wise to reinvest proceeds from offshore 
drilling receipts in the protection of natural resources and 
recreational access for all Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf (OCS) revenues, not taxpayer dollars, these funds 
should go to their intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
U.S. Forest Service (USFS) included $4.04 million for the acquisition 
of land in the Uncompahgre National Forest in Colorado in the 
President's budget. I am pleased that this funding was included in the 
request and urge the Congress to provide the full President's budget 
amount for LWCF so that this important project can receive this needed 
funding.
    Located in the heart of southwestern Colorado's San Juan Mountains, 
the Ophir Valley project area in the Uncompahgre National Forest is one 
of the San Juans' hidden gems. A short detour of only a mile off of 
Highway 145--part of the nationally acclaimed 236-mile San Juan Skyway 
Scenic Byway--brings visitors into a compact valley ringed by 13,000-
foot peaks and serrated ridge lines.
    Against a backdrop of unsurpassed alpine scenery, Ophir Valley 
offers an abundance of recreational opportunities for residents and 
visitors, including hiking, camping, mountain biking, cross-country 
skiing, four-wheeling, and fishing. In addition, the valley supports 
habitat for the Canada lynx, a federally listed threatened species, and 
provides important habitat for the endangered Uncompahgre fritillary 
butterfly and other sensitive species. It also contains the headwaters 
of Howard Fork, a key tributary to the San Miguel River, which The 
Nature Conservancy has called ``one of the last naturally functioning 
rivers in the West''. The San Miguel sustains a globally rare 
narrowleaf cottonwood-Colorado blue spruce/black twinberry plant 
community.
    While much of the Ophir Valley is in public ownership, the region's 
mining heritage also created hundreds of privately owned patented 
mining claims scattered across the landscape like matchsticks. These 
private inholdings once were vital to sustaining 19th-century efforts 
to find and extract mineral wealth. Now, however, at a time when hard 
rock mining in southwestern Colorado appears increasingly less viable 
economically, many former mining districts, such as Ophir, are seeing 
these private inholdings develop into sites for second homes. As a 
result, more and more of the Ophir Valley's subalpine and alpine 
environments are at risk of being developed, potentially creating 
significant management issues for the USFS, fragmenting wildlife 
habitat, and spoiling the scenic splendor and recreational 
opportunities so important to residents and visitors.
    Currently, the USFS has the opportunity to acquire all of the 
remaining acres out of a total 1,145 acres of patented mining claims 
that had been under one ownership in the Ophir Valley. Prior to this 
acquisition effort, these claims represented approximately 90 percent 
of the valley's privately owned inholdings. Federal appropriations 
provided in previous years have allowed the USFS to begin acquiring 
these mining claims, and the requested $4.04 million in fiscal year 
2012 will allow the agency to purchase the final 445 acres. This 
project resolves many land use and access conflicts that stem from the 
development of private inholdings within public lands, while promoting 
effective land management practices by the USFS. In particular, the 
ongoing acquisition protects critical habitat, maintains high-quality 
recreational opportunities on public lands, protects water quality, and 
helps maintain the quality of life of the region's residents.
    This protection effort is a natural extension of the successful Red 
Mountain project, located just to the north and east of the Ophir 
Valley along a different portion of the San Juan Skyway. It will also 
complement other land protection and recreation enhancement efforts 
along and adjacent to the San Juan Skyway, 1 of only 27 All-American 
Roads in the National Scenic Byway program. In recent years, for 
example, Great Outdoors Colorado Trust Fund has pledged $5.7 million 
for land protection in the area. In fiscal year 2012, an allocation of 
$4.04 million from the LWCF--as recommended in the President's budget 
request--is needed to enable the USFS to complete the protection of 
these critical inholdings.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Colorado, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
    Prepared Statement of the Timucuan Trail Parks Foundation, Inc.
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony on behalf of the 
Timucuan Trail Parks Foundation in support of the Forest Legacy Program 
(FLP) in the fiscal year 2012 Interior, Environment, and Related 
Agencies appropriations bill. The FLP works with landowners, the 
States, and other partners to protect critical forestlands with 
important economic, recreation, water quality, and habitat resources 
through conservation easement and fee acquisitions. For several years 
this United States Forest Service (USFS) program has been funded under 
the umbrella of the Land and Water Conservation Fund (LWCF).
    In an historic embrace of conservation, the President's budget 
request includes full funding of the LWCF in fiscal year 2012. The 
proposed $900 million is the congressionally authorized amount for the 
program and seeks to renew focus on the promise of the LWCF: that it is 
right and wise to reinvest proceeds from offshore drilling receipts in 
the protection of natural resources and recreational access for all 
Americans. Of that $900 million, the President requested $135 million 
for the FLP.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the FLP is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to the LWCF and the FLP in fiscal 
year 2012, the USFS included $3.5 million for the Thomas Creek--
Northeast Florida Timberlands project in Florida in the President's 
budget. I am pleased that this funding was included in the request and 
urge the Congress to provide the full President's budget amount for the 
FLP so that this important project can receive this needed funding.
    It goes without saying that the State of Florida has experienced 
tremendous growth in recent decades, and one of the results of that 
growth has been the diminution of the State's forested lands. Among the 
goals of Florida's FLP is the mitigation of the rapid loss of 
environmentally important forests through the conservation of these 
forested communities. Statewide this effort is focused specifically on 
lands threatened by permanent conversion to nonforest uses and where 
partnerships complement existing land conservation efforts. In north 
Florida, FLP goals are expanded to include the support of sustainable 
forestry practices, a focus on riverine systems, the conservation of 
critical fish and wildlife habitat, and outreach to private 
nonindustrial forest landowners. This year the State of Florida has 
submitted a FLP project, Thomas Creek-Northeast Florida Timberlands, 
which meets these important State and regional goals.
    Northeastern Florida is home to a diverse coastal ecosystem of 
marshes, wetlands, river corridors, forests, and uplands. The landscape 
has featured centuries of history through the Pre-Columbian, European 
colonization, and American periods. Given the presence of the large and 
growing population of Jacksonville in the center of the dynamic 
ecosystem, much of the conservation in the region is a cooperative 
effort among Federal, State, and local agencies, private landowners, 
and interested organizations. A centerpiece of this cooperative 
approach is the Timucuan Ecological and Historic Preserve (EHP), a 
unique preserve created by the Congress in 1988 that extends more than 
46,000 acres at the mouths of the St. Johns and Nassau rivers.
    The city of Jacksonville is leading an initiative with the National 
Park Service, the State of Florida, and private partners to protect a 
1,780-acre forested property south of Thomas Creek and adjacent to the 
Timucuan EHP. Within this larger effort, 588 acres have been proposed 
for acquisition by the city of Jacksonville as part of the FLP. In 
fiscal year 2011, the President's budget includes the first 294-acre 
phase of this FLP property, which has a one-half mile border with 
Jacksonville's Bear Branch Preserve on its western side. On its 
northern flank lies State-owned conservation land within the Timucuan 
EHP along Thomas Creek. The property also includes a portion of the 
site of the 1777 Battle of Thomas Creek, known as the southernmost 
continental encounter between the Americans and British during the 
Revolutionary War.
    The city plans to manage the FLP property for recreation, wildlife 
habitat, water quality protection, and sustainable forestry purposes. 
Eight miles of existing logging trails would be available for hiking 
and other recreational uses such as camping and hunting. The project 
area includes hardwood marshes along one-half mile of Bear Branch, a 
tributary of Thomas Creek. The slash pine and loblolly pine found on 
much of the tract are currently managed as a working forest. The City 
will continue sustainable forestry on the tract, recognizing the 
importance of forestry in the economy of northern Florida.
    The landscape provides habitat for many notable species including 
bald eagle, wood duck, hooded merganser, deer, turkey, and quail. 
Bobcats have been sighted in the area. The watershed is also thought to 
have habitat suitable for wood storks, gopher tortoises, flatwoods 
salamanders, and eastern indigo snakes, all Federal or State-listed 
threatened or endangered species. West Indian manatees are known to 
frequent the waters of Thomas Creek and the preservation of this land 
would aid in protecting the water quality for this endangered species' 
habitat. Additionally, a number of Species of Greatest Conservation 
Need, as listed in the Florida Comprehensive Wildlife Conservation 
Strategy, have been identified on the property, including little blue 
heron, snowy egret, tricolored heron, and white ibis.
    Because of its links to the Nassau River watershed, the State of 
Florida has listed this area as a priority for acquisition and 
conservation through the Florida Forever Program. The project area, 
known as the Northeast Florida Timberlands and Watershed Reserve, 
covers forested watershed land in Nassau, Duval, and Clay counties. The 
Reserve was categorized in September 2008 by the State as an ``A'' list 
priority acquisition area and as 1 of 21 projects listed as highest 
priority. The goal of the Reserve is to provide a wildlife and 
recreation corridor and a growth boundary for the rapidly growing 
Jacksonville area.
    In addition to the Timucuan EHP and Bear Branch Preserve, the 
larger 1,780-acre property is within the vicinity of several other 
public facilities and sites. About a mile to the west is the 526-acre 
Jacksonville National Cemetery. Authorized by the Congress in 2003, the 
cemetery opened in January 2009. Jacksonville International Airport and 
facilities of the Florida Air National Guard are about 1.5 miles to the 
south.
    This key location also poses significant development threats to the 
area. The airport is a large economic generator in the region, and 
lands around it are expected to see high rates of growth in upcoming 
years. The property also has proximity to Interstate 95, allowing for 
easy access to the rest of the Jacksonville metropolitan area. In fact, 
zoning is in place to convert the property into a golf course and 
residential community of 800 homes. But for the current downturn in the 
economy, this land would be well on its way to being developed within 
the next 5 years. These threats to the property will only increase in 
the future given its accessibility and population and economic growth 
trends.
    The President's budget recommended an allocation of $3.5 million 
from the FLP in fiscal year 2012 for the protection of the 
recreational, historical, and natural resources of the Thomas Creek--
Northeast Florida Timberlands property. The city of Jacksonville will 
provide $2 million to match the funds provided by the FLP for the 
second phase of this project.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Florida, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society appreciates the opportunity to provide 
testimony on the fiscal year 2012 budget for the U.S. Fish and Wildlife 
Service (FWS), Bureau of Land Management (BLM), U.S. Geological Survey 
(USGS), and U.S. Forest Service (USFS). The Wildlife Society was 
founded in 1937 and is a nonprofit scientific and educational 
association representing more than 10,000 professional wildlife 
biologists and managers, dedicated to excellence in wildlife 
stewardship through science and education. Our mission is to represent 
and serve the professional community of scientists, managers, 
educators, technicians, planners, and others who work actively to 
study, manage, and conserve wildlife and its habitats worldwide.
                                  fws
    The State and Tribal Wildlife Grants Program is the only Federal 
program that supports States in preventing wildlife from becoming 
endangered. It is also the primary program supporting implementation of 
comprehensive wildlife conservation strategies, known as State Wildlife 
Action Plans, which detail conservation actions needed on the ground in 
every State to keep common species common. Funding assistance for these 
State wildlife agencies is one of the highest-priority needs for 
wildlife in order to prevent further declines in at-risk wildlife 
populations in every State. These grants also provide key funding to 
federally recognized tribal governments for wildlife management and 
conservation. We recommend the Congress appropriate $95 million for 
State and Tribal Wildlife Grants in fiscal year 2012. We also ask that 
the Congress support a reduction in the non-Federal match requirement 
from 50 percent to 30 percent, relieving some of the onus of providing 
adequate matching funding from severely cashed-strapped States.
    The Cooperative Alliance for Refuge Enhancement (CARE) is a diverse 
coalition of 22 wildlife, sporting, conservation, and scientific 
organizations representing more than 14 million members and supporters. 
A comprehensive analysis by CARE determined the National Wildlife 
Refuge System (NWRS) needs $900 million in annual operations funding to 
properly administer its nearly 150 million acres, educational programs, 
habitat restoration projects, and much more. Many years of stagnant 
budgets have increased the operations and maintenance backlog; refuge 
visitors often show up to find visitor centers closed, hiking trails in 
disrepair, and habitat restoration programs eliminated. Invasive plant 
species are taking over on refuges, requiring $25 million per year to 
treat just one-third of its acreage, and illegal activities such as 
poaching are on the rise, requiring an additional 209 officers ($31.4 
million) to meet law enforcement needs. We recommend that the Congress 
provide $511 million in fiscal year 2012 for the operations and 
maintenance of the NWRS.
    The North American Wetlands Conservation Act is a cooperative, 
nonregulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. This program has remained drastically underfunded despite 
its demonstrated effectiveness. We recommend a small increase over the 
fiscal year 2010 funding level of $47.6 million, to bring the funding 
to $50 million in fiscal year 2012.
    The Neotropical Migratory Bird Conservation Act Grants Program 
supports partnership programs to conserve birds in the United States, 
Latin America and the Caribbean, where approximately 5 billion birds 
representing 341 species spend their winters, including some of the 
most endangered birds in North America. The Wildlife Society recommends 
the Congress fund the Neotropical Migratory Bird Conservation Act at 
its full authorization level of $6.5 million in fiscal year 2012.
    The Wildlife Society supports adequate funding levels for all 
subactivities within the Endangered Species Program. Endangered species 
recovery efforts can ultimately lead to delisting, resulting in 
significant benefits to species through State management efforts. 
Currently, all subactivities within the program are understaffed while 
the costs for management of listed species continue to rapidly 
escalate. We recommend the Congress match the President's request for 
the Endangered Species Program and provide $182.7 million in funding in 
fiscal year 2012.
    The voluntary Partners for Fish and Wildlife Program provides 
financial and technical assistance to landowners to restore degraded 
habitat on their property. With more than two-thirds of our Nation's 
lands held as private property, and up to 90 percent of some habitats 
lost, private lands play a key role in preserving our ecosystem. We 
urge the Congress to provide $62.19 million in support of the Partners 
for Fish and Wildlife Program in order to allow landowners to help 
contribute to land and wildlife preservation.
    Through its international programs, the FWS works with many 
partners and countries in the implementation of international treaties, 
conventions, and projects for the conservation of wildlife species and 
their habitats. International trade, import, and transportation of 
wildlife species can have a huge impact on America's security, economy, 
and environment. Careful regulation of imports and implementation of 
international policies is an important task. We ask the Congress to 
support FWS in protecting our economy, our environment, and our 
national security by providing a necessary $12.9 million in support of 
FWS international affairs.
                                  blm
    The BLM lands support more than 3,000 species of wildlife, more 
than 300 federally proposed or listed species, and more than 1,300 
sensitive plant species. However, the BLM currently has only one 
biologist per 591,000 acres of land and estimated costs for recovery of 
threatened and endangered species on the BLM lands continue to rise. In 
addition, the Wildlife and Fisheries Management (WFM) and the 
Threatened and Endangered Species Management (TESM) programs have been 
forced to pay for the compliance activities of the BLM's energy, 
grazing, and other nonwildlife-related programs, eroding both their 
ability to conduct proactive conservation activities and their efforts 
to recover listed species. This diversion of funding must be stopped. 
Given the significant underfunding of the BLM's wildlife programs, 
combined with the tremendous expansion of energy development across the 
BLM landscape, we recommend the Congress appropriate $40 million for 
the BLM wildlife management. This will allow the BLM to maintain and 
restore wildlife and habitat by monitoring habitat conditions, 
conducting inventories of wildlife resources, and developing 
cooperative management plans.
    Increased funding is also needed for the Threatened and Endangered 
Species Management Program, to allow the BLM to meet its 
responsibilities in endangered species recovery plans. The BLM's March 
2001 report to the Congress called for a doubling of the threatened and 
endangered species budget to $48 million and an additional 70 staff 
positions over 5 years. This goal has yet to be met. In light of this, 
we strongly encourage the Congress to increase overall funding for the 
BLM's endangered species program to $33 million in fiscal year 2012.
    The Wildlife Society appreciates the commitment of the BLM to 
addressing the problems associated with wild horse and burro 
management. The President has requested an increase of $12 million to 
allow the BLM to implement a new strategy for wild horse and burro 
management and act on recommendations provided in late 2010 by the 
Office of the Inspector General (OIG). The Wildlife Society is 
concerned about the BLM's emphasis on fertility control and its 
proposals to reduce the number of feral horses roundups held in fiscal 
year 2012. Horses are already above appropriate management levels (set 
by the BLM) in most areas, so the proposal to reduce the numbers of 
horses removed from the range is ill-conceived at best.
    Given that horses and burros have been maintained above the 
appropriate management level for many years, we believe that additional 
funding should be requested to correct the habitat damage that has 
occurred due to overpopulation of these animals. The requested $75.7 
million should be provided to the BLM if they continue removing excess 
horses from the range at a reasonable rate and focus additional 
resources on habitat restoration.
                                  usgs
    The basic, objective, and interdisciplinary scientific research 
that is supported by the USGS is necessary for understanding the 
complex environmental issues facing our Nation today. This science will 
play an essential role in the decisionmaking processes of natural 
resource managers as we adapt to climate change, and it will help 
protect our water supply and conserve endangered species. More 
investment is needed to strengthen the USGS partnerships, improve 
monitoring, produce high-quality geospatial data, and deliver the best 
science to address critical environmental and societal challenges. The 
Wildlife Society supports funding of at least $1.2 billion for the USGS 
in fiscal year 2012.
    The Cooperative Fish and Wildlife Research Units (CFWRUs) conduct 
research on renewable natural resource questions, participate in the 
education of graduate students, provide technical assistance and 
consultation on natural resource issues, and provide continuing 
education for natural resource professionals. In fiscal year 2001, the 
Congress fully funded the CFWRUs, allowing unit productivity to rise to 
record levels. Since then, budgetary shortfalls have caused an erosion 
of available funds, resulting in a current staffing vacancy of nearly 
one-quarter of the professional workforce. In order to fill current 
vacancies, restore seriously eroded operational funds for each CFWRU, 
and enhance national program coordination, the fiscal year 2012 budget 
for the CFWRUs should be increased to $22 million. This would restore 
necessary capacity in the CFWRU program and allow it to meet the 
Nation's research and training needs.
    The Wildlife Society appreciates the fiscal year 2010 funding of 
$15.1 million for the National Climate Change and Wildlife Science 
Center. This center will play a pivotal role in addressing the impacts 
of climate change on fish and wildlife by providing essential 
scientific support. In order for this role to be fully realized, 
funding must increase. The Wildlife Society recommends that the 
Congress fund the National Climate Change and Wildlife Science Center 
at $25 million in fiscal year 2012.
                                  usfs
    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, and are home to 
about 425 threatened and endangered, and another 3,250 at-risk species. 
In fiscal year 2011, the USFS combined several programs and budgets, 
including vegetation and watershed management, wildlife and fisheries 
habitat management, and forest products into a single integrated 
resource restoration activity budget. We are concerned with this merger 
because it makes accountability to stakeholders and the Congress more 
difficult. However, with these reservations noted, we urge the Congress 
to support the request of $854.242 million for the integrated resource 
restoration program in fiscal year 2012.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS is at the forefront of science, and essential to improving the 
health of our Nation's forests and grasslands. Furthermore, it will 
play a key role in developing strategies for mitigating the effects of 
climate change. We urge the Congress to provide $312 million in fiscal 
year 2012 for forest and rangelands to support this high-quality 
research.
              white nose syndrome (a crosscutting program)
    Finally, we ask the Congress to provide additional funding to fight 
White Nose Syndrome (WNS) in bats. The current loss of bat populations 
from WNS represents one of the most precipitous wildlife declines in 
the past century in North America, and will likely have significant 
ecological and economic consequences throughout the United States. 
Experts have recommended that $45 million will be needed over the next 
5 years to study and combat WNS.
    Federal agencies play a critical role in WNS response. The FWS is 
the lead agency, coordinating the nationwide effort to combat the 
disease and granting Federal monies to State wildlife agencies to 
assist in their WNS response. The USGS is conducting research vital to 
understanding this previously unknown disease. The National Park 
Service, BLM, and USFS are involved on their lands in monitoring and 
surveying bat populations, implementing decontamination measures with 
visitors, managing and closing caves, improving bat habitat, educating 
the public about WNS, and other activities. The Department of Defense 
monitors, surveys, and implements conservation measures for bat 
populations on its lands as well. We request a total funding level of 
$11.1 million for WNS research, monitoring, and response among these 
agencies in fiscal year 2012.
    Thank you for considering the recommendations of wildlife 
professionals.
                                 ______
                                 
        Letter From the Upper Peninsula Public Access Coalition
                                                    March 28, 2011.
Hon. Jack Reed,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Reed and Senator Murkowski: On behalf of the Upper 
Peninsula Public Access Coalition (UPPAC), I appreciate the opportunity 
to present this testimony in support of the Land and Water Conservation 
Fund (LWCF) in the fiscal year 2012 Interior, environment, and related 
agencies appropriations bill. In an historic embrace of conservation, 
the President's budget request includes full funding of LWCF in fiscal 
year 2012. The proposed $900 million is the congressionally authorized 
amount for the program and seeks to renew focus on the promise of the 
LWCF: that it is right and wise to reinvest proceeds from offshore 
drilling receipts in the protection of natural resources and 
recreational access for all Americans.
    UPPAC is a volunteer organization comprised of concerned citizens 
dedicated to the protection and preservation of the region's 
environmental quality and way of life. The common thread that connects 
us all is our appreciation for the aesthetic beauty of undisturbed 
shorelines as well as our use, enjoyment, and deep concern for the 
lakes, streams, rivers, and woodlands of Michigan's Upper Peninsula.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF is one 
that will permanently pay dividends to the American people and to our 
great natural and historical heritage. As LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to LWCF in fiscal year 2012, the 
U.S. Forest Service (USFS) included $1.5 million for the acquisition of 
land in the Hiawatha National Forest in Michigan in the President's 
budget. I am pleased that this funding was included in the request and 
urge the Congress to provide the full President's budget amount for 
LWCF so that this important project can receive this needed funding.
    With its pristine rivers, winding streams, and vast wilderness 
areas, Michigan's Upper Peninsula shapes the rugged character of the 
upper Great Lakes region. Ensuring the lasting protection of this 
region's diverse ecosystems, preserving sensitive wildlife habitat, and 
securing lasting recreational opportunities are important conservation 
objectives identified by the USFS that further the goals of the Great 
Lakes Restoration Initiative, established by Presidential Executive 
order in February 2009.
    The Great Lakes, Great Lands--Upper Peninsula conservation project 
was ranked by the Eastern region of the USFS as its top acquisition 
priority in fiscal year 2012. This project will greatly advance the 
objectives of the Great Lakes Restoration Initiative and the Northwoods 
Climate Change Response Framework by incorporating more than 3,500 
acres of private land in the Upper Peninsula into the Ottawa and 
Hiawatha national forests.
    The fiscal year 2012 Great Lakes, Great Lands request builds on 
past conservation successes in the Upper Peninsula. In fiscal year 
2010, the Congress appropriated $1.3 million to protect the Prickett 
Lake parcel, which is immediately adjacent to the iconic Sturgeon River 
Gorge Wilderness and located within the Ottawa National Forest. Another 
Great Lakes, Great Lands property in the Ottawa National Forest is the 
Victoria Lake parcel that will protect important lands along the West 
Branch of the Ontonagon Wild and Scenic River and, like the Prickett 
Lake tract, is traversed by portions of the North County National 
Scenic Trail. Pending approval of the fiscal year 2011 Federal budget 
with funding to acquire the Victoria Lake property, the Great Lakes, 
Great Lands conservation focus will turn to protecting important 
inholdings within the Hiawatha National Forest referred to as the 
Hiawatha Watershed Health Project.
    The Hiawatha Watershed Health Project is a landscape-scale 
conservation project focusing on the restoration and maintenance of 
watersheds that serve the central and eastern portions of the Upper 
Peninsula. The Hiawatha National Forest is seeking to acquire strategic 
inholdings from Plum Creek Timber Company that will result in the cost-
effective consolidation of Federal ownership, the protection and 
conservation of the watersheds of Lakes Superior, Michigan, and Huron, 
and the promotion of the local tourist economy as new lands are 
permanently opened for the public to explore.
    With more than 400 lakes and five National Wild and Scenic river 
ways, protecting land in the Hiawatha offers an unparalleled 
opportunity for watershed protection. Nearly 46 percent of the Hiawatha 
is wetland and approximately 775 miles of rivers and streams on the 
forest empty into the Great Lakes. Conservation of the Hiawatha 
inholdings will permanently protect lands within the Whitefish Wild and 
Scenic River watershed including a parcel situated at the northernmost 
section of Davies Lake that runs alongside the popular Bay de Noc to 
Grand Island Trail. The Stonington inholdings in the southern Hiawatha 
are bisected by the Big and Ogontz Rivers that drain into Ogontz Bay in 
Lake Michigan. The Hiawatha Watershed Health Project also aims to 
protect habitat for a number of species facing extinction. The tracts 
to be acquired offer secluded older forests, whose habitat favors the 
recovery of the endangered Eastern grey wolf, the threatened Canada 
lynx, and other imperiled species like the northern goshawk and the 
red-shouldered hawk.
    Adding more than 2,500 acres of private land to the Hiawatha 
National Forest will bolster the Upper Peninsula's outdoor recreation 
economy. With more than 800,000 acres to explore and more than 1.5 
million visitors per year, the Hiawatha is an exceptional outdoor 
recreation destination. Every spring and fall, hunters and anglers 
flock to the forest to hunt for bear and white-tailed deer and fish for 
steelhead and brook trout. The summer season attracts hikers, anglers, 
mountain bikers, campers, and sightseers, and in the winter, the ``lake 
effect'' drops an average of 200 inches of snow for snowmobilers and 
cross-country skiers to enjoy. The forest also includes more than 2,000 
miles of forest road that are open for motorized use. Acquisition of 
the Hiawatha inholdings proposed in fiscal year 2012 will prevent the 
possible subdivision and development of key tracts, thus allowing 
traditional uses to continue unimpeded. Permanently opening private 
lands in the Hiawatha for the public to enjoy will enhance recreational 
opportunities in the forest and help support local recreational and 
related industries.
    Protecting watersheds and forestland in the Hiawatha National 
Forest will also add important value to efforts by the Northwoods 
Climate Change Response Framework as these landscapes play an 
increasingly important role in sequestering carbon. The Northwoods 
Climate Change Response Framework, led by the USFS, is working to 
develop adaptive management strategies to help the region's forests 
thrive in a changing climate. Consolidating Federal ownership in the 
Hiawatha will secure large forest blocks where new science-based 
management protocols can be tested and applied.
    The Great Lakes, Great Lands--Upper Peninsula project represents a 
substantial step toward achieving landscape-scale conservation and 
supporting the objectives of the Great Lakes Restoration Initiative. An 
allocation of $1.5 million from the LWCF in fiscal year 2012 to acquire 
private inholdings within the Hiawatha National Forest will provide 
significant watershed protection, safeguard substantial wildlife 
habitat, and cement the Upper Peninsula's reputation as a premier 
outdoor recreation destination.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting wildlife and fisheries adaptation.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Michigan, and I appreciate your consideration of 
this funding request.
            Sincerely,
                                                      Nancy Warren.
                                 ______
                                 
                Prepared Statement of the USGS Coalition
                                summary
    The USGS Coalition appreciates the opportunity to provide testimony 
about the President's budget request for the United States Geological 
Survey (USGS) for fiscal year 2012. The USGS Coalition urges the 
Congress to appropriate at least $1.2 billion for the USGS in fiscal 
year 2012.
    The USGS is uniquely positioned to address many of the Nation's 
greatest challenges. The USGS plays a crucial role in reducing risks 
from earthquakes, tsunamis, floods, landslides, wildfires, and other 
natural hazards, assessing water quality and quantity, providing 
emergency responders with geospatial data to improve homeland security, 
assessing mineral and energy resources (including rare earth elements 
and unconventional natural gas resources), and providing the science 
needed to manage our natural resources and combat invasive species that 
can threaten agriculture and public health. The USGS is working in 
every State and has nearly 400 offices across the country. To aid in 
its interdisciplinary investigations, the USGS works with more than 
2,000 Federal, State, local, tribal, and private organizations.
    The USGS budget has been reorganized to reflect the agency's new 
structure. The fiscal year 2012 budget is now organized along the six 
crosscutting themes from the USGS science strategy, Facing Tomorrow's 
Challenges--U.S. Geological Survey Science in the Decade 2007-2017 
(USGS, 2007). The budget request also includes a new National Land 
Imaging account that focuses on operation of Landsat satellites.
    The USGS Coalition is an alliance of more than 70 organizations 
united by a commitment to the continued vitality of the USGS to provide 
critical data and services. The Coalition supports increased Federal 
investment in USGS programs that underpin responsible natural resource 
stewardship, improve resilience to natural and human-induced hazards, 
and contribute to the long-term health, security, and prosperity of the 
Nation.
                   essential services for the nation
    Established by the Congress as a branch of the Department of the 
Interior in 1879, the USGS has a truly national mission that extends 
beyond the boundaries of the Nation's public lands to positively impact 
the lives of all Americans. The USGS plays a crucial role in protecting 
the public from natural hazards, assessing water quality and quantity, 
providing geospatial data, and conducting the science necessary to 
manage our Nation's living, mineral, and energy resources. Through its 
offices across the country, the USGS works with more than 2,000 
partners to provide high-quality research and data to policymakers, 
emergency responders, natural resource managers, civil and 
environmental engineers, educators, and the public. A few examples are 
provided.
    A failure to prevent natural hazards from becoming natural 
disasters will increase future expenditures for disaster response and 
recovery. Recent natural disasters provide unmistakable evidence that 
society remains vulnerable to staggering losses. The magnitude 9.0 
earthquake and tsunami that devastated Japan on March 11, 2011, the 
magnitude 7.0 earthquake that killed more than 200,000 people in Haiti 
on January 12, 2010, and the small volcanic eruptions in Iceland that 
disrupted global air traffic in April 2010, provide compelling evidence 
that the United States must have the data to inform further actions to 
reduce risks from natural hazards.
    Providing the information necessary to mitigate the impacts of 
natural hazards is a core function of the USGS. The USGS operates 
seismic networks and conducts seismic hazard analyses that are used to 
formulate earthquake probabilities and to establish building codes 
across the Nation. It monitors volcanoes and provides warnings about 
impending eruptions. Data from the USGS network of stream gages enable 
the National Weather Service to issue flood warnings. The USGS and its 
Federal partners monitor seasonal wildfires and provide maps of current 
fire locations and the potential spread of fires. Research on ecosystem 
structure and function assists forest and rangeland managers with 
forecasting fire risk and managing natural systems following fires. The 
USGS plays a pivotal role in reducing risks from floods, wildfires, 
earthquakes, tsunamis, volcanic eruptions, landslides, and other 
natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year.
    The USGS assessments of mineral and energy resources--including 
rare earth elements, unconventional natural gas resources, and 
geothermal resources--are essential for making informed decisions about 
the Nation's future. Widespread deployment of new energy technologies 
can reduce greenhouse gas emissions, mitigate climate change, and 
reduce dependence on foreign oil. Many emerging technologies depend on 
rare earth elements and other scarce elements that currently lack 
diversified sources of supply. China accounts for 95 percent of world 
production of rare earth elements although it has only 36 percent of 
identified world reserves (USGS, 2010). A renewed Federal commitment to 
innovative research, information, and education on mineral and energy 
resources is needed to address these issues.
    The USGS provides scientific information on water availability and 
quality of the United States to inform the public and decisionmakers 
about the status of freshwater resources and how they are changing over 
time. During the past 130 years, the USGS has collected streamflow data 
at more than 21,000 sites, water-level data at more than 1 million 
wells, and chemical data at more than 338,000 surface-water and 
groundwater sites. This information is needed to effectively manage 
fresh-waters, both above and below the land surface, for domestic, 
public, agricultural, commercial, industrial, recreational, and 
ecological uses.
    The USGS plays a critical role in bioinformatics and managing 
natural resources, activities that are essential to our economy, 
security, and environment. The USGS provides fundamental scientific 
data that informs management of natural resources, control of invasive 
species, and monitoring of wildlife diseases that can cause billions of 
dollars in agricultural losses. The USGS provides critical information 
for resource managers as they develop adaptive management strategies 
for restoration and long-term use of the Nation's natural resources.
                           funding shortfall
    The USGS budget has been nearly stagnant in real dollars since 1996 
(Figure 1). The USGS budget for fiscal year 2010 is lower than the USGS 
budget for fiscal year 2001 in real dollars. The decline in funding for 
the USGS during this time period would have been greater if the 
Congress had not repeatedly restored proposed budget cuts. Federal 
funding for non-Defense Research and Development has increased 
significantly while funding for the USGS stagnated for more than a 
decade.
    President Obama's fiscal year 2012 budget request for the USGS is 
$1.118 billion, a decrease of $15 million or 1.3 percent below the USGS 
budget request for fiscal year 2011. Although there is a $6 million 
increase in the total USGS budget request for fiscal year 2012 compared 
to the fiscal year 2010 enacted level, the fiscal year 2012 budget 
request contains significant cuts in many programs that are offset by 
increases in other areas, including a $48 million increase in a new 
National Land Imaging account that focuses on operation of Landsat 
satellites.
    It appears that responsibilities for Landsat satellites have been 
transferred from NASA to USGS without a corresponding transfer of 
budget authority. In the USGS budget request for fiscal year 2012, 
budget increases for national land imaging are offset by budget 
decreases for core USGS science programs. This trend cannot continue 
without compromising the mission of the USGS. Past experience indicates 
that the cost of operating Landsat is likely to rise significantly in 
future years with the launch of Landsat 8, 9, and 10.
    The USGS budget request for fiscal year 2012 includes $89.1 million 
in program reductions in valuable, long-standing programs. The proposed 
budget cuts would have significant negative impacts on core scientific 
capabilities of the USGS. Proposed budget cuts in the fiscal year 2012 
USGS budget request include:
  ---$9.8 million for biological information management and delivery;
  ---$9.6 million for mineral resources;
  ---$8.9 million for National Water Quality Assessment;
  ---$6.5 million for Water Resources Research Act Program; and
  ---$4.7 million for earthquake hazards.
    The USGS Coalition urges the Congress to appropriate at least $1.2 
billion for the USGS in fiscal year 2012, a level that will support 
critical USGS programs that improve health and safety and provide the 
basis for future jobs and economic growth.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The USGS Coalition is grateful to the Senate Interior, Environment, 
and Related Agencies Appropriations Subcommittee for its past 
leadership in strengthening the USGS.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 42 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training, and family 
services to some of the most impoverished, high-risk Indian students 
from throughout the Nation. We are governed by the five tribes located 
wholly or in part in North Dakota. We are not part of the North Dakota 
State college system and do not have a tax base or State-appropriated 
funds on which to rely. We have consistently had excellent retention 
and placement rates and are a fully accredited institution. Bureau of 
Indian Education (BIE) funds represent about one-half of our operating 
budget and provide for our core instructional programs. These funds are 
authorized under title V of the Tribally Controlled Colleges and 
Universities Act. The requests of the UTTC board for the fiscal year 
2012 BIE/Bureau of Indian Affairs (BIA) budgets are:
  --$6.4 million in BIE funding for UTTC for our Indian Self-
        Determination Act contract, which is $2 million more than the 
        fiscal year 2010 enacted level and the President's fiscal year 
        2012 request. This is our base funding.
  --One-time funding to forward fund UTTC and Navajo Technical College 
        who were inadvertently left out of the forward funding of the 
        tribal colleges in fiscal year 2010. We estimate the cost to be 
        $5 million.
  --$4.375 million toward phase I of a planned Northern Plains Indian 
        Police Academy located at UTTC. (BIA funding)
    Base Funding.--UTTC administers its BIE funding under an Indian 
Self-Determination Act agreement, and has done so for 34 years. Funds 
requested above the fiscal year 2010 level are needed to:
  --maintain 100-year-old education buildings and 50-year-old housing 
        stock for students;
  --upgrade technology capabilities;
  --provide adequate salaries for faculty and staff (who have not 
        received a cost of living increase for the past 2 years and who 
        are in the bottom quartile of salary for comparable positions 
        elsewhere); and
  --fund program and curriculum improvements, including at least three 
        4-year degree programs.
    Acquisition of additional base funding is critical as UTTC has more 
than tripled its number of students within the past 8 years while 
actual base funding for educational services, including Carl Perkins 
Act funding, have not increased commensurately (increased from $6 
million to $8 million for the two programs combined). Our BIE funding 
provides a base level of support while allowing the college to compete 
for desperately needed discretionary contracts and grants leading to 
additional resources annually for the college's programs and support 
services.
    Forward Funding.--There was a glitch in the fiscal year 2010 
appropriations process which resulted in UTTC (and Navajo Technical 
College (NTC)) not receiving BIE forward funding. There is authority 
for forward funding for tribal colleges under the Tribally Controlled 
Colleges and Universities Act, 25 U.S.C. 1810(b)(1) and (2). This 
authority applies to all colleges funded under that act, including UTTC 
and NTC. When the administration requested $50 million for forward 
funding its fiscal year 2010 budget, they asked for it under the line 
item of ``tribally controlled colleges and universities''--that line 
item includes 26 tribally controlled colleges. However, UTTC and NTC 
are funded under a different line item which is ``tribal technical 
colleges'' and thus when the Congress provided the requested $50 
million for forward funding, UTTC and NTC were left out of the picture.
    Forward funding requires a one-time extra appropriation of three-
quarters of a year's funding; hence, we are requesting, in addition to 
our regular fiscal year 2012 appropriation, $3,330,750 in the fiscal 
year 2012 appropriations bill to forward fund UTTC. (75 percent of 
$4,441,000, the fiscal year 2010 BIE appropriation for UTTC, is 
$3,330,750). The total BIE fiscal year 2010 appropriation for ``tribal 
technical colleges'' was $6,669,000 ($4,4441,000 for UTTC and 
$2,228,000 for NTC). To forward fund both institutions would require 
$5,001,750 in addition to the regular fiscal year 2012 appropriation.
    Northern Plains Indian Law Enforcement Academy.--We have been 
working toward the establishment of a police training academy on our 
campus. We have done this with the encouragement of our congressional 
delegation and tribes, especially those in the Northern Plains. Toward 
that end we signed a Memorandum of Understanding in 2008 with the BIA 
and the American Indian Higher Education Consortium to provide 
supplemental in-service training to BIA and tribal police officers as 
maybe agreed upon by the BIA.
    In fiscal year 2010, $250,000 was appropriated to the BIA and 
designated as special initiative of the Indian Police Academy (IPA) in 
New Mexico to work with UTTC on law enforcement training matters. This 
is just the beginning of what is really needed. The only Indian police 
academy now is in Artesia, New Mexico which, while doing excellent 
work, can train only three classes of 50 persons annually. The BIA 
estimates that tribal police officers are staffed at only 58 percent of 
need, indicating that the need for police officers in Indian country is 
far greater than can be supplied just by the IPA in Artesia. To satisfy 
that need, the BIA needs to establish a full-fledged law enforcement 
academy in the Northern Plains. An academy at UTTC would allow tribal 
people in the Plains areas a more affordable choice of training 
locations, minimizing the distance and long separation of trainees from 
their families. Our campus has many built-in services and resources to 
meet the needs of trainees.
    Our request of $4.375 million is for phase I of the police academy 
facility, which will include the basic building for instruction of 
35,000 square feet, enough to train up to 165 law enforcement officers 
per year. We have entered into discussions with Federal, local, and 
State officials to ensure the facility and the training we offer will 
meet all requisite standards, and to coordinate what portion of the 
facility should be placed at UTTC and which portions may be placed 
elsewhere, in order to share the cost.
    Fourteen more things we want you to know about UTTC: We have:
  --A dedication to providing an educational setting that is geared to 
        the full range of student needs, thus enhancing chances for 
        success--educational, cultural, necessary life skills.
  --Services including campus security, a Child Development Center, 
        family literacy program, wellness center, area transportation, 
        K-8 elementary school, tutoring, counseling, and family and 
        single student housing.
  --A semester completion rate of 80-90 percent.
  --A graduate placement rate of 94 percent (placement into jobs and 
        higher education).
  --A projected return on Federal investment of 20-1 (2005 study).
  --Unrestricted accreditation from the North Central Association of 
        Colleges and Schools.
  --More than 30 percent of our graduates move on to 4-year or advanced 
        degree institutions.
  --A student body representing 87 tribes who come mostly from high-
        poverty, high-unemployment tribal nations in the Great Plains; 
        many students have children or dependents.
  --81 percent of undergraduate students receive Pell Grants, the 
        highest percentage of Pell Grant recipients of any North Dakota 
        college.
  --21, 2-year degree programs, 8, 1-year certificates and 3 bachelor 
        degree programs pending final accreditation this spring.
  --An expanding curricula to meet job-training needs for growing 
        fields including law enforcement, energy auditing, and health 
        information management. We have also broadened our online 
        program offerings.
  --A critical role in the regional economy. Our presence brings $31.8 
        million annually to the economy of the Bismarck region.
  --A workforce of more than 300 people.
  --An award-winning annual powwow which last year had participants 
        from 70+ tribes, featuring more than 1,500 dancers and 
        drummers, and drawing more than 20,000 spectators. We annually 
        feature indigenous dance groups from other countries.
    The Duplication or Overlapping Issue.--The Government 
Accountability Office in March of this year issued two reports 
regarding Federal programs which may have similar or overlapping 
services or objectives (GAO-11-474R and GAO-11-318SP). Funding from the 
BIE and the Department of Education's Carl Perkins Act for Tribally 
Controlled Postsecondary Career and Technical Education were among the 
programs listed in the reports. The full GAO report did not recommend 
defunding these programs; rather, consolidation of these programs was 
recommended to save administrative costs. We are not in disagreement 
about possible consolidation of our funding sources, so long as program 
funds are not cut.
    BIE funds represent about 54 percent of UTTC's core operating 
budget. The Perkins funds supplement, but do not duplicate, the BIE 
funds. It takes both sources of funding to frugally maintain the 
institution. In fact, even these combined sources do not provide the 
resources necessary to operate and maintain the college. Therefore, 
UTTC actively seeks alternative funding to assist with academic 
programming, deferred maintenance of its physical plant and scholarship 
assistance, among other things.
    Second, as mentioned, UTTC and other tribally chartered colleges 
are not part of State educational systems and do not receive State-
appropriated general operational funds for their Indian students. The 
need for postsecondary career and technical education in Indian country 
is so great and the funding so small, that there is little chance for 
duplicative funding.
    There are only two institutions targeting American Indian/Alaska 
Native career and technical education and training at the postsecondary 
level-UTTC and NTC. Combined, these institutions received less than $15 
million in fiscal year 2010 Federal funds ($8 million from Perkins; $7 
million from the BIE). That is not an excessive amount of money for two 
campus-based institutions who offer a broad (and expanding) array of 
programs geared toward the educational and cultural needs of their 
students and toward job-producing skills.
    UTTC offers services that are catered to the needs of our students, 
many of whom are first-generation college attendees and many of whom 
come to us needing remedial education. We also provide services for the 
children and dependents of our students. Although BIE and section 117 
funds do not pay for remedial education services, UTTC must make this 
investment with our student population through other sources of funding 
to ensure they succeed at the postsecondary level.
    Federal funding for American Indian/Alaska Native employment and 
training is barely 1 percent of the annual Federal employment and 
training budget but has an enormous impact on the people and 
communities it serves.
    Our BIE and Department of Education Perkins funds provide for 
nearly all of our core postsecondary educational programs. Very little 
of the other funds we receive may be used for core career and technical 
educational programs; they are competitive, often one-time supplemental 
funds which help us provide the services our students need to be 
successful. We cannot continue operating without these funds. Thank you 
for your consideration of our requests.
                                 ______
                                 
        Prepared Statement of the Wildlife Conservation Society
    Chairman Reed, Ranking Member Murkowski, members of the 
subcommittee: Thank you for the opportunity to submit testimony on 
fiscal year 2012 Interior, environment and related agencies 
appropriations act. My name is John F. Calvelli, Executive Vice 
President of Public Affairs with the Wildlife Conservation Society 
(WCS), which was founded with the help of Theodore Roosevelt in 1895 
with the mission of saving wildlife and wild places worldwide. Today, 
the WCS manages the largest network of urban wildlife parks in the 
United States led by our flagship the Bronx Zoo. The WCS fieldwork 
helps address threats to more than 25 percent of Earth's biodiversity 
in 60 countries around the world, employing more than 4,000 full-time 
staff including 170 Ph.D. scientists and 100 veterinarians. Our 
domestic facilities generate $414 million in economic activity 
annually, according to a 2008 study.
    At the outset, I recognize the subcommittee's responsibility in 
addressing the Nation's current fiscal climate while balancing 
priorities embedded in the American tradition of conservation. The 
pressures on our planet are mounting and conservation is a major 
antidote to unsustainable pressures on natural resources. The 
Department of the Interior (DOI) reports that in 2008 more than 400 
million people visited national parks, refuges and public lands, 
generating more than 300,000 jobs and $25 billion in economic activity. 
Additionally, revenues generated by the DOI continue to exceed its 
annual appropriation. In fiscal year 2012, DOI projects revenues from 
nature-based activities at approximately $14.1 billion, in contrast to 
the administration's fiscal year 2012 budget request for the entire 
department of $12.2 billion. On a global level, by supporting 
conservation, the United States is making a direct contribution to our 
national security. For example, in Afghanistan and Pakistan, where the 
WCS is the only United States-based conservation organization at work, 
environmental degradation, including desertification from unsustainable 
land use, erosion caused by deforestation, and water contamination, 
have devastated the region's inhabitants. In March 2009, President 
Obama's strategic review of Afghanistan identified ``sustainable 
economic development'' and ``restor[ing] Afghanistan's once vibrant 
agriculture sector'' as major ingredients in American's overall effort 
to sap the strength of the insurgency. Reversing the environmental 
trends is a key component to achieving those goals. Investments in 
foreign assistance particularly in conservation activities comprise a 
small piece of the Federal budget. Yet, this funding has a tremendous 
impact helping to reduce conflict around scarce resources and 
preventing costly military interventions. As communities and countries 
stabilize and grow more prosperous, they become potential trade 
partners for U.S. goods. In fact, 11 of the 15 largest importers of 
American goods are past recipients of U.S. foreign assistance. This 
testimony will highlight both domestic and international programs at 
DOI and the Department of Agriculture (USDA) that are shaping the 
future of conservation.
              department of the interior-wide initiatives
    America's Great Outdoors (AGO).--The WCS is pleased with the 
administration's agenda to protect and effectively manage our natural 
areas by encouraging American citizens, community groups, and all 
levels of government to share a leadership role in preserving our 
natural heritage. The WCS supports the AGO Initiative's emphasis on 
landscape-scale conservation promoting landscape connectivity and the 
protection of wildlife corridors. This connectivity is particularly 
important for some of the wide-ranging species that are conservation 
priorities for the WCS, such as the wolverine, Pronghorn antelope, and 
grizzly bear. Fully-funding the Land and Water Conservation Fund 
(LWCF), as the fiscal year 2012 President's budget requests, would also 
invest in Federal and State land acquisition that could help protect 
these critical wildlife corridors. The WCS applauds the DOI's goal of 
encouraging youth to connect with nature as a key component of the AGO 
Initiative. The Youth in Natural Resources Initiative includes a $2 
million increase in funding for the National Fish and Wildlife 
Foundation to, in part, foster youth education programs in classrooms 
through public-private partnerships with non-governmental organizations 
and others with a focus on preserving and protecting priority species 
and their habitats. According to the DOI, Federal funding will leverage 
at least an equal amount of private contributions, with a historical 
ratio of 2 to 1, or more.
                    bureau of land management (blm)
    Eco-regional Assessments.--As energy development, urban growth, and 
climate change continue to negatively impact wildlife and their 
habitat, a landscape-scale conservation strategy is needed. 
Unfortunately, BLM land-use policies historically have been driven by 
local considerations with decisions made at the field office level. The 
WCS is keenly interested in the BLM's planned efforts to assess the 
regional impacts on wildlife in high-priority energy development areas 
such as the National Petroleum Reserve-Alaska (NPR-A) and along the 
Path of the Pronghorn in Wyoming. The WCS has a long history of working 
to ensure a balance of both wildlife protection for migratory birds, 
caribou, and musk oxen in key areas of the NPR-A. Our goal is to help 
the oil and gas industry minimize potential impacts to wildlife as they 
begin to pursue development in Arctic Alaska. The WCS recommends a 
permanent prohibition on leasing in the ``Special Areas'' of Teshekpuk 
Lake, Utukok River Uplands, and the Colville River. At the same time, 
Special Areas should remain open for managed subsistence hunting by 
Native Alaskans. The WCS conservationists also seek to address 
disturbances to wildlife migration patterns, such as the Path of the 
Pronghorn, as energy development degrades and fragments wintering 
habitat across the Upper Green River Valley in western Wyoming. 
Proactive and strategic regional assessments by the BLM are critical to 
supporting the agency in properly managing these ecosystems. Through 
the Healthy Landscapes Program, these assessments will improve 
understanding of the existing condition of BLM landscapes at a broader 
level. The WCS believes this is an important strategy to address major 
stressors on wildlife and recommends continued significant funding for 
landscape-scale habitat conservation through the Healthy Landscapes 
Initiative. The WCS is also encouraged by the new Wild Lands Policy, 
which aims to ensure that all BLM lands with wilderness characteristics 
have been accurately inventoried. Additionally, the WCS appreciates the 
opportunity to weigh in with other public stakeholders on the 
designation of Wild Lands.
                  u.s. fish and wildlife service (fws)
    FWS State and Tribal Wildlife Grants (SWG) Program.--The State and 
Tribal Wildlife Grants program gives States and tribes funding to 
develop and implement comprehensive conservation plans to protect 
declining wildlife and habitats before protection under the Endangered 
Species Act is necessary. This important program is supported by more 
than 6,200 organizations that have formed a national bipartisan 
coalition called Teaming with Wildlife of which the WCS is a steering 
committee member. The WCS recommends that the Congress at least 
maintain funding at $95 million in fiscal year 2012 for SWGs to 
implement State Wildlife Action Plans. In helping to leverage these 
funds, the WCS continues its highly successful Climate Adaptation Fund 
grants program with support from the Doris Duke Charitable Foundation. 
The Fund provides grants to nonprofit conservation organizations and 
State wildlife agencies working to ensure the ability of wildlife to 
adapt to a changing climate through applied, on-the-ground projects 
that demonstrate effective conservation actions. Since 2006, this WCS-
administered fund has awarded 81 grants for $7.2 million to a wide 
variety of stakeholder groups that impact wildlife conservation in 46 
States, including funding the State of Idaho's work to protect wildlife 
corridors. The WCS is doing its part to leverage Federal funding for 
this program by providing private funding opportunities. At the same 
time, a greater need remains. In addition to the domestic investments 
by DOI, the WCS supports the department's international programs that 
have a broad global impact. The remainder of my testimony will focus on 
international investments at DOI and USDA.
    Multinational Species Conservation Fund (MSCF).--The United States 
has a legacy of leading international wildlife conservation efforts and 
the MSCF Program exemplifies this by being the only dedicated source 
for global species conservation by any Government donor. The MSCF has 
been catalytic in paving the way for long-term investments in a 
particular landscape. It contributed to the discovery of more than 1.2 
million animals in Southern Sudan, including 8,000 African elephants. 
This discovery has triggered the creation of Boma National Park in the 
world's youngest nation--one that has survived human conflict and 
decades of war. The MSCF has made similar investments throughout its 
existence since 1990. The world celebrated the Year of the Tiger in 
2010 while the remaining 3,000 wild tigers continued to battle dire 
circumstances. The Rhino-Tiger Fund is trying to reverse the decline of 
the tiger that is threatened by loss of prey, habitat loss, climate 
change, poaching for the illegal trade in tiger parts, and disease. The 
FWS is doing its part in showcasing the United States as a leader in 
tiger conservation as evidenced at the International Tiger Summit in 
St. Petersburg, Russia, which was the first-ever Heads of State summit 
dedicated to a single species. This signals strong commitment from the 
international community to saving the last remaining iconic species, an 
aspect exemplified by the MSCF Program which has had a history of 
making strategic investments. From 2005-2009, a little more than $45 
million in grants for rhinos, tigers, elephants, great apes, and 
turtles to 256 national and international groups leveraged more than 
$75 million in additional support. As for doing our part, the WCS's 
Bronx Zoo Congo Gorilla Forest exhibit, which opened in 1999, has 
attracted visitors to allocate a portion of their admission fee--a 
total of more than $10.6 million--directly to field conservation 
projects in Central Africa's Congo Basin. The WCS remains committed to 
find similar ways to support this U.S. Government investment despite 
times of financial crisis. We support the fiscal year 2010 enacted 
levels ($11.5 million) for this program in fiscal year 2012 while 
seeking an additional $1 million to address the plight of tigers.
    Wildlife Without Borders (WWB) Global and Regional Programs.--The 
FWS administered WWB Programs are a great investment in addressing 
cross-cutting threats to ecosystems and wildlife such as disease 
outbreaks in amphibians, providing solutions to protein-source crisis 
for food-scarce rural communities through addressing bushmeat issues, 
etc. WWB is making lasting impacts through capacity building, technical 
support and training, local community education, and citizen science. 
From 2005-2009, the WWB program across Africa, Latin America, the 
Caribbean and the Russian Far East awarded more than $12 million and 
leveraged an additional $22 million in direct conservation assistance. 
In recent years, this program has established a Critically Endangered 
Species Conservation Fund, which has begun investing in modest level 
support to the most dire species in need such as Andean cats and 
Ethiopian wolves. Other noteworthy efforts supported by this program 
include the Bushmeat-free Eastern Africa Network (BEAN) and MENTOR 
Fellowship Program which has supported wildlife professionals from 
Eastern African nations to gain skills to address conservation 
challenges such as bushmeat. The WCS recommends that the overall 
funding for the WWB Global and Regional Programs receive $8.4 million 
in fiscal year 2012.
           u.s. forest service, international program (fsip)
    The Forest Service International Program (FSIP) is an essential 
U.S. agency in combating the flow of illegal timber into the global 
marketplace. Illegal logging impacts to several U.S. forestry 
industries translates to approximately $1 billion in losses annually as 
American business are undersold by the cheaper illegal supply. Not only 
is illegal logging damaging to the environment, but it is also 
undercutting the U.S. forest products industry. Legally and sustainably 
harvested U.S. timber cannot compete with cheap illegal wood, and it is 
costing American jobs. The FSIP is one of the most important entities 
representing the U.S. forest products industry in international trade 
agreements, and its unmatched expertise is required by the Department 
of State and the U.S. Trade Representatives. Besides being uniquely 
positioned to promote forest conservation around the globe by drawing 
on the agency's diverse workforce of scientists, resource managers, 
international specialists and conservation biologists, the FSIP has 
increasingly leveraged modest funding from the Congress to make a big 
impact for the U.S. taxpayer. For every Federal $1 invested in the 
FSIP, an additional $4 are leveraged in matching funds and other 
contributions from partners. In recent years, the FSIP has helped 
researchers in the Russian Far East to monitor the populations of Amur 
leopards and Siberian tigers by ensuring a healthy and abundant prey 
base or food source for the big cats. The fiscal year 2012 President's 
budget request eliminates the line-item for this vital program. 
Restoring support for this program at a minimum at fiscal year 2010 
enacted levels of $9.8 million is needed to sustain and enhance these 
important activities.
        u.s. national park service (nps), international program
    In 1961, the U.S. Government initiated its first international 
conservation program with the creation of the Office of International 
Affairs (OIA). Since then, this office has facilitated technical 
assistance and exchange projects with counterpart agencies globally 
building on the legacy of American leadership in national parks 
management. Thanks to this program, the NPS is working on collaborative 
areas of trans-frontier concern, including at the Beringia Shared 
Heritage Initiative (United States-Russia), and Big Bend/Rio-Bravo 
(United States-Mexico). The international work conducted by the NPS is 
not only about helping other countries protect their parks and 
heritage. It is about bringing home best practices and learning from 
international engagement that could benefit the American national park 
system. The WCS recommends $1 million for this office in fiscal year 
2012 and encourages a strategic conversation with stakeholders that 
would draw on common objectives of parks and protected area management 
particularly in trans-frontier collaborative initiatives.
    In conclusion, I appreciate the opportunity to share the WCS's 
perspectives and make a case for increased investment in conservation 
in the fiscal year 2012 Interior, environment, and related agencies 
appropriations act. Conservation of public lands is an American 
tradition and, as far back as 1909, Theodore Roosevelt recognized that 
the management of our natural resources requires coordination between 
all nations. Continued investment in conservation will improve our 
economic and national security while reaffirming our global position as 
a conservation leader. Thank you.
                                 ______
                                 
   Prepared Statement of the Washington Wildlife Recreation Coalition
    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2012 
Interior, environment, and related agencies appropriations bill. In an 
historic embrace of conservation, the President's budget request 
includes full funding of the LWCF in fiscal year 2012. The proposed 
$900 million is the congressionally authorized amount for the program 
and seeks to renew focus on the promise of the LWCF: that it is right 
and wise to reinvest proceeds from offshore drilling receipts in the 
protection of natural resources and recreational access for all 
Americans.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the LWCF will 
permanently pay dividends to the American people and to our great 
natural and historical heritage. As the LWCF is funded from Outer 
Continental Shelf revenues, not taxpayer dollars, these funds should go 
to their intended and authorized use.
    As part of the full commitment to the LWCF in fiscal year 2012, the 
administration included nine project funding requests for the 
protection of land across the State of Washington in the President's 
budget. I am pleased this funding was included in the President's 
budget and urge the Congress to provide the full amount requested so 
that these important projects in Washington State will receive their 
share of funding.
    Washington is fortunate to have outstanding public lands supporting 
its conservation and recreation heritage. From most high points in 
Seattle a resident or visitor is beckoned by the sight of the snow 
covered peak to the south sometimes hovering in the sky through the 
haze of the afternoon. Mount Rainier is one of our State's great 
symbols and has been protected in a national park since 1899. Across 
Puget Sound, a major water and economic resource of its own, the same 
viewer can see the jagged outlines of the Olympic Mountains, 
particularly stunning as the sunsets turn the mountains purple and the 
sky into layers of orange. The long line of the Cascades from the 
Canadian border to the Columbia River Gorge is protected in four 
national forests and is accessible via the Pacific Crest National 
Scenic Trail. Along not only Puget Sound, the Pacific Coast, and the 
Columbia River, but also the hills and open lands of eastern Washington 
lie exceptional habitats protected within national wildlife refuges for 
a diversity of species.
    These parks, forests, refuges, and trails are generators for 
Washington's economy. The Outdoor Industry Foundation (OIF) estimates 
that outdoor recreation throughout the State contributes $11.7 billion 
annually to Washington's economy. This activity supports 115,000 jobs 
and produces $8.5 billion annually in retail sales and services--3.5 
percent of the gross State product. The OIF found that 44 percent of 
Washingtonians view wildlife, 39 percent use trails, 36 percent camp, 
and 32 percent ride bicycles for recreational purposes.
    In addition to fueling these economic engines for Washington's 
gateway communities, the LWCF improves the management of the public 
lands in our State. These measures make for better recreational 
experiences on the land, sustain habitats for wildlife, and ensure 
quality water supplies. They also reduce costs in fighting fires, 
controlling invasive species, and maintaining property boundaries. The 
LWCF accomplishes these management improvements largely because most of 
the funds go towards the acquisition of inholdings, private lands 
bordered on two, three, or four sides by existing public lands.
    Washington has two excellent examples of the LWCF purchases 
reducing costs and improving public land experiences. First, in 2004, 
the Congress passed a law to expand the boundaries at the northwestern 
entrance of Mount Rainier National Park. For many years flooding would 
wipe away parts of the Carbon River Road and make the trailheads, 
campsites, and other visitor facilities inaccessible. The expansion and 
subsequent purchase of land via LWCF funding has allowed the National 
Park Service (NPS) to begin the process of moving facilities to higher 
ground, removing the future costs and burdens from frequent floods. 
Second, in the central Cascades, much of the land ownership pattern 
resembles a checkerboard. Public lands are interspersed with private 
lands. For many years the LWCF funds have been used by the Forest 
Service (USFS) to acquire priority checkerboard properties that 
increase recreational access, improve segments of the Pacific Crest 
Trail, and safeguard consolidated blocks of prime mountain and forest 
wildlife habitat and river watersheds that supply population centers 
like Seattle and Tacoma.
    Within the fiscal year 2012 President's budget, there are requests 
for the LWCF funds at three Fish and Wildlife Service (FWS) refuges, 
two NPS units, and four USFS sites in Washington:
                                  fws
    Nisqually National Wildlife Refuge ($1.5 Million).--These funds 
would be used to acquire lands at the Black River Unit and along the 
Nisqually River Delta into Puget Sound in order to consolidate 
holdings, preserve wintering habitat for migratory birds, and protect 
wetlands habitat for fisheries.
    Willapa National Wildlife Refuge ($500,000).--The proposed 
properties are surrounded by refuge lands and would protect upland 
forests and wetlands for migratory and shorebirds.
    Turnbull National Wildlife Refuge ($500,000).--The acquisition 
protects water sources, wetlands, and wildlife habitat from the growing 
pressures of development from nearby Spokane and Cheney.
                                  nps
    Ebey's Landing National Historic Reserve ($1.5 Million).--The 
preserve protects a portion of Whidbey Island in Puget Sound that has 
an historic land use pattern of prairie and farming largely unchanged 
since settlement in the 1850s.
    Olympic National Park ($3.551 Million).--Funds would be used to 
acquire a tract adjacent to Grandy Creek, an important fish-bearing 
tributary stream to Lake Quinault threatened by enhanced development.
                                  usfs
    Washington Cascades Ecosystem ($1.5 Million).--The request 
continues the acquisition of checkerboard forest ownerships that 
prevent further habitat fragmentation, ensures access, and protects 
water supplies.
    Columbia River Gorge National Scenic Area ($1.23 Million).--Funds 
are for acquisitions in Washington and Oregon to protect tracts as the 
unit celebrates the 25th anniversary of its creation in 2011.
    Pacific Crest National Scenic Trail ($2.939 Million).--The 
multistate request for the trail includes checkerboard parcels in the 
central Cascades that would improve trail stewardship and access.
    Pacific Northwest Streams ($2.265 Million).--This USFS program 
acquires key riparian tracts in Washington and Oregon to protect waning 
populations of anadromous fish, including salmon.
    We support these requests for the LWCF funds to acquire critical 
tracts in the parks, refuges, and forests of Washington.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of these nationally important 
protection efforts in Washington, and I appreciate your consideration 
of these funding requests.
                                 ______
                                 
      Prepared Statement of the Yukon-Kuskokwim Health Corporation
    My name is Gene Peltola and I write on behalf of the Yukon-
Kuskokwim Health Corporation (YKHC) to strongly endorse testimony 
submitted to the subcommittee by the National Tribal Contract Support 
Cost Coalition. As the Coalition's testimony notes, it is absolutely 
imperative that in fiscal year 2012 the Indian Health Service (IHS) 
finally meet its legal obligation to pay in full the contract support 
costs which it owes under our self-governance compact and annual 
funding agreement, as well as the amounts owed to all other tribes and 
tribal organizations carrying out contracts with the IHS. According to 
the IHS, in fiscal year 2012 this will require an appropriation of $615 
million, an increase of $153 million more than the President's budget 
request.
    The YKHC last year suffered a nearly $4 million shortfall in the 
contract support costs which the IHS owed us under our self-governance 
compact and funding agreement, and we will experience the same 
shortfall this year. This is an enormous financial penalty, 
particularly when you consider that the YKHC contracts with the Federal 
Government to administer Federal healthcare services to 58 federally 
recognized tribes located across a roadless area covering 75,000 square 
miles, nearly the size of Idaho and almost twice the size of Virginia. 
Cutting almost $4 million out of our direct care budget every year in 
order to cover the fixed costs which, by law and by contract, the IHS 
is obligated to pay, causes untold hardship for our tribal communities 
struggling with some of the most severe healthcare conditions in the 
United States.
    While we appreciate that there are many priorities competing for 
the Congress's attention, we do not think it is too much to ask that 
the Government honor a contract that we at the YKHC have honorably 
carried out in full, year in and year out, and with far greater results 
and standards of excellence than were ever present when the healthcare 
system in our area was operated by the IHS.
    The YKHC therefore strongly supports the testimony submitted to the 
subcommittee by the National Tribal Contract Support Cost Coalition.

</pre></body></html>
